No. __________

In the Supreme Court of the United States
Wendy Alison Nora,
Petitioner
v.
Office of Lawyer Regulation,
Respondent

APPENDICES TO
PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF WISCONSIN
_____________________________________________________
Wendy Alison Nora, Petitioner, and
a member of the bar of this Court
ACCESS LEGAL SERVICES, LLC
310 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 333-4144
FAX: (612) 206-3170
Email: accesslegalservices@gmail.com

No. __________

In the Supreme Court of the United States
Wendy Alison Nora,
Petitioner
v.
Office of Lawyer Regulation,
Respondent

INDEX OF APPENDICES TO
PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF WISCONSIN
_____________________________________________________
APPENDIX A:1 July 14, 2020 Opinion and Order of the
Wisconsin Supreme Court...........................................................1a-53a
APPENDIX B:2: October 21, 2020 Order Denying
Reconsideration...............................................................................54a
APPENDIX C: Referee’s Finding of Fact, Conclusions of Law and
Recommendation......................................................................55a-127a
APPENDIX D: November 30, 2015 Complaint..............................................128a-151a
APPENDIX E: December 22, 2015 Motion to Dismiss and Alternative
Motion for Probable Cause Hearing......................................152a-238a
APPENDIX F: January 5, 2016 Motion for Sanctions..................................239a-266a
APPENDIX G: January 19, 2016 First Amended Complaint.......................267a-290a

1

Appendices A & B are combined into a single document and stapled
together.
2

Id.
1

APPENDIX H: April 14, 2016 Reply on Motion to Dismiss and
Alternative Motion for Probable Cause Hearing..................291a-303a
APPENDIX I: April 26, 2016 Order Denying Motions..................................304a-312a
APPENDIX J: May 16, 2016 Answer and Continuing Objection to
Proceedings without Probable Cause.....................................313a-390a
APPENDIX K: August 16, 2016 Order on Motions.......................................391a-397a
APPENDIX L: August 17, 2016 Motions Including for Relief from
Scheduling Order...................................................................398a-403a
APPENDIX M: August 18, 2016 Second Amended Complaint.....................404a-427a
APPENDIX N: September 7, 2016 Answer....................................................428a-556a
APPENDIX O: September 20, 2016 Order Denying Motions
Including Motion for Relief from Scheduling Order.............557a-563a
APPENDIX P: May 15, 2017 OLR’s Post-Hearing Brief with
Allegations of New Facts........................................................564a-630a
APPENDIX Q: February 23, 2018 Nora’s Post-Hearing Brief with
Answer to Allegations of New Facts.....................................631a-772a
APPENDIX R: Excerpt of March 27, 2017 Hearing discussing Wells
Fargo Home Mortgage Attorneys Foreclosure Manual........773a-788a
APPENDIX S: March 27, 2017 Hearing Exhibit 528
Offer of Proof (offered and not admitted)..............................789a-943a

2

1a

APPENDIX A

2a

2020 WI 70

SUPREME COURT

WISCONSIN

OF

CASE NO.:

2015AP2442-D

COMPLETE TITLE:

In the Matter of Disciplinary Proceedings
Against Wendy Alison Nora, Attorney at Law:
Office of Lawyer Regulation,
Complainant-Cross-AppellantRespondent,
v.
Wendy Alison Nora,
Respondent-Appellant-Cross-Respondent.
DISCIPLINARY PROCEEDINGS AGAINST NORA

OPINION FILED:
SUBMITTED ON BRIEFS:
ORAL ARGUMENT:

July 14, 2020
October 28, 2019

SOURCE OF APPEAL:
COURT:
COUNTY:
JUDGE:
JUSTICES:

Per Curiam.
NOT PARTICIPATING:

ATTORNEYS:

For

the

respondent-appellant-cross-respondent,

there

were

briefs filed by Wendy Alison Nora and Access Legal Services,
Minneapolis,

Minnesota.

There

was

an

oral

argument

by

Wendy

Alison Nora.
For the complainant-respondent-cross-appellant, there were
briefs

filed

Regulation,

by

Paul

Madison.

Schwarzenbart.

W.
There

Schwarzenbart
was

an

oral

and

Office

argument

of
by

Lawyer
Paul

W.

3a

2020 WI 70
NOTICE
This opinion is subject to further
editing and modification.
The final
version will appear in the bound
volume of the official reports.

No.

2015AP2442-D

STATE OF WISCONSIN

:

IN SUPREME COURT

In the Matter of Disciplinary Proceedings
Against Wendy Alison Nora, Attorney at Law:
Office of Lawyer Regulation,

FILED

Complainant-Cross-Appellant-Respondent,

JUL 14, 2020

v.
Sheila T. Reiff
Clerk of Supreme Court

Wendy Alison Nora,
Respondent-Appellant-Cross-Respondent.

ATTORNEY

disciplinary

proceeding.

Attorney's

license

suspended.

¶1

PER CURIAM.

Attorney Wendy Alison Nora appeals from

various interlocutory orders and a final report issued by the
referee, Attorney James Winiarski.

Attorney Nora challenges the

conduct of the proceeding by the Office of Lawyer Regulation
(OLR) and Referee Winiarski, as well as the referee's findings
of

fact

and

his

legal

conclusions

that

she

engaged

in

professional misconduct as alleged in Counts 2, 3, and 5 of the
OLR's

second

amended

complaint.

She

also

challenges

his

4a

No.

2015AP2442-D

recommendation that this court should suspend her license to
practice law in Wisconsin for a period of two years.
¶2

The OLR has filed a cross-appeal from the referee's

legal conclusions that Counts 1 and 4 of its second amended
complaint should be dismissed on due process grounds because
those

counts

failed

to

specify

which

subsections

of

Supreme

Court Rule (SCR) 20:3.1(a) Attorney Nora's conduct had violated.
¶3

We

conclude

reject

that

the

Attorney
OLR

Nora's

proved

arguments

violations

of

on

appeal

the

and

Rules

of

Professional Conduct for Attorneys on all five counts of the
second amended complaint.

We do not agree with the referee's

conclusion

and

4

we

determine

process

that

grounds

Counts

1

because

should

be

dismissed

that

on

Attorney

due
Nora

forfeited any due process notice challenge by not raising it
before the referee.

Had she raised the issue in a timely manner

before the referee, the OLR could have amended its complaint to
more fully specify the subsections at issue.

Moreover, the

OLR's complaints did specify the particular actions by her that
constituted violations of the rule.

Attorney Nora had notice of

the allegations against her.
¶4

We

further

conclude

that

the

appropriate

level

of

discipline to impose upon Attorney Nora for her professional
misconduct is a further two-year suspension of her license to

2

5a

No.

practice law in this state.1

2015AP2442-D

Given the nature of her misconduct

at issue in this proceeding, we do not require her to pay any
restitution.
seeks

the

We do, however, require that
reinstatement

of

her

license,

if Attorney Nora
her

reinstatement

petition must allege that she has made a good faith effort to
pay all outstanding amounts that she personally owes as a result
of sanction orders imposed by any court, and she must prove that
good faith effort as one of the conditions of reinstatement.
¶5

Because the OLR has requested that we not impose the

costs of this proceeding on Attorney Nora, we do not impose any
costs.
¶6

Attorney Nora was admitted to the practice of law in

this state in June 1975.

She was also licensed to practice law

in the state of Minnesota in 1985.
law

under

the

name

Access

She most recently practiced

Legal

Services

in

Minneapolis,

of

professional

Minnesota.
¶7

Attorney

Nora

has

been

the

subject

discipline in this state on two prior occasions.
court

suspended

Attorney

Nora's

license

to

In 1993 this

practice

law

in

Wisconsin for 30 days, as discipline reciprocal to that imposed
by

the

Supreme

Court

of

Minnesota.

In

re

Disciplinary

Attorney Nora's license to practice law in Wisconsin is
currently suspended as discipline for professional misconduct in
a previous disciplinary proceeding.
In re Disciplinary
Proceedings Against Nora, 2018 WI 23, 380 Wis. 2d 311, 909
N.W.2d 155 (Nora II).
Attorney Nora's license is also
administratively suspended due to her failure to pay mandatory
bar dues and her failure to file a trust account certification.
1

3

6a

No.

2015AP2442-D

Proceedings Against Nora, 173 Wis. 2d 660, 495 N.W.2d 99 (1993)
(Nora

I).

The

misconduct

that

resulted

in

that

suspension

involved making misrepresentations concerning the reopening and
capitalization of a bank, failing to adequately investigate the
person

who

was

to

provide

capital

to

the

bank,

improperly

authorizing the issuance of cashier checks by the bank, bringing
a frivolous claim against a bank, transferring assets of her
Minnesota law partnership in an attempt to insulate those assets
from

collection,

bringing

litigation

primarily

as

a

delay

tactic, and asserting a legal theory not justified by existing
law.

Nora I, 173 Wis. 2d at 660-61; see also In re Disciplinary

Action Against Nora, 450 N.W.2d 328 (Minn. 1990).
¶8
to

In 2018 this court suspended Attorney Nora's license

practice

law

in

this

effective April 30, 2018.

state

for

a

period

of

one

year,

Nora II, 380 Wis. 2d 311, ¶42.

In

that case this court determined that the OLR had proven four
counts of professional misconduct arising out of her actions in
defending a foreclosure action against her own property and in
bringing three federal civil actions against the state court
judge presiding over the foreclosure action and against opposing
counsel in the foreclosure action.
concluded

that

Attorney

Nora

had

Specifically, this court
made

a

false

statement

of

material fact to a tribunal, in violation of SCR 20:3.3(a)(1).
Id., ¶27.

We also determined that in each of the three federal

actions, Attorney Nora had knowingly advanced claims that lacked
a valid legal basis and had pursued the claims merely to harass

4

7a

No.

or maliciously injure another.

2015AP2442-D

Id., ¶¶29 and 30 (finding three

violations of SCR 20:3.1(a)).

PROCEDURAL HISTORY OF THIS PROCEEDING
¶9

Some

procedural

facts

about

this

disciplinary

proceeding are necessary for an understanding of certain legal
conclusions by the referee and of certain issues on appeal.
¶10

On

complaint

in

professional

November
this

30,

2015,

proceeding,

misconduct

client representations.

by

the

OLR

which

Attorney

filed

alleged
Nora

its

five

arising

original
counts

out

of

of
two

Counts 1-3 arose out of Attorney Nora's

actions connected to her representation of Sheila Spencer (the
Spencer

matter).

Count

1

alleged

that

Attorney

Nora

had

violated Supreme Court Rule (SCR) 20:3.1(a) as follows:
By removing a state court foreclosure matter to the
federal court after four years of litigation when
there was no colorable basis for federal jurisdiction,
and, by filing a frivolous motion to reconsider the
order remanding the matter back to the state court,
[Attorney] Nora violated SCR 20:3.1(a).
Count 2 alleged that by filing a frivolous appeal on behalf of
both her client and herself personally when she was not a party
to

the

litigation

and

by

engaging

in

an

ongoing

pattern

of

conduct to harass other parties and judicial officers and to
delay the proceedings, Attorney Nora violated SCR 20:3.2.

Count

3 alleged that by engaging in an ongoing pattern of conduct to
harass other parties and judicial officers and to delay the
proceedings, Attorney Nora violated the Attorney's Oath in SCR
40.15, which is enforced via SCR 20:8.4(g).
5

8a

No.

¶11

Counts

4-5

arose

out

of

Attorney

2015AP2442-D

Nora's

actions

connected to her representation of Roger and Desa Rinaldi (the
Rinaldi matter).
Nora

had

Count 4, like Count 1, alleged that Attorney

violated

SCR

20:3.1(a)

in

the

Rinaldi

matter

as

follows:
. . . by filing a motion to intervene and a motion for
relief from the Court's prior orders pursuant to
F.R.C.P.2 60(b)(2), which motions were found to be
frivolous, after the U.S. District Court had warned
[Attorney] Nora that any further frivolous submissions
would result in an award of sanctions, [Attorney] Nora
violated SCR 20:3.1(a).
Count 5 tracked Count 2 in that it alleged that by filing a
motion to intervene personally and a motion for relief from the
federal district court's prior order, both of which were found
to be frivolous, Attorney Nora violated SCR 20:3.2.
¶12
original

Attorney Nora filed combined motions to dismiss the
complaint

on

several

grounds.

Before

the

referee

decided these motions, the OLR filed a first amended complaint,
which did not change any of the counts alleged against Attorney
Nora,

but

simply

original complaint.

corrected

some

factual

allegations

in

the

The referee's subsequent scheduling order

provided that Attorney Nora's pending motions would apply to the
first amended complaint and permitted Attorney Nora to file any
additional motions regarding the first amended complaint within
20 days.

Attorney Nora filed a "supplement" to her motions to

dismiss, as well as a "notice of filing" of a proposed modified
This is a citation abbreviation for "Federal Rule of Civil
Procedure ___."
2

6

9a

No.

2015AP2442-D

amended complaint that excluded facts Attorney Nora contended
were false.
¶13

Attorney Nora's motions did not assert that either the

original complaint or the first amended complaint violated her
due process rights because Counts 1 and 4 of those complaints
failed to specify the subsection of SCR 20:3.1(a) that Attorney
Nora had violated.
¶14

On April 16, 2016, the referee denied Attorney Nora's

motions to dismiss the original and first amended complaint.

He

gave Attorney Nora 20 days in which to file an answer to the
first amended complaint.
¶15

On

May

20,

2016,

Attorney

Motion to Dismiss and Answer."3

Nora

filed

a

"Corrected

Attorney Nora asserts on appeal

that in a subpart of this document responding to Count 4 of the
first

amended

complaint

(paragraph

90),

she

alleged

that

paragraph 90 of the first amended complaint failed to specify
which

subsection

Rinaldi matter.
made

a

similar

of

SCR

20:3.1(a)

she

had

violated

in

the

She does not assert on appeal that she ever
allegation

regarding

Count

1.

Further,

her

reference to paragraph 90 in this document never alleged that
the OLR's failure to specify the subsection of SCR 20:3.1(a)
constituted a due process violation.
A few days before filing this motion and answer, Attorney
Nora filed two other motions: (1) a motion for damages pursuant
to Wis. Stat. § 894.044 and (2) a motion to disqualify Attorney
Paul Schwarzenbart from representing the OLR in this proceeding
(allegedly due to his conflict of interest as a material witness
to crimes supposedly committed in Nora II).
3

7

10a

No.

¶16

2015AP2442-D

On June 3, 2016, the OLR filed a motion seeking leave

to file a second amended complaint.

The purpose of the second

amended complaint was to correct two minor errors in the amended
complaint, including the listing of the wrong circuit court case
number for the foreclosure action against Sheila Spencer.
¶17
that

On August 1, 2016, the referee issued another order

denied

OLR's

Attorney

motion

subsequently

to

Nora's

file

filed

a

a

pending

second

second

motions

amended

amended

and

granted

complaint.

complaint,

as

The

the
OLR

permitted.

The second amended complaint did not change the nature of the
counts alleged against Attorney Nora, nor the specific actions
by

her

that

allegedly

violated

the

specified

Rules

of

Professional Conduct for Attorneys.
¶18

Ultimately,

after

some

further

proceedings

in

the

case, Attorney Nora filed a "notice of filing" of four different
versions of a revised answer to the second amended complaint.
Attorney

Nora

did

not

allege

that

the

lack

of

specified

subsections in Counts 1 and 4 violated her due process right to
notice of the charges against her.
¶19
Attorney

After
Nora

the
and

referee
her

granted

co-counsel

to

a

series
adjourn

of
the

motions

by

evidentiary

hearing, the referee conducted the disciplinary hearing in this
matter over four days in March 2017. The referee issued a posthearing order directing the OLR to file a post-hearing brief
within 45 days from the filing of the hearing transcript and
Attorney Nora to file her post-hearing brief within 45 days
after

the

OLR

filed

its

brief.
8

After

the

referee

granted

11a

No.

2015AP2442-D

another series of extension motions, the post-hearing briefing
was

completed

in

February

2018.

Attorney

Nora's

post-hearing

brief did not allege that the reference to SCR 20:3.1(a) rather
than to one or more subsections of that rule violated her due
process rights.
¶20

While

working

on

his

report,

the

referee

became

concerned with whether the lack of specification in Counts 1 and
4

of

the

applicable

subsection(s)

of

Attorney Nora's due process rights.
submit

supplemental

post-hearing

SCR

20:3.1(a)

violated

He ordered the parties to

briefs

on

this

issue,

which

they did.
FINDINGS OF FACT AND CONCLUSIONS OF LAW CONCERNING COUNTS 1-3
¶21

The following facts were found by the referee in his

report.
¶22
Wood

In April 2009, FNMC filed a foreclosure action in the

County

circuit

court

against

Sheila

Spencer.

FNMC

v.

Spencer, Wood County Case No. 2009CV283 (the Spencer Wood County
Case).
attorney.

Ms.

Spencer

was

initially

represented

by

another

That attorney was allowed to withdraw in April 2012,

and Attorney Nora filed a notice of appearance on behalf of Ms.
Spencer in May 2012.

Attorney Nora initially appeared at a May

23, 2012 hearing that had been scheduled as a summary judgment
hearing, and asked for a postponement of the hearing.
Gregory

Potter,

who

was

presiding

over

the

case,

Judge
granted

Attorney Nora's requested postponement and directed her to file
a list of issues that she believed needed to be resolved by June
29, 2012.
9

12a

No.

¶23

Attorney

Nora

did

not

file

the

list

2015AP2442-D

of

issues

as

ordered.

On June 23, 2012, she filed a "Notice of Continuing

Objection

to

Further

Proceedings."

She

"Continuing Notice" on June 25, 2012.

filed

an

amended

In these "Continuing

Notices," she alleged that Gray and Associates, S.C. (the Gray
Firm) had made multiple fraudulent filings in the Spencer Wood
County Case.

She also alleged that she had not been served with

a copy of a proposed order that Judge Potter had signed on June
12, 2012.
order

was

She claimed that the lack of service of the draft
part

of

"an

actual

pattern

and

practice

by

Judge

Potter and [the Gray Firm], acting in concert, to effectuate a
fraudulent foreclosure against Sheila M. Spencer and her home."
Attorney

Nora

claimed

that

Judge

Potter's

signing

of

the

allegedly improper ex parte order meant that the "entire record
of the proceedings must be reviewed in light of the apparent
collaboration

between

Judge

Potter

and

[the

Gray

Firm]."

Attorney Nora further accused Judge Potter of "manipulat[ing]"
both the record and the foreclosure action generally to assist
the Gray Firm in depriving Ms. Spencer of a chance to defend
against the foreclosure:
The manipulation of the Transcript to remove some of
the most damning evidence of bias . . . discloses a
whole new issue:
that Judge Potter is complicit in
the manipulation of the proceedings and of the record.
(Emphasis added.)
¶24

On June 27, 2012, Attorney Nora filed an extension

motion and an "Affidavit of Nonreceipt of Motion for Proposed
Order and Final Order."

In the affidavit, Attorney Nora claimed
10

13a

No.

2015AP2442-D

that she had not received the order dated June 12, 2012, and
that she had been shocked to find that the court had entered an
order resulting from the May 23rd hearing without a motion for
entry of such an order being served on her.

The affidavit

further stated that the court's clerk had told Attorney Nora
that someone from the Gray Firm had sent a letter and a proposed
order to Judge Potter.

Attorney Nora did not contact the Gray

Firm to obtain a copy of the letter to see if she had been
copied on it; instead, she alleged in her affidavit that the
letter

and

enclosed

draft

order

had

been

an

"ex

parte

communication with the Court."
¶25

The very next day (June 28, 2012) Attorney Nora filed

a motion to disqualify Judge Potter for "repeatedly engaging in
or facilitating ex parte communications and entering ex parte
orders."
County

In the motion Attorney Nora described the Spencer Wood

Case

as

proceedings."
a

copy

client.

of

"mockery

of

justice"

and

as

"misbegotten

Attorney Nora acknowledged that she had received

the

Gray

Firm's

letter

and

draft

order

from

her

The letter showed that a carbon copy had been sent to

Attorney Nora.
explain

a

how

The referee found that Attorney Nora could not

Judge

Potter

would

have

known

that

she

did

not

receive a copy of the letter and draft order when she was shown
on the letter as receiving a carbon copy.
¶26

Attorney Nora did not stop with accusing Judge Potter

of engaging in ex parte communications in this one instance; she
alleged
multiple

that

Judge

instances

Potter

and

of

parte

ex

the

11

Gray

Firm

communications

had
and

engaged
ex

in

parte

14a

No.

2015AP2442-D

orders prior to her appearance in the case,4 although Attorney
Nora

had

no

alleged.

firsthand

knowledge

of

the

other

instances

she

Attorney Nora went so far as to assert that "[a]

reasonable inference arises from these facts that Judge Gregory
J. Potter has colluded with GRAY & ASSOCIATES, LLP to circumvent
proper practice and procedure by engaging in and facilitating ex
parte communications by which orders have been entered by the
court."

(Emphasis added.)

Attorney Nora demanded that Judge

Potter recuse himself immediately.
¶27

At a hearing on August 8, 2012, Judge Potter denied

Attorney Nora's recusal motion.

On August 13, 2012, Attorney

Nora finally filed the list of issues that she had been ordered
to file by June 29, 2012.

Her list of issues again repeated her

allegation that Judge Potter and the Gray Firm had engaged in
improper ex parte communications.
¶28

On

October

3,

2012,

Attorney

James

Carrig

first

appeared for the plaintiff, which caused Attorney Nora to file a
motion to strike his appearance.

Judge Potter held a hearing on

Attorney

whether

Nora's

substituted

as

motion
the

and

plaintiff

on
in

the

PNC

action.

Bank

should

Following

be
the

hearing, Attorney Carrig filed a formal motion to "ratify the

An affidavit by an employee of the Gray Firm that was
filed in this proceeding stated that on the date of one such
alleged ex parte communication, Ms. Spencer had been served with
a copy of the notice of motion and motion.
The court record
shows that on the other occasions of alleged ex parte
communications, the letters and enclosed documents were copied
to Ms. Spencer.
4

12

15a

No.

action

or

substitute

PNC

Bank

as

the

party

2015AP2442-D

plaintiff."

Ultimately, the circuit court granted the motion to substitute
PNC Bank and set a hearing date of March 18, 2013, for the
hearing on the plaintiff's summary judgment motion (which had
been pending since before Attorney Nora had joined the case).
¶29

Attorney Nora responded to this development by filing

a notice of removal of the action to the United States District
Court for the Western District of Wisconsin on January 10, 2013.
Attorney

Nora

alleged

that

the

removal

was

proper

under

28

U.S.C. §§ 1331, 1332, 1334, and 1349 (i.e., both diversity and
federal question jurisdiction).

PNC Bank filed a motion for

remand, which the district court, Judge Barbara Crabb presiding,
granted.

Judge Crabb also granted an award of attorney fees and

costs

PNC

to

Bank

(apparently

against

Ms.

Spencer,

but

not

Attorney Nora).
¶30

On April 8, 2013, Attorney Nora filed a motion for

reconsideration of Judge Crabb's remand order.

Attorney Nora

claimed in this disciplinary proceeding that she had not sought
reconsideration of the remand order, but only of the award of
attorney fees and costs.

The referee found, however, that the

reconsideration motion was not limited to addressing the award
of

costs

and

fees,

noting

that

41

of

the

43

paragraphs

in

Attorney Nora's reconsideration motion asserted that Judge Crabb
had erred in remanding the case back to state court.

Indeed,

the prayer for relief in the reconsideration motion "request[ed]
that the court reconsider the Order remanding this case to state
court entered on March 25, 2013 for its clear errors of law in
13

16a

No.

2015AP2442-D

failing to acknowledge and exercise its original jurisdiction .
. . ."
¶31

Judge

Crabb

reconsideration,

ultimately

holding

that

denied

the

the

district

jurisdiction to reconsider its remand order.

motion
court

for

lacked

Judge Crabb also

held that because Spencer had not had "an objectively reasonable
argument supporting federal jurisdiction," it was appropriate to
award PNC Bank the fees it had incurred in moving to remand the
case.

In other words, Judge Crabb found the removal to be

frivolous.

Attorney

Nora

filed

a

second

motion

for

reconsideration, which rehashed the same arguments and included
a statement that the federal district court "is wrong."
second

reconsideration

awarded

PNC

Bank

motion

was

also

denied.

costs

and

fees

in

its

reconsideration motions.

Judge

opposing

The
Crabb

the

two

Although the referee's findings do not

say so explicitly, it appears that the district court entered
judgment for the fees and costs against Ms. Spencer, not against
Attorney Nora.

The total of the cost judgment was $4,928.47 in

favor of PNC Bank.
¶32
Crabb's

Attorney

Nora

orders

granting

reconsideration motions.

filed

a

notice

remand

and

of

appeal
denying

from

Judge

her

two

In the notice of appeal and in an

amended notice, Attorney Nora identified herself as a defendantappellant

"individually

Sheila M. Spencer."

and

in

her

capacity

as

counsel

for

The referee found that Attorney Nora had

not filed any document seeking to be made a party to the case
before she filed her initial and amended notices of appeal.
14

He

17a

No.

2015AP2442-D

also explicitly found that "[Attorney] Nora knew that remand
orders were not appealable under Title 28 of the United States
Code."
¶33

The United States Court of Appeals for the Seventh

Circuit issued an order directing Attorney Nora and her client
to file a memorandum explaining why the appeal should not be
dismissed for lack of jurisdiction.

In her memorandum, Attorney

Nora claimed that she had "the right and indeed the obligation
to appear in her individual name and capacity as an aggrieved
party" because she was the "target" of the sanctions imposed by
the district court and she was "ethically obligated to indemnify
Spencer for the cost and fee judgment."

Nora also included a

statement that "Judge Crabb has engaged in a campaign of libel
against Nora which will be addressed in the appropriate fora."
(Emphasis added.)
¶34
Attorney

Before
Nora

the

filed

Seventh
a

Circuit

bankruptcy

could

petition

rule,

on

however,

behalf

of

Ms.

Spencer, which delayed briefing on the Spencer appeal for a
little less than five months.

Ultimately, on August 13, 2014,

the

decision

Seventh

filed

by

Circuit

Attorney

objectively

issued

Nora,

reasonable

a

concluding
basis

for

dismissing

that

there

federal

The Seventh Circuit
$25,000 in attorney fees
frivolous appeal.

ultimately
and costs

15

had

appeal

been

"no

jurisdiction

or

removal" and that the appeal had been frivolous.5

5

the

The Seventh

awarded PNC Bank over
in responding to the

18a

No.

2015AP2442-D

Circuit ordered Attorney Nora to show cause why she should not
be sanctioned for pursuing a frivolous appeal.
¶35

Attorney Nora filed an initial response to the Seventh

Circuit's order to show cause just two days later.
initial

response,

she

claimed

that

the

In her

Seventh

Circuit's

decision contained "numerous factual findings for which there is
no evidence in the record, for which judicial notice was not
properly taken and which are offered to be proved to be clearly
erroneous."

Attorney Nora also rehashed her arguments regarding

removal and repeated her claim that Judge Crabb had libeled her
by removing the seal from her medical records in a completely
unrelated case.

Indeed, Attorney Nora claimed that Judge Crabb

was in contempt of a Seventh Circuit order by removing the seal.6
¶36

The Seventh Circuit ordered Attorney Nora to file "one

proper response" to four questions listed in the order.

Instead

of complying with the Seventh Circuit's order, Attorney Nora
filed

a

repeated
before.

petition
all

of

for

rehearing

en

banc,

the

removal/remand

in

which

arguments

The Seventh Circuit denied the petition.

she

she

again

had

made

Attorney Nora

then moved for a stay so she could file a certiorari petition in
the

U.S.

Supreme

Court,

but

she

never

actually

filed

the

certiorari petition.

The referee found from a copy of Judge Crabb's decision in
the other case, which was admitted into evidence in this
proceeding, that the basis for the ruling was that Attorney Nora
had failed to file the documents under seal pursuant to an
existing protective order and had not moved to seal them.
6

16

19a

No.

¶37

2015AP2442-D

Despite the Seventh Circuit's directive to file "one

response," on September 14, 2014, Attorney Nora filed a document
entitled "Partial Response to Order to Show Cause."

In that

document, she denied that she had accused Judge Potter and his
court reporter of "fraudulently manipulating transcripts."
also

included

a

number

of

accusations

against

Circuit and lower courts in the circuit.

the

She

Seventh

Specifically, she

stated, "The bias of this panel and many of the judges in this
circuit against homeowners' rights to be heard and defend their
homes is apparent in every disputed sentence of the 'findings'
in the panel's decision."
that

a

number

decision

were

of

the

(Emphasis added.)
statements

"false,"

including

She also asserted

in

the

Seventh

that

she

had

Circuit's

accused

Judge

Potter, opposing counsel, and the court clerk of colluding to
conceal the contents of an order, that she had accused the court
reporter of intentionally manipulating a hearing transcript at
Judge Potter's direction, and that she had demanded that Judge
Potter recuse himself.

On October 17, 2014, Attorney Nora filed

a motion for a continuance of the show cause hearing allegedly
due to medical reasons.

The Seventh Circuit denied Attorney

Nora's motion for a continuance, but it allowed her to appear
for the hearing by speakerphone.
inability

to

appear

due

to

Although she had asserted an

medical

reasons,

Attorney

Nora

appeared in person for the October 28, 2014 show cause hearing.
Ultimately, the Seventh Circuit imposed a $2,500 sanction on
Attorney Nora for frivolous and needlessly antagonistic filings.
In its sanction order, the Seventh Circuit stated that Attorney
17

20a

No.

2015AP2442-D

Nora had failed to comply with its order to limit herself to
"one proper response" to the court's order to show cause.

It

also described Attorney Nora's petition for rehearing en banc as
"rehashing her frivolous appellate arguments."

It stated that

Attorney Nora had engaged in "conduct unbecoming a member of the
court's

bar."

It

explained

the

basis

for

its

sanction

as

follows:
Nora has repeatedly acted with needless antagonism
toward opposing counsel and judicial officers. In her
responses to our order to show cause, she has refused
to back down from her accusations of libel against
Judge
Crabb
and
"actionable
civil
fraud
and
racketeering" against opposing counsel.
She denies
accusing
the
state
court
judge
of
altering
transcripts, but the record belies her denial; she not
only made the accusation but moved for substitution of
the judge on that basis.
She also now derides "this
panel and many of the judges in this circuit" as being
biased "against homeowners' rights to be heard and
defend their homes."
This bandying about of serious
accusations
without
basis
in
law
or
fact
is
unacceptable and warrants sanctions.
¶38

On March 10, 2014, when the Spencer foreclosure action

was again pending in the Wood County circuit court, Attorney
Nora filed a second motion to disqualify Judge Potter, which he
again

denied.

Judge

Potter

subsequently

granted

PNC

Bank's

summary judgment motion, entered a judgment of foreclosure, and
dismissed Spencer's counterclaim.

The circuit court confirmed

the sheriff's sale of the foreclosed property.

Attorney Nora

filed appeals from both the judgment of foreclosure and from the
order confirming the sale.

In May 2016 the court of appeals

affirmed the judgment of foreclosure and the confirmation order.

18

21a

No.

¶39

The

misconduct

OLR

alleged

arising

representing

Ms.

out

three

of

Spencer,

Attorney

most

of

Nora's conduct in federal court.
that

Attorney

actions:
without

Nora

had

counts

violated

of

professional

Nora's

which

2015AP2442-D

actions

addressed

in

Attorney

In Count 1 the OLR alleged
SCR 20:3.1(a)

by

taking

two

(1) removing the foreclosure action to federal court
a

colorable

basis

for

federal

jurisdiction,

and

(2)

filing a frivolous motion to reconsider Judge Crabb's remand
order.7

The

referee

concluded

that

this

count

should

be

dismissed because Attorney Nora was deprived of due process when
the OLR's complaints failed to give her adequate notice of the
misconduct with which she was charged by failing to specify the
subsection of SCR 20:3.1(a) that she had violated.8
¶40

With respect to Count 2, the referee concluded that

the OLR had proven that Attorney Nora had violated SCR 20:3.29 by
filing a frivolous appeal on behalf of her client and herself
when she was not a party to the litigation and by engaging in an
ongoing pattern of conduct to harass other parties and judicial
officers and to delay the proceedings.
The operative
paragraph 10 above.
7

language

of

Count

1

is

set

forth

in

The referee acknowledged that if this court concluded that
there was no due process violation, the OLR had proven by clear,
satisfactory and convincing evidence that the conduct described
in Count 1 had violated all three subsections of SCR 20:3.1(a).
Indeed, the referee said that the evidence of violations of all
three subsections was "overwhelming."
8

SCR 20:3.2 provides that "[a] lawyer shall make reasonable
efforts to expedite litigation consistent with the interests of
the client."
9

19

22a

No.

¶41

2015AP2442-D

The referee also determined that the OLR had proven a

violation

of

the

Attorney's

Oath

in

SCR

that

Attorney

40.15,

which

is

enforceable via SCR 20:8.4(g).10
¶42

The

referee

found

Nora

had

used

accusations of misconduct against others as merely a standard
part of the defense of a foreclosure action, specifically to
delay the action so that the client could remain in the home for
as long as possible.
the

Seventh

Circuit

He noted that in its sanction decision,
had

found

that

Attorney

Nora

had

made

arguments with no reasonable expectation of success and merely
for the purposes of delay, harassment, and "sheer obstinacy."
The

referee

similarly

concluded

that

in

the

Spencer

representation, "[i]t is clear from the very beginning of her
entrance into that case her goal was to delay a judgment of
foreclosure

as

long

as

possible."

The

referee

found

that

Attorney Nora knew that her attacks against Judge Potter and
court personnel would "buy her more time" because the court
would have to resolve her allegations of misconduct before it
could return to the merits of the case.
FINDINGS OF FACT AND CONCLUSIONS OF LAW CONCERNING COUNTS 4-5
¶43

Counts 4-5 relate to Attorney Nora's representation of

the Rinaldis.

They had been the defendants in a foreclosure

action brought by HSBC Bank (HSBC) in the Kenosha County circuit
court (Case No. 2009CV353 or the foreclosure action).

Attorney

SCR 20:8.4(g) provides that "[i]t is professional
misconduct to: . . . (g) violate the attorney's oath; . . . ."
10

20

23a

No.

Nora was not involved in that foreclosure action.
to

obtain

a

judgment

of

Rinaldis' counterclaims.

foreclosure

and

a

2015AP2442-D

HSBC was able

dismissal

of

the

Ultimately, however, HSBC agreed to a

vacation of the judgment and dismissal of the case when the
Rinaldis entered into a loan modification agreement.
¶44

In June 2011, after the dismissal of the foreclosure

action, the Rinaldis filed a civil action against, inter alia,
Wells Fargo Bank, N.A., and the Gray Firm.
No. 2011CV1477)

(Kenosha County Case

The defendants filed motions to dismiss in

response to the complaint.

Attorney Nora appeared in Case No.

2011CV1477 at the end of August 2011.

Approximately one week

after filing her notice of appearance, Attorney Nora filed a
motion to dismiss Case No. 2011CV1477 without prejudice.
¶45

The circuit court, however, did not have a chance to

rule on the pending motion to dismiss because on October 14,
2011, Attorney Nora filed a bankruptcy petition on behalf of the
Rinaldis in the United States Bankruptcy Court for the Eastern
District of Wisconsin.

HSBC filed a notice of claim regarding

the

(and

note

agreement)
objection

and

mortgage

signed
to

the

by

the

bank's

presumably

Rinaldis.
proof

of

the

loan

Attorney
claim

and

modification

Nora

filed

an

then

filed

an

adversary action against, inter alia, HSBC, Wells Fargo, the
Gray Firm (and certain of its lawyers), and the Litchfield Cavo
law firm (and one of its lawyers who had appeared for Wells
Fargo in Case No. 2011CV1477).

In the objection, Attorney Nora

alleged that the note lacked consideration, that two assignments
of the mortgage were null and void, that a third assignment of
21

24a

No.

2015AP2442-D

the mortgage was a forgery, and that HSBC was not the owner or
holder of the note.

In the adversary action, Attorney Nora

alleged claims of common law fraud, abuse of legal process,
violations of the federal Fair Debt Collection Practices Act,
violations
Act,

of

breach

the
of

federal

Racketeering

contract,

and

and

Corrupt

tortious

Practices

interference

with

prospective economic opportunity.
¶46
the

United States Bankruptcy Judge Susan Kelley rejected

Rinaldis'

Attorney

objection

Nora's

endorsement

of

claim
the

to

HSBC's

that

note

the

and

proof

bank

of

had

mortgage.

claim,

including

produced
Judge

a

forged

Kelley

also

recommended that the district court dismiss the claims alleged
in the adversary action.

Judge Kelley characterized some of the

claims asserted by Attorney Nora in both the objection and the
adversary proceeding as "frivolous" and "preposterous."
¶47

Attorney Nora filed (1) an appeal from Judge Kelley's

decision rejecting the objection to HSBC's proof of claim and
(2)

an

objection

to

Judge

Kelley's

recommendation

district court to dismiss the adversary proceeding.

to

the

The appeal

and objection were consolidated before United States District
Court Judge J.P. Stadtmueller.
¶48
2013,

in

Judge Stadtmueller issued a decision on October 31,
which

he

affirmed

Judge

Kelley's

dismissal

of

the

objection to HSBC's proof of claim and adopted Judge Kelley's
proposed findings and conclusions regarding the dismissal of the
adversary

proceeding.

Judge

Stadtmueller

further

held

that

Attorney Nora had failed to comply with the Federal Rules of
22

25a

No.

Bankruptcy

Procedure

regarding

appeals.

He

2015AP2442-D

stated

that

the

Rinaldis had "failed to provide a cogent statement of the issues
on

appeal"

and

unintelligible"

had
and

provided
that

briefs

were

"an

"that

are

unfocused,

largely

stream-of-

consciousness-style recitation of general grievances the debtors
have asserted in various forms since the origination of this
litigation in state court."

He further held that any issues

regarding the assignment of the mortgage did not affect HSBC's
rights as holder of the Rinaldis' note.
in

the

adversary

proceeding

as

He described the claims

"generally

meritless"

and

expressed concern that the Rinaldis were simply attempting to
stay the foreclosure of their home, meaning that their claim of
abuse of process would apply more to them than to the lender and
the other defendants.

Finally, Judge Stadtmueller warned the

Rinaldis (and Attorney Nora) "that they will find themselves in
very deep trouble if additional meritless filings find their way
to

this

Court

(seeing

as

this

Court

has

already

had

the

responsibility of dealing with their all-but-frivolous filings
in Case No. 12-CV-1065) and may very well result in significant
sanctions."
¶49
fact,

Attorney Nora filed a motion to amend the findings of

conclusions

of

law,

and

judgment

entered

by

Judge

Stadtmueller.

Her motion alleged the same kind of arguments

that

previously

she

bankruptcy

had

court

and

the

made

in

district

her

filings

court,

to

both

the

including

that

the

mortgage had been fraudulently assigned by Wells Fargo.

On

December 13, 2013, Judge Stadtmueller issued an order denying
23

26a

the

motion,

which

stated

that

the

Rinaldis

No.

2015AP2442-D

had

failed

to

identify any manifest error of law or fact that would entitle
them

to

relief

under

Fed.

R.

Civ.

Proc.

59(e)

and

which

explicitly warned them (and Attorney Nora) that "any further
frivolous submissions will result in an award of appropriate
sanctions against the Rinaldis' attorney."
¶50
appeal

On December 23, 2013, Attorney Nora filed a notice of

from

February

11,

the

orders

2014,

issued

she

filed

by
a

Judge

motion

Stadtmueller.
to

withdraw

On

as

the

Rinaldis' counsel in all three of the applicable federal courts
(bankruptcy court, district court, and court of appeals).

Judge

Kelley heard the motion to withdraw on March 4, 2014, along with
a

motion

by

the

U.S.

Trustee

to

dismiss

the

bankruptcy

proceeding due to the Rinaldis' failure to make payments.
Kelley

dismissed

the

bankruptcy

proceeding,

but

Judge

retained

jurisdiction over the sanction motion filed by the defendants in
the adversary proceeding.

Judge Kelley also denied Attorney

Nora's motion for reconsideration of her opinion that dismissal
of the bankruptcy proceeding would moot the appeal Attorney Nora
had

filed

on

behalf

of

the

Rinaldis.

In

that

motion

for

reconsideration, Attorney Nora essentially sought to dismiss the
adversary proceeding.
¶51
intervene

On April 2, 2014, Attorney Nora filed a motion to
personally

Stadtmueller.

in

the

Rinaldi

case

before

Judge

On that same date, Attorney Nora filed a joint

motion on behalf of herself and the Rinaldis for relief under
Fed. R. Civ. Proc. 60(b) from Judge Stadtmueller's prior orders.
24

27a

No.

2015AP2442-D

The motion to intervene and the motion for relief under Rule
60(b) repeated the same arguments Attorney Nora had been making
in

her

prior

filings

on

behalf

of

the

Rinaldis.

The

intervention motion also asserted that Attorney Nora had a right
to intervene personally to defend against the sanction motion
filed by the defendants in the adversary proceeding.
¶52
granting

On April 9, 2014, Judge Stadtmueller issued an order
Attorney

Nora's

motion

to

withdraw

and

denying

motions to intervene and for relief under Rule 60(b).

the

Judge

Stadtmueller also sanctioned Attorney Nora for filing the latter
two motions:
Last, as to Ms. Nora's motion to intervene and for
Rule 60(b) relief, the Court notes that it has no
choice but to impose sanctions against Ms. Nora.
In
the Court's last order, it noted that "[w]ith this
order, the Court hereby makes clear that any further
frivolous submissions will result in an award of
appropriate sanctions against the Rinaldis' attorney."
(Docket #37 at 3 (emphasis in original)).
Despite
that extremely clear warning, Ms. Nora filed the
frivolous motions in question.
Therefore, the Court
will enter a sanctions award against her, using its
inherent authority to do so under Chambers v. Nasco,
Inc., 501 U.S. 32 (1991). The Court will direct that
Ms. Nora pay to the Clerk of the Court $1,000.00 for
deposit into the Eastern District of Wisconsin Pro
Bono fund.
And let the Court be clear:
any further
frivolous filings will result in even higher sanctions
against Ms. Nora.
¶53
orders.
not

The

Seventh

Circuit

affirmed

Judge

Stadtmueller's

It stated that to the extent the adversary claims were

moot,

it

affirmed

the

orders

dismissing

the

adversary

proceeding for the reasons stated by the district court.
also

relied

on

an

exception

to
25

the

mootness

doctrine

It
that

28a

No.

2015AP2442-D

mootness should not be allowed where the losing party causes an
appeal to become moot in order to avoid the preclusive effect of
an unfavorable ruling.

It characterized Attorney Nora's attempt

to dismiss as a "type of gamesmanship" intended to deprive the
sound decisions of the bankruptcy court and the district court
of preclusive effect.
sanction

award

Finally, the Seventh Circuit affirmed the

against

Attorney

Nora,

stating

that

her

obligations to her clients did not excuse her disregard of the
district court's clear and repeated warnings against continued
submission of frivolous and needlessly argumentative filings.
¶54

Like Count 1, Count 4 alleged that certain actions

taken by Attorney Nora (specifically the filing of frivolous
motions to intervene personally and for relief from prior court
orders under Fed. R. Civ. Proc. 60(b)(2)) in the Rinaldi matter
had

violated

SCR

20:3.1(a).

As

with

Count

1,

the

referee

recommended that this court dismiss Count 4 on the ground that
the lack of specification of the particular subsection of SCR
20:3.1(a)

in

the

second

amended

complaint

violated

Attorney

Nora's due process rights.
¶55

With respect to Count 5, the referee concluded that

the OLR had sufficiently proven that Attorney Nora had violated
SCR 20:3.2

by

filing

a

frivolous

motion

to

intervene

and

a

frivolous motion for relief under Rule 60(b) in the district
court, after that court had warned her that further frivolous
submissions would result in an award of sanctions.
REFEREE'S RECOMMENDATION REGARDING DISCIPLINE

26

29a

No.

¶56
Nora's

The

OLR

license

sought

to

a

one-year

practice

law

in

suspension
Wisconsin,

2015AP2442-D

of

Attorney

comparing

her

misconduct to the misconduct found to have been committed by
Attorney Joseph Sommers.

See In re Disciplinary Proceedings

Against Sommers, 2012 WI 33, 339 Wis. 2d 580, 811 N.W.2d 387
(Sommers

I);

In

re

Disciplinary

Proceedings

Against

Sommers,

2014 WI 103, 358 Wis. 2d 248, 851 N.W.2d 458 (Sommers II).
referee

found

this

comparison

to

be

unhelpful

The

because

"[Attorney] Nora's misconduct in this case is on a level all of
its

own."

Unlike

in

the

Sommers

cases,

Attorney

Nora's

misconduct was not limited to one particular case, court, or
judge.
Nora

The referee said that "[i]t is clear that [Attorney]
generally

practices

law

in

a

highly

offensive

and

disrespectful fashion" and that she intentionally acts in an
offensive, disrespectful, and difficult manner in order to delay
the foreclosure proceedings against her clients, which she views
as doing her job for them.
¶57

The referee stated that Attorney Nora had shown no

remorse for her conduct.

To the contrary, she believes that her

tactics are appropriate in defending against foreclosures at all
costs.

The referee twice stated that Attorney Nora sees herself

as a hero for actions in defending against foreclosures, which
the courts fail to appreciate.
difference

between

a

professional misconduct.

vigorous

She does not understand the
and

zealous

defense

and

As an example, the referee pointed to

the "many false accusations" that Attorney Nora made against
Judge Potter, which she had failed to substantiate.
27

The referee

30a

No.

2015AP2442-D

further stated that, based on his observation of Attorney Nora
during this disciplinary proceeding, he believed that, if given
the chance, Attorney Nora would continue to engage in the type
of misconduct at issue in this proceeding.
misconduct

in

the

prior

disciplinary

He noted that the

cases

against

similar to the misconduct found in this proceeding.

her

was

In sum, the

referee concluded that Attorney Nora "represents a serious and
ongoing

threat

appears,

to

opposing

therefore

the

public,

counsel,

recommended

that

the

and

the

the

judges

before

legal

court

which

she

profession."

suspend

Attorney

He
Nora's

license for a period of two years.

He also recommended that the

reinstatement

conditioned

of

her

license

be

"on

good

faith

efforts by her to pay the tremendous costs incurred by the OLR
and the lawyers of Wisconsin in this disciplinary proceeding."
ATTORNEY NORA'S APPEAL
¶58

When we review a referee's report, we will affirm a

referee's findings of fact unless they are found to be clearly
erroneous, but we review the referee's conclusions of law on a
de novo basis.

In re Disciplinary Proceedings Against Inglimo,

2007 WI 126, ¶5, 305 Wis. 2d 71, 740 N.W.2d 125.
the

appropriate

particular

facts

recommendation,

level
of
but

of

each

discipline
case,

benefiting

to

impose

independent
from

it.

We determine

of

In

given

the

re

the

referee's

Disciplinary

Proceedings Against Widule, 2003 WI 34, ¶44, 261 Wis. 2d 45, 660
N.W.2d 686.
¶59

Attorney Nora's opening brief on her appeal lists 18

separate issues (some with multiple subparts) that she would
28

31a

No.

like this court to address.11
issues,

however,

are

not

2015AP2442-D

A number of those issues or sub-

sufficiently

developed

in

Attorney

Nora's brief, and we will not address them in this decision.
Parsons v. Associated Banc-Corp., 2017 WI 37, ¶39 n.8, 374 Wis.
2d 513, 893 N.W.2d 212.
¶60

The first group of arguments on appeal by Attorney

Nora allege due process violations.

She objects initially to

the fact that the OLR included 174 proposed findings of fact
with citations to the record in its post-hearing brief, arguing
that these statements were "new factual allegations" and that
the inclusion of them deprived her of due process before the
referee.
¶61

Attorney

allegations" were

Nora

contends

that

these

"new

factual

improper because the OLR did not obtain a

With each of her three appellate briefs, Attorney Nora
filed a set of requests asking this court to take judicial
notice of certain documents under Wis. Stat. § 901.01(4) and
901.02(2)(b). The documents at issue, copies of which Attorney
Nora appended to her requests, appear to be, for the most part,
filings from various underlying court proceedings. The OLR did
not object to this court taking judicial notice of the existence
and contents of the documents.
Accordingly, we take judicial
notice of the existence and of the contents of the requested
documents. We do not take judicial notice of the truth of any
statements included in those documents. In addition, we do not
take judicial notice of the Rinaldis' Chapter 13 Plan in their
bankruptcy proceeding because no such document was found as
Exhibit F to Attorney Nora's April 2, 2019 second set of
requests for judicial notice in support of her reply brief. We
also do not take judicial notice of the List of Nonpriority
Unsecured Claims from Attorney Nora's personal bankruptcy
proceeding that was attached as Exhibit G to her April 2, 2019
second set of requests for judicial notice.
That document is
not relevant to Attorney Nora's reply brief.
11

29

32a

No.

2015AP2442-D

"cause-to-proceed" determination as to most of those facts from
a panel of the preliminary review committee (the PRC) under SCR
22.11(2)

before

the

evidentiary

hearing

in

this

proceeding.

Attorney Nora apparently relies on the language in that rule
which states that "[t]he complaint shall set forth only those
facts

and

misconduct

allegations

for

which

the

preliminary

review panel determined there was cause to proceed . . . ."
Attorney Nora reads this clause literally to mean that each
allegation

of

fact

in

a

disciplinary

specifically approved by the PRC.

complaint

must

be

She then attempts to extend

the language to require PRC approval of proposed findings of
fact in a post-hearing submission.

She does not offer any case

law support for such an interpretation, nor does she analyze how
this language from SCR 22.11(2) fits within the structure of the
disciplinary process described in SCR ch. 22.
¶62

Attorney Nora's argument is misplaced.

The procedural

provisions in SCR ch. 22 regarding the presentation of a matter
to a panel of the PRC do not require or even contemplate that
the

PRC

will

make

any

factual

determinations

information submitted by the OLR's director.

about

the

The director is

required to submit to the PRC panel the OLR's "investigative
reports,

including

all

relevant

exculpatory

and

inculpatory

information obtained and appendices and exhibits, if any."
22.06(1).

The

PRC

panel

does

not

make

SCR

credibility

determinations or decide what the specific facts regarding the
matter are.

What it does do is determine, given the inculpatory

and exculpatory information presented to it, whether there is
30

33a

No.

2015AP2442-D

sufficient plausible evidence for the OLR to proceed with a
formal disciplinary claim against the respondent attorney.

The

PRC panel does not review a proposed complaint and approve or
disapprove specific factual allegations in a complaint.
¶63

Indeed, a finding of cause to proceed by a PRC panel

does not automatically lead to the
complaint.

filing of a disciplinary

A finding of cause to proceed merely authorizes the

OLR director to "decide on the appropriate discipline or other
disposition to seek in the matter."

SCR 22.08(2).

In some

cases the director will determine that the appropriate next step
is to file a formal complaint in this court asking it to impose
discipline against the respondent attorney.

SCR 22.08(2)(c).

In other words, the formal complaint can be drafted and filed
after the PRC panel has completed its work.

In other cases,

however, the director is authorized to obtain the respondent
attorney's agreement to a consensual reprimand or to divert the
matter

to

an

alternative

to

discipline

program.

SCR

22.08(2)(a)-(b).
¶64

That the OLR is not bound to obtain approval of every

factual allegation in a complaint or every proposed finding of
fact in a post-hearing brief is demonstrated by the fact that
SCR 22.11(5)

authorizes

the

OLR

to

amend

provided in the rules of civil procedure."

a

complaint

"as

If Attorney Nora's

view were correct, that subsection would also need to state that
a complaint may be amended only if a PRC panel first approves
the amended allegations.

The rule does not, however, contain

any such requirement.
31

34a

No.

¶65

2015AP2442-D

In any event, in this case a PRC panel made a cause-

to-proceed determination as to the five misconduct claims that
appear

in

all

three

versions

of

the

OLR's

complaint.

The

amendments in both the first amended complaint and the second
amended complaint did not add entirely new instances of conduct
or new misconduct claims; they simply corrected some mistakes in
the factual allegations.
under

SCR 22.11(5)

and

Such amendments are clearly permitted
do

not

require

a

second

approval by a PRC panel under SCR 22.11(2).
PRC

panel

has

subsequently

found

included

cause

to

in

formal

a

proceed

on

(or

third)

Similarly, once a
claims

complaint,

that

there

is

are
no

requirement in SCR 22.11 that the OLR obtain further approval of
any particular summary of facts from the evidence introduced in
the case or in any particular set of proposed findings of fact.
To the extent that the OLR was able to flesh out the factual
allegations

of

its

second

amended

complaint

by

presenting

evidence at the evidentiary hearing, that is entirely consistent
with

due

process.

Indeed,

that

is

the

proceedings in all civil and criminal cases.

normal

course

of

Accordingly, the

OLR's inclusion of proposed findings of fact in its post-hearing
brief did not violate SCR 22.11(2).
¶66
174

Attorney Nora also argues that the inclusion of the

allegedly

hearing

brief

"new"

factual

violated

her

allegations
due

Ruffalo, 390 U.S. 544, 551 (1968).

process

in

the

rights

OLR's
under

postIn

re

In that matter, however, the

U.S. Supreme Court held that it was a violation of due process
for

the

Ohio

disciplinary

authorities
32

(the

local

bar

35a

No.

2015AP2442-D

association) to amend their disciplinary complaint during the
disciplinary
testified

hearing

in

misconduct.12

and

order

to

after

the

allege

an

Id. at 550-51.

respondent
entirely

attorney
new

had

claim

of

That holding has no bearing on

this proceeding because the OLR never attempted to allege an
entirely new claim of misconduct in its amended complaints or in
its post-hearing brief.
complaint

identified

The five counts in the OLR's original

what

conduct

by

which rules of professional conduct.

Attorney

Nora

violated

Those five claims remained

the same in each of the OLR's amended complaints.

The referee's

conclusions of law likewise determine that the same conduct by
Attorney Nora violated the same rules that the OLR identified in
its complaints.

There is no due process violation under Ruffalo

in this proceeding.
¶67

Similarly,

Attorney

Nora

alleges

that

the

174

"new

factual allegations" in the OLR's post-hearing brief constituted
a due process violation under this court's decision in State v.
Hersh, 73 Wis. 2d 390, 243 N.W.2d 178 (1976).
this

court

found

no

due

process

violation

In that case,
where,

under

a

previous attorney disciplinary regime, the Board of State Bar
Commissioners

was

allowed

to

amend

a

complaint

against

a

respondent attorney to conform the complaint to the evidence
upon approval by a sufficient number of members of the board and
The appeal in Ruffalo actually arose out of a decision by
the Sixth Circuit to disbar Attorney Ruffalo from practicing in
that court, but the Sixth Circuit essentially relied on the Ohio
state disciplinary proceeding in reaching its decision.
In re
Ruffalo, 390 U.S. 544, 545, 547 (1968).
12

33

36a

No.

2015AP2442-D

an adjournment of the disciplinary hearing occurred.

Attorney

Nora points to a statement in that decision that a respondent
attorney's

due

"encompasses
charges,

process

only

[the

rights

[the

in

a

attorney's]

attorney's]

right

disciplinary

right

to

to

prepare

proceeding

prior
to

notice

defend

of

these

charges, and [the attorney's] right to a full hearing on these
charges."

Id. at 398.

We find no violation of these rights

arising out of the OLR's submission of proposed findings of fact
in a post-hearing brief.
that

those

proposed

Attorney Nora fails to demonstrate

findings

of

fact

materially

changed

the

nature of the allegations against her or the ethical rules which
she was alleged to have violated.
the

OLR's

adequately
violated

three
advised

which

complaints,
Attorney

rules

of

The five counts in each of
which

Nora

remained

which

of

professional

consistent,

her

actions

had

She

had

conduct.

sufficient notice of the charges to be able to prepare to defend
against those claims.

She was accorded a four-day hearing at

which to question the OLR's witnesses and to present her own
testimony

and

exhibits.

Her

due

process

rights

were

duly

protected.
¶68

Attorney

Nora

briefly

alleges

that

her

due

process

right to prepare and present a defense was also violated by
various

rulings

by

the

referee.

These

allegations

sufficiently developed to warrant specific responses.

are

not

Even if

we were to address them on the merits, we see no due process
violations as a result of the referee's orders.
had

a

sufficient

opportunity

to
34

conduct

Attorney Nora

discovery,

to

name

37a

No.

witnesses, and to prepare and present a defense.

2015AP2442-D

Her failure to

avail herself of some of those opportunities does not mean that
her due process rights were violated.
¶69

The

second

group

of

arguments

in

Attorney

Nora's

appeal is styled as a broad challenge to the referee's factual
findings.

Her arguments, however, challenge the referee's legal

conclusions that she violated SCR 20:3.2 in Counts 2 and 5 as
much as she challenges any particular factual findings.

She

argues that under SCR 20:3.2, the referee erred in concluding
that she had improperly delayed both the Spencer matter and the
Rinaldi matter.

She contends that a lawyer can violate that

rule only if the lawyer's actions had no substantial purpose
other than to delay.
faith

in

taking

the

Since she alleges that she acted in good
actions

she

conclusion of improper delay.

took,

there

could

be

no

Moreover, she argues that her

conduct did not actually result in delay of either the Spencer
matter or the Rinaldi matter.
¶70

Attorney Nora points to an American Bar Association

comment to Model Rule 3.2 that the question under this rule is
whether a competent lawyer acting in good faith would regard the
course of action at issue as having some substantial purpose
other

than

delay.

What

Attorney

Nora

misses

is

that

this

comment demonstrates that the pertinent question under the rule
is

one

of

the

lawyer's

action(s) at issue.
referee

to

make

an

purpose

or

intent

in

pursuing

the

Determining a person's intent requires a
inference

from

statements under the circumstances.
35

the

lawyer's

actions

and

See Welytok v. Ziolkowski,

38a

No.

2015AP2442-D

2008 WI App 67, ¶26, 312 Wis. 2d 435, 752 N.W.2d 359 (quoting
Pfeifer v. World Serv. Life Ins. Co., 121 Wis. 2d 567, 569, 360
N.W.2d 65 (Ct. App. 1984)).

Here, the referee drew factual

inferences from the facts presented that Attorney Nora's purpose
in taking a number of specified actions was to delay the Spencer
matter

and

challenges

the

Rinaldi

matter.

To

the

extent

these

factual

inferences

on

appeal,

that

Attorney

she
Nora

must show that the referee's inferences were clearly erroneous
(i.e., that each

inference was against the great weight and

clear preponderance of the evidence).

Phelps v. Physicians Ins.

Co. of Wisconsin, 2009 WI 74, ¶39, 319 Wis. 2d 1, 768 N.W.2d
615.
¶71

Attorney Nora does not meet that high burden.

There

was ample evidence with respect to both the Spencer matter and
the Rinaldi matter to support the referee's determination that
Attorney Nora's purpose was to place whatever road blocks she
could construct in the path of concluding the various pieces of
litigation.
¶72

In the Spencer matter, Attorney Nora made a host of

accusations against Judge Potter, claiming that he and his court
staff

had

engaged

in

multiple

ex

parte

communications

with

opposing counsel, that he had conducted "secret proceedings,"
and that he had been "collaborating" with opposing counsel and
had been "complicit in the manipulation of the proceedings and
of

the

record."

United

States

District

Court

Judge

Crabb

determined that Attorney Nora's subsequent attempt to remove the
case to federal court was not objectively reasonable.
36

Instead

39a

No.

2015AP2442-D

of accepting the district court's ruling, Attorney Nora twice
moved

for

resulting

reconsideration
in

Judge

Crabb

of

Judge

finding

Crabb's

that

remand

her

order,

reconsideration

requests were without basis and awarding costs and fees to the
opposing

party.

Attorney

Nora

then

prolonged

the

federal

proceedings by filing an appeal that the Seventh Circuit found
to be frivolous, ultimately resulting in an award of sanctions
against her.
¶73

In the Rinaldi matter, Attorney Nora attempted to drag

out the matter by raising objections and arguments that the
federal bankruptcy judge characterized as frivolous.

She then

attempted to intervene personally and to move for relief under
Fed. R. Civ. Proc. 60(b).

The federal district court again

determined that Attorney Nora's motions had been frivolous and
imposed sanctions.
Attorney
permit,

Nora's
and

it

On appeal the Seventh Circuit characterized

actions

as

affirmed

"gamesmanship"

the

imposition

Attorney Nora's frivolous filings.

that

of

it

would

sanctions

not

due

to

The referee's inferences of

a purpose of delay by Attorney Nora in both matters were not
clearly erroneous.
¶74

Although

it

too

falls

within

the

portion

of

her

argument regarding a lack of evidence to support the referee's
factual

findings,

Attorney

Nora's

argument

regarding

Count

3

(violation of the attorney's oath) is also more legal in nature
than

an

allegation

clearly erroneous.

that

the

referee's

factual

findings

were

She contends that her actions on behalf of

Ms. Spencer arose from her constitutionally protected obligation
37

40a

No.

2015AP2442-D

as a lawyer to seek redress from the courts on behalf of her
client.

As this court already explained in Nora II, however, a

lawyer's fight for a client's cause, however noble the lawyer
might believe it to be, must be conducted within the ethical
rules.

Nora, 380 Wis. 2d 311, ¶41.

Attorney Nora has not

demonstrated any error in the referee's factual findings about
Attorney Nora's specific actions in the Spencer matter or in the
referee's determination that her actions constituted an ongoing
pattern of conduct to harass other parties and judicial officers
and to delay the proceedings.
of

her

conduct,

referee's

quoted

findings

in

The Seventh Circuit's description

in

paragraph

this

regard.

37

above,

The

supports

referee's

the

factual

findings and his inference that Attorney Nora's actions were
intended to harass and to delay are not clearly erroneous.

A

determination that Attorney Nora exceeded the bounds of ethical
advocacy by her conduct does not violate her or her clients'
constitutional

rights

to

petition

the

judicial

branch

of

government for redress.
¶75

Attorney

Nora

includes

a

number

of

other

general

allegations that the referee erred in his evidentiary rulings,
misapplied burdens of proof, and made unsupported findings in
the discussion section of his report.

These allegations are

insufficiently developed, and we need not address them here.
¶76

Having

concluded

that

Attorney

Nora's

appellate

arguments are without merit, we accept the referee's factual
findings

and

agree

with

his

legal

38

conclusions

that

the

OLR

41a

No.

2015AP2442-D

proved the ethical violations alleged in Counts 2, 3, and 5 of
its second amended complaint.
OLR'S CROSS-APPEAL
¶77

We now turn to the OLR's cross-appeal of the dismissal

of Counts 1 and 4 on the ground that the versions of the OLR's
complaint

failed

to

provide

adequate

notice

as

to

which

subsection of SCR 20:3.1(a) her conduct had violated.

First, we

start

complaint

from

the

observation

that

from

its

original

through to its second amended complaint, the OLR identified the
specific actions by Attorney Nora that it alleged violated SCR
20:3.1(a).
removing

In the Spencer matter, the alleged misconduct was

the

foreclosure

action

against

Ms.

Spencer

to

the

federal court with no colorable basis for federal jurisdiction
and then filing frivolous motions for reconsideration of the
federal district court's remand order.

In the Rinaldi matter,

the alleged misconduct was filing in the federal district court
a

frivolous

motion

to

intervene

personally

and

a

frivolous

motion for relief from prior orders under Fed. R. Civ. Proc.
60(b).
¶78

Attorney

Nora

therefore

knew

the

basis

counts from the very beginning of the proceeding.

for

those

She litigated

against those counts before the referee for more than two years,
through motions to dismiss, through pretrial motions, through a
four-day evidentiary hearing, and through the filing of a posthearing brief.

While in one early filing she did note that

Count 4 of the complaint (specifically, paragraph 90) did not
identify the subsections of SCR 20:3.1(a), she never alleged
39

42a

No.

2015AP2442-D

that the failure to identify the subsections of SCR 20:3.1(a)
constituted a violation of her due process right to notice of
the misconduct charges against her.

Through the filing of her

post-hearing brief, she never alleged that she was unable to
defend against Count 1 and 4 because the OLR's complaints had
not specified which subsection of SCR 20:3.1(a) her actions had
violated.
the

Had the referee not raised the issue sua sponte after

parties

had

concluded

their

post-hearing

briefs,

the

litigation of the case before the referee would have concluded
with no such claim having been made.
¶79
forfeited

Under
any

these

facts,

argument

that

we

conclude

Counts

1

that

and

complaints violated her due process rights.

4

Attorney
of

the

Nora
OLR's

The issue raised by

the referee is a question of notice in pleading.

A respondent

party cannot ignore an alleged defect in pleading all the way
through the final evidentiary hearing (or trial) of a case and
through

post-hearing

complainant's

claim

briefing,
must

be

and

dismissed

then

allege

because

it

that
failed

the
to

provide adequate notice of the claim against the respondent.
Permitting respondents to obtain dismissal of claims under those
circumstances would endorse "gotcha" tactics and would undermine
the orderly conduct of a disciplinary proceeding or any other
civil action.

The prejudice of such a ruling is evident here.

Because the alleged error by the OLR was one of pleading, it
could have been easily remedied through the filing of an amended
complaint if Attorney Nora had alleged a due process violation
at any point during the actual litigation of the case.
40

By

43a

No.

litigating
prevented

the
the

case
OLR

through

from

the

having

evidentiary

an

opportunity

alleged deficiency in its complaint.

2015AP2442-D

hearing,
to

remedy

she
any

Moreover, the fact that

she actually defended against Counts 1 and 4 at the evidentiary
hearing undercuts an assertion that she lacked sufficient notice
to prepare a defense on those counts.
¶80

In

addition,

the

fact

that

the

referee

raised the issue does not affect this analysis.

ultimately

Attorney Nora's

failure to raise the issue through the evidentiary hearing and
post-hearing briefing still meant that her conduct in litigating
the case through the evidentiary hearing prevented the OLR from
amending those counts and obtaining a decision on their merits,
whether or not the referee subsequently raised the issue.

The

referee's raising of the issue after the evidentiary hearing was
complete

still

prevented

pleading deficiency.

the

OLR

from

correcting

an

alleged

Accordingly, we conclude that under these

circumstances Counts 1 and 4 should not be dismissed based on a
claimed

due

process

violation

that

was

clearly

forfeited

by

Attorney Nora.
¶81

The referee concluded that, if this court rejected his

recommended dismissal of Counts 1 and 4 on due process grounds,
the OLR did prove in each of those two counts that Attorney Nora
had violated SCR 20:3.1(a) by clear, satisfactory and convincing
evidence.

We agree with those conclusions.

APPROPRIATE LEVEL OF DISCIPLINE
¶82

Having

determined

that

Attorney

Nora

engaged

in

professional misconduct as alleged in all five counts of the
41

44a

No.

2015AP2442-D

amended complaint, we turn to the issue of the appropriate level
of

discipline.

In

assessing

what

is

the

proper

level

of

discipline to impose, we consider various factors, including:
"(1) the seriousness, nature and extent of the misconduct; (2)
the

level

of

discipline

needed

to

protect

the

public,

the

courts, and the legal system from repetition of the attorney's
misconduct;

(3)

the

need

to

impress

upon

the

attorney

the

seriousness of the misconduct; and (4) the need to deter other
attorneys

from

committing

similar

misconduct."

In

re

Disciplinary Proceedings Against Carroll, 2001 WI 130, ¶40, 248
Wis. 2d 662, 636 N.W.2d 718.
¶83

It cannot reasonably be disputed that Attorney Nora's

misconduct

is

"inflammatory"

serious.
the

referee's

Although

she

description

of

criticizes
the

tactics

as
she

used, we view them as fair comments on Attorney Nora's actions.
Quite simply, she has repeatedly abused the legal system to
pursue her agenda of delaying foreclosure actions by any means
possible.
¶84

This is not an isolated incident of a lawyer allowing

the lawyer's zeal in the heat of battle to overcome the lawyer's
better judgment.

This is now the third time that Attorney Nora

is being disciplined for similar conduct.

In just Nora II and

this case, she has been found to have filed frivolous claims or
taken frivolous positions in five separate actions.
there is a lengthy pattern of similar misconduct.

Clearly,

She has been

sanctioned multiple times in multiple courts for her frivolous
filings.
42

45a

No.

¶85

Her

misconduct

does

administration of justice.
tools

of

the

legal

pose

a

real

2015AP2442-D

threat

to

the

Not only has she improperly used the

system

to

delay

the

completion

of

civil

actions, she has repeatedly attacked the other participants in
those actions (judges, lawyers, and litigants) with claims of
unethical or even criminal conduct.
Potter

had

abandoned

his

role

as

She alleged that Judge
a

neutral

magistrate

to

manipulate the record and to collude with opposing counsel to
reach a corrupt result.

She accused Judge Crabb of engaging in

a

libel

personal

campaign

of

against

her.

She

accused

the

judges of the Seventh Circuit of being biased against the rights
of homeowners.

Not only was she unwilling to accept the rulings

of these judicial officers and therefore repeatedly challenged
their rulings after the fact, she labeled those judges who did
not

accede

to

her

tactics

as

being

biased

and

unethical.

Lawyers do not have to agree with a judge's rulings, but the
legal system cannot function properly and maintain the necessary
respect in the eyes of the public if lawyers baselessly attack
the integrity of the individuals who preside in our courts.

any

¶86

The referee found that Attorney Nora had not expressed

real

remorse

before

him.

for

Rather,

her
her

conduct
conduct

throughout
in

the

litigating

proceedings
this

case

demonstrated that she continued to believe her win-at-all-costs
approach in foreclosure cases was justified.

He found that if

she again held a valid license to practice law, she would not
hesitate to use the same improper tactics.

In part, he reached

this conclusion because he believed that there was little chance
43

46a

No.

2015AP2442-D

that Attorney Nora will ever understand why her actions were
wrong and what damage her misconduct had caused.

Further, his

belief was supported by the fact that during this disciplinary
proceeding, Attorney Nora had reached into the same playbook,
accusing the investigators and attorneys acting on behalf of the
OLR of being biased and having engaged in serious professional
misconduct, even in criminal activities.
¶87

During oral argument before this court, Attorney Nora

did acknowledge, to a limited degree, that she had crossed an
ethical line.

She admitted that she had been overzealous at

times and had shown an offensive personality in some of her
filings,

but

she

indicated

that

her

fault

had

been

in

the

incorrect manner in which she had articulated her positions.
Attorney Nora did not show that she accepted and admitted that
the actual positions and actions she took were improper, even
though multiple courts had found multiple filings submitted by
her to be frivolous and had imposed sanctions on her.
¶88

Clearly, given her arguments to this court, Attorney

Nora retains the same zeal for her cause of fighting against
residential property lenders and mortgage holders.

While we

recognize that she has now made some show of acknowledging a
limited responsibility for her conduct, we share the referee's
concern

that

Attorney

Nora

has

not

grasped

or

accepted

the

extent of her misconduct and that, at this point, she would be
highly likely to repeat that misconduct if she held a valid
license

to

practice

law.

We

therefore

conclude

that

a

substantial period of suspension is necessary to impress upon
44

47a

No.

2015AP2442-D

her the seriousness of her misconduct and to protect the public,
the

courts,

and

the

legal

system

from

a

repetition

that

Attorney

of

that

misconduct.
¶89

The

professional
previously

referee
misconduct

seen

observation

commented

in

any

seems,

in

"is

at

a

level

Wisconsin
our

all

of

disciplinary

view,

to

be

its

Nora's
own,

cases."

somewhat

not
That

of

an

overstatement.

For example, we revoked the license of Attorney

Alan

when

Eisenberg

he

not

only

commenced

and

continued

a

frivolous claim to harass an opposing party, but repeatedly made
misrepresentations to damage the reputation of an opposing party
and

to

gain

leverage

in

a

pending

divorce

action.

In

re

Disciplinary Proceedings Against Eisenberg, 2010 WI 11, 322 Wis.
2d 518, 778 N.W.2d 645.

While Attorney Nora's misconduct does

share some similar traits with Attorney Eisenberg's misconduct,
his

prior

disciplinary

history

and

the

actions exceed those of Attorney Nora.
believe

that

a

revocation

of

her

culpability

of

his

We therefore do not

license

is

necessary

or

appropriate.
¶90

On the other hand, we agree with the referee that the

OLR's initial analogy to the suspensions imposed on Attorney
John Widule and Attorney Joseph Sommers is inadequate.

The

Sommers I case, in which we imposed a 30-day suspension involved
unusual

mitigating

factors

factually and legally.

and

is

particularly

inapt,

both

The Widule case,13 in which we imposed a

In re Disciplinary Proceedings Against Widule, 2003 WI
34, 261 Wis. 2d 45, 660 N.W.2d 686.
13

45

48a

No.

2015AP2442-D

six-month suspension did involve similar conduct in commencing
and

continuing

factually

a

frivolous

distinguishable.

action,

but

Attorney

that

Widule's

matter

is

also

misconduct

was

limited to one client representation and he had no prior record
of

receiving

public

discipline.

This

is

now

the

third

disciplinary proceeding against Attorney Nora, and it involves
the

fourth

and

fifth

frivolous positions.

actions

in

which

Attorney

Nora

took

Attorney Nora's professional misconduct

warrants a significantly higher level of discipline than the
six-month suspension we imposed on Attorney Widule.
¶91

In

addition,

this

court

has

generally

practice of imposing progressive discipline.

followed

a

In re Disciplinary

Proceedings Against Netzer, 2014 WI 7, ¶49, 352 Wis. 2d 310, 841
N.W.2d

820

("This

court

has

long

adhered

to

the

concept

of

progressive discipline in attorney regulatory cases."); In re
Disciplinary Proceedings Against Nussberger, 2006 WI 111, ¶27,
296 Wis. 2d 47, 719 N.W.2d 501 (". . . we have frequently
followed the concept of progressive discipline, especially in
cases

involving

a

pattern

of

similar

misconduct.").

The

misconduct in this case is similar in nature to the misconduct
found in Nora II, where we imposed a one-year suspension.

A

longer suspension is appropriate here.
¶92
we

Having considered all of the factors discussed above,

conclude

that

a

two-year

suspension

of

Attorney

Nora's

license to practice law in Wisconsin is necessary to impress
upon her the seriousness of her misconduct and to protect the

46

49a

No.

courts

and

the

legal

system

from

a

2015AP2442-D

repetition

of

commented

that

that

misconduct.
¶93

In

his

report

the

referee

he

recommended a two-year suspension, "consecutive to any current
suspensions."

His report, however, was issued while Attorney

Nora was serving the one-year suspension imposed in Nora II.

If

this case had concluded while that one-year suspension remained
in

effect,

it

would

have

been

logical

to

begin

the

current

suspension following the completion of the prior suspension.
¶94

Generally,

disciplinary

suspensions

imposed

by

this

court are prospective—i.e., they commence at the time that the
suspension

is

imposed

or

within

a

few

weeks

thereafter.

Commencing the two-year suspension imposed in this proceeding as
of April 30, 2019, when the one-year suspension from Nora II
expired,

would

"Generally,

a

make

the

retroactive

current

suspension

suspension

is

retroactive.

disfavored

absence of some compelling circumstance."

in

the

In re Disciplinary

Proceedings Against Woods, 2011 WI 46, ¶2, 334 Wis. 2d 324, 800
N.W.2d

875

(citation

omitted).

We

find

no

compelling

circumstance here that would warrant beginning the current twoyear suspension more than one year ago.
¶95

We do, however, recognize that the COVID-19 pandemic

and the attendant matters that have consumed the court over the
last several months have impacted the timing of this decision.
We therefore conclude that it is appropriate to make the twoyear suspension effective as of April 1, 2020.

47

50a

No.

¶96
the

2015AP2442-D

The referee also recommended that this court condition

reinstatement

of

Attorney

Nora's

license

on

"good

faith

efforts by her to pay the tremendous costs incurred by the OLR
and the lawyers of Wisconsin in this disciplinary proceeding."
We do not impose this condition.
ordinarily

be

unnecessary

First, such a condition would

because

a

lawyer's

reinstatement

petition from a suspension of six months or more must show that
the lawyer has fully complied with the terms of the suspension
order, which would ordinarily include a requirement that the
lawyer pay the costs of the disciplinary proceeding.
22.29(4)(c).

See SCR

Further, the condition is not necessary in this

case because, as discussed below, we are not ordering Attorney
Nora to pay the costs of this proceeding pursuant to the OLR's
request.
¶97

We do, however, determine that it is necessary and

appropriate to impose a different condition on any reinstatement
proceeding that Attorney Nora may initiate.

A number of courts

have imposed monetary sanctions on her individually as a result
of

her

filing

frivolous

documents.

Paying

those

monetary

sanctions is an appropriate way for Attorney Nora to demonstrate
that

she

has

accepted

responsibility

for

her

actions.

Consequently, we require as a condition of reinstatement that
any reinstatement petition filed by Attorney Nora (1) identify
each monetary sanction amount that has been imposed on her by
any

court

and

that

is

outstanding

as

of

the

date

of

this

decision and (2) allege that she has made a good faith effort to
pay all such sanction amounts.

She must then prove during the
48

51a

No.

2015AP2442-D

reinstatement proceedings before the referee that she has made a
good faith effort to pay all of the sanction amounts identified
in her petition.

The failure of Attorney Nora to meet these

conditions will be sufficient grounds for the dismissal of her
reinstatement petition.
¶98
Attorney
retaining

The

OLR

Nora's
funds

does

not

misconduct
that

request
at

issue

should

be

any

restitution

did

not

delivered

award.

involve
to

her

others.

Consequently, we do not include restitution in our order.
¶99

Finally, we turn to the issue of costs.

Attorney Nora

filed an objection to the OLR's statement of costs and to the
referee's recommendation regarding costs, based in part on the
fact that the OLR did not provide an itemization initially with
its

statement

of

costs

and

the

referee

submitted

his

recommendation before Attorney Nora filed her objection.

cost
After

oral argument, we issued an order that directed the OLR to file
a supplemental statement of appellate costs with an attached
full itemization of costs and that permitted Attorney Nora to
file a new, comprehensive objection.
¶100 One of Attorney Nora's objections to a cost award was
that she has been pursuing a personal bankruptcy proceeding in
the United States Bankruptcy Court for the District of Minnesota
(the Minnesota bankruptcy court).

On June 15, 2020, the OLR

filed a Revised Recommendation Regarding Costs.

It noted that

the Minnesota bankruptcy court had recently issued a discharge
in bankruptcy to Attorney Nora.

It requested that the court not

49

52a

No.

order

Attorney

Nora

to

pay

the

costs

of

this

2015AP2442-D

disciplinary

proceeding.
¶101 Under the particular circumstances of this matter and
in light of the OLR's request, we will not require Attorney Nora
to pay the costs of this disciplinary proceeding.14
¶102 IT IS ORDERED that the license of Wendy Alison Nora to
practice

law

in

Wisconsin

is

suspended

for

a

period

of

two

condition

of

years, effective April 1, 2020.
¶103 IT
reinstatement,

IS

FURTHER

any

ORDERED,

petition

that

seeking

as

a

reinstatement

from

the

license suspension imposed in this proceeding must (1) identify
each

monetary

sanction

amount

that

has

been

imposed

on

her

individually by any court and that is outstanding as of the date
of this decision and (2) allege that she has made a good faith
effort to pay all such sanction amounts.

In addition, Attorney

Nora must prove during the reinstatement proceedings before the
referee that she has made a good faith effort to pay all of the
sanction amounts identified in her petition.
¶104 IT IS FURTHER ORDERED that no costs shall be imposed
upon Wendy Alison Nora in this proceeding.
¶105 IT

IS

FURTHER

ORDERED

that

the

administrative

suspension of Wendy Alison Nora's license to practice law in
Wisconsin, due to her failure to pay mandatory bar dues and her
failure to file a trust account certification, will remain in

The OLR's supplemental statement of costs indicated that
the costs of this proceeding were $94,997.97.
14

50

53a

No.

2015AP2442-D

effect until each reason for the administrative suspension has
been rectified pursuant to SCR 22.28(1).
¶106 IT IS FURTHER ORDERED that Wendy Alison Nora shall
comply with the provisions of SCR 22.26 concerning the duties of
a person whose license to practice law in Wisconsin has been
suspended.
¶107 IT

IS

FURTHER

ORDERED

that

compliance

with

all

conditions of this order is required for reinstatement from the
suspension imposed herein.

See SCR 22.28(3).

51

54a

APPENDIX B

55a

OFFICE OF THE CLERK

�upr.eme @nurf nf �is.cnnsin
110 EAST MAIN STREET, SUITE 215
P.O. Box 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov

October 21, 2020

To:

JWendy A. Nora

William J. Weigel

Access Legal Services

Heidi Johnson

310 Fourth Ave. S., Ste. 5010

Office of Lawyer Regulation

Minneapolis, MN 55415

110 E. Main St., Ste. 315
Madison, WI 53703

Paul W. Schwarzenbart
Stafford & Rosenbaum

James J. Winiarski

P.O. Box 1784

3625 W. Oklahoma Ave.

Madison, WI 53701

Milwaukee, WI 53215

You are hereby notified that the Court has entered the following order:

No. 2015AP2442-D

Office of Lawyer Regulation v. Wendy Alison Nora

The court having considered the motion of respondent-appellant-cross-respondent,
Attorney Wendy Alison Nora, for reconsideration of this court's July 14, 2020 opinion and order;
IT IS ORDERED that respondent-appellant-cross-respondent's motion for reconsideration
is denied.
JILL J. KAROFSKY, J., did not participate.

Sheila T. Reiff
Clerk of Supreme Court

56a

APPENDIX C

57a

STATE OF WISCONSIN

IN THE SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST, WENDY ALISON NORA,
ATTORNEY AT LAW
CASE CODE 30912
OFFICE OF LAWYER REGULATION

CASE NO. 2015AP002442-D

Complainant;
WENDY ALISON NORA
Respondent.

REFEREE'S REPORT AND RECOMMENDATION

PROCEDURAL HISTORY

The procedural history in this case is long and complicated. OLR first tried to file an
amended complaint in what has become known as Nora # 1 , Disciplinary Proceedings Against Nora,
Supreme Court Case No. 20 1 3AP653-D. When the referee in that case would not allow another
amended complaint, OLR commenced this new disciplinary case, which has become known as Nora
#2.
The Complainant, Office of Lawyer Regulation (hereinafter "OLR"), by Assistant Litigation
Counsel, Sheryl St. Ores, commenced this matter by filing a complaint and order to answer with the
Supreme Court of Wisconsin on November 30, 20 1 5 .

58a

I was appointed referee by the Wisconsin Supreme Court on January 7, 20 1 6.
Immediately after my appointment as referee in this case, I was presented with voluminous
pleadings, motions, briefs, and exhibits. The filings included, but were not limited to:
1.
Verified Jurisdictional Objection and Notice of Motion and Motion for a
Franks Hearing to Dismiss for Lack of Probable Cause; Further or A lternative
Motion to Dismiss for Selective and Vindictive Prosecution; and Further or
Alternative Motion to Dismiss as a Sanction for Bad Faith Initiation and
Continuation of These Proceedings and the Companion Case Identified Herein as
Nora #/.1
A ppendix Partll Exhibits to VerifiedJurisdictional Objection and Notice of
2.
Motion and Motion for a Franks Hearing to Dismiss for Lack ofProbable Cause;
Further or Alternative Motion to Dismissfor Selective and Vindictive Prosecution;
and Further or Alternative Motion to Dismiss as a Sanctionfor Bad Faith Initiation
and Continuation ofThese Proceedings and the Companion Case Identified Herein
as Nora#/.
OLR filed an amended complaint on January 1 9, 20 1 6. Attorney Nora (hereinafter "Nora")
initially did not file an answer. Instead she filed several jurisdictional motions.
Following a scheduling hearing held on February 1 7, 20 1 6, I issued a substantial pre-trial
scheduling order in this matter on February 1 8, 20 16. The scheduling order directed Nora to file any
additional motions and supporting briefs and authorities within twenty (20) days of the scheduling
order. The primary purpose of the scheduling order was to get all motions in front of me so that I
could resolve all pending motions in a timely fashion.
Nora was told she did not need to re-file any motions already filed and that I would consider
them as part of my decision. Nora was also advised that she could file any additional motions, if she
wished.

1

Many of the motions, pleadings, and briefs filed by the parties during this disciplinary proceeding have

long titles. Italics have been used to identi fy all titles.

2

59a

Given Nora's jurisdictional objections, the scheduling order, over the objection of OLR,
allowed Nora to forego the filing of an answer to the amended complaint until the jurisdictional
motions were resolved. The scheduling order also set a date for a hearing. It also set alternative dates
for hearing in the event the first date was not used. The scheduling order provided a discovery
deadline.
On March 7, 20 1 6, Nora filed Supplement to Notice ofMotion and Motionfor Extension of
Time to File Her Motion to Dismissfor Lack ofProbable Cause to Initiate These Proceedings; for
a Franks Hearing to Dismissfor Lack ofProbable Cause; Further or Alternative Motion to Dismiss
for Selective and Vindictive Prosecution; and Further or Alternative Motion to Dismiss as a
Sanctionfor Bad Faith Initiation and Continuation ofThese Proceedings and the Companion Case
Previously Identified as Nora #1 (and Reservation ofRight to File Further Motions to Dismiss as
a Sanctions for OLR 's Bad Faith Continuing Conduct).
On March 8, 20 1 6, Nora filed Notice ofFiling ofProposed Modified A mended Complaint
Excluding Allegations ofFact Known to be False or Pleaded with Reckless Disregardfor the Truth
and Excluding Misrepresentations of Law and Mixed Allegations of False Facts and
Misrepresentations ofLawfor Determination ofProbable Cause on the Remaining Allegations at
a Franks Hearing.
On March 28, 20 1 6, OLR filed OLR's Response to Respondent's Supplement to Motion.
On April 1 4, 20 1 6, Nora filed Reply on Respondent 's Jurisdictional Objection and Motions
to Dismiss for Lack of Probable Cause to Initiate These Proceedings; for a Franks Hearing to
Dismiss for Lack ofProbable Cause; Further or Alternative Motion to Dismiss for Selective and
Vindictive Prosecution; and Further or Alternative Motion to Dismiss as a Sanctionfor Bad Faith
3

60a

Initiation and Continuation ofThese Proceedings and the Companion Case Previously Identified
as Nora #1 (and Reservation ofRight to File Further Motions to Dismiss as a Sanctionsfor OLR 's
Bad Faith Continuing Conduct).
On April 26, 20 1 6, I issued a Decision on All Pending Motions. A ll ofNora's motions were
denied. Nora was given twenty (20) days from the date of the Decision to file an answer to the
amended complaint. Nora was advised that there would be no extensions ofthe twenty (20) day time
limitation. Both parties were advised that all remaining terms of the scheduling order issued on
February 1 8, 20 1 6, remained in effect and were to be followed by the parties.
On April 26, 20 1 6, OLR filed a Counsel Reassignment Notice. On the same date, Attorney
Paul W. Schwarzenbart filed a notice of appearance on behalf of the Office of Lawyer Regulation,
replacing OLR Assistant Litigation Counsel Sheryl St. Ores.
On May 1 6, 20 1 6, once the motions were resolved, Nora filed an Answer and Affirmative
Defenses; Continuing Objection and Reservation ofRights to the amended complaint.
On May 1 6, 20 1 6, Nora also filed two motions:
1 . Notice of Motion and Motion for Damages Pursuant to Wis. Stats. Sec.
895. 044.
2. Notice of Motion and Motion to Disqualify A ttorney Paul W.
Schwarzenbart of Stafford Rosenbaum, LLP as Counsel for the Office of Lawyer
Regulation for Conflict of Interest, as a Material Witness and as Complicit in
Concealment ofCrimes Committed by Attorney David M Potteiger and Employees
and Agents ofthe Office ofLawyer Regulation in Case No. 201 3AP000653- D.

On or about May 1 9, 20 1 6, Attorney Schwarzenbart made a letter request to me to set a
briefing schedule in relation to Nora's motions.
On May 20, 20 1 6, Nora filed Objection to Letter Requestfor Briefing Schedules on Motion
for Damages Pursuant to Wis. Status. Sec. 895. 044 andfor the Disqualification ofAttorney Paul W.
4

61a

Schwarzenbart andDemandfor Evidentiary Hearing on Motionfor Damages. In her objection, Nora
also indicated she may file an amended motion to disqualify Attorney Schwarzenbart. Nora also
filed CorrectedAnswer andA ffirmative Defenses; Continuing Objection and Reservation ofRights.
On May 24, 20 1 6, I issued an Order: overruling Nora's objection to a briefing schedule;
giving Nora five (5) days from the date ofthe Order to file any amended motion; giving Nora fifteen
( 1 5) days from the date of the Order to file any briefand/or affi davits in support of her two motions;
giving OLR fi fteen ( 1 5) days from receipt of Nora's brief to file a response to Nora's brief and
motions; and giving Nora five (5) days from receipt ofOLR's brief to file a reply. Both parties were
previously advised of the hearing dates in this matter and my reluctance to delay the disciplinary
hearing in this case .
On May 25, 201 6, Nora filed Notice ofMotion and A mended Motion to Disqualify Attorney
Paul W. Schwarzenbart ofStafford Rosenbaum. LLP as Counselfor the Office ofLawyer Regulation
for Conflict of Interest, as a Material Witness and as Complicit in Concealment of Crimes
Committed by Attorney David M Potteiger and Employees and Agents of the Office of Lawyer
Regulation in Case No. 2013AP000653- D.
On June 3, 20 1 6, OLR filed:
1.

Notice ofMotion and Complainant's Motion to Amend or Correct Pleadings.

2.

Briefin Support of Complainant's Motion to Amend or Correct Pleadings.

3.

Affidavit ofPaul W. Schwarzenbart in Support ofComplainant's Motion to Amend
or Correct Pleadings.

4.

Affidavit of Travis
Correct Pleadings.

5.

Complainant's Brief Opposing Respondent's Motion for Damages (Wis. Stat.
§895. 044).

J.

Stieren in Support of Complainant's Motion to Amend or

5

62a

On June 9, 20 1 6, OLR filed Complainant Office of Lawyer Regulation's Brief Opposing
Respondent Nora's Motion to Disquaf!fy Counsel andAffidavit ofPaul W. Schwarzenbart Opposing
Respondent 's Motion to Disqualify Counsel.
On July 9, 20 1 6, Nora filed Notice ofFiling Email Activities and Eventsfor the Record.
On July 1 1 , 20 1 6, Nora filed Motionfor Relieffrom Scheduling Orders.
On July 1 3, 20 1 6, I issued an order setting a briefing schedule. Nora's motion for relief from
prior scheduling orders was denied. I had already advised the parties in prior orders that I would not
change the date of the hearing or the discovery and witness deadlines set forth in my initial
scheduling order.
Both parties were advised that any future motions in this case must take the form of a motion
stating the precise relief sought, followed by a separate brief or argument in support of the motion,
limited to ten (1 0) pages. Any brief or argument had to be related to the motion. I reserved the right
to give no consideration to argument that was not related to the specific motion and I would not
consider arguments that were repetitious in nature to arguments previously advanced by a party and
denied. The parties were advised that if they chose to file a motion for reconsideration, the motion
should be properly titled as a motion for reconsideration.
On July 22, 20 1 6, Nora filed Verified Notice of Motion to Withdraw her May 16, 2016
A1otion for Damages and her May 25, 2016 Amended Motion to Disqualify Attorney Paul

W.

Schwarzenbart Based on Discovery ofNew Evidence andfor Leave to Re- File Her Motions Based
on Newly Discovered Evidence and, in the Alternative, to Supplement Her Motions.
On July 28, 20 1 6, I issued an order denying Nora's Motion to Withdraw her May 16, 2016
Motion for Damages and her May 25, 20 1 6 Amended Motion to Disqualify Attorney Paul
6

W.

63a

Schwarzenbart Based Upon Discovery ofNew Evidence. Nora's motion for damages and motion to
disqualify Attorney Paul W. Schwarzenbart had been pending a substantial period of time. The
parties and I had all incurred substantial time in relation to Nora's two pending mot ions. While Nora
attempted to argue that there was "newly discovered evidence" in relation to her pending motion for
damages and her pending motion to disqualify Attorney Paul W. Schwarzenbart, there was nothing
in the motions or attachments to support the claim that there was "newly discovered evidence" of a
relevant nature.
On August

I,

20 1 6, OLR fi led Reply Briefin Support of Complainant's Motion to Amend

or Correct Pleadings.
On August 1 6, 20 1 6, I issued a Decision on Pending Motions and Order. Nora's motion for
damages pursuant to Wis. Stat . §895.044 and motion for disqualification ofOLR's counsel, Attorney
Paul W. Schwarzenbart, were denied. OLR's motion to amend or correct pleadings was granted.
Nora was warned that any future motions filed by her may not be repetitive to motions previously
filed and ruled upon and that repetitive motions would be summarily denied and opposing party
would not be required to file opposing briefs. A motion for reconsideration, however, was
appropriate.
Nora and OLR were again advised that all future motions filed by either party should take
the form of a simple statement of the motion, accompanied by a separate supporting single brief of
no more than ten ( 1 0) pages. The motion and supporting argument were to be separated into separate
documents and a "run-on" presentation of a motion and argument in a single document was not
permitted. Parties were warned that non-compliance would result in me summarily dismissing any
such motion.
7

64a

On August 1 7, 20 1 6, Nora filed:
1. Jurisdictional Objection and Notice ofMotions and Motions: (1)To Dismissfor
Lack of Subject Malter and Personal Jurisdiction; and Alternative Motions (2)
To Require the Filing and Service of the Second Amended Complaint; (3) To
Allow Filing ofa Response to the Second Amended Complaint Upon Service; (4)
For ReliefFrom Scheduling Order; (5) For Continuance ofProceedings to the
Alternative Hearing Date Set Forth in the February 1 8, 2016 Scheduling Order;
Reserving Rights to Amend Motionfor Writ ofMandamus Requiring Referee to
Provide Respondent With Right to be Heard.
2.

Brief in Support ofJurisdictional Objection and Motions: (1) To Dismiss for
Lack ofSubject Matter and Personal Jurisdiction; and A lternative Motions (2)
To Require the Filing and Service of the Second Amended Complaint; (3) To
Allow Filing ofa Response to the Second Amended Complaint Upon Service; (4)
For ReliefFrom Scheduling Order; (5) For Continuance ofProceedings to the
Alternative Hearing Date Set Forth in the February 1 8, 2016 Scheduling Order;
Reserving Rights to Amend Motionfor Writ ofMandamus Requiring Referee to
Provide Respondent With Right to be Heard.

I issued an Order dated August 1 8, 20 1 6, in relation to Nora s brief and motions filed on
•

August 17, 201 6. OLR was given until August 26, 20 1 6, to file a response or a brief in relation to
said motions. Nora had until September 2, 20 1 6, to file any reply to OLR•s brief or response. The
parties were reminded that given the time restraints and the scheduled hearing in this matter, time
limitations would be strictly enforced, and that pursuant to my Order of August 1 6, 20 1 6, OLR
should file its amended complaint as soon as possible. Nora would have the statutory time period
from the date of receipt to file an answer.
On August 1 8, 20 1 6, OLR filed a Second Amended Complaint.
I issued an Order on August 23, 20 1 6. The final adjourned scheduling conference then
scheduled for August 30, 20 1 6 was postponed, and the parties were advised a new date would be set
in a future order. The parties were advised that the remaining deadlines set forth in the original
scheduling order dated February 1 8, 20 1 6, remained in effect.
8

65a

On August 23, 20 1 6, OLR fi led:
1.

Notice ofMotion and Complainant 's Motion to Determine Sufficiency ofResponses
to Requests for Admissions and Alternative Motion to Take Judicial Notice.

2.

Complainant 's Briefin Support ofMotion to Determine Sufficiency ofResponses to
Requests for A dmissions and Alternative Motion to Take Judicial Notice.

3.

Affidavit of Paul W Schwarzenbart in Support of Complainant 's Motion to
Determine Sufficiency of Responses to Requests for A dmissions and Alternative
Motion to Take Judicial Notice.

On August 23, 20 1 6, Attorney John William Verant fi led an Applicationfor Pro Hac Vice
on behalf of Nora.
On August 24, 201 6, Attorney Verant filed a Notice ofLimitedAppearance by Attorney John
William Verant, Pro Hac Vice.
On August 25, 20 1 6, OLR filed Complainant's Response to Respondent's Jurisdictional
Objection and Motions Filed A ugust 17, 2016 and A ffidavit ofPaul

W.

Schwarzenbart Opposing

Respondent's Jurisdictional Objection and Motions Filed A ugust I 7, 2016.
On August 26, 201 6, Nora filed Verified Objection to A ugust 23, 2016 Motion to Determine
Sufficiency ofResponses to Requestsfor Admission and Alternative Requestfor Judicial Notice and
Objection to A ugust 24, 2016 Order.
On August 29, 201 6, Nora filed Briefin Opposition to August 23, 2016 Motion to Determine
Sufficiency ofResponses to Requestsfor Admission and Alternative Requestfor Judicial Notice and
Objection to August 24, 2016 Order and Reply on Objection to Continuing Effect ofFebruary 18,
2016 Scheduling Order Enter on Apparent Jurisdiction Under January 19, 2016 Amended
Complaint Now Replaced by Second Amended Complaint Filed on A ugust 1 8, 2016 Divesting
Tribunal ofSubject Matter Jurisdiction (or Competency to Proceed) .
9

66a

Given the filing of the Second Amended Complaint by OLR, the original scheduling order
in this matter needed to be revised in a limited fashion. I issued an order on August 3 1 , 20 1 6.
Alternative hearing dates were scheduled in the initial scheduling order dated February 1 8, 20 1 6, in
the event the initial hearing dates became impossible. The hearing in this matter would now proceed
on the alternative hearing date of October 3 1 , 20 1 6 at 8:30 a.m. The hearing would continue on
November 1 , 20 1 6, through November 4, 20 1 6, at 8:30 a.m., and again on November 7, 20 1 6,
through November 9, 20 1 6, at 8:30 a.m., if necessary. The hearing was be held at Gramann
Reporting, Large Conference Room, 1 4 West Mifflin Street, Suite 3 1 1 , Madison, Wisconsin 53 703 .
The deadline for discovery had been August 30, 201 6. However, given the filing of the
second amended complaint, a new deadline for limited additional discovery was now October 1 7,
20 1 6. Any additional discovery was strictly limited to discovery necessitated by the two minor
changes made in the second amended complaint. The parties were limited to discovery in relation
to the revised case number in paragraph 6 of the second amended complaint and the change in
language found in paragraph 1 9 of the second amended complaint. Parties were advised that
restrictions on discovery would be strictly enforced and interpreted narrowly.
The deadline for Nora to name her witnesses had been July I, 20 1 6. Nora had not
named any witnesses. Nora would now have until September 20, 201 6, to name any witnesses
necessitated by the two minor changes made in paragraph 6 and paragraph 1 9 ofthe second amended
complaint. Evidence and testimony from any such witnesses would be strictly limited to the changes
made in the second amended complaint. A final telephonic scheduling conference was scheduled for
October 22, 20 1 6, at 1 1 :00 a.m.

10

67a

On September 7, 20 1 6, Nora filed Preliminary, Contingent List ofRespondent's Witnesses
and Jurisdictional Objection Maintaining and Preserving Motion to Dismiss for Lack ofSubject
Matter Jurisdiction or Competency ofthe Tribunal; Conditional Answer and A ffirmative Defenses;
Allegations in Support ofAction for Damages Under Wis. Stats. Sec. 895. 044 and Reservation of
Rights.
On September 7, 20 1 6, Nora filed Jurisdictional Objection Maintaining and Preserving
Motion to Dismiss for Lack of Subject Mauer Jurisdiction or Competency of the Tribunal;
Conditional Answer and A ffirmative Defenses; Allegations in Support ofActionfor Damages under
Wis. Slats. Sec. 895. 044 and Reservation ofRights.
Nora did not comply with the original scheduling order in relation to the discovery deadline
of August 30, 20 1 6. She attempted to use the filing of the second amended complaint as an excuse
for discovery after the discovery deadline had passed. Given the brevity o fthe new allegations in the
second amended complaint, Nora was denied any additional discovery.
On September 8, 20 1 6, Nora fi led Revised Declaration ofService Jurisdictional Objection
Maintaining and Preserving Motion to Dismiss for Lack of Subject Matter Jurisdiction or
Competency ofthe Tribunal; Conditional Answer andA ffirmative Defenses; Allegations in Support
ofAction for Damages Under Wis. Stats. Sec. 895. 044 and Reservation ofRights.
I issued an Order on September 1 5, 20 1 6. Complainant's Motion to Determine Sufficiency
of Responses to Requests for Admissions and Alternative Motion to Take Judicial Notice was
granted. Pursuant to Wis. Stat. § 804. 1 l(l)(c), the copies of the exhibits served upon Nora with
OLR's requests for admissions, which documents constitute the complainant's proposed trial exhibits
filed and served in this matter, were found to be true and authentic copies of what the documents
were purported to be, as they are described in the requests for admissions. The admissibility of the
11

68a

documents at trial was not a subject of OLR's motion heard on August 30, 20 1 6, and the
admissibility of the documents was reserved for trial.
On September 1 5, 20 1 6, Nora filed Objection to Entry ofProposed Order and Motion for
Reconsideration/or Oral Ruling ofAugust 30, 2016.
On September 20, 20 1 6, Nora filed Final List ofWitnesses on Behalfof Wendy Alison Nora.
On September 20, 20 1 6, I issued a Decision on Pending Motions and Order. Nora's motion
to dismiss for lack of subject matter and personal jurisdiction was denied. Nora's motion to require
the filing and service of a second amended complaint was moot and was denied. Nora's motion to
allow filing ofa response to the second amended complaint was moot given that the second amended
complaint was filed and answered by Nora. Nora's motion for relief from the scheduling order was
moot given that changes had already been made to the original scheduling order. Nora's motion for
continuance of proceedings to the alternative hearing dates set forth in the February 1 8, 20 1 6,
scheduling order was moot given such changes had already been made to the original scheduling
order. Said motion was therefore denied.
On September 23, 20 1 6, OLR filed:
I. Notice of Motion and Complainant's Motion to Strike Answer and for Default and

Alternative Motion for Other Relief
2. Complainant's Brief in Support of Motion to Strike Answer and for Default and
Alternative Motion for Other Relief
3. A ffidavit of Paul W. Schwarzenbart in Support of Complainant 's Motion to Strike
Answer andfor Default and A lternative Motionfor Other Relief
On September 26, 20 1 6, I issued an order denying Nora's Objection to Entry ofProposed
Order and Motionfor Reconsideration of Oral Ruling ofAugust 30, 2016.

12

69a

On September 27, 20 1 6, I issued a Decision and Order. OLR had filed a motion to Strike
Respondent's Responsive Pleading Filed on September 8, 2016. In the alternative, OLR asked for
an order striking Nora's new list of witnesses filed on September 7, 20 1 6 and September 20, 20 1 6,
and for a protective order in relation to the voluminous discovery requests filed by Nora as a result
of the filing of the second amended complaint.
The initial scheduling order contained a discovery deadline of August 30, 201 6. The initial
scheduling order also provided that OLR was to name witnesses by June 1 , 20 1 6. Nora was to name
her witnesses by July 1 , 20 1 6. The initial scheduling order further provided that copies of all hearing
exhibits were to be filed with me by August 30, 20 1 6. Nora did not name any witnesses by July 1 ,
20 1 6. Nora did not file any exhibits by August 30, 20 1 6. The time for discovery ended August 30,
20 1 6.
On August 1 6, 20 1 6, I granted a request by OLR to file a second amended complaint. As
referenced in prior orders I had issued, the second amended complaint made very nominal changes
to the prior amended complaint. Allegations in paragraph 6 of the original amended complaint were
changed in the second amended complaint to accurately identify a Wood County case which was the
subject matter of OLR's allegations. OLR had misidentified the case number of the Wood County
case. I had previously found that Nora was fully aware of the error and that she was fully aware of
the identity of the correct Wood County case. Her initial responsive pleading shows there was no
confusion on her part. In addition, OLR changed the allegations in paragraph 1 9 of the second
amended complaint such that "three additional unlawful ex parte letter communications" was
changed to "three additional unlawful ex parte communications."

13

70a

As a result of the filing of the second amended complaint, Nora had the right to file an
answer to the second amended complaint. That answer was filed on September 7, 20 1 6. Despite the
brevity of the changes made in the second amended complaint, Nora filed a 1 28 page "answer" to
the second amended complaint. Much of the answer to the second amended complaint was argument.
While Nora had the right to answer the allegations in the second amended complaint and to set forth
all defenses to the allegations, argument was not permitted. Briefs are used to present argument, not
1 28 page answers which were a combination of defenses and arguments.
The changes to paragraph 6 and paragraph 19 as alleged in the second amended complaint
did not reopen all the deadlines set forth in the original scheduling order. By way of several orders
I had previously issued in this case, I had stated that the discovery deadline, the deadline for naming
witnesses, and the deadline for providing exhibits was extended to October 24, 20 1 6, only in relation
to the revised allegations in paragraph 6 and paragraph 1 9 of the second amended complaint.
Nora was given the ability to conduct any additional necessary discovery in relation to the
changes made to paragraph 6 and paragraph 1 9 of the second amended complaint. She was also
given the opportunity to name any witnesses that were directly related to those changes. She could
also file any necessary exhibits in relation to the changes made in the second amended complaint.
However, Nora did not have the right to conduct wholesale discovery, the naming of witnesses, or
the filing of proposed exhibits based upon the very limited changes made to paragraph 6 and
paragraph 1 9 in the second amended complaint, given she had missed deadlines in the original
scheduling order.
I had previously warned Nora that the filing of the second amended complaint did not
generally reopen and establish new overall deadlines for discovery, the naming of witnesses, or the
14

71a

filing of exhibits. Nora's actions in filing voluminous discovery demands after the filing of the
second amended complaint shows that she either did not understand my previous orders permitting
very limited additional discovery or she was blatantly disregarding orders I had previously issued.
Nora repeatedly asserted her defense that OLR had lost jurisdiction in this case given her
allegations that the Preliminary Review Committee had not approved the revised allegations now
made in paragraph 6 and paragraph 1 9 of the second amended complaint. I had previously ruled that
the changes were nominal and did not require re-approval by the Preliminary Review Committee.
The essence of the misconduct in this case was before the Preliminary Review Committee and they
found probable cause to proceed with a disciplinary complaint. The issue before the Preliminary
Review Committee was not the precise case number in the Wood County case or the precise
allegations as found in paragraph 1 9 of the second amended complaint. It is clear from the record
in this case that the Preliminary Review Committee considered what happened in the only Wood
County foreclosure case before them. The changes in the second amended complaint were technical
in nature and I was satisfied were part of the totality of the materials presented to the Preliminary
Review Committee in support of the finding of probable cause to proceed with the disciplinary
complaint in this case.
Despite being warned that the filing of the second amended complaint did not reopen all
deadlines Nora had missed as set forth in the original scheduling order, Nora named 46 witnesses,
including 1 4 judges. She served seven new sets of discovery constituting 3 1 0 new inquiries. She
made 309 requests for production, 1 30 interrogatories and an additional 226 requests for admissions.
She did all of this despite my clear orders which restricted any additional discovery, naming of

15

72a

witnesses, and filing of exhibits to the precise changes made in paragraph 6 and paragraph 1 9 of the
second amended complaint.
OLR' s motions were held in abeyance pending further consideration by me. Nora was given
ten ( 1 0) days from the date of the order to file a brief setting forth her arguments explaining how
each of her new discovery requests and her newly named witnesses related specifically to the new
allegations in paragraph 6 and paragraph 1 9 of the second amended complaint. Generalizations were
not permitted and Nora was to explain how the changes in paragraph 6 and paragraph 1 9 resulted
in the need for each new discovery demand and each newly named witness. In relation to any
exhibits Nora now wished to file, she was to explain why they were now necessary given the changes
made to paragraph 6 and paragraph 1 9 of the second amended complaint. OLR was not required to
respond to any of the new discovery requests pending further order. Nora was also to file a revised
answer to the second amended complaint. The answer was to set forth only her answers to the
allegations of the second amended complaint and her defenses. The answer was not to contain any
argument. Nora was given the opportunity to file a separate brief, if she wished, in relation to her
answers and defenses. Said amended answer was due ten ( 1 0) days from the date of the order. Both
parties were again advised that there would be no further adjournments of the hearing scheduled to
begin on October 3 1 , 20 1 6.
On October 7, 20 1 6, Nora filed Objection to September 7, 2016 Ultra Vires, Void or Invalid
and Unconstitutional Order.
In my order dated October 1 3 , 20 1 6, Nora was given one more opportunity to file an
appropriate answer to the second amended complaint. The order stated the answer may not contain
argument and must be limited to admitting or denying the allegations of the second amended

16

73a

complaint and stating any affirmative defenses alleged by Nora. Nora was given ten ( 1 0) days from
the date of the order to file her answer to the second amended complaint.
On October 20, 20 1 6, Nora filed Notice of Filing of Four Versions of Revised Answer and
Affirmative Defenses; Continuing Objection and Reservation of Rights Under Threat of Default
Under Protest

and Errors in Syntax and Typographical Errors Corrected in Bold Italics for the

Record for Filing Only and Renumbered Paragraph I72 (Not in Italics) Objection to September 27,
2016 Ultra Vires, Void or Invalid and Unconstitutional Order (Not a Motion for Reconsideration
of Order dated October I 3, 20 I 6) and Brief in Opposition to Ultra Vires and Unconstitutional
Motions in Proceedings Continuing Without Subject Matter Jurisdiction or Competency

Under

Protest.

On October 20, 201 6, OLR filed Complainant's Supplemental Brief in Support of Motion to
Strike Answer and for Default and A lternative Motion for Other Relief The motion was held open.
After several hearing dates became impossible, the disciplinary hearing in this case was again
scheduled to begin on October 3 1 , 20 1 6, in Madison, Wisconsin. On the morning of the hearing,
Nora filed Emergency Motion for Continuance, Nora' s Affidavit in Support of Emergency Motion
for Continuance and Verant's Affidavit in Support of Emergency Motion for Continuance. Nora
requested an adjournment due to alleged medical problems being experienced by her co-counsel,
Attorney John William Verant.
Given the request for adjournment, I scheduled a telephonic scheduling conference for 9:00
a.m. on October 3 1 , 20 1 6. Further, I made many telephone calls and wrote many emails to the court
reporter and various other individuals involved, given the need to cancel the hearing. When I first
received Nora's emails, both the court reporter and I were in the process of beginning our travel to
Madison for the hearing, which was to begin at 8:45 a.m.
17

74a

Present for the telephonic scheduling conference at 9:00 a.m. on October 3 1 , 20 1 6, was
Attorney Paul W. Schwarzenbart on behalf of OLR. Nora appeared in person. Attorney Verant,
according to Nora, was unavailable for the scheduling conference.
On October 3 1 , 20 1 6 , I issued an order scheduling new hearing dates. The hearing was now
scheduled for November 1 7, 20 1 6, continuing on November 1 8, 20 1 6 through November 2 1 , 20 1 6,
in Madison, Wisconsin.
On October 3 1 , 20 1 6, Nora made an offer of proof which included hundreds of pages of
documents and exhibits.
This matter came on for hearing in Madison, Wisconsin, on November 1 7, 20 1 6. OLR
appeared by Attorney Paul W. Schwarzenbart. The respondent, Attorney Wendy Alison Nora,
appeared in person.
Nora, prior to the commencement of the hearing, filed by e-mail, a motion entitled "Second
Emergency Motion for Continuance Based Upon New Evidence and Constitutional Objection
Pursuant to Article One, Section 21 of the Wisconsin Constitution, Wis. Stats. Sec. 802. 045 and the
Due Process and Equal Protection Clauses of the Fourteenth Amendment to the United States
Constitution". Given the late filing ofthe motion and the scheduled disciplinary hearing, the motion
was dealt with at the commencement of the hearing in Madison, Wisconsin.
Both parties were given the opportunity to be heard on the motion. OLR asked that the
motion be denied and that OLR's pending motion for default judgment be granted. Nora argued that
she needed her co-counsel to be present for the hearing. She further argued that the medical condition
of Attorney Verant was such that he could not drive or participate in the scheduled hearing.

18

75a

Nora further argued that she could not find substitute co-counsel in time for the scheduled
hearing.
I advised Nora that I was concerned with another last minute motion to adjourn the hearing.
I further advised her that there was really no reason I should not grant OLR's motion for default,
given the delays and dilatory conduct which had already occurred in this case. I advised both parties
that a new hearing would be scheduled, but that I would be most reluctant to grant a fourth
adjournment of the hearing in this case. Both counsel were advised to be prepared on the next
hearing date and that excuses and further requests for adjournment would not be tolerated.
On November 28, 20 1 6, I issued an order scheduling new hearing dates. The disciplinary
hearing in this case would now take place on January 1 9, 20 1 7, at 8:30 a.m. at the Milwaukee Bar
Association Building, 424 East Wells Street, the Cardozo Room, Milwaukee, Wisconsin. The
hearing would continue on January 20, 20 1 7, at 8:30 a.m. at the same location. The hearing would
continue on January 23, 201 7, in Madison, Wisconsin at Gramann Reporting, Large Conference
Room, 1 4 West Mifflin Street, Suite 3 1 1 , Madison, Wisconsin. The hearing would continue in
Madison on January 24, 20 1 7, through January 27, 20 1 7, if needed. The hearing would commence
each morning at 8:30 a.m.

On January 1 8, 20 1 7, this matter came on for a telephonic motion

hearing in Milwaukee, Wisconsin, at approximately 1 0:30 a.m., to consider an "emergency" motion
that was filed by Attorney John William Verant for adjournment of the disciplinary hearing
scheduled to begin on January 1 9, 20 1 7. The hearing was reported by Rosanne Pezze, RPR/CPR
from Gramann Reporting. Appearances were Attorney Paul W. Schwarzenbart on behalf of the
Office ofLawyer Regulation. Attorney John William Verant appeared on behalf of Attorney Wendy
Alison Nora. Nora did not appear by telephone for the motion hearing.
19

76a

Attorney Verant indicated that Nora had fallen and sustained a concussion on January 1 7,
20 1 7. He further indicated that she had been conveyed by ambulance to a Madison hospital where
a concussion was diagnosed. Attorney Verant further explained that the treating physician indicated
Nora would have lingering affects from the concussion and would not be in condition to attend the
seven day hearing scheduled to begin on January 1 9, 20 1 7, in Milwaukee.
After hearing argument from both attorneys, I explained my concern with the fact that this
was the third emergency motion for a continuance in this case. The first occasion occurred on the
morning of the hearing scheduled on October 3 1 , 20 1 6. That hearing was adjourned based upon
representations that Attorney Verant had back issues that made his attendance at the hearing
impossible. On, November 1 7, 20 1 6, the disciplinary hearing in this case was again postponed
because Attorney Verant continued to have medical problems in relation to his back, which again
made it difficult for him to attend the scheduled disciplinary proceeding. I advised the parties that
after two emergency adjournments of the hearing I was most reluctant to grant an additional
adjournment. I further advised Attorney Verant that all these "emergency" requests for adjournment
were made at the last moment. Attorney Schwarzenbart expressed concern with the fact that his first
two witnesses had now been scheduled and postponed on three occasions. In addition, I noted that
OLR, and I as referee in this matter, had also incurred substantial time and expense in scheduling
multiple hearings, only to have them postponed at the last moment.
On January 1 9, 20 1 7, I issued an Order that the disciplinary hearing in this case would
commence on February 1 5, 20 1 7, at 8:30 a.m. at the Milwaukee Bar Association Building, 424 East
Wells Street, the Cardozo Room, Milwaukee, Wisconsin. The hearing would continue on February
1 6, 20 1 7 and February 1 7, 20 1 7 in relation to the Milwaukee witnesses and in accordance with
20

77a

Attorney Schwarzenbart's desired presentation of evidence. The hearing would move to Madison at
Gramann Reporting, Large Conference Room, 1 4 West Miffiin Street, Suite 3 1 1 , Madison,
Wisconsin, on February 20, 20 1 7, through February 24, 20 1 7, if necessary. The hearing would
commence each morning at 8 :30 a.m.
Attorney Verant was ordered to file copies of all medical and hospital records in relation to
Nora's injuries which occurred on January 1 7, 20 1 7. Said medical records were to be filed no later
than ten ( 1 0) days from the date of the order. Attorney Verant was also ordered to provide me with
an updated medical report fi fteen ( 15) days from the date of the order as to the condition and
recovery of Nora. As an alternative, Attorney Verant asked for and was granted the right to file a
single letter from him or Nora indicating she was completely recovered from her concussion.
On Thursday, February 9, 20 1 7, this matter came on for a telephonic status hearing. I
arranged for the telephonic conference after receiving e-mails and communications from Nora
indicating she was still suffering from the effects of a concussion which had occurred on January 1 7,
20 1 7. OLR appeared by their counsel, Attorney Paul W. Schwarzenbart. Attorney John William
Verant appeared as co-counsel on behalf of Nora. Attorney Wendy Alison Nora also appeared in
person. All appearances were by telephone. The hearing was reported by Carla J. Van Roo,
RPRJCRR from Gramann Reporting.
At the time of this hearing, Nora was not in compliance with my order of January 1 9, 20 1 7.
That order required Attorney Verant or Nora to provide me with an updated medical report within
fifteen ( 15) days from the date of that order. I received no such medical report.
Nora indicated she had received no additional medical treatment since the emergency room
treatment received following her fall on January 1 7, 20 1 7. She indicated she only returned to the
21

78a

emergency room on February 8, 20 1 7, the day before this hearing. She explained that her new
primary physician in Verona would not see her until she returned to the emergency room and had
a CAT scan. While the transcript of the hearing speaks for itself, two items stood out to me as
referee. First, Nora acknowledged that since she sustained the concussion, she had traveled to Las
Vegas with Attorney Verant in relation to legal matters in Las Vegas. Secondly, while Nora asserted
continuing memory issues, slowness in her thinking and other symptoms of the concussion, she
sought no additional medical treatment until she returned to the emergency room on the day before
the scheduled telephonic conference.
On February 1 4, 20 1 7, I issued an Order scheduling new hearing dates in this matter. The
hearing was now scheduled to commence on March 22, 20 1 7, at 8:30 a.m. at the Milwaukee Bar
Association Building, 424 East Wells Street, the Cardozo Room, Milwaukee, Wisconsin. The
hearing would continue in Milwaukee on March 23, 20 1 7, and March 24, 20 1 7 at 8:30 a.m., in
relation to the Milwaukee witnesses and in accordance with Attorney Schwarzenbart's desired
presentation of evidence. The hearing would move to Madison at Gramann Reporting, Large
Conference Room, 1 4 West Miffiin Street, Suite 3 1 1 , Madison, Wisconsin, on March 27, 20 1 7. The
hearing would continue in Madison on March 28, 20 1 7, through March 3 1 , 201 7, until completed.
The hearing would commence each morning at 8:30 a.m.
Nora was ordered to provide an updated medical report from her treating physician(s)
indicating her condition, treatment, and compliance with suggested medical procedures in relation
to her concussion symptoms within ten ( 1 0) days of the order. In lieu of such medical report, Nora
was to file a letter indicating she had recovered from her concussion and related symptoms.

22

79a

It was also ordered that if Nora continued to suffer from symptoms of her concussion, that
an updated medical report should be filed by Nora no later than March 13, 2017.
On March 6, 2017, Nora filed Notice of Filing Under Protest: Medical "Update" and
Confidential Medical Records Filed Under Seal Pursuant to Wis. Stats. Sec. 146. 82(1).
The hearing in this matter commenced at the Milwaukee Bar Association, 424 East Wells
Street, Milwaukee, Wisconsin, on March 22, 2017, at approximately 9:30 a.m. The hearing
continued in Milwaukee on March 23, 2017, and March 24, 2017. The hearing concluded at
approximately 4:21 p.m., on March 27, 2017, at Gramann Reporting, Large Conference Room, 14
West Mifflin Street, Suite 311, Madison, Wisconsin.
On March 30, 2017, I issued a Post- Hearing Order giving the parties an opportunity to file
additional argument. OLR was given forty-five (45) days from the date of the filing of the hearing
transcript to submit any additional written argument and any authorities in support of requested
discipline in this case. While a formal brief was optional, a memorandum providing additional
argument and authorities was also appropriate. Nora was given forty-five (45) days from the date
OLR filed their brief to respond to OLR's argument and authorities, and to provide any additional
argument or authorities as Nora wished. OLR would then have twenty (20) days from the date of
filing of Nora's brief to reply to any written arguments submitted by Nora.
On April l 7, 2017, Nora filed First Statement of Supplemental A uthority March 23, 2017,
Opinion in Sundquist

V.

Bank of America N.A.

On May 15, 2017, OLR filed Complainant's Post- Trial Brief.
On May 26, 2017, Nora filed Verified Molion for Extension of Time to File Post- Hearing
Brief and Appendix in Response to the Complainant's May 15, 2017 Brief.
23

80a

On June 8, 2017, I issued an order giving Nora until July 24, 2017, to file her post-hearing
brief.
On July 20, 2017, Nora filed Second Motion for Extension of Time to File Post- Hearing
Brief I received the motion on July 24, 2017, upon my return from a vacation. Nora made two
arguments in support of her motion. First,she maintained that she continued to suffer memory and
related issues as a result of a fall on January 17, 2017. Nora supplied no additional supporting
medical information for her request for a second extension. Also, Nora argued for the first time that
she intended to rely on an unofficial video of the disciplinary hearing by an outside alleged reporter,
rather than the official court reporter transcript, to prepare her post-hearing brief. I noted that Nora
was aware at the conclusion of the hearing on March 27, 2017, that the subject video would be
incomplete given that the alleged reporter had been removed from the hearing room prior to the
completion of the hearing.
On July 21, 2017, OLR filed Complainant's Brief Opposing Respondent's Second Motion
for an Extension of Time to File Post- Hearing Response Brief
On July 24, 2017, I issued an Order in relation to Nora's motion for a second extension of
time to file her post-hearing brief to August 23, 2017. The motion was granted in part and denied
in part. Nora was given until August 15,2017,to file her post-hearing brief in this matter. Nora was
advised that I would be most reluctant to grant any further extensions of time to file her post-hearing
brief and she was encouraged to take this opportunity to file her brief by August 15,2017.
On August 15,2017, at approximately 5:00 p.m., I received, by e-mail, a Verified Motion
for Third Extension of Time to File Post- Hearing Brief and A ppendix in Response to the
Complainant's May 15, 2017 Brief Based on New Medical Evidence from Nora. OLR did not oppose
24

81a

a further extension to the date requested by Nora of August 29, 2017. I noted from the supporting
medical documents filed by Nora with her request for extension that her treating physician did not
find that Nora was incapable of preparing and filing a post-hearing brief, but that she needed
additional time to prepare the brief , given her current medical situation. I further noted that granting
the third extension would result in Nora having had approximately sixty (60) additional days to file
her post-hearing brief.
I issued an Order on August 17, 2017, giving Nora until August 29, 2017, to file her post­
hearing brief.
Nora filed a motion on August 28, 2017, seeking a stay of the briefing schedule in these
proceedings due to temporary disability. A hearing on this motion was held on August 31, 2017. The
complainant, the Office of Lawyer Regulation ("OLR"), appeared by its retained counsel, Paul W.
Schwarzenbart. Respondent Nora appeared pro se.
Based upon my review of the motion and supporting materials, for the reasons stated on the
record, I found that: Nora had provided me a copy of a physician's report recommending that she
refrain from practicing law for a period of ninety (90) days in order to facilitate her recovery; that
Nora had represented to me that on or before September 21, 2017, she should take all actions
necessary and proper to obtain stays or extensions in all her pending cases through December 20,
2017, consistent with the relief she sought in the motion, or, alternatively, to obtain substitution of
counsel for her clients in those matters, subject only to certain exceptions for limited purposes as
described on the record on September 5, 2017; that Nora represented to me that she would refrain
from the practice of law from September 21 through December 20, 2017, consistent with the
recommendation of her physician, subject only to certain exceptions for limited purposes as
described on the record on September 5, 2017.
25

82a

It was ordered that this matter would be stayed through December 20, 2017; that Nora should
file and serve her post-trial response brief on or before January 9, 2018; that by no later than
September 21,2017,Nora should take all action necessary and proper to obtain stays or extensions
in all her pending cases through December 20,2017,or, alternatively, to obtain substitute counsel
for her clients in those matters, subject only to the exceptions for limited purposes as described on
the record on September 5,2017; that Nora would refrain from practicing law from September 21
through December 20,2017,consistent with the recommendation of her physician, subject only to
the exceptions for limited purposes as described on the record on September 5,2017. This order did
not preclude Nora from attending continuing legal education classes from the date of this order
through December 20,20 I 7.
On September 7,2017,Nora filed Procedural and Substantive Objection to September 6,
2017 Order and Reservation of Rights to Seek Relief from Failure to A ccommodate and
Discrimination Against a Qualified Individual Under the A mericans with Disabilities Act as
Amended Effective January 1, 2009 (ADAAA) At 42 US. C. Sec. 12101, Et. Seq.
On September 11,2017,Nora filed Errata Re: Objection to September 6, 2017 Order and
Reservation of Rights to Seek Relief from Failure to Accommodate and Discrimination Against a
Qualified Individual Under the Americans with Disabilities A ct as A mended Effective January 1,
2009 (ADAAA) at 42 US.C. Sec. 12101, Et. Seq. ; Addendum to Objection; and Reservation of
Rights.
On January 8,2018,Nora filed Verified Motion for Extension of Time to File Post- Hearing
Brief and Appendix as an A ccommodation under 42 U.S.C. Sec. 12101, Et Seq. Known as the
Americans with Disabilities Act as A mended Effective January 1, 2009 (ADAAA).

26

83a

On January 18, 2018, I issued an Order giving Nora until February 15, 2018, to file her
post-hearing brief. Nora was advised there would be no further extensions, and that if she did not
file her post-hearing brief by February 15, 2018, I would proceed with my referee's report and
recommendation without the benefit of her brief. Further redundant motions and requests for
extensions would be summarily denied.
On February 23, 2018, Nora filed Respondent's Post- Hearing Brief and Motion for
Acceptance ofLate- Filed Requestfor Judicial Notice.
On February 28, 2018, OLR filed Complainant's Post- Trial Reply Briefand Response to
Complainant Office ofLawyer Regulation to Respondent Nora's Request for Judicial Notice.
On March 2, 2018, Nora filed Notice of Filing of Revised Appendix

B

in Support of

Respondent's Post- Hearing Brief
On March 8, 2018, a telephonic hearing was held to consider Nora's requests for judicial
notice and to clear up any confusion in the record. At the telephonic hearing, OLR appeared by their
counsel Attorney Paul W. Schwarzenbart. Nora appeared on her own behalf.
I found that the four-day disciplinary hearing in this case concluded on March 27, 2017. The
evidentiary record was closed at that time. While requests to take judicial notice may be made at any
time, I had discretion when granting judicial notice. Asking me to take judicial notice of 29 exhibits
nearly a year after the evidentiary record was complete in this case was inappropriate. Many of the
requests for judicial notice should have been made during the evidentiary hearing. OLR had already
filed their post-hearing brief before the request for judicial notice was made by Nora.
Also, requests for judicial notice are not a substitute for proper preparation and evidentiary
presentations during the hearing. However, OLR did not oppose my taking judicial notice of the

27

84a

following exhibits: Exhibit 1 , Exhibit 3, Exhibit 5, Exhibit 6, Exhibit 7, Exhibit 9, Exhibit 10,
Exhibit 1 1, Exhibit 12, Exhibit 13, Exhibit 1 5, Exhibit 1 6, Exhibit 17, Exhibit 18, Exhibit 19,
Exhibit 20, Exhibit 22, Exhibit 27, and Exhibit 28. It should be noted that all of these exhibits were
already part of the record. Rather than citing the record in support of her arguments,Nora offered
the exhibits as "excerpts" of the record which she believed would simplify consideration of her
arguments. Given that OLR did not oppose my taking judicial notice of said exhibits,but still being
concerned with the needless growth of the file in this case,I took judicial notice of said exhibits. It
should be noted that my taking judicial notice of documents and exhibits for which I previously
denied admission to evidence,but which are part of the record only as offers of proof,did not change
the status of the exhibits as only offers of proof. OLR also conditioned their willingness for me to
take judicial notice of said exhibits on the fact that they remain part of the record only as offers of
proof.
OLR argued against me taking judicial notice of the following exhibits: Exhibit 2, Exhibit
4, Exhibit 8, Exhibit 1 4, Exhibit 21, Exhibit 23, Exhibit 25, Exhibit 26, and Exhibit 29. OLR's
arguments, as set forth in their response to the request for judicial notice, were adopted by me in
denying judicial notice of said exhibits.
Given that several of Nora's requests for judicial notice had been denied, she was given the
opportunity to correct her post-hearing brief citing the exhibits for which judicial notice had been
denied.
On March 13, 20 18, I issued an Order granting judicial notice of the following exhibits:
Exhibit 1, Exhibit 2, Exhibit 3, Exhibit 4, Exhibit 5, Exhibit 6, Exhibit 7, Exhibit 9, Exhibit 1 0,
Exhibit 11, Exhibit 12, Exhibit 13, Exhibit 15, Exhibit 1 6, Exhibit 17, Exhibit 18, Exhibit 19,
28

85a

Exhibit 20, Exhibit 22, Exhibit 27, and Exhibit 28. I did not take judicial notice of the following
exhibits: Exhibit 8, Exhibit 14, Exhibit 21, Exhibit 23, Exhibit 24, Exhibit 25, Exhibit 26, and
Exhibit 29. Exhibits A, B, and C to Appendix B of Nora's post-hearing brief were stricken.
On March 28, 2018, Nora filed Respondent's Second A mended Post-Hearing Brief
Identifying Judicially Notice Exhibits in Bold and Identifying Exhibits for Which Judicial Notice was
Denied in Bold,

Italics,

and Modifying the Introduction Only to Correct Errata and to Include the

Intended Quotation from State

V.

Hersh Set Forth in

Bold

Text for Which Leave to Modify is

Herewith Requested (All Rights Reserved).
On April 18, 2018, after I began working on my report and recommendation in this case, I
issued an order in relation to due process issues I noted in relation to Count One and Count Four of
the second amended complaint. I requested supplemental briefs on the due process issues. Both
parties filed briefs.
ISSUES

The following Supreme Court Rules are at issue in this case:
SCR 20:3.1 Meritorious claims and contentions

(a) In representing a client, a lawyer shall not:
( I) knowingly advance a claim or defense that is unwarranted under

existing law, except that the lawyer may advance such claim or
defense if it can be supported by good faith argument for an
extension, modification or reversal of existing law;
(2) knowingly advance a factual position unless there is a basis for
doing so that is not frivolous; or
(3) file a suit, assert a position, conduct a defense, delay a trial or take
other action on behalf of the client when the lawyer knows or when it
29

86a

is obvious that such an action would serve merely to harass or maliciously

injure another.
•

•

•

SCR 20:3.2 Expediting litigation

A lawyer shall make reasonable efforts to expedite litigation
consistent with the interests of the client.
•

•

•

SCR 20:8.4 Misconduct

It is professional misconduct for a lawyer to:
•

•

•

•

•

•

•

•

•

(g) violate the attorney's oath;

SCR 40.15 Attorney's oath.

I will maintain the respect due to courts of j ustice and judicial
officers;
I will not counsel or maintain any suit or proceeding which shall
appear to me to be unjust, or any defense, except such as I believe to
be honestly debatable under the law of the land;
•

•

•

I will abstain from all offensive personality and advance no fact
prej udicial to the honor or reputation of a part or witness, unless
required by the justice of the cause with which I am charged.
•

•

30

•

87a

FINDINGS OF FACT

1.

OLR was established by the Wisconsin Supreme Court and operates pursuant to

Supreme Court rules.
2.

Respondent, Attorney Wendy Alison Nora (hereinafter "Nora"), is a Wisconsin

attorney (State Bar No. 1017043) admitted to practice law in 1975 whose office address is currently
listed with the State Bar of Wisconsin as Access Legal Services, 310 Fourth Ave. S., Suite 5010,
Minneapolis, MN 55415.
3.

Nora's Wisconsin disciplinary history consists of a 30 day suspension as discipline

reciprocal to that imposed by the Minnesota Supreme Court for misrepresentations, failing to
adequately investigate, bringing a frivolous claim against a bank, inappropriate transfer of assets, and
bringing litigation as a delay tactic while asserting a theory that was not justified by existing law.
Disciplinary Proceedings Against Nora, 173 Wis. 2d 660, 495 N.W.2d 99 (1993).
REGARDING SPENCER
(OLR MATTER NO. 2014MA1570)
(COUNTS 1-3)

4.

The Spencer Matter was a mortgage foreclosure action commenced in the

Circuit Court for Wood County in April 2009. Exhibit ("Ex.") 1:1; Ex. 2:1; Ex. 53:2.
5.

Nora's involvement commenced in early May 2012 when she filed a notice of

appearance for defendant Sheila Spencer and a motion to postpone a hearing on a summary judgment
motion scheduled for May 23, 2012. Transcript ("Tr.") at 316:3-19:19; Ex. 1:3-4 (CCAP2 Items 32,
36-38).

2

CCAP is an acronym for the State of Wisconsin "Consolidated Court Automation Programs." Wisconsin

courts have taken judicial notice ofCCAP records. See, e.g., Kirk v. Credit Acceptance Corp., 20 1 3 WI App 32, 1! 5
n. l , 346 Wis. 2d 635, 829 N.W.2d 522.

31

88a

6.

Nora appeared in person at the May 23, 2012 hearing. Tim Brovold, an attorney from

Gray & Associates, S.C. ("Gray Firm"), counsel for the plaintiff, appeared by telephone. Judge
Gregory Potter, the presiding judge, granted Nora the postponement she sought and directed Nora
to file and serve a list of issues on or before June 29, 2012. Ex. 8; Ex. 9:1, 15-16; Tr. at
319:21-325:12.
7.

Nora did not file the list ofissues by June 29, 2012 as directed by the court. Instead,

on June 27, 2012, she filed an "Affidavit of Nonreceipt of Motion for Proposed Order and Final
Order." Ex. 1:4 (CCAP Item 43); Ex. 13; Tr. at 325:13-326:6.
8.

Nora testified she filed the June27, 2012 affidavit with a motion dated June 28, 2012,

for an extension of time to file the list of issues (Tr. at 348:4-20), but the CCAP record and court
record index show these as separate filings. Ex. I :4-5; Ex. 2:3.
9.

In her June 27, 2012 affidavit, Nora stated that she had reviewed the CCAP record,

that she was "shocked to find that an Order was entered in these proceedings on June 12, 2012," and
that she had not been served with a motion seeking entry of an order after the May 23, 2009 hearing.
Ex. 13:2, �� 3, 4.
10.

In her June 27 affidavit, Nora stated that she "needed the order for the deadline of

June 28, 2012" (Ex. 13:2, � 9), referring to her obligation to file and serve the list of issues by the
June 29, 2012 deadline. Tr. at 337:4-17.
11.

Nora's June 27 affidavit contains no satisfactory explanation how entry of an order

she said she had not seen affected her obligation to file the list of issues. Ex. 13.
12.

In her June 27 affidavit, Nora stated that the court's clerk told her that the Gray Firm

had sent the order and a letter to Judge Potter. Ex. 13:2, �� 10-12.
32

89a

13.

Nora made no effort to contact the Gray Firm to obtain a copy of what had been sent

to the court. Tr. at 338:17-340:2.
14.

In her June 27 affidavit, Nora described the Gray Firm's conduct regarding the order

as an "ex parte communication with the Court." Ex. 13:3, ��13-16.
15.

In her June 27 affidavit, Nora stated that she was considering the possibility of

"moving to disqualify Judge Potter for ex parte communications with GRAY & ASSOCIATES,
L.L.P." Ex. 13:4, � 17.e.
16.

The June 28, 2012 motion filed by Nora states that Spencer seeks "the

Disqualification of Judge Gregory J. Potter for Repeatedly Engaging in or Facilitating Ex Parte
Communications and Entering Ex Parte Orders in These Proceedings." Ex. 14:1.
17.

In her June 28 motion, Nora refers to the Spencer proceeding as a "mockery of

justice" (Jd., 14:2, � 1) and as "these misbegotten proceedings" (ld, 14:2, � 3).
18.

In her June 28 motion, Nora stated that on June 27,2012,she received from her client

copies of a letter to the court dated May 25,2012 and a signed order filed June 12,2012 (Jd, 14:3,
� 8). Nora acknowledged that Exhibit 10 was a copy of the letter and Exhibit 12 was a copy of the
order referred to in her June 28 motion and in her June 27 affidavit. Tr. at 360:3-363:1.
19.

The letter of transmittal dated May 25,2012 and proposed order shows a carbon copy

to Nora. Ex. 10:1. Nora could not explain how Judge Potter would have known that the Gray Firm
had not sent her a copy of the letter and proposed order or that she had not received a copy of the
letter and proposed order. Tr. at 364:11-25.
20.

In her June 28 motion, Nora stated that "[t]his is not the first instance of ex parte

communications leading to orders being entered by Judge Gregory J. Potter. Ex. 14:4, � 22. Nora

33

90a

referred to three purported prior instances: a filing on March 31, 2010 (Ex. 14:4-5, �23.a.), (2) a pair
of letters dated February 17, 2011 (/d., �� 23.c. and 23.d.); and a motion to vacate a summary
judgment dated June 17, 20 I I (/d., � 23 .e.).
21.

In her June 28 motion, Nora referred to the "recent ex parte order" as "another

example of the improper practices in these proceedings." /d., � 24.
22.

In her June 28 motion, Nora stated that "the secret proceedings held in this matter

constitute a miscarriage of justice and that those practices continued in the ex parte order changing
the substance of the Court's order entered on the record of the proceedings on May 23, 2012." Ex.
14:6, �26.
23.

In her June 28 motion, Nora stated that "[a] reasonable inference arises from these

facts that Judge Gregory J. Potter has colluded with GRAY & ASSOCIATES, LLP to circumvent
proper practice and procedure by engaging in and facilitating ex parte communications by which
orders have been entered by the court." !d., � 31.
24.

Nora demanded that Judge Potter recuse himself based on SCR 60.04(4)(g),which

generally proscribes ex parte communications, and SCR 60.04(e), which states that "[a] judge shall
perform judicial duties without bias or prejudice." Ex. 14:7-8, � 37.
25.

Nora had no personal knowledge as to the alleged ex parte communications prior to

her appearance in the case. Her knowledge was limited to what was shown in the court record and
what others told her. Tr. at 31: 11-17.
26.

As to the alleged March 31, 2010 ex parte communication, an affidavit of a Gray Firm

employee shows that on that date Spencer was served a copy of a Notice of Motion and Motion filed
with the court on April S, 2010. Ex. 15; Tr. at 418:17-419:9.
34

91a

27.

As to the alleged February 17, 20 I I ex parte communication, the court record shows

that the letter to the court cancelling a hearing was copied to Sheila Spencer. Ex. 16; Tr. at
368:16-369:6.
28.

As to the alleged June 20, 2011 ex parte communication, the court record shows that

the letter to the court filing a petition and order to vacate the judgment was copied to Sheila Spencer.
Ex. 18; Tr. at 370:3-371:1.
29.

On June 23, 2012, Nora filed a "Notice of Continuing Objection to Further

Proceedings." The Notice seeks "Disqualification of Judge Gregory J. Potter for Repeatedly
Engaging in or Facilitating Ex Parte Communications and Entering Ex Parte Order [sic.] in these
Proceedings ...." Ex. 19:1; Tr. at 379:19-381:7.
30.

On June 25, 2012, Nora filed an "Amended Notice of Continuing Objection to Further

Proceedings." Ex. 20; Tr. at 404:6-16. The only difference between the Notice and the Amended
Notice is that the name of Attorney Timothy Mark Brovold of the Gray Finn appears in paragraph
4 of the Amended Notice. Tr. at 407:19-414:3.
31.

In her "Continuing Objection," Nora alleged that the Gray Finn had made"multiple

fraudulent filings" in the case. Ex. 20:3, � 7; Tr. at 389:2-5.
32.

In her "Continuing Objection," Nora stated that the alleged non-service of the

proposed order entered on June 12, 2012 was part of "an actual pattern and practice by Judge Potter
and [the Gray Finn], acting in concert, to effectuate a fraudulent foreclosure against Sheila M.
Spencer and her home." Ex. 20:4, � 8; Tr. at 389:6-16.
33.

In her "Continuing Objection," Nora stated that the "ex parte order should never have

been considered for signing by Judge Potter and now the entire record of the proceedings must be

35

92a

reviewed in the light of apparent collaboration between Judge Potter and [the Gray Finn]." Ex. 20:6,
� 11; Tr. at 390:3-14.
34.

In her "Continuing Objection," Nora stated the Gray Finn had engaged in "conniving

to procure the June 12, 2012 ex parte order of Judge Potter to reverse what it perceived as a loss on
the record of the May 23, 2012 proceedings." Ex. 20:6, � 12; Tr. at 390:20-391:1.
35.

In her "Continuing Objection," Nora stated that a complete review of the record was

required "in light of apparent collaboration between Judge Potter and the lawyers from [the Gray
Finn] ." Ex. 20:6, � 13; Tr. at 391:2-7.
·

36.

In her "Continuing Objection," Nora stated that:
Whereas it was first thought that Judge Potter was confused and was,
as a result of pride, unable to admit to his confusion, it is now clear
that Judge Potter is not confused but is actually participating in a
manipulation of the proceedings to deny Sheila M. Spencer the
opportunity to be heard in defense of her rights to her home.

Ex. 20:6, � 14; Tr. at 391:8-17 (emphasis added).
37.

In her "Continuing Objection," Nora stated that:
The manipulation of the Transcript to remove some of the most
damning evidence of bias ... discloses a whole new issue: that Judge
Potter is complicit in the manipulation of the proceedings and of the
record.

Ex. 20:6, � 15; Tr. at 391:18-392:5 (emphasis added).
38.

In her "Continuing Objection," Nora stated that "the 'civil filings' clerk was

participating in the scheme to deprive this counsel of copies of documents which she did not
receive." Ex. 20:6, � 16; Tr. at 392:6-12.

36

93a

39.

In her "Continuing Objection," Nora stated that Judge Potter had not removed himself

from the case "because he is now being shown to be actively assisting" the Gray Firm. Ex. 20:7, �
1 8; Tr. at 393:6-394:17.
40.

In her "Continuing Objection," Nora referred to Judge Potter as being "(complicit in

the long and convoluted proceedings whereby false documents and ex parte proceedings are the
modus operandi of Gray & Associates, LLP supported by Judge Potter." Ex. 20:7, � 19; Tr. at
394:18-24.
41.

Although Nora testified that she did not accuse Judge Potter of "turning a blind eye

to crimes committed within the court process itself' (Tr. at 402:14-403:1), in her Continuing
Objection Nora stated that:
Civil courts cannot be subverted by allowing crimes to go undetected
by its officers, including Judge Potter and Sheila M. Spencer's
counsel, and Judge Potter and counsel for Sheila M. Spencer cannot
tum a blind eye to crimes to be committed within the court process
itself. Ex. 20:8, � 25; Tr. at 402:14-403:1.
42.

In

her "Continuing Objection," Nora stated that "Judge Potter has not seen fit to

recuse himself yet from these proceedings even after being exposed for ex parte communications and
having presided over proceedings which bear no resemblance to proper, neutral court proceedings."
Ex. 20:9, � 32; Tr. at 403:2-10.
43.

In her "Continuing Objection," Nora stated that Judge Potter "has continued to

interfere with the just and proper administration of Wood County Circuit Court." Ex. 20:9, � 34; Tr.
at 403:11-16.
44.

In her "Continuing Objection," Nora stated that Judge Potter "has clearly disqualified

himself by his knowing complicity in the miscarriage of justice represented by the proceedings in

37

94a

this case, through ex parte orders and manipulations of the proceedings to do the bidding of [the
Gray Firm]." Ex. 20:9, � 35; Tr. at 403 : 1 7-404:4.
45.

After hearing on August 8, 20 1 2, Judge Potter denied Nora's motion seeking his

disqualification in the Spencer case. Ex. 2 1 ; Ex. 309; Tr. at 4 1 4:9-4 1 6 : 1 8.
46.

On August 1 3, 20 1 2, Nora filed the list of issues as directed by the court at the May

23, 20 1 2 hearing. Ex. 7A; Tr. at 4 1 7:7- 1 4.
47.

In the list of issues, Nora repeats her allegations about ex parte communications

between the Gray Firm and Judge Potter made in her June 27 "Affidavit of Non-Receipt," in the June
28 motion seeking recusal of Judge Potter, and in the original and amended "Continuing Objection,"
she had filed in the Spencer matter. Ex. 7A:6- I O, � 29; Exs. 1 3, 1 4, 1 9, 20; Tr. at 4 1 8:3-420: 1 3 .
48.

On October 3, 20 1 2, Attorney James Carrig first appeared for the plaintiff in the

Spencer matter. Ex. I :7 (Item 7 1 ); Tr. at 1 1 : l l - 1 6.
49.

On October 29, 20 1 2, Carrig filed a notice of appearance for the plaintiff in the

Spencer matter. Ex. I :7 (Item 72); Tr. at 1 1 : 1 8- 1 2:2.
50.

In response, Nora filed a motion to strike Carrig's notice of appearance. Ex. I :7 (Item

74); Tr. at 1 2:3-24.
51.

On December 5, 20 1 2, the court conducted a hearing relative to Nora's objection to

Carrig's appearance and to whether PNC Bank was a proper party to the Spencer case. Ex. 1 :8 (Item
80); Tr. at 1 5 : 1 2- 1 7: 1 0.
52.

On December 1 3, 20 1 2, Carrig filed a motion to ratify the action or to substitute PNC

Bank as the party plaintiff. Ex. 1 :8 (Items 8 1 -83); Tr. at 1 7: 1 2- 1 8: 14.

38

95a

53.

On December 2 1 , 20 1 2, Nora filed a response to Carrig's motion to ratify or substitute

PNC Bank as the plaintiff. Ex. 1 :9 (Items 88, 89); Tr. at 1 7: 1 2- 1 8: 1 4.
54.

After hearing on December 2 1 , 20 12, Judge Potter granted the motion Carrig filed

for PNC Bank and set a hearing date of March 1 8, 20 1 3 for the pending motion for summary
judgment. Ex. 1 :8 (Item 86); Tr. at 20:4-2 1 :20.
55.

On January 1 0, 20 1 3 , Nora filed a notice of removal of the Spencer case to the United

States District Court for the Western District of Wisconsin. Ex. 23; Tr. at 22: 1 - 1 3.
56.

Prior to removing the case to federal court, Nora did not file anything with the state

court with respect to an entity referred to as "Freddie Mac." Tr. at 26:4-7.
57.

Nora's notice of removal asserted that the Spencer case was removable under 28 USC

sees. 1 33 1 , 1 332, 1 334 and 1 349. Ex. 23 :2.
58.

On February 8, 201 3 , Carrig filed a motion on behalf of PNC Bank to remand the

Spencer case to state court. Ex. 3 :2; Ex. 24; Tr. at 26:20-28:20.
59.

On March 4, 20 1 3, Nora filed a brief opposing PNC Bank's motion to remand the

Spencer case. Ex. 3 :3 ; Ex. 25; Tr. at 28:21 -29:23 .
60.

On March 25, 20 1 3 , United States District Court Judge Barbara Crabb issued an

Opinion and Order granting PNC Bank's motion to remand and granting PNC Bank attorney fees and
costs. Ex. 26; Tr. at 29:24-30:9.
61 .

On April S, 20 1 3, Carrig filed an itemized request for fees and costs for PNC Bank.

Ex. 27; Tr. at 30: 1 0-3 1 :3.
62.

On April 8, 20 1 3, Nora filed a motion for reconsideration of Judge Crabb's March 25,

20 1 3 Opinion and Order. Ex. 28; Tr. at 3 1 :3- 1 4.

39

96a

63.

Although she testified she did not file a motion for reconsideration of the remand

order and only sought reconsideration of the award of attorney fees (Tr. at 689: 1 3-690:8), forty-one
ofthe forty-three numbered paragraphs ofNora's motion for reconsideration are devoted to asserting
that Judge Crabb erred in remanding the Spencer case to state court. Ex. 28; Ex. 39:3.
64.

The motion for reconsideration "requests that the court reconsider the Order

remanding this case to state court entered on March 25, 20 1 3 for its clear errors of law in failing to
acknowledge and exercise its original jurisdiction .... " Ex. 28:8.
65.

The motion for reconsideration was not limited to addressing the award of attorney

fees and costs to PNC Bank. Ex. 28.
66.

On April 1 5, 20 1 3, Carrig filed a brief for PNC Bank opposing Nora's motion for

reconsideration. Ex. 3:3 (Entry 1 9); Tr. at 32 :6- 1 7.
67.

On April 1 5, 20 1 3, Nora filed an Objection to Award of Attorneys' Fees and Reply

on Motion for Reconsideration. Ex. 20; Tr. at 3 1 : 1 5-25.
68.

In her reply, Nora sought reconsideration of the decision to remand and asserted that

"the remand is appealable as decided on grounds other than those set forth in 28 USC sec. 1 447(c)."
Ex. 29:6 (para. 1 8).
69.

On May 23, 20 1 3, Judge Crabb issued an Opinion and Order denying the motion for

reconsideration, characterizing the motion for reconsideration as "frivolous," and awarding PNC
Bank costs and fees incurred in opposing the motion. Ex. 30: 1 , 7.
70.

In the May 23, 20 1 3 Opinion and Order, Judge Crabb held that the court lacked

jurisdiction to reconsider the remand order. Ex. 30:2.

40

97a

71 .

In the May 23 , 20 1 3 Opinion and Order, Judge Crabb held that because Spencer "did

not have an objectively reasonable argument supporting federal jurisdiction, it is appropriate to
award plaintiff fees incurred in its motion to remand." Ex. 30:6.
72.

On June 7, 20 1 3, Nora filed a second motion for reconsideration of the award of

attorney fees. Ex. 3 1 ; Tr. at 33:7- 1 8.
73.

In the

second motion for reconsideration, Nora stated:

This Court determined that Ms. Spencer did not have the right to seek
reconsideration of the Court's Order remanding the case to the state
foreclosure court entered on March 25, 20 1 3 because the Court
remanded the case under 28 USC sec. 1 447(c) and is not appealable
under 28 USC sec. 1 44 7(d). The Court is wrong. On reconsideration
it clearly elucidated that a part of its remand is based on abstention,
as it had implied in the remand order.
Ex. 3 1 : 1 (emphasis added).
74.

The second motion for reconsideration rehashes the same arguments Nora had

asserted in her notice of removal. Exs. 23, 3 L
75.

On July 2, 20 1 3, Judge Crabb issued an Opinion and Order denying the second

motion for reconsideration and awarding PNC Bank costs and fees incurred in opposing the motion.
Ex. 32; Tr. at 33 : 1 9-34:5.
76.

On July 1 0, 20 1 3, the United States District Court for the Western District of

Wisconsin entered a j udgment awarding $875 to PNC Bank for costs and fees incurred in opposing
the first motion for reconsideration. Ex. 33; Tr. at 34:6-20.
77.

On July 1 0, 20 1 3, Nora filed a notice of appeal from the opinions and orders entered

by Judge Crabb on March 25, May 23 and July 2, 20 1 3 . Ex. 34; Tr. at 34:2 1 -35 : 1 .
,

41

98a

78.

In the notice of appeal, Nora identified herselfas a defendant-appellant "individually

and in her capacity as counsel for Sheila M. Spencer." Ex. 34.
79.

Nora filed nothing with the court seeking to be made a party to the case prior to filing

the notice of appeal. Tr. at 35 :2-9; Ex. 3.
80.

Nora knew that remand orders were not appealable under Title 28 ofthe United States

Code. Tr. at 693 :20-25.
81 .

On July 30, 20 1 3, the United States District Court for the Western District of

Wisconsin entered an amended judgment awarding $4,928.47 to PNC Bank for costs and fees
incurred in opposing the removal. Ex. 35; Tr. at 35 : 1 2-36: 1 .
82.

On July 3 1 , 20 1 3, Nora filed an amended notice of appeal from the opinions and

orders entered by Judge Crabb on March 25, May 23 and July 2, 20 1 3 and the judgment and the
amended judgment entered by the Western District on July 1 0 and July 30, 20 1 3, respectively. Ex.
36; Tr. at 36:2- 1 3 .
83.

In the amended notice of appeal, Nora identified herself as a defendant-appellant

"individually and in her capacity as counsel for Sheila M. Spencer." Ex. 36.
84.

Nora filed nothing with the court seeking to be made a party to the case prior to filing

the amended notice of appeal. Tr. at 36: 1 1 - 1 3 .
85.

On July 3 1 , 20 1 3, the United States Court of Appeals for the Seventh Circuit issued

an order directing Nora and Spencer to file a memorandum stating why the appeal should not be
dismissed for lack ofj urisdiction. Ex. 4:3 (Entry 2).

42

99a

86.

On August 1 4, 20 1 3, Nora filed a Jurisdictional Memorandum with the Seventh

Circuit asserting that she had "the right and indeed the obligation to appear in her individual name
and capacity as an aggrieved party." Ex. 37:2.
87.

In her Jurisdictional Memorandum, Nora stated that "Judge Crabb has engaged in a

campaign of libel against Nora which will be addressed to the appropriate fora." Ex. 3 7:3.
88.

In her Jurisdictional Memorandum, Nora stated she was the real party in interest on

the appeal because she was the "target" of the sanctions and she was "ethically required" to
indemnifY Spencer for the award of attorney fees and costs. Ex. 37:5.
89.

On August 23 and September 1 0, 20 1 3, Carrig filed memoranda for PNC Bank

addressing jurisdiction as required by the Seventh Circuit. Ex. 4:3 (Entries 5-8); Tr. at 40: 1 5-4 1 :3 .
90.

Briefing on the Spencer appeal was delayed from October 23, 20 1 3 to March 1 0,

20 1 4, by reason ofNora filing a bankruptcy proceeding for Spencer. Ex. 43-4 (Entries 1 4-23); Tr.
at 439: 1 1 - 1 6.
91 .

After briefing and oral argument, on August 1 3 , 20 1 4, the Seventh Circuit issued its

decision in the Spencer appeal. Ex. 4:4-5 (Entries 24-55); Ex. 39.
92.

The Seventh Circuit dismissed Nora's appeal because she lacked standing to appeal,

affirmed the district court's award of costs and attorney fees against Spencer because "there was no
objectively reasonable basis for federal jurisdiction or removal," concluded the appeal was
"frivolous," and ordered Nora to show cause "why she should not be sanctioned for pursuing this
frivolous appeal." Ex. 39:3-4.
93.

On August 1 5, 20 1 4, Nora filed an initial response to the Seventh Circuit's order to

show cause and asserted that "there are numerous factual findings which are not supported by any
43

100a

evidence in the record, for which judicial notice was not properly taken and which are offered to be
proved to be clearly erroneous." Ex. 40:2; Tr. at 45: 1 - 1 8.
94.

Nora's "Initial Response" rehashes the same arguments she had advanced in the notice

of removal, in the briefs she had filed with the district court, and in the jurisdictional memorandum.
Exs. 23, 25, 28, 3 1 , 37, 40.
95.

In her "Initial Response," Nora asserted that Judge Crabb had removed the seal from

her medical records in a matter arising out of her personal bankruptcy case (In Re Nora, No.
1 0-3 1 3 1 ) and that "it was nonetheless libelous for Judge Crabb to do so." Ex. 40:6, 1 1 ; Tr. at
45 1 :23-452: 1 2.
96.

Nora acknowledged that Exhibit 55 was a copy of the decision where Judge Crabb

had removed the seal from her medical records. Tr. at 455 :3-6.
97.

Nora asserted that Judge Crabb was in contempt of an order of the Seventh Circuit

when she removed the seal from the medical records. Ex. 54: 1 ; Tr. at 456:7-16.
98.

The basis for Judge Crabb removing the seal from Nora's medical records

was that Nora did not file the documents under seal under a prior protective order and that Nora did
not move to have the documents sealed until she brought a motion for contempt against opposing
counsel in her bankruptcy case. Ex. 55 :4.
99.

On August 20, 20 1 4, the Seventh Circuit issued an order directing that Nora

file "one proper response" (Ex. 4 1 : 1 ) to the order to show cause addressing four issues, as follows:
1.
Whether her removal of this case to federal court, the first
motion to reconsider the removal, and the appeal of the order
awarding fees and costs were frivolous;

44

101a

2.
Whether her appeal of the district court's award on her own
behalfwas frivolous, where she was not a party and the district court
did not order her to pay anything;
3.
Whether the removal of this case to federal court and this
appeal were litigated for improper purposes, in particular, to
unnecessarily delay the proceedings and to increase the cost of this
litigation to her opponents; and
Whether the accusations she has leveled against her opponents
4.
the
courts during this case, including the comments described in
and
this court's opinion, were appropriate advocacy.
Ex. 4 1 :2 (citations omitted); Tr. at 4 1 :20-42: 1 2.
1 00.

On September 2, 20 1 4, Nora filed a petition for rehearing en bane before the Seventh

Circuit rehashing all of the same arguments previously made in her filings in the Spencer case. Exs.
23, 25, 28, 3 1 , 37, 40, 42; Tr. at 46: 1 3-58: 1 8.
101.

On September 1 6, 20 1 4, the Seventh Circuit denied the petition for rehearing en bane.

Ex. 43; Tr. at 58: 1 9-59:8.
1 02.

On September 1 9, 20 1 4, Nora filed a motion to stay proceedings before the Seventh

Circuit in order to provide her an opportunity to file a petition for a writ of certiorari with the United
States Supreme Court. Ex. 44; Tr. at 59:9-23 .
1 03 .

Nora never filed a petition for a writ o f certiorari. Tr. at 464:2 1 -466:25.

1 04.

On September 1 9, 20 1 4, Nora filed what was captioned a "Partial Response to Order

to Show Cause" issued by the Seventh Circuit. Ex. 45; Tr. at 475 : 1 7-476:7.
1 05.

In her "Partial Response," Nora denied that she had accused the state court judge and

court reporter in the Spencer case of "fraudulently manipulating transcripts." Ex. 45 :7; Tr. at
483 :5- 1 7.

45

102a

1 06.

In her "Partial Response," Nora stated that "it is the courts themselves which are

causing the undersigned's clients and millions of others to despair and lose faith in the courts." Ex.
45 : 1 1 ; Tr. at 486: 1 5-2 1 .
I 07.

In her "Partial Response," Nora stated:
By treating the undersigned as an enemy of the courts ... courts in this
circuit are violating the first paragraph of the Preamble of the
Standards of Conduct Within the Seventh Circuit by attempting to
punish the vigorous defense of homeowners.

Ex. 45 : 1 1 ; Tr. at 486:22-487:8.
1 08.

In her "Partial Response," Nora refused to withdraw her accusation that opposing

counsel had engaged in civil fraud and racketeering. Ex. 45 : 1 2; Tr. at 490:3-20.
1 09.

In her "Partial Response," Nora stated, "The bias ofthis panel and many ofthe judges

in this circuit against homeowners' rights to be heard and defend their homes is apparent in every
disputed sentence of the 'findings' in the panel's decision." Ex. 45 : 1 3 ; Tr. at 49 1 : 1 -8.
1 1 0.

In her "Partial Response," Nora characterized a number of statements in the court's

opinion on the Spencer appeal as "false." Ex. 45: 1 3- 1 4; Tr. at 49 1 :9-493 :4.
1 1 1.

In her "Partial Response," Nora characterized as "false" the statement in the court's

opinion that she had accused the Judge Potter, PNC's lawyers, and the court clerk of colluding to
conceal the contents of a court order and that she had demanded that Judge Potter recuse himself.
Ex. 45 : 1 5; Tr. at 495:4-24.
1 1 2.

In her "Partial Response," Nora characterized as "false" the statement in the court's

opinion that she had accused the court reporter of intentionally manipulating a hearing transcript at
Judge Potter's direction. Ex. 45 : 1 5; Tr. at 498 : 1 0-499: 1 0.

46

103a

1 1 3.

I n her "Partial Response," Nora characterized as "false" the statement i n the court•s

opinion that she had moved to strike an opposing attorney's appearance because the case caption
improperly identified PNC as a party. Ex. 45: 1 6; Tr. at 499:24-50 1 : 1 3 .
1 1 4.

In her "Partial Response," Nora characterized as "false" the statement in the court•s

opinion that in December 20 1 2 the state court scheduled a summary judgment hearing for next
March. Ex. 45 : 1 6.
1 1 5.

In her "Partial Response," Nora repeated her assertion that Judge Crabb was

11engaging in a campaign of libel" against her. Ex. 45:7.
1 1 6.

On October 2, 20 1 4, the Seventh Circuit entered an order awarding PNC Bank

$25,295 .00 for attorney fees and $349.67 for costs. Ex. 46; Tr. at 503 : 1 4-504:24.
1 1 7.

On October 3, 20 1 4, Nora filed a letter of supplementary authority relative to the

order to show cause. Ex. 47; Tr. at 504:25-505:8.
1 1 8.

On October 1 7, 20 1 4, Nora filed a motion to continue the show cause hearing for

medical reasons. Ex. 48; Tr. at 505 :9-24.
1 1 9.

On October 2 1 , 20 1 4, the Seventh Circuit entered an order denying Nora•s motion for

a continuance but allowing her to appear by speakerphone. Ex. 49; Tr. at 505:25-506: 14. On October
28, 20 1 4, Nora appeared in person for the hearing. Ex. 50:3.
1 20.

On February 1 1 , 20 1 5, the Seventh Circuit sanctioned Nora the sum of $2,500 for

frivolous and needlessly antagonistic filings. Ex. 50:4; Tr. at 506: 1 5-23.
121 .

The Seventh Circuit•s opinion states that contrary to its direction that Nora limit

herself to "one proper response to the show-cause order ... Nora did not limit herself to one proper
response... Ex. 50:2.
1 22.

The Seventh Circuit•s opinion describes Nora•s petition for rehearing en bane as

"rehashing her frivolous appellate arguments." /d.
47

104a

1 23 .

The Seventh Circuit's opinion states that "[i]n responding to our earlier opinion, Nora

has dug in her heels and continues to press the same arguments that were thoroughly rejected in the
district court and our earlier opinion." Ex. 50:3.
1 24.

In addressing its concerns about Nora engaging in "conduct unbecoming a member

of the court's bar," the Seventh Circuit stated that:
Nora has repeatedly acted with needless antagonism toward opposing
counsel and judicial officers. In her responses to our order to show
cause, she has refused to back down from her accusations of libel
against Judge Crabb and "actionable civil fraud and racketeering"
against opposing counsel. She denies accusing the state court judge
of altering transcripts. but the record belies her denial: she not only
made the accusations but moved for substitution of the judge on that
basis. She also now derides "this panel and many of the judges in this
circuit" as being biased "against homeowners' rights to be heard and
defend their homes." This bandying about of serious accusations
without basis in law or fact is unacceptable and warrants sanctions.
Ex. 50:3 (emphasis added).
1 25.

On March 1 0, 20 1 4, prior to filing her responses to the order to show cause, Nora had

filed an amended second motion to disqualify Judge Potter and argued the motion on March 1 9,
20 1 4. Ex. 1 : 1 6- 1 7 (Items 1 63-72); Tr. at 1 23 :25-1 25:25.
126.

At the March 1 9, 20 1 4 hearing, Judge Potter denied the second motion to disqualify

and granted PNC's motion for summary judgment. Ex. 1 (Item 1 72); Ex. 5 1 ; Tr. at 64: 1 3-65 :5.
1 27.

On August 20, 20 1 4, the Wood County Circuit Court entered a written order granting

judgment of foreclosure and sale to PNC Bank in the Spencer matter, denying the second motion to
disqualify Judge Potter, and dismissing Spencer's counterclaim. Ex. 1 (Item 1 86); Ex. 5 1 ; Tr. at
64: 1 3-65 :5.
1 28.

A sheriffs sale was conducted in the Spencer matter and the sale was confirmed by

the Wood County Circuit Court. Tr. at 65: 1 7-2 1 .

48

105a

1 29.

Nora filed appeals for Spencer from the judgment of foreclosure and sale and from

the confirmation of sale. Tr. at 65: 1 4-24.
1 30.

By opinions issued May 1 6, 20 1 6, the Wisconsin Court of Appeals affirmed the

judgment of foreclosure and sale and the confirmation of sale entered by the Wood County Circuit
Court. Exs. 52, 53; Tr. at 65:25-66: 1 7.
131.

None of the attorney fees and costs awarded by the Seventh Circuit and by Judge

Crabb in the Spencer matter have been paid. Tr. at 60: 1 7-8 1 :2.

REGARDING RINALDI
(OLR MATTER NO. 201 5MA61 4)
COUNTS 4-5

1 32.

On February 3, 2009, HSBC Bank USA ("HSBC") filed an action in the Circuit Court

for Kenosha County against Roger and Desa Rinaldi relative to a note and mortgage executed by
Roger Rinaldi, Case No. 2009CV353. See Ex. 57: 1 (Item I ); Ex. 302; Tr. at 1 8 1 : 1 5- 1 84:4,
5 1 7: 1 4-25.
1 33 .

In Case No. 2009CV3 53, the court granted judgment of foreclosure and sale i n favor

of HSBC and dismissed the Rinaldis' counterclaims. Ex. 57:7-8 (Items 65, 73, 43); Tr. at
1 83 :2 1 - 1 86:5.
1 34.

After the Rinaldis' motion for reconsideration was denied, thej udgment was vacated

and case dismissed based on a loan modification agreement with the Rinaldis. Ex. 57: 1 1 (Items
95-98); Tr. at 1 86:7- 1 88: 1 5 .

49

106a

1 35.

On June 1 0, 20 1 1 , the Rinaldis commenced a lawsuit in the Circuit Court for Kenosha

County, Case No. 201 1 CV 1 477 against, among others, Wells Fargo Bank, N.A. ("Wells Fargo") and
the Gray Firm. Ex. 58: 1 ; Tr. at 1 88 : 1 6- 1 90:9.
1 36.

Nora first appeared for the Rinaldis in Case No. 20 1 1 CV 1 477 by filing a notice of

appearance on August 30, 20 1 1 . Ex. 58:3 (Item 29); Tr. at 1 90: 1 4-22.
1 3 7.

Motions to dismiss filed by certain defendants were pending when Nora first appeared

in the case. Ex. 58:2 (Item 1 6); Tr. at 1 9 1 :23- 1 92:4.
1 38.

On September 7, 20 1 1 , Nora filed a motion to dismiss without prejudice on behalf

of the Rinaldis. Ex. 58:4 (Item 30); Tr. at 1 92:6- 1 93 :6.
1 39.

The motions to dismiss were not heard by the court due to a bankruptcy filing made

by the Rinaldis on October 1 4, 20 1 1 . Ex. 58:2 (Item 4 1 ); Tr. at 1 93 :8-2 1 .
1 40.

Nora appeared for the Rinaldis in their bankruptcy case. On June 1 4, 20 1 2, Nora filed

an objection to the proof of claim filed by HSBC relative to the Rinaldi note and mortgage. Ex.
59: 1 6- 1 7 (Entry 77); Ex. 65:3.
141.

On June 1 7, 20 1 2, Nora filed an adversary proceeding on behalf of the Rinaldis

asserting fraud and racketeering claims against, among others, HSBC, Wells Fargo, the Gray Firm
and certain of its lawyers, and the law firm of Litchfield Cavo and Attorney Markvart, a Litchfield
attomey who had appeared for Wells Fargo in Case No. 20 1 1 CV 1 477. Ex. 60: 1 ; Tr. at 1 93 : 1 6-197: 1 ,
1 97:22- 1 98:9.
1 42.

In challenging a proof of claim filed by HSBC, Nora asserted:
... objections to the claim includ[ing] that the Note lacks
consideration; two mortgage assignments are null and void; another
mortgage assignment is a forgery or unenforceable because it was not
50

107a

recorded or perfected prior to bankruptcy; HSBC is not the owner or
holder of the Note; and the Note image attached to the claim was
fabricated to deceive the Court. Along with disallowance of the claim
and the security represented by the Mortgage, the Debtors seek a
determination that the proof of claim is false, fraudulent and
unlawful.
Ex. 65:5.
1 43 .

In the adversary proceeding, Nora asserted claims against the defendant banks and

their counsel, including common law fraud, abuse of legal process and violations of the Fair Debt
Collections Practices Act {'1FDCPA11), violations of the Racketeer Influenced and Corrupt
Organizations Act ('•RIC011), breach of contract and tortious interference with prospective economic
opportunity. Ex. 65 :5.
1 44.

On February 22, 20 1 3, Bankruptcy Judge Susan Kelley issued a decision relative to

the Rinaldis• objection to the proof of claim and defendants• motions to dismiss the adversary
proceeding. Ex. 65:3-4; Tr. at 1 98: 1 0- 1 7, 203 :3-2 1 .
1 45.

Judge Kelley rejected the Rinaldis' objections to HSBCs proof of claim, including

objections predicated on an allegation that defendants produced a 11forged endorsement to the
mortgage note robo-stamped bearing the signature of Joan M. Mills to mislead this court into
believing that the note had been timely, properly and authentically endorsed in blank after the
commencement of [the foreclosure action]. Ex. 65: 1 3- 1 8.
..

146.

Judge Kelley rejected Rinaldis' claims asserted in the adversary proceeding and

recommended that the district court dismiss the claims. Ex. 65 : 1 8-33.

51

108a

1 47.

In rejecting the objections and claims asserted by Nora in the bankruptcy case and in

the adversary proceeding, Judge Kelley characterized some ofthe arguments as frivolous (Ex. 65: 1 3,
2 1 ) and preposterous (Ex. 65:29).
1 48.

Nora filed an appeal from Judge Kelly's decision as to the objection to the proof of

claim and an objection to Judge Kelley's recommendation in the adversary proceeding. The appeal
and objection were consolidated and the matter was assigned to District Court Judge J. P.
Stadtmueller. Ex. 6 1 :4-5 (Entries 2, 5); Tr. at 1 96: 1 6- 1 97:8.
1 49.

By order dated October 3 1 , 20 1 3, Judge Stadtmueller affirmed Judge Kelley's

decision with respect to the proof of claim and adopted Judge Kelley's proposed findings of fact and
conclusions of law regarding the adversary proceeding. Ex. 6 1 :7 (Item 32); Ex. 66:20-2 1 ; Tr. at
203 :22-204: 1 2.
1 50.

Judge Stadtmueller held that Nora failed to comply with the Federal Rules of

Bankruptcy Procedure governing appeals. Ex. 66:8- 1 0.
151.

Judge Stadtmueller's opinion states that "debtors failed to provide a cogent statement

of the issues on appeal and also provided briefs that are largely unintelligible" (Ex. 66: 1 1 ) and
describes the debtors' submissions as "an unfocused, stream-of-consciousness-style recitation of
general grievances the debtors have asserted in various forms since the origination of this litigation
in state court" (Ex. 66: 1 4).
1 52.

Judge Stadtmueller held that any issues as to the assignment of mortgages did not

affect HSBC's rights as to the holder of the note. Ex. 66: 1 2- 1 3 .

52

109a

1 53 .

Regarding the Rinaldis' racketeering claim, Judge Stadtmueller held that Rinaldis had

no injury in fact since they were still living in the residence and did not owe any money beyond that
set forth in the mortgage which they agreed to pay. Ex. 66: 1 5.
1 54.

Judge Stadtmueller stated that debtors' activity "has quite obviously been vexatious

and time-and resource-consuming; but, more concerning is the fact that their submissions to the
Court are nigh-unintelligible." Ex. 66: 1 9.
1 55.

Judge Stadtmueller also stated that:
Seeing as the debtors' claims are generally meritless, the Court is
concerned that the debtors are simply attempting to further stay the
defendants' foreclosure of their home. In that case, the abuse of
process charges alleged by the debtors against the defendants would
actually lie much more appropriately against the plaintiffs.

Ex. 66: 1 9-20.
1 56.

Judge Stadtmueller also stated that:
The debtors are hereby warned, however, that they will find
themselves in very deep trouble if additional meritless filings find
their way to this Court (seeing as this Court has already had the
responsibility of dealing with their all-but-frivolous filings in Case
No. 1 2-CV- 1 065) and may very well result in significant sanctions.

Ex. 66:20.
1 57.

On November 1 1 , 20 1 3, Nora filed a motion to amend or alter the findings of fact,

conclusions of law and judgment entered by Judge Stadtmueller. Ex. 6 1 :7 (Item 34); Ex. 67; Tr. at
204 : 1 3-25.
1 58.

Nora's motion to alter or amend asserted the same kind of arguments that they had

previously presented to Judge Kelley and Judge Stadtmueller addressing alleged fraud or forgeries
in assignments

of the Rinaldi mortgage, including the mortgage "purportedly endorsed by Joan M.

Mills as Vice President of Wells Fargo." Ex. 67:2-4.
53

110a

1 59.

The banks and defendants in the adversary proceeding filed a response to the motion

to amend or alter. Ex. 6 1 :7 (Items 35, 36); Tr. at 205 : 1 - 1 2.
1 60.

On December 1 3, 20 1 3, Judge Stadtmueller entered an order denying the motion to

amend or alter. Ex. 6 1 :7 (Item 37); Ex. 68; Tr. at 205 : 1 3-23 .
161.

In the

order denying the motion to amend or alter, Judge Stadtmueller stated that:

... the Rinaldis fail to identify any manifest error of law or fact,
intervening change in law, or newly-discovered evidence that would
entitle them to relief under Rule 59(e) . ... Their arguments at this
stage largely derive from perceived factual errors, which were not
relevant to the Court's analysis and were not in error, and alleged
legal errors, which are simply rehashings of the same meritless
arguments raised before. The Court is, therefore, obliged to dismiss
the Rinaldis' motion to amend.
With this order, the Court hereby makes clear that any further
frivolous submissions will result in an award of appropriate sanctions
against the Rinaldis' attorney.
Ex. 68:3 (citations omitted).
1 62.

On December 23, 20 1 3 , Nora filed a notice of appeal of the orders entered by Judge

Stadtmueller on October 3 1 , 20 1 3 and December 1 3, 20 1 3 . Ex. 6 1 :7 (Entry 38); Ex. 69; Tr. at
205:24-206:7.
1 63.

On February 1 1 , 20 1 4, Nora filed a motion to withdraw as Rinaldis' counsel in the

Bankruptcy Court, the District Court and the Seventh Circuit. Ex. 59:30 (Entry 1 48); Ex. 6 1 :8 (Entry
44); Ex. 62:4 (Entry 8); Ex. 72; Tr. at 206:8-207: 1 0.
1 64.

On March 4, 20 1 4, Judge Kelley heard Nora's motion to withdraw in the bankruptcy

case in conjunction with hearing a motion by the United States Trustee to dismiss the Rina1dis'
bankruptcy case for failure to make payments. Ex. 59:30-3 1
(Entries 1 46, 1 53); Ex. 7 1 ; Tr. at 207: 1 1 -208 : 1 8.

54

111a

1 65.

In an oral ruling on March 4, 20 1 4, Judge Kelley dismissed the bankruptcy case but

retained jurisdiction over motions for sanctions filed by defendants in the Adversary Proceeding. Ex.
59:30-3 1 (Entries 1 53, 1 55); Ex. 7 1 .
1 66.

In an order entered March 5, 20 1 4, Judge Kelley confirmed her oral ruling of March

4, 20 1 4, and denied a motion for reconsideration Nora had filed with respect to Judge Kelley's
opinion that dismissal of the case would moot the appeal Nora had filed for the Rinaldis. Ex.
59:30-3 1 (Entries 1 46, 1 54, 1 55); Exs. 70, 7 1 .
1 67.

Nora's motion for reconsideration in the bankruptcy case repeated the same arguments

previously made based on an alleged "forged endorsement" and stated that "the Rinaldis have
decided not to engage in litigation of their new issues in this Court and wish to be set free from the
underlying bankruptcy . ... " Ex. 70:2-3.
168.

On April 2, 20 1 4, Nora filed a motion to intervene personally in the Rinaldi case

before Judge Stadtmueller. Ex. 6 1 :9 (Entry 46); Ex. 73 ; Tr. at 209:9-2 1 0:3.
1 69.

On April 2, 20 1 4, Nora filed a joint motion for the Rinaldis and herself as the

proposed intervenor in the case before Judge Stadtmueller seeking relief under Federal Rule of Civil
Procedure 60 from the orders from the October 3 1 and December 1 3, 20 1 3 . Ex. 6 1 :9 (Entry 47); Ex.
74; Tr. at 2 1 2 : 1 2-23 .
1 70.

In the motion to intervene, Nora rehashed the same arguments regarding an alleged

forged endorsement ofJoan M. Mills previously rejected by the court i n the orders ofOctober 3 1 and
December 1 3 , 201 3 . Ex. 73.
171.

In the motion to intervene, Nora asserted a right to intervene i n order to defend the

motions for sanctions filed by the banks and defendants in the adversary proceeding. Ex. 73:2, 1 5.

55

112a

1 72.

In the motion for relief under Rule 60, Nora rehashed the same arguments regarding

an alleged forged endorsement of Joan M. Mills previously rejected by the court in the orders of
October 3 1 and December 1 3, 20 1 3 . Ex. 74.
1 73.

By order dated April 9, 20 1 4, Judge Stadtmueller granted Nora's motion to withdraw

as counsel for the Rinaldis, but denied the motions to intervene and for relief under Rule 60. Ex. 75;
Tr. at 2 1 3 : 1 3- 1 7.
1 74.

In the April

9, 20 1 4 order, Judge Stadtmueller also stated that:

Last, as to Ms. Nora's motion to intervene and for Rule 60(b) relief,
the Court notes that it has no choice but to impose sanctions against
Ms. Nora. In the Court's last order, it noted that "[ w]ith this order, the
Court hereby makes clear that any further frivolous submissions will
result in an award of appropriate sanctions against the Rinaldis'
attorney." (Docket #37 at 3 (emphasis in original)). Despite that
extremely clear warning, Ms. Nora fi led the frivolous motions in
question. Therefore, the Court will enter a sanctions award against
her, using its inherent authority to do so under Chambers v. Nasco,
Inc. , 501 U.S. 32 ( 1 99 1 ). The Court will direct that Ms. Nora pay to
the Clerk of the Court $ 1 ,000.00 for deposit into the Eastern District
of Wisconsin Pro Bono fund. And let the Court be clear: any further
frivolous filings will result in even higher sanctions against Ms. Nora.
Ex. 75 :2-3.
1 75.

On appeal, the Seventh Circuit stated that "to the extent the adversary claims are not

moot, we affirm the dismissal of those claims for substantially the reasons discussed by the district
court." Ex. 76:3.
1 76.

The Seventh Circuit also applied an exception to the general rule that mootness would

of the appeal would deprive the lower court's rulings of preclusive effect where "losing party causes
an appeal to become moot in order to avoid the preclusive effect of an unfavorable ruling." /d. The
court added, "We refuse to indulge this type of gamesmanship by depriving the sound decisions of
the bankruptcy court and district court of preclusive effect." Ex. 76:4.
56

113a

1 77.

The Seventh Circuit also affirmed the sanction awarded against Nora, stating that

Nora's obligations to her clients did not excuse her disregard of the district court's clear and repeated
warnings against continued submission ofconfusing, frivolous, and needlessly argumentative filings.
/d.
CONCLUSIONS OF LAW
COUNT ONE

Nora was denied due process of the law as a result of OLR' s failure to give her adequate
notice of the misconduct with which she was charged in Count One. In re Ruffalo, 390 U.S. 544,
55 1 , 88 S. Ct. 1 222, 20 L.Ed.2d 1 1 7 ( 1 968). In the second amended complaint, OLR only alleged
Nora had violated SCR 20:3 . 1 (a) in Count One. Nora did not have adequate notice, prior to the
hearing in this matter, as to whether OLR was alleging she violated SCR 20:3 . 1 (a)(l ), SCR
20:3 . 1 (a)(2), SCR 20:3 . l (a)(3), or some combination of the three subsections of SCR 20:3 . l (a).
Each of the three subsections describe different misconduct and there are different burdens of proof
associated with subsection ( 1 ) and (2) as compared to subsection (3).
COUNT TWO

By filing a frivolous appeal on behalf of her client and herself when she was not party to the
litigation, and, by engaging in an ongoing pattern of conduct to harass the other parties and judicial
officers and delay the proceedings, Nora violated SCR 20:3.2.
COUNT THREE

By engaging in an ongoing pattern of conduct to harass the other parties and judicial officers
and delay the proceedings, Nora violated SCR 40.15, enforceable via SCR 20:8.4(g).

57

114a

COUNT FOUR

Nora was denied due process of the law as a result of OLR's failure to give her adequate
notice of the misconduct with which she was charged in Count Four. In re Ruffalo, 390 U.S. 544,
55 1 , 88 S. Ct. 1 222, 20 L.Ed.2d 1 1 7 ( 1 968).

In the

second amended complaint, OLR only alleged

Nora had violated SCR 20:3 . 1 (a) in Count Four. Nora did not have adequate notice, prior to the
hearing in this matter, as to whether OLR was alleging she violated SCR 20:3 . 1 (a)( 1 }, SCR
20:3 . l (a)(2), SCR 20:3 . 1 (a)(3}, or some combination of the three subsections of SCR 20:3 . 1 (a).
Each of the three subsections describe different misconduct and there are different burdens of proof
associated with subsection ( 1 ) and (2) as compared to subsection (3).
COUNT FIVE

In Desa L. Rinaldi and Roger P. Rinaldi vs. HSBC Bank USA, N.A., et al., U.S. Dist. Court
for the Eastern District of Wisconsin Case Nos. 1 3-CV-336-JPS and 1 3-CV-643-JPS, which led to
7th Cir. U.S. Court of Appeals Case Nos. 1 3-3865 and 1 4- 1 887, by filing a motion to intervene and
a motion for relieffrom the Court's prior orders pursuant to F.R.C.P. 60(b)(2), which motions were
found to be frivolous, after the U.S. District Court had warned Nora that any further frivolous
submissions would result in an award of sanctions, Nora violated and SCR 20:3.2.
DISCUSSION

I, as referee in this matter, first brought up the issue of due process as it relates to Count One
and Count Four ofthe second amended complaint. As I began working on my report ,and while I was
reading OLR's initial post-hearing brief, I was at a loss as to what subsections ofSCR 20:3 . 1 (a) OLR
claimed were violated by Nora in Count One. Essentially, OLR was arguing in their post-hearing
brief that I should pick from the three subsections of SCR 20:3. 1 (a). OLR's brief was unclear as to
58

115a

whether they sought a finding by me that Nora had violated one of the subsections, two of the
subsections, or all three of the subsections. If I had to guess as to what subsections OLR claimed
were violated, obviously Nora did not receive specific notice before the hearing in this case of the
subsections allegedly violated. The same problem also exists as to Count Four.
It must be noted that the second amended complaint simply alleges violation(s) of SCR
20:3. 1 (a) in Counts One and Four. There is no reference to any subsections. There are three specific
subsections to SCR 20:3 . 1 (a). Prior case law has made clear that two of the subsections, ( 1 ) and (2),
are subject to a subjective standard. Disciplinary Proceedings Against Osicka, 2009 WI 38, � 42,
3 1 7 Wis. 2d 1 35,765 N.W.2d 775. Also see, Disciplinary Proceedings Against Lauer, 1 08 Wis.
2d 746, 757-58, 324 N. W .2d 432 ( 1 982); Disciplinary Proceedings Against Bach, 20 1 6 WI 95, 3 72
Wis. 2d 1 87, 887 N.W.2d 335; and Disciplinary ProceedingsAgainst Widule, 2003 WI 34, 261 Wis.
2d 45, 660 N. W.2d 686. The third subsection, (3), is subject to an objective standard. ld Also, each
of the three subsections describe different misconduct.
I asked both parties to submit supplemental post-hearing briefs relating to my due process
concerns. In OLR's supplemental post-hearing briefs OLR argues, in relation to Count One, that
OLR "alleged" violations of all three subsections of SCR 20:3. 1 (a). In relation to Count Four, OLR
argues they "alleged" violations ofSCR 20:3. 1 (a)( I ) and (3 ). (Complainant 's Reply BriefAddressing
Order Dated April 18, 2018 at 2.) This is not correct. Nowhere in the second amended complaint
did OLR make such allegations. They argue, for the first time in their supplemental post-hearing
briefs, that particular subsections ofSCR 20:3 1 (a) were violated. However, post-hearing argument
does not constitute proper notice of the alleged misconduct. In both instances, the second amended
complaint shows that OLR merely alleged violations of SCR 20:3 . l (a), without referring to any
subsections.
59

116a

I could assume that alleging violations of SCR 20:3. 1 (a), without any reference to the three
subsections, is an allegation that all three subsections were violated. However, in relation to Count
Four, OLR argues in their supplemental post-hearing briefs that only subsections one ( 1 ) and three
(3) were violated by Nora. !d. In other words, when OLR alleged a violation of SCR 20:3 . 1 (a) in
Count One, they meant all three subsections were violated, but when OLR alleged a violation ofSCR
20:3 . l (a) in Count Four, they meant only subsections one ( 1 ) and three (3) were violated. Until OLR
filed their supplemental post-hearing briefs, Nora had no notice of such positions.
Given the different standards ofprooffor each ofthe three subsections of SCR 20:3 . 1 (a) and
the different conduct which is the subject of each subsection, Nora had the right to know the specific
subsections she was alleged to have violated when the second amendment complaint was filed. Due
process requires such notice. Such notice was required before the disciplinary hearing began in this
case and not when OLR first filed their supplemental post-hearing briefs. In re Ruffalo, 390 U.S.
544, 55 1 , 88 S. Ct. 1 222, 20 L.Ed.2d 1 1 7 ( 1 968).
OLR argues that Nora COl;lld have determined the precise subsections she was "alleged" to
have violated by conducting discovery. OLR also argues "notice pleading" should apply. However,
it was not Nora's obligation to determine the allegations against her by conducting discovery. While
Ruffalo dealt with an additional count that was added after the disciplinary hearing had commenced,
due process also requires that an attorney be given notice of the alleged misconduct by way of the
complaint so that the attorney may prepare for the disciplinary hearing with full knowledge of the
precise rules allegedly violated. !d.
I also dismiss OLR's argument that Nora should have known the precise subsections she was
alleged to have violated by statements made by the judges and tribunals before which she appeared

60

117a

during the underlying cases. Again, Nora was not required to guess at the misconduct she allegedly
committed based upon statements made by the various tribunals involved.
OLR further argues that they proved all ofthe necessary facts to support a finding that Nora,
in relation to Count One, violated all three subsections of SCR 20:3 . l (a), and subsections one ( 1 )
and three (3) of SCR 20:3. 1 (a), i n relation to Count Four. I agree with OLR. The evidence is
overwhelming and certainly constitutes clear, satisfactory, and convincing evidence that Nora
violated all three subsections of SCR 20:3 . l (a) in relation to Count One, and subsections one ( 1 )
and three (3) i n relation to Count Four. However, the issue o f proper notice still remains, despite
such evidence. I further note that there was no motion to amend the pleadings to match the evidence
and that this issue did not arise until final post-hearing briefs were filed and I began working on my
report and recommendation.
I am mindful that my finding that OLR failed to give appropriate notice of its allegations in
relation to Count One and Count Four ofthe second amended complaint carries a substantial impact
in this long, complicated, and difficult case. It is only after considerable thought and research that
I feel compelled to make such recommendations. In the event the Wisconsin Supreme Court does
not agree with my findings and conclusions that Count One and Count Four must be dismissed on
due process grounds, I do find and conclude, as stated above, that OLR has proven by clear,
satisfactory, and convincing evidence that Nora violated all three subsections of SCR 20:3. 1 (a) in
relation to Count One and subsections one ( 1 ) and three (3) of SCR 20:3 . 1 (a), in relation to Count
Four.
My recommendation that Counts One and Four be dismissed on due process grounds does
not hamper my findings and conclusions in relation to the remaining counts. I am particularly

61

118a

troubled by Nora's misconduct as found in Count Two and Count Three, in relation to harassment
of other parties and judicial officers and personnel.
In their initial post-hearing brief, OLR cites the Sommers cases and compares the conduct
in those cases with the misconduct in this case. Disciplinary Proceedings Against Sommers
(Sommers 1'�. 20 1 2 WI 33, 339 Wis. 2d 5 80, 8 1 1 N.W .2d 387 and Disciplinary Proceedings Against
Sommers ("Sommers //'�. 20 1 4 WI 1 03, 358 Wis. 2d 248, 85 1 N .W.2d 458. OLR, in comparing the
misconduct in the Sommers cases with the misconduct in this case notes that Nora's misconduct is
far worse, given the frequency and offensiveness ofher misconduct and attacks. However, I believe
Nora's misconduct in this case is on a level all of its own. Nora's improper conduct was not limited
to a particular case, court, or judge. It is clear that Nora generally practices law in a highly offensive
and disrespectful fashion. Her idea of a defense is to delay the progress of the case by intentionally
being offensive, disrespectful, and difficult. She has unfortunately learned that accusing judicial
personnel and opposing counsel of misconduct, criminal acts, and racketeering goes a long way
towards her goal of delaying the progress of any case in which she is involved. She has learned that
the longer she can delay the foreclosure of a client's property, the better the job she is doing for her
client.
She believes her accusations of misconduct against others is just part ofa normal foreclosure
defense and she sees nothing wrong with it. She believes in this defense strategy and believes she
is right and others are wrong. She does not simply push to the outer boundaries of acceptable
professional conduct, but uses shock and extreme accusations to cause delay. Nora believes in this
sort of defensive conduct. She believes it is appropriate.

62

119a

During the time this disciplinary case was before me and during the four (4) days of hearing
in this case, I saw nothing which would lead me to believe Nora would not continue such misconduct
if given the chance. She represents a serious and ongoing threat to the public, the judges before
which she appears, opposing counsel and the legal profession. My research did not disclose any
previous disciplinary cases in which an attorney was of the mindset of Nora. She justifies all of her
misconduct on the basis that she is defending against foreclosure. She sees herself as a hero. She has
not and will not change her thinking. She has no appreciation of the tremendous cost associated with
her misconduct and the inappropriate charges she makes against members of the legal community.
I n addressing its concerns about Nora engaging in "conduct unbecoming a member ofthe
court's bar," the Seventh Circuit stated that:

Nora has repeatedly acted with needless antagonism toward opposing
counsel and j udicial officers. In her responses to our order to show
cause, she has refused to back down from her accusations of libel
against Judge Crabb and "actionable civil fraud and racketeering"
against opposing counsel. She denies accusing the state court judge of
altering transcripts. but the record belies her denial: she not only made
the accusations but moved for substitution of the judge on that basis.
She also now derides "this panel and many ofthejudges in this circuit"
as being biased "against homeowners' rights to be heard and defend
their homes." This bandying about of serious accusations without basis
in law or fact is unacceptable and warrants sanctions. Ex. 50:3
(emphasis addedV
Such misconduct is not limited to the Spencer and Rinaldi cases. The misconduct in Nora's
reciprocal discipline matter, Disciplinary Proceedings Against Nora, 1 73 Wis. 2d 660, 495 N.W.2d
99 ( 1 993), was similar to the misconduct in this case. Nora's misconduct in the recently decided

3

Statements and findings of misconduct by civil tribunals is not per se proof of misconduct in disciplinary

cases, given the different burdens of proof in civil cases versus disciplinary cases. Disciplinary Proceedings Against

Osicka, 2009 WI 38, 1[ 42, 3 I 7 Wis. 2d 1 35,765 N. W.2d 775. My findings in this case are based on clear,
satisfactory, and convincing evidence presented during the hearing in this case.

63

120a

"Nora One" disciplinary case was similar in many ways to the misconduct in this case. Disciplinary
Proceedings Against Nora, Supreme Court Case No. 20 1 3AP653-D. There is a strong pattern of the
same type of misconduct over a period of many years. Nora has not learned from her previous
disciplinary matters and she has not shown any awareness of the seriousness of her misconduct.
After nearly two years of litigation before Judge Potter in Wood County, Judge Potter set a
hearing date on the plaintiffs pending motion for summary judgment. Shortly thereafter, Nora filed
a notice of removal of the Spencer case to the United States District Court for the Western District
of Wisconsin. This was a further delay tactic, given that Nora had run out of motions and accusations
against Judge Potter in the Wood County court. After further briefs in relation to the issue ofremoval
and remand, the United States District Court Judge Barbara Crabb remanded the case to state court
and granted PNC Bank attorney fees and costs. In her briefs relating to the remand, Nora accused
the plaintiff and its attorneys of engaging in "sham proceedings" against her client. Nora filed a
motion for reconsideration of the remand order entered by Judge Crabb. After her first motion for
reconsideration was denied, Nora filed a second motion for reconsideration of the remand order.
Nora accused Judge Crabb oflibel based upon orders Judge Crabb made in previous cases involving
Nora.
Nora appealed the US District Courts's order for remand and attorneys fees to the US Court
of Appeals for the Seventh Circuit. Nora named herself as one of the appellants, despite the fact that
Nora was not a party to the US District Court action. The Seventh Circuit found Nora's appeal on
behalf ofherselfand her client frivolous and imposed sanctions of$2,500 against Nora. The sanction
were suspended until the time, if ever, that Nora submitted further inappropriate filings.

64

121a

In its August 20, 20 1 4 order for a show cause hearing, the Seventh Circuit requested Nora
respond to four specific issues and directed her to provide only one response. Rather than following
the court's order, Nora submitted multiple responses to the order to show cause. She also repeated
her accusations against PNC Bank and its attorneys of engaging in felony racketeering and wire
fraud. Nora accused opposing counsel of fraudulently concealing the identity of the real party in
interest and engaging in actionable civil fraud and racketeering that may constitute state and federal
criminal misconduct. On October 2, 20 14, the Seventh Circuit issued a final order directing Nora's
client, Spencer, to pay the opposing party $25,295.00 in attorneys fees and $349.67 in costs.
On October 28, 20 1 4, a show cause hearing was held before the Seventh Circuit. On February
1 1 , 20 1 5, the Seventh Circuit issued an order regarding the show cause hearing. In its order the court
noted "Nora's conduct appeared to be part of a pattern of troubling litigation tactics." The Seventh
Circuit also noted that Nora's response to her opponents and the courts during litigation were
"unnecessarily accusatorial and antagonistic" noting that Nora had accused the state court judge and
court reporter of fraudulent manipulation oftranscripts and the District Court of pursuing a campaign
of libel against her and opposing counsel of engaging in actionable civil fraud and racketeering.
In a February 1 1 , 20 1 5 order, the Seventh Circuit discussed sanctions against Nora. The
court noted that Nora's arguments were made with no reasonable expectation of success and for the
purpose of delay, harassment and sheer obstinacy. The circuit court noted that Nora has repeatedly
acted with needless antagonism towards opposing counsel and judicial officers. They also noted that
she refused to back down from her accusations of libel against Judge Crabb and her claims of
actionable civil fraud and racketeering against opposing counsel. The Seventh Circuit also noted that

65

122a

Nora, while denying accusing the state court judge of altering transcripts, the record of those
proceedings showed otherwise.
The Spencer matter is most revealing in relation to Nora's violations of the alleged Supreme
Court rules. It is clear that from the very beginning of her entrance into that case her goal was to
delay a judgment of foreclosure as long as possible. Motions, allegations of impropriety against the
court reporter, court staff, and judge were numerous. Nora knew her attacks against court personnel
and Judge Potter would buy her more time. She accused the court reporter of altering the transcript
of the hearing. She accused court personnel of not responding to requests for copies of court
documents. She accused Judge Potter of numerous improprieties. He was accused of colluding with
the plaintiffs law firm. He was accused of acting in concert with the law firm to effectuate a
fraudulent foreclosure against Nora's client. He was accused of manipulating the proceeding to deny
Nora's client the opportunity to be heard. He was accused of ex parte communications with the
plaintiffs law firm. He was asked to disqualify himself from the case because of ex parte orders and
manipulations of the proceedings in favor of the plaintiffs law firm.
Nora deliberately accused Judge Potter of serious improprieties knowing that it would delay
the foreclosure proceeding. She knew her wild allegations needed to be resolved before the court
could return to the merits of the case. Nora was well aware of the impropriety of her charges and
accusations against Judge Potter, but she proceeded with them because it was delay at any cost. Nora
actually believed such charges were appropriate as part of her defense. The goal was not to abide by
appropriate professional boundaries, but to delay foreclosure of her client's home.
Unfortunately, Nora believes in her tactics. She believes she is a hero in taking on defense
of foreclosure cases. She believes courts have no appreciation for her defense of foreclosure actions
66

123a

and the tactics she uses. She believes her tactics are justified and proper as part of the defense of
foreclosure actions.
Nora does not understand the difference between a vigorous and zealous defense in a
foreclosure case and professional misconduct. There is nothing wrong with a zealous response to a
foreclosure complaint. However, the many false accusations against Judge Potter during the course
of the Spencer matter far exceed appropriate professional boundaries. It is totally inappropriate and
violation of Supreme Court rules to make the charges and accusations against Judge Potter for the
sole purpose ofdelay. It must be noted that Nora failed to substantiate any of her accusations against
Judge Potter.
One must examine the costs to the parties, their lawyers, the judges involved, and the general
public resulting from Nora's improper allegations. Every time Nora attacked opposing counsels and
accused law firms of serious improprieties, they were forced to defend themselves. The motions,
briefs, and arguments against such charges were costly. The research and briefing to defend against
such charges was substantial. Nora has no appreciation of the unnecessary costs she imposes on her
adversaries. She does not care about such costs. Assessing costs against her, as several of the judges
did, have no effect on her, given that she has no intention of ever paying the costs imposed on her
or her clients. It appears from the record and evidence produced during the hearing that none of the
costs imposed by the various courts involved have ever been paid by Nora or her clients. Nora is
most skilled at using the bankruptcy courts not only personally, but on behalfofher clients, to avoid
the financial effects of her misconduct.
In recommending appropriate discipline for Nora's misconduct, I must assess and observe
her current demeanor and thinking. She has no remorse for her conduct. She would not hesitate to
67

124a

do things the same way if given a second chance. She sees her intellect as far exceeding that of her
adversaries and the judges before which she appears. She sees her misconduct as j usti tied by the way
foreclosure attorneys and courts treat the "victims" of foreclosure actions. I see little chance that
Nora will ever understand why her actions were wrong. I do not believe she will ever see how far
she exceeded professional boundaries.
During the course of this disciplinary case, Nora has accused most if not all the attorneys
representing OLR of serious professional misconduct, and in many cases criminal activities. She has
accused many individuals involved in the preliminary investigations of her misconduct in this case
of their own misconduct, biases, and sometimes criminal acts. This is not a case of paranoia, but
rather deliberate "take no prisoner" thinking. I see little chance that Nora will ever accept the
impropriety of her conduct and change.4

APPROPRIATE DISCIPLINE

The factors for consideration in imposing appropriate discipline for professional misconduct
include: ( 1 ) the seriousness, nature and extent of the misconduct; (2) the level of discipline needed
to protect the public, the courts and the legal system from repetition of the attorney's misconduct;
(3) the need to impress upon the attorney the seriousness of the misconduct; and (4) the need to deter
other attorneys from committing similar misconduct In re Disciplinary Proceedings Against
Hammis, 201 1 WI 3, � 39, 3 3 1 Wis. 2d 1 9, 793 N.W.2d 884.

4

Jn relation to all the allegations Nora made against judges, court personnel, OLR lawyers, staff, and

investigators, opposing attorneys, banks, and others, I am unaware ofNora ever having proved any of her
unsupported allegations of criminal activity, racketeering, fraud, libel or other misconduct. Other than wild
accusations, Nora made no attempt to do so in this case.

68

125a

Section 3.0 of the ABA Standards for Imposing Lawyer Sanctions, as amended in 1 992,
explains that courts should consider ( 1 ) the duty violated, (2) the lawyer's mental state, (3) the
potential or actual injury caused by the lawyer's conduct, and (4) the existence of aggravating or
mitigating factors. In re Disciplinary Proceedings Against Grogan, 20 1 1 WI 7, � 1 5, 33 1 Wis. 2d
34 1 , 795 N.W.2d 745 (recognizing the ABA Standards as a guidepost).
OLR asks that I recommend a one-year suspension of Nora's license to practice law,
consecutive to any other suspension Nora is serving, as appropriate discipline in this case. OLR
correctly cites to the appropriate factors that I should consider in recommending discipline as found
under Wisconsin law and under ABA Standards for imposing discipline, as referenced above.
In support of their request, OLR correctly notes that Nora was previously disciplined for
similar conduct. They also correctly note that there is a pattern of similar misconduct. OLR also
argues that Nora has made false and misleading statements during this disciplinary proceeding and
has refused to acknowledge her wrongdoing. Noting that Nora has substantial experience in the
practice of law, OLR also argues that Nora's conduct has knowingly caused harm to others and the
legal system.
I accept all of OLR's arguments and positions. However, I do not agree with the
recommendation of a one-year suspension. I further find that OLR's reliance on the Widu/e and
Sommers cases to be inadequate in relation to appropriate discipline in this case. As the Wisconsin
Supreme Courtnoted in the Sommers cases, those cases involved many complicating factors, making
application of those cases to the current case very difficult. I do agree with OLR that Nora's
misconduct in this case far exceeded the misconduct of Attorney Sommers, in terms of both
frequency and offensiveness.
69

126a

As I stated above, I believe Nora' s misconduct is at a level all of its own, not previously seen
in any Wisconsin disciplinary cases. Her attacks on judges, court personnel, opposing counsel and
law firms, OLR staff and attorneys, and many individuals connected with the disciplinary
committees ofthe State of Wisconsin is unprecedented. She is relentless in her attacks. She was, and
continues to be willing to say and do anything to get her way. She has no understanding ofthe harm
and damage she caused everyone she accused of misconduct and criminal activity. She repeated her
misconduct and accusations throughout trial courts and appellate courts. She has never shown any
remorse or understanding of the seriousness of her charges. She continued such conduct throughout
this case, accusing opposing counsel and individuals on the staff of OLR of serious misconduct,
including criminal misconduct. With a license to practice law, I have no doubt that Nora would
continue her misconduct.
Attorney Nora represents a serious threat to the legal system and the public as a licensed
attorney i n the State of Wisconsin. Her misconduct in this case is most serious. The level of
discipline needed to protect the public, the courts and the legal system from repetition of her
misconduct is high. The need to impress upon Attorney Nora the seriousness of her misconduct is
also high. While the need to deter other lawyers from committing such misconduct is a factor, I do
not believe most lawyers in Wisconsin would ever think of engaging in the type of misconduct
Attorney Nora committed in this case.
I recommend that the law license of Attorney Nora be suspended for two (2) years,
consecutive to any current suspensions. Attorney Nora should be ordered to pay all of the costs of
this disciplinary proceeding. I also recommend that reinstatement of her license be conditioned on
good faith efforts by her to pay the tremendous costs incurred by OLR and the lawyers of Wisconsin
in this disciplinary proceeding.
70

127a

Dated at Mi !waukee, Wisconsin, this

71

9!! �
day o f

, 20 I 8 .

128a

APPENDIX D

129a

STATE OF WISCONSIN

IN SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST WENDY ALISON
NORA, ATTORNEY AT LAW.
OFFICE OF LAWYER REGULATION,

CASE CODE

CASE NO.

30912
2 0 15AP ,;7:/.ffi:])

Complainant;
WENDY ALISON NORA,
Respondent.
ORDER

TO:

TO ANSWER

Wendy Alison Nora
Access Legal Services
310 Fourth Avenue S, Suite 5010
Minneapolis, MN 55415-1053

YOU ARE HEREBY ORDERED to file with the Clerk of
Court, Wisconsin Supreme Court,
Post Office Box 1688,
Madison, Wisconsin 53701, and to serve on the counsel
for the Office of
Lawyer Regulation,
at the address
below,
an Answer to the Complaint of the Office of
Lawyer Regulation, within twenty (20) days of the date
upon which this Order to Answer and Complaint in this
proceeding are served on you, and in the event of your
failure to do so, discipline deemed by the Supreme Court
to be appropriate will be imposed upon you.

Dated this

P ..,-,.

day of November,

2015.

OFFICE OF LAWYER REGULATION

�
�

-ES
Assistant Litigation Counsel
State Bar No. 1017028
_
__________

110

East Main

Madison,

Direct

Street,

Room

315

Wisconsin 53703-3383

phone

(608)

261-0695

130a

STATE O F WISCONSIN

IN SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST WENDY ALISON
NORA,

CASE CODE

30912

ATTORNEY AT LAW.

d �� 2b

CASE NO. 2015AP

OFFICE OF LAWYER REGULATION,
C omplainant ;
WENDY ALISON NORA,
Respondent.

COMPLAINT

COMES

NOW
Lawyer

Regulation

Sheryl St.

Wisconsin

the

Ores,

(OLR)

,

by

Supreme
Assistant

Office

Court

Litigation

of

Counsel

and alleges as follows:

OLR was established by the Wisconsin Supreme Court

1.

and operates pursuant to Supreme Court rules.

This Amended

Complaint is filed pursuant to SCR 22 . 11.
2.

Res pondent,

Wisconsin
practice
listed

55415.

attorney
law

with

Services

r

Attorney Wendy Alison Nora

310

in
the

(State

Bar

1975

whose

State

Bar

Fourth

Ave.

s.

No.

office
of
I

1017043)
add r ess

Wis consin
Suite

5010 I

as

(Nora),

is a

admitted
is

to

currently

Acces s

Legal

Minneapolis,

MN

131a

Nora's Wisconsin disciplinary history consists of

3.

a 3 0 day suspension as discipline reciprocal to that imposed
by

the

failing

Minnesota
to

Supreme

adequately

claim against a bank,
bringing

litigation

Court

for

investigate,

misrepresentations1

bringing

a

inappropriate transfer of assets, and
as

a

delay

tactic

while

theory that was not j ustified by existing law.
Proceedings

Against

frivolous

173

Nora,

Wis.

2d

660,

asserting

a

Disciplinary

495

N.W.2d 99

(1993).
Regarding the Spencer Matter
OLR Matter No.

2014MA1570

Counts One -

4.

Three

In July 29, 2005, a mortgage note was issued in the

amount of $2091160 to Sheila Spencer {Spencer).
5.
•

In 2008 , Spencer failed to pay her mortgage.

Circuit

6.

In

Court:

Judge

October

Potter,

2008 ,

PNC

Counsel,

Bank

Staff

filed

a

foreclosure

action (Spencer foreclosure) against Spencer's property,

the

Honorable

PNC

Bank NA

7.

Gregory J.

vs.
In

Potter

Sheila M Spencer,

May

20121

Nora

(Judge Potter)

presid ing.

Wood County Case No.
became

Spencer.

2

successor

2013 TJ49.

counsel

for

132a

8.

Nora

its

attorneys

and

alleged

the

plaintif f

were part

of

a

1

its

entities 1

related

grand,

national mortgage

fraud s cheme.

9.

Nora

argued the correct plaintif f holding the note

was an is s ue before the court.
10.

The

court

determined

PNC

Bank,

N. A. ,

was

the

correct party plaintif f.
11.

Throughout

the

litigation,

Nora

accus ed

counsel of fraudulently concealing the identity
party

interes t

racketeering

and engaging
may

[that]

in

oppos ing

of

the real

"actionable civil f raud and
s tate

cons titute

and

federal

criminal mis conduct. "
12.

On

conf erence,

May

23,

s aid

2012,

hearing

the

court

originally

held

a

s cheduled

scheduling
f or

s ummary

judgment.
13.

During

the May 23,

2012

scheduling conf erence,

the

court s tated Nora would need to provide a lis t of is s ues f or
s ummary judgment.
14.

On

f oreclos ure
Nora

May

25,

action

enclos ing

a

2012,

s ent

plaintiff 's

Judge

propos ed

Potter

order

a

letter

(proposed

the timeline f or s ummary judgment iss ues .

3

couns el

in

and

order)

the

copied

regarding

133a

15.

Plaintiff's

proposed order was

counsel's letter

shows a

copy

of

the

sent to Nora and he provided affidavits

of mailing.
16.

Judge Potter sent the parties via letter a signed

order in which he acknowledged he converted the May 23, 2012
summary

judgment

hearing

to

a

scheduling

conference

and

provided a timeline for summary j udgment issues.
17.

Nora

claims

she

never

received

Judge

Potter's

let ter and final order.
18.

Nora asserts there were

ex

parte

which plaintiff's counsel sent Judge
the

proposed

communications by

Potter a letter with

order and Judge Potter entered the order but

did not send it to Nora.
19.

ex

Nora alleges there were three additional unlawful

parte

letter

communications

plaintiff 's counsel:

between

Judge

March 31, 2010, February

Potter

17,

2011,

and
and

June 20, 2011 letters.
20.

An

employee

for

plaintiff's

affidavit in which she swore she sent

attorney

filed

the March 31,

an
2010

letter to Spencer.
21.

The

February

17,

2011

and

June

20,

2011

letters

indicate on their face a copy was sent to Spencer.
22.

On June 28, 2012,

Nora moved to have Judge Potter

disqualified based upon the alleged
4

ex parte

communications.

134a

23.

Nora

received

the

trans cript

of

the

hearing and dis covered the third page was

23,

May

2012

mis s ing from

the

trans cript.

2 4.
between
the

Nora
the

words

claimed

words

there

used during

appearing

in

the

Nearly

all

of

certain

the May 2 3,

word

2 012

trans cripts ,

'call me' was trans cribed as

2 5.

were

s uch

variances

hearing and
as

the

word

of

the

'contact me. '

the

text

of

page

three

trans cript cons is ts of Nora giving Judge Potter a procedural
and factual his tory of the cas e.
26.

dates ,

Page three of the trans cript contains
and

no

findings

that

would

prejudice

no orders ,
Nora

or

no
her

client.

2 7.

Nora

claimed

Potter

Judge

and

the

court

clerk

intentionally manipulated the court record.

2 8.
to

the

Nora

s ubs equently

transcript

page

withdrew

three

and

her

objections

acknowledged

related

there

mus t

have been a collating or proces s ing error.

2 9.

On

demanding

July

Judge

2 3,

2 012,

Potter

be

Nora

filed

dis qual ified

an

amended

bas ed

upon

motion

repeated

ex parte communications and entering ex parte orders .
30.

counsel

In the July 23,
of

conniving

2012

to

motion,

procure

5

ex

Nora accus ed oppos ing
parte

orders ,

and,

135a

accused the judge,

opposing counsel,

and

court personnel of

manipulating the record.
The court entered an order denying Nora, s July 23,

31.
2012
•

disqualification motion.

U. S.

District

32.

On

Spencer

10,

January

foreclosure

judgment

motion

Judge Crabb

Court :

2013,

action

was

nearly

commenced

District

Barbara A.
33.

Crabb

years

after

and

while

a

pending in circuit court,

motion to remove the case to the U.S.
Western

four

of

Wisconsin,

the

summary

Nora filed

a

District Court for the

U.S.

District

Court

Judge

(Judge Crabb) presiding.

On February 8,

2013,

the plaintiff

moved

to remand

the Spencer foreclosure matter to state court.
34.

other

Throughout her
pleadings,

attorneys

of

brief in response to the remand and

Nora

engaging

accused

in

a

the

plaintiff

proceedingtt

"sham

and

against

its
her

client.
35.

In

a

March

25,

2013

order,

Judge

Crabb

stated

federal jurisdiction did not attach to the Spencer case and
remanded the case t o the Wood County Circuit C ourt.
36.

On

April

reconsideration

of

8I

2013,

the

March

Nora
25,

attorney' s fees.

6

filed

2013

a

order

motion
objecting

for
to

136a

37.

Judge Crabb denied Nora's April 8 ,

2013 motion f or

reconsideration as frivolous because the matter had already
been

remanded,

reconsider

stated

its

remand

the

Court

order,

and

lacked

jurisdiction

ordered

Spencer

to

to

pay

attorney's f ees.

38.

Nora f iled

the March 23,
39.

a

second motion

2013 orderr

f or

reconsideration

of

said motion summarily denied.

Nora accused Judge Crabb of

libel based upon orders

Judge Crabb made in previous cases involving Nora.
4o

.

Judge

unsealing

Crabb' s

one of

previous

orders r

in

part,

invol ved

Nora's medical records during a matter in

which Nora claimed her medical condition required additional
extensions of time and other considerations by the court.
41.

Nora

alleged

Judge

Crabb's

opening

of

the

medical

records was injurious to her reputation.
42.

Nora

has

not

al leged

the

medical

records

were

untrue.
43.

Nora's

accusations

of

libel

were

intended

to

discredit a judiciary member while performing her duties.
44.
against

In

addition,

Nora

stated

her

accusations

of

libel

Judge Crabb related to the Judge making a statement

that Nora's arguments were "lacking coherence. "

7

137a

45.
Judge

Nora

stated,

Barbara

A.

"[T] he

Crabb

has

Res pondent
engaged

in

i ndeed
a

s tated

campaign

of

that
libel

against her. "
•

Court of Appeals for the Seventh Circuit

U.S.

46.

N ora

appealed

the

U. S.

District

remand and attorney's f ees to t he U.S.
the 7

th

Circuit

47.

In

Court's

order

for

Court of Appeals

for

(7th Circuit).

Nora's

appeal

to

the

7th

Circuit,

the

U. S.

Nora

named

Dist rict

Court

hers elf as one of the appellants.
48.

Nora

was

not

a

party

to

action.
49.
No.

The August 13 ,

2014 ,

7th Circuit's decis ion in Cas e

13-276:
(a)

f ound Nora's appeal on
and Spencer f rivolous .

behalf

of

hers elf

(b)

imposed a sanction of $2,500 against Nora
noting,
"We
suspend
this
sanction,
however/
until the time,
if
ever,
that
further
submits
Nora
inappropriate
filings. "

(c)

ordered Nora to show cause as to why she
should not be sanctioned for the frivolous
appeal.

PNC Bank,
so.

hearing,

N.A.

In
t he

v.

its
h

7t

Spencer,

August
Circuit

763
20 ,

R.J

2014

6501

order

reques ted

8

655

Nora

(7th Cir. 2014).

for

a

s how

respond

to

cause
f our

138a

specific

issues

and

directed

her

to

provide

only

one

response.

51.
order,

In

response

to

the

August

20,

2014

show

cause

Nora submitted five separate responses as follows:

(a)

an August

27,

2014

petition

for rehearing en

bane
on
behalf
of
herself
and
Spencer,
rehashing her frivolous appellat e arguments;

(b )

a "partial r esponse t o order to show cause" ;

(c)

a September 19, 20 14 separate motion to stay
further proceedings pending a petition for
writ of certiotari;

(d)

citation to addit ional authorityi

(e)

eleven

days

before

the

show

and,

cause

hearing

a

motion to postpone the hearing because of a
mild
injury
she
had
sustained
in
a
car
accident .
52.

Nora' s

accusations

order

against

to

PNC

show

cause

Bank,

NA

response
and

its

att orneys

engaging in felony racketeering and wire fraud,
Nora accused opposing counsel of
identit y

of

"actionable

the

real

civil

party

f raud

in

and

repeated

her
of

and further,

fraudulently concealing t he
interest

and

racketeering

engaging
[that]

in
may

constitute state and f ederal criminal misconduct ."
53.

On September 16,

Nora's August 27,

2014,

t he

Court of

Appeals denied

2014 petition f or rehearing en bane.

9

139a

5 4.

stay

On

the

September

19,

16,

September

2014,

Nora

filed

decision

2014

a

petition

pending

a

writ

to
of

certiorari to the U. S. Supreme Court.
On October 2,

55.

the

2014,

order directing Nora's client,
party

$25,295

Circuit issued a final

Spencer,

to pay the opposing

in at torney's fees and $349.67 in costs.

The October

56.

th

7

2,

2014

ili
7
Circuit order was silent on

the issue of whether it would issue any additional sanction
against Nora.
On October 3,

5 7.
from the

6

th

20141

Nora filed a 28 -page decision

Circuit Court of Appeals,

13-3402,

as supporting

evidence for Nora1S case.
58.

On October

59.

On

28,

February

2014,

11,

a show cause hearing was held.

2015,

the

7th

Circuit

issued

an

order regarding the show cause hearing outlining the factual
background as follows:
As discussed in our earlier opinion, this case
arose from a Wisconsin foreclosure action in which
Nora, retained by Sheila Spencer, raised numerous
objections focused on alleging that PNC Bank was
fraudulently attempting to foreclose.
Nearly four
years after the suit had been filed, Nora then
removed the case to federal court on the basis that
she had just discovered through internet research
that Freddie Mac was the "real party in interest. "
The district court remanded the case to state court
and awarded fees and costs to PNC, concluding that
Nora failed to explain how federal jurisdiction
could exist when Freddie Mac was not a party to the
case.
Nora moved for reconsideration, and the
court denied the motion as "frivolous," noting that
10

140a
------ -�-

Nora "ignored the voluminous law stating that
district courts lack jurisdiction to reconsider
remand orders, made no good faith argument for
changing existing law and offered no meritorious
arguments for reconsidering the decision to award
The court added that Nora had attempted
fees."
"repeated
procedural
feints
to
delay
the
foreclosure that was properly before the state
court. "
Nora then appealed on behalf of both Spencer and
herself,
and we concluded that the appeal was
sanctionably frivolous.
We explained that Nora had
"never presented any colorable basis for federal
jurisdiction
over
this
years-old
state-court
foreclosure case," leading us to "suspect that the
removal was part of a strategy designed to gum up
the progress of the case."
Spencer,
763 F.3 d at
We also observed that we lacked jurisdiction
655.
over Nora's appeal on her own behalf because
liability for the award of fees and costs rested
solely with Spencer; although Nora asserted that
Judge Crabb had "engaged in a campaign of libel
against
[her]," this alleged criticism did not
permit Nora to appeal.
Id.
at 653-54.
Nora
suggested at oral argument that she would withdraw
her name as co-appellant but never did so. Id. at
654.
Further, we noted that Nora's conduct appeared to
be part of a pattern of troubling litigation
tactics...
Additionally, we observed that Nora's
responses to her opponents and the courts during
this litigation were "unnecessarily accusatory and
antagonistic," noting that Nora had accused "the
court
judge
and
court
reporter
of
state
fraudulently manipulating transcripts, the district
judge of pursuing 'a campaign of libel against
[her] 11
and opposing
counsel
of
engaging
in
'actionable civil fraud and racketeering [that] may
constitute state and federal criminal misconduct.111
Spencer,
763 F.3 d at 655 (alterations in original).
We gave Nora 3 0 days to show cause why she should
not be sanctioned.
Two days after we issued our opinion, Nora filed a
14-page
"initial
response"
alleging
that
the
11

141a

opinion did not provide her with reasonable notice
of the charges against her.
She requested an
evidentiary hearing and appointment of "an attorney
to represent the proponent of the Order to Show
Cause and a r eferee or special master to preside at
the
hearing . "
We
denied
Nora's
request
for
appointment
of .a
special
master
and
a
full
evidentiary hearing but agr eed to hold a hearing on
the show-cause order as allowed under Rule 46 (c) .
We warned Nora
filings beyond
cause
order"
following four
the removal of

that we would not accept additional
"one proper response to the show­
and
directed
her
to
address
the
issues in her response:
(1) whether
this case, motion to reconsider, and

appeal of the fee order were frivolous;

(2) whether

her appeal on her own behalf was frivolous i
( 3)
whether the r emoval and appeal were litigated for
the
improper
purposes
of
delay
or
increasing
litigation costs i and (4)
whether her attacks on
her

opponents

and

the

district

judge

were

appropriate advocacy.
Nora did not limit herself to one proper response.
On September 2, 2014, she submitted a petition for
rehearing en bane on behalf of herself and Spencer,
rehashing her frivolous appellate arguments.
On
September 19, she filed both a "partial r esponse to
order to show cause (all rights reserved) " and a
separate motion to stay further proceedings pending
a petition for writ of certiorari.
On October 3,
after the court denied her request for a stay of
proceedings,
she filed a citation of additional
authority under Circuit Rule 28(e) to bring to our
attention a S ixth Circuit decision that purportedly
supports her arguments on the merits.
Finally, on
October
17,
eleven days before the show cause
hearing, Nora moved to postpone the hearing because
she had become "progressively mildly cognitively
impaired as the result of a whiplash injury" from a
car

accident

on

September

13.

We

denied

the

request to postpone the hearing but granted Nora,
or an attorney on her behalf, leave to argue by
speakerphone.
On October 28,
Nora appeared in
person for a 20-minute hearing.
In re Nora,

778 F.3 662

(7th Cir. 2015).
12

142a

60.

In

its

February

11,

2015

order,

the

7th

Circuit

discussed whether sanctions would be appropriate:
are
warranted
under
Rule 38
when
a
Sanctions
litigant or attorney presents appellate arguments
with no reasonable expectation of success for the
purposes of delay, harassment, or sheer obstinacy.
See Wachovia Sec. 1 LLC v. Loop Corp., 726 F.3d 899,
909-10 (7th Cir. 2013); Hartz v.
469, 475 (7th Cir. 1990) i Mays
865
F.2d
responses

134,
138-39
(7th
provide us with no

Friedman,
v.

Chi.

919 F.2d

Sun-Times,

Cir.
1989).
Nora's
persuasive reason to

doubt
that
her
arguments
in
motivated by improper purposes....

this

appeal

were

Nora also fails to alleviate our concern about her
engaging in "conduct unbecoming a member of the
court's bar" under Rule 46 (c). She contends that
her comments during this litigation have amounted
to
nothing
more
than
unsanctionable
rudeness,
In
re
Snyder,
472 U.S.
634
(1985).
In
citing
Snyde r , the Supreme Court concluded that a single
ill-mannered letter did not rise to the level of

"conduct inimical to the administration of justice"
that is sanctionable under Rule 46(c). Id. at 6454 7 i see In re Lightfoot, 217 F. 3d 914, 916-17 (7th
Cir. 2000) (discussing this standard and collecting
cases applying it).
But Nora's conduct is
more
egregious than that in Snyder. As noted in our
earlier opinion,
Nora has repeatedly acted with
needless antagonism toward opposing counsel and
judicial officers. In her responses to our order to
show cause, she has refused to back down from her
accusations
of
libel
against
Judge
Crabb
and
"actionable civil fraud and racke.teering" against
opposing counsel.
She denies accusing the state
court judge of altering transcripts, but the record
belies
her
denial:
she
not
only
made
the
accusations but moved for substitution of the judge
on that basis. She also now derides "this panel and
many of the judges in this circuit" as being biased
"against homeowners r rights to be heard and d efend
their
homes."
This
bandying
about
of
serious
accusations
without
basis
in
law
or
fact
is
u nacceptable and
warrants sanctions.
See
In
re
Hendrix/
986
F.2d
195,
201
(7th
Cir.
1993)
13

143a

(explaining that attorney's filing of submis s ions
not grounded in law or fact is sanctionable); Mays,
865

F.

2d

at

140

(sanctioning attorney

for falsely

imputing positions on opponents and the court) .
Nora suggested at her hearing that her problems
represent
a personal dispute with
Judge Crabb,
pointing
out that
the j udge decided to unseal
Nor�'s medical records in an appeal Nora filed in
her own bankruptcy case. But Nora has failed to
persuade us that the judge's actions amounted to
anything more than a dverse rulings against her. Cf.
Liteky v. United States, 510 U. S. 540, 5 55 (1994}
(•[J]udicial rulings alone almost never constitute
a

valid

basis

for

a bias or partiality

When we questioned Nora about the lack of

motion. " )

...

basis for

her libel accusations at the hearing in this case ,
propos ed
that
she
could
substantiate
her
she
accusations if allo wed to discuss them with us in
chambers.
There
is
no
reason
to
bel ieve
that
allowing Nora to disparage Judge Crabb in private
would convince us that sanctions are inappropriate.
Id.

Nora
COUNT ONE

61.

By

r emoving

a

state

court

the federal court after four years of
was

no

colorable

basis

for

federal

f oreclosure

matter

to

litigation when there

j urisdi ction ,

and/

by

filing a f r ivolous motion to reconsider the order remanding
matter

the

20:3.l(a)

1

SCR

back

to

the

state

court,

Nora

violated

SCR

.1

20:3.l(a) provides:

"In representing a client, a lawyer shall not:

(1)

knowingly advance a claim or

defense that is unwarranted under existing law, except that the lawyer may advance such claim or defense if
it

can

be

supported by good faith argument for an extension, modification or reversal of existing law; (2)

know ingly advance a factual position unless

there

is a basis for doing so that is not frivolous; or (3) file a

suit, assert a position, conduct a defense, delay a trial or take other action on behalf of the client when the
lawyer

knows

or when it is obvious that such an action would serve merely to harass or maliciously injure

another."

14

144a

COUNT TWO

62.
client

By

filing

and

herself

litigation,
conduct

to

a

and,
harass

frivolous
when

by

she

was

engaging

the

other

and delay the proceedings,

appeal

in

on

not
an

parties

behalf

of

her

party

to

the

a

ongoing

and

pattern

judicial

of

officers

Nora violated SCR 20:3.2.2

COUNT THREE

63.

By

in

engaging

an

ongoing

harass the other parties and
proceedings,
20:8.4{g)

Nora

pattern

of

judicial officers

violated

SCR

40.15

conduct

to

and delay the

enforceable

via

SCR

3

Regarding the Rinaldi Matter
OLR Matter No.
Counts

64.

At

all

represented

the

actions

and

all

Rinaldi

vs.

Eastern

District

2

HSBC

times

Four

Bank
of

USA,

-

Five

unless

herein,

plaintiffs
appeals.

2015MA614

in
Desa
N.A.,

Wisconsin

their

excepted,

state

L.

Rinaldi

et

al.

Case

Nos.

U.S.

Nora

foreclosure
and

Roger

Dist.

P.

Court,

13-CV-336-JPS

and

SCR 20:3.2 provides: "A lawyer shall make reasonable efforts to expedite litigation consistent with the

interests of the client"
3

SCR 40.15 provides in relevant part:

"I will maintain the respect due to courts of justice and judicial

officers; I wiil not counsel or maintain any suit or proceeding which shall appear to me to be unjust, or any

defense, except such as I believe to be honestly debatable under the law of the land; ... I will abstain from
all offensive p ersonality and advance no fact prejudicial to the honor

unless required by the justice of the cause with which I am charged ... '

or

reputation of a party or witness,

SCR 20:8.4(g) provides: "lt is professional misconduct for a lawyer to violate the attorney's oath."
15

145a

13-CV-643-JPS

(District

Appeals Case Nos.
65.

7th

and,

13-3865 and 14-1887

In 2005,

Rinaldis)

(the

Court),

Cir.

a

note

Court

of

(Court of Appeals)

Roger Rinaldi (Rinaldi)

s igned

U.S.

promising

and his wife Desa
to

repay

a

Wells

Fargo mortgage loan.
Within

66.
loan

and

HSBC

four

Bank

the Rinaldis defaulted

years,

USA,

N.A.

(HSBC)

initiated

a

on

the

Wisconsin

foreclosure action as assignee of the mortgage.

and

67.

Nora

counter-claimed

the

lawyers

fraudulently

in

altered

the

and

that

HSBC,

foreclosure

produced

paper-work

mortgage

the

involved

against

HSBC

by

Wells

alleging

HSBC

lacked

Fargo,

had

that
been

standing

to

enforce the mortgage.
The

68.

state

court granted summary

judgment

against

the Rinaldis and Nora did not appeal.
69.

A

year

the

later

foreclosure judgment

state

court

vacated

its

based upon HSBC agreeing to modify the

loan rather than foreclose.
70.

After

agreement,
court

Nora

matter) ,

the parties
filed

a

finalized the

new

reasserting

state
the

loan modification

lawsuit

Rinaldis1

(second

state

counterclaims

against the same parties.
71.

The

defendants

moved

to

court matter.
15

dismiss

the

second

state

146a

72.
motion

Before

in

the

the state court could

second

automatic

stay.

HSBC Bank USA,

Desa

N.A.

L.

,

proof

HSBC,

proof

and

In

of
she

June

claim,
had

alleged

breach

2012,

filed

filed

a

2011

precipitating

P.

Roger

Rinaldi

Bankruptcy Court,

an
vs.

Eastern

11-35689-svk.

the

75.

Rinaldi

mortgage,

filed

a

objected

adversary

fraud,

abuse

of

to

claims

against

HSBC' s

process,

the

parties

state

action,

against

in ·the
tortious

bankruptcy

interference,

and violations of RICO and the

Fair Debt

Practices Act.

On

favor

Nora

counter-claimed

of contract,

Collection

in

the dismissal

of claim in the bankruptcy matter.

74.

that

of

and

on

Nora

matter)

U.S.

al.,

Case No.

holder

matter,

Rinaldi

et

District of Wisconsin,
73.

court

(bankruptcy

action

bankruptcy

state

rule

of

February
HSBC's

22,

2013,

proof

the

of claim

bankruptcy

and

court

recommended

found

denial

of

Nora's adversarial claims.

76.

Nora

appealed

the

February

22,

2013

bankruptcy

court order.

77.

On

October

31,

2013,

the

District

Court

affirmed

the bankruptcy court's orders on the proof of claim,
the

bankruptcy

claims,

court's

recommendations

and found as follows:

17

on

the

adopted

adversary

147a

(a)

The court concluded that it did not even
need to reach the merits of the proof-of­
claim decision because the Rinaldis failed
to designate the record or issues for appeal
as
r equired
by
the
Federal
Rules
of
Bankruptcy Procedure.

(b)

The court rejected the Rinaldis'
appeal on
had
the
merits,
explaining
that
HSBC
was
produced
documents
showing
that
it
entitled to enf orce the mortgage.

(c)

The court dismissed each of the Rinaldis'
adversary claims as meritless,
noting that
their submission of those claims was
"an
stream-of-consciousness-style
unf ocused,
recitation
of
general
grievances
debtors
have asserted in various f orms
origination
of
the
litigation
court.''

(d)

The

court

warned

since the
in
state

the

Rinaldis they
if
they
sanctions

likely

would
filed

face
additional frivolous f ilings because their
litigation tactics had "quite obviously been
vexatious
and
time-and
r esource-consuming"
were
f ilings
their
and
"nighunintelligible."

78.

Within

Court's decision,

two

weeks

of

the

October

2013

District

Nora moved to alter or amend the judgment

under Federal Rule of Civil Procedure 59 (e) and repeated her
previously denied arguments related to the mortgage.
On December

79.
Nora's

Federal

Rule

13,
of

2013,
Civil

the District
Procedure

Court

5 9 (e)

decided

motion

stated as f ollows:
(a)

the
arguments
were
meritless
and
"the
Rinaldis, through their attorney Wendy Nora,
have at every turn filed brief s that have
18

and

148a

done little to clarify the matters under
further
confusing
while
consideration
(emphasis in original) .
matters"
(b)

Nora's

briefs

were

rambling,

failed

to

comply
with
court
rules ,
contained
many
spelling and grammatical errors, cited legal
authority
sparingly
if
at
all,
repeated
rejected arguments, and used "irrelevant and
argumentative language that
a legal brief. "
(c)

in

The court warned that "any further frivolous
submissions
will
result
in
an
award
of
appropriate sanctions against the Rinaldis'
attorney"

(emphasis in original) .

In December 2013,

80.

has no place

Nora appealed the District Court

ruling to the Court of Appeals.
In March 2014,

81.
2011

bankruptcy

state

court"

action

with

Nora moved to dismiss the Rinal dis'
asserting

"newly

she

wished

discovered

"to

proceed

evidence11

that

to
the

mortgage was void.
82.
dismiss,

The

bankruptcy

informing

her

court

that

granted

the

Nora's

dismissal

motion

might

moot

to
the

Rinaldis' pending appeal.
83.

Nora

moved

to

withdraw

as

the

Rinaldis'

attorney

in the District Court case.
84.
to

Before

withdraw,

case

and

Nora

demanded

the

District

moved
relief

to

Court

intervene

pursuant

Procedure 60 (b).
19

to

ruled
in

on

Nora's

the District

Federal

Rule

of

motion
Court
Civil

149a

On April

85.

9,

2014,

the District Court

allowed

Nora

to withdraw.
86.

On

April

2014 ,

9,

the

District

Court

found

Nora's

motions to intervene and for relief from the District Court' s
prior
of

orders pursuant to Rule 60 (b) (2)

Civil

$1,000,

Procedure

to

be

frivolous

of

the Federal Rules

and

sanctioned

Nora

stating:

Last,

as to Ms.

Nora's motion to intervene and for

Rule 60 (b)

relief, the Court notes that it has no
choice but to impose sanctions against Ms. Nora.
In the Court's last order, it noted that '[w]ith
this order,
the Court hereby makes clear that any
further fr ivolous submission s will
award
of
appropriate
sanctions

Rinaldis' .
87.
appealed

result in an
against
the

(emphasis in original)

on

behalf

of

the

District

the

Rinaldis

Court's

Rule of Civil Procedure 60 (b)

order

and

related

herself,

to

the

Nora

Federal

motion and the $ 1,000 sanction

for frivolous motion filing.
88.

On February 11,

2015,

the Court of Appeals

affirmed

the District Court's sanction order.
In ruling

8 9.
Federal

Rule

subsequent

of

$1, 000

on Nora's appeal of her District Courts

Civil

Procedure

sanction

order,

60 (b)
the

motion
Court

discussed whether sanctions were appropriate,

and

of

Appeals

stating:

Finally,
we affirm the sanction order,
which we
review for an abuse of discretion.
See Tucker v.
Williams, 682 F.3d 654, 661 (7th Cir. 2012).
Nora
offer s only a cursory defense for
her actions,
20

the

150a

maintaining
she

[was]

that
her

representing

to

her

she

required

clients

did

not

district

court's
continued

the

Thus,

and

"nothing

law

to

clients."

against
frivolous,

did

by

But

clear

and

did

not

than

of

the

warnings

of

confusing,

argumentative
its

of

obligations

repeated

abuse

what

course

disregard

submission

needlessly

court

Nora's

her

excuse

more

in t he

do

filings.

discretion

by

sanctioning Nora.
The orders of the district

court are affirmed.

Desa

L.

N, A.,

P.

USA,

2015)

Rinaldi
et

and

Roger

778

al.,

Rinaldi

F.3d

672,

vs.

HSBC Bank
th
Cir.,
(7

672-675

at 676.

COUNT FOUR
In

90.
Bank

N. A.

USA,

District

JPS,

of

for

F.R.C.P.
after

led

and

motion

et

to

al.

7th

U.S.

frivolous

U.S.
a

Court

Bank

USA,

District

for

and

were

found to

had

warned

13-CV-643Case

Nos.

and

pursuant

be

a
to

frivolous,

Nora
in

HSBC

Eastern

intervene

orders

result

vs.

the

Appeals

to

prior

would

that

an

any

award

of

Nora violated SCR 20 :3.1(a).
FIVE

COUNT
91.

of

motion

Court's

submissions

Court

Court

which motions

District

Rinaldi

13-CV-336-JPS

filing
the

P.

Roger

Dist.

Nos.

Cir.

by

and

u. s.

I

Case

from

60(b) (2),

sanctions,

Rinaldi

14-1887,
relief

the

further

r

L.

Wisconsin

which

13-3865

Desa

In

Desa

N.A.,

of

L.
et

Rinaldi
al.,

Wisconsin

and

U.S.

Roger

Dist.

Case Nos.

21

P.

Court

Rinaldi

for

13-CV-336-JPS

vs.

the

and

HSBC

Eastern

13-CV-643-

151a

JPS,

which

led

13-3865 and
motion

for

F. R. C.P.
after

to 7th Cir.

14-1887 ,

the

U. S.

a motion

Court

submissions

to

Case Nos.

intervene

and

a

WHEREFORE,
Wendy

the

Office

Alison

had

would

warned
result

Nora
in

an

that

any

award

of

SCR 20:3.2.

Nora violated and

sanctions,

of Appeals

which motions were found to be frivol ous,

District

frivolous

Attorney

filing

Court

relief from the Court's prior orders pursuant to

60 (b) (2),

further

by

U.S.

of

Nora

Lawyer

be

Regulation

found

in

asks

violation

that

of

the

Supreme Court r ules as alleged in Counts One through Five of
this

Complaint,

Nora's

Wisconsin

consecutive
imposed

that the Court suspend Attorney Wendy Alison

to

upon

2013AP653-D,

law
and

Nora

license

Dated this !O

a

period

immediately

fol lowing

related

Supreme

and for such

just and equitable,

for

to

of

any
Court

one

year

suspension
Case

No.

other and further relief as may be

including an award of costs.

�#

day of November 201 5.
OFFICE OF LAWYER REGULATION

Assistant Litigation Counsel
State Bar No. 1017028

110 East Main Street , Room 315
Madison, Wisconsin 53703-3383
608-261-0695

2Z

152a

APPENDIX E

153a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law
----------------------Office of Lawyer Regulation,
Complainant
v.

Case Code: 30912

Case No. 2015AP002442-D

Wendy Alison Nora,
Respondent

VERIFIED
JURISDICTIONAL OBJECTION AND
NOTICE OF MOTION AND MOTION FOR A FRANKS HEARING TO DISMISS FOR LACK
OF PROBABLE CAUSE; FURTHER OR ALTERNATIVE MOTION TO DISMISS
FOR SELECTIVE AND VINDICTIVE PROSECUTION; AND FURTHER OR
ALTERNATIVE MOTION TO DISMISS AS A SANCTION FO BAD FAITH INITIATION
AND CONTINUATION OF THESE PROCEEDINGS AND THE COMPANION CASE
IDENTIFIED HEREIN AS NORA #1

PLEASE TAKE NOTICE that the undersigned, appears specially, objects to these
proceedings for lack of probable cause to initiate these proceedings, moves to dismiss these
proceedings at a Franks hearing for lack of probable cause to initiate these proceedings; further
or in the alternative, moves to dismiss these proceedings because they are brought as selective
and vindictive prosecution of the Respondent; and, further or in the alternative, moves to dismiss
these proceedings as a sanction for the bad faith initiation and continuation of these proceedings
and the companion case identified herein as Nora #1. Hearing will be held before a qualified
Referee to be appointed by this Court, at a time and place to be set by the Referee.
NOW COMES the Respondent, Wendy Alison Nora, by special appearance only, and

1

154a

moves to dismiss the Complaint for lack of probable cause to initiate these proceedings, moves
to dismiss these proceedings at a Franks hearing for lack of probable cause to initiate these
proceedings; further or in the alternative, moves to dismiss these proceedings because they are
brought as selective and vindictive prosecution of the Respondent; and, further or in the
alternative, moves to dismiss these proceedings as a sanction for the bad faith initiation and
continuation of these proceedings and the companion case identified herein as Nora #1. In
support of these Motions, the Respondent shows the Court:
INTRODUCTION
The purpose of lawyer disciplinary proceedings to protect the public.
SCR 21 Preamble. The lawyer regulation system is established to carry out the supreme
court’s constitutional responsibility to supervise the practice of law and protect the public
from misconduct by persons practicing law in Wisconsin.
History: Sup. Ct. Order No. 99-03, 2000 WI 106, 237 Wis. 2d xix. SCR:21.03(5)

If violations of the Wisconsin Rules of Professional Conduct are proved by clear and
convincing evidence, a lawyer who has been fully and fairly allowed to be heard may punished
by the a range of sanctions from private reprimand to disbarment, depending on the nature of the
offense(s). Because lawyer disciplinary proceeding may result in punishment amounting
forfeiture of some or all of a lifetime grant of the property right to practice the profession of law,
lawyer disciplinary proceedings are quasi-criminal in nature. In re Ruffalo, 390 U.S. 544, 88
S.Ct. 1222, 20 L.Ed.2d 117 (1968).
Rather than face further miscarriages of justice which are more likely under the
Wisconsin Code of Civil Procedure with which OLR’s prosecutor and the Referee in Nora #1
were insufficiently versed to assure substantial justice as required by Wis. Stats. sec. 801.01(2),
there is now a compelling need to adopt the United States Supreme Court’s reasoning in In re
2

155a

Ruffalo, supra, declare that OLR prosecutors are bound to the requirements of SCR 20:3.8(a)1
and that lawyer disciplinary proceedings must, to the extent possible, provide the same level of
due process protections as those accorded to criminal defendants. Indeed, in her disqualifying
remarks, the Referee in Nora #1 compared Respondent to a criminal for the “fashion” in which
she practices law2 (Decision and Order of November 16, 2015, page 5). Respondent’s practice
has involved some of the most crucial issues of the last decade and which go to the very core of
the Rule of Law in this nation, which are issues of property rights arising under the Uniform
Commercial Code and the Statute of Frauds. The “fashion” in which Respondent practices law is
cannot be presumed to be unethical in lawyer disciplinary proceedings, as the Referee in Nora #1
has prejudicially written.

1

Respondent informed Attorney Sheryl St. Ores that she should consider herself bound by SCR
20:8.3 at the inception of Nora #1.
2

As if the Referee is qualified to judge issues with which she is almost completely unfamiliar
having refused to consider Respondent’s Verified Motion to Dismiss the Amended Complaint and
Answer to Count Two and the judicially noticeable documents submitted as not being in the record,
which is obviously incorrect. OLR, on the other hand, is so unfamiliar with mortgage lending practices
that it pleads a legal impossibility on paragraph 4. of the Complaint in this action, to wit, that Sheila M.
Spencer received a loan by the issuance of a promissory note to Ms. Spencer. That allegation belies the
almost total ignorance in which OLR cocoons itself to avoid its duty to investigate grievances involving
false pleadings filed by some of the lawyers representing mortgage servicers, about which, more than
seven (7) years in to the nationally notorious Foreclosure Crisis and more than five (5) years after the
“robo-signing” scandal was first reported by national media outlets, even the most cursory review of
homeowners’ grievances, would have at least required OLR to comprehend the basic elements of what
purport to be mortgage loans. Most of Respondent’s clients know more about the elements of a
traditional mortgage loan (which securitized loans are not) than that revealed by OLR in its paragraph 4.
A simple reading of Dow Family, LLC v. PHH Mortgage Corporation, et al., 2014 WI 56, 354 Wis. 2d
796, 848 N.W.2d 728, which Respondent presented to OLR as supplemental authority in Nora #1 prior to
the hearing on Respondent’s involuntary summary judgment hearing (also admittedly ignored by the
Referee, see Decision and Order of May 20, 2015, page 4) would at least have informed OLR of the two
essential documents used constituting a traditional mortgage loan. Dow Family, supra, is, of course, case
law precedent on the very subject of Counts Three and Four of Nora #1 and Counts One, Two, Three,
Four and Five of Nora #2.

3

156a

OLR should not be allowed to file charges based on false pleadings and force Respondent
to answer. Respondent is a quasi-criminal defendant under In re Ruffalo, supra, at 551. That
being incontrovertibly the case, Respondent is entitled to a hearing on probable cause under
Franks v. Delaware, 438 U.S. 154, 165, 57 L.Ed.2d 667, 98 S.Ct. 2674 (1978), approved by the
Wisconsin Supreme Court in State v. Marshall, 284 N.W.2d 592, 92 Wis.2d 101 (Wis., 1979)
and State v. Mann, 367 N.W. 2d 209, 123 Wis. 2d 375 (Wis., 1985). A Franks hearing should be
granted on a Motion which makes a preliminary showing that a false statement of fact has been
deliberately knowingly and intentionally made or made with reckless disregard for the truth by
the Complainant. Franks v. Delaware, 438 U.S. 154, 155-56; State v. Mann, 123 Wis.2d 385.
The Wisconsin Supreme Court has provided that the Wisconsin Rules of Civil Procedure
shall apply to lawyer disciplinary proceedings throughout Chapter SCR 22. The proceedings
initiated by formal complaint are to be heard before a Referee and SCR 22.16(1) provides, in
part, “The rules of civil procedure and evidence shall be followed.” The Wisconsin Supreme
Court could not reasonably have expected that the OLR would file a formal Complaint based on
false facts, pleaded with knowledge of their falsity or with reckless disregard for the truth, which
is what has occurred in this case. The Supreme Court would have no reason to anticipate that the
panoply of due process rights available in the Wisconsin Rules of Civil Procedure would be
inadequate to secure procedural due process and effect substantial justice, as provided at Wis.
Stats. sec. 801.01(2), which provides:
(2) SCOPE. Chapters 801 to 847 govern procedure and practice in circuit courts of this
state in all civil actions and special proceedings whether cognizable as cases at law, in
equity or of statutory origin except where different procedure is prescribed by statute or
rule. Chapters 801 to 847 shall be construed to secure the just, speedy and inexpensive
determination of every action and proceeding.
4

157a

As will shown herein, it is apparent that the Wisconsin Rules of Civil Procedure have not
been followed in Nora #1. Respondent now seeks, in the interests of justice and for the
protection of the public, that these quasi-criminal adversary proceedings in Nora #2 incorporate
and adopt the constitutional due process of standards of criminal practice and permit her the
opportunity to be heard on the falsehood of OLR’s factual allegations and offers to show that the
the false allegations in the Complaint have been knowingly made by OLR or have been made
with reckless disregard for the truth.

It is in the interests of justice and to protect the right of the

public to obtain legal representation against the far more powerful interests in the society that this
Court preclude prosecutions initiated by OLR without probable cause when the Complaint filed
by OLR can be shown to be materially false and the falsehoods pleaded in the Complaint were
pleaded knowingly or with reckless disregard for the truth. Under the Wisconsin Rules of Civil
Procedure, the allegations in a Complaint are presumed to be true at the initiation of the
proceedings. Where, as here, the proceedings are quasi-criminal in nature, the presumption that
factual allegations in a Complaint are true, must yield to the duty of the prosecutor not to make
false factual contentions in an effort to establish probable cause for the proceedings.
It is respectfully submitted that a probable cause hearing should be included in lawyer
disciplinary proceedings under the reasoning adopted by the United States Supreme Court in
Franks v. Delaware, 438 U.S. 154, 155-156, 165, 171-172, 57 L.Ed.2d 667, 98 S.Ct. 2674
(1978), approved by the Wisconsin Supreme Court in State v. Marshall, 284 N.W.2d 592, 92
Wis.2d 101 (Wis., 1979) and State v. Mann, 367 N.W. 2d 209, 123 Wis. 2d 375. 385 (Wis.,
1985). The Courts should consider providing a Franks hearing when a lawyer charged on false
allegations with ethics violations, in order to establish probable cause for an OLR complaint, on
5

158a

a preliminary showing that false statements of fact have been knowingly made or made with
reckless disregard for the truth.
The procedure afforded by a Franks requested herein is essential to the protection of the
Respondent’s rights to not face false charges of ethical misconduct on false factual allegations
made by OLR knowingly or with reckless disregard for the truth. Despite the protections
established by the Supreme Court of Wisconsin in SCR Chapters 21 and 22, as well as the
Wisconsin Rules of Civil Procedure, it is respectfully submitted that a Franks hearing to
challenge false allegations should precede the requirement that the lawyer join issue, if the
lawyer can meet the burden of the preliminary showing as established by Franks v. Delaware,
supra, at 171-172.
[I]f, when material that is the subject of the alleged falsity or reckless disregard is set to
one side, there remains sufficient content . . . to support a finding of probable cause, no
hearing is required. On the other hand, if the remaining content is insufficient, the
defendant is entitled, under the . . . to his hearing. Whether he will prevail at that hearing
is, of course, another issue.
OFFER OF PROOF OF FALSE FACTUAL ALLEGATIONS IN SUPPORT OF
REQUEST FOR FRANKS HEARING AND, IN THE ALTERNATIVE,
TO DISMISS FOR SELECTIVE AND VINDICTIVE PROSECUTION
Respondent offers to prove the following facts at a Franks hearing duly requested to show
that, absent OLR’s false allegations, the remaining allegations of fact are insufficient to establish
probable cause to believe that Respondent has violated the Wisconsin Code of Professional
Conduct, or, in the alternative, that these proceedings have been commenced to selectively and
vindictively prosecute the Respondent for conduct in which OLR and the grievants have engaged
in these proceedings.
1. Since early 2011, OLR has subjected the Respondent to a draconian and time6

159a

consuming series of investigations in an apparent effort to punish her for exercising her
constitutional rights, calculated to interfere with her lawful representation of homeowners in the
State of Wisconsin, and to silence her efforts to bring the legitimate, justiciable issue that some
Wisconsin-licensed lawyers, representing mortgage servicers, have filed false pleadings, based
on false documents, and supported by falsely sworn Affidavits in largely successful efforts to
foreclose on Wisconsin real estate, which OLR and the grievants upon which it based the
proceeding in entitled OLR v. Nora, Case No. 2013AP000653-D (hereinafter Nora #1) have
persistently engaged.
2. OLR and its grievants do not have the privilege to violate the Wisconsin Code of
Professional Conduct in order to initiate investigations and charge the Respondent with
violations of the Wisconsin Code of Professional Conduct.
3. The first selective and vindictive disciplinary proceeding was commenced by the filing
of a Complaint in Nora #1 without probable cause to believe that the Respondent had violated
the Wisconsin Code of Professional Conduct.
4. Nora #1 was initiated on a grievance filed by one of her litigation opponents in a Dane
County Circuit Court foreclosure action entitled Residential Funding Company, LLC v. Nora, et
al., Case No. 2009CV001096, Attorney David M. Potteiger (Potteiger) of BASS &
MOGLOWSKY, S.C. (BASS), who had a personal motivation for filing the grievance, and who
filed a grievance making multiple false allegations against the Respondent on the form provided
by OLR, stating, “I certify that all information submitted herewith are true and correct to the best
of my knowledge.” (Exhibit 1, page 1)
5. Potteiger was apparently retained as co-counsel with N. William Foshag of GRAY &

7

160a

ASSOCIATES, LLP (GRAY) in Dane County Circuit Court Case No. 2009CV001096, replacing
Arthur M. Moglowsky, but no formal appearance was ever made by Potteiger in Dane County
Circuit Court Case No. 2009CV001096 (Exhibit 2).
6. Potteiger’s grievance accused the Respondent of being unfit to practice law, based on
confidential medical evidence, filed under seal in the United States District Court for the Western
District of Wisconsin (the Western Wisconsin District Court), and to which BASS had access as
a counsel for the opposing party.
7. Respondent filed confidential medical evidence in support of her Motion for
Extension of Time to File Appellant’s Brief in appeal from an Order Granting Relief from the
Automatic Stay in Respondent’s Chapter 11 Bankruptcy Case in the Western District of
Wisconsin, while she was suffering from undiagnosed and untreated seizures.
8. Potteiger presented Respondent’s confidential medical information to the OLR with
the grievance he filed against the Respondent on December 10, 2010, stating “all information
submitted herewith is true and correct,” in which he made multiple, false representations to the
OLR to support his assertion that the Respondent “proceeded under a calculated pattern of
abusive and potentially illegal behavior.” (Exhibit 1, page 3)
9. Potteiger, knowingly or recklessly, made the following false statements for the
purpose of deploying the awesome power of the state, through the investigative and prosecutorial
resources vested by the Wisconsin Supreme Court in OLR, to “take any and all actions necessary
to curtail Ms. Nora from her present course of misconduct,” because Respondent had initiated an
action against him, BASS, his co-counsel Attorney N. William Foshag of GRAY &
ASSOCIATES, LLP (GRAY) and certain members of the firms.

8

161a

10. Potteiger sought to have OLR “curtail” Respondent’s litigation conduct because she
had commenced an action in the United States District Court for the Western District of
Wisconsin as Case No. 10-cv-748 on November 30, 2010. The Potteiger grievance was filed on
December 8, 2010.
11. The Potteiger grievance made numerous false statements of fact and law, in two (2)
categories. The first set of false statements in the Potteiger Grievance are categorized by
Potteiger as “I. FORECLOSURE AND BANKRUPTCY” and contains subheading labelled
“DELAY,” “MISREPRESENTATIONS” and “HARASSMENT AND EXTORTION” (Exhibit
1) and the second set of false statements in the Potteiger Grievance are categorized “II. MENTAL
COMPETENCE.”
12. Potteiger’s first subcategory entitled DELAY contains the following false statements:
a. RFC claimed to be the ultimate assignee of the original mortgage lender, Aegis
Mortgage Corporation (Aegis).
UNDISPUTED FACTS: Residential Funding Company, LLC (RFC) claimed to be the
current owner and holder of a certain note, mortgage and temporary loan modification. It did
not claim to be the “ultimate assignee” of the original mortgage lender, Aegis. There are no
allegations in the foreclosure complaint that Aegis assigned the mortgage and loan modification
agreement to RFC. (Exhibit 3)
The allegation that RFC was the owner of the note appearing to be endorsed in blank was
proved to be false by Potteiger himself, when he mailed a copy of a Note appearing to have been
specially endorsed in favor of Residential Funding Corporation, then from Residential Funding
Corporation to JP Morgan Chase Bank as Trustee, to which an Allonge endorsing the Note in
favor or RFC, purportedly signed by Amy Nelson, Assistant Vice President of The Bank of New
9

162a

York Trust Company, as successor to JP Morgan Chase Bank as Trustee, Residential Funding
Company, LLC fka Residential Funding Corporation, Attorney in Fact (Exhibit 4). Potteiger sent
Exhibit 4 to the Respondent on June 17, 2009.
b. In “defense” of a routine Foreclosure, Ms. Nora submitted pleadings, motions, briefs
and other papers, which are so grossly unconventional that a short account fails to do
justice . . . Furthermore, Ms. Nora’s submissions are utterly devoid of proper form,
evidentiary support, and legal authority. The Dane County Circuit Court has repeatedly
been forced to admonish Ms. Nora:
UNDISPUTED FACTS: Respondent was never admonished by the Dane County Circuit
Court in Case No. 2009CV001096. The legal definition of an admonishment is set forth below:
A reprimand directed by the court to an attorney appearing before it cautioning the
attorney about the unacceptability of his or her conduct before the court. If the attorney
continues to act in the same way, ignoring the admonition, the judge will find him or her
in Contempt of court, punishable by a fine, imprisonment, or both. In criminal
prosecution, before the court receives and records the plea of the accused, a statement
made by a judge informing the accused on the effect and consequences of a plea of guilty
to criminal charges.
Potteiger quotes the judge’s reasons for ruling against the Respondent on several motions
and falsely asserts that Judge Colás statements were admonitions.
(1) JUDGE COLÁS: The court is not obligated to rummage through the jumble
submitted by the defendant in lieu of a proper brief and supporting affidavits to construct
arguments for her.
This statement appears in the March 3, 2010 Order Granting Summary Judgment and
refers to submissions made in good faith while the Respondent was experiencing seizures and
seeking ADA accommodations. Judge Colás also found the Respondent’s opposition to be latefiled, despite the fact that she had been literally unconscious on the earliest uncertain date upon
which the summary judgment opposition would have been due. Respondent had earlier
requested a scheduling order, including a firm date for hearing on summary judgment, which

10

163a

Judge Colás denied.
(2) JUDGE COLÁS: Neither the motion to dismiss nor the brief in support of the motion
were accompanied by supporting evidentiary affidavits, only by unauthenticated exhibits.
This statement was surprising because motions to dismiss in civil cases are not required
to be supported by evidentiary affidavits. See Wis. Stats. sec. 802.06. See also Dane County
Local Rule 108 which provides:
All motions must state with specificity the grounds and factual basis therefore. General
assertions of violation of constitutional rights will not be considered specific. General
assertions of insufficiency will not be considered specific. Such nonspecific motions may
be denied sua sponte by the court with notice to the parties of such denial and with leave
to renew the motions in a timely manner.
(3) JUDGE COLÁS: The motion does not cite any authority in support of its claim of an
error of law and contains only conclusory allegations and contentions.
If a court makes an error of fact, it cannot apply the correct law. Respondent produced
substantial evidence of fraud on the Court by Potteiger, on behalf of RFC. Respondent was not
required to authenticate the false document purporting to be a copy of a Note suddenly appearing
to be specially endorsed in favor of RFC, which contradicted the copy of the Note endorsed in
blank that Foshag alleged was “true.”
(4) JUDGE COLÁS: Defendant’s claim of abusive or biased conduct by this court is a
general complaint about the court’s rulings in this case, unsupported by any evidentiary
affidavit or citation.
Again, see Dane County Local Rule 108.
c. Based on the foregoing, Potteiger then falsely states that Respondent had a desire to
“unethically delay the Foreclosure and overwhelm the court’s docket with complete and total
absurdity.”
As a matter of law, Respondent had the right to defend herself against the false claim that
11

164a

RFC is the owner and holder of two versions of copies of Notes: (1) a copy of a Note endorsed
in blank and an Assignment of Mortgage purporting to have been made on behalf of a bankrupt
party and (2) a copy of a Note presented with special endorsements and an Allonge by Potteiger
for the purpose of, as he stated to her by telephone, “to convince” her that RFC was entitled to
proceed in the action. The Assignment of Mortgage and the specially endorsed Note with the
Allonge are forgeries in violation of Wis. Stats. sec. 943.38 and Potteiger uttered the latter and
transmitted it by mail for the purpose of defrauding Respondent of her property and rights.
13. The next set of false statements in the Potteiger Grievance are categorized by
Potteiger as contains subheading labelled “MISREPRESENTATIONS” which Potteiger
summarized as “Ms. Nora unabashedly made numerous false statements in both the Foreclosure
and Bankruptcy, in order to induce dismissal or delay” contains the following false statements
made knowingly or with reckless disregard for the truth, contrary to SCR 20:3.3(a)(1):
a. On April 7, 2009, Ms. Nora moved to dismiss the Foreclosure, claiming Aegis was the
“real party in interest.” Five years earlier Ms. Nora entered into a loan modification with
Aegis’ assignee. Clearly, Ms. Nora knew Aegis no longer had an interest in the mortgage
loan and was not a proper party to the Foreclosure.
UNDISPUTED FACTS: Exhibit 5 attached hereto is the April 7, 2009 Motion to
Dismiss. Respondent was defending against the Foreclosure Complaint as being facially
defective because the Assignment of Mortgage from Mortgage Electronic Registration Systems,
Inc. to RFC was invalid. Potteiger recklessly asserted that Respondent knew Aegis no longer had
an interest in the mortgage loan. Five years earlier, Respondent entered into a loan modification
agreement with Homecomings Financial, Inc. (Homecomings), to whom she was making
mortgage payments. She was informed by Attorney Michael M. Riley (Riley) of GRAY &

12

165a

ASSOCIATES, LLP (GRAY) and she reasonably believed the Homecomings was acting as the
servicing agent for Aegis.
Respondent was never charged with any misrepresentation pertaining to the April 7, 2009
Motion to Dismiss and her legal and factual position was justified by the evidence.
b. On August 25, 2009, RFC, in no uncertain terms, rejected Ms. Nora’s counteroffer of
settlement. That did not stop Ms. Nora from writing Judge Colas (sic), presiding judge,
to inform the court that a settlement was reached which demanded a stay of the
Foreclosure.
UNDISPUTED FACTS: Exhibit 6 is a true and correct copy of what Respondent sent to
the Dane County Circuit Court via facsimile on August 26, 2009 (9:39 a.m.). In Nora #1, she
took the position that she did not make a misrepresentation of fact or law in the facsimile
transmission. To Respondent’s surprise, the Referee in Nora #1, now known to be actually biased
against the Respondent revealed by written remarks in a Decision and Order of November 16,
2015, found that Respondent had foreknowledge of Potteiger’s contention that RFC has rejected
the Loan Repayment Agreement into which she entered with GMAC Mortgage, LLC (GMACM).
GMACM was the servicing agent which succeeded Homecomings in servicing the loan
originated by Aegis because Respondent “must have received” an email purportedly sent on
August 25, 2009 (4:20 p.m.), which Respondent has conclusively shown she never received by
uncontroverted metadata.
OLR then retained an unsworn report from one Doug Erlick, which found only that the
email upon which the Referee relied in finding “foreknowledge” (which is immaterial as a matter
of law anyway because Potteiger was not representing GMACM) “was consistent with having
been sent.” Erlick, whose expertise has been challenged under the Daubert standard, did not

13

166a

produce the metadata associated with the challenged Potteiger email, which is the only relevant
evidence in support of the immaterial contention that Potteiger sent the email (or if so, to whom).
Erlick, Potteiger and OLR failed to present the metadata which would have conclusively shown
that Respondent did not receive the challenged email. OLR’s insistence on maintaining the false
position that Respondent had foreknowledge of Potteiger’s legal position led to the creation and
filing of Potteiger’s false Affidavit of August 3, 2015. (Exhibit 7)
Potteiger’s August 3, 2015 Affidavit falsely identifies Exhibits which purport to be screen
prints from an unspecified earlier point in time to show that he saved the email he claims to have
sent (again, this is immaterial to the foreknowledge of the Respondent, which is immaterial as a
matter of law). The screen prints, which he falsely swears represents an archive of all of the
emails he has sent since 2007 which do not display all of the emails he sent to Respondent during
the time frame falsely displayed. The print screens produced as Exhibits can easily be shown to
be false, not only because the email record independently created by Google, which provides
email services to Respondent via gmail shows more email correspondence sent from Potteiger
than his false print screen displays (Exhibit 8), but Potteiger’s print screens conclusively show on
their face to have been created no earlier than June 9, 2015. The print screen displays an open
window on the bottom of the screen which is dated June 9, 2015 by visible title, in part,
“6.9.2015.Larry.Affida. . .” which is a document titled by Respondent herself and is the Affidavit
of her expert witness, Larry R. Wickstrom, executed by Mr. Wickstrom on June 5, 2015 and
forwarded to OLR and the Referee on June 9, 2015 via email by Respondent herself.
Potteiger created and uttered forged evidence to be used against Respondent in Nora #1 as
recently as August 3, 2015. Respondent offers to prove that he uttered the forgery purporting to
14

167a

be an Allonge signed by Amy Nelson when he mailed it to Respondent on June 17, 2009. That
the Amy Nelson Allonge is a forgery is not seriously in dispute. Potteiger failed to contradict that
allegation in the Wisconsin Court of Appeals in RFC v. Nora, Appeal No. 2011AP000879,
essentially arguing that Respondent had discovered the fact of the forgery too late.
c. On May 17, 2010, Ms. Nora wrote the United States Bankruptcy Court for the Western
District of Wisconsin, Hon. Thomas Utschig, presiding, “on or about March 29, 2010, the
Honorable C. William Foust appointed a guardian ad litem for me in guardianship
proceedings last week.” Ms. Nora has yet to produce an Order to that effect and no
guardian ad litem has ever appeared on Ms. Nora’s behalf.
Respondent did not misrepresent that a guardian ad litem was appointed for her in
guardianship proceedings. Respondent filed for a temporary guardianship on or about March 29,
2010 and the Order was presented to OLR in the course of the investigation of Potteiger’s
grievance. She requested that OLR maintain the Order Appointing Guardian Ad Litem in the
confidential status provided under the auspices of the Dane County Probate Court. Potteiger
recklessly accused Respondent of “unabashedly making” a false statement to Judge Utschig.
d. Finally, Ms. Nora claims to be disabled; yet Ms. Nora is perfectly capable of drafting
hundreds of pages of documents in support of her dozens of requests for
accommodations. Somehow Ms. Nora is only incapable of filing only that which is
actually required by the Court. While I cannot attest to Ms. Nora’s physical impairment,
when taken in conjunction with those instances of misrepresentation noted above, I fear
Ms. Nora’s disability claims are a ruse intended to delay the proceedings.
Since none of the “instances of misrepresentation noted above” were misrepresentations
by the Respondent, the recklessness disregard for the truth in Potteiger’s assertions at d. is
apparent. But Potteiger does not just make false statements with knowledge or reckless disregard
for the truth. He has created and uttered forged documents not only in the foreclosure action, but
he also allowed or caused his firm to utter the forged Amy Nelson Allonge in Respondent’s

15

168a

Bankruptcy. Furthermore, as a matter of law, it is Respondent’s duty, when impaired, to seek
extensions of time for her clients to obtain other counsel and to withdraw as counsel under SCR
20:1.16(a)(2) which accounts for Respondent’s word-processed filings during the term of her
total disability because she is a sole practitioner. As to her own litigation, she has a
constitutional right to accommodations under the ADA. Potteiger accused Respondent of
unethical conduct for acting ethically as to her client cases and acting lawfully and within her
constitutionally-protected rights to petition the judiciary for redress of grievances and to due
process of law (specifically recognized by the Americans with Disabilities Act as Amended
effective January 1, 2009) and the Wisconsin Supreme Court.
The false allegation that Respondent was claiming to be disabled for the improper
purpose of delaying the foreclosure action is perhaps the most destructive of all of Potteiger’s
falsehoods, because it was the basis for his use of confidential medical information which has
been sealed in the United States District Court for the Western District of Wisconsin and in the
United States Bankruptcy Court for the Western District of Wisconsin. The release of
confidential medical information is the likely “cause” (but not probable cause) for the formal
complaint in Nora #1. The District 9 Ethics Committee investigators refused to provide
Respondent with an opportunity to contradict Potteiger’s false statements, leading the District 9
Ethics Committee to refer charges to the Preliminary Review Committee (PRC) and resulting in
the filing of Counts One, Two and Three in Nora #1 almost three (3) years after Respondent had
finally been able to recover from the totally disabling afflictions for which she sought
accommodations from January to June, 2010 (although she was still suffering from manageable
health limitations into 2012).
16

169a

14. The third subheading under the category of I. FORECLOSURE AND
BANKRUPTCY is subsection C. entitled “HARASSMENT AND EXTORTION” (Exhibit 1)
and contains the following false statements made knowingly or with reckless disregard for the
truth, contrary to SCR 20:3.3(a)(1):
a. Potteiger recklessly asserted the false conclusion that Respondent “flagrantly harassed
and intimidated opposing counsel and the court in an effort to prevent justice. Such conduct is
despicable.”
On December 8, 2010, when Potteiger wrote his series of false statements in the
grievance filed on December 10, 2010, he admits that he despises the actions taken by the
Respondent, if not the Respondent herself. On November 30, 2010, Respondent had just filed
Case No. 10-cv-748 entitled Nora v. Residential Funding Company, LLC, et al. She gave
Potteiger fair warning of the crimes being committed in the foreclosure action and provided him
with an opportunity to advise his client to cease and desist from the unlawful attempt to take her
home, under a judgment procured on false pleadings, based on forged documents. At that time,
GMACM had recently announced on or about September 29, 20103 that it was staying its judicial
foreclosure actions because of the “robo-signing” (forgery) of documents being presented in
courts. Respondent knew that GMACM was the servicer of her mortgage and expected that
Potteiger would know that GMACM had stayed its foreclosures in judicial foreclosure states
because he was co-counsel with N. William Foshag (Foshag) of GRAY & ASSOCIATES, LLP
(GRAY) and GRAY represented GMACM in the State of Wisconsin. It is not extortion to file a

3

http://www.propublica.org/blog/item/gmacs-robo-signers-draw-concerns-about-faulty-process-mistaken-f
oreclosures

17

170a

lawsuit in an effort to put an end to criminal conduct, actionable under the Racketeer Influenced
and Corrupt Organizations Act (RICO) at 18 U.S.C. secs. 1961-1964, based on substantial
evidence which Respondent has in her possession. Moreover, the same conduct is actionable
under the Wisconsin Organized Crime Control Act (WOCCA) at Wis. Stats. secs. 946.80946.88. Respondent chose federal jurisdiction in order to prosecute the rights of thousands of
homeowners who were also victims of the RICO Enterprise.
b. Potteiger falsely specifies:
(1) First, Ms. Nora filed a preposterous grievance with the Office of Lawyer Regulation
against Arthur M. Moglowsky . . .[when] Ms. Nora knew Aegis had no legal interest in
the action.
It cannot possibly be extortion to file a grievance with OLR, based on information
believed to be true and without seeking any financial, material or other personal gain. Filing a
grievance, based on information believed to be true, is a constitutionally protected exercise of the
grievant’s (here, the Respondent’s) First Amendment right to petition the government for redress
of grievances, guaranteed by the United States Constitution, but, Respondent also understood at
the time that it was her duty to do so under SCR 20:8.3. She was later advised by Tim Pierce,
Ethics Adviser for the State Bar of Wisconsin, that an alternative to filing a grievance with OLR
which fulfills a lawyer’s duty under SCR 20:8.3, is to make a court aware of the other lawyer’s
conduct in violation of the Wisconsin Code of Professional Conduct. She has, thereafter,
reasonably relied on Attorney Pierce’s advice and has raised the issues of misconduct by lawyers
representing mortgage servicers of other entities claiming interests in Wisconsin real estate to the
courts involved in the actions in which the misconduct occurs. Aegis’ mortgagee interest
misrepresented by an Assignment of Mortgage, created by GRAY lawyer, Attorney Jay J. Pitner,
18

171a

and was executed by Jeffrey Stephan and Kenneth Urgwuadu, who were exposed as robo-signers
in 2010. (Exhibits 9 and 10)
(2) Second, because I advised RFC to reject Ms. Nora’s counteroffer of settlement during
the Foreclosure, Ms. Nora not only threatened to sue me for “tortious interference with
contract, economic advantage and prospective economic advantage,” she listed the claim
as an item of personal property in her Bankruptcy.
Potteiger’s legal position that there was a settlement offer or counteroffer is subject to
review in Nora #1, along with the fact that Potteiger created and produced false evidence for
OLR to use to support the Referee’s clearly erroneous finding of fact that Respondent received an
email from Potteiger on August 25, 2009 at 4:20 p.m. The Referee found that Respondent “must
have received” the challenged email, which was supposed to have provided Respondent with
notice that Potteiger had rejected a pretended settlement offer, when no settlement offer was ever
made or countered. The Referee in Nora #1 found that Respondent had foreknowledge that her
August 26, 2009 (9:39 a.m.) facsimile to the Dane County Circuit Court was a misrepresentation
of fact or law in violation of SCR 20:3.3(a).
Respondent has consistently taken the position that the facsimile of August 26, 2009 was
not a misrepresentation, but was a true and correct copy of the documents upon which she relied
for her legal position that the foreclosure action was to be stayed for a period of 4 months. The
contract Respondent sent by facsimile to the Dane County Circuit Court, had it ever been
considered by the Court, was a temporary payment plan (TPP) under the Home Affordable
Modification Program (HAMP) as part of the Troubled Asset Relief Program (TARP).
Confronted with the uncontroverted metadata that Respondent did not receive Potteiger’s
challenged email of August 25, 2009 (4:20 p.m.), the Referee altered her finding of

19

172a

misrepresentation on foreknowledge to failure to correct a misrepresentation, which is a postjudgment amendment of the charge in Count Two. Amending charges after disciplinary hearing
(here, proceedings on OLR’s oral motion for summary judgment on the date of the hearing) is
exactly why the United States Supreme Court declared that Ruffalo’s constitutional rights to due
process were violated in In re Ruffalo, supra. The United States Supreme Court held, at 390
U.S. 551:
These are adversary proceedings of a quasi-criminal nature. Cf. In re Gault, 387 U.S. 1,
33, 87 S.Ct. 1428, 1446, 18 L.Ed.2d 527. The charge must be known before the
proceedings commence. They become a trap when, after they are underway, the charges
are amended on the basis of testimony of the accused. He can then be given no
opportunity to expunge the earlier statements and start afresh. fn4 4
In this case, Respondent was found to have violated SCR 20:3.3(a), first, based on a
prohibited negative inference from insubstantial suppositions. Then, in the face of false evidence
created by OLR and Potteiger after OLR was confronted with overwhelming evidence of
Respondent’s nonreceipt of the challenged Potteiger email, the Referee amended her finding of
the violation of SCR 20:3.3(a) from foreknowledge to the charge of failure to correct a
misrepresentation. Without evidentiary hearing to resolve any remaining issues on the
Respondent’s Motion for Relief (as if uncontroverted metadata were not conclusive enough), the
Referee amended her earlier conclusion that the Respondent had foreknowledge of Potteiger’s

4

Footnote 4 in In re Ruffalo, supra, reads:

The Ohio State Bar Association and Mahoning County Bar Association, amici curiae in
support of the order of the Court of Appeals, argue that there was no due process violation
because the State Board gave petitioner several months to respond to charge No. 13. . . In this
case, Respondent has been denied relief from the Referee’s Decision and Order of May 20, 2015.
It would be futile to seek relief from her Decision and Order of October 1, 2015 because the
Referee proved herself to be actually biased by her remarks in the later Decision and Order dated
November 16, 2015.

20

173a

legal position, ignored the manifestly apparent false evidence presented by OLR in opposition to
Respondent’s Motion for Relief, and found that Respondent had a duty to correct a
misrepresentation of law that Respondent never made.
Furthermore, it is not extortion to provide a pre-litigation warning to a prospective
defendant and demand that the defendant cease engaging in illegal conduct. Because Respondent
had a claim against Potteiger, which was ultimately settled in RFC’s own Bankruptcy in the
United States Bankruptcy Court for the Southern District, filed on May 14, 2012 as part of the
consolidated case entitled In re Residential Capital, LLC (RESCAP) Case No. 12-12020 (Exhibit
11), she had a duty as a matter of law to list the asset of the contingent, unliquidated claim
against Potteiger and others. Commencing a RICO action against alleged participants in a RICO
ENTERPRISE, properly defined, for which there is sufficient evidence to support the factual
allegations set forth in the Complaint, is not harassment of Potteiger, BASS, Foshag, GRAY,
other lawyers in BASS and GRAY, and others named in Respondent’s RICO Complaints, whose
actions will be shown to have furthered the operation of the ENTERPRISE.
Potteiger’s second assertion at subsection I. C. of his grievance (2) is not grounded in fact
or law, and led to Potteiger’s desperate creation of additional false evidence in his August 3,
2015 Affidavit in violation of SCR 20:3.3(a), SCR 3.4(b) and SCR 20:8.4(b) and ( c) when the
Referee erroneously relied on Respondent’s alleged foreknowledge, which Respondent had
contended was immaterial because she did not make a misrepresentation to the Dane County
Circuit Court. OLR prosecutor, Attorney Sheryl St. Ores, then unconscionably produced
Potteiger’s false evidence knowingly or with reckless disregard for the truth in violation of SCR
20:3.3(a), SCR 3.4(b) and SCR 20:8.4(c) and as an apparent misprision of a felony in violation
21

174a

of 18 U.S.C. sec. 4. This led to the failure of the Referee, Attorney Lisa C. Goldman, to follow
the requirements of SCR 20:8.3 and 18 U.S.C. sec. 4 in Nora #1. The foregoing misconduct in
the Nora #1 proceedings is substantial evidence in support of the Franks remedy. The
Respondent should not be required to engage any further in disciplinary proceedings based on
knowing or recklessly alleged false facts, but is constitutionally entitled to answer only to those
allegations which are believed by OLR, on competent and diligent investigation, to be true. The
United States Supreme Court explained in Franks, supra, at 438 U.S. 165:
This does not mean “truthful” in the sense that every fact recited . . . is necessarily correct
. . . But surely it is to be “truthful” in the sense that the information put forth is believed
or appropriately accepted by the affiant as true.
Here, the Complaint is not verified, but surely, the expectation is that the Complaint has been
competently and diligently investigated and that it is believed in good faith by OLR to be true
and pleaded in conformity with the Wisconsin Code of Professional Conduct. Respondent offers
to show that the present Complaint has been filed based on 32 false facts, more than one third of
the total allegations and several erroneous legal conclusions as will be shown below.
The next allegation Potteiger made in his grievance is that Respondent’s right to an
impartial tribunal is absurd.
(3) Ms. Nora moved to disqualify Judge Colas (sic) for “actual bias.” Judge Colas (sic)
has been a model of decorum and has shown far more leniency and restraint than one
could expect. The charge is absurd.
Potteiger, who at the time he filed his grievance, had practiced law for just over three (3)
years is hardly in a position to state what leniency and restraint “one” could expect. Respondent
had a constitutional right to due process which includes an unbiased tribunal. Respondent had a
good faith belief that Judge Colás was actually biased against her based on her disabled condition
22

175a

and she was entitled to seek to have him disqualified.
It is not professional misconduct to move for disqualification of a judge based on “actual
bias.” In a recent case in the State of Minnesota, Respondent argued a motion for the
disqualification of a district court judge (equivalent to a Wisconsin circuit court judge), which
had been initiated on a pro se motion. The Motion to Disqualify was denied. Minnesota Rules
of General Practice provide for reconsideration of the denial of disqualification by the district
court judge to the Chief Judge of the District, which was also denied. Thereafter, it was
discovered that the court reporter for the district court judge prepared a transcript which was not
a verbatim transcript and had altered the record of the proceedings. There is substantial evidence
that the district court judge knew that the transcript had been altered. It was then recognized that
other transcripts upon which the Respondent relied in representing her client in the action and the
related disqualification proceeding had been altered, which prevented the full and fair review of
the district court judge’s bias. A second motion to disqualify the district court judge was filed.
The Chief Justice of the Minnesota Supreme Court intervened and ordered that a new judge be
appointed to preside in the action. (Exhibit 12) Lawyers, as officers of the court, are required to
seek disqualification of a judge for actual bias, if there is sufficient evidence which supports
moving for the disqualification of a judge.
(4) Ms. Nora sued Judge Colas in federal court for actual and punitive damages, claiming
“Defendant Colas is actively discriminating against the Plaintiff’s disabilities.” This is
nothing more than disgraceful attack on a sitting judge.
Respondent never pleaded in the action before the United States District Court for the
Western District of Wisconsin as Case No. 10-cv-709 that “Defendant Colas is actively
discriminating against the Plaintiff’s disabilities.” Potteiger’s allegation is false and all that OLR
23

176a

had to do to determine that the allegation was false was to read the Amended Complaint in Case
No. 10-cv-709. Searching for words and phrases, Respondent retrieved Paragraph 58 from the
Amended Complaint, which reads:
58. Plaintiff was in excruciating pain and began to realize that Defendant Colàs (sic) was
discriminating against her in his administrative capacity because disability
accommodations requests are an administrative, not a judicial function.
The issues in the federal court action revolved around whether or not Dane County Local Rule
114 was being properly applied. Respondent takes the position that providing ADA is an
administrative function and that ADA accommodations cannot properly be treated as a judicial
determination. The issue in the federal court action was whether ADA accommodations are
administrative functions or judicial functions for purposes imposing personal liability on judicial
officers. If ADA accommdations are an administrative function, Forrester v. White, 484 U.S.
219 (1988), judges are not immune from damages resulting from discrimination. Wisconsin still
appears to be taking the position that ADA accommodations are a judicial determination,
contrary to the assertion of OLR in the Complaint in Nora #1.
(5) Fifth, Ms. Nora actually used her frivolous lawsuit against Judge Colas as the basis
for a second motion to recuse the judge.
In addition to believing in good faith that Judge Colás had discriminated against the
Respondent based on her disabling condition by not granting her ADA accommodations to allow
her to participate in the foreclosure action, Respondent believed in good faith that Judge Colás
could not be impartial after the filing of the federal court action. She gave Judge Colás the
opportunity to recuse himself by filing the second motion for disqualification after the federal
action was commenced. In denying her motion, Judge Colás decided that he was not required to

24

177a

recuse himself notwithstanding the federal action. Shortly thereafter Judge Colás granted the
ADA accommodations which were minimally necessary to allow the Respondent to have equal
access to the courts and the Clerk of Dane County Circuit Court filled the position of the ADA
accommodations specialist, which had been vacant. Respondent’s other request, that she and
others similarly situated not be required to provide ADA accommodation requests in writing if
they were incapable of doing so, was also established. The main purpose of the federal action
having been accomplished, Respondent voluntarily dismissed the action.
(6) Sixth, Ms. Nora threatened suit against Bass & Moglowsky, S.C. on claims of
racketeering, conspiracy, and fraud, if it did not cancel the sheriff's sale of her
condominium. When Bass & Moglowsky , S.C. refused, Ms . Nora retaliated by suing it
and others in federal court for actual and punitive damages exceeding
$10,000,000,000.00.
This is the true motivation for Potteiger’s grievance. Potteiger’s allegation set forth
above is false. Respondent did not seek to have the court impose liability in the amount of
$10,000,000.00 on Potteiger, his law firm, other lawyers in his firm, Foshag, GRAY or other
lawyers at GRAY, who were collectively referred to as the Wisconsin Foreclosure Mills.
Paragraph 9 of the Respondent’s original request for relief reads:
9. Ordering joint and several liability against each and all of the members of the GMAC
RACKETEERING ENTERPRISE, excluding AEGIS, but limiting the liability of the
Wisconsin Foreclosure Mills to Plaintiff’s damages and share of punitive damages.
The Complaint from which the foregoing paragraphs have been copied was sent to
Potteiger before the filing of the Complaint on November 30, 2010, but was amended before it
was served. The final form of the request for relief contains the following paragraphs:
9. Ordering joint and several liability against each and all of the members of the GMAC
RACKETEERING ENTERPRISE, excluding AEGIS, but limiting the liability of the
Wisconsin Foreclosure Mills to Plaintiff’s damages and share of punitive damages.
25

178a

10. Ordering punitive damages of $10,000,000,000.00 in order to fully deter the
GMAC RACKETEERING ENTERPRISE from continuing its frauds throughout the
nation and ordering that the punitive damages be paid from its cash reserves, exclusive of
any federal bailout funding.
11. Ordering that the first amount of the punitive damages award up to the amount
of an amount to be determined to be a fair allocation of the punitive damages award
to Plaintiff and that the remaining balance of the up to $10,000,000,000.00 be paid
to a Trust Fund to be administered for the benefit of all persons whose homes were
taken by the GMAC RACKETEERING ENTERPRISE to a Trustee appointed by
the Court (such a Kenneth Feinberg who administered the 911 settlement and is
administering the Gulf Oil Spill settlement) to be distributed pro rata to the fraud victims
on the basis of the fair market value of their homes at the time their homes were
unlawfully taken by the GMAC RACKETEERING ENTERPRISE.
In neither the initial Complaint, provided to Potteiger with a demand to cancel the
Sheriff’s Sale because the judgment in the foreclosure action had been procured on false
documents, nor the final version of the Amended Complaint served upon Potteiger and all of the
other Defendants, was there any claim for damages in the amount of $10,000,000.00 from the
Wisconsin law firms.
15. The second set of false statements in the Potteiger Grievance are categorized by
Potteiger as “II. MENTAL COMPETENCY” (Exhibit 1) and contains the following false
statements made knowingly or with reckless disregard for the truth, contrary to SCR 20:3.3(a)(1):
a. On March 25, 2010, Ms. Nora, herself (although allegedly incapable of doing so),
petitioned Judge Colas (sic) to appoint a guardian ad litem over her person.
Respondent was never allegedly incapable of asking a court to appoint a guardian ad
litem and guardians ad litem are never appointed over a person. Guardians ad litem are appointed
to assist a person who is in litigation and is incapable of handling that litigation due to a legallyrecognized disability, such as minority or disability as defined at 42 U.S.C. sec. 1382c(3). At the
time Respondent sought a guardian ad litem, she had reason to believe in good faith that she was
26

179a

eligible for the appointment of a guardian at litem.
b. When that motion was denied, Ms. Nora, again on her own volition, filed a petition for
a temporary guardian in Dane County Circuit Court, Probate Division, 10-GN-11.
Potteiger falsely implies that Respondent was not entitled to petition for a temporary
guardian of “her own volition” when she was afflicted as described. Respondent sought a
temporary guardianship in the hope that she would recover within the next six (6) months
following the date of the petition.
c. The reports of medical professionals, submitted therein, describe Ms. Nora as “under
the influence of such a high level of pain medication that she was totally incompetent,”
forgetting months of time.
The foregoing recitation of confidential medical information at a certain time is exactly
the reason why ADA accommodations should be administrative and not judicial determinations.
Requiring a person suffering from a disability to litigate the facts of the disability leads to
discrimination per se. Furthermore, confidential medical information should not be disclosed to
a party opponent in litigation unless it is relevant to the issue in litigation, such as a personal
injury case, and then it should be carefully controlled to prevent dissemination for the purposes
of harming the person whose medical issues are to be disclosed.
Because Respondent was never interviewed by the investigator(s) appointed by the
District 9 Ethics Committee, she was never asked and never explained that the description of her
condition contained in the reports of her medical professionals in March, 2010 had resolved in
June, 2010, six (6) months after she discovered, on her own research, that the combination of
medications she had been prescribed were causing seizures and stopped taking one of the two
medications immediately in mid-January, 2010. Potteiger’s grievance was filed six (6) months

27

180a

after the condition described in the subject reports had substantially resolved.
d. The reports also indicate “the stress from said litigation causes such extreme physical
pain . . . [when] exacerbated by her physical condition] . . . she becomes suicidal.” Ms.
Nora is “still very fragile.”
The foregoing excerpts from the medical reports submitted in connection with the
Petition for Temporary Guardian were selected by Potteiger to make it appear that months after
the condition for which she sought to have a temporary guardian appointed, she should be
investigated by her the OLR for having sought a temporary guardian, months earlier, when she
was severely afflicted.
e. Ms. Nora admits “feeling faint, weeping, trembling” and being “mentally confused.”
Most significantly, Ms. Nora claims to have had “suicidal ideations.”
Again, this is why confidential medical information should not be disclosed to a party’s
opponents in litigation in connection with requests for ADA accommodations. The editing of the
medical records by Potteiger to construct a grievance filed months after the severity of
Respondent’s medical condition had been resolved, was the original “cause” for the investigation
which led to Nora #1. Yet no one from OLR has ever asked Respondent about her medical
condition or sought any medical information on more recent basis from her. She offered to
address the mental competency issue with the investigators from District 9 in February, 2012 and
they declined to interview her. No mental competency proceedings were ever initiated by OLR.
f. Despite a claimed mental state which does not beget the practice of law, Ms. Nora
shamelessly continues to represent clients. If the reports are authentic, Ms. Nora should
immediately discontinue her practice of law. If the reports were falsified, clearly Ms.
Nora knows no bounds to her impropriety.
It is Potteiger who is shameless. Respondent was not representing clients during the
period in which she was totally disabled. Potteiger’s misrepresentation that Respondent should
28

181a

immediately discontinue her practice of law as of the date Potteiger signed the grievance,
December 8, 2010, was intended to punish Respondent for suing him and the other Wisconsin
Foreclosure Mill attorneys and firms named in the RICO action. Respondent had ethically
reported herself to OLR for being then and there afflicted in March, 2010 and spoke to Director
Keith Sellen. He told her that he did not want to add to her difficulties and to be mindful of her
professional obligations. She was. She sought continuances of all of her clients’ cases due to her
then-current incapacity. She missed no deadlines in any of her clients’ cases and only missed an
unscheduled deadline in the summary judgment proceedings in her own foreclosure case by a
handful of days in January, 2010, because she was having seizures. She immediately sought
ADA accommodations when she regained consciousness, but not before she first tried to file her
response to Potteiger’s summary judgment motion, which was based on a “genuine machine
copy” of the false second copy of the Note with the Allonge, which is not a lawful basis for
foreclosure in the State of Wisconsin.
16. Starting with the misrepresentation of Attorney Arthur M. Moglowsky’s Response to
OLR’s Preliminary Investigation (Exhibit 1, pages 9-10) in which he falsely claimed that
Respondent had abandoned her legal position that RFC was not the real party in interest; to
Potteiger’s misrepresentation to Respondent on August 26, 2010 at 11:21 a.m that he was resending an email purportedly already sent on August 25, 2010 at 4:20 p.m. (the challenged email
on Respondent’s Motion for Relief in Nora #1); to the December 10, 2010 grievance filed by
Potteiger; to Potteiger’s April 24, 2014 Affidavit; to OLR’s Motion for Summary Judgment
orally made on the record, without notice to the Respondent; to the Referee’s clearly erroneous
inference of Respondent’s foreknowledge of Potteiger’s claim that a Loan Modification
29

182a

Agreement is a Settlement Agreement, leading to the examination of Respondent’s email
metadata; to the false report of Erlick; to the false August 3, 2015 Affidavit of Potteiger and his
false Exhibits purporting to reflect a relevant period of time; to the Referee’s disregard of
Potteiger’s false Affidavit and Exhibits; in a process now culminating in multiple false
allegations in the above-captioned matter (Nora #2) detailed herein, false statements of fact
permeated Nora #1 and now require that the requested Franks hearing be granted to determine
probable cause in this new proceeding.
17. These proceedings are a continuation of the selective and vindictive investigations of
the Respondent, once again culminating in the initiation of a complaint without probable cause to
believe that Respondent has violated any provision of the Wisconsin Code of Professional
Conduct. These proceedings differ from Nora #1 because they are based on factual allegations
which OLR knows to be false or has pleaded with reckless disregard for the truth thereof. Nora
#1 was pleaded without a factual basis at all.
18. The United States Supreme Court held In re Ruffalo, 390 U.S. 351, that lawyer
disciplinary proceedings are quasi-criminal in nature, and, by specific reference to the special
proceedings addressed In re Gault, 387 U.S. 1, 33, 87 S.Ct. 1428, 1446, 18 L.Ed.2d 527 (1967),
to the extent possible, procedural due process required in criminal proceedings should be
afforded to lawyers facing disciplinary proceedings, with respect to notice and opportunity to be
heard. SCR 22.14 provides for a plea of no contest which is an acknowledgment of the quasicriminal nature of lawyer disciplinary proceedings. There is provision for a no contest plea in the
Wisconsin Rules of Civil Procedure. Pleas of not guilty, no contest, or guilty are entered in
Wisconsin criminal proceedings.
30

183a

19. It is both possible and necessary for these proceedings to provide Respondent with
the right to challenge the probable cause for bringing the charges against her in this case (Nora
#2) in a timely manner without requiring her to deny OLR’s multiple intentional or recklessly
false allegations under the Wisconsin Rules of Civil Procedure.
20. Furthermore, in the unlikely event that probable cause can be established on the
remaining allegations in OLR’s current Complaint, when the allegations which OLR knows or
should have known to be false and were pleaded with reckless disregard for the truth. It is
possible and necessary to allow Respondent to establish that the proceedings have been initiated
to punish her for the lawful exercise of her constitutional rights, in violation of her right to
procedural due process guaranteed under the Fourteenth Amendment to the Constitution of the
United States.
21.

In Bordenkircher v. Hayes, 434 U.S. 357, 363 (1978), the United States Supreme

Court held, “[t]o punish a person because he has done what the law plainly allows him to do is a
due process violation ‘of the most basic sort.’”
22. The first selective and vindictive disciplinary proceeding was commenced by the
filing of a Complaint in Nora #1 without probable cause, alleging that Respondent had defended
her own home and had sought litigation accommodations in her personal case when she was then
and there entitled to accommodations under the Americans with Disabilities Act as Amended
(ADAAA) effective January 1, 2009.
23. The Complaint in Nora #1, filed on March 20, 2013 consisted of three (3) counts, all
based on a grievance filed by Attorney David M. Potteiger (Potteiger), a litigation opponent of
the Respondent, which was initiated to conceal his own professional misconduct.
31

184a

24. The first investigation by OLR was commenced in 2010, based upon a grievance
filed by Potteiger, who complained that the Respondent had named him, certain members of the
law firm of BASS in federal district court (WIWD Case No. 10-cv-7485).
25. Then, Foshag filed a grievance against Respondent for filing an adversary proceeding
in the United States Bankruptcy Court for the Southern District of New York (SBNY Adv. No.
13-12086) for violations of the Racketeer Influenced and Corrupt Organizations (RICO) Act,
falsely claiming that Respondent was not entitled to file the RICO Complaint because “the
Rooker-Feldman doctrine applies to bankruptcy proceedings.”
26. Respondent is plainly allowed to petition the judiciary for redress of her grievances
against Potteiger, certain members of his law firm, his law firm, certain lawyers employed by
GRAY & ASSOCIATES and GRAY & ASSOCIATES under the First Amendment to the
Constitution of the United States, which provides:
Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to petition the government for a redress of
grievances. (Emphasis added.)
27. It has long been established that the First Amendment to the Constitution of the
United States extends to the states (Gitlow v. New York,7 268 U.S. 652 (1925)) and includes the

5

Nora v. Residential Funding Company, LLC, et al., Case No. 10-cv-748 in the United States
District Court for the Western District of Wisconsin.
6

Nora v. Residential Funding Company, LLC, et al., Adv. No. 13-1208 in the United States
Bankruptcy Court for the Southern District of New York.
7

For present purposes, we may and do assume that freedom of speech and of the press which are
protected by the First Amendment from abridgment by Congress are among the fundamental personal

32

185a

right to petition the judiciary for redress of grievances (Bill Johnson’s Restaurants, Inc. v.
NLRB,8 461 U.S. 731, 741 (1983)).
28. Respondent has been subjected to an OLR investigation at the behest of Potteiger
because she sought to have Dane County Circuit Court Judge Juan Colás disqualify himself in
foreclosure proceedings involving Respondent’s own home for what she believed in good faith
were Judge Colás’ extrajurisdictional decisions to deny Respondent’s requests for
accommodations under the Americans with Disabilities Act as Amended effective January 1,
2009 (ADAAA), which she self-identified in the course of the litigation, as constitutionally
permitted and in conformity with ADAAA as interpreted and applied in the State of Wisconsin.
29. In an effort to establish compliance with the ADAAA by the Dane County Circuit
Court, the Respondent commenced a civil rights action in the United States District Court for the
Western District of Wisconsin in Nora v. Colás, et al., Case No. 10-cv-709.
30. The investigators appointed by the Director of OLR in Nora #1 never interviewed
the Respondent; they were given an extension of time to write their investigative report over the
objection of the Respondent; their untimely report was submitted to the Preliminary Review
Committee (PRC) which allegedly found “cause” which was never established as “probable

rights and “liberties” protected by the due process clause of the Fourteenth Amendment from impairment
by the States. Gitlow, at page 666.
8

“[G]oing to a judicial body for redress of alleged wrongs . . . stands apart from other forms of
action directed at the alleged wrongdoer. The right of access to a court is too important to be called an
unfair labor practice solely on the ground that what is sought in the court is to enjoin employees from
exercising a protected right.” Bill Johnson’s Restaurants, supra, page 741. See also, Eastern Railroad
Presidents Conference v. Noerr Motor Freight, Inc., 365 U.S. 127, 135 (1961); United Mine Workers v.
Pennington, 381 U.S. 657, 670 (1965), which combine to form the Noerr-Pennington doctrine
immunizing petitions for redress of grievances in the form of lobbying efforts from prosecution under the
Sherman Anti-Trust Act.

33

186a

cause” in Nora #1 because Respondent was denied the opportunity to be heard upon evidence on
her Motion to Dismiss for Selective and Vindictive Prosecution by the Referee in Nora #1, who
has now been exposed as having pre-judged Respondent and having relied upon false evidence
presented by OLR, produced by Potteiger.
31. The first investigation culminated in the commencement of proceedings entitled OLR
v. Nora, Case No. 2013AP000653-D (Nora #1) without probable cause, alleging that Respondent
had commenced the litigation described in Counts One and Three in the Complaint filed on
above, on March 20, 2013.
32. The Complaint in Nora #1, filed on March 20, 2013 consisted of three (3) counts, all
based on the Potteiger grievance and sought to penalize the Respondent with a suspension of her
license for 6 months.
33. The Complaint in Nora #1 was subsequently amended on December 23, 2013 to
include a fourth count, based on a grievance filed by Attorney N. William Foshag (Foshag) of
GRAY & ASSOCIATES, LLP, co-counsel with Potteiger in the foreclosure case against the
Respondent.
34. Foshag alleged that the RICO case filed by the Respondent in Nora v. Residential
Funding Company, LLC, et al., Adv. No. 13-1208 in the United States Bankruptcy Court for the
Southern District of New York was frivolous. He based his grievance on obiter dicta in a
decision of Judge Susan V. Kelley, an Article I Bankruptcy Court Judge in the Eastern District of
Wisconsin, that the Rooker-Feldman doctrine applies to adversary proceedings in bankruptcy
courts. The remarks of Judge Kelley were not essential to the decision because Judge Kelley
determined that the Rooker-Feldman doctrine did not apply to the case in which the remarks
34

187a

were made. Furthermore, the ruminations of an Article I bankruptcy judge do not establish
precedent.
35. Respondent takes the position, as she explained to OLR, that Heiser v. Woodruff,
327 U.S. 726, 66 S.Ct. 853, 90 L.Ed. 970 (1946) is the controlling authority for the issue of the
validity of judgments procured by fraud in subsequent bankruptcy proceedings, not the RookerFeldman doctrine. Furthermore, the Rooker-Feldman doctrine has been substantially narrowed
by Exxon Mobil Corp. v. Saudi Basic Industries Corp., 544 U. S. 280 (2005).
36. In Lance v. Dennis, 126 S.Ct. 1198, 163 L.Ed.2d 1059, 546 U. S. 459, 466 (2006),
the United States Supreme Court held:
Rooker-Feldman is not simply preclusion by another name. The doctrine applies only in
“limited circumstances,” Exxon Mobil, supra, at 291, where a party in effect seeks to take
an appeal of an unfavorable state court decision to a lower federal court.
37. Even though he dissented from the majority opinion in Lance v. Dennis, Justice John
Paul Stevens wrote at 546 U. S. 468:
Last Term, in JUSTICE Ginsburg’s lucid opinion in Exxon Mobil Corp. v. Saudi Basic
Industries Corp., 544 U.S. 280 (2005), the Court finally interred the so-called
“Rooker-Feldman doctrine.” And today, the Court quite properly disapproves of the
District Court’s resuscitation of a doctrine that has produced nothing but mischief for 23
years.
38. Justice John Paul Stevens further remarked in Marshall v. Marshall, 126 S. Ct. 1735,
164 L.Ed.2d 480, 547 US. 293, 318 (2006), concurring in part and concurring in the judgment,
with respect to another court-made exception to federal jurisdiction:
Rather than preserving whatever vitality that the “exception” has retained as a result of
the Markham dicta, I would provide the creature with a decent burial in a grave
adjacent to the resting place of the Rooker-Feldman doctrine. See Lance v. Dennis,
546 U. S. 459, 468 (2006) (Stevens, J., dissenting). (Emphasis added.)

35

188a

39. OLR is not only resuscitating a doctrine which has produced “nothing but mischief”
since 1983 and has been substantially narrowed by the United States Supreme Court in Exxon
Mobil Corp. v. Saudi Basic Industries Corp., supra, but is seeking to punish the Respondent for
bringing a claim in the United States Bankruptcy Court for the Southern District of New York
which is clearly within federal jurisdiction, based on the grievance of Foshag of GRAY, cocounsel with BASS in Respondent’s foreclosure case, and a RICO Defendant in Respondent’s
adversary proceeding in United States District Court for the Southern District of New York.
40. The Rooker-Feldman doctrine, which Justice Stevens declared dead and buried in
Lance v. Dennis, supra, and Marshall v. Marshall, supra, is a jurisdictional doctrine narrowly
applied to limit the jurisdiction of lower federal courts to decide appeals from state court
judgments and has nothing whatsoever to do with cases arising in the original federal jurisdiction
of the United States District Courts under Title 11 of the United States Code. As stated above,
fraud cases in federal bankruptcy courts are governed by the principles of Heiser v. Woodruff,
supra, where claim preclusion arises if the issue of fraud in the procurement of the judgment was
fully and fairly litigated.
41. Nevertheless, without a basis in existing law or a good faith argument for the
extension or modification of existing law (it is not remotely likely that the United States Supreme
Court will reverse its position on the restricted application of the Rooker-Feldman doctrine by
Exxon Mobil, supra), OLR seeks to penalize the Respondent for the benefit of Potteiger and
Foshag, and other Wisconsin-licensed lawyers who have committed fraud upon the Courts of the
State of Wisconsin as well as to conceal its own malfeasance in failing to investigate the
grievances of homeowners who have been subjected to false pleadings, based on false
36

189a

documents, supported by falsely sworn affidavits, by seeking an additional 6 months suspension
of Respondent’s license for Respondent’s constitutionally-protected and lawful conduct.
42. In Nora #1, the Referee refused to consider the Verified Motions of the Respondent
as evidence. (Decision and Order of May 20, 2015, pages 5-6.)
43. In Nora #1, it was discovered that Potteiger had made a misrepresentation that
Respondent must have received an email purportedly sent on August 25, 2009 at 4:20 p.m. after
the Referee relied on the now-challenged email to award summary judgment to OLR on Count
Two because she improperly relied upon inferences she drew from Potteiger’s Affidavit of April
24, 2014 to find that Respondent had foreknowledge of Potteiger’s litigation position when
Respondent sent a FAX to the Dane County Circuit Court on August 26, 2009 at 9:39 a.m.,
finding that the Respondent had violated SCR 20:3.3(a)(1) in her communication by FAX with
the Dane County Circuit Court.
44. After it was exposed by unchallenged metadata that Respondent had not received the
August 25, 2009 (4:20 p.m.) email, the Referee changed her finding that Respondent violated
SCR 20:3.3(a)(1) based on unproved and unprovable “foreknowledge” to a finding that
Respondent had a duty to correct her representation to the Dane County Circuit Court to conform
to Potteiger’s litigation position.
45. Respondent has consistently defended her FAX to the Dane County Circuit Court as
containing entirely truthful representations and has taken the position that she has no duty to
agree with a litigation opponent’s interpretation of documents and evidence.
46. When confronted with the false evidence presented by OLR, produced by Potteiger,
the Referee changed the basis for the unsupported charge that Respondent had violated SCR
37

190a

20:3.3(a)(1) in clear violation of Respondent’s right to know the charge before the proceedings
commence. Ruffalo, supra, at 551.
47. When the evidence upon which the Referee relied to find that Respondent had
foreknowledge of Potteiger’s litigation position was shown to be unsupported by clear and
convincing evidence (which had never been specifically charged as required by Ruffalo, supra,
and, therefore, could not have been addressed by the Respondent), the Referee changed the
nature of the charge from the foreknowledge she found upon no notice of the nature of the charge
in Count Two to failure to correct a misrepresentation which the Respondent has consistently
contended was a truthful representation.
48. Never before in any disciplinary proceeding before this Court has a lawyer been
charged with a violation of SCR 20:3.3(a)(1) for not agreeing with an opponent’s interpretation
of documents and evidence. There is no obligation under SCR 20:3.3(a)(1) to correct a legal
position asserted in good faith, based on true and correct copies of documents submitted to the
Court for the Court to interpret.
49. Respondent’s verified Answer to Count Two in Nora #1 identified true and correct
copies of the exact documents she filed with the Dane County Circuit Court, which had long
been in the possession of OLR before Count Two was charged, and defended against Count Two
on the basis that she did not make a misrepresentation to the Dane County Circuit Court.
50. The Referee in Nora #1 in refusing to grant relief from the mistaken conclusion that
Respondent had foreknowledge of Potteiger’s litigation position, then disagreed with
Respondent’s interpretation of the documents she presented to the Dane County Circuit Court,
convicting Respondent of having failed to correct a litigation position taken by the Respondent
38

191a

with which Potteiger disagreed. In so doing, the Referee actively engaged in concealing the
material fact that Potteiger created false documents (in violation of Wis. Stats. sec. 943.38) and
swore under oath to their authenticity, in violation of Wis. Stats. sec. 946.32(1) and (2) in
violation of SCR 20:3.3(a)(1) and (3) in these very proceedings.
51. The Referee in Nora #1, a Wisconsin licensed lawyer and mandatory reporter of
ethics violations under SCR 20:8.3 failed to report the production of false documents and false
swearing by Potteiger to OLR for investigation.
52. Rather than objectively investigate whether or not Respondent had received the
challenged email, OLR chose to defend Potteiger against possible violations of SCR 20:3.3(a)(1),
SCR 20:3.4(b) and SCR 20:8.4(b) and (c).
53. Instead of objectively examining the evidence as to whether or not Respondent
received the challenged email, OLR hired, at taxpayer expense, an individual purporting to have
expertise in electronic discovery by the name of Doug Erlick and obtained an inconclusive,
demonstrably erroneous and unsworn report in which Mr. Erlick stated that the challenged email
was “consistent with having been sent.”
54. The Erlick report ignores the only relevant evidence which was exclusively in the
control of Potteiger, OLR and Mr. Erlick: the metadata pertaining to the challenged email of
August 25, 2009 at 4:20 p.m.
55. The OLR prosecutor, who is also a Wisconsin licensed lawyer and mandatory
reporter of ethics violations under SCR 20:8.3, not only failed to correct the record by removing
the false evidence produced by Potteiger as required by SCR 20:3.3(a)(1), but hired, at taxpayer
expense, a purported expert witness to validate Potteiger’s first misrepresentation that
39

192a

Respondent must have received an email he claimed to have sent to the Respondent on August
25, 2009 at 4:20 p.m.
56. The unsworn and error-ridden report of the taxpayer-compensated “expert” produced
by OLR in an apparent effort to exonerate Potteiger on the impertinent issue of whether or not
the email was “sent” failed to address the material issue raised by Respondent’s Motion for
Relief from the false finding of the Referee that she received the challenged email of August 25,
2009 at 4:20 p.m., despite the fact that the supposed “expert” and OLR claim to have access to
the original, living email, complete with the metadata associated with the challenged email.
57. The metadata would have conclusively established that Respondent did not receive
the challenged email. The metadata associated with the original, living email purportedly
forwarded to OLR and its supposed “expert” by Potteiger would have conclusively determined
the issue whether or not Respondent received the challenged email, but OLR’s expert did not
produce the metadata which should have been available to him.
58. Examination of the metadata is a simple matter which anyone may perform by use of
tools available at no charge using software available on the internet. Despite Respondent’s
efforts to urge the OLR to simply examine the metadata and despite providing easy-to-use
instructions to OLR how to do so using free software available on the internet, OLR persists in
supporting Potteiger’s misrepresentations consisting of false statements, including, but not
limited to:
a. Misrepresentation to Respondent in his email which Respondent did receive on
August 26, 2009 at 11:21 a.m. in which he claimed that she had received the email of August 25,
2009 at 4:20 p.m., falsifying evidence in violation of SCR 20:3.4(b);
40

193a

b. Misrepresentation to Respondent in his email of August 26, 2009 at 11:16 a.m. (which
Respondent also received) in which he claimed to have FAXed certain documents to Respondent,
falsifying evidence in violation of SCR 20:3.4(b).
c. False statements in Potteiger’s Affidavit of April 24, 2014, falsely sworn insofar as it
implies that his Exhibit B was received by Respondent by inference created by an email sent on
August 26, 2009 at 11:21 a.m.
d. False statements in Potteiger’s Affidavit of August 3, 2015 where he swears that the
screen print he produced is a true and correct copy of the email correspondence maintained in the
“ordinary course” since he was first employed by BASS & MOGLOWSKY in 2007, when the
print screen plainly displays an open window which dates the print screen as no older than the
date of the Affidavit of Larry R. Wickstrom, which was electronically transmitted to OLR on
June 9, 2015 and which Potteiger himself acknowledges he reviewed on June 10, 2015.
(Potteiger Affidavit dated August 3, 2015 at ¶5.)
59. Respondent’s email log (Exhibit 8), maintained by the independent server commonly
known as gmail and which is entirely outside of her control (other than to delete emails from her
computer) shows seven (7) emails sent by Potteiger to the Respondent between August 26, 2009
and September 15, 2009; Potteiger’s print screen of no earlier than June 10, 2015 shows five (5)
emails sent by Potteiger to Respondent between August 24, 2009 and August 5, 2010 (Exhibit 7).
60. Potteiger’s false August 3, 2015 Affidavit and the Exhibits attached thereto,
identifies a false “archive” of all of his email correspondence with the Respondent, are evidence
of falsification of documentary evidence and false swearing by Potteiger in violation of SCR
20:3.4(b).
41

194a

61. Potteiger’s false representations to the highest tribunal in the State of Wisconsin, its
Supreme Court, are in violation of SCR 20:3.3(1) and (3) in Nora #1 and were made to the to
OLR9 and to the Respondent.10
62. That OLR, which is responsible for investigation of ethics violations by Wisconsin
lawyers, has chosen to attempt to exonerate Potteiger by producing the unsworn, inadmissible
and fully impeached report of Doug Erlick, at taxpayer expense in order to attempt to uphold an
unsupported finding of fact that Respondent had foreknowledge of the contents of an email that
she never received. The Referee in Nora #1 has now abandoned that finding and has now
substituted a new, unsupported conclusion of law, amending the charge in Count Two without
providing the Respondent with the opportunity to be heard, contrary to In re Ruffalo, supra.
63. OLR’s refusal to correct the false evidence upon which it relied in prosecuting Count
Two is substantial evidence of OLR’s selective and vindictive prosecution of the Respondent.
Rather than withdraw its false Count Two, confronted with the false evidence produced by
Potteiger, the unchallenged evidence provided by Respondent and the evidence exclusively in the
possession and control of OLR, OLR attempted to bring five (5) new Counts of ethics violations
against Respondent in Nora #1, seeking to punish her, once again, for engaging in lawful conduct
and asking for a penalty of an additional one year license suspension before a Referee who has
herself engaged in misprision of Potteiger’s federal felonies of wire and/or mail fraud in violation
of 18 U.S.C. sec. 4.

9

The falsifications of evidence by Potteiger are violations of SCR 20:3.4(b) pertaining to
counsel for OLR and the Respondent.
10

Id.

42

195a

64. Without any basis in law or fact stated for filing a document purporting to be a
Notice of Motion and Motion for leave to file a Second Amended Complaint in Nora #1, contrary
to the plain reading of Wis. Stats. sec. 802.01(2)(a) which requires that motions state the grounds
therefor with particularity, OLR simply filed a Second Amended Complaint with this Court.
65. In denying the filing of the Second Amended Complaint in Nora #1, the Referee
exposed herself as being actually biased against the Respondent by written remarks in the
Decision and Order denying OLR’s groundless Motion as fully and completely set forth in the
Respondent’s Amended Verified Motion to Recuse Referee Lisa C. Goldman Pursuant to Wis.
Stats. sec. 757.19(2)(b) and for Actual Bias Pursuant to Wis. Stats. sec. 757.19(2)(g) and SCR
60.04(e) and (hm) as Exhibit 13 attached hereto and incorporated by reference as if fully set forth
herein.
66. The remarks specified in the Motion for Recusal show nothing less than a preconceived judgment against the Respondent in which she creates a prohibited presumption,
writing: “Nora continues to practice law and presumably continues to do so in the same fashion.”
(Decision and Order of November 16, 2015, Page 5, Emphasis added.) Respondent is charged
with litigating. Litigating is not a crime. Charging a lawyer with litigating is equivalent to
charging a surgeon with performing surgery.
67. The Referee’s expression of a prohibited presumption before she has heard any
testimony subjected to cross-examination reveals what has been lurking, unexposed, since no
later than November 14, 2014: actual bias in favor of OLR.
68. The complicity of OLR in Potteiger’s production of false evidence in these
proceedings is clear in its persistent pursuit of Count Two and its failure to investigate Potteiger
43

196a

and other attorneys for mortgage servicers, including members of Potteiger’s law firm, BASS and
MOGLOWKSY, and Foshag and his law firm, GRAY & ASSOCIATES.
69. The Referee’s actual bias is evident in her blatant disregard of the false evidence
produced by Potteiger and presented by OLR in these very proceedings and the alteration of her
conclusion that Respondent had violated SCR 20:3.3(a)(1) from disproved foreknowledge to a
new charge of not withdrawing what are truthful representations of facts supporting her legal
position set forth in the August 26, 2009 FAX.
70. These proceedings (Nora #2) further establish the selective and vindictive
prosecution of the Respondent without probable cause to believe she has violated the Wisconsin
Rules of Professional Conduct.
71. Once again, Respondent is accused of litigating, this time by representing clients,
which is her right and her professional duty as an officer of this Court.
72. In order to support its false charge of ethics violations in litigation, OLR
misrepresents the essential facts as well as the law applicable to the Rinaldis’ and Ms. Spencer’s
cases.
73. OLR ignores the fact that both Mr. Rinaldi, prior to Respondent’s representation of
the Rinaldis, and Ms. Spencer filed detailed grievances against lawyers from the law firm of
GRAY & ASSOCIATES, calling OLR’s attention to the filing of false pleadings, false
documents and false affidavits in each of their cases, which OLR failed and refused to formally
investigate.
74. OLR misrepresents the facts of the Rinaldi foreclosure case, without any factual basis
and falsely claims that the Respondent represented the Rinaldis in that case, which she did not.
44

197a

75. The failure of OLR to use the simple tool of searching the Wisconsin Circuit Court
Access Program (CCAP), which would have conclusively proved that Respondent at no time
represented the Rinaldis in the foreclosure action commenced by Foshag of GRAY in the
Kenosha County Circuit Court Case No. 2009CV000353 in the name of HSBC Bank USA, N.A.,
as Trustee for Wells Fargo Asset Securities Corporation Home Equity Asset-Backed Certificates,
Series 2005-2 is a violation of SCR 20:1.1 (competence) and SCR 20:1.3 (diligence) and has
resulted in a false charge against the Respondent in violation of SCR 20:3.1(a)(2) and, because
these are quasi-criminal proceedings, OLR arguably also violates SCR 20:3.8(a).
76. OLR knowingly or recklessly misrepresented the readily provable fact that
Respondent did not represent the Rinaldis in the foreclosure action, by alleging that Respondent
represented the Rinaldis in the foreclosure action, which, incidentally, had been reopened and
dismissed on the Motion of co-counsel with GRAY, Brad Markvardt (Markvardt) of
LITCHFIELD CAVO, LLP (LITCHFIELD), against whom Mr. Rinaldi also filed a grievance,
demonstrating that Markvardt knew or should have known that there was no recorded
Assignment of Mortgage on the Rinaldis home and, therefore, Wells Fargo Bank, N.A. (Wells
Fargo) and not HSBC Bank USA, N.A., as Trustee for Wells Fargo Asset Securities Corporation
Home Equity Asset-Backed Certificates, Series 2005-2, a nonexistent entity, owned the
mortgagee interest of record.
77. Foshag pleaded the foreclosure action against Roger and Desa Rinaldi, commenced
on February 3, 2009, that HSBC Bank USA, N.A., as Trustee for Wells Fargo Asset Securities
Corporation Home Equity Asset-Backed Certificates, Series 2005-2, a nonexistent entity, based
on an UNENDORSED Note payable to Wells Fargo Bank, N.A. and an unassigned Mortgage
45

198a

granted to Wells Fargo Bank, N.A. (Exhibit 14)
78. In the Rinaldis’ 2009 foreclosure action, Foshag pleaded in ¶1 of the Complaint in
Kenosha County Circuit Court Case No. 2009CV000353 that HSBC Bank USA, N.A., as Trustee
for Wells Fargo Asset Securities Corporation Home Equity Asset-Backed Certificates, Series
2005-2, is the current owner and holder of the Note and Mortgage, which was not true as a
matter of fact or law, allegations which have never been corrected or withdrawn.
79. Upon information and belief, Mr. Rinaldi informed OLR that Foshag should be
investigated for knowingly or intentionally misrepresenting that the “plaintiff” was the owner
and holder of the Note and Mortgage in violation of SCR 20:3.3(1)(a) and submitted sufficient
facts to justify an investigation of Markvardt, who proceeded to summary judgment on Foshag’s
Complaint falsely alleging that HSBC Bank USA, N.A., as Trustee for Wells Fargo Asset
Securities Corporation Home Equity Asset-Backed Certificates, Series 2005-2, a nonexistent
entity, was the owner and holder of the Note and Mortgage.
80. Foshag, of GRAY & ASSOCIATES, pleaded in the Rinaldis’ 2009 foreclosure
action, Foshag pleaded in ¶1 of the Complaint that the copies of the Note and Mortgage, attached
to the Complaint were “true copies” of the Note and Mortgage.
81. On November 4, 2011, a copy of an ENDORSED Note was produced in the Rinaldis’
Chapter 7 Bankruptcy in Eastern District of Wisconsin Case No. 11-35689 (Exhibit 15, Doc. 7-1,
pages 25-30) in support of the Motion of Attorney Jay J. Pitner (Pitner) of GRAY for relief from
the automatic stay filed on behalf of the nonexistent entity, attaching a copy of an unrecorded
Assignment of Mortgage (Exhibit 15-Doc. 7-2) to an existing entity, HSBC Bank USA, N.A.
(HSBC) as Trustee, without identifying the Trust for which HSBC was Trustee.
46

199a

82. Pitner’s November 4, 2011 filing in the Bankruptcy Court for the Eastern District of
Wisconsin omitted (withheld) the recorded Assignment of Mortgage created by GRAY lawyer
Duncan C. Delhey, which had been recorded in the Kenosha County Register of Deeds on April
5, 2011, 14 months after the commencement of the Kenosha County Circuit Court foreclosure
action against the Rinaldis. (Exhibit 16)
83. In the Rinaldis’ Bankruptcy Case, Pitner of GRAY contradicted the false allegations
of Foshag of GRAY, by himself falsely alleging that the same nonexistent entity was holder
(not the owner and holder) of the ENDORSED Note. (Exhibit 15, Doc. 7, page 1)
84. GRAY & ASSOCIATES produced a copy of an unrecorded Assignment of
Mortgage purporting to assign the security interest in the Rinaldis’ home to HSBC Bank USA,
N.A. as Trustee without specifying any Trust for which HSBC Bank, N.A. was acting as Trustee.
(Exhibit 15, Doc. 7-2.)
85. Mr. Rinaldi provided OLR with evidence that Foshag’s allegations in ¶1 were
knowingly made or made with reckless disregard for the truth of the allegation that HSBC Bank
USA, N.A., as Trustee for Wells Fargo Asset Securities Corporation Home Equity Asset-Backed
Certificates, Series 2005-2, a nonexistent entity, owned the “true” copy of the UNENDORSED
Note attached to the Complaint in violation of SCR 20:3.3(1)(a).
86. OLR refused to formally investigate Mr. Rinaldi’s grievances.
87. There is sufficient evidence to at least investigate Foshag’s conduct in the Rinaldi
foreclosure action, which appears to already constitute probable cause to believe that Foshag’s
allegation in ¶1 that an entity identified as HSBC Bank USA, N.A., as Trustee for Wells Fargo
Asset Securities Corporation Home Equity Asset-Backed Certificates, Series 2005-2, a
47

200a

nonexistent entity, was the owner and holder of an UNENDORSED Note was knowingly or
recklessly made by Foshag, but OLR has chosen instead to prosecute the Rinaldis’ present lawyer
for making truthful representations in good faith to the Dane County Circuit Court in Nora #1,
Count Two, based on the grievance of Potteiger, Foshag’s co-counsel in the Respondent’s
foreclosure case, culminating in Potteiger’s creation of false evidence to support OLR’s
opposition to Respondent’s Motion for Relief from the Referee’s erroneous finding that
Respondent had foreknowledge that her representations to the Dane County Circuit Court were
untrue, which the Referee found by making impermissible inferences.
88. In the foreclosure action filed against Sheila M. Spencer on April 7, 2009 in Wood
County Circuit Court (Case No. 2009CV000283), Foshag identified the plaintiff as FNMC, a
division of National City Bank of Indiana, n/k/a National City Bank, alleged that “plaintiff” was
the owner and holder of “a certain note” and attached, as Exhibit A to the Complaint, a copy of
an UNENDORSED Note payable to FNMC, a division of National City Bank of Indiana as a
“true” copy. (Exhibit 17)
89. Foshag also attached a copy of a Mortgage granted by Ms. Spencer to FNMC, a
division of National City Bank of Indiana, to the Complaint and alleged in ¶1 that “plaintiff” is
the owner and holder of the Mortgage. (Exhibit 17)
90. The allegation in ¶1 of Foshag’s April 7, 2009 Complaint against Ms. Spencer was
false and Foshag knew or should have known the identification of the “plaintiff” as owner and
holder of the UNENDORSED Note was false because the owner of the Note issued by Ms.
Spencer and the Mortgage granted by Ms. Spencer had been sold to the Federal Home Loan
Mortgage Corporation (Freddie Mac) on or about September 14, 2005 (Exhibit 19)
48

201a

91. There is probable cause to believe that Foshag knowingly or recklessly alleged that
an UNENDORSED copy of the Note was a “true” copy, and knowingly or recklessly alleged that
the falsely identified “plaintiff” was the owner and holder of the Note.
92. Foshag’s Complaint concealed from Ms. Spencer and the Wood County Circuit
Court was the fact that the UNENDORSED Note, in the form he identified as a “true” copy, had
been sold to Freddie Mac in September, 2005, more than three and one half (3 ½) years earlier
and had been owned by Freddie Mac since at least September 14, 2005.
93. Minimal due diligence would have established that Freddie Mac is the owner and
that the predecessor in interest to National City Bank was the custodian of the Note.
94. Freddie Mac is the party entitled to the payment or performance of the Mortgage
under Wis. Stats. sec. 409.203(7).
95. In the 2009 foreclosure action against Ms. Spencer, Foshag pleaded in ¶1 of the
Complaint in Wood County Circuit Court Case No. 2009CV000283 that FNMC, a divison of
National City Bank of Indiana, nka National City Bank is the current owner and holder of the
Note and Mortgage, which was not true as a matter of fact or law, allegations which have never
been corrected or withdrawn.
96. Upon information and belief, Ms. Spencer filed grievances with OLR, asserting that
Foshag and other lawyers at GRAY were making false representations in the foreclosure action
for the purpose of preventing her from defending herself in the action, in violation of her right to
due process of law, guaranteed by the Fourteenth Amendment to the Constitution of the United

49

202a

States.11
97. OLR refused to formally investigate Ms. Spencer’s grievances.
98. There is sufficient evidence to at least investigate Foshag’s conduct in the Spencer
foreclosure, which appears to already constitute probable cause to believe that Foshag’s
allegation in ¶1 that an entity identified as FNMC, a division of National City Bank of Indiana,
n/k/a National City Bank was the owner and holder of an UNENDORSED Note was knowingly
or recklessly made by Foshag, but OLR has chosen instead to prosecute Ms. Spencer’s present
lawyer for making truthful representations in good faith to the Dane County Circuit Court in
Nora #1, Count Two, based on the grievance of Potteiger, Foshag’s co-counsel in the
Respondent’s foreclosure case, culminating in Potteiger’s creation of false evidence to support
OLR’s opposition to Respondent’s Motion for Relief from the Referee’s erroneous finding that
Respondent had foreknowledge that her representations to the Dane County Circuit Court were
untrue, which the Referee found by making impermissible inferences.
99. In Nora #1, Respondent is charged in Counts Three and Four with litigating the
validity of her own foreclosure. Counts Three and Four were initiated by the grievances of
Potteiger and Foshag, co-counsel in the foreclosure action commenced against the Respondent on
March 3, 2009 in Dane County Circuit Court Case No. 2009CV001096. (Exhibit 3)
100. Foshag pleaded in the foreclosure action commenced against Respondent on March
3, 2009, in ¶1 of the Complaint that an entity with whom Respondent had no relationship

11

When it was subsequently discovered that Freddie Mac claimed ownership of her
mortgage loan, the due process protections of the Fifth Amendment to the Constitution of the
United States are implicated as well because Freddie Mac is in conservatorship of the Federal
Housing Finance Authority (FHFA).
50

203a

whatsoever, Residential Funding Company, LLC fka Residential Funding Corporation (RFC),
was the owner and holder of a Note payable to AEGIS MORTGAGE CORPORATION
(AEGIS) which was then and there proceeding in the a consolidated Chapter 11 Bankruptcy Case
No. 07- 11119 in the District of Delaware.
101. Attached to the Complaint was a copy of a Note, purportedly endorsed in blank,
which Foshag alleged in ¶1 was a “true” copy.
102. Also attached to the Complaint was the Respondent’s Mortgage, granted to the
bankrupt AEGIS, along with an Assignment of Mortgage prepared by Jay J. Pitner (Pitner), an
attorney in the employ of GRAY & ASSOCIATED, purported to have been executed on either
January 6, 2009 or February 6, 2009, by Jeffrey Stephan (Stephan) and Kenneth Urgwuadu
(Urgwaudu), as Vice President and Assistant Secretary, respectively, of Mortgage Electronic
Registration Systems, Inc. (Exhibit 19)
103. Stephan and Urgwuadu were not officers of Mortgage Electronic Registration
Systems, Inc. at any time, but were employed by GMAC Mortgage, LLC (GMACM), the parent
company of RFC.
104. Foshag pleaded in ¶1 of the Complaint in Dane County Circuit Court Case No.
2009CV001096 that RFC was the current owner and holder of the Note and Mortgage, which
was not true as a matter of fact or law, allegations which have never been corrected or
withdrawn. (Exhibit 3)
105. When Respondent challenged the standing of the putative plaintiff RFC, RFC
retained co-counsel, Arthur M. Moglowsky of BASS & MOGLOWSKY, who argued that RFC
was the holder of the Note because it was endorsed in blank and never addressed the issue of
51

204a

Foshag’s claim that RFC was the owner and holder of the Note.
106. Potteiger did not convince the Respondent that RFC was entitled to enforce the Note
as the owner and holder of the Note endorsed in blank and the entity entitled to the payment or
performance of the security interest created by Pitner on the eve of filing the second foreclosure
action, because AEGIS was in bankruptcy and was not free to have its assets assigned to third
parties.
107. Respondent had anticipated the second foreclosure action because she was told by
another lawyer at GRAY & ASSOCIATES, Attorney Michael M. Riley (Riley), that in her first
foreclosure case (Dane County Circuit Court Case No. 2004CV000713), she had “settled with
the wrong party,” after she withdrew her motion to vacate what she believed was a settlement
agreement of the first foreclosure action, executed in 2004.
108. Despite the fact that Riley of GRAY advised Respondent that she had “settled with
the wrong party” (when Riley was the attorney representing the suddenly unidentified “wrong
party” in litigation which was settled as Dane County Circuit Court Case No. 2003CV000713),
Potteiger falsely alleged that Respondent had entered into a loan modification with “the
assignee” for AEGIS, which Riley claimed, without identifying the supposed “right party,” was
the “wrong party.”
109. Nora filed grievances against Moglowsky for making a misleading argument to the
Dane County Circuit Court and against Pitner for creating an Assignment of Mortgage from
AEGIS to a third party without leave of the Delaware Bankruptcy Court to do so in AEGIS’
Chapter 11 Bankruptcy Case No. 07-11119-BLS.
110. OLR did not find sufficient reason to investigate Respondent’s grievances either.
52

205a

111. Potteiger, without having ever formally substituted for Moglowsky (CCAP Detail,
Exhibit 2), sent a copy of a second version of a Note on or about June 17, 2009, after telling the
Respondent that he was going to “convince her” that RFC had standing to proceed against her in
the second foreclosure action.
112. The copy of the second version of the Note inserts a stamp reading “Residential
Funding Corporation” in the blank space above the endorsement of AEGIS employee, Trymeka
McCoy below the words “PAY TO THE ORDER OF” and bears a second stamped endorsement
of one Judy Faber, claiming to be Vice President of RFC, purporting to endorse the Note
specially in favor of JP MORGAN CHASE BANK, AS TRUSTEE.
113. In over seven years since receiving the second version of the Note, Respondent has
been unable to identify any Trust of which JP Morgan Chase Bank was Trustee into which her
Note and Mortgage had ever been deposited. According records of the Securities and Exchange
Commission (SEC), Residential Asset Securities Corporation (RASC) purports to have formed
54 Minnesota Trusts, none of which are identifiable as the RASC2002KSSCONF Loan Pool, the
entity appearing on the MERS® System for which RFC Trustee 03 is reportedly the Trustee.
(Exhibit 20)
114. The copy of the second version of the Note purports to have an Allonge appended to
it, purportedly executed by Amy Nelson, Assistant Vice President, who, by the Allonge,
supposed endorsed the Note from The Bank of New York Trust Company, N.A., as successor in
interest to JP Morgan Chase Bank, as Trustee, Residential Funding Company, LLC, fka
Residential Funding Corporation, Attorney in Fact.
115. This document, by which Potteiger asserted that he would “convince” Respondent
53

206a

that RFC was the party with standing to proceed against her in Dane County Circuit Court Case
No. 2009CV001096, has now been exposed as having never been signed by an officer of RFC, as
Attorney in Fact or otherwise, and, further, Amy Nelson was not employed by RFC at the time
the Allonge was delivered to Respondent by U.S. Mail but was then an employee of Lender
Processing Services, Inc. (LPS).
116. LPS was a notorious document forgery operation, now known as Black Knight
Financial, LLC.
117. Lorraine Brown, CEO of a subsidiary of LPS known as DOCX, was convicted of
conspiracy to commit wire fraud and admitted that over One Million (1,000,000) forged
documents had been filed in public records throughout the United States of America. (Exhibit
21)
118. Respondent is now in possession of what purports to be the original Note, the
originality of which has been determined by an expert, who will testify that the endorsement of
Judy Faber, who has publicly admitted that she was never a Vice President of RFC (Exhibit 21),
is a stamp and that the marking on the Allonge purporting to be the signature of Amy Nelson
never existed in physical reality, but is, instead a computer-generated signature, pasted onto the
computer-generated form of the Allonge and then printed.
119. There is no evidence that RFC or LPS had a Power of Attorney from AEGIS, JP
Morgan Chase Bank or an entity calling itself “The Bank of New York Trust Company, N.A.”
120. Furthermore, at the time the Allonge was produced and was likely created to help
Potteiger “convince” Respondent that RFC was the real party in interest, “The Bank of New
York Trust Company, N.A.” was known as The Bank of New York Mellon Trust Company, N.A.
54

207a

(Exhibit 23 and Exhibit 24)
121. Almost all of the evidence set forth above has been presented to OLR over the past
five (5) years and OLR ignores the evidence that Foshag made false representations and attached
a false Assignment of Mortgage in Respondent’s second foreclosure case and OLR is completely
aware of Potteiger’s misrepresentations and false statements in his grievance which led to Nora
#1, in which OLR chose to be complicit.
122. Almost all of the evidence set forth above was presented to the Referee in Nora #1
in Respondent’s Verified Motions to Dismiss Counts One, Three and Four of OLR’s Amended
Complaint and Answer to Count Two, who ignored it, stating that it was not “in the record,”
when, in reality, Respondent’s Motions to Dismiss and Answer was verified and the
documentary evidence, which all of which is authenticated as filings in the public record.
123. OLR has sufficient evidence to commence a formal investigation of Foshag and
Potteiger, but instead ignores all of the evidence which should lead to formal investigations of
the pattern and practice of Wisconsin-licensed lawyers, Potteiger and Foshag, and instead spends
substantial public resources investigating and bringing serial false Complaints against
Respondent.
124. On November 14, 2014, OLR Assistant Litigation Counsel Sheryl St. Ores
instructed Respondent that Respondent was “not allowed” to prosecute the case of Nora v.
Fidelity National Financial, Inc., et al., filed in the United States District Court for the District of
Minnesota (Minnesota District Court) on October 22, 2014 as Case No. 0:14-cv-04449-PJS-SER.
125. Clearly, OLR does not have the authority to instruct or allow Respondent to engage
in litigation for the public benefit, as she did in Nora v. Fidelity National Financial, Inc., et al.
55

208a

126. OLR commenced another investigation of the Respondent on November 18, 2014
into Respondent’s filing of the Complaint in Nora v. Fidelity National Financial, Inc., et al.
which, surprisingly, has not yet resulted in the filing of false charges against the Respondent.
127. OLR investigation into the filing of Nora v. Fidelity National Financial, Inc., et al.
required Respondent to once again explain the application of the now nearly obsolete and, at the
very least, strictly limited doctrine, Rooker-Feldman doctrine to the litigation and OLR seemed
entirely unaware of the existence of what are known as Pierrigner releases, which originated from
the decision of the Wisconsin Supreme Court in Pierringer v. Hoger, 21 Wis.2d 182, 124
N.W.2d 106 (Wis., 1963) and has been adopted by the majority of states.
128. That OLR’s prosecutor, Sheryl St. Ores, instructed the Respondent that she was
“not allowed” to file the action against Fidelity National Financial, Inc. in the Minnesota District
Court seemingly did not know about the nationally recognized case of Pierringer v. Hoger,
supra, and that OLR’s investigator, Travis Stieren, who is also a Wisconsin-licensed attorney,
would even seek to investigate Respondent’s legal basis for Minnesota federal district court
action shows that OLR is not concerned about the facts or the law, but is acting selectively and
vindictively to silence the Respondent and deny her clients and others similarly situated the
“fashion” of legal representation she provides and has provided for more than 40 years.
129. OLR demonstrates its total disregard of the procedural and substantive facts in
Rinaldi and Spencer and is so reckless in its allegations that it did not even check CCAP in either
case.
a. CCAP would have plainly disclosed that Respondent never represented the Rinaldis in
the foreclosure action in Kenosha County Case No. 2009CV000353.
56

209a

b. CCAP would have plainly disclosed that Wood County Circuit Court Case No.
2013TJ000049, about which they complain, in Counts One, Two and Three, is not a case in
litigation at all, but is the recording of a judgment for attorney’s fees.12
130. While Respondent has been charged with a single Count of misrepresentation under
SCR 20:3.3(a) which, for some reason, is not even filed in the record in Dane County Circuit
Court Case No. 2009CV001096, and for which she was convicted based on the false evidence
and false grievance submitted by Potteiger, the court records in the Rinaldis,’ Ms. Spencer’s and
Respondent’s foreclosure and bankruptcy cases alone, as well as Nora #1, show multiple
misrepresentations, false documents, and falsely sworn Affidavits, made and presented by
grievants Potteiger and Foshag, which OLR has failed and refused to investigate. The
misrepresentations of Foshag and Potteiger violate SCR 20:3.3(a), which they have never
corrected. Yet, OLR has aggressively pursued Count Two of Nora #1, and when confronted with
substantial evidence of Potteiger’s false swearing and production of false evidence consisting of
the print screens, did not seek to correct the misrepresentations it made in Nora #1 and has
allowed the false evidence to stand in the record of Nora #1.
131. Further evidence of selective and vindictive prosecution of the Respondent consists
of the fact that Respondent alone, and not Attorney Kim A. Lewis of LEWIS & LEVINSON,
who were co-counsel in Rinaldi, et al. v. Wells Fargo Bank, N.A., et al., Case No.
2011CV001477. While OLR falsely charged Respondent with representing the Rinaldis in their

12

One would think that Wisconsin licensed attorneys would know the difference between
YEARCVNUMBER and YEARTJNUMBER, but that level of incompetence and lack of diligence is
even more unforgiveable because they are charging a licensed attorney with bringing frivolous actions
about which OLR lawyers have no basic understanding of either of the facts or the law.

57

210a

foreclosure action, it wholly failed to investigate the only state court case in which Respondent
appeared on behalf of the Rinaldis, which is Kenosha County Circuit Court Case No.
2011CV0001477. Attorney Lewis was never contacted by OLR regarding the representation of
the Rinaldis in that case as co-counsel with the Respondent.
132. If OLR had done a minimal desktop search of CCAP, it could have never filed the
false allegations in ¶¶ 64, 67, 68, 69,70, 71, 74, and 77(d) which have been pleaded against the
Respondent in support of Counts Four and Five.
133. The conduct of Attorney St. Ores, on behalf of Director Sellen and the Office of
Lawyer Regulation (OLR), violates the minimum standards of pleading and practice required by
the Wisconsin Rules of Civil Procedure and the Wisconsin Code of Professional Conduct at SCR
20:1.1; 20:1.3; 20:3.1(a)(1) and (2); SCR 20:3.3(a)(1), SCR 20:3.4(b) and SCR 20:8.4(a),(b),
( c), (f) and (g), set forth above and enumerated, without limitation, below:
Representation of Sheila M. Spencer, Counts One, Two and Three
134. Paragraph 4 of the Complaint in Nora #2 is a legal impossibility and is
incompetently pleaded without a basis in fact or law, violating SCR 20:1.1, 20:3.1(a)(1) and (2).
135. Paragraph 5 of the Complaint in Nora #2 is false and has been pleaded without a
factual basis, violating SCR 20:3.1(2).
136. Paragraph 6 of the Complaint in Nora #2 is false as to the date of filing of the
foreclosure Complaint, the name of the case and the case number and is pleaded without a basis
in fact, violating SCR 20:3.1(2).
137. Paragraph 8 of the Complaint in Nora #2 is false and has been pleaded without a
factual basis, violation SCR 20:3.1(2).
58

211a

138. Paragraph 9 of the Complaint in Nora #2 falsely implies that it is unethical to
require an entity seeking to foreclose on Wisconsin real estate establish that it has the legal right
to do so and is incompetently pleaded, violating SCR 20:1.1, and is without a basis in law,
violating SCR 20:3.1(2).
139. Paragraph 10 of the Complaint in Nora #2 is a misstatement:
a. The Court allowed PNC Bank, N.A., successor by merger to National City Bank,
successor by merger to National City Bank of Indiana, a division of which was FNMC to appear
as the plaintiff in the action on December 21, 2012.
b. Because Ms. Spencer’s actual foreclosure action in Wood County Circuit Court Case
No. 2009CV000353 is presently on appeal and the entire file is located one floor below the
Offices of OLR (which Respondent told Mr. Stieren months ago), the pleading of paragraph 10 is
incompetent in violation of SCR 20:1.1.
c. OLR fails to state that the decision allowing the Amended Complaint to be amended to
identify the plaintiff as PNC Bank, N.A., successor by merger to National City Bank, successor
by merger to National City Bank of Indiana, a division of which was FNMC is pending on
appeal.
140. Paragraph 11 of the Complaint in Nora #2 is a misstatement and falsely implies that
it is unethical to raise issues of civil fraud and racketeering in defense of the property rights of a
Wisconsin citizen. Because OLR has been repeatedly and extensively informed of the legal and
factual basis of Respondent’s claims, the pleading of paragraph 11 is incompetently alleged and
in violation of SCR 20:1.1.
141. Paragraph 13 of the Complaint in Nora #2 is a mischaracterization of the
59

212a

proceedings on May 23, 2012. On May 23, 2012, the Court indicated that there were numerous
issues which needed to be addressed and allowed Respondent to make a list of the issues. There
is a complete Transcript of the proceedings on May 23, 2012 presently located one floor below
the Office of Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has
apparently failed to locate or review. The pleading of paragraph 13 is incompetent in violation of
SCR 20:1.1 and is lacking in even the minimum amount of diligence, in violation of SCR 1.3.
142. Paragraph 17 of the Complaint in Nora #2 is false as a matter of fact and law. The
scheduling order is not a final order. As a matter of fact, Respondent eventually obtained a copy
of the scheduling order directly from the Court by having her client retrieve it from the Office of
the Clerk of the Wood County Circuit Court. It is true that Gray & Associates, LLP did not send
a signed copy of Order dated June 12, 2012 to the Respondent. The entire record of the
proceedings in Wood County Circuit Court Case No. 2009CV000283 is presently located one
floor below the Office of Lawyer Regulation in the Tenney Building in Madison, Wisconsin,
which OLR has apparently failed to locate or review. The pleading of paragraph 17 is
incompetent in violation of SCR 20:1.1, is without a legal basis in violation of SCR
20:3.1(a)(1), and is lacking in even the minimum amount of diligence, in violation of SCR 1.3.
143. Paragraph 18 of the Complaint in Nora #2 is false as a matter of fact. Respondent
did not take the position that Judge Potter was required to send a copy of the June 12, 2012 Order
to the Respondent. Respondent stated that an employee of the Wood County Clerk of Circuit
Court refused to provide her with a copy of the June 12, 2012 Order upon her verbal, telephonic
request. Paragraph 18 falsely implies that Respondent is ethically precluded from raising the
issue that GRAY & ASSOCIATES did not send a copy of the signed Order of June 12, 2012 to
60

213a

the Respondent, when it is the expectation of the Court that the party obtaining an Order will
serve a copy of the Order on opposing counsel. The entire record of the proceedings in Wood
County Circuit Court Case No. 2009CV000283 is presently located one floor below the Office of
Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has apparently
failed to locate or review. The pleading of paragraph 18 is incompetent in violation of SCR
20:1.1, is without a factual basis in violation of SCR 20:3.1(a)(2), and is lacking in even the
minimum amount of diligence, in violation of SCR 1.3.
144. Paragraph 19 of the Complaint in Nora #2 is false as a matter of fact. The issue of
ex parte communications occurring before Respondent represented Ms. Spencer and while Ms.
Spencer was appearing pro se involved Gray & Associates, LLP scheduling a summary judgment
hearing on March 31, 2010 with a hearing date of March 31, 2010; creating two (2) different
letters dated February 17, 2011 and serving one on Ms. Spencer and filing a different version
with the Court, preventing Ms. Spencer from being informed of an “Affidavit issue” which
required the Plaintiff to cancel the Sheriff’s Sale (to wit, the Affidavit of Mendy Mundey dated
November 25, 2009 in which Ms. Mundey falsely swore, on personal knowledge, that PNC

Bank, N.A., successor by merger to FNMC, a division of National City Bank of Indiana
n/k/a National City Bank was the “current owner and holder of the Note and Mortgage”); there
is no “letter” dated June 20, 2011, but there is an Order Vacating Summary Judgment dated on
June 20, 2011 (a Sunday), which was entered without notice and hearing being provided to Ms.
Spencer. The entire record of the proceedings in Wood County Circuit Court Case No.
2009CV000283 is presently located one floor below the Office of Lawyer Regulation in the
Tenney Building in Madison, Wisconsin, which OLR has apparently failed to locate or review.
61

214a

The pleading of paragraph 19 violates SCR 20:3.1(2) and is lacking in even the minimum
amount of diligence, in violation of SCR 1.3.
145. Paragraph 20 of the Complaint is false as a matter of fact. The March 31, 2010
filing was not a letter, but was a Motion for Summary Judgment which was dated March 31,
2010 and scheduled the hearing for the same day. Ms. Spencer never claimed that she did not
receive the March 31, 2010 Motion for Summary Judgment which was mailed to her on March
31, 2010. Ms. Spencer’s position was that, by the time she received the Motion for Summary
Judgment dated March 31, 2010 and setting hearing on the Motion for March 31, 2010, the date
set for the hearing had already passed. Ms. Spencer was not informed of a new date by which
she would be allowed to respond to the Motion for Summary Judgment. The Order granting
Summary Judgment was entered on April 19, 2010, less than the 20 days after the date of mailing
of the Motion for Summary Judgment. The April 19, 2010 Order granting Summary Judgment
was entered without notice and opportunity for Ms. Spencer to be heard. The entire record of the
proceedings in Wood County Circuit Court Case No. 2009CV000283 is presently located one
floor below the Office of Lawyer Regulation in the Tenney Building in Madison, Wisconsin,
which OLR has apparently failed to locate or review. The pleading of paragraph 20 violates SCR
20:3.1(2) and is lacking in even the minimum amount of diligence, in violation of SCR 1.3.
146. Paragraph 21 of the Complaint is false as a matter of fact. There were two (2) letters
dated February 17, 2011 of which one version was sent to the Court and one version was sent to
Ms. Spencer. There is no “letter” of June 20, 2011. There is an Order dated June 20, 2011 (a
Sunday) which was never sent to Ms. Spencer. The entire record of the proceedings in Wood
County Circuit Court Case No. 2009CV000283 is presently located one floor below the Office of
62

215a

Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has apparently
failed to locate or review. The pleading of paragraph 21 violates SCR 20:3.1(2) and is lacking in
even the minimum amount of diligence, in violation of SCR 1.3.
147. Paragraph 23 of the Complaint is factually false insofar as it collapses the time
frame between the date of receipt of the Transcript of the May 23, 2012 proceedings and the date
of discovery that page 3 of the Transcript was missing. As soon as possible after it was was
discovered by Ms. Spencer’s direct inspection of the Court record that the copy of the Transcript
sent to Respondent was sent without page 3 being included, Respondent corrected the record to
state that there had apparently been a collating error on November 2, 2012. The incomplete
Transcript was received by Respondent on July 16, 2012 and Ms. Spencer discovered the missing
page 3 in the Court record by direct inspection and sent the missing page 3 to Respondent on
October 30, 2012. The entire record of the proceedings in Wood County Circuit Court Case No.
2009CV000283 is presently located one floor below the Office of Lawyer Regulation in the
Tenney Building in Madison, Wisconsin, which OLR has apparently failed to locate or review.
The pleading of paragraph 23 violates SCR 20:3.1(2) and is lacking in even the minimum
amount of diligence, in violation of SCR 1.3.
148. Paragraph 26 of the Complaint is false as a matter of law because it suggests that an
incomplete copy of a Transcript does not prejudice the party relying on the Transcript. Such a
suggestion is not based on existing law or a good faith argument for modification or extension of
existing law. The pleading of paragraph 26 violates SCR 20:3.1(1).
149. Paragraph 27 of the Complaint is false as a matter of fact. Respondent never
claimed that Judge Potter and the court clerk intentionally manipulated the court record.
63

216a

Respondent’s exact words related to the flawed Transcript of the proceedings on May 23, 2012
are
17. It is unthinkable but unavoidable to consider that Judge Potter and/or the court
reporter edited the Transcript of the hearing on May 23, 2012 to make it appear that Judge
Potter was less biased than he is . . .
Respondent did not state that Judge Potter and the court clerk intentionally manipulated the court
record. Rather, she stated that it was unthinkable but unavoidable to consider the possibility that
Judge Potter and/or the court reporter edited the Transcript of the hearing. Some of the language
missing from the Transcript was later discovered by Ms. Spencer in the Court’s copy of the
Transcript. Respondent received page 3 of the Transcript on October 30, 2012 from Ms. Spencer
and the Respondent filed a Notice of Correction dated November 2, 2012 promptly thereafter as
required by SCR 20:3.3(a). The true facts, known to OLR by reason of its pleading of paragraph
27, show that Respondent engaged in ethical conduct by complying with SCR 20:3.3(a)(1). OLR
has violated SCR 20:3.3(a)(1) by knowingly misrepresenting facts in the pleading of paragraph
27.
150. Paragraph 29 falsely suggests that an attorney cannot ethically move for the
disqualification of a judge. Paragraph 29 is not based on existing law or a good faith argument
for the modification or extension of existing law and is pleaded in violation of SCR 20:3.1(a)(1).
151. Paragraph 30 is false as a matter of fact in that it states Respondent accused the
judge, opposing counsel and court personnel of manipulating the record in her Motion to
Disqualify Judge Potter dated July 23, 2012. That Motion speaks for itself and the allegations
are supported by multiple facts in the record. There is no statement in the Motion to Disqualify
Judge Potter which supports the OLR’s allegation in paragraph 30. Paragraph 30 is pleaded in
64

217a

violation of SCR 20:3.1(a)(1).
152. Paragraph 31 is false as a matter of fact insofar as it suggests that a written order
was entered denying the Motion for Disqualification of Judge Potter. The Transcript of the
proceedings on August 8, 2012 speaks for itself. The entire record of the proceedings in Wood
County Circuit Court Case No. 2009CV000283 has been located one floor below the Office of
Lawyer Regulation in the Tenney Building in Madison, Wisconsin since January 2, 2015. OLR
has apparently failed to review the Transcript of the August 8, 2012 hearing on the Motion to
Disqualify Judge Potter. The pleading of paragraph 31violates SCR 20:3.1(2) and is lacking in
even the minimum amount of diligence, in violation of SCR 1.3.
153. Paragraph 32 is without foundation in existing law. No “motion” to remove the
Spencer case to federal court was ever filed because that is not the procedure for removal. The
procedure for removal is set forth at 28 U.S.C. sec. 1446 and involves the filing of a Notice of
Removal. The pleading of paragraph 32 violates SCR 20:3.1(a)(1) and is lacking in even the
minimum understanding of the requirements pertaining to removal of state court actions to
federal court and, therefore, violates SCR 1.1.
154. Paragraph 34 is unsupported by facts or law. In order to support removal and
defend against remand, it is necessary to provide the federal court with the factual basis for the
removal. Demonstrating the Plaintiff identified in the proceedings in state court is a sham party
is fundamental to support the concealment of the existence of federal jurisdiction. Each of the
following, successively-named Plaintiffs in the Spencer case are sham Plaintiffs:

1. FNMC, a division of National City Bank of Indiana nka National City Bank
2. PNC Bank, N.A., successor by merger to FNMC, a division of National City Bank of
65

218a

Indiana n/k/a National City Bank
3. PNC Bank, N.A., successor by merger to National City Bank, successor by merger to

National City Bank of Indiana, a division of which was FNMC
The use of the term “sham” as applied to parties is standard in removal actions. See
De-Frauding the System: Sham Plaintiffs and the Fraudulent Joinder Doctrine, Matthew C.
Monahan, Michigan Law Review, Vol. 110:1341. It is in routine cases removed after 30 days
from the commencement of the state court action to provide evidence that the grounds for
removal were discovered after 30 days following the commencement of the state court action that
the grounds for federal jurisdiction were concealed.
The term “sham” is routinely used to describe plaintiffs’ efforts to defraud the system by
preventing the exercise of federal jurisdiction, as explained in De-Frauding the System: Sham
Plaintiffs and the Fraudulent Joinder Doctrine. There is nothing unethical about using standard
language in an argument for the existence of federal jurisdiction, which had been fraudulently
concealed by plaintiffs. The pleading of paragraph 34 violates SCR 20:3.1(a)(1) and is lacking in
even the minimum amount of competence and diligence required of officers of the Supreme
Court of Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
155. Paragraph 35 is unsupported by existing law. The federal district court remanded
the Spencer case to the Wood County Circuit Court. The federal district court had to have
jurisdiction over the case before it could remand the case. The federal district court did not hold
that “federal jurisdiction did not attach to the Spencer case.” The federal district court had
jurisdiction over the Spencer case until it was remanded to the Wood County Circuit Court and it
retained jurisdiction to award attorneys’ fees for what is known as “improvident removal.” It

66

219a

held that it no longer had jurisdiction once it entered the remand order. Paragraph 35 is not
based on existing law or a good faith argument for modification or extension of existing law.
The pleading of paragraph 35 violates SCR 20:3.1(a)(1) and is lacking in even the minimum
amount of competence and diligence required of officers of the Supreme Court of Wisconsin, in
violation of SCR 20:1.1 and SCR 20:1.3.
156. Paragraph 38 is false as a matter of fact. The Second Motion for Reconsideration of
the Award of Attorneys’ Fees was not “summarily denied.” The pleading of paragraph 38
violates SCR 20:3.1(a)(2) and is lacking in even the minimum amount of competence and
diligence required of officers of the Supreme Court of Wisconsin, in violation of SCR 20:1.1 and
SCR 20:1.3.
157. Paragraph 42 is unsupported by existing law. Part of the body of defamation law is
an action for invasion of privacy. Publication of confidential medical records, filed under seal, is
invasion of privacy, which is a species of defamation. The medical records were confidential and
in writing and their publication was, therefore, libelous. Moreover, because Respondent had
recovered from an acute disabling condition reported to the Court as a basis for ADA
accommodations, their publication more than a year after the records were filed under seal would
be actionable as libel by false light, were Judge Crabb not immune as having libeled Respondent
under color of a judicial decision. Respondent can show that her confidential medical
information was no longer a true in order to support an allegation that the publication of those
records was libelous as an invasion of privacy and libel by false light. The pleading of paragraph
42 violates SCR 20:3.1(a)(1) and is lacking in even the minimum amount of competence and
diligence required of officers of the Supreme Court of Wisconsin, in violation of SCR 20:1.1 and
67

220a

SCR 20:1.3.
158. Paragraph 43 is not supported by any facts or law. The purpose of the allegation of
libel was to establish Respondent’s standing to appeal from Judge Crabb’s decision in her own
name. Her alternative would have been to file a Petition for Writ of Mandamus under the law of
the Seventh Circuit, under Bolte v. Home Ins. Co., 744 F.2d 572 (1984). Respondent was
seeking to modify or extend the law of the Seventh Circuit to allow attorneys to directly appeal
from judicial criticism, which is allowed in other circuits. The pleading of paragraph 43 violates
SCR 20:3.1(a)(1) and (2) and is lacking in even the minimum amount of competence and
diligence required of officers of the Supreme Court of Wisconsin, in violation of SCR 20:1.1 and
SCR 20:1.3.
159. Paragraphs 44-60 contain mere recitations and do not provide any specific facts to
support the conclusion that Respondent knowingly violated any subsection of SCR 20:3.1(a).
Standing alone and without the false allegations of fact and misrepresentations of law, there
would be no probable cause to proceed on Counts One, Two and Three.
160. Paragraph 61 is unsupported by facts or law because it is not based on any true facts
that Respondent knowingly (or recklessly) violated any subsection of SCR 20:3.1(a).
161. Paragraph 62 is unsupported by facts that Respondent violated SCR 20:3.2 and is
contrary to law. The allegation that Respondent engaged in an ongoing pattern of conduct to
“harass other parties and judicial officers,” except paragraphs identified above as being false.
There is no evidence that Respondent was seeking to delay the Spencer case. There is only a
suspicion by a panel of the Seventh Circuit Court of Appeals which wrote that they “suspect that
the removal was part of a strategy to gum up the progress of the case.” Suspicions are not
68

221a

evidence and do not even rise to the level of probable cause. The pleading of paragraph 62
violates SCR 20:3.1(a)(1) and (2) and is lacking in even the minimum amount of competence and
diligence required of officers of the Supreme Court of Wisconsin, in violation of SCR 20:1.1 and
SCR 20:1.3.
162. Paragraph 63 is unsupported by facts that the Respondent violated her oath. To the
contrary, there is substantial evidence consisting of hundreds of pages of documents which
Respondent presented to OLR which shows that Respondent is upholding her oath which
provides:
I will never reject, from any consideration personal to myself, the cause of the defenseless
or oppressed, or delay any person’s cause for lucre or malice.
There is no evidence that Respondent is seeking personal gain nor is there any evidence that she
is acting maliciously toward any person. She is, however, undertaking the cause of the
defenseless and oppressed. The pleading of paragraph 63 violates SCR 20:3.1(a)(1) and is
lacking in even the minimum amount of competence and diligence required of officers of the
Supreme Court of Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
Representation of Roger and Desa Rinaldi, Counts Four and Five
163. Specifically, having been informed that the Respondent did not represent Roger and
Desa Rinaldi in the Kenosha County Circuit Court foreclosure case (Case No. 2009CV000353),
OLR falsely accuses Respondent of representing the Rinaldis in that action in paragraphs 67 and
68 of the Complaint. OLR falsely accuses the Respondent of not appealing summary judgment
in Kenosha County Circuit Court Case No. 2009CV000353 when she did not represent the
Rinaldis in that action. All OLR had to do is check the Wisconsin Circuit Court Access

69

222a

Program, which would conclusively prove that Respondent never represented the Rinaldis in that
case. There is no factual basis for paragraphs 67 and 68 of the Complaint. The pleading of
paragraphs 67 and 68 violates SCR 20:3.1(a)(2) and is lacking in even the minimum amount of
competence and diligence required of officers of the Supreme Court of Wisconsin, in violation of
SCR 20:1.1 and SCR 20:1.3.
164. Paragraph 69 is false insofar as it suggests that Respondent was in any way involved
in the loan modification agreement between HSBC Bank USA, N.A.13 (HSBC) and the Rinaldis.
Paragraph 69 relates to the proceedings in Kenosha County Circuit Court Case No.
2009CV000353 and Respondent never represented the Rinaldis in that action. Again, recourse to
the Wisconsin Circuit Court Access Program would conclusively demonstrate that Respondent
never represented the Rinaldis in that case. There is no factual basis for paragraph 69 of the
Complaint. The pleading of paragraph 69 violates SCR 20:3.1(a)(2) and is lacking in even the
minimum amount of competence and diligence required of officers of the Supreme Court of
Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
165. Paragraph 70 is false as a matter of fact. Again, recourse to the Wisconsin Circuit
Court Access Program would conclusively demonstrate that Respondent did not file a new state
lawsuit, “reasserting the Rinaldis’ counterclaims against the same parties.” The case to which

13

It should also be noted that the Loan Modification Agreement was not executed by an
employee or officer of HSBC, but was purportedly executed by an employee of Wells Fargo Bank, N.A.
The plain reading of the Loan Modification Agreement establishes that HSBC was not a party to the
Loan Modification Agreement. No authority for Wells Fargo Bank, N.A. to execute the Loan
Modification Agreement has ever been presented and the Loan Modification Agreement was never in
effect because it was never returned to the Rinaldis by mail as required by its terms. It suddenly
appeared in image format more than one and one half (1½) years after it was purportedly signed.

70

223a

OLR is attempting to refer is Kenosha County Circuit Court Case No. 2011CV001477. The
Rinaldis commenced that action pro se on June 10, 2011. Respondent and co-counsel, Kim
Andrew Lewis, appeared in the action in August, 2011 and moved to dismiss the case without
prejudice for improper service. Simple recourse to the Wisconsin Circuit Court Access Program
would demonstrate that Respondent did not file the action. When she appeared with co-counsel,
Respondent and Attorney Lewis only sought to dismiss the action without prejudice for improper
service of process. There is no factual basis for paragraph 70 of the Complaint. The pleading of
paragraph 70 violates SCR 20:3.1(a)(2) and is lacking in even the minimum amount of
competence and diligence required of officers of the Supreme Court of Wisconsin, in violation of
SCR 20:1.1 and SCR 20:1.3.
166. Paragraph 71 is pleaded without a factual basis and contains a false inference.
Respondent was not representing the Rinaldis when the defendants moved to dismiss the
Complaint in Case No. 11-CV-1477. Simple recourse to the Wisconsin Circuit Court Access
Program would demonstrate that Respondent and her co-counsel agreed with the defendants that
service of process was improper because the Rinaldis, pro se, had not served authenticated copies
of the Summons and Complaint on the defendants. A dispute arose solely because the
defendants responded to the Rinaldis’ newly appearing counsels’ agreement that service of
process was improper and sought to dismiss the action without prejudice and the defendants
responded by seeking dismissal with prejudice. There is no factual basis for pleading paragraph
71 of the Complaint as evidence of an ethics violation by the Respondent because she and her cocounsel properly sought to dismiss the action for improper service of process. The pleading of
paragraph 71 violates SCR 20:3.1(a)(1) and is lacking in even the minimum amount of
71

224a

competence and diligence required of officers of the Supreme Court of Wisconsin, in violation of
SCR 20:1.1 and SCR 20:1.3.
167. Paragraph 72 is false and OLR should have known that paragraph 72 is false.
Respondent did not file the Rinaldis’ bankruptcy in the Eastern District of Wisconsin as Case No.
11-35689. Simple recourse to pacer.gov would have shown OLR that the Rinaldis’ bankruptcy
case was filed by Attorney Jay Nixon of Racine, Wisconsin on October 14, 2011. Paragraph 72
is pleaded without a factual basis. The pleading of paragraph 72 violates SCR 20:3.1(a)(2) and is
lacking in even the minimum amount of competence and diligence required of officers of the
Supreme Court of Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
168. Paragraph 74 is, again, false, insofar as it alleges that Respondent “filed adversary
claims against the parties she had counter-claimed against in the state action.” OLR should have
known that Respondent did not file counterclaims in Kenosha County Circuit Court Case No.
2009CV000353 because she did not represent the Rinaldis in that action. In fact, she did not
even meet Roger Rinaldi until August, 2011. Respondent met Mr. Rinaldi at the offices of Lewis
& Levinson in Richmond, Illinois. At that time, he was seeking representation in Kenosha
County Circuit Court Case No. 2011CV001477 and neither she nor Attorney Kim Andrew Lewis
were prepared to undertake representation in Case No. 2011CV001477 beyond stipulating to the
dismissal of the action for improper service of process, which their research showed was the
correct course of action. Mr. Rinaldi agreed to have Respondent and Attorney Lewis represent
the Rinaldis in stipulating to the dismissal of the action for improper service of process. The
pleading of paragraph 74 violates SCR 20:3.1(a)(1) and is lacking in even the minimum amount
of competence and diligence required of officers of the Supreme Court of Wisconsin, in violation
72

225a

of SCR 20:1.1 and SCR 20:1.3.
169. Paragraphs 75 and 76 are true, but do not contain any allegations which would
constitute an ethics violation.
170. Paragraph 77(a) paraphrases the federal district court’s decision, but ignores the
context of the decision, which is that the Rinaldis had moved to consolidate two orders from the
main bankruptcy court as well as the report and recommendations in the adversary case, which
were the result of a single decision and was indeed confusing, primarily to counsel for the
Rinaldis.
171. Paragraph 77(b) paraphrases the federal district court’s decision, does not address
the issues Respondent raised on appeal and by objection to the Report and Recommendation.
172. Paragraph 77(c) is not true. The adversary claims were not dismissed because “their
submission of those claims was ‘an unfocused, stream-of-consciousness-style recitation of
grievances debtors have asserted in various forms since the origination of the litigation in state
court.’” Rather, Respondent’s objection to the Report and Recommendations was found to have
not been sufficiently specific and because the filings did not conform to the procedural rules,
which were difficult to apply to cases which were consolidated by Judge Kelley’s decision but
were not consolidated as a matter of law. The same decision disposed of issues in the main case,
Case No. 11-35689, as well as in the adversary proceeding, Adv. No. 12-2412, resulting in two
(2) different types of review.
What the Respondent was trying to articulate was that the Rinaldis objected to the
entirety of the Report and Recommendation to dismiss the adversary case and that they had a
right to an evidentiary hearing in the main case. Respondent was trying to call the court’s
73

226a

attention to the fact that the Rinaldis did indeed have standing to challenge the fact that there had
been no endorsement on the Note filed in the state court foreclosure (in which the Rinaldis
appeared and proceeded pro se) and there had been no assignment of the Rinaldis’ mortgage to
HSBC until after summary judgment was granted to HSBC in Kenosha County Circuit Court
Case No. 2009CV000353. The endorsement on the Note suddenly appeared after the Rinaldis’
bankruptcy case was filed and two (2) different assignments of the Rinaldis’ mortgage, in
addition to the assignment of mortgage which was created and filed post-summary judgment,
were filed in the bankruptcy case, one of which was created and filed after the bankruptcy filing,
in violation of provisions of 11 U.S.C. sec. 544, in an attempt to perfect the lien after the
commencement of the bankruptcy case.
Each of the three (3) assignments of mortgage purportedly assigned the mortgage from
Wells Fargo Bank, N.A. to HSBC Bank USA, N.A. in different identities. The bankruptcy court
judge found that “defects in the transfer of the Note to the Wells Fargo Asset Securities
Corporation Home Equity Asset-backed Certificates Series 2005-2 Trust (or any similarly named
entity) (the “Trust”) do not render the Mortgage unenforceable, the Note invalid or the proof of
claim fraudulent.” The opposite is true: defects in the transfer of the Note render the Note
unenforceable by the party to whom the transfer was “defective.” See Dow Family, LLC v. PHH
Mortgage Corporation, et al., 2013 WI App 114, 838 N.W.2d 119, 350 Wis.2d 411 (Wis. App.,
2013), decided on August 6, 2013, but was an appeal to the Wisconsin Supreme Court and was
affirmed on July 10, 2014. Therefore, the law of the State of Wisconsin was not established by
precedent until after the Rinaldis’ initial brief on appeal was due to be filed on July 13, 2013.
The Wisconsin Supreme Court’s July 10, 2014 decision in Dow Family, LLC v. PHH Mortgage
74

227a

Corporation, et al., 2014 WI 56, 354 Wis.2d 796, 848 N.W.2d 728 (Wis., 2014) was provided to
the Seventh Circuit Court of Appeals as supplemental authority on September 7, 2014.
Paragraph 77( c) appears to be simply lifted verbatim from the decision of the United
States District Court for the Eastern District of Wisconsin (Eastern Wisconsin District Court).
There has been a clarification of Wisconsin law, based on new precedent in determining the
proof necessary for the equitable assignment of a mortgage in Wisconsin. Since the sanction was
entered, new precedent exonerates Respondent’s legal argument for the Rinaldis and
demonstrates the plain error committed by the Bankruptcy Court for the Eastern District of
Wisconsin. Clearly, the Rinaldis had standing to challenge the enforcement of the Note signed
by Roger Rinaldi. The pleading of paragraph 77 (c) violates SCR 20:3.1(a)(1) and is apparently
lacking in even the minimum amount of competence and diligence required of officers of the
Supreme Court of Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
173. 77(d) is false and has been pleaded without a factual basis. As stated, above,
Respondent did not represent the Rinaldis in state court. OLR never asked the Respondent what
her litigation strategy in the Rinaldis’ bankruptcy case was. The strategy was to allow the
unsecured creditors, including the unsecured mortgage claimant, whomever that might be, to
receive the proceeds of the Rinaldis’ home and the adversary proceeding damages, in excess of
the Rinaldis’ exemptions, as clearly set forth in their Chapter 13 Plan. The Rinaldis’ Chapter 13
Plan is a matter of public record and readily accessible at pacer.gov. The pleading of paragraph
77(d) violates SCR 20:3.1(a)(2) and is apparently lacking in even the minimum amount of
competence and diligence required of officers of the Supreme Court of Wisconsin, in violation of
SCR 20:1.1 and SCR 20:1.3.
75

228a

174. Paragraph 78 is without a legal basis. It is not an ethics violation to file for relief
under Fed. R. Civ. P. 59(e). Fed. R. Civ. P. 59(e) allows for issues which have been adversely
decided to be “repeated” in order to present manifest errors of fact or law, which is how Fed. R.
Civ. P. 59(e) was used in the Rinaldis’ case. A motion under Fed. R. Civ. P. 59(e) must be filed
within 14 days of the date of entry of the judgment to be reconsidered in order to stay the time for
appeal. The pleading of paragraph 78 violates SCR 20:3.1(a)(1) and is apparently lacking in even
the minimum amount of competence and diligence required of officers of the Supreme Court of
Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3.
175. Paragraphs 79-85 are mere recitations of procedural events and do not support
charges of ethics violations pleaded as Counts Four and Five.
176. Paragraph 86 does not establish that Respondent knowingly brought the Rule 60(b)
motion in violation of SCR 20:3.1(a). OLR ignores the discovery of new evidence in a case
being tried in the United States Bankruptcy Court for the Southern District of New York in
which the homeowner was successful on almost identical evidence. Respondent provided the
decision in In re Carssow-Franklin, SBNY Case No. 10-20010 (RDD) dated January 29, 2015,
which OLR has ignored. Instead, OLR appears to have relied on the legal position of Foshag and
the lawyers from GRAY & ASSOCIATES to distinguish, without a substantive difference, the
Rinaldi, et al. v. HSBC Bank USA, N.A. as Trustee (for an incorrectly identified trust) et al. (In re
Rinaldi), Adv. No. 12-2412, Case No. 11-35689, which is that there was a lower risk of fraud
from the same actions taken by some of the same employees of Wells Fargo Bank, N.A. in In re
Carssow-Franklin than in the Rinaldis’ case. That reasoning is absurd. The issue is not risk of
fraud but actuality of fraud. There is no cause of action for risk of fraud and the Rinaldis alleged
76

229a

violations of RICO and WOCCA because they, their counsel and the courts were, in fact,
defrauded by the false documents created by Wells Fargo Bank, N.A. and used as evidence
against them for the purpose of attempting to take their home.
177. The mere fact that the Seventh Circuit Court of Appeals did not reverse a
discretionary act by the judge of the United States District Court for the Eastern District of
Wisconsin (paragraph 89) does not support a violation of SCR 20:3.1(a), which requires clear
and convincing evidence that Respondent knew that the motion based on newly discovered
evidence which she obtained from the attorney who successfully defended the homeowner in
Carrsow-Franklin, supra, was frivolous. That the Bankruptcy Court for the Southern District of
New York ruled in favor of the homeowner shows that there was a good faith basis for bringing
the same evidence to the attention of the United States District Court for the Eastern District of
Wisconsin. The pleading of paragraph 86 violates SCR 20:3.1(a)(1) and is not just lacking in
even the minimum amount of competence and diligence required of officers of the Supreme
Court of Wisconsin, in violation of SCR 20:1.1 and SCR 20:1.3, but demonstrates that OLR is
acting to protect Foshag and his law firm from well-deserved investigation by bringing
proceedings against the Respondent and is substantial evidence of selective and vindictive
prosecution of Respondent by her litigation opponents, using the vehicle of OLR, and OLR is
serving their interests.
178. Foshag’s false pleadings that RFC was the owner and holder of the Notes and
Mortgages of the Rinaldis, Ms. Spencer and the Respondent, Potteiger’s ratification of the false
pleadings in Respondent’s case and his production of false evidence in Respondent’s case, the
production of false evidence in the cases of the Rinaldis and Ms. Spencer, as well as the
77

230a

Respondent’s was calculated to mislead homeowners, the courts and the public.
179. False pleadings, based on false documents, supported by falsely sworn Affidavits
was not unusual in 2009, but was a ubiquitous practice not only by certain of the Wisconsinlicensed lawyers representing mortgage servicers, but also by lawyers representing mortgage
servicers throughout the nation, which led to the National Mortgage Settlement,14 the
Independent Foreclosure Review by the Office of the Comptroller of Currency and the Federal
Reserve Board,15 the LPS-DOCX settlement (Exhibit 25), Ocwen Loan Services, LLC.16 Of
particular note are the Wells Fargo Home Mortgage Attorneys Foreclosure Manual, Version 1,
Revision 3, which directed attorneys representing Wells Fargo Bank, N.A. to request the creation
of documents for evidence in foreclosure actions as was done in the cases of Ms. CarrowFranklin and the Rinaldis (Exhibit 26, pages 17-18, 20-23) and the instructions in the Freddie
Mac Sellers and Servicers Guide Section 66.11, which its instructs mortgage servicing agents to
commence foreclosure actions in their own name, without regard to the requirement that truthful
pleadings be filed. (Exhibit 27)
180. Paragraph 90 is unsupported as a matter of law. Respondent had standing to appeal
from the sanctions award against her and the favorable ruling in Carrsow-Franklin, supra, shows
that the Rule 60(b) motion was brought in good faith. The pleading of paragraph 90 violates
SCR 20:3.1(a)(1) and is not just lacking in even the minimum amount of competence and
diligence required of officers of the Supreme Court of Wisconsin, in violation of SCR 20:1.1 and

14

http://www.nationalmortgagesettlement.com/settlement-documents

15

https://independentforeclosurereview.com/Settled.aspx

16

http://files.consumerfinance.gov/f/201312_cfpb_consent-order_ocwen.pdf

78

231a

SCR 20:1.3.
181. There is no factual basis to support OLR’s allegation in paragraph 91 that the relief
she requested in the Rinaldis’ case before the United States District Court for the Eastern District
of Wisconsin on April 2, 2014 or the appeal were brought for purposes of delay in violation of
SCR 20:3.2. The Rinaldis’ bankruptcy had been dismissed on March 5, 2014, the automatic stay
was terminated on March 5, 2014, no stay was sought pending appeal and the issues raised on
April 2, 2014 were obviously meritorious because Ms. Carrsow-Franklin prevailed on the very
same evidence which Respondent presented to the United States District Court for the Eastern
District of Wisconsin, at a full and fair evidentiary hearing, which the Rinaldis were denied. The
pleading of paragraph 91 violates SCR 20:3.1(a)(1) and is not just lacking in even the minimum
amount of competence and diligence required of officers of the Supreme Court of Wisconsin, in
violation of SCR 20:1.1 and SCR 20:1.3, but demonstrates that OLR is acting to protect Foshag
and his law firm from well-deserved investigation by bringing proceedings against the
Respondent.
182. OLR’s pleadings are fraught with false factual allegations, knowingly or recklessly
made to the extent that it is impossible to ascertain whether there is probable cause for OLR to
charge her for any violation of the Wisconsin Code of Professional Conduct if the knowingly or
recklessly false allegations were set aside. As the United States Supreme Court held in Franks
v. Delaware, supra, at 171-172.
[I]f, when material that is the subject of the alleged falsity or reckless disregard is set to
one side, there remains sufficient content . . . to support a finding of probable cause, no
hearing is required. On the other hand, if the remaining content is insufficient, the
defendant is entitled, under the . . . to his hearing. Whether he will prevail at that hearing
is, of course, another issue.
79

232a

183. There is no process by which the Respondent can be granted relief from false
factual allegations in a complaint under the Wisconsin Rules of Civil Procedure. She would only
be allowed to move to dismiss for failure to state a claim upon which relief may be granted under
Wis. Stats. sec. 802.06(2)(b)6. if the entire Complaint, including the false factual allegations,
failed to state a claim for relief or answer the Complaint and proceed to prove the falsity of the
allegations. With the false allegations, the Complaint appears to state a claim for relief. Without
the false allegations, which would, under the Wisconsin Rules of Civil Procedure, have to be
refuted through an enormous expenditure of time and effort of many witnesses, traveling great
distances at considerable expense, with the only remedy being an award of sanctions under Wis.
Stats. sec. 802.05.
184. Civil actions and proceedings do not require probable cause for their initiation and
there is no preliminary remedy for false charges which falsely appear to state a claim upon relief
may be granted.
185. OLR’s unethical conduct specified above is substantial evidence of the specified
violations of SCR 20:1.1, SCR 20:1.3, SCR 20:3.1(a)(1) and (2), and/or SCR 20:3.3(a) and and
supports a finding that OLR filed Nora #1 and now Nora #2 “when it is obvious that such an
action would serve merely to harass or maliciously injure another,” in violation of SCR
20:3.1(a)(3) on behalf of the false grievants Potteiger and Foshag.
186. The misconduct of OLR is designed to protect lawyers for mortgage servicers at the
expense of an advocate for homeowners and to conceal OLR’s own malfeasance for having
entirely failed and refused to investigate grievances which present sufficient evidence for formal
investigations and charges.
80

233a

187. Potteiger and Foshag have recklessly or intentionally filed false grievances with the
OLR because those false communications are privileged under SCR 21.19, which provides:

Privileges, immunity. Communications with the director, staff of the office of lawyer
regulation, a district committee, a special investigator, retained counsel, the preliminary
review committee, and a special preliminary review panel alleging attorney misconduct or
medical incapacity and testimony given in an investigation or proceeding under SCR
chapter 22 are privileged. No lawsuit predicated on these communications may be
instituted against any grievant or witness. . .
188. OLR has filed knowingly false allegations in its Complaint because it believes that
pursuant to SCR 21.19 grants it immunity from the damages it causes to targets of its reckless or
intentional, frivolous filings under, but filing frivolous documents is not conduct in the course of
OLR’s official duties. SCR 21.19 provides, in relevant part:
. . . The director, staff of the office of lawyer regulation, members of a district committee,
special investigators, retained counsel, members of the preliminary review committee,
members of a special preliminary review panel, referees, members of the board of
administrative oversight, and persons designated by the director to monitor compliance
with diversion agreements or with conditions imposed on the attorney’s practice of law,
shall be immune from suit for any conduct in the course of their official duties.
189. Without conceding that the privilege set forth in SCR 21.19 should be extended to
false allegations made knowingly or with reckless disregard for the truth , Respondent requests a
Franks hearing to exclude the false statements made in the pending Complaint for a
determination if, without the known and recklessly made false statements, probable cause to
proceed on the statements admitted to be true exists.
190. Respondent, as an officer of this Court since June 9, 1975, understands her duty to
fully cooperate with OLR, provided that it is acting in good faith to protect the public. All
Respondent seeks by these Motions to respond to charges brought by OLR based on probable

81

234a

cause to belief that she has violated the Wisconsin Code of Professional Conduct. If OLR had
probable cause to bring the charges in the Complaint, it would not need to make false factual
allegations to support the charges.
191. Respondent should not be required to respond to a Complaint in these quasicriminal procedures in which true and false allegations of fact are intertwined to the extent that
she cannot possibly defend herself against charges brought in large part on false factual
allegations.
192. The Franks remedy would provide that the following false factual allegations be set
aside: 4, 5, 6, 8, 9, 10, 11, 13, 17, 18, 19, 20, 21, 23, 27, 30, 31, 34, 38, 43, 62, 63, 64, 67, 68, 69,
70, 71, 72, 74, 77(d), and 91. The legal conclusions must also be disregarded in determining
whether probable cause may be found upon the remaining allegations.
193. If, after a Franks review of the Referee disregarding the following false factual
allegations and legal conclusions, which is designed exactly for the purpose for which it is being
requested, there is probable cause to believe that the Respondent has violated any Wisconsin
Rule of Professional Conduct, she may be required answer and proceed to refute paragraphs 4, 5,
6, 8, 9, 10, 11, 13, 17, 18, 19, 20, 21, 23, 27, 30, 31, 34, 38, 43, 62, 63, 64, 67, 68, 69, 70, 71, 72,
74, 77(d), and 91 of the Complaint, subject to her Motion to Dismiss for Selective and Vindictive
Prosecution, which is must also be heard on the foregoing sufficient evidentiary showing.
194. If, upon setting aside paragraphs 4, 5, 6, 8, 9, 10, 11, 13, 17, 18, 19, 20, 21, 23, 27,
30, 31, 34, 38, 43, 62, 63, 64, 67, 68, 69, 70, 71, 72, 74, 77(d), and 91 and the legal conclusions
in the Complaint, the Referee finds that there is no probable cause to require the Respondent to
answer the charges set forth in the Complaint, OLR’s Complaint should be dismissed.
82

235a

195. The evidentiary hearing for the Franks remedy and the Motion to Dismiss for
Selective and Vindictive Prosecution involve many of the same factual issues and may be heard
in a single evidentiary hearing.
196. In the alternative, should the Court not be willing to expand the application of the
Franks remedy to lawyer disciplinary proceedings and/or should it conclude that the defense of
selective and vindictive prosecution by OLR is not available to lawyers who are subjected to the
kind of misconduct by OLR sought to be exposed herein, in the law applicable to civil
proceedings in the State of Wisconsin, this Court has long recognized the judicial authority to
dismiss actions and proceedings brought in bad faith, without a basis in fact or law, on knowing
false allegations or allegations made with reckless disregard for the truth. Schultz, et al. v. Sykes,
et al., 2001 WI App 255 at ¶9, 248 Wis.2d 746, 638 N.W.2d 604 (2001) citing Johnson v. Allis
Chalmers Corp., 162 Wis. 2d 261, 273-274, 470 N.W.2d 859 (1991); 273-74; Hudson Diesel,
Inc. v. Kenall, 194 Wis. 2d 531, 543, 535 N.W.2d 65 (Ct. App. 1995). “ Cf. Chevron Chemical
Co. v. Deloitte & Touche, 176 Wis. 2d 935, 946, 501 N.W.2d 15 (1993) (court has authority to
enter default judgment as a sanction). Because dismissal is such a harsh sanction, however, the
supreme court has held that dismissal is proper only when the plaintiff has acted in bad faith or
has engaged in egregious misconduct. Johnson, 162 Wis. 2d at 275.”
197. In Sykes, supra, at ¶ 11, the Wisconsin Court of Appeals held:
¶ 11. The supreme court recently discussed the scope of courts’ inherent powers in City of
Sun Prairie v. Davis, 226 Wis. 2d 738, 595 N.W.2d 635 (1999). In Davis the court stated
that inherent powers are those “which must necessarily be used to enable the judiciary to
accomplish its constitutionally or legislatively mandated functions.” Id. at 747 (internal
quotations omitted). Therefore, they include those powers that courts need to “maintain
their dignity, transact their business, []or accomplish the purposes of their existence.” Id.
at 748 (internal quotations omitted).
83

236a

198. Respondent has considerably more supporting documentary evidence to present to
the Referee, along with witnesses, at the requested evidentiary hearing than that which has been
produced herein, but, for the sake of brevity, balanced against the need for sufficient detail to
meet her preliminary burden, she has chosen the documentary evidence to support the
preliminary factual allegations which she believes provides a sufficient preliminary showing that
the Court should provide the Franks remedy in these quasi-criminal proceedings and further or in
the alternative that she be provided with an evidentiary hearing on her Motion to Dismiss these
proceedings for selective and vindictive prosecution and/or as a sanction for the bad faith
prosecution of these proceedings and the proceedings in Nora #1.
CONCLUSION
Respondent has made a substantial preliminary evidentiary showing that OLR has
pleaded false factual allegations in paragraphs 4, 5, 6, 8, 9, 10, 11, 13, 17, 18, 19, 20, 21, 23, 27,
30, 31, 34, 38, 43, 62, 63, 64, 67, 68, 69, 70, 71, 72, 74, 77(d), and 91, knowingly or with
reckless disregard for the truth. She has made a sufficient preliminary evidentiary showing that
these proceedings, following upon the proceedings in Nora #1, have been brought for the benefit
of Respondent’s litigation opponents who represented mortgage servicers and made material
misrepresentations of fact and law by pleading that the mortgage servicers were the owners and
holders of Notes and Mortgages, intentionally or with reckless disregard for the truth in violation
of SCR 3.3(a) and have never withdrawn their material misrepresentations, even in the face of
their own contradictory evidence.
WHEREFORE, Respondent respectfully requests the Franks remedy adopted by the

84

237a

knowingly made or made with reckless disregard for the truth, Respondent requests an
evidentiary hearing on her Motion to Dismiss for Selective and Vindictive Prosecution based on
her sufficient showing in support thereof.

In the event that the probable cause does not appear

on the basis of the remaining allegations in the Complain~ setting aside paragraphs 4,5,6,8,9,

10, 11, 13, 17, 18, 19,20,21,23,27,30.31,34,38,43.62,

63, 64, 67, 68, 69, 70, 71,72, 74,

77(d), and 91and the legal conclusions contained therein, the Complaint must be dismissed.
Dated at Madison, Wisconsin this 22nd day of December, 2015.
AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME
FORCE AND EFFECT AS THE ORIGINAL

~o/b~

Wendy Alison Nora

ACCESS LEGAL SERVICES
310 Fourth Avenue South, Suite 5010
Minneapolis, Minnesota 55415

VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@gmail.com
Wisconsin Attorney 1D #1017043

85

-

238a

VERIFICATION
Wendy Alison Nora, being first duly sworn on oath, deposes and says that the facts set
forth in the foregoing Motions are we and correct to the best of her knowledge, information and
belief and that Exhibits 1-27 attached hereto are true and correct copies of what they purport to

be.
IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME
FORCE AND EFFECT AS TIIE ORIGINAL

(iyAiiSOl;Nora

~

Subscribed and sworn to before
me this 22ftdday of December, 2015.

Z-K

AN IMAGE OF TIlE SIGNA TIJRE BELOW SHALL HAVB
AND EFFECT AS THE ORl.~1NAL

~ oSfotel;kA

~

Notary Public. My commission is'psn em:"" i .

DECLARATION

OF SERVICE

Wendy Alison Nora declares that she ~Led the original and nine (9) copies of the
foregoing Notice of Motion and Motion to Dismiss and the Appendix of Exhibits and Appendix
Exhibits 1-27 with the Clerk of Appellate Courts, and caused true and correct copies thereof to
be served on Attomey Sheryl St. Ores at the Of,flee of Lawyer Regulation by band-delivety on
December 22,2015.
AN.1MAGE OF THE SIGNA~
BELOW SHALL HAVE TIlE SAME
FORCE AND E~CT
AS THE ORIGINAL

~~

86

239a

APPENDIX F

240a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law

Case Code: 30912

Office of Lawyer Regulation,
Complainant
v.

Case No. 2015AP002442-D

Wendy Alison Nora,
Respondent
'

NOTICE OF MOTION AND MOTION FOR SANCTIONS
PURSUANT TO WIS. STATS. SEC. 802.05

TO: The Clerk of Appellate Courts
and to the attention of
Qualified Referee to be appointed upon recusal of Lisa C. Goldman for actual bias
and complicity in the scheme ofGrievant-Witness Attorney David M. Potteiger and OLR
Assistant Litigation Counsel Sheryl St. Ores to defraud the Respondent and the Supreme
Court of Wisconsin by producing false evidence against the Respondent in these proceedings
cc: Referee Lisa C. Goldman to be disqualified for actual bias,for informational
purposes only
·

PLEASE TAKE NOTICE

that the undersigned will bring her Motion for Sanctions

Pursuant to Wis. Stats. sec. 802.05(3)(a) against Attorney Sheryl St. Ores,Director Keith Sellen
and the Office of Lawyer Regulation (collectively,OLR) on for hearing before the Wisconsin
Supreme Court at a time and place to be set by the Court.
NOW COMES

the Respondent,Wendy Alison Nora,and respectfully moves the Court

to award sanctions against Attorney Sheryl St. Ores,Director Keith Sellen (Director Sellen) and
the Office of Lawyer Regulation (collectively,OLR) pursuant to Wis. Stats. sec. 802.05(3)(a) for
the filing and service of the Complaint dated November 30,2015,without a legal or factual basis
1

241a

and for the improper purposes of concealing the failure of OLR to investigate the misconduct of
attorneys representing mortgage servicers,who have filed false pleadings,based on false
documents,supported by falsely sworn Affidavits in hundreds of foreclosure cases filed in the
State of Wisconsin since at least 2003. In support of this Motion, Respondent shows the Court:
1. This is the second Complaint filed over the signature of Attorney Sheryl St. Ores (St.
Ores),as Assistant Litigation Counsel for the Office of Lawyer Regulation,under the supervision
and direction of Attorney Keith Sellen, Director of the Office of Lawyer Regulation (Director
Sellen),based on an investigation conducted by Attorney Travis Stieren (Stieren),using the
resources of the staff of the Office of Lawyer Regulation.
2. Be�ause it is her duty to comply with investigative inquiries from the Office of Lawyer
Regulation pursuant to SCR 21:15(4),Respondent has spent a substantial amount of time and
expense providing detailed documentation and explanation of the legal positions she has taken on
behalf of homeowners in the State of Wisconsin since early, 2011.
3. A grievance was filed by one of Respondent's litigation opponents,Attorney David M.
Potteiger (Potteiger),dated December 8,2010 and filed on December 10,2010.
4. The Potteiger grievance which initiated the investigation into the legal positions of the
Respondent has been thoroughly examined and detailed in Respondent's December 22,2012
Verified Motion for Franks Hearing on Probable Cause and Alternative Motion to Dismiss the
Complaint for Selective and Vindictive Prosecution (the Verified Motion), filed in these
proceedings,at paragraphs 4-15. The December 22,2012 Verified Motion to Dismiss,along
with the judicially noticeable publicly recorded documents in support thereof,are incorporated by
reference as if fully set forth herein.
2

242a

5. An investigation conducted by the District 9 Investigator,Attorney Robert Kasieta
(Kasieta) in early,2012,which consisted of meeting with Potteiger at the offices of Potteiger's
employer,BASS & MOGLOWSKY,S.C. (BASS),where Potteiger and Attorney Steven W.
Moglowsky provided information to Kasieta,from their files in the litigation matters involving
Respondent's former Homestead in Dane County, Wisconsin. In the litigation files,unsealed and
unprotected,were confidential medical records concerning the Respondent's medical condition
related to complications of an underlying medical condition resulting from an automobile
accident which occurred on April 14,2009.
6. Kasieta cancelled the interview with Respondent set to be held in February,2012 and
informed her that the investigators had all the information they needed,despite Respondent
urging Kasieta that she was ready, willing and able to address the medical condition which
Potteiger had used as the foundation of his grievance.
7. Were it not for the failure of the Dane County Circuit Court and the United States
District Court for the Western District of Wisconsin to provide constitutionally-mandated
protections to persons eligible for accommodations under the Americans with Disabilities Act as
Amended (ADAAA) effective January 1,2009,Potteiger would not have come into possession
of Respondent's medical records and re-disclose them in an effort to injure the Respondent.
8. The first disciplinary Complaint was filed as Office ofLawyer Regulation v. Nora on
March 20,2013 as Case No. 2013AP000653-D (Nora#1).
9. Nora#1 pleaded three (3) Counts,all of which are based on the Potteiger grievance
but none of which have any basis in fact or law,as fully set forth in the December 22,2015
Verified Motion, incorporated by reference as if fully set forth herein.
3

243a

8. The Complaint in this matterwas filed as Office ofLawyer Regulation v. Nora on
March 20,2013 as Case No. 2013AP000653-D (Nora#1).
9. Nora#l pleaded three (3) Counts,all of which are based on the Potteiger grievance
but none of which have any basis in fact or law,as fully set forth in the December 22,2015
Verified Motion, paragraphs 11-16,incorporated by reference as if fully set forth herein.
10. On December 23,2013,OLR filed an Amended Complaint,to which it added Count
Four,based on the grievance of Potteiger's co-counsel and co-conspirator in the scheme to
defraud the Respondent and the Dane County Circuit Court in Case No. 2009CV001096,
N. William Foshag (Foshag) of GRAY & ASSOCIATES,using false pleadings,based on forged
documents,supported by falsely sworn affidavits. (See Verified Motion paragraphs 77-70,8892,95,98,99-101,104 and Appendix Exhibits 3,4,14,15,16,17,18,19,and 26.)
10. Respondent followed the Wisconsin Rules of Civil Procedure in Nora#1,but OLR
and the Referee did not. (See Motion to Disqualify Referee Lisa C. Goldman,filed on January 4,
2016 and with the Verified December 22,2015 Motion at paragraphs 16,42,43,44,46,47,50,
51,66,67,and 69,along with the documentary support thereof, incorporated by reference as if
fully set forth herein.)
11. After Referee Goldman disregarded the evidence of Potteiger's falsely sworn
Affidavit and the fabricated documentary evidence he presented therewith by changing the nature
of the charge in Count Two of Nora#1 to make it appear that false swearing to the validity of
false evidence,created for purposes of these disciplinary proceedings was not pertinent to
Respondent's June 9, 2015 Motion for Relief from the Referee's Decision and Order of May 20,
2015,it was becoming clear that the Wisconsin Rules of Civil Procedure provided inadequate
4

244a

required to be presented therewith.
16. The Referee,for a second time, 1 refused to consider or rule on�Respondent's
Opposition to OLR's improper practices (the first being Motion to Strike materials filed outside
the four corners of the Complaint filed by the Respondent on May 8,2014), this time refusing to
acknowledge the filing of the Motion to Strike and pretending that the alternative argument on
the substantive merits was all that was before her for consideration,2 when OLR was the moving
party and was required, pursuant to Wis. Stats. sec. 802.01(2) to set forth the specific grounds for
the Motion.
17. Moreover, OLR has made repeated requests for explanation of the legal positions
taken by the Respondent in homeowner defense litigation which OLR has either disregarded or
has been unable to comprehend. Whether by lack of ability to understand the complex legal
issues pertaining to homeowner defense litigation, which is unlikely because Respondent has
provided OLR with extensive information in connection with multiple "inquiries" from OLR,
through its investigator, Attorney Travis Stieren (Stieren),and she has provided OLR with vast
resources of statutory and case law authority in support of her legal positions. Stieren and St.
Ores are either lacking the minimal competence required to comprehend Respondent's legal
positions (in violation of SCR 20:1.1) or is disregarding the legal authority provided (in violation
of SCR 20:1.3) and, if so, OLR is deliberating disregarding the legal authority upon which

1

The first Motion to Strike, which was never considered or decided, was filed on May 8, 2014.

See Amended Verified Motion to Disqualify Referee Lisa C. Goldman, attached hereto as Exhibit 2,
pages 18-19.

2

See Respondent's Opposition to OLR's Notice of Filing of Second Amended Complaint filed

on October 15, 2015 and the Decision and Order of Referee Lisa C. Goldman dated November 16,2015.

5

245a

Respondent relies in homeowner defense cases in violation of SCR 3.1(a)(2).
18. On November 30,2015,the offending Complaint was filed commencing this case.
19. On December 2,2015,Respondent was served with the offending Complaint.
20. On December 3,2015,Respondent served her Motion for Sanctions pursuant to Wis.
Stats. sec. 802.05(3)(a) on OLR via facsimile,a true and correct copy thereof is attached hereto3
as Exhibit 1.
21. OLR has not corrected the 32 false allegations of fact set forth in Complaint in these
proceedings, which were pleaded in reckless or deliberate disregard of the Wisconsin Rules of
Professional Conduct after St. Ores and Director Sellen were provided with safe harbor notice in
this matter in the attached Motion for Sanctions,pursuant to Wis. Stats. sec. 802.05(3)(a)
(Exhibit 1).
22. On December 22,2015,Respondent served her Verified Motion on OLR by handdelivery,having simultaneously caused the delivery of nine (9) identical copies thereof to the
Court.
23. The December 22,2015 Verified Motion in these proceedings recites facts of which
OLR has long been aware or should have been long aware and which OLR recklessly disregarded
in filing the substantially false November 30,2015 Complaint, amounting to more than one third
(1/3) of the paragraphs pleaded therein,specifically paragraphs: 4, 5,6,8,9, 10,11,13,17, 18,

3 There is a typographical error in paragraph 25 at 3., which should have read:
3. PNC Bank, NA., successor by merger to National City Bank, successor by merger to National City

Bank ofIndiana, a division of which was FNMC.
Paragraph 25 at 2. correctly read:

2. PNC Bank, NA., successor by merger to FNMC, a division ofNational City Bank ofIndiana n/k/a
National City Bank and was accidentally repeated at 25. at 3.

6

246a

19,20,21,23,27,30,31,34,38,43,62,63,64,67,68,69,70,71,72,74,77(d),and 91.
24. Twenty-one (21) days have expired since the service of the December 3,2015
Motion for Sanctions Pursuant to Wis. Stats. sec. 802.05(3)(a),but OLR has not withdrawn the
offending Complaint (Exhibit 3).
25. The safe harbor period provided to OLR on December 3,2015 has now expired and
Respondent is entitled to be heard on her Motion for Sanctions Pursuant to Wis. Stats. sec.
802.05(3)(a) in the course of these proceedings.
26. Respondent will prove,in proceedings before an unbiased Referee to be appointed by
this Court,that OLR is not acting as the independently as the investigative and prosecutorial
office of the Wisconsin Supreme Court designed to protect the public,but is almost exclusively
relying on a false narrative constructed by the Respondent's litigation opponents,Potteiger,and
co-counsel with BASS,Attorney N. William Foshag (Foshag) of Gray & Associates,LLP
(GRAY),who have a personal interest in suppressing the an investigation into their own
misconduct for ethics violations which have been exposed in the Respondent's December 22,
2015 Verified Motion.
27. At the conclusion of these proceedings, Respondent requests that she be awarded the
hourly rate for services she provides clients with the ability to pay, which is $250.00 per hour,
which includes her costs,against OLR,along with her reasonable expenses incurred in defense of
the known or recklessly false Complaint filed in these proceedings.
28. As has been shown and will be further shown in these proceedings,sanctions are
necessary because the conduct of Attorney St. Ores,on behalf of Director Sellen and the Office
of Lawyer Regulation (OLR) violates the minimum standards of pleading and practice required

7

247a

by the Wisconsin Rules of Civil Procedure at Wis. Stats. sec. 802.05(2)(a), (b) and ( c) and the
Wisconsin Code of Professional Conduct at SCR 20:1.1, SCR 1.3, SCR 20:3. l (a)( l ), (2) and (3)
and SCR 20:3.3(a)(1) as specifically set forth in the Verified Motion.
WHEREFORE,

the Respondent moves the Court for sanctions against OLR in the

amount of her reasonable hourly rate for her services for the time she has spent responding to
OLR's Complaint filed in violation of Wis. Stats. sec. 802.05(2)(a), (b) and ( c), as specifically
alleged in the attached Motion (Exhibit) and for prosecuting this Motion for Sanctions, as well as
her reasonable expenses incurred for her defense of the 32 false factual allegations and the
misrepresentations of law contained therein. She request such further and additional sanctions as
the Court may deem necessary to deter similar conduct by OLR in the future, by which OLR will
be required to comply with the Wisconsin Rules of Civil Procedure, Code of Professional
Conduct, and to provide its targets with procedural due process guaranteed by the Fourteenth
Amendment to the Constitution of the United States.
Dated at Minneapolis, Minnesota this 5th day of January, 2016.

�

ACCESS LEGAL SERVICES
310 Fourth Avenue South, Suite 5010
Minneapolis, Minnesota 55415
VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@gmail.com
Wisconsin Attorney ID#1017043

8

248a

DECLARATION OF SERVICE

Wendy Alison Nora declares that she caused true and correct copies of the foregoing
Notice of Motion and Motion for Sanctions and true and correct copies of Exhibit 1 upon OLR
Assistant Litigation Counsel Sheryl St. Ores by hand-delivery on January 5,2016.

�

9

249a

EXHIBIT 1

250a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law

Case Code: 30912

Office of Lawyer Regulation,
Complainant
v.

Case No. 2015AP002442-D

Wendy Alison Nora,
Respondent

NOTICE OF MOTION AND MOTION FOR SANCTIONS
PURSUANT TO WIS. STATS. SEC. 802.05

PLEASE TAKE NOTICE

that the undersigned will bring her Motion for Sanctions

Pursuant to Wis. Stats. sec. 802.05(3)(a) against Attorney Sheryl St. Ores, Director Keith Sellen
and the Office of Lawyer Regulation (collectively, OLR) on for hearing before the Wisconsin
Supreme Court at a time and place to be set by the Court, unless, within 21 days after the service
of this Motion, you withdraw the Complaint filed on November 30, 2015 in violation of Wis.
Stats. sees. 802.05(2)(b) and (c) for the improper purposes prohibited by Wis. Stats. sec.
802.05(2)(a).
NOW COMES

the Respondent, Wendy Alison Nora, and respectfully moves the Court

to award sanctions against Attorney Sheryl St. Ores, Director Keith Sellen and the Office of
Lawyer Regulation (collectively, OLR) pursuant to Wis. Stats. sec. 802.05(3)(a) for the filing and
service of the Complaint dated November 30, 2015, without a legal or factual basis and for the
improper purposes of concealing the failure of OLR to investigate the misconduct of attorneys

1

251a

representing mortgage servicers, who have filed false pleadings, based on false documents,
supported by falsely sworn Affidavits in hundreds of foreclosure cases filed in the State of
Wisconsin since at least 2003.
1. Sanctions are necessary because the conduct of Attorney St. Ores, on behalf of
Director Sellen and the Office of Lawyer Regulation (OLR) violates the minimum standards of
pleading and practice required by the Wisconsin Rules of Civil Procedure and the Wisconsin
Code of Professional Conduct at SCR 20:3.1 and SCR 20:3.3(a).
2. Paragraph 4 of the Complaint is a legal impossibility and is pleaded without a basis in
fact or law.
3. Paragraph 5 of the Complaint is false and has been pleaded without a factual basis.
4. Paragraph 6 of the Complaint is false as to the date of filing of the foreclosure
Complaint, the name of the case and the case number. Paragraph 6 is pleaded without a basis in
fact.
5. Paragraph 8 of the Complaint is false and has been pleaded without a factual basis.
6. Paragraph 9 of the Complaint falsely implies that it is unethical to require an entity
seeking to foreclose on Wisconsin real estate establish that it has the legal right to do so.
7. Paragraph 10 of the Complaint is a misstatement. The Court allowed PNC Bank, NA.,
successor by merger to National City Bank, successor by merger to National City Bank of
Indiana, a division ofwhich was FNMC to appear as the plaintiff in the action on December 21,
2012.
11. Paragraph 11 of the Complaint is a misstatement and falsely implies that it is
unethical to raise issue of civil fraud and racketeering in defense of the property rights of a

2

252a

Wisconsin citizen.
13. Paragraph 13 of the Complaint is a mischaracterization of the proceedings on May
23, 2012. On May 23, 2012, the Court indicated that there were numerous issues which needed
to be addressed and allowed Respondent to make a list of the issues. There is a complete
Transcript of the proceedings on May 23, 2012 presently located one floor below the Office of
Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has apparently
failed to locate or review.
14. Paragraph 17 of the Complaint is false as a matter of law. The scheduling order is
not a final order. As a matter of fact, Respondent eventually obtained a copy of the scheduling
order directly from the Court by having her client retrieve it from the Office of the Clerk of the
Wood County Circuit Court. It is true that Gray & Associates, LLP did not send a signed copy of
Order dated June 12, 2012 to the Respondent. The entire record of the proceedings in Wood
County Circuit Court Case No. 09-CV-283 is presently located one floor below the Office of
Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has apparently
failed to locate or review.
15. Paragraph 18 of the Complaint is false. Respondent did not take the position that
Judge Potter was required to send a copy of the June 12, 2012 Order to the Respondent. She
took the position that an employee of the Wood County Clerk of Circuit Court refused to provide
her with a copy of the June 12, 2012 Order upon her verbal, telephonic request. Paragraph 18
falsely implies that Respondent is ethically precluded from raising the issue that Gray &
Associates, LLP did not send a copy of the signed Order of June 12, 2012 to the Respondent,
when it is the expectation of the Court that the party obtaining an Order will serve a copy of the

3

253a

Order on opposing counsel. The entire record of the proceedings in Wood County Circuit Court
Case No. 09-CV-283 is presently located one floor below the Office of Lawyer Regulation in the
Tenney Building in Madison, Wisconsin, which OLR has apparently failed to locate or review.
16. Paragraph 19 of the Complaint is false. The issue of ex parte communications
occurring before Respondent represented Ms. Spencer and while Ms. Spencer was appearing pro
se involved Gray & Associates, LLP scheduling a summ ary judgment hearing on March 31, 2010
with a hearing date of March 31, 2010; creating two (2) different letters dated February 17, 2011
and serving one on Ms. Spencer and filing a different version with the Court, preventing Ms.
Spencer from being informed of an "Affidavit issue" which required the Plaintiff to cancel the
Sheriffs Sale (to wit, the Affidavit of Mendy Mundey dated November 25, 2009 in which Ms.
Mundey falsely swore, on personal knowledge, that PNC Bank, N.A., successor by merger to
FNMC, a division ofNational City Bank ofIndiana n/k/a National City Bank was the

"current owner and holder of the Note and Mortgage"); there is no "letter" dated June 20, 2011,
but there is an Order Vacating Summ ary Judgment dated on June 20, 2011 (a Sunday), which
was entered without notice and hearing being provided to Ms. Spencer. The entire record of the
proceedings in Wood County Circuit Court Case No. 09-CV-283 is presently located one floor
below the Office of Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which
OLR has apparently failed to locate or review.
17. Paragraph 20 of the Complaint is false. The March 31, 2010 filing was not a letter,
but was a Motion for Summ ary Judgment which was dated March 31, 2010 and scheduled the
hearing for the same day. Ms. Spencer never claimed that she did not receive the March 31,
2010 Motion for Summary Judgment which was mailed to her on March 31, 2010. Ms.
4

254a

Spencer's position was that, by the time she received the Motion for Summary Judgment dated
March 31, 2010 and setting hearing on the Motion for March 31, 2010, the date set for the
hearing had already passed. She was not informed of a new date by which she would be allowed
to respond to the Motion for Summ ary Judgment. The Order granting Summary Judgment was
entered on April 19, 2010, less than the 20 days after the date of mailing of the Motion for
Summ ary Judgment. The April 19, 2010 Order granting Summ ary Judgment was entered
without notice and opportunity for Ms. Spencer to be heard. The entire record of the proceedings
in Wood County Circuit Court Case No. 09-CV-283 is presently located one floor below the
Office of Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has
apparently failed to locate or review.
.

.

18. Paragraph 21 of the Complaint is false. See paragraph 16, above. There were two
(2) letters dated February 17, 2011 of which one version was sent to the Court and one version
was sent to Ms. Spencer. There is no "letter" of June 20, 2011. There is an Order dated June 20,
2011 (a Sunday) which was never sent to Ms. Spencer. The entire record of the proceedings in
Wood County Circuit Court Case No. 09-CV-283 is presently located one floor below the Office
of Lawyer Regulation in the Tenney Building in Madison, Wisconsin, which OLR has apparently
failed to locate or review.
19. Paragraph 23 of the Complaint is false insofar as it collapses the time frame between
the date of receipt of the Transcript of the May 23, 2012 proceedings and the date of discovery
that page 3 of the Transcript was missing. As soon as possible after it was was discovered by Ms.
Spencer's direct inspection of the Court record that the copy of the Transcript sent to Respondent
was sent without page 3 being included, Respondent corrected the record to state that there had

5

255a

apparently been a collating error on November 2, 2012. The incomplete Transcript was received
by Respondent on July 16, 2012 and Ms. Spencer discovered the missing page 3 in the Court
record by direct inspection and sent the missing page 3 to Respondent on October 30, 2012. The
entire record of the proceedings in Wood County Circuit Court Case No. 09-CV-283 is presently
located one floor below the Office of Lawyer Regulation in the Tenney Building in Madison,
Wisconsin, which OLR has apparently failed to locate or review.
20. Paragraph 26 of the Complaint is false insofar as it suggests that an incomplete copy
of a Transcript does not prejudice the party relying on the Transcript. Such a suggestion is not
based on existing law or a good faith argument for modification or extension of existing law.
21. Paragraph 27 of the Complaint is false. Respondent never claimed that Judge Potter
and the court clerk intentionally manipulated the court record. Respondent's exact words related
to the flawed Transcript of the proceedings on May 23, 2012 are
17. It is unthinkable but unavoidable to consider that Judge Potter and/or the court
reporter edited the Transcript of the hearing on May 23, 2012 to make it appear that Judge
Potter was less biased than he is . . .
Respondent did not state claim that Judge Potter and the court clerk intentionally manipulated the
court record. Rather, she stated that it was unthinkable but unavoidable to consider the
possibility that Judge Potter and/or the court reporter edited the Transcript of the hearing. The
missing page 3 was later discovered in the court record, Respondent received page 3 on October
30, 2012 from Ms. Spencer who discovered the page in the court record and the Respondent
filed a Notice of Correction dated November 2, 2012 promptly thereafter as required by SCR
20:3.3(a). The true facts, known to OLR by reason of its pleading of paragraph 28, show that
Respondent engaged in ethical conduct by complying with SCR 20:3.3(a).

6

256a

22. Paragraph 29 falsely suggests that an attorney cannot ethically move for the
disqualification of a judge. Paragraph 29 is not based on existing law or a good faith argument
for the modification or extension of existing law.
23. Paragraph 30 is false insofar as it states that Respondent accused the judge, opposing
counsel and court personnel of manipulating the record in her Motion to Disqualify Judge Potter
dated July 23, 2012. That Motion speaks for itself and the allegations are supported by multiple
facts in the record.
24. Paragraph 31 is false insofar as it suggests that a written order was entered denying
the Motion for Disqualification of Judge Potter. The Transcript of the proceedings on August 8,
2012 speaks for itself. The entire record of the proceedings in Wood County Circuit Court Case
No. 09-CV-283 has been located one floor below the Office of Lawyer Regulation in the Tenney
Building in Madison, Wisconsin since January 2, 2015. OLR has apparently failed to review the
Transcript of the August 8, 2012 hearing on the Motion to Disqualify Judge Potter.
25. Paragraph 32 is baseless as a matter of law. No "motion" to remove the Spencer
case to federal court was ever filed because that is not the procedure for removal. The procedure
for removal is set forth at 28 U.S.C. sec. 1446 and involves the filing of a Notice of Removal.
26. Paragraph 34 is unsupported by facts or law. In order to support removal and defend
against remand, it is necessary to provide the federal court with the factual basis for the removal.
Demonstrating the Plaintiff identified in the proceedings in state court is a sham party is
fundamental to support the concealment of the existence of federal jurisdiction. Each of the
following, successively-named Plaintiffs in the Spencer case are sham Plaintiffs:
1. FNMC, a division of National City Bank ofIndiana nka National City Bank

7

257a

2. PNC Bank, NA., successor by merger to FNMC, a division of National City Bank of

Indiana nlk/a National City Bank

3. PNC Bank, NA., successor by merger to FNMC, a division of National City Bank of
Indiana n/kla National City Bank

The use of the term "sham" as applied to parties is standard in removal actions. See
De-Frauding the System: Sham Plaintiffs and the Fraudulent Joinder Doctrine, Matthew C.
Monahan, Michigan Law Review, Vol. 110:1341. It is routine cases removed after 30 days from
the commencement of the state court action to provide evidence that the grounds for removal
were discovered after 30 days following the commencement of the state court action that the
grounds for federal jurisdiction were concealed. The term "sham" is routinely to describe
plaintiffs efforts to defraud the system by preventing the exercise of federal jurisdiction, as
explained in De-Frauding the System: Sham Plaintiffs and the Fraudulent Joinder Doctrine.
There is nothing unethical about using standard language in an argument for the existence of
federal jurisdiction.
27. Paragraph 35 is unsupported by existing law. The federal district court remanded the
Spencer case to the Wood County Circuit Court. The federal district court had to have
jurisdiction over the case before it could remand the case. The federal district court did not hold
that "federal jurisdiction did not attach to the Spencer case." The federal district court had
jurisdiction over the Spencer case until it was remanded to the Wood County Circuit Court and it
retained jurisdiction to award attorneys' fees for what is known as "improvident removal." It
held that it no longer hadjurisdiction once it entered the remand order. Paragraph 35 is not
based on existing law or a good faith argument for modification or extension of existing law.
28. Paragraph 38 is false as a matter of fact. The Second Motion for Reconsideration of
8

258a

the Award of Attorneys' Fees was not "summ arily denied. "
29. Paragraph 42 is unsupported by existing law. Part of the body of defamation law is
an action for invasion of privacy. Publication of confidential medical records, filed under seal, is
invasion of privacy, which is a species of defamation. The medical records were in writing and
their publication was, therefore, libelous. Respondent is not required to show that her
confidential medical information is untrue in order to support an allegation that the publication of
those records was libelous as an invasion of privacy.
30. Paragraph 43 is not supported by any facts. The purpose of the allegation of libel
was to establish Respondent's standing to appeal from Judge Crabb's decision in her own name.
Her alternative would have been to file a Petition for Writ of Mandamus. Respondent was
seeking to modify or extend the law of the Seventh Circuit to allow an attorney to directly appeal
from judicial criticism, which is allowed in other circuits.
31. Paragraphs 44-60 contain mere recitations and do not provide any specific facts to
support the conclusion that Respondent knowingly violated any subsection of SCR 20:3.1(a).
32. Paragraph 61 is unsupported by facts or law because it is not based on any facts that
Respondent knowingly violated SCR 20:3.1(a).
33. Paragraph 62 is unsupported by facts that Respondent violated SCR 20:3.2. The
allegation that Respondent engaged in an ongoing patter of conduct to "harass other parties and
judicial officers," except paragraphs identified above as being false. There is no evidence that
Respondent was seeking to delay the Spencer case. There is only a suspicion by a panel of
Seventh Circuit Court of Appeals which wrote that they "suspect that the removal was part of a
strategy to gum up the progress of the case." Suspicions are not evidence and do not even rise to

9

259a

the level of probable cause.
33. Paragraph 63 is unsupported by facts that the Respondent violated her oath. To the
contrary, there is substantial evidence consisting of hundreds of pages of documents which
Respondent presented to OLR which shows that Respondent is upholding her oath which
provides:
I will never reject, from any consideration personal to myself, the cause of the defenseless
or oppressed, or delay any person' s cause for lucre or malice.
There is no evidence that Respondent is seeking personal gain nor is there any evidence that she
is acting maliciously toward any person. She is, however, undertaking the cause of the
defenseless and oppressed.
34. Specifically, having been informed that the Respondent did not represent Roger and
Desa Rinaldi in the Kenosha County Circuit Court foreclosure case (Case No. 09-CV-353), OLR
falsely accuses Respondent of representing the Rinaldis in that action in paragraphs 67 and 68 of
the Complaint. OLR falsely accuses the Respondent of not appealing summ ary judgment in
Kenosha County Circuit Court Case No. 09-CV-353 when she did not represent the Rinaldis in
that action. Simple recourse to the Wisconsin Circuit Court Access Program would conclusively
demonstrate that Respondent never represented the Rinaldis in that case. There is no factual
basis for paragraphs 67 and 68 of the Complaint.
35. Paragraph 69 is false insofar as it suggests that Respondent was in any way involved
in the loan modification agreement between HSBC Bank USA, N.A. (HSBC) and the Rinaldis.
Paragraph 69 relates to the proceedings in Kenosha County Circuit Court Case No. 09-CV-353
and Respondent never represented the Rinaldis in that action. Again, recourse to the Wisconsin

10

260a

Circuit Court Access Program would conclusively demonstrate that Respondent never
represented the Rinaldis in that case. There is no factual basis for paragraph 69 of the
Complaint.
36. Paragraph 70 is false as a matter of fact. Again, recourse to the Wisconsin Circuit
Court Access Program would conclusively demonstrate that Respondent did not file a new state
lawsuit, "reasserting the Rinaldis' counterclaims against the same parties." The case to which
OLR is attempting to refer is Kenosha County Circuit Court Case No. 11-CV-1477. The
Rinaldis commenced that action pro se on June 10, 2011. Respondent and co-counsel, Kim
Andrew Lewis, appeared in the action in August, 2011 and moved to dismiss the case without
prejudice for improper service. Simple recourse to the Wisconsin Circuit Court Access Program
would demonstrate that Respondent did not file the action. When she appeared with co-counsel,
they only sought to dismiss the action without prejudice for improper service of process. There is
no factual basis for paragraph 70 of the Complaint.
37. Paragraph 71 is pleaded without a factual basis and contains a false inference.
Respondent was not representing the Rinaldis when the defendants moved to dismiss the
Complaint in Case No. 11-CV-1477. Simple recourse to the Wisconsin Circuit Court Access
Program would demonstrate that Respondent and her co-counsel agreed with the defendants that
service of process was improper because the pro se Plaintiffs had not served authenticated copies
of the Summ ons and Complaint. A dispute arose solely because the defendants responded to the
Rinaldis' newly appearing counsels' agreement that service of process was improper and sought
to dismiss the action without prejudice and the defendants responded by seeking dismissal with
prejudice. There is no factual basis for pleading paragraph 71 of the Complaint as evidence of

11

261a

an ethics violation by the Respondent because she and her co-counsel properly sought to dismiss
the action for improper service of process.
39. Paragraph 72 is false and OLR should have known that paragraph 72 is false.
Respondent did not file the Rinaldis' bankruptcy in the Eastern District of Wisconsin as Case No.
11-35689. Simple recourse to pacer.gov would have shown OLR that the Rinaldis' bankruptcy
case was filed by Attorney Jay Nixon of Racine, Wisconsin on October 14, 2011. Paragraph 72
is pleaded without a factual basis.
40. Paragraph 74 is, again, false, insofar as it alleges that Respondent "filed adversary
claims against the parties she had counter-claimed against in the state action." OLR should have
known that Respondent did not file counterclaims in Kenosha County Circuit Court Case No. 09CV-353 because she did not represent the Rinaldis in that action. In fact, she did not even meet
Roger Rinaldi until August, 2011 when she met him at the offices of Lewis & Levinson in
Richmond, Illinois. At that time, he was seeking representation in Kenosha County Circuit Court
Case No. 11-CV-1477 and neither she nor Attorney Kim Andrew Lewis were prepared to
undertake representation in Case No. 11-CV-1477 beyond stipulating to the dismissal of the
action for improper service of process, which their research showed was the correct course of
action. Mr. Rinaldi agreed to have Respondent and Attorney Lewis represent the Rinaldis in
stipulating to the dismissal of the action for improper service of process.
41. Paragraphs 75 and 76 are true, but do not contain any allegations which would
constitute an ethics violation.
42. Paragraph 77(a) paraphrases the federal district court's decision, but ignores the
context of the decision, which is that the Rinaldis were had moved to consolidate two orders
12

262a

from the main bankruptcy court as well as the report and recommendations in the adversary case
which were the result of a single decision, which was indeed confusing.
43. Paragraph 77(b) paraphrases the federal district court's decision, does not address the
issues Respondent raised on appeal and by objection to the report and recommendation.
44. Paragraph 77( c) is not true. The adversary claims were not dismissed because "their
submission of those claims was 'an unfocused, stream-of-consciousness-style recitation of
grievances debtors havce asserted in various forms since the origination of the litigation in state
court."' Rather, Respondent's objection to the Report and Recommendations was found to have
not been sufficiently specific. What the Respondent was trying to articulate was that the Rinaldis
objected to the entirety of Report and Recommendation to dismiss the adversary case.
Respondent was trying to call the court's attention to the fact that the Rinaldis did indeed have
standing to challenge the fact that there had been no endorsement on the Note filed in the state
court foreclosure (in which the Rinaldis appeared and proceeded pro se) and there had been no
assignment of the Rinaldis' mortgage to HSBC until after summ ary judgment was granted to
HSBC. The endorsement on the Note suddenly appeared after the Rinaldis' bankruptcy case was
filed and two (2) different assignments of the Rinaldis' mortgage, in addition to the assignment
of mortgage which was created and filed post-summary judgment, were filed in the bankruptcy
case, one of which was created and filed after the bankruptcy filing, in violation of provisions of
11 U.S.C. sec. 544, in an attempt to perfect the lien after the commencement of the bankruptcy
case. Each of the three (3) assignments of mortgage purportedly assigned the mortgage from
Wells Fargo

Bank, N.A. to HSBC Bank USA, N.A. in different identity. The bankruptcy court

judge found that "defects in the transfer of the Note to the Wells Fargo Asset Securities
13

263a

Corporation Home Equity Asset-backed Certificates Series 2005-2 Trust (or any similarly named
entity) (the "Trust") do not render the Mortgage unenforceable, the Note invalid or the proof of
claim fraudulent." The opposite is true: defects in the transfer of the Note render the Note
unenforceable by the party to whom the transfer was "defective." See Dow Family, LLC v. PHH
Mortgage Corporation, et al., 2013 WI App 114, 838 N.W.2d 119, 350 Wis.2d 411 (Wis. App.,
2013), decided on August 6, 2013, but was an appeal to the Wisconsin Supreme Court and was
affirmed on July 10, 2014. Therefore, the law of the State of Wisconsin was not established until
after the Rinadlis' initial brief on appeal was due to be filed on July 13, 2013. The Wisconsin
Supreme Court's July 10, 2014 decision in Dow Family, LLC v. PHH Mortgage Corporation, et
al., 2014 WI 56, 354 Wis.2d 796, 848 N.W.2d 728 (Wis., 2014) was provided to the Seventh
Circuit Court of Appeals as supplemental authority on September 7, 2014.
45. 77(d) is without a factual basis. As stated, infra, Respondent did not represent the
Rinaldis in state court. OLR never asked the Respondent what her litigation strategy in the
Rinaldis' bankruptcy case was. The strategy was to allow the unsecured creditors, including the
unsecured mortgage claimant, whomever that might be, to receive the proceeds of the Rinaldis'
home and the adversary proceeding damages, in excess of the Rinaldis' exemptions, as clearly set
forth in their Chapter 13 Plan.
46. Paragraph 78 is without a legal basis. It is not an ethics violation to file for relief
under Fed. R. Civ. P. 59(e) and Fed. R. Civ. P. 59(e) allows for issues which have been adversely
decided to be "repeated" in order to present manifest errors of fact or law, which is how Fed. R.
Civ. P. 59(e) was used in the Rinaldis' case. A motion under Fed. R. Civ. P. 59(e) must be filed
within 14 days of the date of entry of the judgment to be reconsidered in order stay the time for
14

264a

appeal.
47. Paragraphs 79-85 are mere recitations of procedural events and do not support
charges of ethics violations.
48. Paragraph 86 does not establish that Respondent knowingly brought the Rule 60(b)
motion in violation of SCR 20:3.1(a). OLR ignores the discovery of new evidence in a case
being tried in the United States Bankruptcy Court for the Southern District of New York in
which the homeowner was successful. Respondent provided the decision in In re Carssow­
Franklin, SBNY Case No. 10-20010 (RDD) dated January 29, 2015, which OLR has ignored.
49. The mere fact that the Seventh Circuit Court of Appeals did not reverse a
discretionary act by the judge of the United States District Court for the Eastern District of
Wisconsin (paragraph 89) does not support a violation of SCR 20:3.1(a), which requires clear
and convincing evidence that Respondent knew that the motion based on newly discovered
evidence which she obtained from the attorney who successfully defended the homeowner in
Carrsow-Franklin, supra, was frivolous. That the Bankruptcy Court for the Southern District of
New York ruled in favor of the homeowner shows that there was a good faith basis for bringing
the same evidence to the attention of the United States District Court for United States District
Court for the Eastern District of Wisconsin.
50. Paragraph 90 is unsupported as a matter of law. Respondent had standing to appeal
from the sanctions award against her and the favorable ruling in Carrsow-Franklin, supra, shows
that the Rule 60(b) motion was brought in good faith.
51. There is no factual basis to support OLR' s allegation in paragraph 91 that the relief
she requested in the Rinaldis' case before the United States District Court for the Eastern District
15

265a

of Wisconsin on April 2, 2014 or the appeal were brought for purposes of delay in violation of
SCR 20:3.2. The Rinaldis' bankruptcy had been dismissed on March 5, 2014, the automatic stay
was terminated on March 5, 2014, no stay was sought pending appeal and the issues raised on
April 2, 2014 were obviously meritorious because Carrsow-Franklin prevailed on the very same
evidence which Respondent presented to the United States District Court for the Eastern District
of Wisconsin, at a full and fair evidentiary hearing, which the Rinaldis were denied.
52. OLR's misconduct has cost the Respondent valuable work for which she should be
compensated at the hourly rate she charges to clients who have the ability to pay, which is
$250.00 per hour, for having to respond to OLR's frivolous filings, including the time she will
have to spend prosecuting this Motion for Sanctions and/or such other sanctions as may be
awarded to deter similar conduct by OLR in the future pursuant to Wis. Stats. sec. 802.05(3)(b)
53. OLR is recklessly or intentionally filing frivolous documents before this Court
because it believes that it is immune from the damages it causes to targets of its reckless or
intentional, frivolous filings under SCR 21. 19, but filing frivolous documents is not conduct in
the course of OLR's official duties and OLR is not immune from sanctions which may be
awarded under Wis. Stats. sec. 802.05(3).
WHEREFORE,

the Respondent moves the Court for sanctions against OLR in the

amount of her reasonable hourly rate for her services for the time she has spent responding to
OLR's frivolous filings and for prosecuting this Motion for Sanctions and/or for such other
sanctions as the Court may deem necessary to deter similar conduct by OLR in the future.

16

.

266a

Dated at Minneapolis, Minnesota this 3rct day of December, 2015.

��

ACCESS LEGAL SERVICES
310 Fourth Avenue South, Suite 5010
Minneapolis, Minnesota 55415
VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@ gmail.com
Wisconsin Attorney ID #1017043
DECLARATION OF SERVICE

Wendy Alison Nora declares that she served the foregoing Notice of Motion and Motion
for Sanctions on Attorney Sheryl St. Ores, for OLR, at her facsimile number of record in these
proceedings on December 3, 2015.

17

267a

APPENDIX G

268a

STATE OF WISCONSIN

IN SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST WENDY ALISON
NORA, ATTORNEY AT LAW.

CASE CODE

OFFICE OF LAWYER REGULATION,
Complainant;

30912

CASE NO. 2015AP2442-D

WENDY ALISON NORA,
Respondent.

RECEIVED
AN 1 9 2016

AMENDED COMPLAINT

NOW
Lawyer

COMES

the

Regulation

Wisconsin
(OLR),

by

Supreme
Assistant

CLERK OF SUPREME COUR
T
OF WISCONSIN

Court

Office

Litigation

of

Counsel

Sheryl St. Ores, and alleges as follows:
OLR was established by the Wisconsin Supreme Court

1.

and operates pursuant to Supreme Court rules.
Complaint

2.

practice
listed

55415.

attorney
law

with

Services,

Amended

is filed pursuant to SCR 22. 11.

Respondent,

Wisconsin

This

310

in
the

Attorney Wendy Alison Nora

(Nora),

(State

admitted

Bar

1975

whose

State

Bar

Fourth Ave.

No.

office
of

S. ,

1017043)
address

Wisconsin
Suite

5010,

as

is

is a
to

currently

Access

Legal

Minneapolis,

MN

269a

Nora's Wisconsin disciplinary history consists of

3.

a 30 day suspension as discipline reciprocal to that imposed
by

the

Minnesota

failing

to

Supreme

adequately

claim against a bank,
bringing

litigation

Court

for

investigate,

misrepresentations,

bringing

Against

frivolous

inappropriate transfer of assets,
as

a

delay

tactic

while

theory that was not justified by existing law.
Proceedings

a

Nora,

173 Wis.

2d

and

asserting

a

Disciplinary

660,

495

N. W. 2d 99

(1993).
Regarding the Spencer Matter
OLR Matter No.

2014MA1570

Counts One - Three

I n July 29,

4.

2005, a mortgage note was issued in the

amount of $209, 160 to Sheila Spencer (Spencer).
In 2008, Spencer failed to pay her mortgage.

5.
•

Circuit Court:

In

6.
action

October

Judge Potter,

2008,

PNC

Counsel,

Bank

Staff

filed

a

foreclosure

(Spencer foreclosure) against Spencer's property, the

Honorable Gregory J. Potter

(Judge Potter) presiding.

Bank NA vs.

Sheila M Spencer,

Wood County Case No. 2013TJ49.

May

became

7.

In

2012,

Nora

Spencer.

2

successor

counsel

PNC

for

270a

8.

Nora

alleged the

plaintiff,

its

related

and its attorneys were part of a grand,

entities,

national mortgage

fraud scheme.
9.

Nora argued the correct plaintiff holding the note

was an issue before the court.
10.

The

court

determined

PNC

Bank,

was

N. A. ,

the

correct party plaintiff.
11.

Throughout

the

litigation,

Nora

accused

opposing

counsel of fraudulently concealing the identity of the real
party interest and engaging in
racketeering

constitute

may

[that]

"actionable civil fraud and
state

and

federal

criminal misconduct. "
12.

On

May

conference,

said

23,

2012,

hearing

the

court

originally

held

a

scheduled

scheduling
for

summary

judgment.
13. During the May 23,

2012 scheduling conference,

the

court stated Nora would need to provide a list of issues for
summary judgment.
- -------- - --

14.

-

On

foreclosure

-

May

25,

action

2012,

sent

plaintiff's

Judge

Potter

Nora enclosing a proposed order

a

letter

and

in

the

copied

(proposed order) regarding

the timeline for summary judgment issues.

3

counsel

271a

15 .

Plaintiff's

counsel's

letter

shows

a

copy

of

the

proposed order was sent to Nora and he provided affidavits
of mailing.
16.

Judge Potter sent the parties via letter a signed

order in which he acknowledged he converted the May 23,
summary

judgment

hearing

to

a

scheduling

conference

2012
and

provided a timeline for summary judgment issues.
17.

Nora

claims

she

never

received

Judge

Potter's

letter and final order.
18.
which
the

Nora asserts there were

plaintiff's counsel sent

ex

parte

communications by

Judge Potter a

letter with

proposed order and Judge Potter entered the order

but

did not send it to Nora.
19.
ex

Nora

parte

alleges there

letter

communications

plaintiff's counsel:
June 20,
20.

were

March 31,

three

additional

between

2010,

Judge

unlawful

Potter

February 17,

and

2011, and

2011 letters.
An

affidavit

in

employee

for

which she

plaintiff's

swore

·sh
e

sent

attorney
·· he
t

filed

Ma rch 31,

an
2o1o

letter to Spencer.
21.

The

February

17,

2011

and

June

20,

2011

letters

indicate on their face a copy was sent to Spencer.
22.

On June 28,

2012,

Nora moved to have Judge Potter

disqualified based upon the alleged
4

ex part e

communications.

272a

23.

Nora

received

the transcript

of the

May

23,

2012

hearing and discovered the third page was missing from the
transcript.
24.

Nora

claimed

there

were

certain

between the words used during the May 23,
the

words

appearing

in

the

transcripts,

word

variances

2012 hearing and
such

as

the

word

'call me' was transcribed as 'contact me. '
25.

Nearly

all

of

the

text

of

page

three

of

the

transcript consists of Nora giving Judge Potter a procedural
and factual history of the case.
26.
dates,

Page three of the transcript contains no orders, no
and

no

findings

that

would

prejudice

Nora

or

her

client.
27.

Nora

claimed

Judge

Potter

and

the

court

clerk

intentionally manipulated the court record.
28.
to

the

Nora

subsequently

transcript

page

withdrew
and

three

her

objections

acknowledged

related

there

must

have been a collating or processing error.
29.

On

demanding
ex parte

30.
counsel

July

Judge Potter be disqualified based upon repeated
communications and entering

In the July 23,
of

conniving

ex parte

2012 motion,

to

procure

5

ex

orders.

Nora accused opposing
par t e

orders,

and,

273a

accused the judge,

opposing counsel,

and court personnel of

manipulating the record.
31.

The court entered an order denying Nora's July 23,

2012 disqualification motion.
•

U.S. District Court:

32.
Spencer

On

January

Judge Crabb

10,

foreclosure

2013,

action

nearly

four

commenced

and

years after the
while

judgment motion was pending in circuit court,

a

summary

Nora filed a

motion to remove the case to the U. S. District Court for the
Western

District

Barbara A.
33.

of

Wisconsin,

U. S.

District

Court

Judge

Crabb (Judge Crabb) presiding.

On February 8,

2013,

the plaintiff moved to remand

the Spencer foreclosure matter to state court.
34.
other

Throughout her brief in response to the remand and
pleadings,

attorneys

of

accused

Nora

engaging

in

a

the

"sham

plaintiff

proceeding"

and

against

its
her

client.
35.

In

a

March

25,

2013

order,

Judge

Crabb

stated

federal jurisdiction did not attach to the Spencer case and
remanded the case to the Wood County Circuit Court.
36.

On

April

reconsideration

of

8,

2013'

the

March

Nora
25,

attorney's fees.

6

filed

2013

a

order

motion
objecting

for
to

- . �-----�---------------

274a

37.

Judge Crabb denied Nora's April 8,

2013 motion for

reconsideration as frivolous because the matter had already
been

remanded,

reconsider

stated

its

remand

the

Court

order,

and

lacked
ordered

jurisdiction
Spencer

to

to
pay

attorney's fees.
38. Nora
the March 23,
39.

filed a second motion for

reconsideration of

2013 order, said motion summarily denied.

Nora accused Judge Crabb of libel based upon orders

Judge Crabb made in previous cases involving Nora.
40.

Judge

Crabb's

previous

orders,

in

part,

involved

unsealing one of Nora's medical records during a matter in
which Nora claimed her medical condition required additional
extensions of time and other considerations by the court.
41. Nora

alleged

Judge

Crabb's opening

of the medical

records was injurious to her reputation.
42.

Nora

has

not

alleged

the

medical

records

were

untrue.
43. Nora's

accusations

of

�
discredit a judiciary ffiemberwfliie
44.

In addition,

libel

were

intended

];lerTorming-Eer

to

d.utfes.��

Nora stated her accusations of libel

against Judge Crabb related to the Judge making a statement
that Nora's arguments were "lacking coherence."

7

275a

45 .

Nora

stated,

Judge Barbara A.

" [T] he

Respondent indeed

stated

that

Crabb has engaged in a campaign of libel

against her. "
•

U.S. Court of Appeals

46.

for the Seventh Circuit

Nora appealed the U. S.

District

remand and attorney's fees to the U. S.

Court's order for

Court of Appeals for

the 7th Circuit (7th Circuit) .
4 7.

In

Nora's

appeal

to

7th

Circuit,

the

U. S.

the

Nora

named

District

Court

herself as one of the appellants.
4 B.

Nora

was

not

a

party

to

action.
49.

The August 13,

2014,

7th Circuit's decision in Case

No. 13-276:

__ ______

_

____

_

--··· __

__ _ ___ ____

(a)

found Nora's appeal on behalf of herself
and Spencer frivolous.

(b)

imposed a sanction of $2, 500 against Nora
noting,
"We
suspend
this
sanction,
however,
until the time, if ever, that
Nora
submits
further
inappropriate
filings. "

( c:L
_

PNC Bank,

50.
hearing,

]\J.Qr_Ei _t:() §ll()_\\1_ caU §� as _t:_o \Vl:tY E3ll§'
should not be sanctioned for the frivolous
appeal.
():r ci_<=_r_E;!�

__

N. A.

In
the

i_

_

v.

its
7th

_

__

Spencer,

August
Circuit

__

_

_

763 R.3 650,
20,

2014

655 (7th

order

requested

8

____

Nora

for

a

Cir.

___

_

2014).

show

respond

_____

to

cause
four

276a

issues

specific

and

directed

her

to

provide

only

one

response.
51.
order,

In

response

to

the

August

20,

2014

show

cause

Nora submitted five separate responses as follows:

(a)

an August 27, 2014 petition for rehearing en
bane
on
behalf
of
herself
and
Spencer,
rehashing her frivolous appellate arguments;

(b)

a "partial response to order to show cause";

(c)

a September 19, 2014 separate motion to stay
further proceedings pending a petition for
writ of certiorari;

(d)

citation to additional authority; and,

(e)

eleven days before the show cause hearing a
motion to postpone the hearing because of a
mild injury she had sustained in a car
accident.

52.

Nora's

accusations

order to show cause

against

PNC

Bank,

NA

response
and

its

repeated her
attorneys

of

engaging in felony racketeering and wire fraud, and further,
Nora accused opposing counsel of fraudulently concealipg the
identity

of

the

real

party

in

interest

and

engaging

in

constitute state and federal criminal misconduct. "
53.

On September 16,

Nora's August 27,

2014,

the Court of Appeals denied

2014 petition for rehearing

9

en bane.

277a

On

54.
stay

the

September

September

19,

16,

2014,

2014

Nora

filed

decision

a

pending

petition
a

writ

to
of

certiorari to the U. S. Supreme Court.
55.

On October 2, 2014, the 7th Circuit issued a final

order directing Nora's client, Spencer, to pay the opposing
party $25,295 in attorney's fees and $349.67 in costs.
56.

The October 2, 2014 7th Circuit order was silent on

the issue of whether it would issue any additional sanction
against Nora.
57.

On October

3, 2014,

Nora filed a 28-page decision

from the 6th Circuit Court of Appeals, 13-3402, as supporting
evidence for Nora's case.
58.

On October 28, 2014, a show cause hearing was held.

59.

On

February

11,

2015,

the

7th

Circuit

issued

an

order regarding the show cause hearing outlining the factual
background as follows:

-

··-······-

······-- - · - -·

As discussed in our earlier opinion, this case
arose from a Wisconsin foreclosure action in which
Nora, retained by Sheila Spencer, raised numerous
objections focused on alleging that PNC Bank was
:ErauctulenTiy at temp tingto.�:Eorec lo_s_e: -Nearly-Iour
years after the suit had been filed, Nora then
removed the case to federal court on the basis that
she had just discovered through internet research
that Freddie Mac was the "real party in interest."
The district court remanded the case to state court
and awarded fees and costs to PNC, concluding that
Nora failed to explain how federal jurisdiction
could exist when Freddie Mac was not a party to the
case.
Nora moved for reconsideration, and the
court denied the motion as "frivolous," noting that
10

-- ��-·-···-- ··- ·
·

278a

Nora
"ignored
the voluminous law
stating that
district courts lack jurisdiction to reconsider
remand orders, made no good faith argument for
changing existing law and offered no meritorious
arguments for reconsidering the decision to award
fees."
The court added that Nora had attempted
"repeated
procedural
feints
to
delay
the
foreclosure that was properly before the state
court.11
Nora then appealed on behalf of both Spencer and
herself, and we concluded that the appeal was
sanctionably frivolous.
We explained that Nora had
"never presented any colorable basis for federal
jurisdiction
over
this
years-old
state-court
foreclosure case," leading us to "suspect that the
removal was part of a strategy designed to gum up
the progress of the case."
Spencer,
763 F. 3d at
We also observed that we lacked jurisdiction
655.
over Nora's appeal on her own behalf because
liability for the award of fees and costs rested
solely with Spencer; although Nora asserted that
Judge Crabb had "engaged in a campaign of libel
against
[her],"
this alleged criticism did not
permit Nora to appeal. Id.
at 653-54.
Nora
suggested at oral argument that she would withdraw
her name as co-appellant but never did so. Id. at
654.
Further, we noted that Nora's conduct appeared to
be part of a pattern of troubling litigation
tactics...
Additionally, we observed that Nora's
responses to her opponents and the courts during
this litigation were "unnecessarily accusatory and
antagonistic," noting that Nora had accused "the
and
court
reporter
of
state
court . judge
-·
··
- fraudulentiy ;;;;_nip:;ilating transcripts, the district-····----···-·· -·········
judge of pursuing 'a campaign of libel against
[her],'
and
opposing
counsel
of
engaging
in
'actionable civil fraud and racketeering [that] may
constitute· state and federal criminal misconduct .'"
Spence r , 763 F.3d at 655 (alterations in original).
We gave Nora 30 days to show cause why she should
not be sanctioned.

____________ _____

Two days after we issued our opinion, Nora filed a
14-page
"initial
response"
alleging
that
the
11

279a

opinion did not provide her with reasonable notice
She requested an
of the charges against her.
evidentiary hearing and appointment of "an attorney
to represent the proponent of the Order to Show
Cause and a referee or special master to preside at
the hearing. "
We
denied Nora's
request
for
appointment
of
a
special
master
and
a
full
evidentiary hearing but agreed to hold a hearing on
the show-cause order as allowed under Rule 46 (c) .
We warned Nora that we would not accept additional
filings beyond "one proper response to the show­
cause order"
and directed her to address the
following four issues in her response: (1) whether
the removal of this case, motion to reconsider, and
appeal of the fee order were frivolous; (2) whether
her appeal on her own behalf was frivolous;
(3)
whether the removal and appeal were litigated for
the
improper
purposes
of
delay
or
increasing
litigation costs; and (4) whether her attacks on
her
opponents
and
the
district
judge
were
appropriate advocacy.

·-

·-·--- -·

------·

Nora did not limit herself to one proper response.
On September 2, 2014, she submitted a petition for
rehearing en bane on behalf of herself and Spencer,
rehashing her frivolous appellate arguments.
On
September 19, she filed both a "partial response to
order to show cause (all rights reserved)" ·and a
separate motion to stay further proceedings pending
On October 3,
a petition for writ of certiorari.
after the court denied her request for a stay of
proceedings, she filed a citation of additional
authority under Circuit Rule 28 (e} to bring to our
attention a Sixth Circuit decision that purportedly
supports her arguments on the merits.
Finally, on
October 17,
eleven days before the show cause
·--·
_ _u_
_ a s____
e
_
_
_
hearing, Nora moved topostpone-the-Tiea-ring- bec
she had become "progressively mildly cognitively
impaired as the result of a whiplash injury" from a
We denied the
car accident on September 13.
request to postpone the hearing but granted Nora,
or an attorney on her behalf, leave to argue by
On October 2 8,
Nora appeared in
speakerphone.
person for a 20-minute hearing.
In re Nora,

778 F.3 662 (7th Cir. 2015).
12

·
-- --

280a

60.

In

its

February

11,

2015

order,

the

7th

Circuit

discussed whether sanctions would be appropriate:
Sanctions are
warranted under Rule 38 when a
litigant or attorney presents appellate arguments
with no reasonable expectation of success for the
purposes of delay, harassment, or sheer obstinacy.
See Wachovia Sec. , LLC v. Loop Corp. , 726 F. 3d 899,
909-10 (7th Cir. 2013); Hart z v. Friedman, 919 F. 2d
469, 475 (7th Cir. 1990); Mays v. Chi. Sun-Times,
865
F. 2d 134, 138-39
(7th Cir.
1989).
Nora's
responses provide us with no persuasive reason to
doubt that her arguments in this appeal were
motivated by improper purposes....

---------�--

Nora also fails to alleviate our concern about her
engaging in "conduct unbecoming a member of the
court's bar" under Rule 46 (c). She contends that
her comments during this litigation have amounted
to
nothing
more
than
unsanctionable
rudeness,
citing In re Snyder,
472 U. S.
634
(1985).
In
Snyder,
the Supreme Court concluded that a single
ill-mannered letter did not rise to the level of
"conduct inimical to the administration of justice"
that is sanctionable under Rule 46 (c). Id. at 64547; see In re Light foot , 217 F. 3d 914, 916-17 (7th
Cir. 2000) (discussing this standard and collecting
cases applying it). But Nora's conduct is more
egregious than that in Snyder. As noted in our
earlier opinion, Nora has repeatedly acted with
needless antagonism toward opposing counsel and
judicial officers. In her responses to our order to
show cause, she has refused to back down from her
accusations
of
libel
against
Judge
Crabb
and
"actionable civil fraud and racketeering" against
-------- p o l
o p s ng--co u:ns_e_r� --She--aenies acc1Ts:Lng--Efie-l
---s :at�---court judge of altering transcripts, but the record
belies
her
denial:
she
not
only
made
the
accusations but moved for substitution of the judge
on that basis. She also now derides "this panel and
many of the judges in this circuit" as being biased
"against homeowners' rights to be heard and defend
their
homes. "
This
bandying
about
of
serious
accusations
without
basis
in
law
or
fact
is
unacceptable and warrants sanctions.
See In
re
Hendrix,
986
F.2d
195,
201
(7th
Cir.
1993)
13

281a

(explaining that attorney's filing of submissions
not grounded in law or fact is sanctionable); Mays,
8 65 F. 2d at 140 (sanctioning attorney for falsely
imputing positions on opponents and the court) .
Nora suggested at her hearing that her problems
represent a personal dispute with Judge Crabb,
pointing out that the judge decided to unseal
Nora's medical records in an appeal Nora filed in
her own bankruptcy case. But Nora has failed to
persuade us that the judge's actions amounted to
anything more than adverse rulings against her. Cf.
Litek y v.
United St ates,
510 U. S. 540, 555 (1994)
( " [J] udicial rulings alone almost never constitute
a valid basis for a bias or partiality motion.")._
When we questioned Nora about the lack of basis for
her libel accusations at the hearing in this case,
she
proposed that she
could
substantiate
her
accusations if allowed to discuss them with us in
chambers.
There is no reason to believe that
allowing Nora to disparage Judge Crabb in private
would convince us that sanctions are inappropriate.
Id.

Nora
COUNT ONE

61.

By

removing

a

state

court

foreclosure

matter

to

the federal court after four years of litigation when there
was

no

colorable

basis

for

federal

jurisdiction,

and,

by

filing a frivolous motion to reconsider the order remanding
--··--··-···the

rt\atter

___

back

to

the

state

court,

Nora

violated

SCR

1
20:3.l(a).

'SCR 20:3.l(a) provides: "In representing a client, a lawyer shall not: (I) knowingly advance a claim or
defense that is unwarranted under existing law, except that the lawyer may advance such claim or defense if
it can be supported by good faith argument for an extension, modification or reversal of existing law;
knowingly advance a factual position unless there is a basis for doing so that is not frivolous; or

(3)

(2)

file a

suit, assert a position, conduct a defense, delay a trial or take other action on behalf of the client when the
lawyer knows or when it is obvious that such an action would serve merely to harass or maliciously injure
another."

14

282a

COUNT TWO

62.
client

By
and

litigation,

filing

a

herself
and,

when

the

appeal

she

engaging

by

conduct to harass

frivolous

other

was
in

on

not
an

parties

of

her

party

to

the

a

ongoing

and

Nora violated

and delay the proceedings,

behalf

pattern

judicial

of

officers

SCR 20:3.2.2

COUNT THREE

63.

By

engaging

in

an

ongoing

pattern

of

conduct

to

harass the other parties and judicial officers and delay the
Nora

proceedings,
20:8.4(g)

violated

SCR

40.15

enforceable

via

SCR

3

Regarding the Rinaldi Matter
OLR Matter No. 2015MA614
Counts

64.

At

all

represented

the

actions

and

all

Rinaldi

vs.

times

Four

HSBC

Bank

USA,

Five

unless

herein,

plaintiffs
appeals.

-

in

their

excepted,

state

Desa

L.

Rinaldi

N. A. ,

et

al.

U. S.

Nora

foreclosure
and

Roger

Dist.

P.

Court,
and

2

SCR 20:3.2 provides:
interests of the client."

"A

lawyer shall make reasonable efforts to expedite litigation consistent with the

3

SCR 40.15 provides in relevant part: "I will maintain the respect due to courts of justice and judicial
officers; I will not counsel or maintain any suit or proceeding which shall appear to me to be unjust, or any
defense, except such as I believe to be honestly debatable under the Jaw of the land; ... I will abstain from
all offensive personality and advance no fact prejudicial to the honor or reputation of a party or witness,
unless required by the justice of the cause with which I am charged .. '
.

SCR 20:8.4(g) provides: "It is professional misconduct for a lawyer to violate the attorney's oath."
15

283a

13-CV- 643-JPS

(District Court),

7th Cir.

and,

Court of

U. S.

Appeals Case Nos. 13-3865 and 14-1887 (Court of Appeals)
In 2005,

65.
(the

Rinaldis)

Roger Rinaldi

signed

a

note

(Rinaldi) and his wife Desa
promising

to

repay

a

Wells

Fargo mortgage loan.
66.
loan

Within four years,

and HSBC Bank USA,

the Rinaldis defaulted on the

N. A.

(HSBC) initiated a Wisconsin

foreclosure action as assignee of the mortgage note.
Bank

USA vs.

Roger Rinaldi,

et

HSBC

Kenosha County Case No.

a1. ,

09-CV-353.
67.
Fargo,
that

The Rinaldis counter-claimed against HSBC,

Wells.

and the lawyers involved in the foreclosure alleging
the

mortgage

fraudulently

paperwork

altered

and

produced

that

HSBC

by

HSBC

lacked

had

been

standing

to

enforce the mortgage.
68.

The state court granted summary judgment against

the Rinaldis, who did not appeal.
69.
. -·--·--·---·�---�-

A

year

later

state

the

court

vacated

its

· - · �
-foreclosure judgment based upon H SB C agreeingto modify the

···-··-- ---------·- -·- ---··-·----·--- _______,_____ ·-··---··-----

loan rather than foreclose.
70.
agreement,

After the parties finalized the loan modification
the Rinaldis filed

state court matter),
the

same

parties.

a

new

state

lawsuit

(second

reasserting their counterclaims against
Roger

Rinaldi,

16

et

al.

vs.

Wells

Fargo

284a

Bank

National

Associat ion,

et

Kenosha County Case No.

al. ,

Nora entered her appearance on behalf of the

11-CV-1477.

Rinaldis in that matter on August 30,
71.

2011.

The defendants moved to dismiss with prejudice the

second state court matter.
72.

Before the state court could rule on the dismissal

motion in the second state court matter,
a

bankruptcy

action

automatic

stay.

HSBC Bank

USA,

District

De sa
N. A.

matter)

L.

and

et

of Wisconsin,

representing

the

November 18,

2011.

73.

,

(bankruptcy

HSBC,

Rinaldi
al. ,

Case

Rinaldis

the Rina1dis filed
precipitating

Roger

P.

Rinaldi

U. S. Bankruptcy Court,
No.
in

11-35689-svk.
the

bankruptcy

an
vs.

Eastern

Nora began
matter

holder of the Rinaldi mortgage note,

on

filed a

proof of claim in the bankruptcy matter.
74.

In June

proof of claim,

2012,

Nora

objected to HSBC' s bankruptcy

filed adversary claims against the parties

that the Rinaldis had counter-claimed against in the state

interference,

breach of contract,

and violations of RICO and

the Fair Debt Collection Practices Act.

17

285a

75.

On

February

22,

2013,

the bankruptcy court

found

in favor of HSBC's proof of claim and recommended denial of
Nora's adversarial claims.
76.

Nora

appealed

the

February

22,

2013

bankruptcy

court order.
77.

On October

31,

2013,

the District Court affirmed

the bankruptcy court's orders on the proof of claim, adopted
the

bankruptcy

court's

recommendations

on

the

adversary

claims, and found as follows:
(a)

The court concluded that it did not even
need to reach the merits of the proof-of­
claim decision because the Rinaldis failed
to designate the record or issues for appeal
as
required
by
the
Federal
Rules
of
Bankruptcy Procedure.

(b)

The court rejected the Rinaldis' appeal on
HSBC
had
explaining
the
merits,
that
it
was
produced
documents
showing
that
entitled to enforce the mortgage.

The court dismissed each of the Rinaldis'
adversary claims as meritless, noting that
their submission of those claims was "an
stream-of-consciousness-style
unfocused,
recitation of
general
grievances
debtors
-·-·--··-···--have---asse:roted-i-n-:v:a.r-i:Cus-f.orms.-.since..-tht:---·-origination
of
the
litigation
in
state
court. u
(c)

·-

--

(d)

The court warned the Rinaldis they would
likely
face
sanctions
if
they
filed
additional frivolous filings because their
litigation tactics had "quite obviously been
vexatious and time-and resource-consuming"
and
their
filings
were
"nigh­
unintelligible. "
18

286a

78.

Within

Court's decision,

two

weeks

of

the

October

2013

District

Nora moved to alter or amend the judgment

under Federal Rule of Civil Procedure 59{e) and repeated her
previously denied arguments related to the mortgage.
On December 13,

79.
Nora's

Federal

Rule

of

2013,
Civil

the District Court decided
Procedure

59 {e)

motion

and

stated as follows:
{a)

the
arguments
were
meritless
and
"the
Rinaldis, through their attorney Wendy Nora,
have at every turn filed briefs that have
done little to clarify the matters under
further
confusing
consideration
while
matters" {emphasis in original).

{b)

Nora's
briefs
were
rambling,
failed
to
comply with court rules,
contained many
spelling and grammatical errors, cited legal
authority sparingly if at all,
repeated
rejected arguments, and used "irrelevant and
argumentative language that has no place in
a legal brief. "

{c)

The court warned that "any further frivolous
submissions
will
result in an award of
appropriate sanctions against the Rinaldis'
attorney" {emphasis in original).

ruling to the Court of Appeals.
81.
2011
state

In March 2014, Nora moved to dismiss the Rinaldis'

bankruptcy action asserting
court"

with

"newly

she

wished

discovered

mortgage was void.
19

"to

evidence"

proceed to
that

the

287a

82.

The

dismiss,

bankruptcy

informing

her

court

that

the

granted

Nora's

dismissal

motion

might

moot

to
the

Rinaldis' pending appeal.
Nora moved to withdraw as the Rinaldis' attorney

83.

in the District Court case.
84.
to

Before the District

withdraw,

Nora moved to

Court

ruled on Nora's

motion

intervene in the District Court

case and demanded relief pursuant to Federal Rule of Civil
Procedure 60 (b).
85.

On April 9,

2014,

the District Court allowed Nora

to withdraw.
86.

On April 9,

2014,

the District

Court found Nora's

motions to intervene and for relief from the District Court's
prior orders pursuant to Rule 60 (b) (2)

of the Federal Rules

of

and

Civil

Procedure

to

be

frivolous

sanctioned

Nora

$1, 000, stating:
Last, as to Ms. Nora's motion to intervene and for
Rule 60 (b) relief, the Court notes that it has no
choice but to impose sanctions against Ms. Nora.
In the Court's last_ order, it noted that ' [w] ith
this order, the Court hereby makes clear that any
further frivolous submissions will result in an
award
of
appropriate
sanctions
against
the
Rinaldis'.
(emphasis in original)
__

87.

On

behalf

appealed the District

of

the

Rinaldis

and

herself,

Court's order related to the

20

Nora

Federal

288a

Rule of Civil Procedure 60 (b) motion and the $1, 000 sanction
for frivolous motion filing.
88.

On February 11,

2015,

the Court of Appeals affirmed

the District Court's sanction order.
In ruling on Nora's appeal of her District Courts

89.
Federal

Rule

subsequent

of

Civil

$1, 000

Procedure

sanction

order,

60 (b)
the

motion
Court

and

of

the

Appeals

discussed whether sanctions were appropriate, stating:
Finally,
we affirm the sanction order, which we
review for an abuse of discretion.
See Tucker v.
Williams, 682 F. 3d 654, 661 (7th Cir. 2012).
Nora
offers only a cursory defense for her actions,
maintaining that she did "nothing more than what
she [was] required by law to do in the course of
representing her clients."
But Nora's obligations
her
clients
did
not
excuse
her disregard of the
to
district
court's
clear
and
repeated
warnings
against
continued
submission
of
confusing,
frivolous,
and needlessly argumentative filings.
Thus, the court did not abuse its discretion by
sanctioning Nora.
The orders of the district court are affirmed.
Desa L.
USA,

Rinaldi

N. A. ,

et

and Roger P.

al.,

Rinaldi vs.

778 F. 3d 672,

672-675

HSBC

Bank

(7th Cir. ,

2015) at 676.

COUNT FOUR

9 0.
Bank

USA,

In

Desa

N.A.,

L.

et

Rinaldi
al. ,

and Roger P.

U. S.

Dist.

District of Wisconsin Case Nos.
JPS,

which led to 7th Cir.

U. S.
21

Court

Rinaldi

for

the

vs.

HSBC

Eastern

13-CV-336-JPS and 13-CV-643Court of Appeals Case Nos.

289a

13-3865 and 14-1887,

by filing a motion to intervene and a

motion for relief from the Court's prior orders pursuant to
F. R. C. P.
after

60 (b) (2),

the

further

U. S.

which motions were found to be frivolous,

District

frivolous

sanctions,

Court

submissions

had

would

warned
result

Nora
in

that

an

any

award

of

Nora violated SCR 20:3.1(a)
COUNT FIVE

In

91.
Bank

USA,

Desa

L.

N. A. ,

et

Rinaldi
al. ,

and

U.S.

Dist.

District of Wisconsin Case Nos.
JPS,

which led to 7th Cir.

13-3865 and 14-1887,

Roger

P.

Rinaldi

Court

for

vs.

the

HSBC

Eastern

13-CV-336-JPS and 13-CV-643-

U.S.

Court of Appeals Case Nos.

by filing a motion to intervene and a

motion for relief from the Court's prior orders pursuant to
F. R. C.P. 60 (b) (2) ,
after

the

further

U.S.

District

frivolous

Court

submissions

had

would

warned
result

Nora
in

that

an

any

award

of

Nora violated and SCR 20:3.2.

sanctions,

WHEREFORE,

Attorney

which motions were found to be frivolous,

Wendy

the

Office

Alison

of

Nora

Lawyer

be

found

Regulation
in

asks

that

:;--:-;-��--;o----:-�-

violation

--------···

of

the

Supreme Court rules as alleged in Counts One through Five of
this

Amended Complaint ,

that the Court suspend Attorney Wendy

Alison Nora's Wisconsin law license for a period of one year
consecutive
imposed

to

upon

and
Nora

immediately

following

related

Supreme

to
22

any
Court

suspension
Case

No.

� �­

290a

2013AP653-D, and for such
just and equitable,

other and further relief as may be

including an award of costs.

Dated this� day of January, 2016.
OFFICE OF LAWYER REGULATION

Assi tant Litigation Counsel
State Bar No. 1017028
110

East Main Street, Room 315
Madison, Wisconsin 53703-3383

608-261-0695

23

291a

APPENDIX H

292a

STATE OF WISCONSIN

IN SUPREME COURT

In re the Matter of the Disciplinary Proceedings

Case Code: 30912

Against Wendy Alison Nora,
Attorney at Law
Office of Lawyer Regulation,
Complainant

Case No. 2013AP000653-D

v.

Wendy Alison Nora,
Respondent

REPLY ON RESPONDENT'S JURISDICTIONAL OBJECTION AND MOTIONS TO
DISMISS FOR LACK OF PROBABLE CAUSE TO INITIATE THESE PROCEEDINGS; FOR
A FRANKS HEARING TO DISMISS FOR LACK OF PROBABLE CAUSE; FURTHER OR
ALTERNATIVE MOTION TO DISMISS FOR SELECTIVE AND VINDICTIVE
PROSECUTION; AND FURTHER OR ALTERNATIVE MOTION TO DISMISS AS A
SANCTION FOR BAD FAITH INITIATION AND CONTINUATION OF THESE
PROCEEDINGS AND THE COMPANION CASE PREVIOUSLY IDENTIFIED AS NORA #1
(AND RESERVATION OF RIGHT TO FILE FURTHER MOTIONS TO DISMISS AS A '
SANCTIONS FOR OLR'S BAD FAITH CONTINUING CONDUCT)

INTRODUCTION

Respondent, Wendy Alison Nora (Nora) filed her Preliminary Reply to OLR's Response
on April 11, 2016 and the procedural facts contained therein are incorporated by reference in this
Reply. In Response to Nora's initial Motions, OLR argues that the law established by the United
States Supreme Court almost half a century ago specifically addressing lawyer disciplinary
proceedings is not apply to lawyer disciplinary proceedings; that OLR cannot establish that it
reasonably believes the truth of its factual allegations unless Nora files an Answer; and that cause
to proceed in attorney disciplinary proceedings by the enforcement arm of the Supreme Court of
Wisconsin is not subject to judicial review.
1

293a

ARGUMENT
I. Nora is entitled to the proceduraldue process afforded to criminal defendants in these
quasi-criminal proceedings under

In re Ruffalo, 390 U.S. 544, 88 S.Ct. 1222, 20 L.Ed.2d 117

(1968).
In what has become OLR's common practice in these proceedings, OLR misrepresents
the law. The United States Supreme Court held in In re Ruffalo, supra, at 390 U.S. 551, "These
are adversary proceedings of a quasi-criminal nature. . . The charge must be known before the
proceedings commence." OLR denies that In re Ruffalo, supra, is applicable to lawyer
disciplinary proceedings, writing, (Nora)"cites In re Ruffalo which is not applicable, argues
'quasi criminal defendant' status which is specious, and in a moment of legal creativity suggests
the Supreme Court of Wisconsin 'adopt the constitutional due process of standards of criminal
practice' in this disciplinary proceeding." (OLR's Response, page 5, second paragraph.)

In re Ruffalo, supra, involved lawyer disciplinary proceedings. It is the ultimate
authority of the Supreme Court of the United States which declared these proceedings quasicriminal in nature, not Nora. That In re Ruffalo, supra, applies to these proceedings cannot
reasonably be disputed. Nora's position that she is a quasi-criminal defendant has been the
established law of this nation for almost half a century. There is nothing "specious" about Nora
recognizing her status as a quasi-criminal defendant in these proceedings. The United States
Supreme Court decided that a lawyer charged with misconduct is a defendant in quasi-criminal
proceedings almost 50 years ago and Nora is, therefore, entitled to the procedural due process
accorded to criminal defendants.
Whether these proceedings are characterized as civii proceedings, criminal proceedings or
a blend of both, Nora is entitled to due process. Nora's Motion for a Franks hearing simply
2

294a

incorporates a process available to criminal defendants into these quasi-criminal proc�edings to
determine whether or not OLR has "cause" to proceed against her.1 OLR may only file charges
based on facts which OLR reasonably believes may be proved to be true by clear, convincing and
satisfactory evidence. If OLR does not reasonably believe that the facts alleging misconduct are
true, OLR is without jurisdiction to charge a lawyer with professional misconduct.
OLR claims that it is at a disadvantage in responding to the challenge to its cause to
proceed because Nora has not yet filed an Answer. Cause to proceed must be based on facts
reasonably believed to be true before OLR files charges of misconduct against an attorney under
SCR 22.001(2). OLR's Response to Nora's Motion for a Franks hearing establishes that it has
no cause to proceed on true facts and existing law. The Amended Complaint was filed without
meeting the jurisdictional requirement of reasonable cause to believe that OLR may prove facts
constituting professional misconduct by clear, convincing and satisfactory evidence.
II. OLR's Response wholly fails to address that its factual allegations are false and that its
mixed allegations of law and fact are based on misrepresentations of law which is why the

Franks remedy is necessary because there is no process in the Rules of Civil Procedure by
which a lawyer can attack false allegations in a complaint, which OLR knowingly or
recklessly filed.

OLR purports to be prosecuting these proceedings under the authority granted to it by the
Wisconsin Supreme Court. OLR, like any prosecutor, is constitutionally prohibited from filing a
complaint (here, to initiate disciplinary proceedings) on the basis of false factual allegations and

1

The only difference between the definition of "cause" to proceed on charges of misconduct in

SCR 22.001(2) and "probable cause" to proceed on criminal charges is the reasonable belief that the
prosecution will be able to meet its burden of proof. SCR 22.001(2) requires that the complainant have a
reasonable belief that it may prove misconduct by clear, satisfactory and convincing evidence. In
criminal cases,the prosecution must have a reasonable belief that it may prove that the defendant
committed a crime beyond a reasonable doubt.

3

295a

misrepresentations of law, knowingly made or made with reckless disregard for the truth. Franks
v.

Delaware, 438 U.S. 154, 154-156, 165, 171-172, 57 L.Ed.2d 667, 98 S.Ct. 2674 (1978l

Although the Wisconsin Rules of Civil Procedure provide for sanctions for the commencement
and continuation of an action or proceedings based on false factual allegations [Wis. Stats. sec.
802.05(2)(b)] and to do so violates the Code of Professional Conduct at SCR 20.3.l(a)(2), and
Wisconsin law even allows an action to recover damages for the initiation of a false civil
proceeding under Wis. Stats. sec. 895.044(1)(a) and (b), jurisdiction attaches even to false
pleadings in civil proceedings.

Franks v. Delaware, supra, provides a remedy for complaint initiated in criminal
proceedings upon false allegations and allows the defendant to challenge false factual allegations
in the complaint by raising the jurisdictional issue of whether or not there is probable cause to
proceed in the action. Nora has specified 47 false factual allegations and mixed false factual
allegations and misrepresentations of law. She provided the Court with a proposed form of the
Amended Complaint which remains after the false allegations and misrepresentations of law are
disregarded. If the Amended Complaint thus modified is sufficient to proceed to final
evidentiary hearing on the remaining allegations which are factually true and do not contain false
facts mixed with misrepresentations of law, jurisdiction attaches. Otherwise, the Amended
Complaint must be dismissed for lack of "cause" to proceed.
OLR does not argue that it reasonably believes that its factual allegations/mixed false
statements of facts and misrepresentations of law in ��4, 5, 6, 8, 9, 10, 11, 13, 16, 17, 18, 19, 20,

2

The Franks remedy for false factual allegations were approved by the Wisconsin Supreme

Court in State

v.

Marshall, 284 N.W.2d 592,92 Wis.2d 101 (Wis., 1979) and State

2d 209,123 Wis. 2d 375. 385 (Wis., 1985).

4

v.

Mann, 367 N.W.

296a

21, 23, 27, 28, 30, 31, 32, 34, 38, 42, 43, 49(b), 51, 52, 60, 61, 62, 63, 64, 66, 67, 370, 71, 72, 73,
74, 77(a), 77(b), 77 (c), 4 77(d), 78,79, 81, 86, 90 and 91 are true. Nora has identified the
following allegations as containing false statements of facts: 'i['i[4, 5, 6, 8, 10, 11, 13, 16, 17, 18,
19, 20, 21, 23, 27, 28, 29, 30, 31, 32, 34, 38, 42, 43, 49(b), 51, 52, 60, 61, 62, 63, 64, 66, 67, 70,
7 1, 72, 73, 74, 77(a), 77(b), 77(c), 77(d), 78, 79, 81, 86, 90 and 91. Nora has identified 'i['i[4, 13,
17, 29, 34, 42, 43, 61, 62, 78, 90 and 91, amounting to 12 paragraphs, as mixed false facts and
misrepresentations of law. Those 12 paragraphs falsely imply that the legal positions Nora took
are not allowed by existing law. 'lf'lf9 and 35 are legal conclusions and are not supported by
existing law. In all, more than half of OLR' s allegations are false factual allegations, mixed false
factual allegations and misrepresentations of law or are pure misrepresentations of law.
OLR does not state it reasonably believes that any of the challenged false and
misrepresented legal positions in the foregoing paragraphs are true. Instead, OLR argues that
"OLR is at a disadvantage" because Nora has not answered the Amended Complaint. OLR
cannot possibly be at a disadvantage by Nora filing initial Motions to Dismiss which she is
entitled to do in either civil or criminal proceedings. OLR is required to reasonably believe that it
can prove its allegations by clear, convincing and satisfactory evidence before it files a complaint
charging a lawyer with professional misconduct. SCR 22.001(2). OLR does not argue that

3

False paragraph 67 was inadvertently not identified as a false paragraph in the Sanctions

Motion of January 25, 2016.

Specifically, under the Wisconsin Rules of Civil Procedure,the Rinaldis

could not file a Counterclaim against nonparties to the Kenosha County Circuit Court case.

4

Nora has included the allegations which OLR states "assist in providing, in part,the factual

foundation for the misconduct allegations supporting" Counts One,Two,Four and Five of the Amended
Complaint in the attached Revised Modified Complaint, so that the Court can determine whether or not
the allegations that OLR believes to be true support its reasonable belief that "cause" exists to charge
Nora with the misconduct alleged in Counts One,Two,Four and Five.

5

297a

further discovery is necessary to establish the (false) facts it has alleged. In fact, OLR admits that
it conducted a lengthy investigation (Response, page 14). OLR alleges no facts upon information
and belief. All advantages in these proceedings have been provided to OLR, including the
requirement that Nora must respond to all of its inquiries under SCR 21.15( 4) and she did so.
Nora is required to answer to the charges only if OLR's charges meet the threshold
burden of alleging true facts upon which OLR may proceed. Reasonable belief that factual
allegations are true and may be proved by clear, convincing and satisfactory evidence is a
jurisdictional prerequisite for a finding of cause to proceed. Wis. Stats. sees. 802.06(2),
802.05(2)(a) and (b) are unavailing to grant Nora relief from false charges because false
allegations which are presumed to be true at the pleadings stage. Nora is entitled to challenge
whether or not OLR reasonably believes that its factual allegations and representations are true in
these proceedings which are quasi-criminal in nature. She has done so and OLR has failed to
rebut Nora's prima facie case that more than half of the allegations in the Amended Complaint
contain false facts and misrepresentations of law. The Rules ·of Civil Procedure provide an
inadequate remedy for disposing of false allegations not believed to be true by the charging party

ab initio.
Despite the detailed identification of almost four (4) dozen false facts and
misrepresentations of law alleged in the Amended Complaint, OLR can only muster for its
response that seven paragraphs: ,,49, 59, 60, 77, 78, 86, and 89 "assist in providing, in part, the
factual foundation for the misconduct allegations supporting" Counts One. Two. Four and Five
of the Amended Complaint. As an initial matter, OLR, therefore, has conceded that it has no
factual basis for the charge set forth in Count Three. Count Three is entirely unsupported by any
6

298a

facts and must now be dismissed.
As to Counts One, Two, Four and Five, OLR's argument that the "allegations" in �49, 59,
60, 77, 78, 86, and 89 "assist in providing, in part, the factual foundation for the misconduct
allegations. .." (OLR Response, page 14, paragraphs 5 and 6) fails to establish cause to proceed.
That a mere seven paragraphs partially assist in providing the factual foundation for the
misconduct allegations, does not come close to rebutting Nora's prima facie case that these
proceedings are grounded upon 47 false factual allegations, including 12 paragraphs of mixed
false facts and misrepresentations of law, all specifically stated, along with 2 paragraphs which
misrepresent the existing law. OLR needs more than verbatim quotations from judicial decisions
to establish that Nora knowingly or recklessly violated of the Rules of Professional Conduct
which OLR must reasonably believe in good faith to be true. A Franks hearing on surviving
allegations in the Amended Complaint must be conducted to determine whether or not there is
cause to proceed without the false allegations against Nora. OLR has produced no evidence or
argument to rebut Nora's Verified Motion for a Franks hearing. OLR's false allegations of fact
and misrepresentations of law were not corrected by its January 19, 2016 Amended Complaint.
Nora is surprised by OLR's argument that "cause" exists for the charges in these
proceedings, based not on the Amended Complaint, but based on the assertion that she was
aware of the basis for the new charges in this second case, Nora #2, for the reasons stated by
OLR below. Sadly, Nora is no longer surprised by OLR's assertions of false facts. OLR knows
that its argument quoted below is false:
(1) [T]he Preliminary Review Committee (PRC) found cause to proceed on each of the
Five Counts in the Amended Complaint" (page 6, last paragraph) and
(2) The Respondent is fully aware of the procedure in this, a civil disciplinary proceeding,
7

299a

having engaged in extensive communications with the OLR Investigator and the OLR
District Committee members in both Nora One (Case No. 13AP653-D) and Nora Two
(Case No. 15AP2442-D). The Respondent was represented and aided by counsel during a
portion of the disciplinary investigation. Nora had ample opportunity over a lengthy
period of time to obtain the facts supporting the foundation for the decision to find cause
to proceed, and she did so. Importantly, the Respondent had a full opportunity to provide
any information and evidence thought to be important to the cause to proceed
investigation and PRC determination. The Respondent was provided a copy of the OLR
District Committee report containing copious documents. Input from the Respondent was
received. Exchange of information with the Respondent occurred repeatedly prior to the
PRC's finding of cause to proceed on five counts in the Rinaldi and Spencer matters . . .
(Page 7, first paragraph.)
There is not a single factual allegation in the Amended Complaint that the PRC found
cause to proceed on the Complaint or Amended Complaint in Nora #2. Nora was never notified
that the PRC was meeting to consider any investigative report in Nora #2. Such a report, if it
exists, was not provided to Nora and she was never given an opportunity to provide
supplementary materials to the PRC ( if the PRC ever considered the charges in Nora #2.)
Contrary to unsworn factual assertion in (2), above, there is no evidence or allegation that OLR
appointed a District Committee to investigate the charges in Nora #2. Nora was never informed
that a District Committee was appointed in Nora #2. To Nora's knowledge, no District
Committee was ever appointed to investigate the charges in Nora #2. Nora did not communicate
with a District Committee regarding the charges in Nora #2. No District Committee was
appointed to investigate Nora #2. OLR knows that Nora was not represented by counsel at any
time during the investigation which led to Nora #2. Nora was never provided with a copy of any
District Committee Report falsely stated to have been provided to the PRC to determine cause to
proceed in Nora #2, again, because no report was ever prepared by a District Committee.5 Based

5 The "copious" documents provided to the PRC from the District 9 Ethics Committee were
provided in Nora #1.
8

300a

on OLR's false statement regarding the process leading to the charges in Nora #2, Nora doubts
that the charges in Nora #2 were authorized by the PRC, but if they were, Nora was given no
opportunity to review the information provided to the PRC or to supplement the purported
investigative report as OLR now falsely asserts she did, but which she was entitled to do.
Whatever truth survives the exclusion of false factual allegations and misrepresentations of law
and the Franks hearing will demonstrate whether or not OLR had cause to bring the charges in
Nora #2.
III. OLR's Response fails to rebut the prima facie case that Nora is being selectively and
vindictively prosecuted in these proceedings, as established by Nora's sworn factual
allegations.

In response to Nora's Motion to Dismiss for Selective and Vindictive Prosecution, OLR
argues under the authority of Wayte

v.

United States, 470 U.S. 598, 607, 105 S.Ct. 1524, 84

L.Ed.2d 547 (1985) that it has "broad discretion" to charge Nora with professional misconduct.
The deference granted to prosecutors emanates from the separation of power between the
executive branch (elected prosecutors or prosecutors appointed by the executive branch) and the
judicial branch of government. These proceedings are entirely within the judicial branch of
government, under the authority of the Wisconsin Supreme Court. OLR prosecutions are not
initiated by a separate and independent branch of government entitled to deference under the
principle of separation of powers. Furthermore, judicial review is required for determinations of
probable cause in criminal cases and must be provided in quasi-criminal proceedings for which
cause to proceed must be determined.

Wayte, supra, does not involve the issue Nora raises in these proceedings which is that
OLR is proceeding upon factual allegations falsely made or made in reckless disregard for the

9

301a

truth. OLR is not passively prosecuting Nora as was the case in Wayte, supra. OLR is actively
prosecuting Nora based on false allegations of fact and misrepresentations of law for the
completely lawful act of representing homeowners, whose property rights are being subjected to
false foreclosure claims entities in cases who cannot provide evidence that any debt is owed to
the them without creating, recording and uttering forged documents into the public land and court
records.
Nora is not a protestor against a government policy. She is an officer of the Supreme
Court of Wisconsin provides her clients with their right to judicial redress of their grievances,
which is wholly lawful conduct. To punish Nora for engaging in conduct the law plainly allows
is "a due process violation of the most basic sort." Bordenkircher

v.

Hayes, 434 U.S. 357, 363,

98 S.Ct. 663, 54 L.Ed.2d 604 (1978). OLR's failure to establish "cause" on true facts inexorably
leads to the conclusion that OLR's active enforcement action, based on false facts and
misrepresentations of law, is further evidence that this prosecution is selective and vindictive,
pursued on behalf of Nora's litigation opponents for the purpose of chilling her representation of
her clients' rights in foreclosure actions.
CONCLUSION

OLR has wholly failed to rebut the prima facie case that it is proceeding on false factual
allegations and misrepresentations of existing law. Nora has made a p'rima facie case that OLR
is proceeding against Nora in violation of her fundamental rights to due process by selectively
and vindictively prosecuting her in an attempt to punish her for engaging in the lawful activity of
practicing law as an officer of this Court. Jurisdiction to proceed against an officer of the
Wisconsin Supreme Court does not arise from false factual allegations and misrepresentations of
10

302a

law. The Franks remedy must be granted. The false factual allegations and misrepresentations
of law in the Amended Complaint which OLR does not argue it reasonably believes are true must
be disregarded. The remaining allegations must be considered the operative complaint. If the
remaining allegations which survive the Franks remedy constitute cause to proceed against Nora,
jurisdiction to proceed will be established (subject to appeal). Nora then will file her Answer in
the time required by Wis. Stats. sec. 802.06(1). If the remaining allegations after the false and
misrepresented allegations are stricken do not constitute cause to proceed against Nora, this case
must be dismissed on the grounds that OLR lacked jurisdiction to initiate this action. Finally,
Count Three must be dismissed because there are no facts whatsoever to support Count Three
and, given opportunity to do so, OLR failed to support the charge against Nora identified as
Count Three.
Dated at Madison, Wisconsin this 141h day of April, 2016.
AN IMAGED COPY OF THE SIGNATURE BELOW
SHALL HAVB THE SAME FORCE AND EFFECT AS
THE ORIGINAL

Wendy Alison Nora, Attorney for Respo
ACCESS LEGAL SERVICES
310 Fourth Ave. S., Suite 5010
Minneapolis, Minnesota 55415
Central Office Voice (612) 333-4144
Central Office FAX (612) 206-3170
accesslegalservices@gmail.com
WI BAR # 1017043

11

303a

CERTIFICATION OF LENGTH OF REPLY BRIEF

The Respondent certifies that the Reply Brief consists of 10 pages of typewritten text,
exclusive of the case caption and signature block.

VI
���

WelldYAliS01lNTil Attorney for R

12

304a

APPENDIX I

305a

STATE OF WISCONSIN

IN THE SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST, WENDY ALISON NORA,
ATTORNEY AT LAW
CASE CODE 30912
CASE NO. 2015AP002442-D

OFFICE OF LAWYER REGULATION
Complainant;
WENDY ALISON NORA
Respondent.

DECISION ON ALL PENDING MOTIONS

PROCEDURAL HISTORY
This disciplinary case was commenced with the filing of a complaint by OLR on November
30, 2015. I was appointed referee on January 7, 2016.
At the time the complaint in this disciplinary was filed, there was another pending
disciplinary action against Attorney Nora known as Case Number 2013AP0006 53-D.

For

convenience, the parties have referred to the first pending disciplinary case as "Nora # 1." This
disciplinary case has been referred to as "Nora #2."
Nora#1 has been pending since March 20, 2013. The case is highly contested and there have
been voluminous motions, pleadings, and filings in that case. OLR has explained that the allegations
contained in the complaint in Nora #2 were presented as part of a proposed amended complaint in
Nora#1. The referee in that case did not allow amendment of the complaint to include the additional

1

306a

charges and OLR then filed this new disciplinary case, after following the procedures set forth in
Supreme Court Rules.
I have explained to the parties in this case that I am not the referee in Nora #1 and my duties
and responsibilities are limited to the allegations before me in Nora #2.
On January 19, 2016, OLR filed an amended complaint in this case.

My review and

comparison of the amended complaint with the original complaint reveals minor changes with no
new substantial allegations alleged by OLR.
Immediately after my appointment as referee in this case, I was presented with voluminous
pleadings, motions, briefs, and exhibits. The filings included, but are not limited to:

1.

Verified Jurisdictional Objection and Notice of Motion and Motion for a

Franks

Hearing to Dismiss for Lack of Probably Cause; Further or Alternative Motion to
Dismiss for Selective and Vindictive Prosecution; and Further or Alternative Motion
to Dismiss

as

a Sanction for Bad Faith Initiation and Continuation of These

Proceedings and the Companion Case Identified Herein as Nora #1.

2.

Appendix Part II. E xhibits to Verified Jurisdictional Objection and Notice of Motion
and Motion for a Franks Hearing to Dismiss for Lack of Probably Cause; Further or
Alternative Motion to Dismiss for Selective and Vindictive Prosecution; and Further
or Alternative Motion to Dismiss as a Sanction for Bad Faith Initiation and
Continuation of These Proceedings and the Companion Case Identified Herein

as

Nora #1.
I issued a substantial pre-trial scheduling order in this matter after a scheduling hearing was
held on February 17, 2016, at 11 :00 a.m. The scheduling order directed the Respondent to file any
additional motions and supporting briefs and authorities within 20 days of the scheduling order.
OLR was given 20 days to file a response. The scheduling order then provided that the Respondent
would have 10 days to reply to OLR's arguments. The pri mary purpose of the scheduling order was

to get all motions in front of me so that I could resolve all pending motions in a timely fashion.

2

307a

Respondent was told she did not need to re-file any motions already filed and that I would consider
them as part of my decision. Respondent was also advised that she could file any additional motions,
if she wished.
Given Attorney Nora's jurisdictional objections, the scheduling order, over the objection of
OLR, allows Attorney Nora to forego the filing of an answer to the amended complaint until the
jurisdictional motions are resolved. OLR has objected to that ruling arguing that it is unfair to OLR
to have to respond to these motions without having Respondent's answer to the amended complaint.
Both parties complied with the scheduling order and filed briefs and arguments. All time
limitations set forth in the scheduling order have now expired and I have reviewed all briefs and
documents filed by the respective parties. Given the substantial numbers of motions, appendixes, and
arguments filed by the Respondent, I have read, re-read and sometimes read a third time many of her
filings.
RESPONDENT'S MOTIONS
Respondent's motions rely in large part on her claim that many of the allegations in the
amended complaint are false.

Respondent's challenge to the truthfulness of allegations in the

amended complaint is the basis upon which she then proceeds with her various motions, which
include assertations that there is no probable cause for the amended complaint, that she is entitled
to criminal due process, and a general jurisdiction objection.
Arguing that the allegations of the amended complaint are false does not make the allegations
false.

It is OLR's burden to prove, by clear, satisfactory, and convincing evidence that the

Respondent has engaged in misconduct alleged in the amended complaint.

3

308a

Whether OLR can meet its burden of proof on each allegation is determined by hearing
pursuant to Supreme Court rules. The hearing shall be conducted as a trial of a civil action and the
rules of civil procedure and evidence shall be followed.
"SCR 22.16 Proceedings before

a

referee.

(1) The referee has the powers of a judge trying a civil action and
shall conduct the hearing as the trial of a civil action to the court. The
rules of civil procedure and evidence shall be followed. The referee
shall obtain the services of a court reporter to make a verbatim record
of the proceedings, as provided in SCR 71.01 to 71.03."
•

•

•

I have carefully reviewed the allegations made in the amended complaint.

Except for

Respondent's assertations, there is nothing in the allegations that leads me to believe the allegations
were not made after investigation and review pursuant to Supreme Court rules. Respondent is not
entitled to some kind of"preliminary hearing" during which she can challenge the allegations simply
because she says the allegations are false. While the rules of civil procedure allow challenge to a
complaint under certain circumstances, the complaint in this case is sufficient to give Respondent
notice of the charges against her and comply with procedural due process. Respondent will have the
opportunity to challenge all allegations during the disciplinary hearing in this case.
Respondent attempts to change the civil nature of this disciplinary proceeding to a criminal
action. Respondent's argument is that the United States Supreme Court in

In re Ruffalo, 390 U.S.

544, 88 S.Ct. 1222, 20 L.Ed.2d 117 (196 8), made disciplinary cases criminal in nature. In that case,
the United States Supreme Court was dealing with an attorney disciplinary case. During the course
of the hearing in that case, the complainant added an additional charge which the attorney in that
case had no knowledge of at the commencement of the hearing. The United States Supreme Court

4

309a

indicated that disciplinary proceedings are quasi criminal in nature and the subject attorney must be
informed of all charges before the disciplinary hearing commences. The United States Supreme
Court, in Ruffalo, did not make attorney disciplinary proceedings criminal in nature nor did the Court
adopt the constitutional due process standards for criminal cases. While the Court said the attorney
in

Ruffalo

was entitled to procedural due process, it did not hold that procedural due process

accorded to criminal defendants was applicable to attorney disciplinary proceedings.
I note that while the Respondent argues Ruffalo was decided over 50 years ago, Respondent

is unable to cite any cases that have applied criminal procedures and procedural due process
accorded to criminal defendants to attorney disciplinary cases since Ruffalo.
Under the false premise that attorney disciplinary cases are controlled by criminal due
process, Respondent next argues that she is entitled to a Franks hearing based upon

Delaware, 438 U.S. 154, 165, 57 L.Ed.2d 667, 98 S.Ct. 2674 (1978).

Franks

v.

Respondent cites no

authorities in support of her contention that she is entitled to a Franks hearing in this civil
disciplinary case.
I am unaware of any case decided since

is entitled to a Franks hearing in

an

Ruffalo that supports Respondent's claim that she

attorney disciplinary action. Franks dealt with a challenge to

the evidence which supported a search warrant in a criminal case. In Franks, the United States
Supreme Court provided the criteria under which a defendant charged in a criminal case was entitled
to challenge the basis for a search warrant in a hearing prior to trial.
This case is not a criminal case and the rules of civil procedure control. No warrants are
involved. Respondent is again trying to secure some kind of preliminary or probable cause hearing
so that she can challenge the allegations of the amended complaint before the formal hearing. Our

5

310a

Wisconsin Supreme Court rules do not provide for a "probable cause" hearing and instead set up
investigative procedures and a Preliminary Review Panel that provides procedural due process to the
Respondent.
Respondent further argues that:

"The Amended Complaint was filed without meeting the
jurisdictional requirement of reasonable cause to believe that OLR
may prove facts constituting professional misconduct by clear,
convincing and satisfactory evidence. " (Respondent's Reply Brief
Page 3.)
SCR 22.001 (2) provides that "cause to proceed" means a reasonable belief based on a review
of an investigative report that an attorney has engaged in misconduct or has a medical incapacity that
may be proved by clear, satisfactory and convincing evidence. OLR does not lose jurisdiction simply
because the Respondent claims allegations in the amended complaint are false and were filed without
meeting the jurisdictional requirement of reasonable cause. There is nothing before me that suggests
OLR filed the amended complaint without the belief that they could meet their burden of proof on
an all alleged facts.
Respondent's motion to dismiss for selected and vindictive prosecution must also be denied.
Essentially Respondent's argument is that because of her "actions" in defending herself in Nora#1,
OLR has piled on additional charges in the form of Nora #2.
Respondent has provided no evidence or authority to support her claim that OLR is being
vindictive. The filing of an additional disciplinary complaint is not proof of vindictiveness and the
filing of additional counts are not rare in attorney disciplinary proceedings.

6

311a

OLR asserts that the allegations of the amended complaint were investigated and went before
the Preliminary Review Committee. 1 Supreme Court rules were followed before the additional
counts in Nora #2 were filed.

Rather than filing an additional disciplinary complaint against

Attorney Nora, OLR originally sought to file an amended complaint in Nora#1. The referee in that
case denied that motion.
There is nothing before me that would lead me to conclude at this time that OLR is acting
in a selective or vindictive manner in filing the amended complaint in Nora #2. OLR cites ample
authority for the proposition that they have broad discretion in determining what misconduct counts
they will pursue.
In summary, Attorney Nora's motions collectively appear to be an effort to secure some kind
of preliminary or probable cause hearing before the actual formal disciplinary hearing in this case.
Claiming the allegations of the amended complaint are false and that she is entitled to a probable
cause hearing or Franks hearing in an attorney disciplinary case are not supported by any cited
authorities.

The Wisconsin Supreme Court rules control this matter and not Attorney Nora's

arguments that this is a criminal case and that she is entitled to procedural due process afforded
criminal defendants.
Given the above, there is no basis for Respondent's motions for Sanctions for Bad Fath
Initiation and Continuation of Both Cases or her Motion for Sanctions. Both are denied.
All of Attorney Nora's motions are denied. Attorney Nora shall have 20 days from the date
of this Decision to file an answer to the amended complaint. There will be no extensions of the 20

1

It is unclear whether the Preliminary Review Committee considered all allegations in both Nora #I and

Nora #2 at the same time or if there was a separate investigation and Preliminary Review Committee review of the
evidence that lead to Nora #2.

7

312a

day time limitation. All remaining terms of the scheduling order issued on February 18 , 2016, shall
remain in effect and shall be followed by the parties.

Dated at Milwaukee, Wisconsin, this

Jt

8

313a

APPENDIX J

314a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law
----------------------Office of Lawyer Regulation,
Complainant
v.

Case Code: 30912

Case No. 2015AP002442-D

Wendy Alison Nora,
Respondent

ANSWER AND AFFIRMATIVE DEFENSES;
CONTINUING OBJECTION AND RESERVATION OF RIGHTS

NOW COMES Wendy Alison Nora, maintaining her special appearance, and, under
protest for having been ordered on April 26, 2016 to Answer the January 19, 2016 Amended
Complaint filed by the Office of Lawyer Regulation (OLR), for all of the reasons previously set
forth on this record and set forth herein, answers, affirmatively defends, continues to object to
these proceedings as being filed in violation of her constitutional rights, reserves all of her rights,
and shows the Court:
ANSWER
1. Denies ¶1 of OLR’s Amended Complaint and affirmatively alleges:
a. OLR is not operating pursuant to Supreme Court rules in the initiation and
continuation of proceedings against Nora in this matter, but is pursuing these proceedings
without a good faith cause to believe that it can establish the facts which are denied herein by
clear, convincing and satisfactory evidence.

1

315a

b. Upon information and belief, OLR has not pleaded those facts for which cause to
proceed was determined in good faith by a panel appointed by the Preliminary Review
Committee (PRC).
c. These proceedings were initiated in violation of SCR 22.11(2) which provides:
(2) The complaint shall set forth only those facts and misconduct allegations for which
the preliminary review panel determined there was cause to proceed and may set forth the
discipline or other disposition sought. Facts and misconduct allegations arising under
SCR 22.20 and SCR 22.22 may be set forth in a complaint without a preliminary review
panel finding of cause to proceed.
d. Affirmatively alleges that these proceedings do not arise under SCR 22.20 or SCR
22.22.
e. Upon information and belief, because Nora was never provided with the the materials
submitted for review of the PRC and to any PRC panel assigned to consider the charged filed in
these proceedings, the investigative report was presented in a biased manner, suppressing
evidence which would exculpate Nora from the charges of ethics violations, and promoted the
charges as an add-on to the pending case of Nora #1, which OLR attempted to accomplish by a
Notice of Filing of a Second Amended Complaint in Nora #1 on September 25, 2015.
f. Affirmatively alleges that these proceedings are ultra vires.
g. Affirmatively alleges that these proceedings have been initiated for the purpose of
curtailing Nora’s litigation activities on behalf of her clients for the benefit of entities operating a
scheme to defraud the courts, the public and owners of real estate in Wisconsin and throughout
the nation,1 and has been successful in doing so by burdening Nora’s office with responses to

1

Those entities purport to operate in the “financial industry” and have captured regulatory
agencies, including, but not limited, to the United States Department of Justice (USDOJ), the Internal
Revenue Service (IRS), the Federal Bureau of Investigation (FBI), the Securities and Exchange

2

316a

unfounded charges, based on falsely sworn affidavits purporting to authentic forged documents
created by Grievant Attorney David M. Potteiger (Potteiger) in Nora #1, following the criminal
re-disclosure of Nora’s confidential medical records in violation of Wis. Stats. sec. 146.84(2)
without a public safety exception.
h. These proceedings have been commenced on the basis of an ultra vires continuing
investigation of Nora’s litigation practice generated by an open channel between Nora’s litigation
opponents, OLR investigator Travis J. Stieren (Stieren), and a wholly improper consulting
arrangement between OLR Assistant Litigation Counsel, Sheryl St. Ores and Grievant Potteiger,
who was asked to provide legal advice and consultation by St. Ores to assist her in the
prosecution of Nora.
i. Nora’s litigation practice in the defense of property owners against foreclosures seeks
to require that the real party in interest appear as plaintiff in judicial foreclosure actions in the
State of Wisconsin and prove by a preponderance of authentic evidence (and not upon forged
documents and falsely sworn affidavits) that the entity appearing before the court is entitled to
the equitable remedy of foreclosure provided at Chapter 846 of the Wisconsin Statutes.
j. OLR’s years-long ultra vires continuing investigation of Nora to aid and abet Nora’s
litigation opponents in their efforts to confiscate the real property interests of Nora’s clients who
resisted the attempts of mortgage servicers to proceed against them on false pleadings, based on
false documents and supported by falsley sworn affidavits, has culminated in these proceedings
against Nora, based on over four (4) dozen false factual allegations and almost a dozen

Commission (SEC), the Office of the Comptroller of Currency (OCC), and the United State Treasury and
now appear to have captured the Wisconsin Office of Lawyer Regulation.

3

317a

misrepresentations of law.
2. Admits ¶2 of OLR’s Amended Complaint.
3. Denies ¶3 of OLR’s Amended Complaint insofar as OLR has characterized the
reciprocal discipline entered in Disciplinary Proceedings Against Nora, 173 Wis. 2d 660, 495
N.W. 2d 99 (1993) (hereinafter, the 1993 Decision) and affirmatively alleges:
a. The 1993 Decision speaks for itself.
b. The 1993 Decision was based on actions taken by Nora during the Farm Crisis of the
1980s more than 25 years ago.
c. The conduct for which Nora was sanctioned by the 1993 Decision have not been
repeated by Nora.
d. OLR cannot demonstrate that the 1993 Decision is in any way relevant to this matter,
except insofar as OLR, which is acting ultra vires, seeks to justify its unauthorized initiation of
this case by referring to conduct for which Nora was sanctioned more than 20 years ago.
Regarding the Spencer Matter
OLR Matter No. 2014MA1570
Counts One-Three
4. Denies ¶4 of OLR’s Amended Complaint and affirmatively alleges that OLR knows or
should know that ¶4 is not only factually false but is legally impossible. A mortgage note was
not issued to Sheila Spencer in any amount. The allegation in ¶4 is made in violation of SCR
20:1.1 and 20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c). Moreover, because Nora has
repeatedly attempted to explain the factual falsity and legal impossibility of the allegations in
¶4, ¶4 has been pleaded in violation of SCR 20:3.1(1)(b) and (c), SCR 20:3.3(a)(1) and Wis.
Stats. sec. 802.05(2)(a).
4

318a

5. Denies ¶5 of OLR’s Amended Complaint and affirmatively alleges:
a. Starting in October, 2008, National City Bank (of Cleveland, Ohio) as the successor in
interest to National City Mortgage Company, an Ohio corporation, which merged with National
City Bank on October 1, 2008, became the mortgage servicer for the Federal Home Loan
Mortgage Corporation (Freddie Mac).
b. National City Bank (of Cleveland, Ohio) refused Ms. Spencer’s current loan payment
in order to obtain Troubled Asset Relief Program (TARP) funds because it was then and there
undercapitalized and was seeking an infusion of taxpayer funds to continue its operations.
c. National City Bank was denied TARP funds.
d. Nora has repeatedly attempted to inform OLR of the true facts underlying the
transaction at issue in the Spencer matter and that the allegation in ¶5 is made in violation of
SCR 20:1.1 and 20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶5, ¶5 has been
pleaded in violation of SCR 20:3.1(1)(b) and (c), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(a).
OLR’s heading: Circuit Court: Judge Potter, Counsel, Staff
Nora’s heading: The State Court Foreclosure Case Commenced by the Undisclosed
Mortgage Servicing Agent for Federal Home Loan Mortgage Corporation (commonly
known as Freddie Mac) Now Pending on Appeal to the Wisconsin Court of Appeals,
District IV in Case Nos. 2014AP002353 and 2015AP001826
6. Denies ¶6 of OLR’s Amended Complaint and affirmatively alleges:
a. “PNC Bank” did not file a foreclosure action as PNC Bank NA v. Sheila M. Spencer,
Wood County Case No. 2013TJ49 in October, 2008.

5

319a

b. It is legally impossible for a 2008 foreclosure action to be assigned Case No.
2013TJ49. Year assigned to the filing is 2013 and the designation “TJ” stands for Transcript of
Judgment.
c.

Nora has repeatedly attempted to inform OLR of the correct case title of the Spencer

foreclosure action and its case number.
d. The allegation in ¶6 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶6, ¶6 has been
pleaded in violation of SCR 20:3.1(1)(a) and (b), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(c).
7. Denies ¶7 of OLR’s Amended Complaint insofar as it implies that Nora became
successor counsel to Ms. Spencer in PNC Bank NA v. Sheila M. Spencer, Wood County Case
No. 2013TJ49 in May, 2012 and affirmatively alleges:
a. Nora has repeatedly attempted to inform OLR of the true facts underlying the
transaction at issue in the Spencer matter, the correct case number and the original and
subsequent titles of the case and OLR has persistently failed to identify the case in which Nora
appeared on Ms. Spencer’s behalf in May, 2012.
b. The allegation in ¶7 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c).
c. Because Nora has repeatedly attempted to explain the factual falsity of ¶7, ¶7 has been
pleaded in violation of SCR 20:3.1(1)(b), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(b).
8. Denies ¶8 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
6

320a

affirmatively alleges:
a. OLR has not correctly identified any case in which Nora supposedly made any such
allegations or any party or its attorneys in ¶8.
b. It is impossible for Nora to answer ¶8 because OLR does not identify the plaintiff,
related entities or attorneys who Nora supposedly alleged were “part of a grand, national
mortgage fraud scheme,” except to state that Nora has never alleged that any plaintiff, its related
entities, and its attorneys were “part of a grand, national mortgage fraud scheme” orally or in
writing at any time.
c. Nora pleads facts in support of defenses against foreclosure which involve allegations
of fraud when supported by evidence and where pursuit of such defenses is in the interest of her
clients, to the extent that such an undertaking is feasible, based on the limited resources of
property owners compared to the unlimited funding available to foreclosure claimants.
d. Nora has repeatedly attempted to inform OLR of the true facts in an existing
controversy now on appeal in the Spencer matter, including the correct case number for the
Spencer foreclosure case and the various identities which have been used to identify the
“plaintiff,” falsely pleaded to be the owner of Ms. Spencer’s Note and Mortgage.
e. OLR persists in failing to identify the case in which Nora is supposed to have alleged
that “the plaintiff, its related entities, and its attorneys were part of a grand, national mortgage
fraud scheme” after Nora’s extensive responses to OLR’s inquiries into the Spencer matter and
after Nora’s motions to dismiss the Complaint and Amended Complaint which specifically state
that ¶8 does not identify the Spencer foreclosure case which was filed in the Wood County
Circuit Court.

7

321a

f. OLR has made no effort to identify the correct case upon which it bases its allegations
in ¶8 and ¶5-30 and, upon information and belief, has never reviewed the case file in Wood
County Circuit Court Case No. 2009CV000283, commenced on April 7, 2009 in the name of
FNMC, a division of National City Bank of Indiana nka National City Bank v. Spencer, et al.,
despite the fact that Nora has long since informed OLR that the entire case file has been located
one floor below OLR’s office in the Tenney Building, 110 East Main Street, in Madison,
Wisconsin 53703 at the Wisconsin Court of Appeals since at least January, 2014 for almost 2 ½
years.
g. The allegation in ¶8 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c). Moreover, because Nora has repeatedly attempted to explain the factual
falsity of ¶8, ¶8 has been pleaded in violation of SCR 20:3.1(1)(b), SCR 20:3.3(a)(1) and,
because OLR has persisted in making false allegations, its conduct can only be explained as a
violation of Wis. Stats. sec. 802.05(2)(c).
9. Denies ¶9 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. Nora has repeatedly attempted to inform OLR of the case name and case number and
has repeatedly directed OLR to the location at which the entire court record for the actual case
involving the Spencer mortgage transaction may be found and which entire case file has been
located one floor below OLR’s office at the Clerk of Appellate Court at 110 East Main Street in
Madison, Wisconsin 53703 since early 2014, but OLR has failed and refused to examine the

8

322a

actual court record for the correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶9 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c).
e. Nora has repeatedly attempted to explain to OLR that the law of the State of
Wisconsin requires a party seeking to foreclose on Wisconsin real estate to establish that it is the
holder of the Note and there is nothing unethical about an attorney for a property owner to
require evidence of that fact. ¶9 has been pleaded in violation of SCR 20:3.1(1)(a), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(b).
f. The identity of the party holding the Note is the fundamental issue in Wisconsin
foreclosure proceedings because only the holder of the Note, or its authorized agent, is entitled to
enforce it. Dow Family, LLC v. PHH Mortgage Corporation, et al., 2014 WI 56, 354 Wis.2d
796, 848 N.W.2d 728 (2014).
g. ¶9 is entirely false and has been knowingly falsely alleged or has been alleged with
reckless disregard for the truth in violation of SCR 20:3.3(a)(1), is a product of incompetence in
violation of SCR 20:1.1 and/or lack of diligence in violation of SCR 20:1.4 and is falsely pleaded
for the purpose of harassing and maliciously injuring Nora in order to “curtail her litigation
activities” at the direction of the original grievant in the Nora #1 matter, David M. Potteiger
(Potteiger), who is the admitted agent of Fidelity National Financial, Inc. (Fidelity National.)
h. Fidelity National is an entity which, through a single subsidiary (DOCX), is
responsible for the filing of more than One Million forged documents in public records

9

323a

throughout the nation and stands to lose billions of dollars in damages claims if its criminal
activities are exposed in civil litigation and converted to judgments for actual and punitive
damages.2 Fidelity National is a vertically integrated corporation which is the parent company
of the notorious Lender Processing Services, Inc., now known as Black Knight Financial, LLC,
which operated virtual document creation facilities in Jacksonville, Florida; Mendota Heights,
Minnesota; and Las Vegas, Nevada, and continues to operate in Jacksonville, Florida and
Mendota Heights, Minnesota.
i. Nora commenced an action against Fidelity National and several of its subsidiaries in
the United States District Court for the District of Minnesota in Case No. 14-cv-04449. At the
behest of Potteiger, OLR initiated inquiry 2014MA002117 through OLR employees, Assistant
Litigation Counsel Sheryl St. Ores (St. Ores) and Investigator Travis Stieren (Stieren) on
November 18, 2014, at the behest of Potteiger, as part of an ultra vires “continuing investigation”
of Nora’s lawful litigation activities.
j. Responding to the inquiry in 2014MA002117 consumed a substantial amount of
Nora’s time and included an abusive and unjustified threat by Stiern against Nora for
noncooperation because she asked him some preliminary questions3 and was simply attempting

2

Nora is Co-Trustee of a Trust into which substantial litigation assets have been conveyed,
consisting in large part of the potential right of recovery of treble damages under the Racketeer
Influenced and Corrupt Organizations Act (RICO) (18 U.S.C. sec. 1961, et seq., specifically 18 U.S.C.
sec. 1964) and of the RICO Act entitled Crime Related to Racketeering at NRS sec. 207.350., et seq.,
specifically NRS sec. 207.470.
3

Unbeknowst to Nora until on and after March 31, 2016 when OLR belatedly produced
documents on Nora’s First Set of Requests for Written Discovery served on February 4, 2016 and for
which she had granted OLR an extension to March 22, 2016 as a professional courtesy at which time
OLR failed to comply, Stieren had long-standing dialogue with Potteiger (Exhibit 142 in Nora #1). Yet,
when Nora attempted to engage Stieren in a dialogue concerning the application of the Rooker-Feldman
doctrine and the function of a Pierrienger release in the Fidelity National Inquiry, Stieren threatened to

10

324a

to establish a dialogue with Stieren).
k. At the time of the “inquiry” identified as 2014MA002117, Nora was not informed that
the inquiry was part of an ultra vires “continuing investigation” on behalf of her litigation
opponents, being conducted by Stieren, who admitted on April 8, 2016 that there was no
authority for a continuing investigation before he suddenly claimed to have an emergency and
left the room in which the hearing was being conducted and thereby avoided further examination
on the subject.
l. Nora’s extensive cooperation with OLR, which is required by SCR 21.15(4), by which
she continuously sought to inform OLR of the factual and legal matters of public concern that she
was handling, appears to have had no value to OLR’s understanding of the issues now pending,
which are substantially similar to the issues involving the Fidelity National case, except that on
January 29, 2016, Stieren advised Nora that Director Sellen determined that the inquiry into
2014MA002117 would not be pursued on the basis that “the facts presented do not provide
‘clear, satisfactory and convincing’ evidence of misconduct.”
10. Denies ¶10 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. Nora has repeatedly attempted to inform OLR of the case name and case number and
directed OLR to the location at which the entire court record for the actual case involving the
Spencer mortgage transaction may be found, which has been located one floor below OLR’s

sanction Nora with a charge of failure to cooperate with an OLR investigation.

11

325a

office at the Clerk of Appellate Court at 110 East Main Street in Madison, Wisconsin 53703
since early 2014, but OLR has failed and refused to examine the actual court record for the
correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶10 is made in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), SCR 3.3(1)(a) (misrepresentation to a tribunal) and Wis. Stats. sec. 802.05(2)(c).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶10, ¶10 has
been pleaded in violation of SCR 20:3.1(1)(b), SCR 20:3.3(1) and Wis. Stats. sec. 802.05(2)(a).
f. If OLR had correctly identified the case in which Nora has represented Ms. Spencer in
the Wood County Circuit Court, Nora’s answer to the allegation that “the court determined
PNC Bank, N.A. was the correct party plaintiff” would be that there was an interlocutory
determination allowing a third falsely identified party, appearing in a false capacity as owner of
the Note, to attempt to prove that it had the right to foreclose on the real estate owned by Ms.
Spencer and that issue is currently on appeal.
g. Furthermore, that the entity identifying itself as “PNC Bank, N.A., successor by
merger to National City Bank, successor by merger to National City Bank of Indiana, a division
of which was FNMC” was allowed to appear in that identity does not mean that, as a matter of
fact or law, PNC Bank, N.A., successor by merger to National City Bank, successor by merger to
National City Bank of Indiana, a division of which was FNMC is entitled to judgment in the
correctly identified case because the Amended Complaint in Wood County Circuit Court Case
No. 2009CV000283 alleged that the entity is the owner and holder of a certain Note and
12

326a

Mortgage, which it could not and did not prove by any evidence whatsoever.
11. Denies ¶11 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. Nora has repeatedly attempted to inform OLR of the case name and case number and
directed OLR to the location at which the entire court record for the actual case involving the
Spencer mortgage transaction could be found, which case file has been located one floor below
OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison, Wisconsin
53703 since early 2014, but OLR has failed and refused to examine the actual court record for the
correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶11 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats.
sec. 802.05(2)(b) and (c).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶11, ¶11 has
been pleaded in violation of SCR 20:3.1(1) (b), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)
(c) and, because OLR persists in making the factually false allegations, OLR is in violation of
Wis. Stats. sec. 802.05(a).
d. OLR has failed to correctly identify the case or cases in which “[T]hroughout the
litigation, Nora accused opposing counsel of fraudulently concealing the identify of the real party
in interest and engaging in ‘actionable civil fraud and racketeering [that] may constitute state and
13

327a

federal criminal misconduct.”
e. During the course of her representation of Ms. Spencer, which representation
continues to this day in two pending appeals before the Wisconsin Court of Appeals, Nora
discovered that the real party in interest in the Spencer case was not the three (3) different names
in which the mortgage servicer proceeded against Ms. Spencer.
f. By commencing and continuing the action in three (3) false identities and capacities,
the entity which was actually the mortgage servicing agent for Freddie Mac, avoided federal
jurisdiction under 28 U.S.C. sec. 1349.
g. Three (3) different names were used to identify the purported to be the “owner and
holder” of Ms. Spencer’s mortgage all of which were, in actuality, the mortgage servicing agent
for Freddie Mac.
h. Although three (3) different names were used to identify the concealed mortgage
servicing agent which never pleaded its capacity as servicing agent, a fact which is no longer in
dispute.4

4

FNMC, a division of National City Bank of Indiana nka National City Bank commenced the
foreclosure action against Ms. Spencer on April 7, 2009 and alleged that it “is the owner and holder of a
certain note and mortgage”at ¶1 of the initiating Complaint, brought a Motion for Summary Judgment
supported by a falsely sworn affidavit of one Mendy Mundey, an employee of PNC Bank, N.A., who
claimed that the “plaintiff” was the owner of the Note. The Motion for Summary Judgment was filed on
March 31, 2010 on a unilaterally altered case caption, identifying PNC Bank, N.A., successor by merger
to FNMC, a division of National City Bank of Indiana n/k/a National City Bank as the “plaintiff.” The
“plaintiff’s” filings then proceeded under the unilaterally altered case caption identifying PNC Bank,
N.A., successor by merger to FNMC, a division of National City Bank of Indiana n/k/a National City
Bank, while the plaintiff was still identified as FNMC, a division of National City Bank of Indiana nka
National City Bank on the Wood County Circuit Court docket. Upon Ms. Spencer’s challenge to the
identity of the entity proceeding against her, PNC Bank, N.A., successor by merger to National City
Bank, successor by merger to National City Bank of Indiana, a division of which was FNMC was
allowed to appear as the plaintiff in the action on December 21, 2012 on an Amended Complaint which
still alleged, at ¶1, that it “is the owner and holder of a certain note and mortgage.” The third identified
entity was required, as a matter of law, to prove by a preponderance of evidence that it is the owner and

14

328a

i. Nora admits that in a case unidentified by OLR, she reported that the conduct involved
in the attempt to confiscate Ms. Spencer’s home for debt not owed to the foreclosure claimant
“constitutes actionable civil fraud and racketeering and may constitute state and federal criminal
misconduct” because she has a duty to report federal crimes under 18 U.S.C. sec. 4 under penalty
of being guilty herself of misprision of a felony.
j. Nora is required to report federal felonies of mail fraud and wire fraud of which she
has personal knowledge, to pursue direct appeals allowed by law, and to defend her clients’
interests within the bounds of the law. To attempt to punish Nora for doing what the law not only
allows her to do, but requires her to do is a violation of her due process rights. See
Bordenkircher v. Hayes, 434 U.S. 357, 98 S.Ct. 663, 54 L.Ed.2d 604 (1978), “To punish a person
because he has done what the law plainly allows him to do is a due process violation of the most
basic sort, . . . and for an agent of the State to pursue a course of action whose objective is to
penalize a person’s reliance on his legal rights [here, Nora’s affirmative duties] is “patently
unconstitutional.”
12. Denies ¶12 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.

holder of the (then discharged) Note and (unassigned) Mortgage. The serial plaintiffs concealed their
capacity as servicing agent for Freddie Mac until February 18, 2014 when it was finally admitted that
PNC Bank, N.A. was acting as the servicing agent for Freddie Mac, as successor to National City
Mortgage Company, just as Ms. Spencer had discovered on December 30, 2012 and had contended in
litigation since January 10, 2013.

15

329a

b. Nora has repeatedly attempted to inform OLR of the case name and case number and
directed OLR to the location at which the entire court record for the actual case involving the
Spencer mortgage transaction could be found, which case file has been located one floor below
OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison, Wisconsin
53703 since early 2014, but OLR has failed and refused to examine the actual court record for the
correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶12 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats.
sec. 802.05(2)(a) and (b).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶12, ¶12 has
been pleaded in violation of SCR 20:3.1(1)(a) and (b), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(c).
f. OLR has not correctly identified the case in which a scheduling conference was held in
a matter involving Ms. Spencer’s mortgage transaction on May 23, 2012 at which the presiding
judge converted a hearing scheduled for summary judgment to a scheduling conference.
g. No scheduling conference was ever held in the non-case identified by OLR.
h. The CCAP entry entitled PNC Bank NA v. Sheila M. Spencer, Wood County Case No.
2013TJ49 is not a foreclosure case and is not a civil proceeding at all, but is the record of a
judgment in a separate matter.
13. Denies ¶13 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
16

330a

a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. Nora has repeatedly attempted to inform OLR of the case name and case number and
directed OLR to the location at which the entire court record for the actual case involving the
Spencer mortgage transaction could be found, which case file has been located one floor below
OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison, Wisconsin
53703 since early 2014, but OLR has failed and refused to examine the actual court record for the
correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶13 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
e. Because Nora has repeatedly attempted to explain the factual falsity of ¶13, ¶13 has
been pleaded in violation of SCR 20:3.1(1)(a) and (b), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(a).
f. If OLR had correctly identified the case in which a scheduling conference was held in a
matter involving Ms. Spencer’s mortgage transaction on May 23, 2012, Nora would have
answered that there is a transcript of a hearing on May 23, 2012 in case which OLR has failed to
identify and that the transcript speaks for itself.
g. That at no time in the May 23, 2012 hearing in a case not identified by OLR did the
judge in that case state that the list of issues to be identified were to be “issues for summary
judgment.”
17

331a

h. In discovery, Nora will demand that OLR produce the copy of all documents in its
possession upon which it based its allegation in ¶13 and identify from whom OLR received the
document and when it received the documents.
14. Denies ¶14 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. Nora has repeatedly attempted to inform OLR of the case name and case number and
directed OLR to the location at which the entire court record for the actual case involving the
Spencer mortgage transaction could be found, which case file has been located one floor below
OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison, Wisconsin
53703 since early 2014, but OLR has failed and refused to examine the actual court record for the
correct case.
c. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully explicates the issues in the actual, properly identified case.
d. The allegation in ¶14 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
d. Because Nora has repeatedly attempted to explain the factual falsity of ¶14, ¶14 has
been pleaded in violation of SCR 20:3.1(1)(b), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)
(a).
e. If OLR had correctly identified the case in which a proposed order was supposedly
sent to Judge Potter and supposedly copied to Nora, Nora would have answered that the record in
18

332a

the unidentified case shows that a proposed order was mailed to the Court and that Nora did not
receive the proposed Order by mail from the attorneys representing the “plaintiff” and would
answer that the “plaintiff” was falsely identified three (3) times in the action which OLR failed to
correctly identify in this action: the unidentified action first pleaded named “FNMC, a division of
National City Bank of Indiana5 nka National City Bank6” as the Plaintiff on April 7, 2009; then,
on March 31, 2010, a Motion for Summary Judgment was filed under a case caption was
unilaterally changed to name PNC Bank, N.A., successor by merger to FNMC, a division of
National City Bank of Indiana n/k/a National City Bank as Plaintiff; and, finally, on December
21, 2012, the trial court allowed the case caption to be amended to name PNC Bank, N.A.,
successor by merger to National City Bank, successor by merger to National City Bank of
Indiana, a division of which was FNMC as Plaintiff.
f. Had OLR identified a case in which Nora represented Ms. Spencer in which a
proposed order was supposedly mailed to her and in which she does not dispute that a proposed
order was sent to the Court, Nora would have affirmatively alleged that the proposed order

5

National City Bank of Indiana ceased to exist on July 21, 2006, when it merged into National
City Bank (of Cleveland). A case filed on April 7, 2009 would not have been captioned in the name of
National City Bank of Indiana nka National City Bank, except for the purpose of deception. A merger
occurred on July 21, 2006, not a name change. The correct case caption for an action commenced on
April 7, 2009 would have been National City Bank, successor by merger to National City Bank of
Indiana, but for the attempt to deceive Ms. Spencer into admitting false ¶1.
6

The abbrieviation “nka” is presumed to mean “now known as.” FNMC was a trade name for
National City Mortgage Company, an Ohio corporation, under which National City Mortgage Company
did business in Maryland. The Maryland trade name registration expired on February 18, 2008. National
City Bank ceased to exist on November 9, 2009. The proposed order, which was not received by Nora
until it was retrieved directly from the Wood County Circuit Court record by Ms. Spencer, was captioned
PNC Bank, N.A., successor by merger to FNMC, a division of National City Bank of Indiana n/k/a
National City Bank and was unilaterally altered by Freddie Mac’s mortgage servicer without a motion
substitute or ratify the action or to amend the case caption on behalf of the entity claiming to be the
“owner” of Ms. Spencer’s (discharged) Note and (unassigned) Mortgage.

19

333a

speaks for itself and that the proposed order referred to listing issues for summary judgment,
whereas no where on the record of the proceeding on May 23, 2012 did the Court state that the
list of issues would pertain to summary judgment. Freddie Mac’s mortgage servicer was
attempting to prevent Ms. Spencer from obtaining relief on the basis of the issues raised by Nora,
which were not limited to issues for summary judgment.
g. In discovery, Nora will demand that OLR produce the copy of all documents in its
possession upon which it based its allegation in ¶14 and identify from whom OLR received the
document and when it received the documents.
15. Denies ¶15 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce the copy of the letter, proposed
order and affidavits of mailing in its possession and identify from whom OLR received the
document and when it received the documents.
c. Upon information and belief, OLR could not have received a letter, proposed order
and affidavits from the court record because it has not reviewed the court record or it would have
correctly identified the case in which the scheduling conference occurred on May 23, 2012.
d. Upon information and belief, ¶¶7-15 are not alleged based on OLR’s investigation of
the contents of the court records in an actual case, but are based on allegations made by Attorney
William N. Foshag in an ultra vires “continuing investigation” of Nora’s litigation on behalf of
herself and her clients, and which has never been presented to the Preliminary Review
20

334a

Committee for a determination of cause to proceed under SCR 22:11 prior to the filing of the
Complaint in these proceedings.
e. Had OLR correctly identified a case in which a letter, proposed order and affidavits
were submitted to Wood County Circuit Court Judge Potter, she would have answered that she
did not receive a copy of the documents until they were retrieved, at her direction, directly from
the Wood County Circuit Court Clerk by Ms. Spencer, after the order was signed by Judge Potter
in a case which has not been correctly identified by OLR.
16. Denies ¶16 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce the copy of Judge Potter’s letter
enclosing a copy of a signed order in its possession and identify from whom OLR received the
document and when it received the documents.
c. OLR could not have received the letter and signed order because it has not reviewed
the court record or it would have correctly identified the case in which the scheduling conference
occurred on May 23, 2012.
d. There is no letter from Judge Potter enclosing a signed order in the court record of an
actual case.
e. ¶16 is a false allegation, knowingly or recklessly made in violation of SCR
20:3.3(a)(1) because there is no letter from Judge Potter enclosing a copy of any signed order in
the record of the actual case.
21

335a

f. Upon information and belief, OLR is manufacturing fictitious facts, has obtained false
information from Grievant William N. Foshag, or simply orally inquired of some unidentified
witness as to whether or not a letter was sent to Nora, which no one from OLR ever verified by
simply walking down one flight of stairs in the Tenney Building (or taking the elevator) to
examine the complete court record of the actual case, which has been located at the Clerk of
Appellate Court’s office in Suite 215 of the Tenney Building since early, 2014, almost two (2)
years before these proceedings were initiated (apparently, without determination of the facts
allegedly constituting misconduct by a panel of the PRC).
17. Denies ¶17 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce the copy of any evidence in its
possession upon which it relies to plead ¶17.
c. OLR has knowingly or recklessly falsely alleged that Judge Potter ever sent any order,
final or otherwise, in any case which Nora has denied receiving.
d. ¶17 is a complete fiction and is a false allegation made in violation of SCR
20:3.3(a)(1).
18. Denies ¶18 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
22

336a

b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶18.
c. ¶18 is a complete fiction and is a false allegation knowingly or recklessly made in
violation of SCR 20:3.3(a)(1).
d. Had OLR identified an actual case in which Nora made an assertion regarding ex parte
communications involving a letter sent by Judge Potter enclosing a copy of a signed order, she
would have affirmatively defended against the allegation that she did not make any such
assertion in the correctly identified, actual case because Judge Potter never sent any such letter.
19. Denies ¶19 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶19.
c. ¶19 is a complete fiction and is a false allegation knowingly or recklessly made in
violation of SCR 20:3.3(a)(1).
d. Had OLR identified an actual case in which Nora made an assertion regarding ex parte
communications, she would have affirmatively defended against the allegation that she did not
make any such assertion in the correctly identified, actual case regarding any written
communications between Judge Potter and “plaintiff’s” counsel.
e. In the actual case, never identified by OLR, Nora’s assertions speak for themselves and
Nora would have affirmatively defended that her assertions were based on a good faith belief,
23

337a

based on evidence in her possession, at the time the assertions were made.
f. In the actual case, Nora’s assertions regarding ex parte communications were not based
on letters dated March 31, 2010, February 17, 2011 or June 20, 2011 and Nora’s contentions
regarding ex parte communications are in writings which speak for themselves.
20. Denies ¶20 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶20.
c. There was never any dispute that the affidavit of mailing referenced in ¶20 was filed in
an actual case.
d. Had OLR identified an actual case in which an affidavit related to a March 31, 2010
letter was filed, Nora would have affirmatively alleged that the issues of ex parte
communications she raised in an actual case, not identified by OLR, did not involve any issue
related to whether or not a March 31, 2010 letter was mailed to Ms. Spencer.
21. Denies ¶21 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶21.
24

338a

c. OLR fails to plead the fact that there are two letters dated February 17, 2011, which
form the basis of the dispute regarding ex parte communications in an actual case.
d. Had OLR identified an actual case in which a February 17, 2011 letter was filed, Nora
would have affirmatively alleged that the issues of ex parte communications she raised in an
actual case, not identified by OLR, was that there are two (2) versions of a February 17, 2011
letter: one was sent to the Court and refers to an “affidavit issue” and one, sent to Ms. Spencer,
which does not mention an “affidavit issue.”
e. The two (2) different versions of the February 17, 2011 letter are both in the court
record, presently located at the Clerk of Appellate Courts in the Tenney Building, and were
submitted under an order allowing the record to be supplemented.
f. Both versions of the February 17, 2011 letter are also a part of the record before the
Seventh Circuit Court of Appeals in No. 13-2676.
g. In the actual case, not identified by OLR, the issue does not involve a “letter” dated
June 20, 2011. It involves an order entered on June 21, 2011, entered without notice and hearing
to Ms. Spencer.
22. Denies ¶22 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶22.
c. Had OLR identified an actual case, Nora would have affirmatively defended on the
25

339a

grounds an attorney has a duty to move to disqualify a judge believed in good faith to be
engaging in or influenced by ex parte communications.
23. Denies ¶23 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶23.
c. Had OLR identified an actual case, Nora would have denied ¶23 because it is false and
that OLR knows or should know that the allegation in ¶23 is false because, in an actual,
unidentified case, Nora did not know that the third page of the transcript was missing until Ms.
Spencer inspected the court record in October, 2012 and informed Nora that the copy of the
transcript of the May 23, 2012 hearing on file in the Wood County Clerk of Circuit Court
contained a page which was not included in the transcript sent to Nora and sent page 3 of the
transcript to Nora. Upon being thus informed, Nora corrected the record as required by SCR
20:3.3(a)(1) forthwith.
24. Denies ¶24 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶24.
26

340a

c. Had OLR identified an actual case in which Nora referred to a May 23, 2012 transcript
and when she allegedly made the statements alleged, she could form an answer to ¶24.
d. Identifying word variances in transcripts between what was spoken and what was
recorded is not an ethics violation in any case and is the responsibility of counsel who ordered
the transcript.
25. Denies ¶25 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶25.
c. Had OLR identified an actual case in which Nora referred to a May 23, 2012
Transcript, she would form an answer to ¶25, but no further answer is necessary because OLR
has failed to identify an actual case in which Nora represented Ms. Spencer.
d. In general, however, an attorney has a duty to assure that a full and complete copy of a
verbatim transcript ordered for use in a proceeding is accurate.
26. Denies ¶26 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶26.
27

341a

c. Had OLR identified an actual case in which Nora referred to a May 23, 2012
transcript, she would form an answer to ¶26, but no further answer is necessary because OLR has
failed to identify an actual case in which Nora represented Ms. Spencer.
d. In general, however, an attorney has a duty to assure that a full and complete copy of a
verbatim transcript ordered for use in a proceeding is accurate.
e. Pleading only in the alternative, despite the fact that ¶26 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer, in an actual case, a verbatim transcript
was ordered, the complete transcript was necessary for Ms. Spencer’s case and that there is no
basis in fact or law for OLR to allege that it is unethical for an attorney to require the production
of a true and correct copy of a verbatim transcript of proceedings. OLR’s allegation in ¶26
falsely implies that Nora engaged in unethical conduct by requiring the production of a true and
correct copy of a verbatim transcript in an unidentified case.
27. Denies ¶27 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶27.
c. Had OLR identified an actual case in which Nora referred to a May 23, 2012 transcript
and when she allegedly made the statements alleged, she would form an answer to ¶27.
d. Pleading only in the alternative, despite the fact that ¶27 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer, Nora has never alleged that Judge
28

342a

Potter and the court clerk intentionally manipulated the court record in any case.
e. The allegation in ¶27 is false, OLR knows or should know that it is false, and ¶27 is
knowingly or recklessly falsely made.
f. The allegation in ¶27 is made in violation of SCR 20:3.3(a)(1) and, having been given
opportunity to correct ¶27, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting
in making the false allegation in ¶27, OLR is in violation of Wis. Stats. sec. 802.05(2)(a).
28. Denies ¶28 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶28.
c. Had OLR identified an actual case in which Nora referred to a May 23, 2012 transcript
and when she allegedly made the statements alleged, she would form an answer to ¶28.
d. Pleading only in the alternative, despite the fact that ¶28 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer, in an actual case, after the complete
transcript was found to have been filed in the record of the Wood County Circuit Court at the end
of October, 2012 (an incomplete transcript was sent to Nora in June, 2012), Nora informed the
Court that a missing page of the May 23, 2012 had been located when she corrected the record in
that case as required by SCR 20:3.3(a)(1) promptly, in early November, 2012.
29. Denies ¶29 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and
affirmatively alleges:
29

343a

a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶29.
c. Had OLR identified an actual case in which Nora filed a July 23, 2012 Amended
Motion, she would form an answer to ¶29.
d. Pleading only in the alternative, despite the fact that ¶29 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer, Nora moved to disqualify Judge Potter
in an existing case and filed an Amended Motion for the Disqualification of Judge Potter for
actual bias on or about July 23, 2012.
e. The characterization of the written Amended Motion is substantially inaccurate and is
recklessly made. The Amended Motion filed on or about July 23, 2012 in an actual case speaks
for itself and once again OLR has violated SCR 20:1.1 (competence), SCR 20:1.4 (diligence)
and by making a recklessly false allegation because it has not competently investigated the facts
it has alleged and has not diligently examined the court record in an actual case, OLR is in
violation of SCR 20:3.3(a)(2).
f. Having been given opportunity to correct ¶29, OLR is in violation of Wis. Stats. sec.
802.05(2)(c) and by persisting in making the false allegation in ¶29, OLR is in violation of Wis.
Stats. sec. 802.05(2)(a).
30. Denies ¶30 of OLR’s Amended Complaint in its entirety, puts OLR to its proof, and
affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
30

344a

County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶30.
c. Had OLR identified an actual case in which Nora filed a July 23, 2012 Amended
Motion, she could form an answer to ¶30.
d. Pleading only in the alternative, despite the fact that ¶26 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer in which such any motion was filed,
the allegation in ¶30 is made in violation of SCR 20:3.3(a)(1) and, having been given opportunity
to correct ¶30, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting in making
the false allegation in ¶30, OLR is in violation of Wis. Stats. sec. 802.05(2)(a).
e. The characterization of the written Amended Motion is substantially inaccurate and is
recklessly made. The Amended Motion in an actual case speaks for itself and once again OLR
has violated SCR 20:1.1 and SCR 20:1.4 by making recklessly false allegations because it has
not competently investigated the facts it has alleged and has not diligently examined the court
record in an actual case.
f. Having been given opportunity to correct ¶30, OLR is in violation of Wis. Stats. sec.
802.05(2)(c) and by persisting in making the false allegation in ¶30, OLR is in violation of Wis.
Stats. sec. 802.05(2)(a).
OLR’s heading: U.S. District Court: Judge Crabb
Nora’s heading: The Removal of Ms. Spencer’s Foreclosure Case to the United States
District Court for the Western District of Wisconsin
31. Denies ¶31 of OLR’s Amended Complaint in its entirety, puts OLR to its proof and

31

345a

affirmatively alleges:
a. There is no foreclosure case entitled PNC Bank NA v. Sheila M. Spencer, Wood
County Case No. 2013TJ49 filed in October, 2008 or at any other time.
b. On January 10, 2013, there was no motion for summary judgment pending against Ms.
Spencer in Wood County Circuit Court Case No. 2013TJ49.
c. In discovery, Nora will demand that OLR produce any and all evidence in its
possession which supports its allegation in ¶31.
d. Had OLR identified an actual case in which Nora what OLR alleges is a January 10,
2013 “motion to remove the case to the U.S. District Court for the Western District of
Wisconsin, U.S. District Court Judge Barbara A.(sic, middle initial B.) Crabb (Judge Crabb)
presiding, Nora would have answered.
e. Pleading only in the alternative, despite the fact that ¶31 of the Amended Complaint
refers to no case in which Nora represented Ms. Spencer in which such any motion was filed:
(1) The procedure for removal of state court civil actions, including class actions, to
federal jurisdiction is generally governed by 28 U.S.C. sec. 1441-1453.
(2) Removal is effective upon the filing of a Notice of Removal and is not brought by
motion.
(3) That OLR is pleading that federal jurisdiction is based on the filing of a motion,
demonstrates that OLR has not read the voluminous responses Nora made to its purported
inquiry in OLR Matter No. 2014MA1570, her two (2) Motions to Dismiss the November 30,
2015 Complaint and the January 19, 2016 Amended Complaint, or her proposed Complaint
based on true facts filed in connection with the Franks Motion portion of the Motion to Dismiss.

32

346a

(4) OLR’s ¶31 is made in violation of SCR 20:3.3(a)(1) and, having been given
opportunity to correct ¶31, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting
in making the false allegation in ¶31, OLR is in violation of Wis. Stats. sec. 802.05(2)
(a).
32. Admits ¶32 of OLR’s Amended Complaint and affirmatively alleges:
a. On December 30, 2012, Nora and Spencer discovered evidence that the real party in
interest in the foreclosure case filed in Wood County Circuit Court Case No. 2009CV000283 in
the name of FNMC, a division of National City Bank of Indiana nka National City Bank was
Freddie Mac.
b. Based on the discovery of that evidence, Nora removed Wood County Circuit Court
Case No. 2009CV000283 to the United States District Court for the Western District of
Wisconsin on January 10, 2013, within 30 days of discovery grounds for federal jurisdiction
under 28 U.S.C. sec. 1349.
33. Admits ¶33 of OLR’s Amended Complaint.
34. Denies ¶34 of OLR’s Amended Complaint and affirmatively alleges:
a. The brief opposing remand, which OLR has either not read or is incapable of
comprehending, speaks for itself.
b. Upon information and belief, OLR has not read Ms. Spencer’s March 4, 2013 Brief in
Response to the February 8, 2013 Motion for Remand, filed in the name of “PNC Bank, N.A.,
successor by merger to National City Bank, successor by merger to National City Bank of
Indiana, a division of which was FNMC” and its failure to do so violates SCR 20:1.1 and 20:1.4.
As a result of such failure, the allegation in ¶34 is a false characterization of Ms. Spencer’s

33

347a

Opposition to Remand, which speaks for itself.
35. Denies ¶35 of OLR’s Amended Complaint and affirmatively alleges:
a. March 25, 2013 Opinion granting the Motion for Remand speaks for itself.
b. OLR falsely claims the March 25, 2013 Opinion held that “federal jurisdiction did not
attach to the Spencer case” in violation of SCR 20:3.3(a)(1).
c. The allegation in ¶35 violates SCR 20:1.1 (competence) because OLR apparently does
not understand that federal jurisdiction immediately and automatically attaches to cases in which
a Notice of Removal is filed pursuant to 28 U.S.C. sec. 1446(a).
d. The false pleading of ¶35 violates Wis. Stats. sec. 802.05(2)(b) and (c) because it is
both knowingly or recklessly factually false and makes a legal contention not supported by
existing law or a good faith argument for the extension or modification of existing law.
e. Because Nora extensively responded to OLR’s inquiry in OLR Matter No.
2014MA1570 and essentially provided an appellate brief on the issues of removal jurisdiction,
her theory for the removal and the factual and legal bases for the removal, OLR’s allegation in
¶35 indicates that OLR (1) violated SCR 20:1.1 (competence) by failing to comprehend the law
of removal jurisdiction; and (2) failed to research the law of removal jurisdiction in violation of
SCR 20:1.4.
f. Upon information and belief, OLR has not read the March 25, 2013 Opinion which it
falsely claims held that “federal jurisdiction did not attach the Spencer case” or, if OLR read the
Opinion, it did not comprehend it, in violation of violates SCR 20:1.1 (competence) and 20:1.4
(diligence).
g. The falsity of the allegation violates Wis. Stats. sec. 802.05(b).

34

348a

36. Admits ¶36 of OLR’s Amended Complaint.
37. Admits ¶37 of OLR’s Amended Complaint and affirmatively alleges that the Motion
for Reconsideration on the issue of attorney’s fees is not frivolous because courts maintain
continuing jurisdiction over the issue of attorneys fees after remand.
38. Denies ¶38 of OLR’s Amended Complaint and affirmatively alleges:
a. Insofar as ¶38 states that the second motion for reconsideration was summarily denied.
b. The decision was entered on the second motion for reconsideration, which included
further award of attorney’s fees against Ms. Spencer for seeking relief from the first award of
attorney’s fees, alleged to be an abuse of discretion.
c. At the very least, the only possible legal conclusion arising from the denial of the
second motion for reconsideration which also awarded attorney’s fees is that the motion was not
summarily denied.
d. That OLR would allege that the second motion for reconsideration was summarily
denied is consistent with the fictional narrative OLR constructed in these proceedings. While
Nora enjoys good fiction as much as most, legal proceedings are not lawfully commenced by
pleadings which are works of fiction and fictional pleadings violate SCR 20:3.1, Wis. Stats. sec.
802.05.
39. Lacks sufficient information to admit or deny ¶39 of OLR’s Amended Complaint
and accordingly denies ¶39 and puts OLR to its proof. Nora will seek to discover what evidence
OLR has in its possession that supports ¶39. For avoidance of doubt, Judge Barbara B. Crabb
has not restrained herself, when addressing legal issues raised in Nora’s cases, from making
personal remarks about Nora’s efforts to represent her clients which were unnecessary to the

35

349a

disposition of the issues involved in Nora’s cases and are not based in facts in the record and
which appear to have been designed to cause her clients to have doubts about Nora’s professional
performance, contrary to the Standards for Professional Conduct Within the Seventh Circuit.7
40. Admits ¶40 of OLR’s Amended Complaint.
41. Lacks sufficient knowledge and information to admit or deny ¶41 of OLR’s
Amended Complaint and, accordingly denies ¶41 and puts OLR to its proof.
42. Admits ¶42 of OLR’s Amended Complaint and affirmatively alleges that the
unauthorized release of medical records filed under seal is an invasion of privacy, which is a
species of libel.
43. Denies ¶43 of OLR’s Amended Complaint and affirmatively alleges:
a. Judge Crabb is immune from suit for libel under the doctrine of judicial immunity and
the issue of her decisional invasion of privacy was raised in the context of Nora’s standing to
appeal from the order granting attorney’s fees on the remand order and has, as expected, led to
this very proceeding.
b. Whether an attorney has standing to appeal from nonfinancial or indirect financial
injury arising from a district court decision is treated differently from circuit to circuit and
constitutes a circuit court split, which may eventually be heard by the United States Supreme
Court.
7

Violations of the Professional Standards Within the Seventh Circuit are manifest in the conduct
of some of the Circuit Court Judges, who seem to thrive on frequently criticizing the advocates who
appear before them. Because some of the Circuit Court judges do not hold themselves to the standards
they have publicly set, it is regrettable but not surprising that the district court judges feel free to engage
in ad hominem attacks on attorneys who advocate unpopular causes, contrary to ¶2 of the Court’s Duties
to Counsel. Few causes today are more unpopular than foreclosure defense, which threatens to expose a
corrupt financial system. Nora’s integrity and professionalism has been impugned for the cause she
represents, contrary to ¶9 of the Professional Standards Within the Seventh Circuit.

36

350a

c. The best way to avoid attempts to appeal from factually unsupported and irrelevant
damaging and injurious remarks directed against attorneys is for district court judges not to make
them.
44. Lacks sufficient information to admit or deny ¶44 of OLR’s Amended Complaint and,
according denies the same and puts OLR to its proof.
45. Admits ¶45 and affirmatively alleges that, whereas Judge Crabb has judicial
immunity from suit for libel for damaging personal remarks against attorneys and parties in the
judicial decision-making process, she is not immune from suit for her nonjudicial acts.
46. Admits ¶46 of OLR’s Amended Complaint and affirmatively alleges:
a. Ms. Spencer had the right to appeal from the award of attorney’s fees against her;
b. Nora has an obligation to indemnify Ms. Spencer from the award of attorneys’ fees and
costs resulting from her decision to follow Nora’s advice to file the Notice of Removal on
January 10, 2013.
47. Admits ¶47 of OLR’s Amended Complaint and affirmatively alleges:
a. Nora planned to raise the issue of the circuit split by Petition to the United States
Supreme Court but was unable to do so because of the intervening September 14, 2014 car
accident injury.
b. Nora had a good faith basis to seek a modification of Seventh Circuit precedent to
conform to the law of the circuits who have acknowledged the standing of attorneys to appeal
from decisions which caused them nonfinancial or indirect financial injury.
48. Admits ¶48 of OLR’s Amended Complaint and affirmatively alleges that she
appealed from the award of attorney’s fees against Ms. Spencer to the Seventh Circuit because

37

351a

she has an obligation to indemnify Ms. Spencer from the award of attorneys’ fees and costs
resulting from her decision to follow Nora’s advice to file the Notice of Removal on January 10,
2013 and planned (but for the intervening September 14, 2014 car accident injury) to seek a
modification of Seventh Circuit precedent to conform to the law of the circuits who have
acknowledged the standing of attorneys to appeal from decisions which caused them nonfinancial
or indirect financial injury.
49. Admits ¶49(a) and (c) of OLR’s Amended Complaint, in part, and only to the extent
that a reasonable interpretation of the August 13, 2014 Decision of the Seventh Circuit Court of
Appeals in Case No. 13-2676 (the August 13, 2014 Decision) supports the characterization
contained in ¶49(a) and ¶49(c), denies ¶49(b) and affirmatively alleges:
a. ¶49(b) is false and knowingly or recklessly falsely pleaded in the context of the
August 13, 2014 Decision.
b. Once again, it appears that OLR has not read the August 13, 2014 Decision and is in
violation of SCR 20:1.4 (diligence).
c. Because it appears that OLR has not read the August 13, 2014 Decision and is
required, at a minimum, to read a decision upon which it relies in making an allegation in a
formal Complaint, OLR is also in violation of SCR 20:1.1 (competence).
50. Admits ¶50 of OLR’s Amended Complaint.
51. Admits, in part, and denies, in part, ¶51 of OLR’s Amended Complaint and
affirmatively alleges:
a. Denies ¶51(a) to the extent that it implies that the August 27, 2014 petition for
rehearing en banc was filed in response to the August 20, 2014 Order to Show Cause and filing a

38

352a

petition for rehearing en banc is conventional appellate practice before the United States Courts
of Appeal, which always involves the presentation of the issues of fact and law which were
erroneously decided by the panel. OLR appears to violate SCR 20:1.1 (competence) by alleging
¶51(a) because any competent attorney should know what a Petition for Rehearing En Banc is in
federal appellate practice or at least be able to read the rule which provides for it as required by
SCR 20:1.1 (competence) and SCR 20:1.4(diligence).
b. Admits ¶51(b) in that Nora did file a partial response to the Order to Show Cause,
which she was ordered to file on August 20, 2014.
c. Denies ¶51(c) insofar as it implies that the September 19, 2014 motion to stay
mandate was filed in response to the August 20, 2014 Order to Show Cause because a Motion to
Stay the Mandate pending consideration of whether or not an appeal should be taken to the
United States Supreme Court is conventional appellate practice before the United States Courts
of Appeal. OLR appears to violate SCR 20:1.1 (competence) by alleging ¶51(c) because any
competent attorney should know what a Motion to Stay the Mandate is in federal appellate
practice or at least be able to read the rule which provides for it as required by SCR 20:1.1
(competence) and SCR 20:1.4(diligence).
d. Admits ¶51(d) insofar as Nora filed a citation to additional authority on October 3,
2014, which is allowed under the Federal Rules of Appellate Procedure and the Rules of the
Seventh Circuit Court of Appeals.
e. Denies ¶51(e) insofar as OLR states that the car accident injury was mild; Nora stated
that she was suffering from a mild cognitive impairment as a result of a car accident injury and
did not state that the injury itself was mild; Nora suffers from the car accident injury to this day.

39

353a

Affirmatively alleges that even with a mild cognitive impairment, an attorney is incapacitated
from competent performance in litigation. Further affirmatively alleges that the request for
postponement of the hearing on the Order to Show Cause was not a “response” to the Order to
Show Cause and was made necessary by an intervening car accident injury.
52. Denies ¶52 of OLR’s Amended Complaint and puts OLR to its proof.
53. Admits ¶53 of OLR’s Amended Complaint.
54. ¶54 of OLR’s Amended Complaint is duplicative of ¶50(c) and Nora answers, again:
That the September 19, 2014 Motion to Stay the Mandate was not filed in response to the
August 20, 2014 Order to Show Cause and is conventional appellate practice before the
United States Courts of Appeal.
55. Denies ¶55 of OLR’s Amended Complaint and affirmatively alleges:
a. The Order of October 2, 2014 entered by the Seventh Circuit Court of Appeals in No.
13-2676 was not final until time for moving for panel rehearing or for rehearing en banc expired,
which, had Nora not been injured in a car accident on September 14, 2014, Nora would have
sought.
b. The Order of October 2, 2014 became final on October 18, 2014, when Nora did not
file a motion for panel rehearing or rehearing en banc under Fed. R. App. P. 40 and Seventh
Circuit Local Rule 40.
c. It appears that OLR did not read the Federal Rules of Appellate Procedure when it
alleged that the October 2, 2014 Order in Seventh Circuit Court of Appeals No. 2676 in violation
of SCR 20:1.4 (diligence) insofar as OLR alleges that the Order entered on October 2, 2014 was
a final Order .
56. Admits ¶56 of OLR’s Amended Complaint and affirmatively alleges:

40

354a

a. The Order of October 2, 2014 entered by the Seventh Circuit Court of Appeals in No.
13-2676 on October 2, 2014 did not involve the Order to Show Cause issued to Nora on August
20, 2014.
b. It appears that OLR has not read the record of the proceedings before the Seventh
Circuit Court of Appeals in No. 2676 in violation of SCR 20:1.4 (diligence) because OLR falsely
alleged at ¶49(b) that an Order sanctioning Nora was entered on August 13, 2014 and in ¶56,
OLR alleges that the yet-to-be final Order of October 2, 2014 “was silent on the issue of whether
it would issue any additional sanction against Nora.”
c. Affirmatively alleges that the Order to Show Cause hearing was not scheduled to be
heard until October 28, 2014 and it was not possible that any sanctions would be issued against
Nora, initial or additional, until on or after that date.
d. OLR’s allegation in ¶56 was pleaded in violation of SCR 20:1.1 (competence), SCR
20:1.4 (diligence) and is a misrepresentation of fact in violation of SCR 20:3.3(a)(2) which OLR
knows or should know to be false.
57. Admits ¶57 of OLR’s Amended Complaint and affirmatively alleges that there is
nothing unethical about submitting additional authority to an appellate court, when pertinent new
law becomes available after an issue is submitted to the Court.
58. Admits ¶58 of OLR’s Amended Complaint.
59. Admits ¶59 of OLR’s Amended Complaint, to the extent that it is a verbatim
quotation of a portion of the February 11, 2015 Decision of the Seventh Circuit Court of Appeals
resulting from the October 28, 2014 hearing on the August 20, 2014 Order to Show Cause and
affirmatively alleges:

41

355a

a. Nothing in the February 11, 2015 Decision supports an allegation that Nora knowingly
or recklessly violated SCR 20:3.1(a) or (b) by removing the state court foreclosure action and
there is nothing in the verbatim quotation which covers more than 2 pages of single-spaced text
which supports a finding that Nora violated SCR 20:3.1( c).
b. Nothing in the February 11, 2015 Decision supports an allegation that Nora violated
SCR 20:3.2 by appealing from the awards of attorneys’ fees in Seventh Circuit Case No. 132676.
b. It appears that OLR cannot find any facts or law appearing in the verbatim text starting
at the bottom quarter page of page 10 of OLR’s Amended Complaint and covering the entire
pages 11 and 12 of OLR’s Amended Complaint to support its allegation of any ethics violation
whatsover because nothing in the verbatim quotation covering more than 2 pages, in singlespaced format supports a finding of any violation of the Wisconsin Rules of Professional
Conduct.
c. Nora made no argument to the district court following the March 25, 2013 Order for
Remand to change the existing law which deprives the district court of jurisdiction to reconsider
a remand order because she never sought reconsideration of the remand order. She sought
reconsideration of the award of attorney’s fees, over which the Court had continuing jurisdiction.
60. Admits ¶60 of OLR’s Amended Complaint, to the extent that it is a verbatim
quotation of a portion of the February 11, 2015 Decision of the Seventh Circuit Court of Appeals
in No. 2676 resulting from the October 28, 2014 hearing on the August 20, 2014 Order to Show
Cause.
COUNT ONE

42

356a

61. Denies ¶61 of OLR’s Amended Complaint and affirmatively alleges that OLR has
failed to support ¶61 with any factual allegations to support the several conclusions of law
contained therein, to wit:
a. That Nora knew or should have known that there was no colorable basis for federal
jurisdiction when it was discovered that Freddie Mac was the real party in interest claiming to
own Ms. Spencer’s discharged Note and the unassigned mortgagee interest on her home as
required by SCR 20:3.1(a)(1), when 28 U.S.C. sec. 1349 establishes federal jurisdiction in cases
in which the real party in interest is a federally-chartered corporation in which the United States
owns more than a 50% interest, which Freddie Mac was and still is.
b. That Nora knowingly asserted a factual position which was frivolous, when it is was
discovered and is now undisputed that the party claiming the beneficial interest in the unassigned
mortgage granted in the name of FNMC, a division of National City Bank of Indiana (a
nonexistent entity) was indeed Freddie Mac so that Nora advanced a position based on evidence
of a true fact which is now undisputed, so that Nora could not have violated SCR 20:3.1(a)(2).
c. That it was obvious to Nora that the removal action would serve merely to harass or
maliciously injure another, when, in fact, Nora had a good faith basis for her belief that the
January 10, 2013 removal to federal court was justified by the December 30, 2012 discovery that
Freddie Mac, a federally-chartered corporation in which more than 50% of the capital stock was
(and is) owned by the United States, which was (and is) in the conservatorship of the Federal
Housing Finance Agency (FHFA), and whose profits are paid to the United States Treasury, was
the real party in interest in the Spencer case, which had been concealed by false pleadings by
counsel for the falsely identified plaintiff, who claimed to own the (discharged) Note and

43

357a

unassigned Mortgage, when it did not. OLR fails to identify who Nora intended to harass or
maliciously injure by the removal action.
d. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶4-60 of the Amended Complaint.
COUNT TWO
62. Denies ¶62 of OLR’s Amended Complaint and affirmatively alleges:
a. There is no evidence that the appeal delayed the Spencer litigation, which OLR does
not even correctly identify.
b. The appeal was from an order granting attorney’s fees to a party which has now been
shown to have filed false pleadings against Ms. Spencer.
c. Appeals from awards of attorneys’ fees delay nothing, not even attempts to collect the
attorneys’ fees unless a stay is sought and granted (which was never sought).
d. Nora appealed on her own behalf as well as Ms. Spencer because she has a duty to
indemnify her client from the award of attorneys’ fees.
e. The Seventh Circuit Court of Appeals’ precedents which hold that attorneys who are
injured by sanctions orders that do not involve a direct order for payment of money is in conflict
with the decisions of other circuits, which allow such appeals and Nora had a good faith
argument to extend or modify existing Seventh Circuit law to allow attorneys to appeal from
district court rulings from nonfinancial or indirect financial injuries which can result in the very
kind of proceeding which is now before this Court.
f. It was the false plaintiff in the Spencer case which was removed to federal jurisdiction
which delayed the proceedings, not Ms. Spencer:

44

358a

(1) Nora completely and thoroughly analyzed the delay in the Spencer state court case in
her August 5, 2016 Brief in response to the Orders for Briefs entered by Judge William M.
Conley on July 24, 2015 (Docs. 5 and 6). As of August 5, 2015 when the calculations were made
in order to respond to Judge Conley’s Orders, the state court foreclosure case had been pending
for 2523 days of which 416 days (or 16.49%) of the delay the in state court case was the result of
Ms. Spencer seeking relief in bankruptcy court, seeking 90 days to perform discovery (which was
not undertaken by Ms. Spencer’s former counsel, who was then relieved of his responsibility for
her representation) and removing the case to the United States District Court for the Western
District of Wisconsin and that, otherwise, the falsely identified “plaintiff” had unfettered access
to the state court for pursuit of its false action against Ms. Spencer. The majority of the delay
was attributed to the “plaintiff” making false allegations in its Complaint and Amended
Complaint, supporting its Complaint and then its Amended Complaint with an UNENDORSED
copy of the Note Ms. Spencer made payable to “FNMC, a division of National City Bank of
Indiana,” which was later alleged to have been ENDORSED in blank more than three and one
half years (3 ½ years) earlier and supporting its first motion for summary judgment with a falsely
sworn affidavit, which was concealed from Ms. Spencer by the creation of two (2) different
letters dated February 17, 2011 (one sent to the Court referring to an “affidavit issue”, falsely
cc’d to Ms. Spencer, and the other sent to Ms. Spencer and not to the Court which does not refer
to an affidavit issue).
(2) By refusing to plead its capacity as servicing agent the “plaintiff” delayed the case by
203 days after the appearance of new counsel for Ms. Spencer. The “plaintiff” brought 2 false
motions for summary judgment based on an UNENDORSED copy of the Note, re-opened the

45

359a

case and vacated the first falsely acquired summary judgment without notice and opportunity to
be heard being provided to Ms. Spencer (delaying the case for an additional almost one and one
half (1 ½ years), requesting and receiving additional time to file a third motion for summary
judgment, thereafter delaying the filing of the third motion for summary judgment after the
February 25, 2014 dismissal of Ms. Spencer’s Chapter 13 case (WIWB Case No. 13-15076) until
September 13, 2014 (197 days).
(3) The appeal from the award of attorneys’ fees to the false plaintiff delayed nothing.
COUNT THREE
63. Denies ¶63 of OLR’s Amended Complaint and affirmatively alleges:
a. There is not one fact, true or false, alleged by OLR which supports the conclusion that
Nora engaged an “ongoing pattern of conduct to harass other parties and judicial officers and
delay the proceedings” (in a state court case which OLR does not even correctly identify).
b. The conclusory allegation at ¶43, is a conclusion of law, unsupported by any true facts.
c. OLR fails to allege any true facts to support its claim that Nora harassed “other parties
and judicial officers,” except in the headings provided by OLR, which are not operational factual
allegations and, again, the conclusory allegation at ¶43. The unidentified “parties” which OLR
fails to name would, by implication, include the falsely identified entities appearing in Wood
County Circuit Court case incorrectly identified by OLR and their affiliates and agents, but
would also include their attorneys who are not named by OLR but likely include Attorney
William N. Foshag (Foshag) of Gray & Associates, LLP, who filed the false Complaint alleging
the false plaintiff is the owner and holder of Ms. Spencer’s Note and Mortgage and his CoGrievant Potteiger, who admits that he represents an entity, Fidelity National Financial which,

46

360a

through its agents and subsidiaries, operates one of the most prolific document forgery services
in the nation.
d. There is no factual basis in the Amended Complaint, true or false, for the conclusion
in OLR’s ¶63 and Nora affirmatively defends:
(1) Nora has the utmost respect for the Constitution of the United States and the States of
Wisconsin and Minnesota where she is admitted to practice, the statutes and rules of courts of the
United States and the several states and the Rule of Law. She is not without flaws as a human
being but strives diligently to examine her professional conduct and to avoid unnecessary harm to
any other human being.
(2) Nora respects judicial officers when they are performing their appointed and elected
duties constitutionally.
(3) Nora believes that no one is above the law and that corporations, being creatures of
statute, are subject to human governance and must be held accountable when they cause harm to
human beings.
(4) There are no facts alleged true or false which support a conclusion that Nora has
counseled or maintained any suit or proceeding which appears to her to be unjust nor any
allegation that she has pursued an unjust defense for Ms. Spencer, whose current mortgage
payment was refused by National City Bank to create the appearance of default, and who had put
her entire life’s earning into her home in a downpayment of almost $100,000.00 (more than one
third of the market value of her home) and 3 times the amount the false plaintiff is guaranteed to
recover as servicing advances from Freddie Mac.

47

361a

Regarding the Rinaldi Matter
OLR Matter No. 2015MA614
Counts Four-Five
64. Denies ¶64 of OLR’s Amended Complaint insofar as it alleges that Nora represented
the Rinaldis in their state foreclosure actions and admits that Nora represented the Rinaldis Case
No. 13-CV-336 into which Case No. 13-CV-643 was consolidated until April 9, 2014 and for
most of their appeal to the Seventh Circuit Court of Appeals in Case No. 13-13865 and some of
their appeal in Case No. 14-1887, including at oral argument before the Seventh Circuit Court of
Appeals.
65. Denies ¶65 of OLR’s Amended Complaint and affirmatively alleges:
a. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
b. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
c. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
66. Denies ¶66 of OLR’s Amended Complaint.

48

362a

a. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
b. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
c. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
67. Denies ¶67 of OLR’s Amended Complaint, and affirmatively alleges:
a. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
b. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
c. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers

49

363a

representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008.
68. Denies ¶68 of OLR’s Amended Complaint insofar as it implies the truth of the
allegations at ¶¶ 64-67, on the further grounds set forth below, and affirmatively alleges:
a. On January 26, 2010 an Order for Judgment was entered on false pleadings, brought in
the name of a nonexistent entity, claiming ownership of a Note made payable to Wells Fargo
Bank, N.A. (Wells Fargo Bank), attached to the Complaint as a “true” copy, which was not
endorsed, and on a Complaint to which an unassigned Mortgage conveying a mortgagee interest
to Wells Fargo Bank was also attached.
b. On February 2, 2010, Judgment of Foreclosure was entered against the Rinaldis and in
favor of HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset Securities
Corporation Home Equity Asset-Backed Certificates, Series 2005-2, a nonexistent entity.
c. The Rinaldis brought a motion to vacate judgment which was pending at the time that
the attorneys representing Wells Fargo Bank, pretending to be representing HSBC Bank USA,
National Association, as Trustee for Wells Fargo Asset Securities Corporation Home Equity
Asset-Backed Certificates, Series 2005-2, a nonexistent entity, petitioned the state court to reopen the judgment and dismiss the false Complaint.
d. The Order for Judgment and the Judgment entered in the state court foreclosure case
was re-opened and the state court foreclosure action against the Rinaldis was dismissed on
petition of the pretended plaintiff in that action on January 18, 2011.
e. The falsity of this allegation demonstrates that OLR has not reviewed the essential

50

364a

documents pertaining to the state court foreclosure action to which OLR pretends to refer.
f. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
g. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008.
69. Denies ¶69 of OLR’s Amended Complaint and affirmatively alleges:
a. The Rinaldis were not heard on the unilateral petition of the attorneys representing
Wells Fargo Bank to re-open the judgment of foreclosure and dismiss the case, based on a Loan
Modification Agreement, signed by Roger Rinaldi, which was never returned executed by any
other party to the agreement.
b. The only time a copy of the purported Loan Modification Agreement ever appeared
was in Rinaldis’ bankruptcy case in Eastern District of Wisconsin Case No. 11-35689. The
purported Loan Modification Agreement appeared to have been executed by an employee of
Wells Fargo Bank.
c. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.

51

365a

d. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
e. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
70. Denies ¶70 of OLR’s Amended Complaint, except insofar as it alleges that Nora
entered her appearance for the Rinaldis after the action was filed pro se as co-counsel with
Attorney Kim A. Lewis of Twin Lakes, Wisconsin, in a second state court action and
affirmatively alleges:
a. The Loan Modification Agreement was never “finalized,” according to its terms,
which required a copy of the Agreement to be returned to Roger Rinaldi by mail.
b. The Rinaldis did not assert counterclaims against the parties named in the second
state court action in the foreclosure action, nor could they, because the parties named in the
second state court action were not parties to the foreclosure action.
c. The Rinalidis could not have “reasserted their counterclaims” against the same parties
in the second action because the parties defendant in the second action were not before the court
in the foreclosure action.

52

366a

d. The Rinaldis, pro se, did not know that they could file a Third-Party Complaint against
the parties named in the second state court action and apparently OLR and whoever is advising
OLR in these proceedings does not know that counterclaims may only be brought against the
plaintiff.
e. ¶70 is evidence of selective and vindictive prosecution of Nora because Attorney
Lewis is not mentioned as being co-counsel with Nora for the Rinaldis and was never contacted
by OLR with respect to the positions taken by Attorneys Lewis and Nora in the second state court
action.
f. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action or the second state court action
which the Rinaldis commenced pro se, to which OLR pretends to refer.
g . The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in
violation of Wis. Stats. sec. 802.05(1)(b).
h. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
71. Denies ¶71 of OLR’s Amended Complaint insofar as it implies that the defendants
in the second state court action initially moved to dismiss with prejudice and affirmatively allege:

53

367a

a. The defendants initially moved for dismissal of the action for lack of personal
jurisdiction, based on insufficient service of process.
b. On the Rinaldis’ behalf, Attorneys Nora and Lewis agreed to dismissal of the action
for insufficient service of process, which is not an adjudication on the merits.
c. After the Rinaldis agreed to dismissal for insufficient service of process, the
defendants moved to dismiss the action with prejudice.
d. The action was eventually dismissed without prejudice on January 29, 2015, just as
Attorneys Nora and Lewis had offered to do in September, 2011.
e. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action or the second state court action
which the Rinaldis commenced pro se, to which OLR pretends to refer.
f . The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in
violation of Wis. Stats. sec. 802.05(1)(b).
g. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
72. Denies ¶72 of OLR’s Amended Complaint insofar as it implies that it is unethical
for anyone to file a bankruptcy proceeding “before a state court could rule” on any matter and

54

368a

affirmatively alleges:
a. ¶72 is evidence of OLR’s selective and vindictive prosecution of Nora because it does
not identify the attorney who filed the Rinaldis’ bankruptcy case “before the state court could
rule” and if such an allegation constitutes unethical conduct (it does not) the attorney who filed
the Rinaldis’ bankruptcy case on October 14, 2011 as Case No. 11-35689 would have to be
identified.
b. Nora was substituted as counsel for the Rinaldis’ case in WIEB Case No. 11-35689 on
November 18, 2011 in order to respond to the Motion for Relief from the Automatic Stay filed
on November 4, 2011 in which a second version of a copy of the Note suddenly appeared to have
been endorsed and was not the “true” copy of the Note attached to the Complaint in the state
court foreclosure case (which had been dismissed) and an unrecorded AOM which was not
attached to the state court foreclosure and pre-dated the first recorded AOM were produced as
Exhibits.
c. The second state court action was dismissed without prejudice for insufficient service
of process on January 29, 2015, just as Attorneys Lewis and Nora proposed to do in September,
2011.
d. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action, the second state court action
which the Rinaldis commenced pro se, or WIEB Case No. 11-35689 to which OLR pretends to
refer.
e. The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in

55

369a

violation of Wis. Stats. sec. 802.05(1)(b).
f. The only explanation for OLR’s persistent pursuit of the Amended Complaint on false
factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to conceal
the violations of Wis. Stats. sec. 946.12, by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
73. Denies ¶73 of OLR’s Amended Complaint and affirmatively alleges:
a. “HSBC” did not file a Proof of Claim in the Rinaldis’ bankruptcy case, WIEB Case
No. 11-35689.
b. Wells Fargo Bank filed Proof of Claim #6 in Case No. 11-35689 on behalf of an entity
identified as HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates, Series 20052, an entity which does not exist as a matter of law because a series of Certificates of Interest in a
Real Estate Mortgage Conduit (REMIC) Trust has no de jure existence; if HSBC Bank USA,
N.A. is a Trustee, it must be the Trustee of a Trust and not of a Certificate Series.
c. HSBC is not the holder of the June 10, 2005 Note made payable to Wells Fargo Bank.
d. An endorsement suddenly appeared on the Note for the first time in the Rinaldis
bankruptcy WIEB Case No. 11-35689 on November 4, 2011 at Doc. 7, which appears to be an
integrated stamp displaying the signature of Joan M. Mills, in the purported capacity of Vice
President, Wells Fargo Bank, N.A.
e. Joan M. Mills was never a Vice President of Wells Fargo Bank.

56

370a

74. Denies, in part, and admits, in part, ¶74 of OLR’s Amended Complaint and
affirmatively alleges:
a. Denies that Nora, on behalf of the Rinaldis, filed adversary claims against the parties
that the Rinaldis had “counter-claimed against in the state action.”
b. Admits ¶74 to the extent that Nora objected to the Proof of Claim brought by Wells
Fargo Bank in the name of HSBC Bank USA, National Association as Trustee for Wells Fargo
Home Equity Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates,
Series 2005-2, an entity which does not exist.
c. Nora was ordered to file the Adversary Complaint by the bankruptcy court judge in
Case No. 11-35689.
d. At the time Nora filed the adversary proceeding, under order of the bankruptcy court,
Nora was informed and believed that the name of the entity against whom the Rinaldis were
entitled to proceed on their claims was the Wells Fargo Home Equity Trust 2005-2 because a
Trust with the stock ticker identification of WFHET 2005-2 had been identified.
e. Nora later learned there were two similarly named entities (“Trusts”) reported as
existing to the Securities and Exchange Commission (SEC): the Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust (WFHET 2005-2) and the Wells Fargo Mortgage Backed
Securities 2005-2 Trust and that the entity named as a defendant, Wells Fargo Home Equity Trust
2005-2, does not exist.
f. Counsel for Wells Fargo Bank, Attorney Stephanie Dykeman, appeared on behalf of
the Wells Fargo Home Equity Trust 2005-2 (WFHET 2005-2), a nonexistent entity, in the
adversary proceeding filed as Adv. No. 12-ap-2412 and she also appeared in an adversary

57

371a

proceeding filed by the Rinaldis in their second bankruptcy case (Case No. 15-22937) on April
29, 2015 as Adversary No. 15!02186, claiming to represent HSBC Bank USA, N.A. as Trustee
for the Wells Fargo Home Equity Asset-Backed Securities 2005-2 Trust (WFHET 2005-2), a
“similarly named entity,” which does, in fact, exist.
g. A plaintiff might not know the exact, correct name of a defendant at the time an action
is filed, despite diligent efforts to identify a party liable for the claim, but attorneys making
appearances for parties must know the identities of the parties for whom they appear.
h. At no time during Adv. No. 12-ap-2412 did counsel for Wells Fargo Bank seek
dismissal of the adversary proceeding on the basis that the entity being sued by the Rinaldis did
not exist.
i. In her Decision of February 22, 2013 at page 16, Judge Susan V. Kelley held that “any
similarly named entity (‘the Trust’)” had standing to proceed against the Rinaldis because
“defects in the transfer of the Note to the Wells Fargo Asset Securities Corporation Home Equity
Asset-backed Certificates Series 2005-2 Trust (or any similarly named entity) (the ‘Trust’) do not
render the Mortgage unenforceable, the Note invalid or the proof of claim fraudulent.”
j. There is no Trust in existence named the Wells Fargo Asset Securities Corporation
Home Equity Asset-backed Certificates Series 2005-2 Trust.
k. The Note and Mortgage had never been transferred or conveyed into any Real Estate
Mortgage Investment Conduit (REMIC) Trust, prior to the closing date of either of the trusts
reported to the SEC as having an existence: Wells Fargo Home Equity Asset-Backed Securities
2005-2 Trust (stock ticker WFHET 2005-2), which names HSBC Bank USA, N.A. as Trustee,
and the Wells Fargo Mortgage Backed Securities 2005-2 Trust, which names Wachovia Bank,

58

372a

N.A. (which subsequently merged into Wells Fargo Bank) as Trustee, for which the stock ticker
number, if any, is unknown at the present time.
l. Grievant in Nora #1, Attorney William N. Foshag, filed the Complaint entitled HSBC
Bank USA, National Association, as Trustee for Wells Fargo Asset Securities Corporation Home
Equity Asset-Backed Certificates, Series 2005-2 v. Rinaldi, et al., Kenosha County Circuit Court
Case No. 2009CV000353 on behalf of an entity which does not exist, to wit a Certificate Series
issued by a nonexistent Trust which would presumably be named the Wells Fargo Asset
Securities Corporation Home Equity 2005-2 Trust, if it existed, but no record of such a trust has
been located in more than 7 years.
m. Grievant in Nora #1, Attorney William N. Foshag, alleged at ¶1 of the foreclosure
Complaint entitled HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset
Securities Corporation Home Equity Asset-Backed Certificates, Series 2005-2, an entity which
does not exist, is the current owner and holder of the Note and Mortgage at issue, writing:
1. The plaintiff is the current owner and holder of a certain note and recorded
mortgage on real estate located in this county, true copies of which are attached hereto as
Exhibits A and B and incorporated by reference.
Exhibit A attached to the Complaint as a “true” copy is UNENDORSED Note payable to Wells
Fargo Bank and Exhibit B attached to the Complaint is a copy of a Mortgage granted to Wells
Fargo Bank, for which no Assignment of Mortgage (AOM) was attached to the Complaint or
recorded with the Kenosha County Register of Deeds.
n. The Complaint against the Rinaldis is materially false in that it alleges that a
nonexistent entity is the owner of the Note and that the copy of the UNENDORSED Note was a
“true” copy, which means that the nonexistent plaintiff, in addition to its nonexistence, could not

59

373a

be the “owner” of an UNENDORSED Note made payable to Wells Fargo Bank or the “owner”
of an UNASSIGNED Mortgage, granted to Wells Fargo Bank.
75. Denies ¶75 of OLR’s Amended Complaint and affirmatively alleges:
a. Judge Kelley did not find in favor of “HSBC’s proof of claim.”
b. Judge Kelley’s Decision of February 22, 2013 allowed Proof of Claim #6, filed by
Attorney Brian D. Perhach of Gray & Associates, LLP on behalf of the nonexistent entity
identified by Attorney Perhach as HSBC Bank USA, National Association as Trustee for Wells
Fargo Home Equity Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed
Certificates, Series 2005-2, which is not the same nonexistent entity as the nonexistent entity in
whose name the state court foreclosure action had been commenced.
c. Judge Kelley apparently felt compelled to rename the entity in whose name Proof of
Claim #6 would be allowed to be [HSBC as Trustee for] the Wells Fargo Asset Securities
Corporation Home Equity Asset-backed Certificates Series 2005-2 Trust or “any similarly named
entity (the ‘Trust’)” because she saw the defect in the identification of HSBC Bank as Trustee for
a series of Certificates of Interest. See Judge Kelley’s Decision of February 22, 2013, page 16.
d. Judge Kelley did not recommend “denial” of “Nora’s adversarial claims” because
Nora was not a party to the adversary proceeding; Judge Kelley recommended dismissal of the
Rinaldis’ Adversary Complaint for the reasons stated in her February 22, 2013 Decision and
Order.
e. Judge Kelley decided that the Rinaldis lacked standing to challenge the suddenly
appearing endorsement in blank in the integrated signature stamp of Joan M. Mills, Vice
President of Wells Fargo Bank, N.A., which had not been attached to the Complaint in the state

60

374a

court foreclosure action, based on Wis. Stats. sec. 403.308(1).
f. Judge Kelley erroneously held that Wis. Stats. sec. 403.308(1) created an irrebuttable
presumption that the endorsement was valid in order to deny the Rinaldis standing to object to
the false Proof of Claim #6 on their allegation that the endorsement was a forgery,8 which they
were prepared to prove at the evidentiary hearing to which they were entitled under the Fifth
Amendment to the Constitution of the United States.
g. The issue of the Rinaldis’ “lack of standing” was raised sua sponte by Judge Kelley
and was never raised by the Adversary Defendants or briefed by any party. There is nothing in
Wis. Stats. sec. 403.308(1) that creates an irrebuttable presumption of the validity of an
endorsement. Wis. Stats. sec. 403.308(1) simply shifts the burden of proof on a challenge to the
validity of the endorsement to the maker of the Note, a burden which the Rinaldis were prepared
to meet at the evidentiary hearing to which they were entitled under the Fifth Amendment to the
Constitution of the United States before a claim to their Homestead could be made on the basis of
a forged document.
h. Judge Kelley also recommended dismissal of the Rinaldis’ Adversary Complaint for
fraud and racketeering, despite the production of 3 contradictory Assignments of Mortgage,
transmitted by mail and wire, contrary to 18 U.S.C. secs. 1341 and 1343. As to each Assignment
of Mortgage (AOM):
(1) The first AOM by date is unrecorded and purports that Wells Fargo Bank assigned the
Mortgage to HSBC Bank USA, National Association as Trustee on September 14, 2005, and

8

At the pleadings stage of the civil action, all of the factual allegations made by the Rinaldis are
legally required to be taken to as true. Scott v. O’Grady, 975 F.2d 366, 368 (7th Cir.1992), cert. denied,
113 S.Ct. 2421 (1993).

61

375a

appeared for the first time on November 4, 2011 as an attachment to the Motion for Relief from
the Automatic Stay, filed as Doc. 7 in WIEB 11-35689;
(2) The second AOM in time was created by Duncan C. Delhey of Gray & Associates,
LLP after summary judgment was granted in the state court foreclosure action purporting to
assign the Mortgage from Wells Fargo Bank to HSBC Bank USA, National Association, as
Trustee for Wells Fargo Asset Securities Corporation Home Equity Asset-Backed
Certificates, Series 2005-2,the nonexistent entity in whose name foreclosure was granted on
false pleadings filed by William N. Foshag, was dated March 1, 2010 was recorded with the
Kenosha County Register of Deeds on April 5, 2010; and
(3) The last AOM in time was filed after the Rinaldis filed bankruptcy in WIEB Case No.
11-35689 and their assets were protected against lien perfection by creditors seeking to improve
their position to become secured claimants, the Rinaldis’ Mortgage was purportedly assigned by
Wells Fargo Bank on October 31, 2011 to
HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates,
Series 2005-2
For ease of visualization the three (3) Assignments of Mortgage by which Wells Fargo
Bank purported to assign its mortgagee interest to three (3) different entities are
HSBC Bank USA, National Association as Trustee on September 14, 2005;
HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset Securities
Corporation Home Equity Asset-Backed Certificates, Series 2005-2;
HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity AssetBacked Securities 2005-2 Trust, Home Equity Asset-Backed Certificates, Series 2005-2
i. Less than one month after Judge Kelley allowed Claim #6 in the Rinaldis’ bankruptcy

62

376a

(WIEB Case No. 11-35689) and denied them an evidentiary hearing to challenge Proof of Claim
#6, the same Judge Kelley disallowed a Proof of Claim in In re Thompson, WIEB Case No. 0528262-svk on March 19, 20139 (the Thompson case).
j. The current mortgage servicer in the Thompsons’ case, Ocwen Loan Servicing, LLC,
appealed from Judge Kelley’s Order of March 19, 2013 disallowing the Proof of Claim and the
appeal was heard by none other than United States District Court Judge Joseph P. Stadtmueller,
who upheld Judge Kelley’s March 19, 2013 Decision in the Thompson case on January 7, 2014,10
less than one month after he denied the Rinaldis’ Rule 59(e) Motion for Amended Findings on
December 13, 2013 and threatened the Rinaldis’ attorney (Nora) with sanctions for “any further
frivolous submissions.” See ¶78, below.
76. Admits, in part and denies, in part, ¶76 of OLR’s Amended Complaint and
affirmatively alleges:
a. There is nothing unethical about appealing from an adverse, erroneous Decision or
seeking a review of recommendations.

9

The Thompsons, who proceeded to evidentiary hearing (which the Rinaldis were denied)
challenged an allonge which, if the Rinaldis could not challenge an endorsement, neither could the
Thompsons because an allonge is added to display an endorsement. The Thompsons were allowed an
evidentiary hearing, even though they had lost their foreclosure case in state court in 2002 and did not
appeal. An ex parte order substituting Wells Fargo Bank for Provident Bank as judgment creditor was
entered on the same day that the Thompsons filed their bankruptcy petition in 2005. In the Rinaldis’
case, the foreclosure judgment against them had been re-opened and the foreclosure case had been
dismissed at the time they filed their bankruptcy in Case No. 11-35689, so whereas a post-judgment order
was subject to appeal in the Thompsons’ case, there was no judgment whatsoever in the Rinaldis’ case.
10

Ocwen Loan Servicing, LLC v. Thompson, Opinion of Judge Joseph P. Stadtmueller, in WIED
Case No. 13-cv-487-JPS.

63

377a

b. Nora filed an appeal for the Rinaldis from the Orders arising in core proceedings.11
c. The Rinaldis objected to the recommendations of dismissing the Adversary Complaint.
77. Denies ¶77 of OLR’s Amended Complaint as a characterization of the District
Court’s October 31, 2013 Opinion and affirmatively alleges:
a. The Decision speaks for itself.
b. Nothing in Judge Stadtmueller’s October 31, 2013 Opinion in WIED Case No. 13-cv336 provides a factual or legal basis for finding that Nora violated any provision of the
Wisconsin Code of Professional Conduct.
78. Denies, in part, and admits, in part, ¶78 and affirmatively alleges:
a. Nora, on behalf of the Rinaldis, moved to alter or amend the judgment.
b. There is nothing unethical about bringing a Rule 59(e) Motion. See also the
affirmative allegations at ¶75-77, above.
c. Nora denies the implication that it is unethical to identify issues previously denied in a
Rule 59(e) Motion and request that the judgment be altered or amended to conform to the law.
d. In view of the Decision of Judge Kelley in the Thompson case and the Opinion of
Judge Stadtmueller affirming Judge Kelley’s Decision on appeal detailed in ¶75.i. and j. and
footnotes 9 and 10 above, the Judgment in Rinaldi should have been altered or amended to
conform to the law, which Judges Kelley and Stadtmueller followed in the Thompson case, but

11

Bankruptcy judges enter final orders in “core proceedings” defined at 28 U.S.C. sec. 157(b)(2)
and make recommendations to the district courts in non-core matters, 28 U.S.C. sec. 157(c)(1). Final
orders entered in “core proceedings” are subject to appeal to the district court under 28 U.S.C. sec.
158(a) within 14 days of the date the order is entered, Fed. R. Bankr. P. 8002(a)(1). Recommendations
are subject to objection under 28 U.S.C. sec. 157(c) to be filed at the district court within 14 days, Fed.
R. Bankr. P. 9033(b).

64

378a

did not follow in the Rinaldi case.
e. Whereas Judge Stadtmueller found that the Rinaldis were objecting to findings of fact,
the Rinaldis were objecting, as a matter of law, to any findings of fact being made upon Rule
12(b)(6) motions to dismiss their Adversary Complaint or allowing Proof of Claim #6 without an
evidentiary hearing, as a matter of law.
79. Denies ¶79 of OLR’s Amended Complaint as a characterization of the District
Court’s October 31, 2013 Decision and affirmatively alleges that the Decision speaks for itself
and affirmatively alleges:
a. Nora incorporates by reference, as if fully set forth herein, the affirmative allegations
at ¶75-78 above.
b. Nora believed in good faith that the Rinaldis’ claims were meritorious and continues
to believe that the Rinaldis claims are meritorious.
80. Admits ¶80 of OLR’s Amended Complaint and affirmatively alleges:
a. There is nothing unethical about appealing from an adverse, erroneous determination
of a lower court to a higher court.
b. The Rinaldis had a statutory right to appeal from the Opinions and Orders of Judge
Stadtmueller to the Seventh Circuit Court of Appeals under 28 U.S.C. sec. 1291.
c. Nora had a statutory right to appeal to the Seventh Circuit Court of Appeals from the
April 9, 2014 Orders of Judge Stadtmueller.
81. Admits, in part, and denies, in part, ¶81 of OLR’s Amended Complaint, and
affirmatively alleges:
a. There is nothing unethical about an attorney dismissing a Chapter 13 bankruptcy

65

379a

petition at his or her clients’ direction.
b. Nora did not state that “‘she’” wished ‘to proceed to state court’ with ‘newly
discovered evidence’ that the mortgage was void.” The Rinaldis wished to do so.
c. Roger Rinaldi had discovered evidence that the foreign trust, correctly identified as
Wells Fargo Home Equity Asset-Backed Securities 2005-2 Trust, and not as incorrectly
identified by Judge Susan V. Kelley in her February 22, 2013 Order, the Wells Fargo Asset
Securities Corporation Home Equity Asset-Backed Certificates Series 2005-2 Trust but “an
entity similarly named (the ‘Trust’)” appeared to have sold certificates to 5 or more persons in
the State of Wisconsin, which would cause the provision of Wis. Stats. sec. 226.14 to apply and
would void the contracts at issue in the Rinaldis case by operation of law.
82. Admits ¶82 of OLR’s Amended Complaint and affirmatively alleges that it is
apparent that Judge Kelley was wrong because the Rinaldis’ appeal was not moot and was heard
and determined by the Seventh Circuit Court of Appeals.
83. Admits ¶83 of OLR’s Amended Complaint and affirmatively alleges that a conflict of
interest between the Rinaldis and Nora arose at a confidential settlement conference at the
Seventh Circuit Court of Appeals, requiring Nora to withdraw until the conflict was resolved.
84. Admits ¶84 of OLR’s Amended Complaint and affirmatively alleges that whether or
not Nora’s Motion for Leave to Withdraw had yet been granted, Nora was entitled to seek leave
to intervene in the proceedings to defend her independent interests for the reasons stated in the
Motion for Leave to Intervene.
85. Admits ¶85 of OLR’s Amended Complaint and affirmatively alleges that there is
nothing unethical about seeking and obtaining leave to withdraw as counsel when a conflict of

66

380a

interest arises nor is there anything unethical about withdrawing as counsel when allowed to do
so by the court in which the representation was pending.
86. Admits, in part, and denies, in part, ¶86 of OLR’s Amended Complaint and
affirmatively alleges:
a. The Joint Motion for Rule 60(b) Relief by the Rinaldis and Nora on April 2, 2014 was
filed under existing law and supported by substantial evidence, newly discovered.
b. New evidence consisting of the Wells Fargo Home Mortgage Attorneys Foreclosure
Manual, Version 1, Revision 3 (the “Manual”) had been discovered by public disclosure on
March 18, 2014, was verified as to its authenticity and was filed within 14 days from the date of
its public disclosure.
c. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
discovery of new evidence within one (1) year after the entry of the order or judgment from
which relief is sought and Fed. R. Civ. P. 60(b)(2) specifically allows for the relief sought.
d. The newly discovered evidence of the Manual, which was verified as being authentic,
is evidence of both the agreement between the defendants in the Rinaldis’ Adversary Proceeding
and the method of operation by which wire fraud is committed by Wells Fargo Bank and its
attorneys in foreclosure cases throughout the nation.
e. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
discovery of new evidence of fraud which occurred in the case under review within one (1)
year after the entry of the order or judgment from which relief is sought and Fed. R. Civ. P.
60(b)(3) specifically allows for the relief sought.
f. Rule 60(b)(4) provides for relief from orders or judgments in which the Court denied a

67

381a

party due process of law. A judgment is void if the court that rendered it lacked jurisdiction of
the subject matter or of the parties, or if it acted in a manner inconsistent with due process of law.
See Philos Techs., Inc. v. Philos & D, Inc., 645 F.3d 851, 854 (7th Cir. 2011) (citing Planet Corp.
v. Sullivan, 702 F.2d 123, 125 n.2 (7th Cir. 1983); Price v. Wyeth Holdings Corp., 505 F.3d 624,
631 (7th Cir. 2007) (citations omitted); Marques v. Fed. Reserve Bank of Chicago, 286 F.3d
1014, 1018 (7th Cir. 2002).
g. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
the basis that an order or judgment is void for violation of a party’s due process rights, Fed. R.
Civ. P. 60(b)(4) specifically allows for the relief sought, and there is no time frame for seeking
relief from a void order or judgment.
87. Admits ¶87 of OLR’s Amended Complaint and affirmatively alleges that there is
nothing unethical about appealing from an adverse, erroneous determination of a lower court to a
higher court.
88. Admits ¶88 of OLR’s Amended Complaint and affirmatively alleges that Nora was
unable to persuade the Seventh Circuit Court of Appeals that Judge Stadtmueller abused his
discretion in his April 9, 2014 Order for Sanctions.
89. Denies, in part, and admits, in part, ¶89 of OLR’s Amended Complaint, and
affirmatively alleges:
a. An award of sanctions, standing alone, is insufficient to support a charge of knowingly
or recklessly filing a “frivolous” Rule 60(b) Motion or a “frivolous” Motion for Leave to
Intervene in a matter to allow a nonparty to defend an interest which cannot be fully defended by
the parties to the proceeding under Fed. R. Civ. P. 24(a)(2) or has a defense based on common

68

382a

issues of fact or law with the parties already proceeding in the matter under Fed. R. Civ. P. 24(b).
(2).
b. Nora’s defense against a pending motion for sanctions under Fed. R. Bankr. 9011
brought by the Adversary Defendants in Adv. No. 12-ap-2412 was believed in good faith to give
her standing to seek leave to intervene and, far more importantly, the newly discovered evidence
of the agreement and modus operandi of the fraud scheme Nora alleges on behalf of the Rinaldis
in the Adversary Complaint was new evidence which she and the Rinaldis were required to bring
to the attention of the Court under 18 U.S.C. sec. 4.
c. There is no violation of any ethics rule for filing papers that a court finds to be
“confusing,” although Nora tried her best not to confuse the courts and believes in good faith that
the “confusion” is inherent in the transactions Nora is attempting to expose. There is, however,
nothing “confusing” about the information contained in the Manual which specifically instructs
Wells Fargo Bank’s attorneys to electronically order the creation of documents needed to
improve the litigation position they are instructed to take. (See Manual, pages 17 and 20-22,
which are alleged to have been followed by the Adversary Defendants in the Rule 60(b) Motion
at pages 6 and 12.) See the Decision of Judge Robert D. Drain in In re Carssow-Franklin,
NYSB Case No. 10-20010, ironically citing to the WIEB case Ocwen Loan Servicing, LLC v.
Thompson 2014 U.S. Dist. LEXIS 2109, at *14-15 (E.D. Wisc. Jan. 7, 2014) referenced at ¶¶75
and 78 and at footnotes 9 and 10 to ¶75, above, in which Judges Kelley and Stadtmueller reached
the exact opposite result in the Thompson case to that reached in the Rinaldi case, within one
month of each respective ruling. The Thompsons were allowed to proceed to an evidentiary
hearing and the Rinaldis were denied the opportunity to present evidence in support of their

69

383a

objection to Proof of Claim #6.
d. There is no violation of any ethics rule for filing papers that are “needlessly
argumentative,” although a court may, in the appropriate case and in its inherent authority,
sanction an attorney or a party for disruptive behavior, which is an ethics violation under SCR
20:3.5(d) if the conduct was intended to disrupt a tribunal, but which Nora’s argument described
in ¶89, below, did not disrupt the tribunal nor was her indication that HSBC Bank USA, N.A.
had signed a deferred prosecution agreement for money laundering at the end of 2012 intended to
do.
e. Judge Stadtmueller found that Nora should not have argued that HSBC Bank USA,
N.A. (“HSBC”) had publicly admitted to a scheme involving money laundering for Mexican drug
cartels for which it entered into an agreement to pay a penalty of 1.9 Billion Dollars in her brief
on appeal and that such an argument had no place in a brief. Nora was trained to include socially
relevant factors in briefs at the University of Wisconsin Law School which she attended between
1972 and 1975. Nora believed in good faith that the conviction of “HSBC” for money
laundering was socially relevant to the extent that courts tend to believe that banks can do no
wrong. Our very language employs idioms like “You can bank on it” and “Take it to the bank”
to express concepts of truthfulness and security. Since 2008, there is ample evidence that such
concepts are outdated and are no longer valid. Nevertheless, even a “needlessly argumentative”
brief is not a violation of the Wisconsin Code of Professional Conduct. While courts may seek
to sanction their officers to maintain order, Nora did not make any “needlessly argumentative”
remarks in the April 2, 2014 Motions for which she was sanctioned.
f. OLR’s ¶89 fails to allege facts constituting a violation of the Wisconsin Code of

70

384a

Professional Conduct.
COUNT FOUR
90. Denies ¶90 of OLR’s Amended Complaint in its entirety and affirmatively alleges:
a. ¶90 fails to specify which subsection of SCR 20:3.1(a) Nora is alleged to have violated
in the Rinaldi Matter.
b. Nora violated no subsection of SCR 20:3.1(a) in her representation of the Rinaldis or
in her self-representation in the Rinaldi matter.
c. By filing the April 2, 2014 Rule 60(b) Motion for Relief and the Motion for Leave to
Intervene which the United States District Court for the Eastern District of Wisconsin found to
be “frivolous,” Nora did not violate any of the three (3) subsections of SCR 20:3.1(a) because
there is no allegation in OLR’s ¶¶64-89, let alone clear, convincing and satisfactory evidence that
Nora:
(1) knowingly advance[d] a claim or defense that is unwarranted under existing law,
except that the lawyer may advance such claim or defense if it can be supported by good faith
argument for an extension, modification or reversal of existing law because Nora’s Motions were
based on existing law;
(2) knowingly advance[d] a factual position unless there is a basis for doing so that is not
frivolous because Nora had substantial evidence to support the Motions;
(3) file[d] a suit, assert[ed] a position, conduct[ed] a defense, delay[ed] a trial or [took]
other action on behalf of the client when the lawyer knows or when it is obvious that such an
action would serve merely to harass or maliciously injure another because Nora’s Motions were
entirely allowed by existing law, supported by substantial evidence and because OLR has pleaded

71

385a

no facts that the Motions were filed to harass or maliciously injure any party.
d. OLR has pleaded no facts which support a violation of SCR 20:3.1(a).
e. OLR’s Count Four fails to state a claim upon which relief may be granted.
COUNT FIVE
91. Denies ¶91 of OLR’s Amended Complaint in its entirety and affirmatively alleges:
a. By filing the April 2, 2014 Rule 60(b) Motion for Relief and the Motion for Leave to
Intervene which the United States District Court for the Eastern District of Wisconsin found to
be “frivolous,” Nora did not violate any of the three (3) subsections of SCR 20:3.1(a) because
there is no allegation OLR’s ¶¶64-89, let alone clear, convincing and satisfactory evidence that
Nora violated SCR 20:3.2, which provides:
A lawyer shall make reasonable efforts to expedite litigation consistent with the interests
of the client.
b. Neither the Joint Motion for Rule 60(b) Relief nor Nora’s Motion for Leave to
Intervene in the consolidated case before the United States District Court for the Eastern District
of Wisconsin as Case No. 13-cv-336, then pending on appeal to the United States Court of
Appeals for the Seventh Circuit as Case Nos. 13-3865 and 14-1887 delayed any proceedings, nor
were the Motions brought by the Rinaldis or Nora and the Rinaldis, which did not delay the
proceedings, contemplated to delay the proceedings.
c. There is not a single factual allegation in OLR’s ¶¶64-89 which alleges that delay was
contemplated or that any delay resulted from the Motions which are the subject of Count Five.
d. OLR filed Count Five in violation of SCR 22.11, SCR 20:3.1(b) and Wis. Stats. sec.
802.05(2)( c) and, having been given ample opportunity to withdraw this Count Five as being
unsupported by any facts, can now be shown to have violated Wis. Stats. sec. 802.05(a) because
72

386a

there is no explanation for the OLR persisting in the pursuit of Count Five except that it is
seeking to harass or maliciously injure Nora for her lawful conduct in representing her clients’ in
their efforts to petition the judiciary for redress of grievances and defending herself against the
factually and legally unsupported charges of violations of Fed. R. Bank. P. 9011 and to defend
herself against prospective, now actualized false claims that she has violated any provision of the
Wisconsin Rules of Professional Conduct in representing the Rinaldis.
AFFIRMATIVE DEFENSES
92. Discovery and investigation may reveal that one or more of the following additional
defenses should be available to Nora in this matter, and, therefore, she reserves her right to
assert any such yet to be discovered separate and additional defenses.
93. Upon completion of discovery, if the facts warrant, Nora may withdraw any of these
affirmative defenses as may be appropriate, and further reserves the right to amend this answer
and affirmative defenses and to assert additional defenses and other claims, as this case proceeds.
94. As and for an affirmative defense, alleges that OLR has failed to state any claim
upon which relief may be granted.
95. Nora represented Ms. Spencer and the Rinaldis on the basis of existing law or as a
good faith to modify or extend existing law and upon sufficient evidence, except where
allegations were pleaded upon information and belief.
96. Any order upon which OLR might rely for preclusion of Nora’s defenses in these
proceedings is void for violation of Nora’s constitutional rights.
97. As and for an additional affirmative defense, these proceedings have been
commenced and continued in violation of SCR 22.11.

73

387a

98. As and for an additional affirmative defense, these proceedings are ultra vires and
result from an unauthorized “continuing investigation” directed against Nora by Stieren and St.
Ores at the direction of Potteiger and Foshag for the purpose of concealing the misconduct in
public office of OLR, its employees and agents by failure to investigate the activities of the
grievants, attorneys at their law firms, their co-counsel and other attorneys representing mortgage
servicing agents in the State of Wisconsin.
99. As and for an additional affirmative defense, alleges that OLR has commenced this
action without cause, knowingly or recklessly proceeding without a good faith belief that it can
prove any of the Counts One through Five by clear, satisfactory and convincing evidence.
100. As and for an additional affirmative defense, alleges that OLR commenced its
inquiries into the Spencer and Rinaldi Matters identified as OLR Matters 2014MA1570,
2014MA002117 and 2015MA614 at the behest of litigation opponents of Nora and her clients,
concealing their identities in the course of an ultra vires “continuing investigation” of Nora’s
litigation practice.
101. OLR has initiated and continues these proceedings in bad faith for the purpose of
curtailing Nora’s litigation practice at the behest of her litigation opponents.
102. OLR has initiated and continues these proceedings in bad faith for the purpose of
concealing misconduct in public office by OLR’s employees, who have persistently failed to
investigate grievances filed by homeowners alleging violations of their due process rights, the
filing of false pleadings, and the use of forged documents and falsely sworn affidavits by
mortgage servicers in Wisconsin foreclosure actions.
103. These proceedings violate Nora’s due process rights by seeking to punish Nora for

74

388a

engaging in lawful conduct, which is a due process violation of the most basic sort.
Bordenkircher v. Hayes, supra.
104. The Complaint and Amended Complaint are void as being brought in violation of
Nora’s constitutional rights.
105. These proceedings are substantially based on violations by OLR of the Wisconsin
Code of Professional Responsibility as specified above.
106. These proceedings are brought in violation of Wis. Stats. sec. 802.05(a), (b) and (c)
as specified above.
107. Attorney Sheryl St. Ores (OLR Assistant Litigation Counsel, previous counsel for
OLR), Attorney Paul W. Schwarzenbart (current counsel for OLR who has refused to produce
exculpatory evidence of Potteiger’s crimes in Nora #1), and Attorney Lisa C. Goldman (Referee
in Nora #1, who refused to grant relief from Summary Judgment in Nora #1 or even consider the
evidence in support of the Motion for Relief based on Potteiger’s criminal forgery and false
swearing) are criminally complicit in concealing evidence of crimes of false swearing in violation
of Wis. Stats. sec. 946.32, forgery in violation of Wis. Stats. sec. 943.38(1)(a) and uttering
forged documents in violation of Wis. Stats. sec. 943.38(2) committed by Attorney David M.
Potteiger in Nora #1.
108. As and for an additional affirmative defense, Attorney Travis Stieren, Attorney
Robert Kasieta and Attorney Edward A. Hannan are criminally complicit in the unauthorized redisclosure of Nora’s confidential medical records taken by Attorney David M. Potteiger from
under federal court seal in violation of Wis. Stats. sec. 146.84(2)(a)2. which was not necessary to
protect another from harm.

75

389a

109. As and for an additional affirmative defense, Attorney Travis Stieren, Attorney
Robert Kasieta and former PRC chairperson Attorney Edward A. Hannan are criminally
complicit in the negligent, unauthorized re-disclosure of Nora’s confidential medical records
unlawfully taken by Grievant Potteiger from under federal court seal in violation of Wis. Stats.
sec. 146.84(2)(c) for the pecuniary benefit of attorneys for mortgage servicing agents, represented
by Attorney Hannan and Grievant Potteiger.
110. As and for an additional affirmative defense, the Wisconsin Office of Lawyer
Regulation, through Attorney Sheryl St. Ores unlawfully entered into a dual representation
arrangement with Grievant David M. Potteiger, from whom she sought legal advice and counsel
in the prosecution of Nora in Nora #1.
111. As and for an additional affirmative defense, Attorney Travis Stieren unlawfully
disclosed confidential probate court records to the Preliminary Review Committee in Nora #1,
which included confidential medical records he obtained under false pretenses from Nora,
pretending to be verifying whether or not a guardian ad litem had been appointed for her in a
temporary guardianship matter.
112. As and for an additional affirmative defense, OLR’s claims are barred, in whole or
in part, by the doctrines of unclean hands.
WHEREFORE, Nora moves for dismissal of each and every Count in these proceedings
and for her actual attorneys fees at her hourly rate for service to clients with the ability to pay and
her actual costs of defending against these proceedings, filed on false facts, misrepresentations of
law, upon multiple violations of the Wisconsin Code of Professional Conduct by OLR, its agents
and employees, in violation of Wis. Stats. sec. 802.05(2)(a), (b) and (c) for the purpose of

76

390a

#022$+":+: *)$$.52)8: $+&50$+": 3#: 2/.++3: 3.: 503$):#0:)$3$"3$.+:3$6$3$2:.0: 3#:
+ %3: .:#0: )$3$"3$.+: .//.++32: +:3#$0: )$+32:
3:3: $++/.)$2: $,+2.3: 3#$2:
)

  8:.: 8:



)  ) $ ) " $% )  () ") ' ) $ ) " )
 ) )

$)")$ )  )

 :





:    :

.504#: 6+5: .53#: 5$3: 

$++/.)$2: $+-2.3: 
  : 
: 





 
   

22)")206$2"*$).*:
$2.+2$+:33.18:


:

#)  ) !

+8: )$2.+:.0: )02: 3#3: .+:8:



.0$"$+):./$2:.:3#: .0".$+":+270: !%0*3$6:

 
&

)

 2#: 52:3#0:  5/)$3:
+22: &3$.+: +: 2063$.+: .:

$"#32: 3.: :#+)$60:3.: 3#: )0': .://))3: .5042: +: 52: 305: +: .003: ./$2:
3#0.: 3.:: 206: 8:*$):+: :)$608:5/.+:0: *2: : $+$02($: +:5/.+:
33.18:5): : #709+03:3: 3#$0: 0222: .: 0.0:$+: 3#2: /0.$+"2:
)

) )$ ) " $% )  () ")' ) $ ) " )
 ))

$)") $ ) )



391a

APPENDIX K

392a

IN THE SUPREME COURT

STATE OF WISCONSIN
IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST, WENDY ALISON NORA,
ATTORNEY AT LAW

CASE CODE 30912
CASE NO. 2015AP002442-D

OFFICE OF LAWYER REGULATION
Complainant;
WENDY ALISON NORA
Respondent.

DECISION ON PENDING MOTIONS AND ORDER

The following motions are pending in ths matter:
1.

Respondent's Motion for Damages Pursuant to Wis. Stats. Sec. 895. 044.

2.

Respondent's Motion to Disqualify Attorney Paul W. Schwarzenbart of Stafford
Rosenbaum, LLP as Counsel for the Office of Lawyer Regulation for Conflict of
Interest, as a Material Witness and as Complicit in Concealment of Crimes
Committed by Attorney David M. Potteiger and Employees and Agents of the Office
of Lawyer Regulation in Case No. 2013AP000653-D.
OLR's Motion to Amend or Correct Pleadings.

3.

MOTION FOR DAMAGES PURSUANT TO WIS. STAT. §895.044
Respondent moves for damages pursuant to Wis. Stat. §895. 044.
Respondent has previously filed a jurisdictional objection "for selective and vindictive
prosecution" and for "bad faith initiation and continuation of these proceedings." Respondent has
also previously filed a motion for sanctions under Wis. Stat. §802.05. All the previous motions
were denied.

1

393a

OLR argues that, given the prior motions were denied, this current motion is really a motion
for reconsideration.
The previous motions for sanctions and damages are similar to the current motion for
damages pursuant to Wis. Stat. §895. 044. However, rather than relying on Wis. Stat. §80 2.05,
respondent now relies on Wis. Stat. §895. 044. To the extent respondent's motions and arguments
are repetitious, they are controlled by my previous decisions and orders.
Respondent's motion for damages is premature.

Respondent supports her motion with

various factual allegations which have yet to be proven. I have previously ruled that respondent is
not entitled to a "preliminary or probable cause" hearing simply because respondent makes factual
allegations which have yet to be proved. For this reason, respondent's motion for damages pursuant
to Wis. Stat. §895.044 must be denied at this time.
Respondent may renew the motion after the disciplinary hearing in this matter if she believes
she has proven the necessary elements for damages pursuant to Wis. Stat. §895. 044. Respondent
will have the opportunity to prove such allegations during the course of the disciplinary hearing in
this case so long as she presents relevant evidence relating to the allegations of the amended
complaint and any appropriate affirmative defenses. However, she will not be permitted to disrupt
or delay the hearing in this case based solely on unsupported allegations of improprieties by
opposing counsel, OLR and its employees, witnesses or grievants.

MOTION FOR DISQUALIFICATION OF OLR'S COUNSEL
(PAUL W. SCHWARZENBART, ESQ.)
Respondent represented the defendants in a foreclosure action filed in Richland County, M&I
Marshall & 1/s/ey Bank v. Schmitz, Richland County Case No. 2008-CV-80. The plaintiff in that

2

394a

case was represented by Attorney Daniel Stolper, an attorney with Stafford Rosenbaum LLP. The
case has seen little activity since August, 2010. Paul W. Schwarzenbart, retained counsel in this
case, joined the Stafford firm effective March I, 2015. Attorney Schwarzenbart has stated under
oath that he has had no contact or connection with the subject Richland County Case.
OLR argues that attorney disciplinary proceedings are governed by the rules of civil
procedure, citing SCR 22.16(1). OLR also cites Foley-Ciccantelli v. Bishop's Grove Condo. Ass 'n,
Inc., 2011 WI 36,

� 71

,

333 Wis. 2d 402, 797 N.W.2d 789, for the principal that "as a general rule

only a former or current client has standing to move to disqualify an attorney from presenting
someone else in a civil action." The recognized exception to that rule is that "a non-client party has
standing to move for disqualification of opposing counsel, when the prior representation is so
connected with the current litigation that the prior representation is likely to affect the just and lawful
determination of the non-client party's position." Id
Other then the fact that respondent represented the defendants in the Richland County
foreclosure case and the plaintiff was represented by Attorney Daniel Stolper of Stafford Rosenbaum
LLP, before Attorney Schwarzenbart joined that firm on March 1, 2015, respondent presents no
argument that would support a claim that the prior representation by Attorney Daniel Stolper is in
some manner connected with the current litigation in this case. I find no connection between the
Richland County Case and this case which would justify the disqualification of Attorney Paul W.
Schwarzenbart from serving as retained counsel for OLR in this case.
Respondent also moves for disqualification on the basis that counsel was allegedly involved
in wrongful conduct and crimes in his representation of OLR in Nora # 1. These are most serious
allegations. As I previously ruled in this case, respondent's allegations of improprieties by attorneys,
3

395a

grievants, and witnesses in this case are simply unsupported allegations at this time.

Such

unsupported allegations do not support disqualification of counsel. Respondent does not provoke,
a "probable cause hearing" by simply making such allegations.
Respondent will have an opportunity to prove her allegations during the course of the
disciplinary hearing in this case so long as she presents relevant evidence relating to the allegations
of the amended complaint and appropriate affirmative defenses. However, she will not permitted
to disrupt or delay the hearing based solely on unsupported charges of criminality or alleged
improprieties on the part of opposing counsel, grievants, or witnesses. She will have the burden of
proof on these most serious allegations. Her motion for disqualification is denied at this time and she
may renew the motion if she proves her allegations during the course of the disciplinary hearing.

MOTION TO AMEND OR CORRECT PLEADINGS
Disciplinary cases are controlled by the rules of civil procedure SCR 22. 16( 1 ). Wis. Stat.
§80 2.09(1) provides that after six months from the filing of the complaint, a party may amend the
pleadings by leave of court which shall be freely given at any stage of the action when justice so
requires.
My review of the file in this matter discloses that respondent was well aware of the erroneous
case number alleged in both the original and amended complaint in paragraph 6. Respondent's
answers, briefs and argument have repeatedly suggested that the case number in paragraph 6 of both
the complaint and amended complaint was wrong. Respondent's answers to both of the complaints
shows that she was aware of the case number issue.
While it is true that OLR did not correct the problem in its first amended complaint,
Respondent was well aware of the error. Rather than agreeing to amendment of the error by way of

4

396a

stipulation, respondent now claims that she has been prejudiced by the error and she has spent
countless hours of unnecessary time because of the error.
OLR did not cause respondent to spend countless hours because of the error. At any time
respondent could have simply acknowledged and agreed to fix the error. Instead, she sought to take
advantage of the error. It was the respondent who decided to make the most of the error by alleging
prejudice because a case number was misstated. Any unnecessary time or prejudice suffered by the
respondent was solely because she chose to make the most of OLR's innocent error.
I reject any suggestion that the preliminary review committee would need to meet again and
determine probable cause based upon a simple case number error.

The preliminary review

committee's finding of probable cause had to do with the allegations and merits of the materials
presented to them in a case involving the respondent. Their findings had nothing to do with an
erroneous case number.
Likewise, OLR wishes to amend paragraph 19 of the current amended complaint from:
"Nora alleges there were three additional unlawful ex parte letter
communications between Judge Potter and plaintiff's counsel: March
31, 2010, February 17, 201 1, and June 20, 20 11 letters."
OLR wishes to change the language to:
"Nora alleges there were three additional unlawful ex parte
communications between Judge Potter and plaintiff's counsel relating
to letters and pleadings filed with the court on or about march 3 1,
2010, February 17, 2011, and June 20, 201 1."
The change from "three additional unlawful ex parte letter communications" to "three
additional unlawful ex parte communications" does not impose any hardship on respondent,
especially given that there was ample time for discovery in this case.

5

397a

OLR's motion to amend and correct the pleadings as set forth above is granted.
IT IS ORDERED:
1.

Respondent's motion for damages pursuant to Wis. Stat. §895.044 is denied.

2.

Respondent's motion for disqualification of OLR's counsel, Attorney Paul W.

Schwarzenbart, is denied.
3.

OLR's motion to amend or correct pleadings is granted.

4.

Respondent is warned that any future motions filed by her may not be repetitive to

motions previously filed and ruled upon. Repetitive motions will be summarily denied and opposing
party will not be required to file opposing briefs. A motion for reconsideration is appropriate.
5.

All future motions filed by either party shall take the form of a simple statement of

the motion, accompanied by a separate supporting single brief of no more then ten ( 10) pages. The
motion and supporting argument must be separated into separate documents and a "run-on"
presentation of a motion and argument in a single document is not permitted. Non-compliance may
result in summarily dismissing any such motion.

Dated at Milwaukee, Wisconsin, this

#l
Kd

6

398a

APPENDIX L

399a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings

Case Code: 30912

Against Wendy Alison Nora,
Attorney at Law
Office of Lawyer Regulation,
Complainant

Case No. 2015AP002442-D

V.

Wendy Alison Nora,
Respondent

JURISDICTIONAL OBJECTION AND NOTICE OF MOTIONS AND MOTIOJ',;S:
(1) TO DISMISS FOR LACK OF SUBJECT MATTER AND PERSONAL JURISDICTION;
AND ALTERNATIVE MOTIONS (2) TO REQUIRE THE FILING AND SERVICE OF THE
SECOND AMENDED COMPLAINT; (3) TO ALLOW FILING OF A RESPONSE TO THE
SECOND AMENDED COMPLAINT UPON SERVICE; (4) FOR RELIEF FROM
SCHEDULING ORDER; (5) FOR CONTINUANCE OF PROCEEDINGS TO THE
ALTERNATIVE HEARING DATE SET FORTH IN THE FEBRUARY 18,2016
SCHEDULING ORDER; RESERVING RIGHTS TO AMEND MOTION FOR WRIT OF
MANDAMUS REQUIRING REFEREE TO PROVIDE RESPONDENT
WITH RIGHT TO BE HEARD

PLEASE TAKE NOTICE that Wendy Alison Nora (Nora), maintaining her special
appearance objecting to the jurisdiction of this Court invoked in bad faith by the Office of
Lawyer Regulation (OLR), contrary to the Rules of this Court, and renewing her special
appearance, objecting to the jurisdiction of this Court to proceed on an unfiled and unserved
Second Amended Complaint to which she has not been given an opportunity to respond, will
bring her jurisdictional objection and alternative motions for relief on for hearing before Referee
James J. Winiarski at a time and place to be set by the Referee, reserving her rights to amend her
August 3, 2016 Petition for a Supervisory Writ now pending before this Court.

400a

NOW COMES Wendy Alison Nora (Nora) maintaining her special appearance
objecting to the jurisdiction of this Court invoked in bad faith by the Office of Lawyer
Regulation (OLR), contrary to the Rules of this Court and renewing her special appearance,
objecting to the subject matter and personal jurisdiction of this Court to proceed on an unfiled
and unserved Second Amended Complaint to which Nora has not been given an opportunity to
respond, and moves the Court:

1. To dismiss these proceedings:
a. For lack subject matter jurisdiction1 because this action now purports to proceed on
charges not authorized by a preliminary review panel2 of the Preliminary Review Committee
(PRC), pursuant to SCR 22.11 (2). which provides. in relevant part:
The complaint shall set forth only those facts and misconduct allegations for which the

1 Although SCR 22.16( I) provides the Referee with the powers of a circuit court judge trying a
civil action.the Referee is not a judge with general jurisdiction under Article Seven.Section 8 of the
Wisconsin Constitution. SCR 22.16( I) does not confer the general jurisdiction of the circuit courts on
Referees. whose authority is limited to hearing cases properly commenced under SCR 22.14(2). There is
no dispute that a preliminary review panel has not authorized the filing of the yet-to-be filed Second
Amended Complaint and it is undisputed that Nora has not consented to the filing of the amended
allegations.
2 The Referee manifestly erred as a matter of law when he imputed to Nora the nonexistent duty
to agree to the amended allegations proposed by OLR as the yet-to-be filed Second Amended Complaint
and manifestly erred as a matter of fact when he disregarded Nora's prolonged efforts to alert OLR to the
multiple false allegations in its Complaint and Amended Complaint over the course of almost six (6)
months. The Referee found. "'At any time respondent could have simply acknowledged and agreed to fix
the error." It was not Nora. but OLR. which failed to acknowledge and fix the error until after it was
confronted with Nora's discovery. In order to acknowledge and fix the error, OLR is required to obtain
approval of the preliminary review panel of the PRC to charge Nora with misconduct in an existing case.
Nora's discovery (which the Referee finds to have been adequate) was largely wasted on calling OLR's
attention to the fact that "'2013TJ49" was not a case in which any litigation activities took place. Nora is
being denied discovery into the bases for OLR's charges in the case which OLR's new counsel. on his
own initiative and without the authority of the PRC's panel. and now the Referee,who is not authorized
to amend charges not authorized by the PRC's panel. has "'amended'' without the filing of a Second
Amended Complaint.

2

401a

preliminary review panel determined there was cause to proceed and may set forth the
discipline or other disposition sought . . .
contrary to SCR 22.11(2);3 and
b. For lack of personal jurisdiction if this action now purports to proceed on a Second
Amended Complaint which has not been filed or served, in violation of the Wisconsin
Rules of Civil Procedure, and to which Nora has not been allowed an opportunity to
respond. 4
2. In the alternative, Nora seeks the following immediate relief by orders:
a. Requiring the Office of Lawyer Regulation (OLR) to file and serve the Second
Amended Complaint upon Nora as required by Wis. Stats. sec. 802.09(1 );5

3 Nora acknowledges that on August 16, 2016, the Referee decided that the amended charges
need not be authorized by the PRC prior to the filing of the Second Amended Complaint allowed by that
Order. Nora takes the position that because the allegations (which have yet to be filed in the form of a
Second Amended Complaint) were not approved by the PRC, the Court is without subject matter
jurisdiction to proceed on the yet-to-be filed Second Amended Complaint. A Motion for Reconsideration
is being considered by Nora, but it is not necessary for Nora to litigate the issue of subject matter
jurisdiction. Subject matter jurisdiction can neither be waived nor conferred by consent. In State v.
Cvorovic, 158 Wis.2d 630,634,462 N.W.2d 897,897-898, the Wisconsin Court of Appeal held,
''Subject matter jurisdiction cannot be conferred upon the court by consent. Kelley v. State, 54 Wis.2d
475,479,195 N.W.2d 457.459 (1972). Nor can it be waived. /d.''
4 The proceedings are scheduled to be heard commencing on September 7,2016 at 8:30 a.m. on
the January 19, 2016 Amended Complaint. The Second Amended Complaint allowed by the August 16,
2016 Order has not been filed or served. If the Second Amended Complaint were filed and served today.
the date of service would be disregarded under Wis. Stats. sec. 801.15(4).Nora would have 20 days to
respond under Wis. Stats. sec. 802.09( I) unless the Referee, for cause, ordered an earlier time for her
response.and her response, either by motions under Wis. Stats. sec. 802.06(2)(b) or by answer, would be
due on the date upon which the evidentiary hearing is set to commence. At the present time,there is no
Second Amended Complaint in the record of these proceedings.

5 Subject, of course,to Nora's reserved objection to subject matter jurisdiction which can neither
be conferred by consent nor waived. Cvorovic. supra. Personal jurisdiction has attached only as to the
January 19,2016 Amended Complaint filed on January 19,2016 and served upon Nora by mail. At the
present time,there is no Second Amended Complaint of record in these proceedings and Nora has not
had the opportunity to respond to a second amended complaint in this action.

3

402a

b.

Allowing Nora to respond to the Second Amended Complaint when it is filed and

served upon her in accordance with Wis. Stats. sec. 802.09(1) once personal jurisdiction is
obtained;6
c. Modifying the February 18. 2016 Scheduling Order in Order to allow Nora to defend
against the yet-to-be filed and served Second Amended Complaint;
d. Continuing the evidentiary hearing now set to commence on September 7, 2016 to the
alternative date provided in the February 18, 2016 Scheduling Order of October 31.2016 through
November 4, 2016, at 8: 30a.m., and November 7. 2016, through November 9,2016, at 8: 30a.m.
in order to allow Nora to defend against the yet-to-be filed and served Second Amended
Complaint;
( 1) Perform additional discovery now necessary due to the yet-to-be amended allegations
in the purported Second Amended Complaint as to all Counts;
(2) Name witnesses now necessary due to the yet-to-be filed amended allegations in
Counts One and Two, which effect her defense as to all Counts; and
(3) Seek to obtain counsel to defend her in this action as to all Counts and, failing to do
so. will proceed self-represented upon adequate time to prepare her own defense, as requested
above.
WHEREFORE, Nora requests dismissal of these proceedings for lack of subject matter
jurisdiction as a matter of law and for lack of personal jurisdiction to the extent that this action to
the extent that this action would now purport to proceed on an unfiled and unserved

6 Service of a second amended complaint which must be filed with the Court is required to be
served by facsimile or mail under Wis. Stats. sec. 801.14(2).

4

403a

Second Amended Complaint to which Nora has not been allowed to response in her defense. By
the alternative Motions, Nora cannot waive her objection to the subject matter jurisdiction of the
Court and does not waive her objection to personal jurisdiction because she is seeking to assist
the Court in obtaining jurisdiction over her person. so that this matter may proceed to a full and
fair determination on the merits. but for the defect in subject matter jurisdiction, which cannot be
waived or conferred by consent.
Dated at Madison, Wisconsin this l 71h day of August, 2016.

AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME
FORCE AND EFFECT AS THE ORIGINAL

Wendy Alison Nora
ACCESS LEGAL SERVICES
310 Fourth Avenue South. Suite 5010
Minneapolis, Minnesota 55415
VOICE ( 612) 333-4144
FAX(612) 206-3170
accesslegalservices@gmail.com
Wisconsin Attorney ID # 1017043
DECLARATION OF SERVICE
Wendy Alison Nora declares that she caused the foregoing Jurisdictional Objections and
Alternative Motions to be tiled via fascimile with the Clerk of Appellate Courts, to be served via
facsimile upon Attorney Paul W. Schwarzenbart and by mail upon Referee James J. Winiarski
and provided courtesy copies by email to Attorney Schwarzenbart and Referee James J.
Winiarski, in accordance with the February 18. 2016 Scheduling Order in these proceedings.

AN IMAGE OF THE SIGNATURE BELOW SHALL HAVE THE SAME
FORCE AND EFFECT AS THE ORIGINAL

�n

----jf-t-----

Wendy

----�-----

lison Nora

5

--�

�
G-v__

404a

APPENDIX M

405a

STATE OF WISCONSIN

IN THE SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST WENDY ALISON
NORA, ATTORNEY AT LAW.

CASE CODE

CASE NO.

OFFICE OF LAWYER REGULATION,

30912

2015AP2442-D

Complainanti
WENDY ALISON NORA,
Respondent.

SECOND AMENDED COMPLAINT

NOW
Lawyer

COMES

the

Regulation

Wisconsin

(OLR) ,

by

its

its second amended complaint,
OLR

1.
and

was

operates

Amended

to

is

Complaint

retained

by the

Supreme

filed

Office

Court

counsel,

Wisconsin Supreme

Court

pursuant

to

This

rules.
SCR

22. 11

order issued by the Referee and dated August 18,
2.

Respondent,

Wisconsin
practice
listed

55415.

law

with

Services,

Attorney Wendy Alison Nora

attorney

310

in
the

(State

1975
State

Fourth

Bar

whose
Bar

Ave.

and

of
for

alleges as follows:

established

pursuant

Supreme

No.

office
of

S. ,

1017043)
address

Wisconsin
Suite

5010,

as

Court
Second

and

the

2016.
(Nora) ,

is a

admitted
is

to

currently

Access

Legal

Minneapolis,

MN

406a

Nora's Wisconsin disciplinary history consists of

3.

a 30 day suspension as discipline reciprocal to that imposed
by

the

Minnesota

failing
claim

to

Supreme

adequately

against a bank,

bringing

litigation

Court

for

investigate,

misrepresentations,

bringing

a

inappropriate transfer of assets,
as

a

delay

tactic

while

Against

173

Nora,

Wis.

2d

660,

and

asserting

theory that was not justified by existing law.
Proceedings

frivolous

a

Disciplinary

495

N. W. 2d

99

(1993) .

Regarding the

Spencer Matter

OLR Matter No. 2014MA1570
Counts One

4.

In July 29,

2005,

- Three

a mortgage note was issued in the

amount of $209, 160 to Sheila Spencer
In 2008,

5.
•

Spencer failed to pay her mortgage.

Circuit Court:

On

6.

initiated

Judge Potter,

April

2009,

71

against

Spencer

foreclosure" )

FNMC,

division

of

County

City

Bank,

Case No.

(Judge Potter)

National
vs.

2009CV283,

Sheila
the

presiding.

2

Staff

foreclosure

arising

( "Spencer

National

Counsel,

a

mortgage
a

(Spencer) .

out

The
City
M.

of

the

action
Bank

of

Spencer,

Honorable

action

was

note

Gregory

and

captioned

Indiana
et

was

al. ,
J.

nka
Wood

Potter

407a

7.

In

May

2012,

Nora

became

successor

counsel

for

Spencer.

and

8.

Nora

alleged

its

attorneys

the

were

plaintiff,

part

of

a

its

related

grand,

entities,

national

mortgage

holding

the note

fraud scheme.
9.

Nora

argued the

correct

plaintiff

was an issue before the court.
10.

The

court

determined

PNC

Bank,

N. A.

was

I

the

correct party plaintiff.
11.
counsel
party

Throughout

the

litigation,

of fraudulently

interest

racketeering

and

accused

opposing

concealing the identity of the real

engaging

[that]

Nora

may

in

"actionable

constitute

civil

state

fraud

and

and

federal

criminal misconduct. "
12.

On

conference,

May

23,

said

2012,

hearing

the

court

originally

held

a

scheduled

scheduling
for

summary

judgment.
13.

During

the May 23,

2012 scheduling conference,

the

court stated Nora would need to provide a list of issues for
summary judgment.
14

.

On

foreclosure

May

2 5,

action

2012,

sent

plaintiff's

Judge

Potter

3

a

counsel
letter

and

in

the

copied

408a

Nora

enclosing

a

proposed

order

(proposed

order)

regarding

the timeline for summary judgment issues.
15.

Plaintiff's

proposed

order

was

counsel's
sent

letter

to Nora

and

shows
he

a

copy

provided

of

the

affidavits

of mailing.
16.

Judge

Potter

sent

the

parties

via

letter

a

signed

order in which he acknowledged he converted the May 23,
summary

judgment

hearing

to

a

scheduling

2012

conference

and

provided a timeline for summary judgment issues.
17.

Nora

claims

she

never

received

Judge

Potter's

letter and final order.
18.
which
the

Nora

asserts

plaintiff's

proposed

there were

counsel

order

and

sent

Judge

ex

par t e communications

Judge

Potter

Potter
entered

a

letter

the

order

by

with
but

did not send it to Nora.
19.

Nora

alleges

there

were

three

additional

unlawful

ex parte communications between Judge Potter and plaintiff's
counsel
court

relating

on

June 20,
20.

or

to

about

letters
31,

March

and

pleadings

2010,

February

filed
17,

with

the

2011,

and

2011.
An

affidavit

in

employee
which

for

she

plaintiff's

swore

she

letter to Spencer.

4

sent

attorney
the

March

filed
31,

an
2010

409a

21.

The

February

17,

2011

and

June

20,

2011

letters

indicate on their face a copy was sent to Spencer.
22.

On

June

28,

2012,

Nora

moved

to

have

Judge

Potter

disqualified based upon the alleged ex parte communications.
23.
hearing

Nora
and

received

the

transcript

of

discovered

the

third

was

page

the

May

23,

2012

missing

from the

word

variances

transcript.
24.
between
the

Nora

claimed

the words

words

there

used

appearing

Nearly

all

certain

during the May 23,

in

the

'call me' was transcribed as
25.

were

of

transcripts,

2012

hearing and

such

as

the

word

'contact me. '

the

text

of

page

three

of

the

transcript consists of Nora giving Judge Potter a procedural
and factual history of the case.
26.
dates,

Page three of the transcript contains no orders,
and

no

findings

that

would

prejudice

Nora

or

no
her

client.
27.

Nora

claimed

Judge

Potter

and

the

court

clerk

intentionally manipulated the court record.
28.
to

the

Nora

subsequently

transcript

page

withdrew

three

and

her

acknowledged

have been a collating or processing error.

5

objections

related

there

must

410a

29.

On

demanding

July

Judge

23,

2012,

Potter

be

Nora

filed

an

disqualified

amended

based

upon

motion

repeated

ex parte communications and entering ex parte orders.
30.

In the July 23,

counsel

of

conniving

accused the judge,

2012 motion,

to

procure

opposing

Nora accused opposing

ex

counsel,

parte

orders,

and,

and court personnel of

manipulating the record.
31.

The court entered an order denying Nora's July 23,

2012 disqualification motion.
•

U. S. District Court:

32.

On

Spencer

January

10,

foreclosure

judgment

motion

Judge Crabb

2013,

action

was

nearly

District

pending

Barbara A.
33.

Crabb

On

of

in

after

and

while

a

summary

Nora

filed a

circuit

Wisconsin,

(Judge Crabb)

February 8,

years

commenced

motion to remove the case to the U. S.
Western

four

2013,

court,

the

District Court for the

U. S.

District

Court

Judge

presiding.
the plaintiff

moved to remand

the Spencer foreclosure matter to state court.
34.
other

Throughout her brief in response to the remand and
pleadings,

attorneys

of

Nora

engaging

in

accused
a

"sham

client.

6

the

plaintiff

proceeding"

and

against

its
her

411a

35.

In

a

March

25,

2013

order,

Judge

Crabb

stated

federal jurisdiction did not attach to the Spencer case and
remanded the case to the Wood County Circuit Court.
36.

On

April

reconsideration

of

81

2013,

the

March

Nora
25,

filed

2013

a

for

motion

order

objecting

to

attorney's fees.
37.

Judge

Crabb denied Nora's April 8,

reconsideration as
been

remanded,

reconsider

frivolous because the matter had already

stated

its

2013 motion for

the

remand

Court

order,

and

lacked
ordered

jurisdiction
Spencer

to

to
pay

attorney's fees.
38.

Nora

the March 23,
39.

filed

a

second

2013 order,

motion

for

reconsideration

of

said motion summarily denied.

Nora accused Judge Crabb of libel based upon orders

Judge Crabb made in previous cases involving Nora.
40.

Judge

unsealing

one

Crabb's
of Nora's

previous

orders,

medical

records

in

part,

during

a

involved
matter in

which Nora claimed her medical condition required additional
extensions of time and other considerations by the court.
41.

Nora

alleged

Judge

Crabb's

opening

of

the

medical

records was injurious to her reputation.
42.

Nora

has

not

alleged

untrue.

7

the

medical

records

were

412a

43.

Nora's

accusations

of

libel

were

intended

to

discredit a judiciary member while performing her duties.
44.

In

addition,

Nora

stated

her

accusations

of

libel

against Judge Crabb related to the Judge making a statement
that Nora's arguments were "lacking coherence. "
45.
Judge

Nora

stated,

Barbara A.

"[T] he

Crabb

has

Respondent
engaged

in

indeed
a

stated

campaign

of

that
libel

against her. "
•

U.S. Court of Appeals for the

46.

Nora

appealed

the

U. S.

Seventh Circuit

District

remand and attorney's fees to the U. S.
the 7th Circuit
47.

In

Court's

order

for

Court of Appeals for

(7th Circuit) .

Nora's

appeal

to

the

7th

Circuit,

Nora

named

the

U. S.

District

Court

herself as one of the appellants.
48.

Nora

was

not

a

party

to

action.
49.
No.

The August 13,

2014,

7th Circuit's decision in Case

13-276:
(a)

found

Nora's

appeal

on

behalf

of

herself

and Spencer frivolous.
(b)

imposed a sanction of $2, 500 against Nora
noting,
"We
suspend
this
sanction,
however,
until the time,
if ever,
that
further
inappropriate
submits
Nora
filings. "

8

413a

(c)

PNC Bank ,

50.

ordered Nora to show cause as to why she
should not be sanctioned for the frivolous
appeal.
N. A.

In

v.

its

hearing,

the

7th

specific

issues

Spencer,

August

763 R.3

20,

Circuit
and

650,

2014

order

requested

directed

655

her

for

Nora
to

(7th

Cir. 2014).

a

show

respond
provide

cause

to

four

only

one

response.
51.
order,

In

response

to

the

August

20,

2014

show

cause

Nora submitted five separate responses as follows:

(a)

an August 27, 2014 petition for rehearing en
bane
on
behalf
of
herself
and
Spencer,
rehashing her frivolous appellate arguments;

(b)

a "partial response to order to show cause" ;

(c)

a September 19, 2014 separate motion to stay
further proceedings pending a petition for
writ of certiorari;

(d)

citation to additional authority;

(e)

eleven days before the show cause hearing a
motion to postpone the hearing because of a
car
sustained
a
mild
injury
she
had
in
accident.

52.

Nora's

accusations

order

against

to

PNC

show

cause

Bank,

NA

and,

response
and

its

engaging in felony racketeering and wire fraud,

repeated
attorneys

her
of

and further,

Nora accused opposing counsel of fraudulently concealing the
identity

of

the

real

party

in

9

interest

and

engaging

in

414a

"actionable

civil

fraud

and

racketeering

[that]

may

constitute state and federal criminal misconduct. "
53.

On September 16,

Nora's August 27,
54.
stay

On

the

the Court of Appeals denied

2014 petition for rehearing en bane .

September

September

19,

16,

certiorari to the U. S.
55.

2014,

2014,
2014

Nora

filed

decision

a

petition

pending

a

writ

to
of

Supreme Court.

On October 2,

2014,

the 7th

order directing Nora's client,

Circuit issued a final

Spencer,

to pay the opposing

party $25, 295 in attorney's fees and $349. 67 in costs.
56.

The October 2,

2014 7th Circuit order was silent on

the issue of whether it would issue any additional sanction
against Nora.
57.

On

October

3,

2014,

Nora

filed

from the 6�h Circuit Court of Appeals,

a

28-page

13-3402,

decision

as supporting

evidence for Nora's case.
58.

On October 28,

59.

On

February

2014,

11,

a show cause hearing was held.

2015,

the

7th

Circuit

issued

an

order regarding the show cause hearing outlining the factual
background as follows:
As discussed in our earlier opinion,
this case
arose from a Wisconsin foreclosure action in which
Nora,
retained by Sheila Spencer,
raised numerous
objections focused on alleging that PNC Bank was
fraudulently attempting to foreclose.
Nearly four
years after the suit had been filed,
Nora then

10

415a

removed the case to federal court on the basis that
she had just discovered through internet research
that Freddie Mac was the "real party in interest. "
The district court remanded the case to state court
and awarded fees and costs to PNC, concluding that
Nora failed to explain how federal jurisdiction
could exist when Freddie Mac was not a party to the
case.
Nora moved for reconsideration,
and the
court denied the motion as "frivolous, " noting that
Nora
"ignored
the
voluminous
law
stating
that
district
courts
lack jurisdiction to reconsider
remand orders,
made no good faith argument for
changing existing law and offered no meritorious
arguments for reconsidering the decision to award
fees. "
The court added that Nora had attempted
"repeated
procedural
feints
to
delay
the
foreclosure that
was
properly
before
the state
court. "
Nora then appealed on behalf of both Spencer and
herself,
and
we
concluded
that the
appeal was
sanctionably frivolous.
We explained that Nora had
"never presented any colorable basis for federal
jurisdiction
over
this
years-old
state-court
foreclosure case, " leading us to "suspect that the
removal was part of a strategy designed to gum up
the progress of the case. "
Spencer,
763 F. 3d at
We also observed that we lacked jurisdiction
655.
over
Nora's
appeal
on
her
own
behalf
because
liability for the award of fees and costs rested
solely with Spencer;
although Nora asserted that
Judge Crabb had "engaged in a campaign of libel
against
[her] , "
this alleged criticism
did not
permit
Nora
to
appeal.
Id.
at
653-54.
Nora
suggested at oral argument that she would withdraw
her name as
654.

co-appellant

but never

did so.

Id. at

Further, we noted that Nora's conduct appeared to
be
part
of
a
pattern
of
troubling
litigation
tactics...
Additionally,
we observed that Nora's
responses to her opponents and the courts during
this litigation were "unnecessarily accusatory and
antagonistic, "
noting that Nora had accused "the
state
court
judge
and
court
reporter
of
fraudulently manipulating transcripts,

11

the district

416a

judge of pursuing
'a campaign of libel against
[her] , '
and
opposing
counsel
of
engaging
in
'actionable civil fraud and racketeering [that] may
constitute state and federal criminal misconduct. '"
Spencer, 763 F. 3d at 655 (alterations in original) .
We gave Nora 30 days to show cause why she should
not be sanctioned.
Two days after we issued our opinion, Nora filed a
14 -page
"initial
response"
alleging
that
the
opinion did not provide her with reasonable notice
of the charges against her.
She requested an
evidentiary hearing and appointment of "an attorney
to represent the proponent of the Order to Show
Cause and a referee or special master to preside at
the
hearing. "
We
denied
Nora's
request
for
appointment
of
a
special
master
and
a
full
evidentiary hearing but agreed to hold a hearing on
the show-cause order as allowed under Rule 46 (c) .
We warned Nora that we would not accept additional
filings beyond "one proper response to the show­
cause
order"
and
directed
her
to
address
the
following four issues in her response:
(1) whether
the removal of this case, motion to reconsider, and
appeal of the fee order were frivolous; (2) whether
her appeal on her own behalf was frivolous;
(3)
whether the removal and appeal were litigated for
the
improper
purposes
of
delay
or
increasing
litigation costs;
and (4)
her
opponents
and
the
appropriate advocacy.

whether her attacks on
district
judge
were

Nora did not limit herself to one proper response.
On September 2, 2014, she submitted a petition for
rehearing en bane on behalf of herself and Spencer,
rehashing her frivolous appellate arguments.
On
September 19, she filed both a "partial response to
order to show cause (all rights reserved) " and a
separate motion to stay further proceedings pending
On October 3,
a petition for writ of certiorari.
after the court denied her request for a stay of
proceedings,
she filed a citation of additional
authority under Circuit Rule 28 (e) to bring to our
attention a Sixth Circuit decision that purportedly
supports her arguments on the merits.
Finally, on
October
17,
eleven
days
before
the
show
cause

12

417a

hearing, Nora moved to postpone the hearing because
she had become "progressively mildly cognitively
impaired as the result of a whiplash injury" from a
car accident
on September 13.
We
denied
the
request to postpone the hearing but granted Nora,
or an attorney on her behalf,
leave to argue by
speakerphone.
On October 28,
person for a 20-minute hearing.
778 F. 3 662

In re Nora,

60.

In

its

February

11,

(7th Cir.
2015

Nora

appeared

in

2015)

order,

the

7th

Circuit

discussed whether sanctions would be appropriate:
Sanctions
are
warranted
under
Rule
38
when
a
litigant or attorney presents appellate arguments
with no reasonable expectation of success for the
purposes of delay, harassment, or sheer obstinacy.
See Wachovia Sec., LLC v. Loop Corp., 726 F. 3d 899,
909-10 (7th Cir. 2013) ; Hartz v. Friedman, 919 F. 2d
469, 475 (7th Cir. 1990) ; Mays v. Chi. Sun-Times,
865
F. 2d
134,
138-39
(7th
Cir.
1989) .
Nora's
responses provide us with no persuasive reason to
doubt
that
her
arguments
in
this
appeal
were
motivated by improper purposes....
Nora also fails to alleviate our concern about her
engaging in "conduct unbecoming a member of the
court's bar" under Rule 46 (c) . She contends that
her comments during this litigation have amounted
to
nothing
more
than
unsanctionable
rudeness,
citing
In
re
Snyder,
472 U. S.
634
(1985) .
In
Snyder, the Supreme Court concluded that a single
ill-mannered letter did not rise to the level of
"conduct inimical to the administration of justice"
that is sanctionable under Rule 46 (c) . Id. at 64547; see In re Lightfoot, 217 F. 3d 914, 916-17 (7th
Cir. 2000)
(discussing this standard and collecting
cases applying it) .
But Nora's conduct is more
egregious than that in Snyder. As noted in our
earlier opinion,
Nora has repeatedly acted with
needless antagonism toward opposing counsel and
judicial officers. In her responses to our order to
show cause, she has refused to back down from her
accusations

of

libel

against

13

Judge

Crabb

and

418a

"actionable civil fraud and racketeering" against
opposing counsel.
She denies accusing the state
court judge of altering transcripts, but the record
belies
her
denial:
she
not
only
made
the
accusations but moved for substitution of the judge
on that basis. She also now derides "this panel and
many of the judges in this circuit" as being biased
"against homeowners' rights to be heard and defend
their
homes."
This
bandying
about
of
serious
accusations
without
basis
in
law
or
fact
is
unacceptable
and
warrants
986
F. 2d
195,

Hendrix,

sanctions.
201
(7th

See
Cir.

In

re
1993)

(explaining that attorney's filing of submissions
not grounded in law or fact is sanctionable) ; Mays,
865 F.2d at 140 (sanctioning attorney for falsely
imputing positions on opponents and the court) .
Nora suggested at her hearing that her problems
represent
a personal dispute
with Judge Crabb,
pointing
out
that
the judge decided
to unseal
Nora's medical records in an appeal Nora filed in
her own bankruptcy case. But Nora has failed to
persuade us that the judge's actions amounted to
anything more than adverse rulings against her. Cf.
Litek y v. United States, 510 U. S. 540, 555 (1994)
( " [J] udicial rulings alone almost never constitute
a valid basis for a bias or partiality motion. " ) ...
When we questioned Nora about the lack of basis for
her libel accusations at the hearing in this case,
she
proposed
that
she
could
substantiate
her
accusations if allowed to discuss them with us in
chambers.
There
is
no
reason
to
believe
that
allowing Nora to disparage Judge Crabb in private
would convince us that sanctions are inappropriate.
Id. Nora
COUNT ONE

61.

By

removing

a

state

court

foreclosure

matter

to

the federal court after four years of litigation when there
was

no

colorable

basis

for

federal

jurisdiction,

and,

by

filing a frivolous motion to reconsider the order remanding

14

419a

the

matter

back

to

the

state

Nora

court,

violated

SCR

20:3.l(a) .1
COUNT TWO

62.
client

By

filing

and

herself

litigation,
conduct

to

a

and,
harass

frivolous

when

by

she

engaging

the

other

and delay the proceedings,

appeal
was

in

on

not
an

parties

of

her

party

to

the

ongoing

and

Nora violated

a

behalf

pattern

judicial

SCR

of

officers

20:3.2.2

COUNT THREE

63.

By

engaging

in

an

ongoing

pattern

of

conduct

to

harass the other parties and judicial officers and delay the
proceedings,

Nora

violated

SCR

40.15

enforceable

via

SCR

20:8.4(g).3

Regarding the Rinaldi Matter
OLR Matter No. 2015MA614
Counts

1

SCR

Four

-

Five

20:3.1(a) provides: "In representing a client, a lawyer shall not: (I) knowingly advance a claim or

defense that is unwarranted under existing law, except that the lawyer may advance such claim or defense if
it can be supported by good faith argument for an extension, modification or reversal of existing law;

(2)

knowingly advance a factual position unless there is a basis for doing so that is not frivolous; or (3) file a
suit, assert a position, conduct a defense, delay a trial or take other action on behalf of the client when the
lawyer knows or when it is obvious that such an action would serve merely to harass or maliciously injure
another."
2

SCR

20:3.2 provides:

"A lawyer shall make reasonable efforts to expedite litigation consistent with the

interests of the client."
3

SCR

40.15 provides in relevant part: "I will maintain the respect due to courts of justice and judicial

officers; I will not counsel or maintain any suit or proceeding which shall appear to me to be unjust, or any
defense, except such as I believe to be honestly debatable under the law of the land; ... I will abstain from
all offensive personality and advance no fact prejudicial to the honor or reputation of a party or witness,
unless required by the justice of the cause with which I am charged...
SCR

'

20:8.4(g) provides: "It is professional misconduct for a lawyer to violate the attorney's oath."
15

420a

At

64.

all

represented

the

actions

and

all

Rinaldi

vs.

Eastern

District

(the

Bank

of

USA,

unless
their

Rinaldi

N.A.,

et

al.

Case

Court) ,

and,

Roger Rinaldi
a

state

L.

13-3865 and 14-1887

signed

excepted,

Desa

Wisconsin

(District

In 2005,

Rinaldis)

in

appeals.

Appeals Case Nos.
65.

herein,

plaintiffs

HSBC

13-CV-643-JPS

times

note

7th

foreclosure
and

U. S.

Nos.

Nora

Roger

Dist.

Court,

13-cv- 336-JPS
Cir.

U. S.

P.

and

Court

of

(Court of Appeals) .

(Rinaldi)
promising

and his wife Desa
to

repay

a

Wells

Fargo mortgage loan.
66.
loan

and

Within
HSBC

foreclosure
Bank

four

Bank

action

years,

USA,
as

the Rinaldis

N. A.

(HSBC)

assignee

USA vs. Roger Rinaldi,

initiated

of the

et

al.,

defaulted on the

mortgage

a

Wisconsin

note.

HSBC

Kenosha County Case No.

09-CV-353.
67.
Fargo,
that

The Rinaldis

counter-claimed

and the lawyers involved in the
the

mortgage

fraudulently

paperwork

altered

and

produced

that

HSBC

against HSBC,

Wells

foreclosure alleging
by

HSBC

lacked

had

standing

been
to

enforce the mortgage.
68.

The

the Rinaldis,

state

court

granted summary judgment

who did not appeal.

16

against

421a

A

69.

year

later

state

the

vacated

court

its

foreclosure judgment based upon HSBC agreeing to modify the
loan rather than foreclose.
70.

After

agreement,

the

the

parties

Rinaldis

state court matter) ,
the
Bank

same

parties.

Nat ional

11-CV-1477.

filed

a

new

Roger

Rinaldi,

loan

state

entered

et

et

modification

lawsuit

(second

her

al.

vs.

Wells

Fargo

Kenosha County Case No.

al.,

appearance

Rinaldis in that matter on August 30,
71.

the

reasserting their counterclaims against

Associat ion,

Nora

finalized

on

behalf

of

the

2011.

The defendants moved to dismiss with prejudice the

second state court matter.
72.

Before the state court could rule on the dismissal

motion in the second state court matter,
a

bankruptcy

action

automatic

stay.

HSBC

USA,

Bank

District

of

Desa
N.A.

Wisconsin,

representing

the

November 18,

2011.

73.

HSBC,

(bankruptcy
L.
et

matter)

Rinaldi
al.,

Case

Rinaldis

and

U. S.
No.
in

the Rinaldis filed
precipitating

Roger

P.

Rinaldi

Bankruptcy Court,
11-35689-svk.

the

bankruptcy

proof of claim in the bankruptcy matter.

17

vs.

Eastern

Nora

began

matter

holder of the Rinaldi mortgage note,

an

on

filed a

422a

74.
proof
that

In

of
the

action,

June

claim,

filed

Rinaldis
and

2012,

had

alleged

interference,

Nora

objected

adversary

to

claims

counter-claimed
fraud,

abuse

breach of contract,

HSBC's

against
against

of

bankruptcy
the

in

parties

the

process,

state

tortious

and violations of RICO and

the Fair Debt Collection Practices Act.

75.

On

February

22,

2013,

the

bankruptcy

court

found

in favor of HSBC's proof of claim and recommended denial of
Nora's adversarial claims.
76.

Nora

appealed

the

February

22,

2013

bankruptcy

court order.
77.

On

October

31,

2013,

the

District

Court

affirmed

the bankruptcy court's orders on the proof of claim,
the

bankruptcy

claims,

court's

recommendations

on

the

adopted

adversary

and found as follows:

(a)

The court concluded that
need to reach the merits

it
of

did
the

not even
proof-of­

claim decision because the Rinaldis failed
to designate the record or issues for appeal
as
required
by
the
Federal
Rules
of
Bankruptcy Procedure.
(b)

The court rejected the Rinaldis' appeal on
had
the
merits,
explaining
that
HSBC
was
produced
documents
showing
that
it
entitled to enforce the mortgage.

(c)

The court dismissed each of the Rinaldis'
noting that
adversary claims as meritless,
"an
their
submission of those claims was
18

423a

unfocused,
stream-of-consciousness-style
recitation
of
general
grievances
debtors
have asserted in various forms since the
origination
of
the
litigation
in
state
court. "
(d)

The

court

warned

the

Rinaldis

they

would

likely
face
sanctions
if
they
filed
additional frivolous filings because their
litigation tactics had "quite obviously been
vexatious
and
time-and
resource-consuming"
and
their
filings
were
"nigh­
unintelligible. "
78.

Within

Court's decision,

two

weeks

of

the

October

2013

District

Nora moved to alter or amend the judgment

under Federal Rule of Civil Procedure 59 (e)

and repeated her

previously denied arguments related to the mortgage.
79.
Nora's

On December
Federal

Rule

13,
of

2013,
Civil

the District
Procedure

Court

59 (e)

decided

motion

stated as follows:
(a)

the
arguments
were
meritless
and
"the
Rinaldis, through their attorney Wendy Nora,
have at every t ur n filed briefs that have
done little to clarify the matters under
consideration
further
while
confusing
matters"
(emphasis in original)

(b)

Nora's
briefs
were
rambling,
failed
to
comply
with
court
rules,
contained
many
spelling and grammatical errors, cited legal
authority
sparingly
if
at
all,
repeated
rejected arguments, and used "irrelevant and
argumentative language that has no place in
a legal brief. "

(c)

The court warned that "any further frivolous
submissions
will
result
in
an
award
of

19

and

424a

appropriate sanctions against the
attorney" (emphasis in original).
In December 2013,

80.

Rinaldis'

Nora appealed the District Court

ruling to the Court of Appeals.
In March 2014,

81.
2011

bankruptcy

state

court"

action

with

Nora moved to dismiss the Rinaldis'
asserting

"newly

she

wished

discovered

"to

proceed

evidence"

that

to
the

mortgage was void.
82.

The

dismiss,

bankruptcy

inf orming

her

court

that

granted

the

Nora's

dismissal

motion

might

moot

to
the

Rinaldis' pending appeal.
Nora

83.

moved

to

withdraw

as

the

Rinaldis'

attorney

in the District Court case.
Bef ore

84.
to

withdraw,

case

and

Nora

demanded

the

District

moved
relief

to

Court

ruled

intervene

pursuant

to

in

on

the

Nora's

motion

District

Federal

Rule

Court

of

Civil

Procedure 60 (b).
On April 9,

85.

2014,

the District Court allowed Nora

to withdraw.
86.

On

April

9,

2014,

the

District

motions to intervene and f or relief
prior
of

orders pursuant

Civil

$1, 000,

Procedure

be

f rivolous

stating:

20

f ound

Nora's

f rom the District Court's

to Rule 60 (b) (2)
to

Court

of
and

the Federal Rules
sanctioned

Nora

425a

Last, as to Ms. Nora's motion to intervene and for
Rule 60 (b) relief, the Court notes that it has no
choice but to impose sanctions against Ms. Nora.
In the Court's last order, it noted that '[w] ith
this order, the Court hereby makes clear that any
further frivolous submissions will result in an
award
of
Rinaldis'.
87.
appealed

appropriate
sanctions
(emphasis in original)

On

behalf

the

District

of

Rinaldis

the

Court's

order

Rule of Civil Procedure 60 (b)

against

and

the

herself,

related

to

the

Nora

Federal

motion and the $1, 000 sanction

for frivolous motion filing.
88.

On February 11,

2015,

the Court of Appeals affirmed

the District Court's sanction order.
In ruling

89.
Federal

Rule

subsequent

of

$1, 000

on Nora's appeal of her District Courts

Civil

Procedure

sanction

order,

motion

60 (b)
the

Court

discussed whether sanctions were appropriate,

and

of

Appeals

stating:

Finally,
we affirm the sanction order,
which we
review for an abuse of discretion.
See Tucker v.
Williams, 682 F. 3d 654, 661 (7th Cir. 2012) .
Nora
offers only a
cursory defense for her actions,
maintaining that she did "nothing more than what
she [was]
required by law to do in the course of
representing her clients. "
But Nora's obligations
to her clients did not excuse her disregard of the
district
court's
clear
and
repeated
warnings
against
continued
submission
of
confusing,
frivolous,
and
needlessly
argumentative
filings.
Thus,
the court did not abuse its discretion by
sanctioning Nora.
The orders of the district court are affirmed.

21

the

426a

Desa L. Rinaldi and Roger
USA,

N.A.,

2015)

et

P. Rinaldi vs. HSBC Bank
778 F. 3d 672, 672-675 (7th Cir. ,

al.,

at 676.

COUNT

In Desa

90.
Bank

USA,

N.A.,

FOUR

L. Rinaldi and Roger

et

U. S.

al.,

Dist.

District of Wisconsin Case Nos.
JPS,

which

13-3865
motion

and

to

further

U. S.

by

U. S.

filing

Court

Bank

USA,

District

a

SCR

L.
et

which

13-3865

and

led

to

F. R. C. P.
after

60 (b) (2) ,

the

7th

14-1887,

motion for relief

U. S.

Eastern

to

intervene

and

a

pursuant to

by

result

Nora
in

an

that

any

award

of

FIVE

and Roger

U. S.

Cir.

warned

20:3.1(a).

Rinaldi
al.,

had

would

Dist.

District of Wisconsin Case Nos.
JPS,

motion

Court

submissions

Desa

N.A.,

the

of Appeals Case Nos.

the Court's prior orders

Nora violated

In

for

13-CV-336-JPS and 13-CV-643-

COUNT

91.

Court

which motions were found to be frivolous,

frivolous

sanctions,

Cir.

from

60 (b) (2) ,

the

7th

14-1887,

for relief

F. R. C. P.
after

led

P. Rinaldi vs. HSBC

Court

for

vs. HSBC

the

Eastern

13-CV-336-JPS and 13-CV-643-

U. S.

filing

P. Rinaldi

Court
a

of Appeals Case Nos.

motion

to

intervene

and

a

from the Court's prior orders pursuant to
which motions were found to be frivolous,

District

Court

22

had

warned

Nora

that

any

427a

further

frivolous

sanctions,

Nora violated and

WHEREFORE,

Attorney

submissions

the

Wendy

Office

Alison

would

SCR

of

Nora

result

in

an

award

of

20:3. 2.

Lawyer

be

found

Regulation
in

asks

violation

that

of

the

Supreme Court rules as alleged in Counts One through Five of
this

Second

Attorney
period
any

Amended

Wendy

of

one

suspension

Case No.

Complaint,

Alison

Nora's

2013AP653-D,

upon

to

Nora

and for such

as may be just and equitable,

the

Wisconsin

year consecutive
imposed

that

and

Court

law

license

immediately

related

to

suspend

Supreme

Court

other and further relief

including an award of costs.

REGULATION

Retained Counsel
900

23

a

following

Dated this 18th day of August 2016.

Mailing Address:
222 W. Washington, Ste.
P. O. Box 1784
Madison, WI 53701-1784
(608) 256-0226

for

428a

APPENDIX N

429a

STATE OF WISCONSIN

IN THE SUPREME COURT

In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law
----------------------Office of Lawyer Regulation,
Complainant
v.

Case Code: 30912

Case No. 2015AP002442-D

Wendy Alison Nora,
Respondent

JURISDICTIONAL OBJECTION MAINTAINING AND PRESERVING MOTION TO
DISMISS FOR LACK OF SUBJECT MATTER JURISDICTION OR COMPETENCY OF THE
TRIBUNAL; CONDITIONAL ANSWER AND AFFIRMATIVE DEFENSES;
ALLEGATIONS IN SUPPORT OF ACTION FOR DAMAGES UNDER
WIS. STATS. SEC. 895.044 AND RESERVATION OF RIGHTS

NOW COMES Wendy Alison Nora (Nora), appearing specially, through her Attorney by
Limited Appearance, John William Verant (Attorney Verant) pro hac vice, and by co-counsel,
Attorney Wendy Alison Nora (Attorney Nora), objects to the subject matter jurisdiction (or
competency) of the tribunal to proceed on the Second Amended Complaint filed and served by
the Office of Lawyer Regulation (OLR) on August 18, 2016; maintains Nora’s special
appearance, maintaing the Motion to Dismiss for lack of subject matter jurisdiction which cannot
be waived or obtained by consent; preserving her Action for Damages by Motion pursuant to
Wis. Stats. sec. 895.044 to be renewed pursuant to the August 16, 2016 Order; contingent upon a
determination by the Supreme Court of Wisconsin that cause to proceed on the facts and
misconduct allegations set forth in the Second Amended Complaint are not required to be
determined by a preliminary review panel of the Preliminary Review Committee (PRC), and
1

430a

maintaining that the tribunal is without jurisdiction over the entire Second Amended Complaint
which, as a matter of law, replaced the January 19, 2016 Amended Complaint when it was filed
and served on August 18, 2016, Nora shows the Court:
CONDITIONAL ANSWER AND FACTS IN SUPPORT OF ACTION FOR DAMAGES
PURSUANT TO WIS. STATS. SEC. 895.044
(This entire Answer is conditioned upon a determination on the issue of lack of subject
matter jurisdiction over the August 18, 2016 Second Amended Complaint and the facts are
pleaded in support the Wis. Stats. sec. 895.044 Action for Damages for which jurisdiction
has been retained pursuant to the August 16, 2016 Order)
1. Conditionally responding to ¶1 of OLR’s Second Amended Complaint, Nora DENIES
¶1, and incorporates this ¶1 and all affirmative allegations into each of paragraph of her Answer
to the Second Amended Complaint, whether specifically set forth or not, and affirmatively
alleges:
a. OLR is not operating pursuant to Supreme Court rules in the initiation and
continuation of proceedings against Nora in this matter, but has initiated and continued these
proceedings without a good faith cause to believe that it could prove that Nora violated the Rules
of Professional Conduct (SCR Chapter 20) by clear, convincing and satisfactory evidence.
b. Whereas Nora previously alleged, upon information and belief, that OLR did not
proceed in good faith in its attempt to file the Second Amended Complaint in OLR v. Nora, Case
No. 2013AP000653-D (Nora #1), which was then filed as an “Amended” Complaint on
November 30, 2015 as a new proceeding under the foregoing case caption (Nora #2) and was
subsequently amended on January 19, 2016, it is now undisputed that OLR’s August 18, 2016
Second Amended Complaint has been filed without a determination by a preliminary review
panel of the PRC of cause to proceed on the facts and misconduct allegations set forth therein.

2

431a

c. OLR has not pleaded only the facts or misconduct allegations for which cause to
proceed was determined by a panel appointed by the PRC as required by SCR 22.11(2) but
obtained leave to file the Second Amended Complaint from Referee James J. Winiarski based
upon the June 3, 2016 Affidavit of OLR Investigator Travis J. Stieren (Stieren), who made false
and misleading statements under oath with respect to the determination of the preliminary review
panel of the PRC, including, but not limited to, ¶¶1, 6, 7, and 8:
¶1. I am an attorney licensed to practice law in the state of Wisconsin and am employed
as an investigator for the Complainant Office of Lawyer Regulation (“OLR”). I make
this affidavit on the basis of my own personal knowledge. (Emphasis added.)
¶6. . . Nora was provided with a copy of the report in the form of a Preliminary Staff
Investigative Report before the report was submitted to the PRC, excepting only the five
page analytical work product part of the report setting out OLR’s analysis of the
evidence. The foreclosure case in which Nora represented Sheila Spencer discussed
in the report was Wood County Circuit Court Case No. 2009-CV-283. . . (Emphasis
added.)
¶7. I did not draft the complaint or amended complaint filed in this matter. I do not know
why Wood County Case No. 2013-TJ-49 appears in paragraph 6 of both the complaint
and the amended complaint. The reference should have been to Wood County Case
No. 2009-CV-283. There appears to be some relationship between Wood County Case
Nos. 2009-CV-283 and 201 3-TJ-49 and Seventh Circuit Case No. 13 -2676, because the
parties are the same and the plaintiff PNC Bank appears by the same counsel, Attorney
James Carrig. (Emphasis added.)
¶8. I reviewed the letter from OLR’s counsel in this matter to Nora dated May 26, 2016,
regarding a proposed clarification to paragraph 19 of the amended complaint, before the
letter was transmitted to Nora. Based on my knowledge of the facts I obtained during
the investigation of, OLR Inquiry No. 2014MA1570, the proposed changes more
accurately describe Nora’s allegations made in the state court action regarding
alleged ex parte communications. (Emphasis added.)
d. Stieren knows that the Preliminary Staff Investigative Report made no reference and
did not discuss Wood County Circuit Court Case No. 2009-CV-283 (now referred to as the state
court action); he knows that he did not review the contents of the court file in the state court
3

432a

action before submitting the Staff Report to the PRC; he knows that he made no independent
investigation of Nora’s supposed allegations of “ex parte communications” in the state court
action; and he knows that he made no effort to provide an evidentiary analysis of the
documentary record in the state court action to the PRC.
e. These proceedings were initiated in violation of SCR 22.11(2) which provides:
(2) The complaint shall set forth only those facts and misconduct allegations for
which the preliminary review panel determined there was cause to proceed and may
set forth the discipline or other disposition sought. Facts and misconduct allegations
arising under SCR 22.20 and SCR 22.22 may be set forth in a complaint without a
preliminary review panel finding of cause to proceed. (Emphasis added.)
f. Affirmatively alleges that these proceedings do not arise under SCR 22.20 or SCR
22.22.
g. Nora was not provided with the materials submitted for review of the PRC and to any
PRC panel assigned to consider the charges filed in these proceedings; the investigative report
was presented in a biased manner, suppressing evidence which would exculpate Nora from the
charges of ethics violations; and OLR promoted the charges as an add-on to the pending case of
Nora #1, which OLR attempted to accomplish by a Notice of Filing of a Second Amended
Complaint in Nora #1 on September 25, 2015.
h. Affirmatively alleges that these proceedings are ultra vires.
i. Affirmatively alleges that these proceedings have been initiated for the purpose of
curtailing Nora’s litigation activities on behalf of her clients for the benefit of entities operating a
scheme to defraud the courts, the public, and owners of real estate in Wisconsin and throughout

4

433a

the nation,1 and OLR has been successful in doing so by burdening Nora’s office with responses
to unfounded charges, based on falsely sworn affidavits purporting to authentic forged
documents created by Grievant Attorney David M. Potteiger (Potteiger) in Nora #1, following the
criminal re-disclosure of Nora’s confidential medical records in violation of Wis. Stats. sec.
146.84(2) without a public safety exception.
j. These proceedings have been commenced on the basis of an ultra vires continuing
investigation of Nora’s litigation practice generated by an open channel between Nora’s litigation
opponents, OLR investigator Travis J. Stieren (Stieren), and a wholly improper consulting
arrangement between OLR Assistant Litigation Counsel, Sheryl St. Ores and Grievant Potteiger,
who was asked to provide legal advice and consultation by St. Ores to assist her in the
prosecution of Nora.
k. Nora’s litigation practice in the defense of property owners against foreclosures seeks
to require that the real party in interest appear as plaintiff in judicial foreclosure actions in the
State of Wisconsin and seeks to cause the entity appearing as plaintiff in judicial foreclosure
actions to prove by a preponderance of authentic evidence (and not upon forged documents and
falsely sworn affidavits) that the entity appearing before the court is entitled to the equitable
remedy of foreclosure provided at Chapter 846 of the Wisconsin Statutes.
l. OLR’s years-long ultra vires continuing investigation of Nora to aid and abet Nora’s
litigation opponents in their efforts to confiscate the real property interests of Nora’s clients who

1

Those entities purport to operate in the “financial industry” and have captured regulatory
agencies, including, but not limited, to the United States Department of Justice (USDOJ), the Internal
Revenue Service (IRS), the Federal Bureau of Investigation (FBI), the Securities and Exchange
Commission (SEC), the Office of the Comptroller of Currency (OCC), and the United State Treasury and
now appear to have captured the Wisconsin Office of Lawyer Regulation.

5

434a

resisted the attempts of mortgage servicers to proceed against them on false pleadings, based on
false documents and supported by falsely sworn affidavits, culminated in these proceedings
against Nora, which were first attempted to be filed in Nora #1, were then initiated as new
proceedings as Nora #2, and was based on over four (4) dozen false factual allegations and
almost a dozen misrepresentations of law, which OLR belatedly sought to unilaterally “correct”
without obtaining a cause determination from a preliminary review panel of the PRC, solely on
the June 3, 2016 Stieren Affidavit and the companion Affidavit of OLR’s new counsel, Paul W.
Schwarzenbart (Schwarzenbart) dated June 3, 2016.
m. Schwarzenbart makes statements, under oath, which reveal that Schwarzenbart has
taken upon himself, with the assistance of Stieren, to supplant the function of a preliminary
review panel of the PRC, including, but not limited to, ¶¶9 and 12 of the June 3, 2016
Schwarzenbart Affidavit, in which he states at ¶¶1, 2, 9, and 12:
¶1. I am serving as retained counsel for the Office of Lawyer Regulation (“OLR”) in the
above-entitled matter. I make this affidavit on the basis of my own personal
knowledge. (Emphasis added.)
¶2. On April 26, 2016, I filed and served a Notice of Appearance as counsel for the OLR
in this matter. (Date emphasized.)
¶9. The need to clarify paragraph 6 became apparent on May 16, 2016, when Nora
filed her answer to the amended complaint. It became more apparent when Nora
served her first set of requests for admissions. (Date and process emphasized.)
¶10. In her answer, Ms. Nora makes an issue of paragraph 6 not correctly identifying the
Spencer foreclosure case filed in the Circuit Court for Wood County by case number
repeatedly alleging that “There is no foreclosure case entitled PNC Bank, N.A. v. Sheila
M. Spencer, Wood County Case No. 2013T149 filed in October, 2008 or at any other
time.” See Nora’s Answer at ¶¶ 8-29. (Emphasis added to exemplify OLR’s admission
to the scope and impact of the admitted “patent” error in the complaint authorized by the
PRC.)

6

435a

¶11. In Nora’s first set of requests for admissions, approximately 25 of the 106 requests
specifically reference “Case No. 2013TJ49.” (Emphasis added to exemplify the admitted
scope and impact of the admitted “patent” error on Nora’s discovery rights as to one
single set of written discovery.)
¶12. In reviewing the 1363 page report submitted by OLR to the Preliminary
Review Committee, it makes no mention of a Wood County Case No. Case No.
2013TJ49. In reviewing the report, it appeared to me that paragraph 19 of the
amended complaint should be clarified to state that Nora made three allegations of ex
parte communications between Judge Potter and plaintiff’s counsel relating to letters and
pleadings filed with the court on or about March 31, 2010, February 17, 2011, and June
20, 2011, as Nora did not allege that there were three ex parte letters. [Emphasis
added to exemplify that Schwarzenbart has acted unilaterally without lawful authority
pursuant to SCR 22.11(2), knows that ¶19 is unsupported by any evidence and sought,
with the assistance of Stieren, to substitute another false allegation as ¶19, without the
authority of the PRC.]
n. The preliminary review panel of the PRC purportedly found “cause to proceed” on
both ¶6 and ¶19 and Schwarzenbart admits that the allegation in ¶19 of the November 30, 2015
Complaint and the January 19, 2016 Amended Complaint is false.
o. Schwarzenbart enlisted Stieren in the effort to re-write ¶19, without calling the falsity
of ¶19 to the attention of the charging body (which is required to be a preliminary review panel
of the PRC) under SCR 22.11(2).
p. As quoted in ¶1.c., above, Stieren’s June 3, 2016 Affidavit states, “Based on my
knowledge of the facts I obtained during the investigation of, OLR Inquiry No. 2014MA1570,
the proposed changes more accurately describe Nora’s allegations made in the state court action
regarding alleged ex parte communications.”
q. It is the preliminary review panel of the PRC, not Stieren (at the direction of
Schwarzenbart) which is charged with the responsibility of determining cause to proceed on facts
and allegations of misconduct which shall be set forth only in the complaint.
r. Schwarzenbart and Stieren sought leave to correct ¶6 and ¶19 to allege what they think
7

436a

the preliminary review panel should have determined as the facts to be alleged in ¶6 and ¶19 but
the PRC did not authorize OLR to proceed on the facts now alleged at ¶6 and ¶19 of the Second
Amended Complaint.
s. That OLR is now proceeding on the August 18, 2016 Second Amended Complaint
because Schwarzenbart thinks and Stieren agrees that the preliminary review panel should have
found cause to proceed on different facts to be set forth in ¶6 and ¶19 is a clear violation SCR
22.11(2) because the complaint shall set forth only those facts and misconduct allegations upon
which a preliminary review panel of the PRC determined there was cause to proceed.
t. The facts alleged in ¶6, which Schwarzenbart admitted were “patently erroneous” and
effects the allegations in ¶8-29 and which Nora contended rendered the allegations in ¶7-31
entirely false (and she know observes that the issue occurred in ¶32 as well).
u. Although the “patent” error was called to OLR’s attention starting with Nora’s first
Motion for Sanctions under Wis. Stats. sec. 802.05, served as safe harbor notice on December 3,
2015 and continued throughout extensive motion practice until she was ordered to answer OLR’s
false January 19, 2016 Complaint by the Referee on April 26, 2016, who should know by now
that Nora was correct in contending that the November 30, 2015 and January 16, 2016 were false
insofar as the allegations now admitted by OLR to have been “patently erroneous” but upon
which the Referee refused to grant relief to Nora pursuant to Wis. Stats. sec. 802.05, but allowed
Nora to renew her damages action under Wis. Stats. sec. 895.044.
v. As to the purported specific amendment to ¶19 (without a PRC determination of
cause) OLR now contends, solely by Schwarzenbart and Stieren (who are not authorized to
determine facts or misconduct allegations to be set forth in the complaint), that Nora did not

8

437a

allege that there were ex parte letters March 31, 2010, February 17, 2011, and June 20, 2011.
w. Schwarzenbart and Stieren (and not the preliminary review panel of the PRC) pretend
that the allegation in ¶19 should have set forth that Nora alleged that there were three (3) other
ex parte communications relating to letters and pleadings filed with the court on or about March
31, 2010, February 17, 2011, and June 20, 2011.
x. The new factual allegation in ¶19 was not based on Stieren’s personal knowledge of
the Wood County Circuit Court record (which he did not review or analyze prior to presenting
the Investigative Report to the PRC) but was knowingly falsely sworn to have been intended to
have been alleged by the preliminary review panel by Stieren, acting outside the scope of his
employment at the direction of Schwarzenbart, who is likewise acting ultra vires without a
determination of cause to proceed on new ¶19 by the preliminary review panel of the PRC.
y. The amendments to ¶6 and ¶19 not only change the facts in those paragraphs, but
changes the allegations in ¶¶7-32, the misconduct allegations in ¶¶61-63 and Nora’s defense
strategy to the entire matter designated as Nora #2 without the approval of the PRC.
z. OLR has been proceeding on “patently erroneous” allegations against Nora since it
first attempted to file its Second Amended Complaint in Nora #1 to include the false allegations
it subsequently filed as its November 30, 2015 Complaint and January 19, 2016 Amended
Complaint in Nora #2.
aa. OLR is now proceeding on a Second Amended Complaint, which, in substantial part,
sets forth facts and misconduct allegations for which cause to proceed was not determined by the
PRC.
bb. The tribunal is without subject matter jurisdiction to proceed on the Second

9

438a

Amended Complaint, which shall set forth only the facts and misconduct allegations for which
the preliminary review panel determined there was cause to proceed.
cc. Referee did not request that the Referee allow it to amend ¶1 and the Referee did not
authorize the filing of amendment to ¶1 of the Second Amended Complaint, contributing to the
loss of the tribunal’s subject matter jurisdiction.
2. Conditionally ADMITS ¶2 of OLR’s Second Amended Complaint and affirmatively
alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc. .
3. Conditionally ADMITS, in part, and DENIES, in part, ¶3 of OLR’s Second Amended
Complaint insofar as OLR has characterized the reciprocal discipline entered in Disciplinary
Proceedings Against Nora, 173 Wis. 2d 660, 495 N.W. 2d 99 (1993) (hereinafter, the 1993
Decision) and affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc.
b. The 1993 Decision is based upon a 1990 Decision by the Supreme Court of
Minnesota, which contained substantial mitigating factors, which were not considered by the
Wisconsin Supreme Court. The present published version of the 1990 Minnesota Supreme Court
Decision entitled In re Disciplinary Action Against Nora, 450 N.W.2d 328 (1990) does not
include the actual legal proposition asserted by Nora with respect to the tender of debt
instruments in exchange for debt instruments, which is the foundation of all financial
transactions in the United States of America. Nora never authorized the use of cashier’s checks

10

439a

drawn on the State Bank of Boyd for the purchase of hard goods or services, except in one
instance where she personally provided the funds to clear the instrument. Nora never argued the
legal theory that cashier’s checks drawn on a closed or insolvent bank were valid form of
payment. She did make any such argument to test the validity of cashier’s checks as final
payment, even if drawn on an insolvent and closed bank. Her legal theory was that, at common
law, if a debt instrument is the consideration for a promise to pay, re-payment may be made in
kind, to wit, by another debt instrument. While that practice is, in fact, the foundation of all
commerce in the United States of America, there is an exception in the State of Wisconsin,
where, under Wis. Stats. sec. 134.15(2) contracts for which the consideration is a debt instrument
not immediately payable in lawful money of the United States or gold or silver coin, as defined at
Wis. Stats. sec. 134.15(1) are unauthorized and are null and void. The events for which Nora
was reciprocally disciplined occurred in the State of Minnesota and were governed by Minnesota
common law.
c. Nora cannot explain why her actual legal position no longer appears in present
publications of In re Disciplinary Action Against Nora, 450 N.W.2d 328 (1990) but she clearly
recalls that the original published version discussed the legal theory of payment in kind, which
the Supreme Court of Minnesota then acknowledged was a recognized principal of common law.
It was not and is not the law of the State of Wisconsin (see Wis. Stats. sec. 134.15), so it is
understandable that the Supreme Court of Wisconsin would have found, in 1993, that her
position was not supported by existing law. The events, however, took place in Minnesota, and
the Minnesota Supreme Court recognized the principal of payment in kind which inexplicably
does not appear in current published versions of the 1990 Minnesota Decision. Nora’s copy of
11

440a

the original 1990 decision was lost in a flood in her storage space in 2001. Nora would never
have argued that a cashier’s check drawn on a closed or insolvent bank was a valid instrument for
discharge of indebtedness, but did argue that the tender of a debt instrument was payment in kind
when the consideration loaned was a debt instrument in the State of Minnesota.
d. The 1993 Decision was based on actions taken by Nora during the Farm Crisis of the
1980s, specifically in 1986) more than a quarter century (30 years) in the past. The Supreme
Court of Minnesota concluded, in mitigation, that Nora stated at oral argument that she now “can
distinguish political arguments that are improperly made from legal theories that are
appropriately brought.” In re Disciplinary Action Against Nora, 450 N.W.2d at 330. Only in the
State of Wisconsin, where there is positive statutory recognition that corporate paper being
issued to circulate as money must be paid in lawful money of the United States or gold or silver
coin has she ever again argued that consideration for a contract which is corporate paper not
immediately payable in “money” is invalid.
e. The conduct for which Nora was sanctioned by the 1993 Decision have not been
repeated by Nora, except that since she undertook to address legitimate concerns that homes are
being subjected to foreclosure actions initiated on false pleadings, based on false documents and
supported by falsely sworn affidavits, OLR has undertaken to prosecute Nora in order to conceal
the misconduct of mortgage servicing agents’ lawyers, who OLR has refused to investigate, and
seeks to justify its investigation of Nora, in part based on her long ago disciplinary history
involving political actions in which she engaged in the State of Minnesota during the Farm Crisis
of the 1980s but in larger part because it illegally obtained and disseminated confidential medical
information which had been filed under seal in a federal court matter, in order to make it appear
12

441a

that the concerns of Nora and her clients about false pleadings, forged documents and falsely
sworn affidavits which are ubiquitous in foreclosure cases in the current era are “frivolous”
concerns.
f. OLR cannot demonstrate that the 1993 Decision is in any way relevant to this matter,
except insofar as OLR, which is acting ultra vires, seeks to justify its unauthorized initiation of
this case by referring to conduct for which Nora was disciplined in the State of Minnesota more
than 25 years ago to bootstrap its attempt to punish Nora for the exercise of her rights and the
rights of her clients to petition the judiciary for redress of grievances. See Bordenkircher v.
Hayes, 434 U.S. 357, 98 S.Ct. 663, 54 L.Ed.2d 604 (1978); California Motor Transport Co v.
Trucking Unlimited, 404 U.S. 508, 92 S.Ct. 609, 30 L.Ed.2d 642(1972); and Bill Johnson
Restaurants, Inc. v. National Labor Relations Board, 461 U.S. 731, 103 S.Ct. 2161, 76 L.Ed.2d
277 (1983)
g. OLR relies on an edited summary of the first paragraph of the text of Disciplinary
Proceedings Against Nora, 173 Wis. 2d 660, 495 N. W. 2d 99 (1993) alleging at 3.
Nora’s Wisconsin disciplinary history consists of a 30 day suspension as discipline
reciprocal to that imposed by the Minnesota Supreme Court for misrepresentations,
failing to adequately investigate, bringing a frivolous claim against a bank, inappropriate
transfer of assets, and bringing litigation as a delay tactic while asserting a theory that was
not justified by existing law.
h. The Wisconsin Supreme Court actually held,
That misconduct consisted of making misrepresentations concerning the reopening *661
and capitalization of a bank, failing to adequately investigate the person who was to
provide capital to the bank, improperly authorizing the issuance of cashier checks by the
bank [the State Bank of Boyd matter], bringing a frivolous claim against a bank alleging
it had obtained an ex parte replevin order against her clients in bad faith, transferring
assets of her law partnership in Minnesota to a bank account in the name of the
partnership in an attempt to insulate those assets from collection efforts on behalf of the
13

442a

bank that had obtained an award of costs in the frivolous action matter [the Gennrich
matter] and bringing litigation primarily as a delay tactic and asserting in it a theory that
was not justified by existing law [the Ruud matter].
i. The State Bank of Boyd matter involved a political action undertaken by Nora, her
clients who owned a state-chartered bank in rural Minnesota, and a group of over approximately
40 farmers and agriculture-related business in Boyd, Minnesota, who had sought relief from the
closing of the State Bank of Boyd and it was Nora’s political activity which led to the Minnesota
Supreme Court asking its regulatory body, then known as the Minnesota Board of Attorney
Responsibility, to investigate the State Bank of Boyd matter.
j. Nora was never able to appeal from the award of sanctions in the Gennrich ex parte
replevin matter because no final order was ever entered.
k. Nora did not attempt to insulate assets of her law partnership from payment of the then
and ever afterward unappealable sanctions order; she formed a professional association to
insulate herself and her partners from future liability, created a bank account in the name of the
professional association and paid the sanctions award. The portion of the 1990 Minnesota
Supreme Court disciplinary decision related to the creation of the professional association and
the opening of the bank account was mistaken.
l. With respect to the Ruud matter, the Referee in the reciprocal discipline case and the
Supreme Court of Wisconsin can be forgiven for its confusion about the underlying facts and law
in Disciplinary Proceedings Against Nora, 173 Wis. 2d 660, 495 N.W.2d 99 (1993) but Nora’s
money argument that a Minnesota trial court judge found “goes well beyond the imaginative into
the depths of absurdity” in the Minnesota case of Federal Land Bank v. Ruud, et al. was
grounded on the very same constitutional authority as that upon which Wis. Stats. sec. 134.15 is
14

443a

based. It is undisputed that Federal Land Bank did not loan the Ruuds lawful money of the
United States or gold or silver coin. Nora was arguing in good faith for the extension of existing
law in the State of Minnesota to require that consideration for contracts be lawful money of the
United States or gold or silver coin in conformity with Article One, Section 8, Clause 5 of the
United States Constitution. See American Express Co. v. Citizens State Bank, 181 Wis. 172,
178, 194 N.W. 427 (Wis. 1923), in which the Wisconsin Supreme Court held:
“Neither as included in its powers nor incidental to them is it a part of a bank's
business to lend its credit. If a bank [178] could lend its credit as well as its money, it
might, if it received compensation and was careful to put its name only to solid paper,
make a great deal more than any lawful interest on its money would amount to. If not
careful, the power would be the mother of panics, and if no compensation was received,
there is the additional reason, if any is needed, that such a power is in derogation of the
rights and interests of stockholders, and at all events could only be exercised with the
consent of all.
“Indeed, lending credit is the exact opposite of lending money, which is the real
business of a bank; for while the latter creates a liability in favor of the bank, the former
gives rise to a liability of the bank to another.” 1 Morse, Banks & Banking (5th ed.) § 65;
Magee, Banks & Banking (3d ed.) § 248; 1 Michie, Banks & Banking, § 99.
This rule is so well established that it is unnecessary to cite the great number of
cases which declare it.
m. Royce and Norma Ruuds took the position that Federal Land Bank has extended its
credit to them in the form of a loan and that they had not received lawful consideration for the
mortgage granted to Federal Land Bank. While success on the merits was not expected at the
trial court level, the Ruuds were attempting to make a record for appeal. The Minnesota
Supreme Court held, In the Disciplinary Action Against Nora, 450 N.W.2d at 330:
[T]he Ruuds received $335,000.00 in the form of bank drafts or checks that they used to
satisfy obligations to various creditors. On behalf of the Ruuds, Nora brought suit against
the Federal Bank on various grounds based on Nora’s “money theory,” whereby she
argued the Federal Bank did not loan money, but merely extended credit.
n. Technically speaking, Nora did not “bring suit” against the Federal Land Bank on
15

444a

behalf of the Ruuds, but did file a counterclaim in the foreclosure action brought against the
Ruuds by the Federal Land Bank to challenge the validity of the consideration. If there were a
failure of lawful consideration, the Federal Land Bank would have had to clear the checks and
drafts it issued to the Ruuds and other farmers in lawful money of the United States, which
would have increased the quantity of money in circulation in the rural economy of Minnesota,
which would have recapitalized the state charter banks which had cleared the checks and drafts
from their own accounts, imperiling their own capital and leading to the failure of state chartered
banks.
o. Nora had access to evidence that Federal Land Bank’s sister corporation, the
Production Credit Association (PCA), was using sight drafts which were not paid upon sight as
required and that Federal Land Bank could be shown to be engaging in the same unlawful
practice. The Ruuds were simultaneously seeking to refinance their agricultural operation and
had the intention of repaying the unlawful drafts themselves, after summary judgment of
foreclosure was entered. The redemption period for a Minnesota foreclosure of agricultural lands
was one year following the Sheriff’s Sale (the opposite of Wisconsin where the foreclosure sale
takes place after the redemption period has run.) The Ruuds chose not to appeal from the
summary judgment decision but sought in good faith to obtain refinancing for their farm, which
was difficult because the capital reserves of state-chartered community banks was impaired by
the illegal activities of the Federal Land Bank and PCA described herein. Nora attempted to
assist the Ruuds in refinancing their farm.
p. The Supreme Court of Minnesota did not conclude that Nora had brought an action
against the Federal Land Bank which was not supported by existing law. It found that the
16

445a

monetary theory presented by Nora was a political issue which could not be adjudicated in the
Minnesota courts. In the Disciplinary Action Against Nora, 450 N.W.2d at 330.
q. Nora acknowledged that absent positive law such as Wis. Stats. sec. 134.15, the
validity of the debt-based, privately-created monetary system is a political issue which cannot be
effectively litigated in an individual case.
r. Nora will seek to demonstrate that there is an alternative to the unconstitutional,
private, debt-based monetary system which is the most significant issue facing the State of
Wisconsin and indeed the entire world.
s. Nora will seek to demonstrate how the unconstitutional, private, debt-based monetary
system and has led to unpayable debt and the collapse of the Rule of Law at the hearing to be
held commencing on October 31, 2016.
Regarding the Spencer Matter
OLR Matter No. 2014MA1570
Counts One-Three
4. Conditionally Responds to ¶4 of OLR’s Second Amended Complaint, DENIES the
same and affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc.
b. OLR knows or should know that ¶4 is not only factually false but is legally
impossible. A mortgage note was not issued to Sheila Spencer in any amount.
c. The allegation in ¶4 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c). Moreover, because Nora has repeatedly attempted to explain the factual
falsity and legal impossibility of the allegations in ¶4, ¶4 has been pleaded in violation of SCR
17

446a

20:3.1(a)(2) and (c), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a).
5. Conditionally responds to ¶5 of OLR’s Second Amended Complaint, DENIES the
same and affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc.
b. Starting in October, 2008, National City Bank (of Cleveland, Ohio) as the successor in
interest to National City Mortgage Company, an Ohio corporation, which merged with National
City Bank on October 1, 2008, became the mortgage servicing agent for the Federal Home Loan
Mortgage Corporation (Freddie Mac), a fact which was never pleaded in the Spencer foreclosure
case.
c. National City Bank (of Cleveland, Ohio) refused Ms. Spencer’s current loan payment
in order to obtain Troubled Asset Relief Program (TARP) funds because it was then and there
undercapitalized and was seeking an infusion of taxpayer funds to continue its operations.
d. National City Bank was denied TARP funds.
e. Nora has repeatedly attempted to inform OLR of the true facts underlying the
transaction at issue in the Spencer matter and that the allegation in ¶5 is made in violation of
SCR 20:1.1 and 20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
f. Because Nora has repeatedly attempted to explain the factual falsity of ¶5, ¶5 has been
pleaded in violation of SCR 20:3.1(a)(2) and (c), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(a) and entitles Nora to damages pursuant to Wis. Stats. sec. 895.044.

18

447a

OLR’s heading: Circuit Court: Judge Potter, Counsel, Staff
Nora’s heading: The State Court Foreclosure Case Commenced by the Undisclosed
Mortgage Servicing Agent for Federal Home Loan Mortgage Corporation (commonly
known as Freddie Mac) Now Pending on Appeal to the Wisconsin Court of Appeals,
District IV in Case Nos. 2014AP002353 and 2015AP001826
6. Conditionally responds to ¶6 of OLR’s Second Amended Complaint, ADMITS the
same in part, DENIES the same, in part, and affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc.
b. Pursuant to SCR 22.11(2), OLR alleged in its November 30, 2015 Complaint and its
January 19, 2016 Amended Complaint:
¶6. In October 2008, PNC Bank filed a foreclosure action (Spencer foreclosure) against
Spencer’s property, the Honorable Gregory J. Potter (Judge Potter) presiding. PNC
Bank NA vs. Sheila M Spencer, Wood County Case No. 2013TJ49.
c. Without a determination of cause to proceed by the preliminary review panel of the
PRC as required by SCR 22.11(2), OLR now alleges:
¶6. On April 7, 2009, a foreclosure action was initiated against Spencer arising out of the
note and mortgage (“Spencer foreclosure”) The action was captioned FNMC, a division
of National City Bank of Indiana nka National City Bank, vs. Sheila M. Spencer, et al.,
Wood County Case No. 2009CV283, the Honorable Gregory J. Potter (Judge Potter)
presiding.
d. On August 30, 2016, Schwarzenbart represented to the Referee that the allegations in
¶6 of the previous complaint(s) was the result of a typographical error.
e. It is perfectly clear that the designation of 2013TJ49 instead of 2015CV283 in ¶6 of
the previous complaint(s) could not have been a typographical error because not a single key in
“2013TJ49” is transposed nor was any key struck which would have erroneously resulted from

19

448a

the attempt to strike the keyboard with the intended result of “2015CV283.”
f. It is further perfectly clear that the phrase “In October 2008” in ¶6 of the previous
complaint(s) is not a typographical error in any way associated with the phrase “On April 7,
2009.”
g. It is further perfectly clear that the clause in ¶6 of the previous complaint(s) is not a
typographical error “PNC Bank filed a foreclosure action (Spencer foreclosure) against Spencer’s
property” mistakenly typed instead of “a foreclosure action was initiated against Spencer arising
out of the note and mortgage (‘Spencer foreclosure’).”
h. Schwarzenbart unilaterally removed the identity of the entity which commenced the
foreclosure action from ¶6 of the previous complaint(s) and substituted a new theory for the
nature of the action from “a foreclosure action . . . against Spencer’s property” to “a foreclosure
action was initiated against Spencer arising out of the note and mortgage.
i. Schwarzenbart has altered the identity of the entity which the preliminary review panel
determined, as a fact, was the party which filed the foreclosure action against Ms. Spencer’s
property to a vague allegation that a nameless entity filed the foreclosure action “arising out of
the note and mortgage” in a case captioned “FNMC, a division of National City Bank of Indiana
nka National City Bank, vs. Sheila M. Spencer, et al.”
j. None of the changes to the previous complaint(s) described in ¶6.d., e., f., g., and h.,
above, amount to the correction of typographical errors, refuting the finding of the Referee in the
August 16, 2016 Order that OLR’s errors are “innocent” because “innocent” errors do not give
rise to or require the support of misrepresentations to the Court, as Schwarzenbart did by his
August 30, 2016 misrepresentation that the “patent” error in ¶6 of the previous complaint(s) was
20

449a

typographical in nature.
k. The unavoidable conclusion from the August 30, 2016 misrepresentation of
Schwarzenbart, is that he and Stieren are not “innocent” and, on his own ultra vires authority,
supported by the falsely sworn June 3, 2016 Affidavit of Stieren, has unilaterally alleged the facts
set forth in ¶6 of the Second Amended Complaint because those are the facts that Schwarzenbart,
acting on his own, would prefer to attempt to prove.
l. As Nora has consistently stated since May 27, 2016, Schwarzenbart is not the
preliminary review panel of the PRC and he lacks the authority to determine cause to proceed
against Nora.
m. Nora cannot be forced to admit or deny Schwarzenbart’s personal allegations against
her and this tribunal has no subject matter jurisdiction to hear, consider or determine the personal
allegations in ¶6 which Schwarzenbart is making against Nora.
n. Preserving her defenses at ¶6. a., b., c., d., e., f., g., h., i., j., k., l. and m., above, and
protesting that she has no duty to respond to the ultra vires allegations in ¶6., extrajurisdictionally approved by the Referee on August 16, 2016 on the unsupported theory that
“OLR” made “innocent” errors in charging Nora, Nora responds to ¶6. by admitting, denying and
affirmatively alleging:
(1) Denies the legal validity of the case caption of the Spencer foreclosure complaint filed
on April 7, 2009 as Wood County Circuit Court 2009CV283 in the name of FNMC, a division of
National City Bank of Indiana nka National City Bank, vs. Sheila M. Spencer, et al. on April 7,
2016.
(2) Denies that the named plaintiff was the real party in interest entitled to file the
21

450a

Spencer foreclosure complaint in the name of “FNMC, a division of National City Bank of
Indiana nka National City Bank, vs. Sheila M. Spencer, et al.”
(3) Admits the date the foreclosure action was commenced by recourse to judicially
noticeable facts.
(4) Denies that the foreclosure action “arises out of the note and mortgage” and
affirmatively alleges that counsel for the “plaintiff” was representing PNC Mortgage, a division
of The PNC Financial Services Group, Inc.; further affirmatively alleges that counsel for the
“plaintiff” was instructed or decided to use the name of FNMC, a division of National City Bank
of Indiana and added “nka National City Bank” to correspond to the name appearing on the Note
and Mortgage in order to conceal the sale of the note and mortgage to the Federal Home Loan
Mortgage Corporation (Freddie Mac) years before the commencement of the action; further
affirmatively alleges that counsel for “plaintiff” failed to present a true and correct copy of Ms.
Spencer’s July 29, 2005 Note as an attachment to the complaint in its current form; and further
affirmatively alleges that counsel, in succession, for “plaintiff” concealed all evidence that the
mortgagee interest was equitably assigned to Freddie Mac years before the commencement of the
action by multiple misrepresentations to the courts up to the date of entry of the Decision of the
Wisconsin Court of Appeals in Case No. 2014AP002353.
(5) Affirmatively alleges that Nora informed OLR on multiple occasions that “PNC
Bank” did not file a foreclosure action as PNC Bank NA v. Sheila M. Spencer, Wood County
Case No. 2013TJ49 in October, 2008 and pointed out that it is legally impossible for a 2008
foreclosure action to be assigned Case No. 2013TJ49, explaining that the year assigned to the
filing is 2013 and the designation “TJ” stands for Transcript of Judgment.
22

451a

(6) Affirmatively alleges OLR’s persistence in confusion as to the identity of the
“plaintiff” is a product of OLR’s stubborn refusal to believe anything Nora would tell them as
well as the deliberate confusion created by counsel for the “plaintiff” which Nora identified in
Wood County Circuit Court Case No. 2009CV283 as early as May, 2012.
(7) Affirmatively alleges that although Nora repeatedly attempted to inform OLR of the
correct case title of the Spencer foreclosure action and its case number, OLR persisted in its
“patent” error through two (2) safe-harbor warnings under Wis. Stats. sec. 802.05( c) on
December 3, 2015 and January 25, 2016, two (2) motions pursuant to Wis. Stats. sec. 802.05 ( c)
on January 5, 2016 and February 17, 2016, Nora’s December 22, 2016 first Jurisdictional
Objection, Motion to Dismiss and request for a Franks hearing, and Nora’s March 8, 2016
proposed probable cause complaint presented in connection with her request for a Franks
hearing.
(8) Affirmatively alleges that Schwarzenbart admits in his June 3, 2016 Affidavit that
¶10. In her answer, Ms. Nora makes an issue of paragraph 6 not correctly identifying the
Spencer foreclosure case filed in the Circuit Court for Wood County by case number
repeatedly alleging that “There is no foreclosure case entitled PNC Bank, N.A. v. Sheila
M. Spencer, Wood County Case No. 2013T149 filed in October, 2008 or at any other
time.” See Nora’s Answer at ¶¶ 8-29. (Emphasis added.)
¶11. In Nora’s first set of requests for admissions, approximately 25 of the 106
requests specifically reference “Case No. 2013TJ49.” (Emphasis added.)
(9) Affirmatively alleges, in addition, that on March 28, 2016, OLR responded to Nora’s
Jurisdictional Objection and request for a Franks hearing by stating that it was “at a
disadvantage”in having to respond to Nora’s Objection because she had not yet answered (OLR
Response, page 2), despite the fact that OLR had been served with two (2) safe-harbor notices

23

452a

and two motions pursuant to Wis. Stats. sec. 802.05( c) prior to that date.
(10) Affirmatively alleges, moreover, that Stieren’s June 3, 2016 Affidavit states that
Nora provided him with the Wisconsin Circuit Court Access Program Case Events on November
2, 2014 which displayed the correct case number of the Spencer foreclosure case.
(11) Finally, affirmatively alleges that Schwarzenbart’s June 3, 2016 Affidavit and OLR’s
July 8, 2016 discovery demand to Nora demonstrate that OLR had been provided with substantial
documentation involving the correct case events and activities on May 11, 2015, prior to the
presentation of Stieren’s Staff Investigative Report to the PRC.
n. The foregoing undisputed facts are part of Nora’s evidence OLR is liable for the
damages it has caused Nora in years of intrusion and interference into her lawful and diligent
practice of law and specifically for the time and expense she has spent defending the nowadmitted to be false November 30, 2015 Complaint and January 19, 2016 Amended Complaint
and continuing.
o. The allegation in ¶6 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c) and Wis. Stats. sec. 895.044.
p. Because Nora has repeatedly attempted to explain the factual falsity of ¶6, ¶6 has been
pleaded in violation of SCR 20:3.1(1)(a) and (b), SCR 20:3.3(a)(1) and Wis. Stats. sec.
802.05(2)(c), OLR violated Wis. Stats. sec. 895.044 before the tribunal lost subject matter
jurisdiction over the complaint for failure to follow SCR 22.11(2). Although the tribunal lost
subject matter jurisdiction Nora on OLR’s claims in the Second Amended Complaint by the
pleading of amended facts and affecting the misconduct allegations which were not set forth by
the preliminary review panel of the PRC, the tribunal retains jurisdiction over the counterclaim
24

453a

for damages in Nora’s action under Wis. Stats. sec. 895.044, over which the Referee expressly
reserved jurisdiction in his Order of August16, 2016 to be renewed at the conclusion of the
evidentiary proceedings now set to commence on October 31, 2016.
7. Conditionally responds to ¶7 of OLR’s Second Amended Complaint, ADMITS that
she became successor counsel to Sheila M. Spencer, affirmatively alleges that she entered her
limited appearance on May 8, 2012 and further affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc.
b. On August 30, 2016, Schwarzenbart represented to the Referee that the allegations in
¶6 of the previous complaint(s) were the result of a typographical error.
c. Nora incorporates ¶6. a., b., c., d., e., f., g., h., i., j., k., l., m., n., o. and p., above, in
support of her affirmative defenses and in support of her damages action pursuant to Wis. Stats.
sec. 895.044 and protests that she has no duty to respond to the ultra vires Second Amended
Complaint, the ultra vires allegations in ¶6 and all subsequent allegations affected by the ultra
vires alteration to ¶6-31, which includes ¶7 which was extra-jurisdictionally approved by the
Referee on August 16, 2016 on the unsupported theory that “OLR” made “innocent” errors in
charging Nora and will demonstrate that not only were the errors not “innocent,” the failure to
identify the correct case number in the previous complaint(s) demonstrates some or all of the
following:
(1) The preliminary review panel of the PRC did not determine cause to proceed on the
facts or allegations of misconduct in the complaint(s) as it pertains to ¶6-31 prior to the Second
Amended Complaint which the preliminary review panel undisputedly did not authorize;
25

454a

(2) Stieren did not analyze the evidence produced by Nora on November 2, 2014 and
include an analysis of the materials provided to OLR by Nora nor did he analyze the materials
Nora instructed Alphagraphics Legal to copy and submit to OLR on May 11, 2015 and include
any reference to them in the Staff Investigative Report;
(3) Assistant Litigation Counsel Sheryl St. Ores violated SCR 1.1 and 1.4 in pleading the
previous complaint(s).
d. Although ¶7 of OLR’s Second Amended Complaint finally identifies the case in which
Nora became successor counsel to Ms. Spencer, Nora affirmatively alleges that she repeatedly
attempted to inform OLR of the true facts underlying the transaction at issue in the Spencer
matter, the correct case number and the original and subsequent titles of the case and OLR
persistently failed to identify the case in which Nora appeared on Ms. Spencer’s behalf in May,
2012 until more almost eight (8) months after above-captioned case was initiated and did so
without a cause determination by the preliminary review panel.
e. The allegation in ¶7 in the previous complaint(s) was made in violation of SCR 20:1.1
and 20:1.4, Wis. Stats. sec. 802.05(2)(b) and (c).
f. Because Nora has repeatedly attempted to explain the factual falsity of ¶7, ¶7 has been
pleaded in violation of SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(b),
OLR violated Wis. Stats. sec. 895.044 before the tribunal lost subject matter jurisdiction over the
complaint for failure to follow SCR 22.11(2). The tribunal retains jurisdiction over the
counterclaim for damages under Wis. Stats. sec. 895.044. That OLR persists in proceeding
against Nora on the unauthorized Second Amended Complaint is further evidence of its
violations of Wis. Stats. sec. 895.044.
26

455a

8. Conditionally responds to ¶8 of OLR’s Second Amended Complaint, DENIES the
same and affirmatively alleges:
a. Nora reincorporates by reference as if fully set forth herein ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s. t., u., v., w., x., y., z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., above, and protests that she has no duty to respond to the
ultra vires allegations in ¶6, which alters the content of not just OLR’s ¶6, but subsequent ¶¶7-31
and Nora’s entire defense in the proceedings.
b. The Referee’s ultra vires Order of August 16, 2016 rejects “any suggestion” that the
complaint shall set forth only those facts and misconduct allegations for which the preliminary
review panel determined there was cause to proceed.
c. The Referee concluded that “OLR” made “innocent” errors in setting forth the facts
and misconduct allegations in ¶6 and ¶19.
d. Under SCR 22.11(2) the only facts and allegations to be set forth in a complaint
seeking to lawyer discipline are those for which cause to proceed has been determined by the
preliminary review panel of the PRC.
e. Nora repeatedly attempted to inform OLR of the true facts underlying the transaction
at issue in the Spencer matter, the correct case number and the original and subsequent titles of
the case and OLR persistently failed to identify the case in which Nora appeared on Ms.
Spencer’s behalf in May, 2012 until almost eight (8) months after the filing of the abovecaptioned matter.
f. OLR still has not correctly identified any case in which Nora supposedly made the
allegation that “that plaintiff, its related entities, and its attorneys were ‘part of a grand, national
27

456a

mortgage fraud scheme’” as alleged in ¶8.
g. Although OLR does not identify the plaintiff, related entities or attorneys who Nora
supposedly alleged were “part of a grand, national mortgage fraud scheme,” Nora denies that she
ever alleged that any plaintiff, its related entities, and its attorneys were “part of a grand, national
mortgage fraud scheme” orally or in writing at any time.
h. Nora affirmatively defends that in appropriate cases, based on substantial evidence
and in accordance with existing law, Nora has specifically pleaded violations of the Racketeer
Influenced and Corrupt Organizations Act (RICO) at 18 U.S.C. sec. 1961, et seq. [private right of
action at 18 U.S.C. sec. 1964( c)], as she did in Rinaldi adversary proceeding in WIEB Case No.
12-02412, or state common law fraud, as she pleaded in the Spencer foreclosure action on March
26, 2013.
i. Nora’s litigation practice includes, but is not limited to, the pleading of facts in support
of defenses against foreclosure which involve allegations of fraud when supported by substantial
evidence (clear and convincing evidence is required to prove fraud) and where pursuit of such
defenses is in the interest of her clients.
j. Nora has filed pleadings including claims or counterclaims, third party complaints and
defenses based on fraud based on substantial evidence and in accordance with existing law, to the
extent possible in view of limited resources of property owners compared to the unlimited
funding available to mortgage servicing agents.
k. Nora repeatedly attempted to inform OLR of the true facts upon which she relied in
pleading fraud in the Spencer foreclosure, in an existing controversy which was then on appeal,
provided OLR with the correct case number for the Spencer foreclosure case and sought to
28

457a

inform OLR of the various identities which have been used to identify the “plaintiff,” falsely
pleaded to be the owner and holder of Ms. Spencer’s Note and Mortgage in response to its
inquiry into the Spencer matter.
l. Nora did not and could not have anticipated that a false and unprovable complaint
would be amended according to conflicting evidence at summary judgment in the Spencer
foreclosure case, much less that the summary judgment would be upheld on appeal.
m. OLR has persisted in failing to identify the case in which the preliminary review panel
determined there was cause to proceed against Nora because she alleged that “the plaintiff, its
related entities, and its attorneys were part of a grand, national mortgage fraud scheme” to this
very day.
n. Despite the fact that OLR has been on notice that Nora knows of no case in which she
alleged that “the plaintiff, its related entities, and its attorneys were part of a grand, national
mortgage fraud scheme” since December 3, 2015, OLR has failed to identify any case in which
Nora made such an allegation.
o. After Nora’s extensive responses to OLR’s inquiries into the Spencer matter during
the investigative phase overseen by Stieren; after the preliminary review panel of the PRC was
required to have determined cause to proceed and after only those facts and allegations of
misconduct for which the preliminary review panel found cause to proceed; after Nora’s safe
harbor notices and motions pursuant to Wis. Stats. sec. 802.05(3)(a), her Verified Jurisdictional
Objections and Motions to Dismiss the November 30, 2016 Complaint and the January 19, 2016
Amended Complaint which specifically stated that ¶8 does not identify any case involving Ms.
Spencer in which Nora alleged that “the plaintiff, its related entities, and its attorneys were part
29

458a

of a grand, national mortgage fraud scheme” (giving rise to the reasonable inference that the
preliminary review panel did not review any document or transcript of any proceedings in the
Spencer foreclosure case in which Nora made that allegation); and even after she answered ¶8 of
the January 19, 2016 Amended Complaint on May 16, 2016 and filed the corrections to the
Answer on May 20, 2016, OLR’s false factual allegation that Nora stated that those involved in
the Spencer foreclosure were part of a “grand, national mortgage fraud scheme” persisted and
persists to this day.
p. In every version of all of the complaint(s) purporting to initiate disciplinary
proceedings based on the facts set forth the allegation in ¶8 of the complaints in Nora #2 OLR,
presumably upon the authority of a cause determination by the preliminary review panel of the
PRC, contains the same, false allegation against Nora, to wit:
Nora alleged the plaintiff, its related entities, and its attorneys were part of a grand,
national mortgage fraud scheme.
q. The language of ¶8 is identical language in ¶55 of the attempted Second Amended
Complaint in Nora #1 submitted by “Notice of Filing” on September 25, 2015; appears in ¶8 of
the November 30, 2015 Complaint in Nora #2; and appears again in ¶8 of the January 19, 2016
Amended Complaint–all of which commenced or continued the prosecution of Nora under the
false allegation that she alleged that “the plaintiff, its related entities, and its attorneys were part
of a grand, national mortgage fraud scheme” in Wood County Circuit Court Case No.
2013CV49.
r. That same language appears again in the extra-jurisdictional August 18, 2016 Second
Amended Complaint under the unauthorized amendment to ¶6 which makes a surreptitious

30

459a

doubly unauthorized amendment to ¶1 in which Schwarzenbart purports to grant the Referee the
power to circumvent the PRC without even obtaining the (jurisdictionally impossible)
permission of the Referee to amend ¶1.
s. It is undisputed that the requirement of SCR 22.11(2) that the complaint shall set forth
only those facts and misconduct allegations for which the preliminary review panel of the PRC
found cause to proceed under both its plain meaning and the Rules of Construction of Rules of
Court at SCR 99.001(14) was not followed prior to the filing of the Second Amended Complaint
in Nora #2.
t. In its effort to conceal the breadth and scope of the knowing or reckless errors in its
three (3) previous complaint(s), Schwarzenbart and Stieren intentionally (together acting ultra
vires as the self-appointed PRC) made no effort to examine the factual basis for the allegation in
¶8 which has now appeared three (3) times in Nora #2 and once in Nora #1.
u. OLR made no effort to identify the correct case upon which the preliminary review
panel of the PRC determined cause to proceed with the allegations in ¶6-31, including this ¶8,
until after Nora commenced discovery into the factual support for allegations in the January 19,
2016 Amended Complaint.
v. Upon information and belief, Stieren, the preliminary review panel of the PRC and
Attorney St. Ores never reviewed the case file in Wood County Circuit Court Case No.
2009CV000283, in FNMC, a division of National City Bank of Indiana nka National City Bank
v. Spencer, et al., commenced on April 7, 2009, despite the fact that Nora informed OLR that the
entire case file had been located one floor below OLR’s office in the Tenney Building, 110 East
Main Street, in Madison, Wisconsin 53703 at the Wisconsin Court of Appeals since January 2,
31

460a

2015 and remained at that location up to the time of the remittitur on July 27, 2016. Nora first
informed OLR of the location of the complete court record in the Spencer foreclosure case on
December 3, 2015 and continued to inform OLR of the location of the complete record of all
filings in the Wood County Circuit Court case in numerous filings up to and including Nora’s
May 20, 2016 Corrected Answer. See ¶¶13, 14, 15, 16, 17, 18, 19 and 24 of Nora’s December 3,
2015 Safe Harbor Notice to OLR Assistant Litigation Counsel Sheryl St. Ores (St. Ores) and
OLR Director Keith Sellen (Director Sellen). See also Nora’s December 22, 2015 Verified
Jurisdictional Objection and Notice of Motion and Motion for a Franks Hearing to Dismiss for
Lack of Probable Cause; Further or Alternative Motion to Dismiss For Selective and Vindictive
Prosecution; and Further or Alternative Motion to Dismiss as a Sanction Fo (sic) Bad Faith
Initiation and Continuation of These Proceedings and the Companion Case Identified Herein as
Nora #1, at ¶¶ 139.b., 141, 142, 143, 144, 145, 146. 147 and 152. See also Nora’s January 5,
2016 Motion for Sanctions at ¶¶13, 14, 15, 16, 17, 18, 19 and 24. See also Nora’s January 25,
2016 Safe-Harbor Notice to St. Ores and Director Sellen at ¶¶3, 5, 6, 7, 9, 11, 12, 13, 14, 16 and
31 which is also attached as Exhibit 1 to Nora’s February 17, 2016 Motion for Sanctions arising
from the filing of the January 19, 2016 Amended Complaint.
w. Although the actual court records in Wood County Circuit Court Case No.
2009CV283 were located one floor below OLR’s office in the Tenney Building, 110 East Main
Street, in Madison, Wisconsin 53703 at the Wisconsin Court of Appeals since approximately
January 2, 2015 until remittur on or about July 27, 2016 and could have been copied by any
member of the public for 10 cents per page, Stieren, St. Ores and Schwarzenbart did not seek to
retrieve “true and authentic” copies of any of the records.

32

461a

x. Instead, Schwarzenbart demanded that Nora admit that documents which had not been
retrieved from court records were “true and authentic” copies of documents filed with the court
in the Spencer foreclosure case, which they were not.
y. On August 30, 2016, at a hearing conducted in absence of subject matter jurisdiction,
the Referee “deemed” that Nora admitted that copies of numerous documents which were not
“true and authentic” copies of documents filed with the Wood County Circuit Court or entered
into the record of the proceedings in the Spencer foreclosure were “true and authentic” copies of
documents filed in court records.
z. The majority of the documents which were denied as not “true and authentic” were
not copies from the court’s record, but, Nora later learned, were copies of documents which Nora
had instructed to be delivered to OLR by Alphagraphics Legal in Madison, Wisconsin on May
11, 2016.
aa. The allegation in ¶8 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats.
sec. 802.05(2)(b) and (c).
bb. Schwarzenbart’s August 30, 2016 misrepresentation that the contents of ¶6 were the
result of a typographical error was knowingly or recklessly made in bad faith in an apparent
attempt to prevent the recognition of the Court that filing of the Second Amended Complaint
divested the tribunal of subject matter jurisdiction, to minimize the alterations to the Second
Amended Complaint in order to limit Nora’s litigation rights under the Second Amended
Complaint if the tribunal had not been divested of subject matter jurisdiction by the filing of the
Second Amended Complaint on August 18, 2016.
cc. Moreover, because Nora has repeatedly attempted to explain the factual falsity of ¶8,

33

462a

¶8 has been pleaded in violation of SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and, because OLR has
persisted in making false allegations, its conduct can only be explained as a violation of Wis.
Stats. sec. 802.05(2)(a) for which Nora may recover her damages in an action under Wis. Stats.
sec. 895.044 if she meets the higher standards for recovery and her burden of proof.
9. Conditionally responding to ¶9 of OLR’s Second Amended Complaint, ADMITS and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g.,
h., i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f.,
g., h., i., j., k., l., m, n., o. and p., ¶7.c., and 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. OLR has disregarded Nora’s extensive and detailed responses to OLR’s inquiries into
the Spencer matter, which fully detailed the issues in the Spencer foreclosure case.
c. The wording of OLR’s ¶9 demonstrates OLR’s lack of knowledge of the issues in all
Wisconsin foreclosure cases.
d. If by “correct plaintiff” OLR means that the party identified as the plaintiff must be the
party entitled to the remedy of foreclosure, that is a requirement of the law of the State of
Wisconsin.
e. The identity of the entity holding the Note is an issue in every Wisconsin foreclosure
case.
f. The identity of the party entitled to enforce the Note is an issue in every Wisconsin
foreclosure case.
g. If the party seeking the remedy of foreclosure is not the entity to which the mortgagee
interest was granted, the party must show that it is entitled to payment or performance of the

34

463a

security interest under Wis. Stats. sec. 409.203.
h. The allegation in ¶9 is made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats. sec.
802.05(2)(b) and (c) insofar as it implies that it was unethical for Nora to require proof that the
party seeking the remedy of foreclosure was entitled to do so.
i. Nora has repeatedly attempted to explain to OLR that the law of the State of
Wisconsin requires a party seeking to foreclose on Wisconsin real estate to establish that it is the
holder of the Note and there is nothing unethical about an attorney for a property owner to
require evidence of that fact.
j. The identity of the party holding the Note is the fundamental issue in Wisconsin
foreclosure proceedings because only the holder of the Note, or its authorized agent, is entitled to
enforce it. Dow Family, LLC v. PHH Mortgage Corporation, et al., 2014 WI 56, 354 Wis.2d
796, 848 N.W.2d 728 (2014).
k. Like ¶4, OLR’s ¶9 demonstrates a lack of understanding by OLR of the basics of
commercial transactions under the Uniform Commercial Code.
l. There is nothing unethical about Nora’s legal position that the plaintiff must be the
holder of the Note.
10. Conditionally responds to ¶10 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p., ¶7.c., and 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES that as of the date that the preliminary review panel of the PRC purportedly

35

464a

found cause to proceed on ¶10 there was a final determination of the identity of the party entitled
to enforce the Note.
c. ADMITS that on May 19, 2016 the Wisconsin Court Appeals, affirmed the decision of
the Wood County Circuit Court in the Spencer foreclosure.
d. Affirmatively alleges that on June 7, 2016, Ms. Spencer moved for reconsideration of
the May 19, 2016 Decision of the Wisconsin Court of Appeals.
e. Affirmatively alleges that on June 14, 2016, the Wisconsin Court of Appeals denied
Ms. Spencer’s Motion for Reconsideration.
f. Affirmatively alleges that Ms. Spencer did not appeal from the Decision of the
Wisconsin Court of Appeals.
g. Affirmatively alleges that on July 27, 2016, remittitur was entered in the Spencer
foreclosure case.
h. ADMITS that there is a final Decision affirming the judgment of foreclosure in Wood
County Circuit Court Case No. 2009CV283 which was entered approximately 20 months after
the preliminary review panel of the PRC found cause to proceed on ¶10, alleging that the “‘court’
determined that PNC Bank, N.A. was the correct party plaintiff from which relief may be had
only pursuant to Wis. Stats. sec. 806.07.
i. Affirmatively alleges that “PNC Bank, N.A., successor by merger to National City
Bank, successor by merger to National City Bank of Indiana, a division of which was FNMC”
was not determined to be the owner of the Note as alleged in the foreclosure complaint.
j. The allegation in ¶10 was made in violation of SCR 20:1.1 and 20:1.4 and Wis. Stats.
sec. 802.05(2)(a) and (b).

36

465a

k. Because Nora has repeatedly attempted to explain the legal error of relying on
judgment which was pending on appeal, ¶10 was pleaded in violation of SCR 20:3.1(1)(a) and
(c), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (b).
11. Conditionally responds to ¶11 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p., ¶7.c., and 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES paragraph 11 insofar as it alleges “Throughout the litigation, Nora accused
opposing counsel of fraudulently concealing the identity of the real party interest and engaging in
‘actionable civil fraud and racketeering [that) may constitute state and federal criminal
misconduct.’”
c. Affirmatively alleges that she reported her concerns about possible criminal
misconduct to the Seventh Circuit Court of Appeals in a single writing, as she is required to do
pursuant to 18 U.S.C. sec. 4.
d. ADMITS that Nora reported that the conduct involved in the attempt to confiscate Ms.
Spencer’s home for debt not owed to the foreclosure claimant “constitutes actionable civil fraud
and racketeering and may constitute state and federal criminal misconduct” because she has a
duty to report federal crimes under 18 U.S.C. sec. 4 under penalty of being guilty herself of
misprision of a felony.
e. Affirmatively alleges that Nora is required to report federal felonies of mail fraud and
wire fraud of which she has personal knowledge, to pursue direct appeals allowed by law, and to

37

466a

defend her clients’ interests within the bounds of the law. To attempt to punish Nora for doing
what the law not only allows her to do, but requires her to do is a violation of her due process
rights. See Bordenkircher v. Hayes, 434 U.S. 357, 98 S.Ct. 663, 54 L.Ed.2d 604 (1978), “To
punish a person because he has done what the law plainly allows him to do is a due process
violation of the most basic sort, . . . and for an agent of the State to pursue a course of action
whose objective is to penalize a person’s reliance on his legal rights [here, Nora’s affirmative
duties] is “patently unconstitutional.”
f. Affirmatively alleges that statement to the Seventh Circuit Court of Appeals was true
and is protected under the First Amendment to the United States Constitution and Article One,
Section 3 of the Wisconsin Constitution.
g. Affirmatively alleges that counsel for the plaintiff did indeed conceal the identity of
the real party in interest, which was discovered to be the Federal Home Loan Mortgage
Corporation (Freddie Mac), eventually admitted to be Freddie Mac, and, as new evidence
discovered during the pendency of the appeal, confirmed by Freddie Mac itself.
h. The allegation in ¶11 is made in violation of Wis. Stats. sec. 802.05(2)(a), (b) and (c).
i. During the course of her representation of Spencer in the state court proceedings and
terminated when Spencer decided not to file a Petition for Review to the Wisconsin Supreme
Court, Nora and Spencer discovered that the real party in interest in the Spencer case was not the
three (3) different names in which the mortgage servicer proceeded against Ms. Spencer.
j. By commencing and continuing the action in three (3) false identities and capacities,
the entity, which was actually the mortgage servicing agent for Freddie Mac, avoided federal
jurisdiction under 28 U.S.C. sec. 1349.

38

467a

k. Three (3) different names were used to identify the purported to be the “owner and
holder” of Ms. Spencer’s mortgage all of which were, in actuality, the mortgage servicing agent
for Freddie Mac.
l. Although three (3) different names were used to identify the concealed mortgage
servicing agent which never pleaded its capacity as servicing agent, a fact which is no longer in
dispute.2
m. The allegation in ¶11 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
12. Conditionally responds to ¶12 of OLR’s Second Amended Complaint, ADMITS and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,

2

FNMC, a division of National City Bank of Indiana nka National City Bank commenced the
foreclosure action against Ms. Spencer on April 7, 2009 and alleged that it “is the owner and holder of a
certain note and mortgage”at ¶1 of the initiating Complaint, brought a Motion for Summary Judgment
supported by a falsely sworn affidavit of one Mendy Mundey, an employee of PNC Bank, N.A., who
claimed that the “plaintiff” was the owner of the Note. The Motion for Summary Judgment was filed on
March 31, 2010 on a unilaterally altered case caption, identifying PNC Bank, N.A., successor by merger
to FNMC, a division of National City Bank of Indiana n/k/a National City Bank as the “plaintiff.” The
“plaintiff’s” filings then proceeded under the unilaterally altered case caption identifying PNC Bank,
N.A., successor by merger to FNMC, a division of National City Bank of Indiana n/k/a National City
Bank, while the plaintiff was still identified as FNMC, a division of National City Bank of Indiana nka
National City Bank on the Wood County Circuit Court docket. Upon Ms. Spencer’s challenge to the
identity of the entity proceeding against her, PNC Bank, N.A., successor by merger to National City
Bank, successor by merger to National City Bank of Indiana, a division of which was FNMC was
allowed to appear as the plaintiff in the action on December 21, 2012 on an Amended Complaint which
still alleged, at ¶1, that it “is the owner and holder of a certain note and mortgage.” The third identified
entity was required, as a matter of law, to prove by a preponderance of evidence that it is the owner and
holder of the (then discharged) Note and (unassigned) Mortgage. The serial plaintiffs concealed their
capacity as servicing agent for Freddie Mac until February 18, 2014 when it was finally admitted that
PNC Bank, N.A. was acting as the servicing agent for Freddie Mac, as successor to National City
Mortgage Company, just as Ms. Spencer had discovered on December 30, 2012 and had contended in
litigation since January 10, 2013.

39

468a

i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p., ¶7.c., and 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. ADMITS ¶12.
c. Affirmatively alleges that Nora repeatedly attempted to inform OLR of the case name
and case number and directed OLR to the location at which the entire court record for the actual
case involving the Spencer mortgage transaction could be found, which case file was located one
floor below OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison,
Wisconsin 53703 from approximately January 2, 2015 until the July 27, 2016 remittitur, but OLR
failed and refused to examine the actual court record for the correct case until approximately
May, 2016.
d. Affirmatively alleges that OLR disregarded Nora’s extensive and detailed responses to
OLR’s inquiries into the Spencer matter, which fully explained the issues in the actual, properly
identified case, causing Nora to respond to a total of three (3) previous complaints and then OLR
circumvented the mandatory requirements of SCR 22.11(2) in order to file a Second Amended
Complaint, forcing Nora to conditionally respond to the fourth filed complaint for the improper
purpose of harassing Nora at the behest of her litigation opponents, one of whom was the
chairperson of the PRC when Nora #1 was approved for filing.
e. The allegation in ¶12 was made in the context of a “patently erroneous” case
identification in three (3) previous complaints in violation of SCR 20:1.1 (competence) and
20:1.4 (diligence) and Wis. Stats. sec. 802.05(2)( c).
f. The “fix” of finally identifying the correct case in which Nora appeared as substitute
counsel for Ms. Spencer was made unilaterally by Schwarzenbart, in concert with Stieren,

40

469a

circumventing the mandatory procedure at SCR 22.11(2) and was approved for filing by the
Referee.
13. Conditionally responds to ¶13 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1. a., b., c., d., e., f., g.,
h., i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f.,
g., h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z and ¶12.d.
b. DENIES ¶13.
c. Affirmatively alleges that Nora repeatedly attempted to inform OLR of the case name
and case number and directed OLR to the location at which the entire court record for the actual
case involving the Spencer mortgage transaction could be found, which case file was located one
floor below OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison,
Wisconsin 53703 since approximately January 2, 2015 until the July 27, 2016 remittitur, but
OLR failed and refused to examine the actual court record for the correct case until
approximately May, 2016.
d. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶13 to conform to the true facts.
e. Affirmatively alleges that OLR has disregarded Nora’s extensive and detailed
responses to OLR’s inquiries into the Spencer matter, which fully detailed the issues in the
actual, properly identified case, causing Nora to respond to a total of three (3) previous
complaints and then circumvented the mandatory requirements of SCR 22.11(2) in order to file a
Second Amended Complaint, forcing Nora to conditionally respond to the fourth filed complaint

41

470a

for the improper purpose of harassing Nora at the behest of her litigation opponents, one of
whom was the chairperson of the PRC when Nora #1 was approved for filing.
f. Affirmatively alleges that if OLR read the transcript of the hearing held on May 23,
2016, which Nora provided to OLR, or if it had retrieved and reviewed the transcript of the May
23, 2016 hearing, it would have known that the judge did not make any statement at the May 23,
2012 hearing that the list of issues to be identified were to be “issues for summary judgment.”
g. Affirmatively alleges that ¶13 is knowingly or recklessly pleaded without a factual
basis contrary to SCR 20:3.1(a)(2) to support OLR’s prosecution of Nora in bad faith in order to
punish her for exercising her constitutional rights and is evidence of OLR’s unconscionable
alignment with Nora’s litigation opponents.
h. Because Nora repeatedly attempted to explain the factual falsity of ¶13 to OLR, and
OLR has failed to amend ¶13, ¶13 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a).
14. Conditionally responds to ¶14 of OLR’s Second Amended Complaint ADMITS, in
part, and DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p., ¶7.c., and 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶14 insofar as it suggests that Nora received the May 25, 2012 letter prior to
having the letter and its enclosure physically retrieved from the office of the Wood County
Circuit Court Clerk.
c. ADMITS ¶14 insofar as the letter enclosing the proposed order was sent to and

42

471a

received by the Wood County Circuit Court.
d. DENIES ¶14 insofar as it suggests that the contents of the proposed order involved a
timeline for summary judgment issues and affirmatively alleges that the proposed order
attempted to convert Judge Potter’s May 23, 2012 instruction to Nora to provide him with a list
of issues in the proceedings to a list of issues for summary judgment.
e. Affirmatively alleges that Nora repeatedly attempted to inform OLR of the case name
and case number and directed OLR to the location at which the entire court record for the actual
case involving the Spencer mortgage transaction could be found, which case file was located one
floor below OLR’s office at the Clerk of Appellate Court at 110 East Main Street in Madison,
Wisconsin 53703 from approximately January 2, 2015 until the July 27, 2016 remittitur, but OLR
failed and refused to examine the actual court record for the correct case until approximately
May, 2016.
f. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶14 to conform to the true facts.
g. Because Nora repeatedly attempted to explain the factual falsity of ¶14 to OLR, and
OLR has failed to amend ¶14, ¶14 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c).
h. OLR disregarded Nora’s extensive and detailed responses to OLR’s inquiries into the
Spencer matter, which fully detailed the issues in the actual, properly identified case.
i. The allegation in ¶14 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
j. The allegation in ¶14 is made in violation of SCR 20:1.1 (competence) and 20:1.4

43

472a

(diligence) and Wis. Stats. sec. 802.05(2)(c).
15. Conditionally responds to ¶15 of OLR’s Second Amended Complaint, ADMITS and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. ADMITS ¶15 insofar as she eventually obtained a copy of the May 25, 2012 letter
referred to in ¶15 after June 28, 2012.
c. Affirmatively alleges that on June 28, 2012, Nora saw that an order had been entered
according to the Wisconsin Circuit Court Access Program (CCAP).
d. Affirmatively alleges that Nora immediately contacted the Clerk of Wood County
Circuit Court and advised the Deputy Clerk that she had not received a copy of the proposed
order before it was signed and asked the Clerk to FAX it to her.
e. Affirmatively alleges that the Clerk refused to do so, so Nora instructed Ms. Spencer
to drive to the Courthouse, retrieve a copy of the correspondence and proposed order and Ms.
Spencer did so shortly thereafter.
f. Affirmatively alleges that Nora received the letter and proposed order, along with a
signed copy of the order from Ms. Spencer after June 28, 2012.
g. Affirmatively alleges that OLR disregarded Nora’s extensive and detailed responses to
OLR’s inquiries into the Spencer matter, causing Nora to respond to a total of three (3) previous
complaints and then OLR circumvented the mandatory requirements of SCR 22.11(2) in order to
file a Second Amended Complaint, forcing Nora to conditionally respond to the fourth filed

44

473a

complaint for the improper purpose of harassing Nora at the behest of her litigation opponents,
one of whom was the chairperson of the PRC when Nora #1 was approved for filing.
h. OLR disregarded Nora’s extensive and detailed responses to OLR’s inquiries into the
Spencer matter, which addressed in detail, when and how she received the May 25, 2012 letter.
i. The allegation in ¶15 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
j. The allegation in ¶15 is made in violation of SCR 20:1.1 (competence) and 20:1.4
(diligence) and Wis. Stats. sec. 802.05(2)(c).
16. Conditionally responds to ¶16 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶16 in its entirety and puts OLR to its strict proof by clear and convincing
evidence that “Judge Potter sent the parties via letter a signed order in which he acknowledged he
converted the May 23, 2012 summary judgment hearing to a scheduling conference and provided
a timeline for summary judgment issues.”
c. Affirmatively alleges that no such letter exists.
e. Affirmatively alleges that ¶16 is a false allegation, knowingly or recklessly made in
violation of SCR 20:3.3(a)(1) because there is no letter from Judge Potter and Nora informed
OLR of that fact on at least three (3) occasions and instructed OLR where and how it could verify
that no such letter exists.

45

474a

f. Affirmatively alleges, OLR is manufacturing fictitious facts, or obtained false
information from a third party which it did not verify, or simply orally inquired of some
unidentified witness as to whether or not a letter enclosing the order was sent by Judge Potter to
Nora, which no one from OLR ever verified by simply walking down one flight of stairs in the
Tenney Building (or taking the elevator) to examine the complete court record of the actual case,
which has been located at the Clerk of Appellate Court’s office in Suite 215 of the Tenney
Building since January 2, 2015 almost one year before these proceedings were initiated.
g. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶16 to conform to the true facts.
h. Because Nora repeatedly attempted to explain the factual falsity of ¶16 to OLR, and
OLR has failed to amend ¶16, ¶16 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c).
i. Affirmatively alleges the allegation in ¶16 is made in violation of SCR 20:1.1 and
20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
j. Affirmatively alleges that because Nora has repeatedly attempted to explain the factual
falsity of ¶16, ¶16 has been pleaded in violation of SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and,
because OLR has persisted in making false allegations, its conduct can only be explained as a
violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages in an action
under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her burden of
proof.
17. Conditionally responds to ¶17 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:

46

475a

a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶17 in its entirety and puts OLR to its strict proof by clear and convincing
evidence.
c. OLR has knowingly or recklessly falsely alleged that Judge Potter ever sent any letter
and order, final or otherwise, in any case which Nora has denied receiving.
d. ¶17 is a complete fiction and is a false allegation made in violation of SCR
20:3.3(a)(1).
e. Affirmatively alleges that ¶17 is a false allegation, knowingly or recklessly made in
violation of SCR 20:3.3(a)(1) because there is no letter from Judge Potter and Nora informed
OLR of that fact on at least three (3) occasions and instructed OLR where and how it could verify
that no such letter exists.
f. Affirmatively alleges, OLR is manufacturing fictitious facts, or obtained false
information from a third party which it did not verify, or simply orally inquired of some
unidentified witness as to whether or not a letter enclosing the order was sent by Judge Potter to
Nora, which no one from OLR ever verified by simply walking down one flight of stairs in the
Tenney Building (or taking the elevator) to examine the complete court record of the actual case,
which has been located at the Clerk of Appellate Court’s office in Suite 215 of the Tenney
Building since January 2, 2015 almost one year before these proceedings were initiated.
g. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶17 to conform to the true facts.

47

476a

h. Because Nora repeatedly attempted to explain the factual falsity of ¶17 to OLR, and
OLR has failed to amend ¶17, ¶17 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c).
i. Affirmatively alleges the allegation in ¶17 is made in violation of SCR 20:1.1 and
20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
j. Affirmatively alleges that because Nora has repeatedly attempted to explain the factual
falsity of ¶17, ¶17 has been pleaded in violation of SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and,
because OLR has persisted in making false allegations, its conduct can only be explained as a
violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages in an action
under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her burden of
proof.
18. Conditionally responds to ¶18 of OLR’s Second Amended Complaint DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
c. OLR has knowingly or recklessly falsely alleged that Judge Potter ever sent any letter and
order, final or otherwise, in any case which Nora has denied receiving.
b. DENIES ¶18.
c. Affirmatively alleges that ¶18 is a false allegation incompetently made in violation of
SCR 20:1.1 because Nora has repeatedly informed OLR that Judge Potter had no duty to send
any letters or orders to Nora; the duty to serve Nora with all documents filed in the Wood County

48

477a

Circuit Court is the duty of the lawyer representing the filing party.
d. Affirmatively alleges that ¶18 is a false allegation, knowingly or recklessly made in
violation of SCR 20:3.3(a)(1) because Nora has never contended that Judge Potter was required
to send her letters or orders as alleged in ¶17 and ¶18 and Nora informed OLR of that fact on at
least three (3) occasions and instructed OLR where and how it could verify that letter from Judge
Potter was ever sent to either party.
e. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶18 to conform to the true facts.
f. Because Nora repeatedly attempted to explain the factual falsity of ¶18 to OLR, and
OLR has failed to amend ¶18, ¶18 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c).
g. Affirmatively alleges the allegation in ¶16 is made in violation of SCR 20:1.1 and
20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
h. Affirmatively alleges that because Nora has repeatedly attempted to explain the factual
falsity of ¶18, ¶18 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4, SCR 20:3.1(a)(2),
SCR 20:3.3(a)(1) and, because OLR has persisted in making false allegations, its conduct can
only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her
damages in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for
recovery and her burden of proof.
19. Conditionally responds to ¶19 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,

49

478a

i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶19 insofar as it alleges that the “letters and pleadings” filed with the court
on or about March 31, 2010, February 17, 2011, and June 20, 2011 were “additional” ex parte
communications.
c. Affirmatively alleges that the events and activities occurring on or about the following
dates: March 31, 2010, April 6, 2010, April 19, 2010, June 17, 2011 and June 21, 2011 deprived
Ms. Spencer of her rights to due process and equal protection of the laws guaranteed by the First
Amendment to the United States Constitution and Article One, Section 1 of the Wisconsin
Constitution and her rights to petition the judiciary for redress of grievances guaranteed by the
First Amendment to the United States Constitution and Article One, Section 4 of the Wisconsin
Constitution because:
(1) Ms. Spencer was not given the opportunity to be heard in opposition to the March 31,
2010 Motion for Summary Judgment on the statutory 20 days’ notice.
(2) Ms. Spencer was not given the opportunity to be heard with respect to the June 17 (or
20), 2011 Petition to Re-Open and Vacate the April 19, 2010 Judgment.
d. Affirmatively alleges that Ms. Spencer has consistently stated that she did not receive
the Court’s version of the February 17, 2011 letter and received a different version of the
February 17, 2011 letter, which was not filed with the Court.
e. DENIES ¶18 insofar as it summarizes and mischaracterizes Nora’s position with
respect to the processes employed in the Spencer foreclosure on or about “March 31, 2010,
February 17, 2011, and June 20, 2011.”

50

479a

f. Affirmatively alleges that Nora raised the following concerns related to those dates:
(1) The March 31, 2010 Motion for Summary Judgment scheduled the hearing on the
motion for March 31, 2010, contrary to Wis. Stats. sec. 802.08 and was mailed to Ms. Spencer.
(2) An Amended Notice of Motion dated April 6, 2010 was sent to Ms. Spencer setting
hearing on the Summary Judgment Motion for April 19, 2010.
(3) An order granting summary judgment was entered on April 19, 2010.
(4) Ms. Spencer was denied her right to be heard in opposition to summary judgment on
the minimum 20 days’ statutory notice.
(5) There are two (2) versions of the February 17, 2011 letter, one was sent to the Court
and disclosed an “affidavit issue” and was not sent to Ms. Spencer, and the other was sent to Ms.
Spencer and not to the Court which simply cancelled the scheduled Sheriff’s Sale.
(6) Ms. Spencer did not discover that counsel for what was later discovered to be Freddie
Mac’s servicing agent admitted that there was an “issue” with respect to the Affidavit in Support
of the March 31, 2010 Motion for Summary Judgment until 2012 because she did not receive the
identical version of the copy of the letter sent to the Court dated February 17, 2011.
(7) By Petition dated June 17, 2011 under cover letter dated June 20, 2011 (a Sunday)
counsel for Freddie Mac’s servicing agent petitioned the Court to re-open the April 19, 2010
order granting summary judgment by seeking an order without hearing on “five (5) days’ notice”3
to Ms. Spencer.
(8) On June 21, 2011, the Court entered an Order vacating the April 19, 2010 Judgment
of Foreclosure without Ms. Spencer being provided with an opportunity to be heard.

3

Wood County Circuit Court does not have a local “five (5) day” rule.

51

480a

g. Affirmatively alleges that Nora’s position with respect to the order is fully and
completely set forth in the record of the proceedings by her Affidavit of June 28, 2012.
h. Affirmatively alleges that the legal positions that Nora took on behalf of Spencer were
taken in good faith, based on substantial evidence and were in accord with existing law.
i. Affirmatively alleges that OLR has knowingly or recklessly falsely alleged that Nora
ever contended that Judge Potter was required to send her a copy of any order, final or otherwise.
j. Affirmatively alleges that ¶19 is substantially false and has been pleaded against Nora
four (4) times without any effort to conform the allegations to the actual record in the Spencer
foreclosure, despite Nora providing detailed information concerning Ms. Spencer’s actual legal
position to OLR, in violation of SCR 20:1.1 and SCR 20:1.4.
k. Affirmatively alleges that ¶19 is a substantially false allegation, knowingly or
recklessly made in violation of SCR 20:3.3(a)(1) because Nora informed OLR of the position she
took on behalf of Ms. Spencer with respect to the issues with respect to the events and activities
which resulted in Orders dated April 19, 2010 and June 21, 2011 as well as the two (2) versions
of copies of the February 17, 2011 letter (one of which was not sent to Ms. Spencer and the other
was not sent to the Court) on at least three (3) occasions and instructed OLR and provided OLR
with her legal position with respect to the order.
l. Affirmatively alleges that OLR could have verified the actual statements with respect
to the events and activities by simply walking down one flight of stairs in the Tenney Building
(or taking the elevator) to examine the complete court record of the actual case, which had been
located at the Clerk of Appellate Court’s office in Suite 215 of the Tenney Building since
January 2, 2015 almost one year before these proceedings were initiated.

52

481a

m. Affirmatively alleges that, having reviewed the record in the actual case, OLR was
required to amend ¶19 to conform to the true facts, but instead of seeking to amend ¶19 to
conform to true facts, OLR knowingly or recklessly sought leave to amend ¶19 (without the
authority of the preliminary review panel of the PRC) to render it more vague and ambiguous and
still substantially false.
n. Affirmatively alleges the allegation in ¶19 is made in violation of SCR 20:1.1 and
20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
o. Because Nora repeatedly attempted to explain the factual falsity of ¶19 to OLR, and
OLR has failed to amend ¶19, ¶19 has been pleaded in violation of SCR 20:3.1(a)(2), SCR
20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
p. Affirmatively alleges that because Nora has repeatedly attempted to explain the factual
falsity of ¶19, ¶19 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4, SCR 20:3.1(a)(2),
and SCR 20:3.3(a)(1) and, because OLR has persisted in making false allegations, its conduct
can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover
her damages in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for
recovery and her burden of proof.
20. Conditionally responds to ¶20 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Affirmatively alleges that there was never any dispute that the affidavit of mailing

53

482a

referenced in ¶20 was filed in an actual case.
c. Affirmatively alleges that the issues of ex parte communications she raised in the
Spencer foreclosure case, not identified by OLR until May 26, 2016 (despite Nora’s extensive
efforts to inform OLR of the facts and law applicable to the Spencer foreclosure) never involved
any issue related to whether or not a March 31, 2010 letter was mailed to Ms. Spencer, which
Ms. Spencer has consistently admitted.
d. Affirmatively alleges that to the extent the preliminary review panel of the PRC found
cause to proceed on ¶20 as an allegation of misconduct against Nora, it was misinformed by the
Staff Investigative Report that Ms. Spencer’s receipt of the March 31, 2010 letter was ever in
dispute.
e. Further affirmatively alleges that the March 31, 2010 letter enclosed a March 31, 2010
Notice of Motion and Motion for Summary Judgment, scheduling hearing for March 31, 2010,
all of which were received by Ms. Spencer.
f. Affirmatively alleges that the issue is and always had been that summary judgment
motions cannot be heard on less than 20 days’ notice required by Wis. Stats. sec. 802.08.
g. Affirmatively alleges the allegation in ¶20 is made in violation of SCR 20:1.1 and
20:1.4 and Wis. Stats. sec. 802.05(2)(b) and (c).
h. Because Nora repeatedly attempted to explain the false implication of ¶20 to OLR, and
OLR has failed to amend ¶20, ¶20 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
i. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶20, ¶20 has been pleaded in violation of SCR 20:1.1, SCR

54

483a

20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1) and, because OLR has persisted in making false
allegations, its conduct can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for
which Nora may recover her damages in an action under Wis. Stats. sec. 895.044 if she meets the
higher standards for recovery and her burden of proof.
21. Conditionally responds to ¶21 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein, ¶20 in its entirety with
respect to the two (2) letters dated February 17, 2011 and DENIES the allegation pertaining to
the February 17, 2011 letter insofar as it implies that the notation that the February 17, 2011
letter sent to the Court was sent to and/or received by Ms. Spencer.
c. ADMITS that the letter filed with the Court dated February 17, 2011 contains a
notation that a copy was supposed to be sent to Ms. Spencer.
d. ADMITS that the letter filed with the Court dated June 20, 2011, which was a Sunday,
contains a notation that a copy was supposed to be sent to Ms. Spencer, but the enclosed Petition
to Vacate the summary judgment order was dated June 17, 2011 and the Order granting the
Petition was signed on June 21, 2011, which means that the letter and its enclosures were either
transmitted by facsimile (there is no facsimile data displayed), mailed no later than June 19, 2011
(a Saturday, although U.S. mail delivery from Milwaukee to Wisconsin Rapids of a Saturday
mailing would likely have not been accomplished until June 22, 2011), the letter is misdated, or

55

484a

Judge Potter back-dated the Order (which is unlikely). Regardless, there has never been any
dispute that Ms. Spencer received the “June 20, 2011” letter and its enclosure. The concern
involves the fact that Judge Potter signed the Order on or about June 21, 2011, without notice
and hearing being provided to Ms. Spencer.
e. Affirmatively alleges that OLR has failed to acknowledge or plead the fact that there
are two letters dated February 17, 2011, which form the basis of the dispute regarding ex parte
communications in an actual case.
f. Affirmatively alleges that the issues of ex parte communications she raised on behalf of
Ms.Spencer which is that there are two (2) versions of a February 17, 2011 letter: one was sent to
the Court and refers to an “affidavit issue” and one, sent to Ms. Spencer, which does not mention
an “affidavit issue.”
g. Affirmatively alleges that one of the two (2) different versions of the February 17,
2011 letter was in the court record, which was located at the Clerk of Appellate Courts in the
Tenney Building from January 2, 2015 until remittitur on July 27, 2016, because Nora moved for
an order allowing the record to be supplemented, which was granted.
h. Affirmatively alleges, upon information and belief, both versions of the February 17,
2011 letter are a part of the record before the Seventh Circuit Court of Appeals in No. 13-2676.
i. Affirmatively alleges that the issue involving a “letter” dated June 20, 2011 is that an
an order was entered on June 21, 2011, without notice and hearing to Ms. Spencer.
j. Affirmatively alleges that Nora has a duty to correct the record of proceedings as an
officer of the Court and to seek to obtain, protect and preserve her clients’ constitutional rights.
k. Because Nora repeatedly attempted to explain the false implication of ¶21 to OLR, and

56

485a

OLR has failed to amend ¶21, ¶21 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
l. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶21, ¶21 has been pleaded in violation of SCR 20:1.1, SCR
20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1) and, because OLR has persisted in making false
allegations, its conduct can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for
which Nora may recover her damages in an action under Wis. Stats. sec. 895.044 if she meets the
higher standards for recovery and her burden of proof.
22. Conditionally responds to ¶22 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶22.
c. Affirmatively alleges that Nora did not move to disqualify Judge Potter on June 28,
2012, but expressed concern about the entry of an Order, a copy of which she had not received or
reviewed, moved for relief from the Order because it purported to impose a limitation that the list
of issues was to be related to issues for summary judgment and reserved Ms. Spencer’s right to
move to disqualify Judge Potter or for other relief.
23. Conditionally responds to ¶23 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,

57

486a

i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶23 insofar as it implies that Nora knew that the Transcript of the May 23,
2012 hearing was missing page 3 when she received and reviewed it.
c. ADMITS ¶23 insofar as, at the end of October, 2012, Ms. Spencer was reviewing the
record at the office of the Clerk of the Wood County Circuit Court and discovered that the
original transcript filed in the court record had an additional page that had not been sent to Nora,
who sent her version to Ms. Spencer, and which had not included a portion of Nora’s statements
to the Court and some of the Court’s statements.
d. Affirmatively alleges that Nora’s position with respect to the May 23, 2012 Transcript
has been explained to OLR in detail on multiple occasions and is supported by the record.
e. Affirmatively alleges that the legal positions that Nora took on behalf of Spencer were
taken in good faith, based on substantial evidence and were in accord with existing law.
f. Affirmatively alleges that OLR has knowingly or recklessly falsely alleged by
implication that Nora knew that page 3 of the transcript was missing from her copy of the
transcript when she received her copy of the transcript.
g. Affirmatively alleges that OLR knows or should know that the allegation in ¶23 is
false because Nora did not know that the third page of the transcript was missing until Ms.
Spencer inspected the court record in October, 2012 and informed Nora that the copy of the
transcript of the May 23, 2012 hearing on file in the Wood County Clerk of Circuit Court
contained a page which was not included in the transcript sent to Nora and sent page 3 of the
transcript to Nora. Upon being thus informed, Nora corrected the record as required by SCR

58

487a

20:3.3(a)(1) forthwith.
h. Affirmatively alleges that Nora has a duty to correct the record of proceedings as an
officer of the Court and to seek to obtain, protect and preserve her clients’ constitutional rights.
i. Affirmatively alleges that ¶23 is substantially false and has been pleaded against Nora
four (4) times without any effort to conform the allegations to the actual record in the Spencer
foreclosure, despite Nora providing detailed information concerning Ms. Spencer’s actual legal
position to OLR, in violation of SCR 20:1.1 and SCR 20:1.4.
j. Because Nora repeatedly attempted to explain the false implication of ¶23 to OLR, and
OLR has failed to amend ¶23, ¶23 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
k. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶23, ¶23 has been pleaded in violation of SCR 20:1.1, SCR
20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1) and, because OLR has persisted in making false
allegations, its conduct can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for
which Nora may recover her damages in an action under Wis. Stats. sec. 895.044 if she meets the
higher standards for recovery and her burden of proof.
24. Conditionally responds to ¶24 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. ADMITS ¶24 and affirmatively alleges that Nora’s statements were true.

59

488a

c. Further affirmatively alleges that identifying word variances in transcripts between
what was spoken and what was recorded is not an ethics violation in any case and is the
responsibility of counsel who ordered the transcript.
d. DENIES ¶24 to the extent that the preliminary review panel of the PRC determined
cause to proceed on ¶24 as a fact or allegation of misconduct, because the conduct alleged is not
a violation of the Wisconsin Code of Professional Conduct.
e. Affirmatively alleges that ¶24 is false by implication and has been pleaded against
Nora four (4) times without any effort to conform the allegations to the actual record in the
Spencer foreclosure, despite Nora providing detailed information concerning Ms. Spencer’s
actual legal position to OLR, in violation of SCR 20:1.1 and SCR 20:1.4.
f. Because Nora repeatedly attempted to explain the false implication of ¶24 to OLR, and
OLR has failed to amend ¶24, ¶24 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
g. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶24, ¶24 has been pleaded in violation of SCR 20:1.1, SCR
20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1) and, because OLR has persisted in making false
allegations, its conduct can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for
which Nora may recover her damages in an action under Wis. Stats. sec. 895.044 if she meets the
higher standards for recovery and her burden of proof.
25. Conditionally responds to ¶25 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,

60

489a

i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. ADMITS ¶25 and affirmatively alleges that Ms. Spencer had the right to a complete,
accurate copy of the May 23, 2012 Transcript.
c. Further affirmatively alleges that Ms. Spencer instructed Nora to order a copy of the
Transcript, in part, because she thought that Judge Potter had agreed to set the matter for trial and
Nora did not recall Judge Potter making that statement.
d. The version of the transcript received by Nora which was missing a part of the record
meant that the issue of whether or not Judge Potter stated that he would set the matter for trial
after the Statement of Issues was filed and the response thereto was received, could not be
resolved by recourse to an incomplete copy of the May 23, 2012 Transcript.
e. Affirmatively alleges that Judge Potter stated that he “blamed” Ms. Spencer for the
problems in the case, but that statement was not recorded.
f. DENIES ¶25 to the extent that it implies that Ms. Spencer did not have the right to a
complete and accurate, verbatim transcript of the May 23, 2012 proceedings.
g. DENIES ¶25 to the extent that the preliminary review panel of the PRC determined
cause to proceed on ¶25 as a fact or allegation of misconduct, because the conduct alleged is not
a violation of the Wisconsin Code of Professional Conduct.
h. DENIES ¶25 to the extent that the Investigative Report presented to the preliminary
review panel of the PRC purports to recommend misconduct allegations against Nora based on
its interpretation that the content of the missing page 3 was not important to Ms. Spencer’s case
because OLR Investigative Staff is not competent to substitute its judgment for the judgment of

61

490a

trial counsel who was present at the hearing.
i. DENIES ¶25 to the extent that the preliminary review panel of the PRC purports to
have found cause to charge Nora with an ethics violation based on its interpretation that the
content of the missing page 3 was not important to Ms. Spencer’s case because the preliminary
review panel is not qualified or empowered to substitute its judgment for the judgment of trial
counsel who was present at the hearing.
j. DENIES ¶25 to the extent that counsel for OLR purports to persist in pleading the
content of ¶25 in support of charging Nora with an ethics violation based on its interpretation that
the content of the missing page 3 was not important not important to Ms. Spencer’s case because
OLR’s counsel is not qualified or empowered to substitute his or her judgment for the judgment
of trial counsel who was present at the hearing.
k. Affirmatively alleges that ¶25 is incompetently pleaded and has been pleaded against
Nora four (4) times without any effort to conform the allegations to the actual record in the
Spencer foreclosure, despite Nora providing detailed information concerning Ms. Spencer’s
actual legal position to OLR, in violation of SCR 20:1.1 and SCR 20:1.4.
l. Because Nora repeatedly attempted to explain the false implication of ¶25 to OLR, and
OLR has failed to amend ¶25, ¶25 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
26. Conditionally responds to ¶26 of OLR’s Second Amended Complaint, DENIES, and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,

62

491a

h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein: ¶25 a., b., c., d., e., f., g.,
h., i., j., k., and l.
c. Affirmatively alleges that an attorney has a duty to assure that a full and complete copy
of a verbatim transcript ordered for use in a proceeding is accurate.
d. Affirmatively alleges that OLR’s allegation in ¶26 falsely implies that Nora engaged in
unethical conduct by requiring the production of a true and correct copy of a verbatim transcript
in the Spencer foreclosure case.
e. Affirmatively alleges that a verbatim transcript was ordered, the complete transcript
was necessary for Ms. Spencer’s case and that there is no basis in fact or law for OLR to allege
that it is unethical for an attorney to require the production of a true and correct copy of a
verbatim transcript of proceedings.
f. Affirmatively alleges that ¶26 is substantially false and has been pleaded against Nora
four (4) times without any effort to conform the allegations to the actual record in the Spencer
foreclosure, despite Nora providing detailed information concerning Ms. Spencer’s actual legal
position to OLR, in violation of SCR 20:1.1 and SCR 20:1.4.
g. Because Nora repeatedly attempted to explain the false implication of ¶26 to OLR, and
OLR has failed to amend ¶26, ¶26 has been pleaded in violation of SCR 20:1.1, SCR 20:1.4,
SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and (c).
h. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶26, ¶26 has been pleaded in violation of SCR 20:1.1, SCR
20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1) and, because OLR has persisted in making false

63

492a

allegations, its conduct can only be explained as a violation of Wis. Stats. sec. 802.05(2)(a) for
which Nora may recover her damages in an action under Wis. Stats. sec. 895.044 if she meets the
higher standards for recovery and her burden of proof.
27. Conditionally responds to ¶27 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein: ¶25 a., b., c., d., e., f., g.,
h., i., j., k., and l.
c. Nora reincorporates by reference, as if fully set forth herein: ¶26 a., b., c., d., e., f., g.,
h., i., and j.
d. DENIES ¶27.
e. Affirmatively alleges that Nora never claimed that the court clerk intentionally
manipulated the court record.
f. Affirmatively alleges that Nora never claimed that Judge Potter intentionally
manipulated the court record but that he was complicit in the manipulation of the proceedings to
deny Sheila M. Spencer the opportunity to be heard in defense of her rights to her home.
g. A judge can be complicit in the manipulation of proceedings to deprive a party of his
or her right to defend in an action by failing to assure that both parties are given a full and fair
opportunity to be heard.
h. Counsel for some parties will attempt to gain control over the proceedings and a judge

64

493a

must be ever mindful to protect the rights of both parties.
i. Failure to do so leads to the appearance of bias in favor of one party and prejudice
against another in violation of SCR 60.04(4).
j. As an officer of the Supreme Court of Wisconsin and upon her oath, Nora has a duty to
obtain, protect and preserve her clients’ rights to due process which includes proceedings before
an unbiased tribunal. Cf. State v. Gudgeon, 2006 WI 126, 724 N.W.2d 204 (2006);
k. The allegation in ¶27 is false, OLR knows or should know that it is false, and ¶27 is
knowingly or recklessly falsely made.
l. The allegation in ¶27 is made in violation of SCR 20:3.3(a)(1) and, having been given
opportunity to correct ¶27, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting
in making the false allegation in ¶27, OLR is in violation of Wis. Stats. sec. 802.05(2)(a).
m. Affirmatively alleges that because Nora has repeatedly attempted to explain the false
legal and factual implications of ¶27, OLR has continued to plead ¶27 in violation of SCR
20:1.1, SCR 20:1.4, SCR 20:3.1(a)(2), and SCR 20:3.3(a)(1).
n. Because OLR has persisted in making false allegations, its conduct can only be
explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages
in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her
burden of proof.
28. Conditionally responds to ¶28 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,

65

494a

h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein: ¶25 a., b., c., d., e., f., g.,
h., i., j., k., and l.
c. Nora reincorporates by reference, as if fully set forth herein: ¶26 a., b., c., d., e., f., g.,
h., i., and j.
d. Nora incorporates by reference, as if fully set forth herein: ¶27 a., b., c., d., e., f., g., h.,
i., j., k., l., m., and n.
e. ADMITS ¶28 insofar as on November 2, 2012, soon as humanly possible after she
learned at the end of October, 2012 that page 3 was missing from her version of the May 23,
2012 Transcript and after she reviewed it, Nora determined that missing page 3 explained some
of Ms. Spencer’s concerns pertaining to the May 23, 2012 Transcript, and because she had
already agreed that Judge Potter could continue to preside over the Spencer foreclosure case on
August 8, 2012, the controversy concerning the other transcription errors was moot, and, as an
officer of the Court, she was duty bound to report that page 3 of the transcript had been missing
from the version of the Transcript sent to her in July, 2012 under SCR 20:3.3(a)(1).
f. Affirmatively alleges that Nora informed the Court that a missing page of the May 23,
2012 had been located and she corrected the record as required by SCR 20:3.3(a)(1) promptly, in
early November, 2012.
g. DENIES ¶28 to the extent that the Investigative Report presented to the preliminary
review panel of the PRC purports to recommend misconduct allegations against Nora based on
her compliance with the Wisconsin Rules of Professional Conduct.
h. DENIES ¶28 to the extent that the preliminary review panel of the PRC purports to

66

495a

have found cause to charge Nora with an ethics violation based on her compliance with the
Wisconsin Rules of Professional Conduct.
i. DENIES ¶28 to the extent that counsel for OLR purports to persist in pleading the
content of ¶28 in support of charging Nora with an ethics violation based on her compliance with
the Wisconsin Rules of Professional Conduct.
j. Affirmatively alleges that ¶28 was incompetently, then recklessly and, finally,
maliciously pleaded and has been pleaded against Nora four (4) times without any effort to
conform the allegations to the actual record in the Spencer foreclosure, despite Nora providing
detailed information concerning Ms. Spencer’s actual legal position to OLR, in violation of SCR
20:1.1 and SCR 20:3.1(a)(1), SCR 20:3.1(a)(2) and SCR 20:8.4 and in violation of Wis. Stats.
sec. 895.044.
k. Because Nora repeatedly attempted to explain the false implication of ¶28 to OLR, and
OLR has failed to amend ¶28, ¶28 has been pleaded in violation of SCR 20:1.1, SCR
20:3.1(a)(1), SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c) and in
violation of Wis. Stats. sec. 895.044.
l. Because OLR has persisted in making false allegations, its conduct can only be
explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages
in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her
burden of proof.
29. Conditionally responds to ¶29 of OLR’s Second Amended Complaint, ADMITS, in
part, DENIES, in part, and affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,

67

496a

i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein: ¶25 a., b., c., d., e., f., g.,
h., i., and j.
c. Nora reincorporates by reference, as if fully set forth herein: ¶26 a., b., c., d., e., f., g.,
h., i., and j.
d. Nora incorporates by reference, as if fully set forth herein: ¶27 a., b., c., d., e., f., g., h.,
i., j., k., l., m., and n.
e. Nora reincorporates by reference, as if fully set forth herein: ¶28 a., b., c., d., e., f., g.,
h., i., j., k., and l.
f. DENIES ¶29 as materially misleading because it is out of chronological order, placing
an event dated July 23, 2012 as occurring after the undated event described in ¶28.
g. ADMITS ¶29 in part only and DENIES ¶29 insofar as the allegation makes it appear
that the disqualification request was based solely on the undisputed evidence of ex parte orders
rather than what appeared to be bias in favor of the foreclosure claimant(s) and prejudice against
Ms. Spencer, who had been self-represented until January, 2012, of which the ex parte orders
were symptomatic.
h. Affirmatively alleges that the characterization of the written Motion is substantially
inaccurate and is recklessly made because the Amended Motion filed on or about July 23, 2012
speaks for itself and it appears that OLR never read beyond the CCAP record or reviewed the
actual July 23, 2012 Motion, once again violating SCR 20:1.1 (competence), SCR 20:1.4
(diligence) and, by making a recklessly false allegation because it has not competently

68

497a

investigated the facts it has alleged and has not diligently examined the court record in an actual
case, OLR is in violation of SCR 20:3.3(a)(2).
i. Affirmatively alleges that, having been given opportunity to correct ¶29 on multiple
occasions, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting in making the
false allegation in ¶29, OLR is in violation of Wis. Stats. sec. 802.05(2)(a).
j. Affirmatively alleges that OLR has been repeatedly informed of the true facts, has
failed to acknowledge the true facts even as to the order of events and is proceeding against Nora
based on materially misleading allegations, including ¶29, in violation of SCR 20:1.1, SCR
20:1.4. SCR 3.1(a)(2), for what must now be seen as a violation of Wis. Stats. sec. 802.05(2)( c).
k. Affirmatively alleges that ¶29 was incompetently, then recklessly and, finally,
maliciously pleaded and has been pleaded against Nora four (4) times without any effort to
conform the allegations to the actual record in the Spencer foreclosure, despite Nora providing
detailed information concerning Ms. Spencer’s actual legal position to OLR, in violation of SCR
20:1.1 and SCR 20:3.1(a)(1), SCR 20:3.1(a)(2) and SCR 20:8.4 and in violation of Wis. Stats.
sec. 895.044.
l. Because Nora repeatedly attempted to explain the false implication of ¶29 to OLR, and
OLR has failed to amend ¶29, ¶29 has been pleaded in violation of SCR 20:1.1, SCR
20:3.1(a)(1), SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c) and in
violation of Wis. Stats. sec. 895.044.
m. Because OLR has persisted in making false allegations, its conduct can only be
explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages
in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her

69

498a

burden of proof.
30. Conditionally responds to ¶30 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. Nora reincorporates by reference, as if fully set forth herein: ¶25 a., b., c., d., e., f., g.,
h., i., and j.
c. Nora reincorporates by reference, as if fully set forth herein: ¶26 a., b., c., d., e., f., g.,
h., i., and j.
d. Nora incorporates by reference, as if fully set forth herein: ¶27 a., b., c., d., e., f., g., h.,
i., j., k., l., m., and n.
e. Nora reincorporates by reference, as if fully set forth herein: ¶28 a., b., c., d., e., f., g.,
h., i., and j.
f. Nora reincorporates by reference, as if fully set forth herein: ¶29 a., b., c., d., e., f., g.,
h., i., j., k., l., and m.
g. DENIES ¶30 as materially misleading because it is out of chronological order, placing
an event dated July 23, 2012 as occurring after the undated event described in ¶28.
h. DENIES ¶30 and affirmatively alleges that the characterization of the written Motion
is substantially inaccurate and is recklessly made because the Amended Motion filed on or about
July 23, 2012 speaks for itself and it appears that OLR never read beyond the CCAP record or
reviewed the actual July 23, 2012 Motion, once again violating SCR 20:1.1 (competence), SCR

70

499a

20:1.4 (diligence) and, by making a recklessly false allegation because it has not competently
investigated the facts it has alleged and has not diligently examined the court record in an actual
case, OLR is in violation of SCR 20:3.3(a)(2).
i. Affirmatively alleges that, having been given opportunity to correct ¶30 on multiple
occasions, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting in making the
false allegation in ¶29, OLR is in violation of Wis. Stats. sec. 802.05(2)(a).
j. Affirmatively alleges that OLR has been repeatedly informed of the true facts, has
failed to acknowledge the true facts even as to the order of events and is proceeding against Nora
based on materially misleading allegations, including ¶30, in violation of SCR 20:1.1, SCR
20:1.4. SCR 3.1(a)(2), for what must now be seen as a violation of Wis. Stats. sec. 802.05(2)( c).
k. Having been given opportunity to correct ¶30, OLR is in violation of Wis. Stats. sec.
802.05(2)(c) and by persisting in making the false allegation in ¶30, OLR is in violation of Wis.
Stats. sec. 802.05(2)(a).
l. Affirmatively alleges that ¶30 was incompetently, then recklessly and, finally,
maliciously pleaded and has been pleaded against Nora four (4) times without any effort to
conform the allegations to the actual record in the Spencer foreclosure, despite Nora providing
detailed information concerning Ms. Spencer’s actual legal position to OLR, in violation of SCR
20:1.1 and SCR 20:3.1(a)(1), SCR 20:3.1(a)(2) and SCR 20:8.4 and is now violation of Wis.
Stats. sec. 895.044.
m. Because Nora repeatedly attempted to explain the false implication of ¶30 to OLR,
and OLR has failed to amend ¶30, ¶30 has been pleaded in violation of SCR 20:1.1, SCR
20:3.1(a)(1), SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c) and in

71

500a

violation of Wis. Stats. sec. 895.044.
n. Because OLR has persisted in making false allegations, its conduct can only be
explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages
in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her
burden of proof.
31. Conditionally responds to ¶31 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES ¶31 as materially misleading it refers to an undated order.
c. Affirmatively alleges that proceedings were held on August 8, 2012 at which Nora, on
behalf of Ms. Spencer explained her concerns to Judge Potter.
d. Affirmatively alleges that the Transcript of the August 8, 2012 hearing is substantially
accurate.
e. Affirmatively alleges that at the August 8, 2012 hearing, Nora was convinced that the
concerns she had raised with respect to Ms. Spencer’s notice and opportunity to be heard were
unlikely to recur and she drafted the proposed order which allowed Judge Potter to continue to
preside in the Spencer foreclosure case.
f. Affirmatively alleges that she sent the proposed order to counsel for the foreclosure
claimant for his signature approval, because one of the case management tools proposed by Nora
and ordered by the Court was that all proposed order would be approved as to form by the non-

72

501a

drafting party.
g. Affirmatively alleges that on August 8, 2012 Nora essentially withdrew the Motion to
Disqualify Judge Potter and drafted the order whereby Judge Potter would continue to preside in
the Spencer matter.
h. Affirmatively alleges that Nora unfortunately did not propose a means for the parties
to be served with the orders signed by the Court, so Nora never received a copy of the Order
signed by Judge Potter which she drafted and sent via facsimile for opposing counsel’s signature
until it was produced by OLR in these proceedings.
i. Affirmatively alleges that because OLR had a copy of the signed Order at some point,
OLR knew before Nora that the Order had been entered on or about September 7, 2012 and that
the Order does not deny the Motion to Disqualify but provides, just as Nora wrote, that Judge
Potter would not be disqualified from continuing to preside in the Spencer foreclosure case.
j. Affirmatively alleges that OLR has been repeatedly informed of the true facts, knew
the ultimate fact before Nora knew it (the fact of entry of the September 7, 2012 Order) has failed
to acknowledge the true facts even as to the order of events and is proceeding against Nora based
on materially misleading allegations, including ¶31, in violation of SCR 20:1.1, SCR 20:1.4.
SCR 3.1(a)(2), for what must now be seen as a violation of Wis. Stats. sec. 802.05(2)( c).
k. Having been given opportunity to correct ¶31, OLR is in violation of Wis. Stats. sec.
802.05(2)(c) and by persisting in making the false allegation in ¶31, OLR is in violation of Wis.
Stats. sec. 802.05(2)(a).
l. Affirmatively alleges that ¶31 has been incompetently, recklessly and maliciously
pleaded and has been pleaded against Nora four (4) times without any effort to conform the

73

502a

allegations to the actual record in the Spencer foreclosure, despite Nora providing detailed
information concerning Ms. Spencer’s actual legal position to OLR, in violation of SCR 20:1.1
and SCR 20:3.1(a)(1), SCR 20:3.1(a)(2) and SCR 20:8.4 and is now violation of Wis. Stats. sec.
895.044.
m. Because Nora repeatedly attempted to explain the false implication of ¶31 to OLR,
and OLR has failed to amend ¶31, ¶31 has been pleaded in violation of SCR 20:1.1, SCR
20:3.1(a)(1), SCR 20:3.1(a)(2), SCR 20:3.3(a)(1) and Wis. Stats. sec. 802.05(2)(a) and ( c) and in
violation of Wis. Stats. sec. 895.044.
n. Because OLR has persisted in making false allegations, its conduct can only be
explained as a violation of Wis. Stats. sec. 802.05(2)(a) for which Nora may recover her damages
in an action under Wis. Stats. sec. 895.044 if she meets the higher standards for recovery and her
burden of proof.
OLR’s heading: U.S. District Court: Judge Crabb
Nora’s heading: The Removal of Ms. Spencer’s Foreclosure Case to the United States
District Court for the Western District of Wisconsin
32. Conditionally responds to ¶32 of OLR’s Second Amended Complaint, DENIES and
affirmatively alleges:
a. Nora reincorporates by reference, as if fully set forth herein: ¶1 a., b., c., d., e., f., g., h.,
i., j., k., l., m., n., o., p., q., r., s., t., u., v., w., x., y,. z., aa., bb., and cc., ¶6. a., b., c., d., e., f., g.,
h., i., j., k., l., m, n., o. and p. and ¶7.c., 8. b., c., d., e., s,. t., u., v., w., x., y., and z.
b. DENIES that a Motion for Summary Judgment was pending on January 10, 2013
because counsel for the foreclosure claimant asked for leave to file a new or amended Motion for
Summary Judgment on the record of the December 21, 2012 hearing on its Motion to Substitute
74

503a

or Ratify under Wis. Stats. sec. 803.10(3).
c. DENIES that a “motion to remove the case to the U.S. District Court for the Western
District of Wisconsin, U.S. District Court Judge Barbara A.(sic, middle initial B.) Crabb (Judge
Crabb) presiding,” was ever filed and affirmatively alleges:
(1) The procedure for removal of state court civil actions, including class actions, to
federal jurisdiction is generally governed by 28 U.S.C. sec. 1441-1453.
(2) Removal is effective upon the filing of a Notice of Removal and is not brought by
motion.
(3) That OLR is pleading that federal jurisdiction is based on the filing of a motion,
demonstrates that OLR has not read the voluminous responses Nora made to its purported
inquiry in OLR Matter No. 2014MA1570, her two (2) Motions to Dismiss the November 30,
2015 Complaint and the January 19, 2016 Amended Complaint, or her proposed Complaint
based on true facts filed in connection with the Franks Motion portion of the Motion to Dismiss.
(4) OLR’s ¶32 is made in violation of SCR 20:3.3(a)(1) and, having been given
opportunity to correct ¶32, OLR is in violation of Wis. Stats. sec. 802.05(2)(c) and by persisting
in making the false allegation in ¶32, OLR is in violation of Wis. Stats. sec. 802.05(2)
(a).
33. Admits ¶33 of OLR’s Second Amended Complaint and affirmatively alleges:
a. On December 30, 2012, Nora and Spencer discovered evidence that the real party in
interest in the foreclosure case filed in Wood County Circuit Court Case No. 2009CV000283 in
the name of FNMC, a division of National City Bank of Indiana nka National City Bank was
Freddie Mac.

75

504a

b. Based on the discovery of that evidence, Nora removed Wood County Circuit Court
Case No. 2009CV000283 to the United States District Court for the Western District of
Wisconsin on January 10, 2013, within 30 days of discovery grounds for federal jurisdiction
under 28 U.S.C. sec. 1349.
34. Denies ¶34 of OLR’s Second Amended Complaint and affirmatively alleges:
a. The brief opposing remand, which OLR has either not read or is incapable of
comprehending, speaks for itself.
b. Upon information and belief, OLR has not read Ms. Spencer’s March 4, 2013 Brief in
Response to the February 8, 2013 Motion for Remand, filed in the name of “PNC Bank, N.A.,
successor by merger to National City Bank, successor by merger to National City Bank of
Indiana, a division of which was FNMC” and its failure to do so violates SCR 20:1.1 and 20:1.4.
As a result of such failure, the allegation in ¶34 is a false characterization of Ms. Spencer’s
Opposition to Remand, which speaks for itself.
35. Denies ¶35 of OLR’s Second Amended Complaint and affirmatively alleges:
a. March 25, 2013 Opinion granting the Motion for Remand speaks for itself.
b. OLR falsely claims the March 25, 2013 Opinion held that “federal jurisdiction did not
attach to the Spencer case” in violation of SCR 20:3.3(a)(1).
c. The allegation in ¶35 violates SCR 20:1.1 (competence) because OLR apparently does
not understand that federal jurisdiction immediately and automatically attaches to cases in which
a Notice of Removal is filed pursuant to 28 U.S.C. sec. 1446(a).
d. The false pleading of ¶35 violates Wis. Stats. sec. 802.05(2)(b) and (c) because it is
both knowingly or recklessly factually false and makes a legal contention not supported by

76

505a

existing law or a good faith argument for the extension or modification of existing law.
e. Because Nora extensively responded to OLR’s inquiry in OLR Matter No.
2014MA1570 and essentially provided an appellate brief on the issues of removal jurisdiction,
her theory for the removal and the factual and legal bases for the removal, OLR’s allegation in
¶35 indicates that OLR (1) violated SCR 20:1.1 (competence) by failing to comprehend the law
of removal jurisdiction; and (2) failed to research the law of removal jurisdiction in violation of
SCR 20:1.4.
f. Upon information and belief, OLR has not read the March 25, 2013 Opinion which it
falsely claims held that “federal jurisdiction did not attach the Spencer case” or, if OLR read the
Opinion, it did not comprehend it, in violation of violates SCR 20:1.1 (competence) and 20:1.4
(diligence).
g. The falsity of the allegation violates Wis. Stats. sec. 802.05(b).
36. Admits ¶36 of OLR’s Second Amended Complaint.
37. Admits ¶37 of OLR’s Second Amended Complaint and affirmatively alleges:
a. That the Motion for Reconsideration on the issue of attorney’s fees is not frivolous
because courts maintain continuing jurisdiction over the issue of attorneys fees after remand, and
b. The attorney’s fees award was appealed to the Seventh Circuit Court of Appeals for
abuse of discretion.
38. Denies ¶38 of OLR’s Second Amended Complaint and affirmatively alleges:
a. Insofar as ¶38 states that the second motion for reconsideration was summarily denied.
b. The decision was entered on the second motion for reconsideration, which included
further award of attorney’s fees against Ms. Spencer for seeking relief from the first award of

77

506a

attorney’s fees, which was appealed as an alleged abuse of discretion.
c. At the very least, the only possible legal conclusion arising from the denial of the
second motion for reconsideration which also awarded attorney’s fees is that the motion was not
summarily denied.
d. That OLR would allege that the second motion for reconsideration was summarily
denied is consistent with the fictional narrative OLR constructed in these proceedings. While
Nora enjoys good fiction as much as most, legal proceedings are not lawfully commenced by
pleadings which are works of fiction and fictional pleadings violate SCR 20:3.1, Wis. Stats. sec.
802.05.
39. Lacks sufficient information to admit or deny ¶39 of OLR’s Second Amended
Complaint and accordingly denies ¶39 and puts OLR to its proof. Affirmatively alleges that the
issue which concerned Nora was the retroactive removal of the federal court seal on Nora’s
medical records provided in connection with a request for accommodations under the Americans
with Disabilities Act as Amended (ADAAA). Nora characterized Judge Crabb’s conduct as a
campaign of libel, from which Judge Crabb is immune in her judicial capacity. Nora sought to
have the Seventh Circuit Court of Appeals allow her to appeal from the attorney’s fees awarded
on remand for “improvident removal” in her own name as co-appellant because she anticipated
that OLR would try to finding that the second motion for reconsideration was “frivolous” in
disciplinary proceedings because Nora #1 was pending, but Nora was primarily concerned with
her duty to indemnify Ms. Spencer for taking her advice to remove the state court action in order
to protect United States Treasury from what appeared to be an attempt of a rogue servicing agent
to claim ownership of the mortgagee interest in Ms. Spencer’s home. For avoidance of doubt,

78

507a

Judge Barbara B. Crabb has not restrained herself, when addressing legal issues raised in Nora’s
cases, from making personal remarks about Nora’s efforts to represent her clients which were
unnecessary to the disposition of the issues involved in Nora’s cases, were not based in facts in
the record and appear to have been designed to cause her clients to have doubts about Nora’s
professional performance, contrary to the Standards for Professional Conduct Within the Seventh
Circuit.4
40. Admits ¶40 of OLR’s Second Amended Complaint.
41. Lacks sufficient knowledge and information to admit or deny ¶41 of OLR’s Second
Amended Complaint and, accordingly denies ¶41 and puts OLR to its proof, but affirmatively
alleges that OLR had illegally come into possession of Nora’s confidential medical records, filed
under seal through Grievant Attorney David M. Potteiger (Potteiger) to OLR, whose staff
investigator, Travis J. Stieren (Stieren) disseminated the confidential records widely without
Nora’s consent. Affirmatively alleges that although Nora was no longer medically incapacitated
when Potteiger released the medical records to OLR which he obtained from an unprotected file
in the office of BASS & MOGLOWSKY, S.C., a release to which Nora did not consent, Nora
believed in good faith that the release of her confidential medical records without her consent
was a consideration in determining cause to proceed in the disciplinary matter designated as Nora
#1.
4

Violations of the Professional Standards Within the Seventh Circuit are manifest in the conduct
of some of the Circuit Court Judges, who seem to thrive on frequently criticizing the advocates who
appear before them. Because some of the Circuit Court judges do not hold themselves to the standards
they have publicly set, it is regrettable but not surprising that the district court judges feel free to engage
in ad hominem attacks on attorneys who advocate unpopular causes, contrary to ¶2 of the Court’s Duties
to Counsel. Few causes today are more unpopular than foreclosure defense, which threatens to expose a
corrupt financial system. Nora’s integrity and professionalism has been impugned for the cause she
represents, contrary to ¶9 of the Professional Standards Within the Seventh Circuit.

79

508a

42. Admits ¶42 of OLR’s Second Amended Complaint insofar as the medical records
were true when they were filed with the court on February 17, 2010, they were no longer true on
December 8, 2010 when Potteiger released them to gain pecuniary advantage against Nora, who
was his litigation opponent and Nora further affirmatively alleges that the unauthorized release of
medical records filed under seal is an invasion of privacy, which is a species of libel.
43. Denies ¶43 of OLR’s Second Amended Complaint and affirmatively alleges:
a. Judge Crabb is immune from suit for libel under the doctrine of judicial immunity and
the issue of her decisional invasion of privacy was raised in the context of Nora’s standing to
appeal from the order granting attorney’s fees on the remand order in the Spencer case and has,
as expected, led to this very proceeding.
b. Whether an attorney has standing to appeal from nonfinancial or indirect financial
injury arising from a district court decision is treated differently from circuit to circuit and
constitutes a circuit court split, which may eventually be heard by the United States Supreme
Court.
c. The best way to avoid attempts to appeal from factually unsupported and irrelevant
damaging and injurious remarks directed against attorneys is for district court judges not to make
them.
44. Lacks sufficient information to admit or deny ¶44 of OLR’s Second Amended
Complaint and, according denies the same and puts OLR to its proof.
45. Admits ¶45 and affirmatively alleges that, whereas Judge Crabb has judicial
immunity from suit for libel for damaging personal remarks against attorneys and parties in the
judicial decision-making process, she is not immune from suit for her nonjudicial acts.

80

509a

46. Admits ¶46 of OLR’s Second Amended Complaint and affirmatively alleges:
a. Ms. Spencer had the right to appeal from the award of attorney’s fees against her;
b. Nora has an obligation to indemnify Ms. Spencer from the award of attorneys’ fees and
costs resulting from her decision to follow Nora’s advice to file the Notice of Removal on
January 10, 2013.
47. Admits ¶47 of OLR’s Second Amended Complaint and affirmatively alleges:
a. Nora planned to raise the issue of the circuit split by Petition to the United States
Supreme Court but was unable to do so because of the intervening September 14, 2014 car
accident injury.
b. Nora had a good faith basis to seek a modification of Seventh Circuit precedent to
conform to the law of the circuits who have acknowledged the standing of attorneys to appeal
from decisions which caused them nonfinancial or indirect financial injury.
48. Admits ¶48 of OLR’s Second Amended Complaint and affirmatively alleges that she
appealed from the award of attorney’s fees against Ms. Spencer to the Seventh Circuit because
she has an obligation to indemnify Ms. Spencer from the award of attorneys’ fees and costs
resulting from her decision to follow Nora’s advice to file the Notice of Removal on January 10,
2013 and planned (but for the intervening September 14, 2014 car accident injury) to seek a
modification of Seventh Circuit precedent to conform to the law of the circuits who have
acknowledged the standing of attorneys to appeal from decisions which caused them nonfinancial
or indirect financial injury.
49. Admits ¶49(a) and (c) of OLR’s Second Amended Complaint, in part, and only to the
extent that a reasonable interpretation of the August 13, 2014 Decision of the Seventh Circuit

81

510a

Court of Appeals in Case No. 13-2676 (the August 13, 2014 Decision) supports the
characterization contained in ¶49(a) and ¶49(c), denies ¶49(b) and affirmatively alleges:
a. ¶49(b) is false and knowingly or recklessly falsely pleaded in the context of the
August 13, 2014 Decision.
b. Once again, it appears that OLR has not read the August 13, 2014 Decision and is in
violation of SCR 20:1.4 (diligence).
c. Because it appears that OLR has not read the August 13, 2014 Decision and is
required, at a minimum, to read a decision upon which it relies in making an allegation in a
formal Complaint, OLR is also in violation of SCR 20:1.1 (competence).
50. Admits ¶50 of OLR’s Second Amended Complaint.
51. Admits, in part, and denies, in part, ¶51 of OLR’s Second Amended Complaint and
affirmatively alleges:
a. Denies ¶51(a) to the extent that it implies that the August 27, 2014 petition for
rehearing en banc was filed in response to the August 20, 2014 Order to Show Cause and filing a
petition for rehearing en banc is conventional appellate practice before the United States Courts
of Appeal, which always involves the presentation of the issues of fact and law which were
erroneously decided by the panel. OLR appears to violate SCR 20:1.1 (competence) by alleging
¶51(a) because any competent attorney should know what a Petition for Rehearing En Banc is in
federal appellate practice or at least be able to read the rule which provides for it as required by
SCR 20:1.1 (competence) and SCR 20:1.4(diligence).
b. Admits ¶51(b) in that Nora did file a partial response to the Order to Show Cause,
which she was ordered to file on August 20, 2014.

82

511a

c. Denies ¶51(c) insofar as it implies that the September 19, 2014 motion to stay
mandate was filed in response to the August 20, 2014 Order to Show Cause because a Motion to
Stay the Mandate pending consideration of whether or not an appeal should be taken to the
United States Supreme Court is conventional appellate practice before the United States Courts
of Appeal. OLR appears to violate SCR 20:1.1 (competence) by alleging ¶51(c) because any
competent attorney should know what a Motion to Stay the Mandate is in federal appellate
practice or at least be able to read the rule which provides for it as required by SCR 20:1.1
(competence) and SCR 20:1.4(diligence).
d. Admits ¶51(d) insofar as Nora filed a citation to additional authority on October 3,
2014, which is allowed under the Federal Rules of Appellate Procedure and the Rules of the
Seventh Circuit Court of Appeals.
e. Denies ¶51(e) insofar as OLR states that the car accident injury was mild; Nora stated
that she was suffering from a mild cognitive impairment as a result of a car accident injury and
did not state that the injury itself was mild; Nora suffers from the car accident injury to this day.
Affirmatively alleges that even with a mild cognitive impairment, an attorney is incapacitated
from competent performance in litigation. Further affirmatively alleges that the request for
postponement of the hearing on the Order to Show Cause was not a “response” to the Order to
Show Cause and was made necessary by an intervening car accident injury.
52. Denies ¶52 of OLR’s Second Amended Complaint and puts OLR to its proof.
53. Admits ¶53 of OLR’s Second Amended Complaint.
54. ¶54 of OLR’s Second Amended Complaint is duplicative of ¶50(c) and Nora
answers, again:

83

512a

That the September 19, 2014 Motion to Stay the Mandate was not filed in response to the
August 20, 2014 Order to Show Cause and is conventional appellate practice before the
United States Courts of Appeal.
55. Denies ¶55 of OLR’s Second Amended Complaint and affirmatively alleges:
a. The Order of October 2, 2014 entered by the Seventh Circuit Court of Appeals in No.
13-2676 was not final until time for moving for panel rehearing or for rehearing en banc expired,
which, had Nora not been injured in a car accident on September 14, 2014, Nora would have
sought.
b. The Order of October 2, 2014 became final on October 18, 2014, when Nora did not
file a motion for panel rehearing or rehearing en banc under Fed. R. App. P. 40 and Seventh
Circuit Local Rule 40.
c. It appears that OLR did not read the Federal Rules of Appellate Procedure when it
alleged that the October 2, 2014 Order in Seventh Circuit Court of Appeals No. 2676 in violation
of SCR 20:1.4 (diligence) insofar as OLR alleges that the Order entered on October 2, 2014 was
a final Order .
56. Admits ¶56 of OLR’s Second Amended Complaint and affirmatively alleges:
a. The Order of October 2, 2014 entered by the Seventh Circuit Court of Appeals in No.
13-2676 on October 2, 2014 did not involve the Order to Show Cause issued to Nora on August
20, 2014.
b. It appears that OLR has not read the record of the proceedings before the Seventh
Circuit Court of Appeals in No. 2676 in violation of SCR 20:1.4 (diligence) because OLR falsely
alleged at ¶49(b) that an Order sanctioning Nora was entered on August 13, 2014 and in ¶56,
OLR alleges that the yet-to-be final Order of October 2, 2014 “was silent on the issue of whether

84

513a

it would issue any additional sanction against Nora.”
c. Affirmatively alleges that the Order to Show Cause hearing was not scheduled to be
heard until October 28, 2014 and it was not possible that any sanctions would be issued against
Nora, initial or additional, until on or after that date.
d. OLR’s allegation in ¶56 was pleaded in violation of SCR 20:1.1 (competence), SCR
20:1.4 (diligence) and is a misrepresentation of fact in violation of SCR 20:3.3(a)(2) which OLR
knows or should know to be false.
57. Admits ¶57 of OLR’s Second Amended Complaint and affirmatively alleges that
there is nothing unethical about submitting additional authority to an appellate court, when
pertinent new law becomes available after an issue is submitted to the Court.
58. Admits ¶58 of OLR’s Second Amended Complaint.
59. Admits ¶59 of OLR’s Second Amended Complaint, to the extent that it is a verbatim
quotation of a portion of the February 11, 2015 Decision of the Seventh Circuit Court of Appeals
resulting from the October 28, 2014 hearing on the August 20, 2014 Order to Show Cause and
affirmatively alleges:
a. Nothing in the February 11, 2015 Decision supports an allegation that Nora knowingly
or recklessly violated SCR 20:3.1(a) or (b) by removing the state court foreclosure action and
there is nothing in the verbatim quotation which covers more than 2 pages of single-spaced text
which supports a finding that Nora violated SCR 20:3.1( c).
b. Nothing in the February 11, 2015 Decision supports an allegation that Nora violated
SCR 20:3.2 by appealing from the awards of attorneys’ fees in Seventh Circuit Case No. 132676.

85

514a

c. It appears that OLR cannot find any facts or law appearing in the verbatim text starting
at the bottom quarter page of page 10 of OLR’s Second Amended Complaint and covering the
entire pages 11 and 12 of OLR’s Second Amended Complaint to support its allegation of any
ethics violation whatsover because nothing in the verbatim quotation covering more than 2
pages, in single-spaced format supports a finding of any violation of the Wisconsin Rules of
Professional Conduct.
d. Nora made no argument to the district court following the March 25, 2013 Order for
Remand to change the existing law which deprives the district court of jurisdiction to reconsider
a remand order because she never sought reconsideration of the remand order. She sought
reconsideration of the award of attorney’s fees, over which the Court had continuing jurisdiction.
60. Admits ¶60 of OLR’s Second Amended Complaint, to the extent that it is a verbatim
quotation of a portion of the February 11, 2015 Decision of the Seventh Circuit Court of Appeals
in No. 2676 resulting from the October 28, 2014 hearing on the August 20, 2014 Order to Show
Cause.
COUNT ONE
61. Denies ¶61 of OLR’s Second Amended Complaint and affirmatively alleges that
OLR has failed to support ¶61 with any factual allegations to support the several conclusions of
law contained therein, to wit:
a. There is no factual basis for the allegations in ¶¶1-60, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and

86

515a

were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR
in continuing to proceed on facts and allegations of misconduct allegations against Nora for
which the preliminary review panel of the PRC did not find cause to proceed.
d. As to Count One specifically, OLR’s contention that Nora knew or should have
known that there was no colorable basis for federal jurisdiction when it was discovered that
Freddie Mac was the real party in interest claiming to own Ms. Spencer’s discharged Note and
the unassigned mortgagee interest on her home as required by SCR 20:3.1(a)(1), is without a
basis in fact when 28 U.S.C. sec. 1349 establishes federal jurisdiction in cases in which the real
party in interest is a federally-chartered corporation in which the United States owns more than a
50% interest, which Freddie Mac was and still is.
e. As to Count One specifically, OLR’s contention that Nora knowingly asserted a
factual position which was frivolous, when it is was discovered and is now undisputed that the
party claiming the beneficial interest in the unassigned mortgage granted in the name of FNMC,
a division of National City Bank of Indiana (a nonexistent entity) was indeed Freddie Mac so that
Nora advanced a position based on evidence of a true fact which is now undisputed, and Nora
could not have violated SCR 20:3.1(a)(2).
f. As to Count One specifically, OLR’s contention that it was obvious to Nora that the
removal action would serve merely to harass or maliciously injure another, when, in fact, Nora
had a good faith basis for her belief that the January 10, 2013 removal to federal court was

87

516a

justified by the December 30, 2012 discovery that Freddie Mac, a federally-chartered corporation
in which more than 50% of the capital stock was (and is) owned by the United States, which was
(and is) in the conservatorship of the Federal Housing Finance Agency (FHFA), and whose
profits are paid to the United States Treasury, was the real party in interest in the Spencer case,
which had been concealed by false pleadings by counsel for the falsely identified plaintiff, who
claimed to own the (discharged) Note and unassigned Mortgage, when it did not. OLR fails to
identify who Nora intended to harass or maliciously injure by the removal action.
g. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶1-60 of the Second Amended Complaint.
h. The proceedings on OLR’s Second Amended Complaint are ultra vires in violation of
SCR 22.11(2).
COUNT TWO
62. Denies ¶62 of OLR’s Second Amended Complaint and affirmatively alleges:
a. There is no factual basis for the allegations in ¶¶1-60, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and
were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR
in continuing to proceed on facts and allegations of misconduct allegations against Nora for

88

517a

which the preliminary review panel of the PRC did not find cause to proceed.
d. There is no evidence that the appeal of the attorney’s fees award in any way delayed
the Spencer state court litigation, the record of which was not reviewed by OLR prior to
presenting the Investigative Report to the preliminary review panel of the PRC.
e. The appeal was from an order granting attorney’s fees to a party which has now been
shown to have filed false pleadings against Ms. Spencer, because the Wisconsin Court of
Appeals had to disregard its false claim of ownership in order to affirm the foreclosure judgment
on appeal.
f. Appeals from awards of attorneys’ fees delay nothing unless a stay is sought and
granted (which was not sought).
g. Nora appealed on her own behalf as well as Ms. Spencer because she has a duty to
indemnify her client from the award of attorneys’ fees resulting from her advice to remove the
case to federal district court in order to protect Freddie Mac before she knew that Freddie Mac
instructs its servicing agents to foreclose in their own names and to falsely claim that they are the
holders of the Notes, when the servicers are mere custodians.
h. The Seventh Circuit Court of Appeals’ precedents which hold that attorneys who are
injured by sanctions orders that do not involve a direct order for payment of money is in conflict
with the decisions of other circuits, which allow such appeals and Nora had a good faith
argument to extend or modify existing Seventh Circuit law to allow attorneys to appeal from
district court rulings from nonfinancial or indirect financial injuries which can result in the very
kind of proceeding which is now before this Court.
i. It was the false plaintiff in the Spencer case which was removed to federal jurisdiction

89

518a

which delayed the proceedings, not Ms. Spencer:
(1) Nora completely and thoroughly analyzed the delay in the Spencer state court case in
her August 5, 2016 Brief in response to the Orders for Briefs entered by Judge William M.
Conley on July 24, 2015 (Docs. 5 and 6). As of August 5, 2015 when the calculations were made
in order to respond to Judge Conley’s Orders, the state court foreclosure case had been pending
for 2523 days of which 416 days (or 16.49%) of the delay the in state court case was the result of
Ms. Spencer seeking relief in bankruptcy court, seeking 90 days to perform discovery (which was
not undertaken by Ms. Spencer’s former counsel, who was then relieved of his responsibility for
her representation) and removing the case to the United States District Court for the Western
District of Wisconsin and that, otherwise, the falsely identified “plaintiff” had unfettered access
to the state court for pursuit of its false action against Ms. Spencer. The majority of the delay
was attributed to the “plaintiff” making false allegations in its Complaint and Amended
Complaint, supporting its Complaint and then its Amended Complaint with an UNENDORSED
copy of the Note Ms. Spencer made payable to “FNMC, a division of National City Bank of
Indiana,” which was later alleged to have been ENDORSED in blank more than three and one
half years (3 ½ years) earlier and supporting its first motion for summary judgment with a falsely
sworn affidavit, which was concealed from Ms. Spencer by the creation of two (2) different
letters dated February 17, 2011 (one sent to the Court referring to an “affidavit issue”, falsely
cc’d to Ms. Spencer, and the other sent to Ms. Spencer and not to the Court which does not refer
to an affidavit issue).
(2) By refusing to plead its capacity as servicing agent the “plaintiff” delayed the case by
203 days after the appearance of new counsel for Ms. Spencer. The “plaintiff” brought 2 false

90

519a

motions for summary judgment based on an UNENDORSED copy of the Note, re-opened the
case and vacated the first falsely acquired summary judgment without notice and opportunity to
be heard being provided to Ms. Spencer (delaying the case for an additional almost one and one
half (1 ½ years), requesting and receiving additional time to file a third motion for summary
judgment, thereafter delaying the filing of the third motion for summary judgment after the
February 25, 2014 dismissal of Ms. Spencer’s Chapter 13 case (WIWB Case No. 13-15076) until
September 13, 2014 (197 days).
(3) The appeal from the award of attorneys’ fees to the false plaintiff delayed nothing.
j. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶1-61 of the Second Amended Complaint.
k. The proceedings on OLR’s Second Amended Complaint are ultra vires in violation of
SCR 22.11(2).
COUNT THREE
63. Denies ¶63 of OLR’s Second Amended Complaint and affirmatively alleges:
a. There is no factual basis for the allegations in ¶¶1-60, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and
were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR

91

520a

in continuing to proceed on facts and allegations of misconduct allegations against Nora for
which the preliminary review panel of the PRC did not find cause to proceed.
d. There is not one fact, true or false, alleged by OLR, which supports the conclusion that
Nora engaged an “ongoing pattern of conduct to harass other parties and judicial officers and
delay the proceedings” (in a state court case which OLR did not even correctly identify until May
26, 2016).
e. The conclusory allegation at ¶43, is a conclusion of law, unsupported by any true facts.
f. OLR fails to allege any true facts to support its claim that Nora harassed “other parties
and judicial officers,” except in the headings provided by OLR, which are not operational factual
allegations and, again, the conclusory allegation at ¶43. The unidentified “parties” which OLR
fails to name would, by implication, include the falsely identified entities appearing in Wood
County Circuit Court case and their affiliates and agents, but would also include their attorneys
who are not named by OLR but likely include Attorney William N. Foshag (Foshag) of Gray &
Associates, LLP, who filed the false Complaint alleging the false plaintiff is the owner and
holder of Ms. Spencer’s Note and Mortgage and his Co-Grievant Potteiger in Nora #1, who
admits that he represents an entity, Fidelity National Financial which, through its agents and
subsidiaries, operates one of the most prolific document forgery services in the nation.
g. There is no factual basis in the Second Amended Complaint, true or false, for the
conclusion in OLR’s ¶63 and Nora affirmatively defends:
(1) Nora has the utmost respect for the Constitution of the United States, the Wisconsin
Constitution and the Minnesota Constitution, where she is admitted to practice, the
constitutionally valid statutes and rules of courts of the United States and the several states and

92

521a

the Rule of Law. She is not without flaws as a human being but strives diligently to examine her
professional conduct and to avoid unnecessary harm to any other human being.
(2) Nora respects judicial officers when they are performing their appointed and elected
duties constitutionally.
(3) Nora believes that no one is above the law and that corporations, being creatures of
statute, are subject to human governance and must be held accountable when they cause harm to
human beings.
(4) There are no facts alleged true or false which support a conclusion that Nora has
counseled or maintained any suit or proceeding which appears to her to be unjust nor any
allegation that she has pursued an unjust defense for Ms. Spencer, whose current mortgage
payment was refused by National City Bank to create the appearance of default, and who had put
her entire life’s earning into her home in a downpayment of almost $100,000.00 (more than one
third of the market value of her home) and 3 times the amount the false plaintiff is guaranteed to
recover as servicing advances from Freddie Mac.
h. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶1-61 of the Second Amended Complaint.
i. The proceedings on OLR’s Second Amended Complaint are ultra vires in violation of
SCR 22.11(2).
Regarding the Rinaldi Matter
OLR Matter No. 2015MA614
Counts Four-Five
64. Denies ¶64 of OLR’s Second Amended Complaint insofar as it alleges that Nora
represented the Rinaldis in their state foreclosure actions, admits that Nora represented the

93

522a

Rinaldis Case No. 13-CV-336 into which Case No. 13-CV-643 was consolidated until April 9,
2014 and for most of their appeal to the Seventh Circuit Court of Appeals in Case No. 13-13865
and for part of their appeal in Case No. 14-1887, including at oral argument before the Seventh
Circuit Court of Appeals.
65. Denies ¶65 of OLR’s Second Amended Complaint and affirmatively alleges:
a. There is no factual basis for the allegations in ¶¶1-60, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and
were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR
in continuing to proceed on facts and allegations of misconduct allegations against Nora for
which the preliminary review panel of the PRC did not find cause to proceed.
d. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
e. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
f. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint

94

523a

on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
66. Denies ¶66 of OLR’s Second Amended Complaint.
a. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
b. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
c. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
67. Denies ¶67 of OLR’s Second Amended Complaint, and affirmatively alleges:
a. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
b. OLR has falsely charged Nora with representing the Rinaldis in a state court

95

524a

foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
c. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008.
68. Denies ¶68 of OLR’s Second Amended Complaint insofar as it implies the truth of
the allegations at ¶¶ 64-67, on the further grounds set forth below, and affirmatively alleges:
a. On January 26, 2010 an Order for Judgment was entered on false pleadings, brought in
the name of a nonexistent entity, claiming ownership of a Note made payable to Wells Fargo
Bank, N.A. (Wells Fargo Bank), attached to the Complaint as a “true” copy, which was not
endorsed, and on a Complaint to which an unassigned Mortgage conveying a mortgagee interest
to Wells Fargo Bank was also attached.
b. On February 2, 2010, Judgment of Foreclosure was entered against the Rinaldis and in
favor of HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset Securities
Corporation Home Equity Asset-Backed Certificates, Series 2005-2, a nonexistent entity.
c. The Rinaldis brought a motion to vacate judgment which was pending at the time that
the attorneys representing Wells Fargo Bank, pretending to be representing HSBC Bank USA,
National Association, as Trustee for Wells Fargo Asset Securities Corporation Home Equity

96

525a

Asset-Backed Certificates, Series 2005-2, a nonexistent entity, petitioned the state court to reopen the judgment and dismiss the false Complaint.
d. The Order for Judgment and the Judgment entered in the state court foreclosure case
was re-opened and the state court foreclosure action against the Rinaldis was dismissed on
petition of the pretended plaintiff in that action on January 18, 2011.
e. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
f. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
g. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008.
69. Denies ¶69 of OLR’s Second Amended Complaint and affirmatively alleges:
a. The Rinaldis were not heard on the unilateral petition of the attorneys representing
Wells Fargo Bank to re-open the judgment of foreclosure and dismiss the case, based on a Loan
Modification Agreement, signed by Roger Rinaldi, which was never returned executed by any
other party to the agreement.

97

526a

b. The only time a copy of the purported Loan Modification Agreement ever appeared
was in Rinaldis’ bankruptcy case in Eastern District of Wisconsin Case No. 11-35689. The
purported Loan Modification Agreement appeared to have been executed by an employee of
Wells Fargo Bank.
c. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the state court foreclosure action to which OLR pretends to refer.
d. OLR has falsely charged Nora with representing the Rinaldis in a state court
foreclosure action for a second time in these proceedings and has done so in violation of SCR
20:1.1 (competence), SCR 20:1.4 (diligence), has now done so knowingly or recklessly in
violation of SCR 20:3.3(a)(1) and is in violation of Wis. Stats. sec. 802.05(1)(b).
e. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
70. Denies ¶70 of OLR’s Second Amended Complaint, except insofar as it alleges that
Nora entered her appearance for the Rinaldis after the action was filed pro se as co-counsel with
Attorney Kim A. Lewis of Twin Lakes, Wisconsin, in a second state court action and
affirmatively alleges:
a. The Loan Modification Agreement was never “finalized,” according to its terms,
which required a copy of the Agreement to be returned to Roger Rinaldi by mail.

98

527a

b. The Rinaldis did not assert counterclaims against the parties named in the second
state court action in the foreclosure action, nor could they, because the parties named in the
second state court action were not parties to the foreclosure action.
c. The Rinalidis could not have “reasserted their counterclaims” against the same parties
in the second action because the parties defendant in the second action were not before the court
in the foreclosure action.
d. The Rinaldis, pro se, did not know that they could file a Third-Party Complaint against
the parties named in the second state court action and apparently OLR and whoever is advising
OLR in these proceedings does not know that counterclaims may only be brought against the
plaintiff.
e. ¶70 is evidence of selective and vindictive prosecution of Nora because Attorney
Lewis is not mentioned as being co-counsel with Nora for the Rinaldis and was never contacted
by OLR with respect to the positions taken by Attorneys Lewis and Nora in the second state court
action.
f. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action or the second state court action
which the Rinaldis commenced pro se, to which OLR pretends to refer.
g . The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in
violation of Wis. Stats. sec. 802.05(1)(b).
h. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to

99

528a

conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
71. Denies ¶71 of OLR’s Second Amended Complaint insofar as it implies that the
defendants in the second state court action initially moved to dismiss with prejudice and
affirmatively allege:
a. The defendants initially moved for dismissal of the action for lack of personal
jurisdiction, based on insufficient service of process.
b. On the Rinaldis’ behalf, Attorneys Nora and Lewis agreed to dismissal of the action
for insufficient service of process, which is not an adjudication on the merits.
c. After the Rinaldis agreed to dismissal for insufficient service of process, the
defendants moved to dismiss the action with prejudice.
d. The action was eventually dismissed without prejudice on January 29, 2015, just as
Attorneys Nora and Lewis had offered to do in September, 2011.
e. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action or the second state court action
which the Rinaldis commenced pro se, to which OLR pretends to refer.
f . The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in
violation of Wis. Stats. sec. 802.05(1)(b).
g. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint

100

529a

on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12(3), by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
72. Denies ¶72 of OLR’s Second Amended Complaint insofar as it implies that it is
unethical for anyone to file a bankruptcy proceeding “before a state court could rule” on any
matter and affirmatively alleges:
a. ¶72 is evidence of OLR’s selective and vindictive prosecution of Nora because it does
not identify the attorney who filed the Rinaldis’ bankruptcy case “before the state court could
rule” and if such an allegation constitutes unethical conduct (it does not) the attorney who filed
the Rinaldis’ bankruptcy case on October 14, 2011 as Case No. 11-35689 would have to be
identified.
b. Nora was substituted as counsel for the Rinaldis’ case in WIEB Case No. 11-35689 on
November 18, 2011 in order to respond to the Motion for Relief from the Automatic Stay filed
on November 4, 2011 in which a second version of a copy of the Note suddenly appeared to have
been endorsed and was not the “true” copy of the Note attached to the Complaint in the state
court foreclosure case (which had been dismissed) and an unrecorded AOM which was not
attached to the state court foreclosure and pre-dated the first recorded AOM were produced as
Exhibits.
c. The second state court action was dismissed without prejudice for insufficient service
of process on January 29, 2015, just as Attorneys Lewis and Nora proposed to do in September,

101

530a

2011.
d. The falsity of this allegation demonstrates that OLR has not reviewed the essential
documents pertaining to the either state court foreclosure action, the second state court action
which the Rinaldis commenced pro se, or WIEB Case No. 11-35689 to which OLR pretends to
refer.
e. The falsity of this allegation is in violation of SCR 20:1.1 (competence), SCR 20:1.4
(diligence), has now done so knowingly or recklessly in violation of SCR 20:3.3(a)(1) and is in
violation of Wis. Stats. sec. 802.05(1)(b).
f. The only explanation for OLR’s persistent pursuit of the Second Amended Complaint
on false factual allegations is that OLR is harassing Nora and/or is maliciously injuring Nora to
conceal the violations of Wis. Stats. sec. 946.12, by OLR and the Wisconsin licensed lawyers
representing mortgage servicers on false pleadings, based on false documents, supported by
falsely sworn affidavits, who have been shielded by OLR’s wilful ignorance and conscious
avoidance of their misconduct since at least 2008, in violation of Wis. Stats. sec. 802.05(a).
73. Denies ¶73 of OLR’s Second Amended Complaint and affirmatively alleges:
a. “HSBC” did not file a Proof of Claim in the Rinaldis’ bankruptcy case, WIEB Case
No. 11-35689.
b. Wells Fargo Bank filed Proof of Claim #6 in Case No. 11-35689 on behalf of an entity
identified as HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates, Series 20052, an entity which does not exist as a matter of law because a series of Certificates of Interest in a
Real Estate Mortgage Conduit (REMIC) Trust has no de jure existence; if HSBC Bank USA,

102

531a

N.A. is a Trustee, it must be the Trustee of a Trust and not of a Certificate Series.
c. HSBC is not the holder of the June 10, 2005 Note made payable to Wells Fargo Bank.
d. An endorsement suddenly appeared on the Note for the first time in the Rinaldis
bankruptcy WIEB Case No. 11-35689 on November 4, 2011 at Doc. 7, which appears to be an
integrated stamp displaying the signature of Joan M. Mills, in the purported capacity of Vice
President, Wells Fargo Bank, N.A.
e. Joan M. Mills was never a Vice President of Wells Fargo Bank.
74. Denies, in part, and admits, in part, ¶74 of OLR’s Second Amended Complaint and
affirmatively alleges:
a. Denies that Nora, on behalf of the Rinaldis, filed adversary claims against the parties
that the Rinaldis had “counter-claimed against in the state action.”
b. Admits ¶74 to the extent that Nora objected to the Proof of Claim brought by Wells
Fargo Bank in the name of HSBC Bank USA, National Association as Trustee for Wells Fargo
Home Equity Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates,
Series 2005-2, an entity which does not exist.
c. Nora was ordered to file the Adversary Complaint by the bankruptcy court judge in
Case No. 11-35689.
d. At the time Nora filed the adversary proceeding, under order of the bankruptcy court,
Nora was informed and believed that the name of the entity against whom the Rinaldis were
entitled to proceed on their claims was the Wells Fargo Home Equity Trust 2005-2 because a
Trust with the stock ticker identification of WFHET 2005-2 had been identified.
e. Nora later learned there were two similarly named entities (“Trusts”) reported as

103

532a

existing to the Securities and Exchange Commission (SEC): the Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust (WFHET 2005-2) and the Wells Fargo Mortgage Backed
Securities 2005-2 Trust and that the entity named as a defendant, Wells Fargo Home Equity Trust
2005-2, does not exist.
f. Counsel for Wells Fargo Bank, Attorney Stephanie Dykeman, appeared on behalf of
the Wells Fargo Home Equity Trust 2005-2 (WFHET 2005-2), a nonexistent entity, in the
adversary proceeding filed as Adv. No. 12-ap-2412 and she also appeared in an adversary
proceeding filed by the Rinaldis in their second bankruptcy case (Case No. 15-22937) on April
29, 2015 as Adversary No. 15!02186, claiming to represent HSBC Bank USA, N.A. as Trustee
for the Wells Fargo Home Equity Asset-Backed Securities 2005-2 Trust (WFHET 2005-2), a
“similarly named entity,” which does, in fact, exist.
g. A plaintiff might not know the exact, correct name of a defendant at the time an action
is filed, despite diligent efforts to identify a party liable for the claim, but attorneys making
appearances for parties must know the identities of the parties for whom they appear.
h. At no time during Adv. No. 12-ap-2412 did counsel for Wells Fargo Bank seek
dismissal of the adversary proceeding on the basis that the entity being sued by the Rinaldis did
not exist.
i. In her Decision of February 22, 2013 at page 16, Judge Susan V. Kelley held that “any
similarly named entity (‘the Trust’)” had standing to proceed against the Rinaldis because
“defects in the transfer of the Note to the Wells Fargo Asset Securities Corporation Home Equity
Asset-backed Certificates Series 2005-2 Trust (or any similarly named entity) (the ‘Trust’) do not
render the Mortgage unenforceable, the Note invalid or the proof of claim fraudulent.”

104

533a

j. There is no Trust in existence named the Wells Fargo Asset Securities Corporation
Home Equity Asset-backed Certificates Series 2005-2 Trust.
k. The Note and Mortgage had never been transferred or conveyed into any Real Estate
Mortgage Investment Conduit (REMIC) Trust, prior to the closing date of either of the trusts
reported to the SEC as having an existence: Wells Fargo Home Equity Asset-Backed Securities
2005-2 Trust (stock ticker WFHET 2005-2), which names HSBC Bank USA, N.A. as Trustee,
and the Wells Fargo Mortgage Backed Securities 2005-2 Trust, which names Wachovia Bank,
N.A. (which subsequently merged into Wells Fargo Bank) as Trustee, for which the stock ticker
number, if any, is unknown at the present time.
l. Grievant in Nora #1, Attorney William N. Foshag, filed the Complaint entitled HSBC
Bank USA, National Association, as Trustee for Wells Fargo Asset Securities Corporation Home
Equity Asset-Backed Certificates, Series 2005-2 v. Rinaldi, et al., Kenosha County Circuit Court
Case No. 2009CV000353 on behalf of an entity which does not exist, to wit a Certificate Series
issued by a nonexistent Trust which would presumably be named the Wells Fargo Asset
Securities Corporation Home Equity 2005-2 Trust, if it existed, but no record of such a trust has
been located in more than 7 years.
m. Grievant in Nora #1, Attorney William N. Foshag, alleged at ¶1 of the foreclosure
Complaint entitled HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset
Securities Corporation Home Equity Asset-Backed Certificates, Series 2005-2, an entity which
does not exist, is the current owner and holder of the Note and Mortgage at issue, writing:
1. The plaintiff is the current owner and holder of a certain note and recorded
mortgage on real estate located in this county, true copies of which are attached hereto as
Exhibits A and B and incorporated by reference.

105

534a

Exhibit A attached to the Complaint as a “true” copy is UNENDORSED Note payable to Wells
Fargo Bank and Exhibit B attached to the Complaint is a copy of a Mortgage granted to Wells
Fargo Bank, for which no Assignment of Mortgage (AOM) was attached to the Complaint or
recorded with the Kenosha County Register of Deeds.
n. The Complaint against the Rinaldis is materially false in that it alleges that a
nonexistent entity is the owner of the Note and that the copy of the UNENDORSED Note was a
“true” copy, which means that the nonexistent plaintiff, in addition to its nonexistence, could not
be the “owner” of an UNENDORSED Note made payable to Wells Fargo Bank or the “owner”
of an UNASSIGNED Mortgage, granted to Wells Fargo Bank.
75. Denies ¶75 of OLR’s Second Amended Complaint and affirmatively alleges:
a. Judge Kelley did not find in favor of “HSBC’s proof of claim.”
b. Judge Kelley’s Decision of February 22, 2013 allowed Proof of Claim #6, filed by
Attorney Brian D. Perhach of Gray & Associates, LLP on behalf of the nonexistent entity
identified by Attorney Perhach as HSBC Bank USA, National Association as Trustee for Wells
Fargo Home Equity Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed
Certificates, Series 2005-2, which is not the same nonexistent entity as the nonexistent entity in
whose name the state court foreclosure action had been commenced.
c. Judge Kelley apparently felt compelled to rename the entity in whose name Proof of
Claim #6 would be allowed to be [HSBC as Trustee for] the Wells Fargo Asset Securities
Corporation Home Equity Asset-backed Certificates Series 2005-2 Trust or “any similarly named
entity (the ‘Trust’)” because she saw the defect in the identification of HSBC Bank as Trustee for
a series of Certificates of Interest. See Judge Kelley’s Decision of February 22, 2013, page 16.

106

535a

d. Judge Kelley did not recommend “denial” of “Nora’s adversarial claims” because
Nora was not a party to the adversary proceeding; Judge Kelley recommended dismissal of the
Rinaldis’ Adversary Complaint for the reasons stated in her February 22, 2013 Decision and
Order.
e. Judge Kelley decided that the Rinaldis lacked standing to challenge the suddenly
appearing endorsement in blank in the integrated signature stamp of Joan M. Mills, Vice
President of Wells Fargo Bank, N.A., which had not been attached to the Complaint in the state
court foreclosure action, based on Wis. Stats. sec. 403.308(1).
f. Judge Kelley erroneously held that Wis. Stats. sec. 403.308(1) created an irrebuttable
presumption that the endorsement was valid in order to deny the Rinaldis standing to object to
the false Proof of Claim #6 on their allegation that the endorsement was a forgery,5 which they
were prepared to prove at the evidentiary hearing to which they were entitled under the Fifth
Amendment to the Constitution of the United States.
g. The issue of the Rinaldis’ “lack of standing” was raised sua sponte by Judge Kelley
and was never raised by the Adversary Defendants or briefed by any party. There is nothing in
Wis. Stats. sec. 403.308(1) that creates an irrebuttable presumption of the validity of an
endorsement. Wis. Stats. sec. 403.308(1) simply shifts the burden of proof on a challenge to the
validity of the endorsement to the maker of the Note, a burden which the Rinaldis were prepared
to meet at the evidentiary hearing to which they were entitled under the Fifth Amendment to the
Constitution of the United States before a claim to their Homestead could be made on the basis of

5

At the pleadings stage of the civil action, all of the factual allegations made by the Rinaldis are
legally required to be taken to as true. Scott v. O’Grady, 975 F.2d 366, 368 (7th Cir.1992), cert. denied,
113 S.Ct. 2421 (1993).

107

536a

a forged document.
h. Judge Kelley also recommended dismissal of the Rinaldis’ Adversary Complaint for
fraud and racketeering, despite the production of 3 contradictory Assignments of Mortgage,
transmitted by mail and wire, contrary to 18 U.S.C. secs. 1341 and 1343. As to each Assignment
of Mortgage (AOM):
(1) The first AOM by date is unrecorded and purports that Wells Fargo Bank assigned the
Mortgage to HSBC Bank USA, National Association as Trustee on September 14, 2005, and
appeared for the first time on November 4, 2011 as an attachment to the Motion for Relief from
the Automatic Stay, filed as Doc. 7 in WIEB 11-35689;
(2) The second AOM in time was created by Duncan C. Delhey of Gray & Associates,
LLP after summary judgment was granted in the state court foreclosure action purporting to
assign the Mortgage from Wells Fargo Bank to HSBC Bank USA, National Association, as
Trustee for Wells Fargo Asset Securities Corporation Home Equity Asset-Backed
Certificates, Series 2005-2,the nonexistent entity in whose name foreclosure was granted on
false pleadings filed by William N. Foshag, was dated March 1, 2010 was recorded with the
Kenosha County Register of Deeds on April 5, 2010; and
(3) The last AOM in time was filed after the Rinaldis filed bankruptcy in WIEB Case No.
11-35689 and their assets were protected against lien perfection by creditors seeking to improve
their position to become secured claimants, the Rinaldis’ Mortgage was purportedly assigned by
Wells Fargo Bank on October 31, 2011 to
HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity
Asset-Backed Securities 2005-2 Trust, Home Equity Asset-Backed Certificates,
Series 2005-2

108

537a

For ease of visualization the three (3) Assignments of Mortgage by which Wells Fargo
Bank purported to assign its mortgagee interest to three (3) different entities are
HSBC Bank USA, National Association as Trustee on September 14, 2005;
HSBC Bank USA, National Association, as Trustee for Wells Fargo Asset Securities
Corporation Home Equity Asset-Backed Certificates, Series 2005-2;
HSBC Bank USA, National Association as Trustee for Wells Fargo Home Equity AssetBacked Securities 2005-2 Trust, Home Equity Asset-Backed Certificates, Series 2005-2
i. Less than one month after Judge Kelley allowed Claim #6 in the Rinaldis’ bankruptcy
(WIEB Case No. 11-35689) and denied them an evidentiary hearing to challenge Proof of Claim
#6, the same Judge Kelley disallowed a Proof of Claim in In re Thompson, WIEB Case No. 0528262-svk on March 19, 20136 (the Thompson case).
j. The current mortgage servicer in the Thompsons’ case, Ocwen Loan Servicing, LLC,
appealed from Judge Kelley’s Order of March 19, 2013 disallowing the Proof of Claim and the
appeal was heard by none other than United States District Court Judge Joseph P. Stadtmueller,
who upheld Judge Kelley’s March 19, 2013 Decision in the Thompson case on January 7, 2014,7
less than one month after he denied the Rinaldis’ Rule 59(e) Motion for Amended Findings on
December 13, 2013 and threatened the Rinaldis’ attorney (Nora) with sanctions for “any further

6

The Thompsons, who proceeded to evidentiary hearing (which the Rinaldis were denied)
challenged an allonge which, if the Rinaldis could not challenge an endorsement, neither could the
Thompsons because an allonge is added to display an endorsement. The Thompsons were allowed an
evidentiary hearing, even though they had lost their foreclosure case in state court in 2002 and did not
appeal. An ex parte order substituting Wells Fargo Bank for Provident Bank as judgment creditor was
entered on the same day that the Thompsons filed their bankruptcy petition in 2005. In the Rinaldis’
case, the foreclosure judgment against them had been re-opened and the foreclosure case had been
dismissed at the time they filed their bankruptcy in Case No. 11-35689, so whereas a post-judgment order
was subject to appeal in the Thompsons’ case, there was no judgment whatsoever in the Rinaldis’ case.
7

Ocwen Loan Servicing, LLC v. Thompson, Opinion of Judge Joseph P. Stadtmueller, in WIED
Case No. 13-cv-487-JPS.

109

538a

frivolous submissions.” See ¶78, below.
76. Admits, in part and denies, in part, ¶76 of OLR’s Second Amended Complaint and
affirmatively alleges:
a. There is nothing unethical about appealing from an adverse, erroneous Decision or
seeking a review of recommendations.
b. Nora filed an appeal for the Rinaldis from the Orders arising in core proceedings.8
c. The Rinaldis objected to the recommendations of dismissing the Adversary Complaint.
77. Denies ¶77 of OLR’s Second Amended Complaint as a characterization of the
District Court’s October 31, 2013 Opinion and affirmatively alleges:
a. The Decision speaks for itself.
b. Nothing in Judge Stadtmueller’s October 31, 2013 Opinion in WIED Case No. 13-cv336 provides a factual or legal basis for finding that Nora violated any provision of the
Wisconsin Code of Professional Conduct.
78. Denies, in part, and admits, in part, ¶78 and affirmatively alleges:
a. Nora, on behalf of the Rinaldis, moved to alter or amend the judgment.
b. There is nothing unethical about bringing a Rule 59(e) Motion. See also the
affirmative allegations at ¶75-77, above.
c. Nora denies the implication that it is unethical to identify issues previously denied in a

8

Bankruptcy judges enter final orders in “core proceedings” defined at 28 U.S.C. sec. 157(b)(2)
and make recommendations to the district courts in non-core matters, 28 U.S.C. sec. 157(c)(1). Final
orders entered in “core proceedings” are subject to appeal to the district court under 28 U.S.C. sec.
158(a) within 14 days of the date the order is entered, Fed. R. Bankr. P. 8002(a)(1). Recommendations
are subject to objection under 28 U.S.C. sec. 157(c) to be filed at the district court within 14 days, Fed.
R. Bankr. P. 9033(b).

110

539a

Rule 59(e) Motion and request that the judgment be altered or amended to conform to the law.
d. In view of the Decision of Judge Kelley in the Thompson case and the Opinion of
Judge Stadtmueller affirming Judge Kelley’s Decision on appeal detailed in ¶75.i. and j. and
footnotes 9 and 10 above, the Judgment in Rinaldi should have been altered or amended to
conform to the law, which Judges Kelley and Stadtmueller followed in the Thompson case, but
did not follow in the Rinaldi case.
e. Whereas Judge Stadtmueller found that the Rinaldis were objecting to findings of fact,
the Rinaldis were objecting, as a matter of law, to any findings of fact being made upon Rule
12(b)(6) motions to dismiss their Adversary Complaint or allowing Proof of Claim #6 without an
evidentiary hearing, as a matter of law.
79. Denies ¶79 of OLR’s Second Amended Complaint as a characterization of the
District Court’s October 31, 2013 Decision and affirmatively alleges that the Decision speaks for
itself and affirmatively alleges:
a. Nora incorporates by reference, as if fully set forth herein, the affirmative allegations
at ¶75-78 above.
b. Nora believed in good faith that the Rinaldis’ claims were meritorious and continues
to believe that the Rinaldis claims are meritorious.
80. Admits ¶80 of OLR’s Second Amended Complaint and affirmatively alleges:
a. There is nothing unethical about appealing from an adverse, erroneous determination
of a lower court to a higher court.
b. The Rinaldis had a statutory right to appeal from the Opinions and Orders of Judge
Stadtmueller to the Seventh Circuit Court of Appeals under 28 U.S.C. sec. 1291.

111

540a

c. Nora had a statutory right to appeal to the Seventh Circuit Court of Appeals from the
April 9, 2014 Orders of Judge Stadtmueller.
81. Admits, in part, and denies, in part, ¶81 of OLR’s Second Amended Complaint, and
affirmatively alleges:
a. There is nothing unethical about an attorney dismissing a Chapter 13 bankruptcy
petition at his or her clients’ direction.
b. Nora did not state that “‘she’” wished ‘to proceed to state court’ with ‘newly
discovered evidence’ that the mortgage was void.” The Rinaldis wished to do so.
c. Roger Rinaldi had discovered evidence that the foreign trust, correctly identified as
Wells Fargo Home Equity Asset-Backed Securities 2005-2 Trust, and not as incorrectly
identified by Judge Susan V. Kelley in her February 22, 2013 Order, the Wells Fargo Asset
Securities Corporation Home Equity Asset-Backed Certificates Series 2005-2 Trust but “an
entity similarly named (the ‘Trust’)” appeared to have sold certificates to 5 or more persons in
the State of Wisconsin, which would cause the provision of Wis. Stats. sec. 226.14 to apply and
would void the contracts at issue in the Rinaldis case by operation of law.
82. Admits ¶82 of OLR’s Second Amended Complaint and affirmatively alleges that it is
apparent that Judge Kelley was wrong because the Rinaldis’ appeal was not moot and was heard
and determined by the Seventh Circuit Court of Appeals.
83. Admits ¶83 of OLR’s Second Amended Complaint and affirmatively alleges that a
conflict of interest between the Rinaldis and Nora arose at a confidential settlement conference at
the Seventh Circuit Court of Appeals, requiring Nora to withdraw until the conflict was resolved.
84. Admits ¶84 of OLR’s Second Amended Complaint and affirmatively alleges that

112

541a

whether or not Nora’s Motion for Leave to Withdraw had yet been granted, Nora was entitled to
seek leave to intervene in the proceedings to defend her independent interests for the reasons
stated in the Motion for Leave to Intervene.
85. Admits ¶85 of OLR’s Second Amended Complaint and affirmatively alleges that
there is nothing unethical about seeking and obtaining leave to withdraw as counsel when a
conflict of interest arises nor is there anything unethical about withdrawing as counsel when
allowed to do so by the court in which the representation was pending.
86. Admits, in part, and denies, in part, ¶86 of OLR’s Second Amended Complaint and
affirmatively alleges:
a. The Joint Motion for Rule 60(b) Relief by the Rinaldis and Nora on April 2, 2014 was
filed under existing law and supported by substantial evidence, newly discovered.
b. New evidence consisting of the Wells Fargo Home Mortgage Attorneys Foreclosure
Manual, Version 1, Revision 3 (the “Manual”) had been discovered by public disclosure on
March 18, 2014, was verified as to its authenticity and was filed within 14 days from the date of
its public disclosure.
c. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
discovery of new evidence within one (1) year after the entry of the order or judgment from
which relief is sought and Fed. R. Civ. P. 60(b)(2) specifically allows for the relief sought.
d. The newly discovered evidence of the Manual, which was verified as being authentic,
is evidence of both the agreement between the defendants in the Rinaldis’ Adversary Proceeding
and the method of operation by which wire fraud is committed by Wells Fargo Bank and its
attorneys in foreclosure cases throughout the nation.

113

542a

e. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
discovery of new evidence of fraud which occurred in the case under review within one (1)
year after the entry of the order or judgment from which relief is sought and Fed. R. Civ. P.
60(b)(3) specifically allows for the relief sought.
f. Rule 60(b)(4) provides for relief from orders or judgments in which the Court denied a
party due process of law. A judgment is void if the court that rendered it lacked jurisdiction of
the subject matter or of the parties, or if it acted in a manner inconsistent with due process of law.
See Philos Techs., Inc. v. Philos & D, Inc., 645 F.3d 851, 854 (7th Cir. 2011) (citing Planet Corp.
v. Sullivan, 702 F.2d 123, 125 n.2 (7th Cir. 1983); Price v. Wyeth Holdings Corp., 505 F.3d 624,
631 (7th Cir. 2007) (citations omitted); Marques v. Fed. Reserve Bank of Chicago, 286 F.3d
1014, 1018 (7th Cir. 2002).
g. There is nothing frivolous or otherwise unethical about seeking Rule 60(b) relief on
the basis that an order or judgment is void for violation of a party’s due process rights, Fed. R.
Civ. P. 60(b)(4) specifically allows for the relief sought, and there is no time frame for seeking
relief from a void order or judgment.
87. Admits ¶87 of OLR’s Second Amended Complaint and affirmatively alleges that
there is nothing unethical about appealing from an adverse, erroneous determination of a lower
court to a higher court.
88. Admits ¶88 of OLR’s Second Amended Complaint and affirmatively alleges that
Nora was unable to persuade the Seventh Circuit Court of Appeals that Judge Stadtmueller
abused his discretion in his April 9, 2014 Order for Sanctions.
89. Denies, in part, and admits, in part, ¶89 of OLR’s Second Amended Complaint, and

114

543a

affirmatively alleges:
a. An award of sanctions, standing alone, is insufficient to support a charge of knowingly
or recklessly filing a “frivolous” Rule 60(b) Motion or a “frivolous” Motion for Leave to
Intervene in a matter to allow a nonparty to defend an interest which cannot be fully defended by
the parties to the proceeding under Fed. R. Civ. P. 24(a)(2) or has a defense based on common
issues of fact or law with the parties already proceeding in the matter under Fed. R. Civ. P. 24(b).
(2).
b. Nora’s defense against a pending motion for sanctions under Fed. R. Bankr. 9011
brought by the Adversary Defendants in Adv. No. 12-ap-2412 was believed in good faith to give
her standing to seek leave to intervene and, far more importantly, the newly discovered evidence
of the agreement and modus operandi of the fraud scheme Nora alleges on behalf of the Rinaldis
in the Adversary Complaint was new evidence which she and the Rinaldis were required to bring
to the attention of the Court under 18 U.S.C. sec. 4.
c. There is no violation of any ethics rule for filing papers that a court finds to be
“confusing,” although Nora tried her best not to confuse the courts and believes in good faith that
the “confusion” is inherent in the transactions Nora is attempting to expose. There is, however,
nothing “confusing” about the information contained in the Manual which specifically instructs
Wells Fargo Bank’s attorneys to electronically order the creation of documents needed to
improve the litigation position they are instructed to take. (See Manual, pages 17 and 20-22,
which are alleged to have been followed by the Adversary Defendants in the Rule 60(b) Motion
at pages 6 and 12.) See the Decision of Judge Robert D. Drain in In re Carssow-Franklin,
NYSB Case No. 10-20010, ironically citing to the WIEB case Ocwen Loan Servicing, LLC v.

115

544a

Thompson 2014 U.S. Dist. LEXIS 2109, at *14-15 (E.D. Wisc. Jan. 7, 2014) referenced at ¶¶75
and 78 and at footnotes 9 and 10 to ¶75, above, in which Judges Kelley and Stadtmueller reached
the exact opposite result in the Thompson case to that reached in the Rinaldi case, within one
month of each respective ruling. The Thompsons were allowed to proceed to an evidentiary
hearing and the Rinaldis were denied the opportunity to present evidence in support of their
objection to Proof of Claim #6.
d. There is no violation of any ethics rule for filing papers that are “needlessly
argumentative,” although a court may, in the appropriate case and in its inherent authority,
sanction an attorney or a party for disruptive behavior, which is an ethics violation under SCR
20:3.5(d) if the conduct was intended to disrupt a tribunal, but which Nora’s argument described
in ¶89, below, did not disrupt the tribunal nor was her indication that HSBC Bank USA, N.A.
had signed a deferred prosecution agreement for money laundering at the end of 2012 intended to
do.
e. Judge Stadtmueller found that Nora should not have argued that HSBC Bank USA,
N.A. (“HSBC”) had publicly admitted to a scheme involving money laundering for Mexican drug
cartels for which it entered into an agreement to pay a penalty of 1.9 Billion Dollars in her brief
on appeal and that such an argument had no place in a brief. Nora was trained to include socially
relevant factors in briefs at the University of Wisconsin Law School which she attended between
1972 and 1975. Nora believed in good faith that the conviction of “HSBC” for money
laundering was socially relevant to the extent that courts tend to believe that banks can do no
wrong. Our very language employs idioms like “You can bank on it” and “Take it to the bank”
to express concepts of truthfulness and security. Since 2008, there is ample evidence that such

116

545a

concepts are outdated and are no longer valid. Nevertheless, even a “needlessly argumentative”
brief is not a violation of the Wisconsin Code of Professional Conduct. While courts may seek
to sanction their officers to maintain order, Nora did not make any “needlessly argumentative”
remarks in the April 2, 2014 Motions for which she was sanctioned.
f. OLR’s ¶89 fails to allege facts constituting a violation of the Wisconsin Code of
Professional Conduct.
COUNT FOUR
90. Denies ¶90 of OLR’s Second Amended Complaint in its entirety and affirmatively
alleges:
a. There is no factual basis for the allegations in ¶¶1-89, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and
were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR
in continuing to proceed on facts and allegations of misconduct allegations against Nora for
which the preliminary review panel of the PRC did not find cause to proceed.
d. ¶90 fails to specify which subsection of SCR 20:3.1(a) Nora is alleged to have violated
in the Rinaldi Matter.
e. Nora violated no subsection of SCR 20:3.1(a) in her representation of the Rinaldis or

117

546a

in her self-representation in the Rinaldi matter.
f. By filing the April 2, 2014 Rule 60(b) Motion for Relief and the Motion for Leave to
Intervene which the United States District Court for the Eastern District of Wisconsin found to
be “frivolous,” Nora did not violate any of the three (3) subsections of SCR 20:3.1(a) because
there is no allegation in OLR’s ¶¶64-89, let alone clear, convincing and satisfactory evidence that
Nora:
(1) knowingly advance[d] a claim or defense that is unwarranted under existing law,
except that the lawyer may advance such claim or defense if it can be supported by good faith
argument for an extension, modification or reversal of existing law because Nora’s Motions were
based on existing law;
(2) knowingly advance[d] a factual position unless there is a basis for doing so that is not
frivolous because Nora had substantial evidence to support the Motions;
(3) file[d] a suit, assert[ed] a position, conduct[ed] a defense, delay[ed] a trial or [took]
other action on behalf of the client when the lawyer knows or when it is obvious that such an
action would serve merely to harass or maliciously injure another because Nora’s Motions were
entirely allowed by existing law, supported by substantial evidence and because OLR has pleaded
no facts that the Motions were filed to harass or maliciously injure any party.
g. OLR has pleaded no facts which support a violation of SCR 20:3.1(a).
h. OLR’s Count Four fails to state a claim upon which relief may be granted.
i. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶1-89 of the Second Second Amended Complaint.
j. The proceedings on OLR’s Second Amended Complaint are ultra vires in violation of

118

547a

SCR 22.11(2).
COUNT FIVE
91. Denies ¶91 of OLR’s Second Amended Complaint in its entirety and affirmatively
alleges:
a. There is no factual basis for the allegations in ¶¶1-89, above, except as specifically
admitted by Nora except possibly where she lacks sufficient knowledge to form a belief as to the
truth of the matters asserted therein.
b. Nora’s affirmative allegations are exculpatory, have long been known to OLR and
were first incompetently, then recklessly and, finally, maliciously ignored by OLR.
c. The superficial amendments to ¶6 and ¶19, along with the amendment to ¶1, which
the Referee was not even asked to approve for filing (and the Referee’s approval is ultra vires in
any event) not only fail to “fix” the “patently erroneous” allegations but reveal the malice of OLR
in continuing to proceed on facts and allegations of misconduct allegations against Nora for
which the preliminary review panel of the PRC did not find cause to proceed.
d. By filing the April 2, 2014 Rule 60(b) Motion for Relief and the Motion for Leave to
Intervene which the United States District Court for the Eastern District of Wisconsin found to
be “frivolous,” Nora did not violate any of the three (3) subsections of SCR 20:3.1(a) because
there is no allegation OLR’s ¶¶64-89, let alone clear, convincing and satisfactory evidence that
Nora violated SCR 20:3.2, which provides:
A lawyer shall make reasonable efforts to expedite litigation consistent with the interests
of the client.
e. Neither the Joint Motion for Rule 60(b) Relief nor Nora’s Motion for Leave to
Intervene in the consolidated case before the United States District Court for the Eastern District
119

548a

of Wisconsin as Case No. 13-cv-336, then pending on appeal to the United States Court of
Appeals for the Seventh Circuit as Case Nos. 13-3865 and 14-1887 delayed any proceedings, nor
were the Motions brought by the Rinaldis or Nora and the Rinaldis, which did not delay the
proceedings, contemplated to delay the proceedings.
f. There is not a single factual allegation in OLR’s ¶¶64-89 which alleges that delay was
contemplated or that any delay resulted from the Motions which are the subject of Count Five.
g. OLR filed Count Five in violation of SCR 22.11, SCR 20:3.1(b) and Wis. Stats. sec.
802.05(2)( c) and, having been given ample opportunity to withdraw this Count Five as being
unsupported by any facts, can now be shown to have violated Wis. Stats. sec. 802.05(a) because
there is no explanation for the OLR persisting in the pursuit of Count Five except that it is
seeking to harass or maliciously injure Nora for her lawful conduct in representing her clients’ in
their efforts to petition the judiciary for redress of grievances and defending herself against the
factually and legally unsupported charges of violations of Fed. R. Bank. P. 9011 and to defend
herself against prospective, now actualized false claims that she has violated any provision of the
Wisconsin Rules of Professional Conduct in representing the Rinaldis.
h. No violation of SCR 20:3.1(a)(3) is supported by any facts, whether true or false, in
¶¶1-90 of the Second Amended Complaint.
i. The proceedings on OLR’s Second Amended Complaint are ultra vires in violation of
SCR 22.11(2).
AFFIRMATIVE DEFENSES AND ADDITIONAL FACTUAL BASES FOR
DAMAGES ACTION PURSUANT TO WIS. STATS. SEC. 895.044
92. Discovery and investigation may reveal that one or more of the following additional
defenses should be available to Nora in this matter, and, therefore, she reserves her right to
120

549a

assert any such yet to be discovered separate and additional defenses.
93. Upon completion of discovery, if the facts warrant, Nora may withdraw any of these
affirmative defenses as may be appropriate, and further reserves the right to amend this answer
and affirmative defenses and to assert additional defenses and other claims, as this case proceeds.
94. As and for an affirmative defense, these proceedings have been commenced and
continued in violation of SCR 22.11.
95. As and for an affirmative defense, this tribunal was divested of subject matter
jurisdiction on August 18, 2016 when the Second Amended Complaint was filed contrary to SCR
22.11(2).
96. As and for an affirmative defense, alleges that OLR has failed to state any claim
upon which relief may be granted.
97. As and for an affirmative defense, Nora represented Ms. Spencer and the Rinaldis on
the basis of existing law or as a good faith effort to modify or extend existing law.
98. As and for an affirmative defense, Nora’s pleadings in the Spencer and Rinaldi cases
were based upon sufficient evidence, except where allegations were pleaded upon information
and belief.
99. As and for an affirmative defense, any order upon which OLR might rely for
preclusion of Nora’s defenses in these proceedings is void for violation of Nora’s constitutional
rights and/or the constitutional rights of Ms. Spencer and the Rinaldis.
100. As and for an additional affirmative defense, these proceedings are ultra vires and
result from an unauthorized “continuing investigation” directed against Nora by Stieren and St.
Ores at the direction of Potteiger and Foshag for the purpose of concealing the misconduct in

121

550a

public office of OLR, its employees and agents, by failure to investigate the activities of the
grievants, attorneys at their law firms, their co-counsel and other attorneys representing mortgage
servicing agents in the State of Wisconsin.
101. As and for an additional affirmative defense, alleges that OLR has commenced this
action without cause, knowingly or recklessly proceeding without a good faith belief that it can
prove any of the Counts One through Five by clear, satisfactory and convincing evidence.
102. As and for an additional affirmative defense, alleges that OLR commenced its
inquiries into the Spencer and Rinaldi Matters identified as OLR Matters 2014MA1570,
2014MA002117 and 2015MA614 at the behest of litigation opponents of Nora and her clients,
concealing their identities in the course of an ultra vires “continuing investigation” of Nora’s
litigation practice.
103. OLR has initiated and continues these proceedings in bad faith for the purpose of
curtailing Nora’s litigation practice at the behest of her litigation opponents.
104. OLR has initiated and continues these proceedings in bad faith for the purpose of
concealing misconduct in public office by OLR’s employees, who have persistently failed to
investigate grievances filed by homeowners alleging violations of their due process rights, the
filing of false pleadings, and the use of forged documents and falsely sworn affidavits by
mortgage servicing agents and their attorneys in Wisconsin foreclosure actions.
105. As and for an affirmative defense, these proceedings violate Nora’s due process
rights by seeking to punish Nora for engaging in lawful conduct, which is a due process violation
of the most basic sort. Bordenkircher v. Hayes, supra.
106. As and for an affirmative defense, these proceedings violate Nora’s due process

122

551a

rights guaranteed by the Fourteenth Amendment to the United States Constitution and Article
One, Section 1 of the Wisconsin Constitution by seeking to punish Nora for engaging in lawful
conduct, which is a due process violation of the most basic sort. Bordenkircher v. Hayes, supra.
107. As and for an affirmative defense, these proceedings violate Nora’s rights to
petition the judiciary for redress of her clients’ grievances guaranteed by the First Amendment to
the United States Constitution and Article One, Section 4 of the Wisconsin Constitution and seek
to punish Nora engaging in lawful conduct, which is a due process violation of the most basic
sort under Bordenkircher v. Hayes, supra.
108. As and for an affirmative defense, these proceedings are an attempt by OLR and the
grievants to punish Nora for not only engaging in lawful conduct, which is a due process
violation of the most basic sort under Bordenkircher v. Hayes, supra, but is an attempt to punish
her for upholding her oath as an officer of the Supreme Court of Wisconsin, at SCR 40.15, which
provides:
I will support the constitution of the United States and the constitution of the state of
Wisconsin;
I will maintain the respect due to courts of justice and judicial officers;
I will not counsel or maintain any suit or proceeding which shall appear to me to be unjust,
or any defense, except such as I believe to be honestly debatable under the law of the land;
I will employ, for the purpose of maintaining the causes confided to me, such means only as
are consistent with truth and honor, and will never seek to mislead the judge or jury by
any artifice or false statement of fact or law;
I will maintain the confidence and preserve inviolate the secrets of my client and will accept no
compensation in connection with my client’s business except from my client or with my client’s
knowledge and approval;
I will abstain from all offensive personality and advance no fact prejudicial to the honor or
reputation of a party or witness, unless required by the justice of the cause with which I am
charged;
I will never reject, from any consideration personal to myself, the cause of the defenseless
or oppressed, or delay any person’s cause for lucre or malice.
So help me God. (Emphases added.)

123

552a

109. As and for an affirmative defense, the November 30, 2016 Complaint and January
19, 2016 Second Amended Complaint were void for having been brought in violation of Nora’s
constitutional rights under the First and Fourteenth Amendments to the United States
Constitution and Article One, Sections 1 and 4 of the Wisconsin Constitution.
110. As and for an affirmative defense, the August 18, 2016 Second Amended
Complaint is void for having been brought in violation of Nora’s constitutional rights under the
First and Fourteenth Amendments to the United States Constitution and Article One, Sections 1
and 4 of the Wisconsin Constitution and without subject matter jurisdiction which requires
compliance with the mandatory provision of SCR 22.11(2).
111. As and for an affirmative defense, OLR’s complaints and its conduct through the
acts and omissions of its employees, agents, grievants and witnesses in these proceedings involve
violations of the Wisconsin Code of Professional Responsibility have been and will continue to
be extensively documented herein and in Nora #1.
112. As and for an affirmative defense, numerous allegations in the complaint(s) are
brought in violation of Wis. Stats. sec. 802.05(a), (b) and (c) as specified above in each
paragraph of the Conditional Answer above.
113. As and for an additional affirmative defense, OLR’s claims are barred, in whole or
in part, by the doctrines of unclean hands, based upon the following additional facts:
a. Attorney Sheryl St. Ores (OLR Assistant Litigation Counsel, previous counsel for
OLR), Attorney Paul W. Schwarzenbart (current counsel for OLR who has refused to produce
exculpatory evidence of Potteiger’s crimes in Nora #1), and Attorney Lisa C. Goldman (Referee
in Nora #1, who refused to grant relief from Summary Judgment in Nora #1 or even consider the

124

553a

evidence in support of the Motion for Relief based on Potteiger’s criminal forgery and false
swearing) are criminally complicit in concealing evidence of crimes of false swearing in violation
of Wis. Stats. sec. 946.32, forgery in violation of Wis. Stats. sec. 943.38(1)(a) and uttering
forged documents in violation of Wis. Stats. sec. 943.38(2) committed by Attorney David M.
Potteiger in Nora #1.
b. Attorney Travis Stieren, Attorney Robert Kasieta and Attorney Edward A. Hannan are
criminally complicit with Potteiger in the unauthorized re-disclosure of Nora’s confidential
medical records taken by Attorney David M. Potteiger from under federal court seal in violation
of Wis. Stats. sec. 146.84(2)(a)2. without a reasonable belief that the dissemination of Nora’s
medical records were necessary to protect another from harm.
c. Attorney Travis Stieren, Attorney Robert Kasieta and former PRC chairperson
Attorney Edward A. Hannan are criminally complicit in the negligent, unauthorized re-disclosure
of Nora’s confidential medical records unlawfully taken by Grievant Potteiger from under federal
court seal in violation of Wis. Stats. sec. 146.84(2)(c) for the pecuniary benefit of attorneys for
mortgage servicing agents, represented by Attorney Hannan and Grievant Potteiger.
d. OLR, through Attorney Sheryl St. Ores unlawfully entered into a dual representation
arrangement with Grievant David M. Potteiger, from whom she sought legal advice and counsel
in the prosecution of Nora in Nora #1.
e. Upon information and belief, Attorney Travis Stieren unlawfully disclosed
confidential probate court records to the Preliminary Review Committee in Nora #1 and to
Grievant David M. Potteiger, which Stieren obtained under false pretenses from Nora, pretending
to be verifying whether or not a guardian ad litem had been appointed for her in a temporary

125

554a

guardianship matter at the behest of Potteiger, who falsely accused Nora of having
misrepresented that probate proceedings had been initiated while she was suffering from the
effects of a concussion, when such proceedings had been initiated and Potteiger was seeking to
gain access to confidential court records which he was otherwise prevented from obtaining.
f. The acts described above have been designed to harass, intimidate, burden and oppress
Nora in order to “curtail” her litigation efforts to expose the crimes and frauds of mortgage
servicing agents and their attorneys in the State of Wisconsin by which they file and cause to be
filed false pleadings, based on false or forged documents, supported by falsely sworn affidavits in
order to foreclose on Wisconsin homes for the benefit of unidentified real parties in interest.
114. At all times relevant to the facts alleged by OLR (without the requisite finding of
cause by a preliminary review panel of the PRC), the facts in support of Nora’s claims or
defenses on behalf of Ms. Spencer and the Rinaldis were based upon sufficient evidence, unless
pleaded upon information and belief, in which case Nora believed in good faith that sufficient
evidence would be obtained in discovery or upon further investigation in support of the claims or
defenses or did not know that the evidence upon which she relied was, in fact, insufficient.
115. At all times relevant to the facts alleged by OLR (without the requisite finding of
cause by a preliminary review panel of the PRC), the legal positions asserted by Nora in support
of the claims or defenses on behalf of Ms. Spencer and the Rinaldis were based upon existing
law or a good faith argument for the extension or modification of existing law or did not know
that her argument for extension or modification of existing law would be deemed to be
unwarranted at the time she presented the legal positions at issue.
116. In the course of her representation of Ms. Spencer and the Rinaldis it was not

126

555a

obvious to Nora that such action would serve merely to harass or maliciously injure another and
she took no action with malice or merely to harass another.
117. As and for an affirmative defense, OLR is prosecuting Nora in bad faith in violation
of her constitutional rights.
WHEREFORE, Nora moves for dismissal of each and every Count in these proceedings
(1) For lack of subject matter jurisdiction of which the tribunal was divested by the filing
of the August 18, 2016 Second Amended Complaint (All Rights Reserved);
(2) In the alternative for lack of competency which Nora does not waive (All Rights
Reserved);
(3) For the commencement and continuation of disciplinary proceedings to punish Nora
for the lawful exercise of her constitutional rights and her efforts to provide her clients with their
constitutional rights as set forth above (All Rights Reserved);
(4) For selective and vindictive prosecution;
(5) For failure to state a claim upon which relief may be granted;
(6) For failure to plead or prove the each and every factual allegation purported to
constitute elements of the charges in any or all Counts by clear, satisfactory and convincing
evidence;
(7) Reserving such other motions as may be brought at or after the evidentiary hearing
now set over which the tribunal retains jurisdiction under Wis. Stats. secs. 802.05 and 895.044;
and
(8) For her reasonable, actual attorney’s fees at her hourly rate for service to clients with
the ability to pay, the reasonable, actual attorney’s fees of Attorney John William Verant, Nora’s

127

556a

co-counsel, along with her actual costs of defending against these proceedings, filed on false
facts, misrepresentations of law, upon multiple violations of the Wisconsin Code of Professional
Conduct by OLR, its agents and employees, in violation of Wis. Stats. sec. 802.05(2)(a),

(b) and

(c) for the purpose of "curtailing" Nora's litigation activities at the request of one of Nora's
litigation opponents in her action for damages pursuant to Wis. Stats. sec. 895.044 to be renewed
by Motion at the close of evidentiary proceedings commencing on October 31, 2016.
Dated: September 7, 2016.
IMAGES OF THE SIGNATURES BELOW WILL HAVE
THE SAME FORCE AND EFFECT AS THE ORIGINALS

��
ACCESSLEGAL SERVICES

Signature authorization to follow
John William Verant
Co-Counsel for Debtor

310 Fourth Avenue South, Suite 5010

9800 69th Avenue North, #201

Minneapolis, Minnesota 55415

Maple Grove, Minnesota 55369-5668

VOICE:(612) 333-4144

VOICE: (763) 537-1427

FAX: (612) 206-3170

MN BAR #017046X

Wisconsin Attorney ID #10107043

johnwilliamverant@q.com

MN BAR #0165906
accesslegalservices@gmail.com
DECLARATION OF SERVICE

Wendy Alison Nora declares that she served the foregoing document Referee James J.
Winiarski by email with paper copy to follow by U.P.S. Mail and upon Paul W. Schwarzenbart,
for OLR, by email and by U.P.S. on September 7, 2016.

� /
128

557a

APPENDIX O

558a

STATE OF WISCONSIN

IN THE SUPREME COURT

IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST, WENDY ALISON NORA,
ATTORNEY AT LAW
CASE CODE 30912
OFFICE OF LAWYER REGULATION

CASE NO. 2015AP002442-D

Complainant;
WENDY ALISON NORA
Respondent.

DECISION ON PENDING MOTIONS AND ORDER

On August 17, 2016, I received by e-mail and attachment the following motions by the
respondent:

Jurisdictional Objection and Notice of Motions and Motions; (1) To
Dismiss for Lack of Subject Matter and Personal Jurisdiction and
Alternative Motions; (2) To Require the Filing and Service of the
Second Amended Complaint; (3) To Allow Filing ofa Response to the
Second Amended Complaint Upon Service; (4) For Relief from
Scheduling Order; (5) For Continuance of Proceedings to the
Alternative Heating Date Set Forth in the February 18, 2016
Scheduling Order; Reserving Rights to Amend Motion for Writ of
Mandamus Requiring Referee to Provide Respondent with Right to
be Heard.
By order dated August 18, 2016, a briefing schedule was established in relation to said
motions with OLR having until August 26, 2016, to file a brief or response and the respondent
having until September 2, 2016, to file any reply.
Briefs, responses and replies have now been filed.

1

559a

DECISION
Respondent again moves for dismissal of this case for lack of subject matter and personal
jurisdiction. I previously denied a similar motion by the respondent. I have also previously warned
the parties that repetitious motions would be denied summarily.
OLR was granted permission to file a second amended complaint. I have carefully reviewed
the second amended complaint and I find the amendments to be nominal in nature. The changes
were made to clarify OLR's allegations and they do not represent new allegations or substantial
changes.
There are essentially two paragraphs changed in the second amended complaint. Paragraph
6 of the second amended complaint now correctly identifies the Wood County foreclosure action by

the correct title and case number. OLR is not alleging a new or different case than that which was
referred to in earlier pleadings, but rather just clarifying the case by correct title and case number.
Respondent's response to the amended complaint filed on May 20, 2016, shows that she was
fully aware of the case being referred to in the amended complaint in paragraph 6. Respondent's
answer to that amended complaint repeatedly and in a lengthy fashion pointed outOLR' s erroneous
case number. Respondent was fully aware that there was only one Wood County foreclosure case
which is the subject matter of this disciplinary case. There was no confusion on her part. Rather
than simply correcting the error, respondent sought to take advantage of the error with lengthy and
confusing arguments and allegations.
I find that respondent was not mislead by the original allegation nor has she been harmed by
the corrections made to paragraph 6 in the second amended complaint.

Any time, expense or

burdens allegedly suffered by the respondent because of the original errors in paragraph 6 of the

2

560a

amended complaint are due solely to respondent's efforts to cause confusion and to take advantage
ofOLR's innocent error in stating the wrong case number.
As to the changes in paragraph 19 of the amended complaint as now reflected in the second
amended complaint, respondent is again attempting to make the rnost of a simple clarification. She
has not been mislead or prejudiced by the simple corrections. The change from "three additional
unlawful ex parte letter communications" to "three additional unlawful ex parte communications"
does not represent a substantial change. Respondent was fully aware of the allegations she made in
relation to ex parte communications.

She was not mislead or confused by the amended language,

given that she had actual knowledge of her allegations and her claims in relation to the alleged ex
parte communications.
A reading of the second amended complaint shows that the alleged misconduct involved does
not relate to whether the ex parte communications were by letter or otherwise. The issue is whether
respondent alleged improper ex parte communications with the judge involved. Respondent suffers
no prejudice as a result of the refined allegations in the second amended complaint.
Respondent's jurisdictional objection is based on the theory that given the changes set forth
in the second amended complaint, such changes must be approved by the Preliminary Review
Committee. I find such argument to be frivolous and without any merit. The record in this case
shows that the Preliminary Review Committee was presented with the facts of the Wood County
foreclosure case and respondent's conduct during the course of that case. The Preliminary Review
Committee was not concerned with the case number or caption of that case, but rather with what
happened during the course of that case. They reviewed respondent's conduct during that case and
that was the basis for their approval of the filing of this disciplinary proceeding.

3

561a

This disciplinary proceeding does not involve multiple foreclosure cases in Wood County.
There was only one such case. The Preliminary Review Committee did not review the wrong Wood
County foreclosure case. Respondent has not been denied due process. I find that the respondent is
deliberately trying to delay this disciplinary case by her claims that the Wisconsin Supreme Court
now lacks subject matter and personal jurisdiction to proceed in this disciplinary case because the
limited changes made in the second amended complaint were not reviewed by the Preliminary
Review Committee.
After I gave OLR permission to file the second amended complaint I had also ordered that
respondent have the opportunity to conduct discovery on the limited changes made in the second
amended complaint. I have also ordered that she be permitted to name any witnesses she believes
are now necessary in relation to the changes made to the allegations in paragraph 6 and paragraph
19 in the second amended complaint. I have expressly limited the naming of new witnesses and any

additional discovery to the precise changes made in paragraph 6 and paragraph 19 of the second
amended complaint.
Respondent did not name any witnesses in a timely fashion per the deadlines set forth in the
original scheduling order. The original scheduling order also had a discovery deadline of August
30, 2016. Respondent has been advised that the limited changes made in the second amended

complaint do not open up a new window for her to name witnesses or to conduct discovery, except
to the extent of the precise changes and amended allegations made in the second amended complaint.
My prior order changing the hearing date did not deal with the revised deadline for making
and filing exhibits in a 3-ring binder. Per the original scheduling order, marked exhibits were due
August 30, 2016. The new deadline is now October 24, 2016, but is limited to exhibits directly

4

562a

·-

relevant to the changes made in the second amended complaint.

The new deadline does not

represent a general reopening of the August 30, 2016 deadline.
In relation to the four additional motions made by the respondent, all have been resolved by
previous orders. A second amended complaint was permitted and has been filed and answered. The
motion to require the filing and service of the second amended complaint is therefore moot.
Respondent was given the statutory time period to file a response to the second amended complaint
and she has done so. That motion is also moot.
I have revised the terms of the original scheduling order given the filing of the second
amended complaint.

As set forth above, the discovery deadline and the deadline for naming

witnesses have been modified because of the amendments. I have also ordered that the hearing in
this matter be postponed to the alternative hearing dates set forth in the original scheduling order.
Thus respondent's remaining motions are moot.

I T ISORDERED:
1.

Respondent's motion to dismiss for lack of subject matter and personal jurisdiction

is denied.
2.

Respondent's motion to require the filing and service of a second amended complaint

is moot and is denied.

3.

Respondent's motion to allow filing of a response to the second amended complaint

is moot given that the second amended complaint was filed and answered by the respondent.
4.

Respondent's motion for relief from the scheduling order is now moot given that

changes have already been made to the original scheduling order.

5

563a

5.

Respondent's motion for continuance of proceedings to the alternative hearing dates

set forth in the February 18,2016, scheduling order is now moot given such changes have already
been made to the original scheduling order. Said motion is therefore denied.

6

564a

APPENDIX P

565a

STATE OF WISCONSIN
IN THE SUPREME COURT
IN THE MATTER OF DISCIPLINARY
PROCEEDINGS AGAINST WENDY ALISON NORA,
ATTORNEY AT LAW;
OFFICE OF LAWYER REGULATION,

CASE NO. 2015AP2442-D
CASE CODE 30912

Complainant;
WENDY ALISON NORA,
Respondent.

COMPLAINANT'S POST-TRIAL BRIEF

NOW COMES

the Complainant, the Office of Lawyer Regulation ("OLR"), and

submits its post-trial brief in this matter.
TABLE OF CONTENTS

INTRODUCTION ............................................................................................................... 2
ARGUMENT
I.

......................................................................................................................

2

CLEAR, SATISFACTORY AND CONVINCING EVIDENCE
SUPPORTS THE COUNTS ARISING OUT OF THE SPENCER MATTER....... 2
A.

Facts Regarding Spencer Matter ("Spencer Facts"). .................................... 2

B.

Nora Violated SCR 20:3.l(a) By Removing The Spencer
Matter To Federal Court And By Moving To Reconsider
Judge Crabb's Decision Remanding The Matter. ....................................... 20

C.

Nora Violated SCR 20:3.2 By Filing A Frivolous Appeal
And By Engaging In An Ongoing Pattern Of Conduct To
Harass The Other Parties And Judicial Officers And Delay
The Spencer Proceedings............................................................................ 25

D.

Nora Violated The Attorney's Oath By Engaging In An
Ongoing Pattern Of Conduct To Harass The Other Parties
And Judicial Officers And Delay The Spencer Proceedings ...................... 28

566a

II.

III.

CLEAR, SATISFACTORY AND CONVINCING EVIDENCE
SUPPORTS THE COUNTS ARISING OUT OF THE RINALDI
MA1'TER. .............................................................................................................. 33
A.

Facts Regarding Rinaldi Matter ("Rinaldi Facts")...................................... 33

B.

Nora Violated SCR 20:3.1(a) By Filing the Motion To
Intervene And The Rule 60 Motions In The Rinaldi Matter. ..................... 41

C.

Nora Violated SCR 20:3.2 By Filing the Motion To
Intervene And The Rule 60 Motions In The Rinaldi Matter. ..................... 43

THE REFEREE SHOULD RECOMMEND A ONE YEAR
SUSPENSION OF NORA' S LICENSE TO PRACTICE LAW
AS APPROPRIATE DISCIPLINE FOR THE VIOLATIONS. ............................ 44
A.

Suspension Is The Presumptive Sanction. .................................................. 45

B.

Numerous Aggravating Factors Appear In This Record. ........................... 46

C.

In Light Of The Aggravating Factors, The Discipline
Recommended By OLR Accords With Precedent. ..................................... 49

CONCLUSION

.................................................................. ...............................................

50

INTRODUCTION

The Second Amended Complaint ("complaint") sets forth five counts for
discipline arising out of respondent Nora' s conduct in two matters, the "Spencer matter"
and the "Rinaldi matter." OLR first addresses the counts arising out of the Spencer matter
and then addresses the counts arising out of the Rinaldi matter.
ARGUMENT
I.

CLEAR, SATISFACTORY AND CONVINCING EVIDENCE SUPPORTS
THE COUNTS ARISING OUT OF THE SPENCER MATTER.
A.

Facts Regarding Spencer Matter ("Spencer Facts").

The record in relation to the Spencer Matter shows the following:
1.

The Spencer Matter was a mortgage foreclosure action commenced in the

Circuit Court for Wood County in April 2009. Exhibit ("Ex.") 1:1; Ex. 2:1; Ex. 53:2.

2

567a

2.

Nora' s involvement commenced in early May 2012 when she filed a notice

of appearance for defendant Sheila Spencer and a motion to postpone a hearing on a
summary judgment motion scheduled for May 23, 2012. Transcript ("Tr.") at 316:3319:19; Ex. 1:3-4 (CCAP1 Items 32, 36-38).
3.

Nora appeared in person at the May 23, 2012 hearing. Tim Brovold, an

attorney from Gray & Associates, S.C. ("Gray Firm"), counsel for the plaintiff, appeared
by telephone. Judge Gregory Potter, the presiding judge, granted Nora the postponement
she sought and directed Nora to file and serve a list of issues on or before June 29, 2012.
Ex. 8; Ex. 9:1, 15-16; Tr. at 319:21-325:12.
4.

Nora did not tile the list of issues by June 29, 2012 as directed by the court.

Instead, on June 27, 2012, she filed an "Affidavit of Nonreceipt of Motion for Proposed
Order and Final Order." Ex. 1:4 (CCAP Item 43); Ex. 13; Tr. at 325:13-326:6.
5.

Nora testified she filed the June 27, 2012 affidavit with a motion dated June

28, 2012, for an extension of time to file the list of issues (Tr. at 348:4-20), but the CCAP
record and court record index show these as separate filings. Ex. 1:4-5; Ex. 2:3.
6.

In her June 27, 2012 affidavit, Nora stated that she had reviewed the CCAP

record, that she was "shocked to find that an Order was entered in these proceedings on
June 12, 2012," and that she had not been served with a motion seeking entry of an order
after the May 23, 2009 hearing. Ex. 13:2, ,-r,-r 3, 4.

CCAP is an acronym for the State of Wisconsin "Consolidated Court Automation Programs."
Wisconsin coutis have taken judicial notice of CCAP records. See, e.g., Kirk v. Credit Acceptance
Corp., 2013 WI App 32, � 5 n. l , 346 Wis. 2d 635,829 N.W.2d 522.

3

568a

7.

In her June 27 affidavit, Nora stated that she "needed the order for the

deadline of June 28, 2012" (Ex. 13:2, � 9), referring to her obligation to file and serve the
list of issues by the June 29, 2012 deadline. Tr. at 337:4-17.
8.

Nora' s June 27 affidavit contains no satisfactory explanation how entry of

an order she said she had not seen affected her obligation to file the list of issues. Ex. 13.
9.

In her June 27 affidavit, Nora stated that the court' s clerk told her that the

Gray Firm had sent the order and a letter to Judge Potter. Ex. 13:2, �� 10-12.
10.

Nora made no effort to contact the Gray Firm to obtain a copy of what had

been sent to the court. Tr. at 338:17-340:2.
11.

In her June 27 affidavit, Nora described the Gray Firm's conduct regarding

the order as an "ex parte communication with the Court." Ex. 13:3, �� 13-16.
12.

In her June 27 affidavit, Nora stated that she was considering the possibility

of "moving to disqualify Judge Potter for ex parte communications with ORAY &
ASSOCIATES, L.L.P." Ex. 13:4, � 17.e.
13.

The June 28, 2012 motion filed by Nora states that Spencer seeks "the

Disqualification of Judge Gregory J. Potter for Repeatedly Engaging in or Facilitating Ex
Parte Communications and Entering Ex Parte Orders in These Proceedings." Ex. 14:1.
14.

In her June 28 motion, Nora refers to the Spencer proceeding as a "mockery

of justice" (!d., 14:2, � 1) and as "these misbegotten proceedings" (!d., 14:2, � 3).
15.

In her June 28 motion, Nora stated that on June 27, 2012, she received from

her client copies of a letter to the court dated May 25, 2012 and a signed order filed June
12, 2012 (!d., 14:3, � 8). Nora acknowledged that Exhibit 10 was a copy of the letter and
4

569a

Exhibit 12 was a copy of the order referred to in her June 28 motion and in her June 27
affidavit. Tr. at 360:3-363:1.
16.

The letter of transmittal dated May 25, 2012 and proposed order shows a

carbon copy to Nora. Ex. 10:1. Nora could not explain how Judge Potter would have
known that the Gray Firm had not sent her a copy of the letter and proposed order or that
she had not received a copy of the letter and proposed order. Tr. at 364:11-25.
17.

In her June 28 motion, Nora stated that "(t]his is not the first instance of ex

parte communications leading to orders being entered by Judge Gregory J. Potter. Ex.
14:4, � 22. Nora referred to three purported prior instances: a filing on March 31, 2010
(Ex. 14:4-5, � 23.a.); (2) a pair of letters dated February 17, 2011 (!d.,�� 23.c. and 23.d.);
and a motion to vacate a summary judgment dated June 17, 2011 (!d.,� 23.e.).
18.

In her June 28 motion, Nora referred to the "recent ex parte order" as

"another example of the improper practices in these proceedings." !d.,� 24.
19.

In her June 28 motion, Nora stated that "the secret proceedings held in this

matter constitute a miscarriage of justice and that those practices continued in the ex parte
order changing the substance of the Court's order entered on the record of the
proceedings on May 23, 2012." Ex. 14:6, � 26.
20.

In her June 28 motion, Nora stated that "(a] reasonable inference arises

from these facts that Judge Gregory J. Potter has colluded with GRAY & ASSOCIATES,
LLP to circumvent proper practice and procedure by engaging in and facilitating ex parte
communications by which orders have been entered by the court." !d.,� 31.
21.

Nora demanded that Judge Potter recuse himself based on SCR 60.04(4)(g),
5

570a

which generally proscribes ex parte communications, and SCR 60.04(e), which states that
"[a] judge shall perform judicial duties without bias or prejudice." Ex. 14:7-8, ,-r 37.
22.

Nora had no personal knowledge as to the alleged ex parte communications

prior to her appearance in the case. Her knowledge was limited to what was shown in the
court record and what others told her. Tr. at 31:11-17.
23.

As to the alleged March 31, 2010 ex parte communication, an affidavit of a

Gray Firm employee shows that on that date Spencer was served a copy of a Notice of
Motion and Motion filed with the court on AprilS, 2010. Ex. 15; Tr. at 418:17-419:9.
24.

As to the alleged February 17, 2011 ex parte communication, the court

record shows that the letter to the court cancelling a hearing was copied to Sheila
Spencer. Ex. 16; Tr. at 368:16-369:6.
25.

As to the alleged June 20, 2011 ex parte communication, the court record

shows that the letter to the court filing a petition and order to vacate the judgment was
copied to Sheila Spencer. Ex. 18; Tr. at 370:3-371:1.
26.

On June 23, 2012, Nora filed a "Notice of Continuing Objection to Further

Proceedings." The Notice seeks "Disqualification of Judge Gregory J. Potter for
Repeatedly Engaging in or Facilitating Ex Parte Communications and Entering Ex Parte
Order [sic.] in these Proceedings ...." Ex. 19:1; Tr. at 379:19-381:7.
27.

On June 25,2012, Nora filed an "Amended Notice of Continuing Objection

to Further Proceedings." Ex. 20; Tr. at 404:6-16. The only difference between the Notice
and the Amended Notice is that the name of Attorney Timothy Mark Brovold of the Gray
Firm appears in paragraph 4 of the Amended Notice. Tr. at 407:19-414:3.
6

571a

28.

In her "Continuing Objection," Nora alleged that the Gray Firm had made

"multiple fraudulent filings" in the case. Ex. 20:3, � 7; Tr. at 389:2-5.
29.

In her "Continuing Objection," Nora stated that the alleged non-service of

the proposed order entered on June 12, 2012 was part of "an actual pattern and practice
by Judge Potter and [the Gray Firm], acting in concert, to effectuate a fraudulent
foreclosure against Sheila M. Spencer and her home." Ex. 20:4, � 8; Tr. at 389:6-16.
30.

In her "Continuing Objection," Nora stated that the "ex parte order should

never have been considered for signing by Judge Potter and now the entire record of the
proceedings must be reviewed in the light of apparent collaboration between Judge Potter
and [the Gray Firm]." Ex. 20:6, � 11; Tr. at 390:3-14.
31.

In her "Continuing Objection," Nora stated the Gray Firm had engaged in

"conniving to procure the June 12, 2012 ex parte order of Judge Potter to reverse what it
perceived as a loss on the record of the May 23, 2012 proceedings." Ex. 20:6, � 12; Tr. at
390:20-391:1.
32.

In her "Continuing Objection," Nora stated that a complete review of the

record was required "in light of apparent collaboration between Judge Potter and the
lawyers from [the Gray Firm]." Ex. 20:6, � 13; Tr. at 391:2-7.
33.

In her "Continuing Objection," Nora stated that:
Whereas it was first thought that Judge Potter was confused and
was, as a result of pride, unable to admit to his confusion, it is now
clear that Judge Potter is not confused but is actually participating
in a manipulation of the proceedings to deny Sheila M. Spencer the
opportunity to be heard in defense of her rights to her home.

Ex. 20:6, � 14; Tr. at 391:8-17 (emphasis added).
7

572a

34.

In her "Continuing Objection," Nora stated that:
The manipulation of the Transcript to remove some of the most
damning evidence of bias . . . discloses a whole new issue: that
Judge Potter is complicit in the manipulation of the proceedings
and of the record.

Ex. 20:6, � 15; Tr. at 391:18-392:5 (emphasis added).
35.

In her "Continuing Objection," Nora stated that "the 'civil filings' clerk

was participating in the scheme to deprive this counsel of copies of documents which she
did not receive." Ex. 20:6, � 16; Tr. at 392:6-12.
36.

In her "Continuing Objection," Nora stated that Judge Potter had not

removed himself from the case "because he is now being shown to be actively assisting"
the Gary Firm. Ex. 20:7, � 18; Tr. at 393:6-394:17.
37.

In her "Continuing Objection," Nora referred to Judge Potter as being

"[c]omplicit in the long and convoluted proceedings whereby false documents and ex
parte proceedings are the modus operandi of Gray & Associates, LLP supported by Judge
Potter." Ex. 20:7, � 19; Tr. at 394:18-24.
38.

Although Nora testified that she did not accuse Judge Potter of "turning a

blind eye to crimes committed within the court process itself' (Tr. at 402:14-403:1), in
her Continuing Objection Nora stated that:
Civil courts cannot be subverted by allowing crimes to go
undetected by its officers, including Judge Potter and Sheila M.
Spencer's counsel, and Judge Potter and counsel for Sheila M.
Spencer cannot turn a blind eye to crimes to be committed within
the court process itself.

Ex. 20:8, � 25; Tr. at 402:14-403:1.
39.

In her "Continuing Objection," Nora stated that "Judge Potter has not seen
8

573a

fit to recuse himself yet from these proceedings even after being exposed for ex parte
communications and having presided over proceedings which bear no resemblance to
proper, neutral court proceedings." Ex. 20:9, � 32; Tr. at 403:2-10.
40.

In her "Continuing Objection," Nora stated that Judge Potter "has

continued to interfere with the just and proper administration of Wood County Circuit
Court." Ex. 20:9, � 34; Tr. at 403:11-16.
41.

In her "Continuing Objection," Nora stated that Judge Potter "has clearly

disqualified himself by his knowing complicity in the miscarriage of justice represented
by the proceedings in this case, through ex parte orders and manipulations of the
proceedings to do the bidding of [the Gray Firm]." Ex. 20:9, � 35; Tr. at 403:17-404:4.
42.

After hearing on August 8, 2012, Judge Potter denied Nora' s motion

seeking his disqualification in the Spencer case. Ex. 21; Ex. 309; Tr. at 414:9-416:18.
43.

On August 13, 2012, Nora filed the list of issues as directed by the court at

the May 23, 2012 hearing. Ex. 7A; Tr. at 417:7-14.
44.

In the list of issues, Nora repeats her allegations about ex parte

communications between the Gray Firm and Judge Potter made in her June 27 "Affidavit
of Non-Receipt," in the June 28 motion seeking recusal of Judge Potter, and in the
original and amended "Continuing Objection," she had filed in the Spencer matter. Ex.
7A:6-10, � 29; Exs. 13, 14, 19, 20; Tr. at 418:3-420:13.
45.

On October 3, 2012, Attorney James Carrig first appeared for the plaintiff

in the Spencer matter. Ex. 1:7 (Item 71); Tr. at 11:11-16.
46.

On October 29, 2012, Carrig filed a notice of appearance for the plaintiff in
9

574a

the Spencer matter. Ex. 1:7 (Item 72); Tr. at 11:18-12:2.
47.

In response, Nora filed a motion to strike Carrig's notice of appearance. Ex.

1:7 (Item 74); Tr. at 12:3-24.
48.

On December 5, 2012, the court conducted a hearing relative to Nora's

objection to Carrig's appearance and to whether PNC Bank was a proper party to the
Spencer case. Ex. 1:8 (Item 80); Tr. at 15:12-17:10.
49.

On December 13, 2012, Carrig filed a motion to ratify the action or to

substitute PNC Bank as the party plaintiff. Ex. 1:8 (Items 81-83); Tr. at 17:12-18:14.
50.

On December 21, 2012, Nora filed a response to Carrig's motion to ratify

or substitute PNC Bank as the plaintiff. Ex. 1:9 (Items 88, 89); Tr. at 17:12-18:14.
51.

After hearing on December 21, 2012, Judge Potter granted the motion

Carrig filed for PNC Bank and set a hearing date of March 18, 2013 for the pending
motion for summary judgment. Ex. 1:8 (Item 86); Tr. at 20:4-21:20.
52.

On January 10, 2013, Nora filed a notice of removal of the Spencer case to

the United States District Court for the Western District of Wisconsin. Ex. 23; Tr. at
22:1-13.
53.

Prior to removing the case to federal court, Nora did not file anything with

the state court with respect to an entity referred to as "Freddie Mac." Tr. at 26:4-7.
54.

Nora's notice of removal asserted that the Spencer case was removable

under 28 USC sees. 1331, 1332, 1334 and 1349. Ex. 23:2.
55.

On February 8, 2013, Carrig filed a motion on behalf of PNC Bank to

remand the Spencer case to state court. Ex. 3:2; Ex. 24; Tr. at 26:20-28:20.
10

575a

56.

On March 4, 2013, Nora filed a brief opposing PNC Bank' s motion to

remand the Spencer case. Ex. 3:3; Ex. 25; Tr. at 28:21-29:23.
57.

On March 25, 2013, United States District Court Judge Barbara Crabb

issued an Opinion and Order granting PNC Bank's motion to remand and granting PNC
Bank attorney fees and costs. Ex. 26; Tr. at 29:24-30:9.
58.

On April 5, 2013, Carrig filed an itemized request for fees and costs for

PNC Bank. Ex. 27; Tr. at 30:10-31:3.
59.

On April 8, 2013, Nora filed a motion for reconsideration of Judge Crabb's

March 25,2013 Opinion and Order. Ex. 28; Tr. at 31:3-14.
60.

Although she testified she did not file a motion for reconsideration of the

remand order and only sought reconsideration of the award of attorney fees (Tr. at
689: 13-690:8), forty-one of the forty-three numbered paragraphs of Nora' s motion for
reconsideration are devoted to asserting that Judge Crabb erred in remanding the Spencer
case to state court. Ex. 28; Ex. 39:3.
61.

The motion for reconsideration "requests that the court reconsider the Order

remanding this case to state court entered on March 25, 2013 for its clear errors of law in
failing to acknowledge and exercise its original jurisdiction . ... " Ex. 28:8.
62.

The motion for reconsideration was not limited to addressing the award of

attorney fees and costs to PNC Bank. Ex. 28.
63.

On April 15, 2013, Carrig filed a brief for PNC Bank opposing Nora' s

motion for reconsideration. Ex. 3:3 (Entry 19); Tr. at 32:6-17.
64.

On April 15, 2013, Nora filed an Objection to Award of Attorneys' Fees
11

576a

and Reply on Motion for Reconsideration. Ex. 20; Tr. at 31:15-25.
65.

In her reply, Nora sought reconsideration of the decision to remand and

asserted that "the remand is appealable as decided on grounds other than those set forth in
28 USC sec. 1447(c)." Ex. 29:6 (para. 18).
66.

On May 23, 2013, Judge Crabb issued an Opinion and Order denying the

motion for reconsideration, characterizing the motion for reconsideration as "frivolous,"
and awarding PNC Bank costs and fees incurred in opposing the motion. Ex. 30:1, 7.
67.

In the May 23, 2013 Opinion and Order, Judge Crabb held that the court

lacked jurisdiction to reconsider the remand order. Ex. 30:2.
68.

In the May 23, 2013 Opinion and Order, Judge Crabb held that because

Spencer "did not have an objectively reasonable argument supporting federal jurisdiction,
it is appropriate to award plaintiff fees incurred in its motion to remand." Ex. 30:6.
69.

On June 7, 2013, Nora filed a second motion for reconsideration of the

award of attorney fees. Ex. 31; Tr. at 33:7-18.
70.

In the second motion for reconsideration, Nora stated:
This Court determined that Ms. Spencer did not have the right to
seek reconsideration of the Court's Order remanding the case to
the state foreclosure court entered on March 25, 2013 because the
Court remanded the case under 28 USC sec. 1447(c) and is not
appealable under 28 USC sec. 1447(d). The Court is wrong. On
reconsideration it clearly elucidated that a part of its remand is
based on abstention, as it had implied in the remand order.

Ex. 31:1 (emphasis added).
71.

The second motion for reconsideration rehashes the same arguments Nora

had asserted in her notice of removal. Exs. 23, 31.
12

577a

72.

On July 2, 2013, Judge Crabb issued an Opinion and Order denying the

second motion for reconsideration and awarding PNC Bank costs and fees incurred in
opposing the motion. Ex. 32; Tr. at 33:19-34:5.
73.

On July 10, 2013, the United States District Court for the Western District

of Wisconsin entered a judgment awarding $875 to PNC Bank for costs and fees incurred
in opposing the first motion for reconsideration. Ex. 33; Tr. at 34:6-20.
74.

On July 10, 2013, Nora filed a notice of appeal from the opinions and

orders entered by Judge Crabb on March 25, May 23 and July 2, 2013. Ex. 34; Tr. at
34:21-35:1.
75.

In the notice of appeal, Nora identified herself as a defendant-appellant

"individually and in her capacity as counsel for Sheila M. Spencer." Ex. 34.
76.

Nora filed nothing with the court seeking to be made a party to the case

prior to filing the notice of appeal. Tr. at 35 :2-9; Ex. 3.
77.

Nora knew that remand orders were not appealable under Title 28 of the

United States Code. Tr. at 693:20-25.
78.

On July 30, 2013, the United States District Court for the Western District

of Wisconsin entered an amended judgment awarding $4,928.47 to PNC Bank for costs
and fees incurred in opposing the removal. Ex. 35; Tr. at 35:12-36:1.
79.

On July 31, 2013, Nora filed an amended notice of appeal from the

opinions and orders entered by Judge Crabb on March 25, May 23 and July 2, 2013 and
the judgment and the amended judgment entered by the Western District on July 10 and
July 30,2013, respectively. Ex. 36; Tr. at 36:2-13.
13

578a

80.

In the amended notice of appeal, Nora identified herself as a defendant-

appellant "individually and in her capacity as counsel for Sheila M. Spencer." Ex. 36.
81.

Nora filed nothing with the court seeking to be made a party to the case

prior to filing the amended notice of appeal. Tr. at 36:11-13.
82.

On July 31, 2013, the United States Court of Appeals for the Seventh

Circuit issued an order directing Nora and Spencer to file a memorandum stating why the
appeal should not be dismissed for lack of jurisdiction. Ex. 4:3 (Entry 2).
83.

On August 14, 2013, Nora filed a Jurisdictional Memorandum with the

Seventh Circuit asserting that she had "the right and indeed the obligation to appear in
her individual name and capacity as an aggrieved party." Ex. 37:2.
84.

In her Jurisdictional Memorandum, Nora stated that "Judge Crabb has

engaged in a campaign of libel against Attorney Nora which will be addressed to the
appropriate fora." Ex. 37:3.
85.

In her Jurisdictional Memorandum, Nora stated she was the real party in

interest on the appeal because she was the "target" of the sanctions and she was "ethically
required" to indemnify Spencer for the award of attorney fees and costs. Ex. 37:5.
86.

On August 23 and September 10, 2013, Carrig filed memoranda for PNC

Bank addressing jurisdiction as required by the Seventh Circuit. Ex. 4:3 (Entries 5-8); Tr.
at 40:15-41:3.
87.

Briefing on the Spencer appeal was delayed from October 23, 2013 to

March 10, 2014, by reason of Nora filing a bankruptcy proceeding for Spencer. Ex. 43-4
(Entries 14-23); Tr. at 439:11-16.
14

579a

88.

After briefing and oral argument, on August 13, 2014, the Seventh Circuit

issued its decision in the Spencer appeal. Ex. 4:4-5 (Entries 24-55); Ex. 39.
89.

The Seventh Circuit dismissed Nora's appeal because she lacked standing

to appeal, affirmed the district court's award of costs and attorney fees against Spencer
because "there was no objectively reasonable basis for federal jurisdiction or removal,"
concluded the appeal was "frivolous," and ordered Nora to show cause "why she should
not be sanctioned for pursuing this frivolous appeal." Ex. 39:3-4.
90.

On August 15, 2014, Nora filed an initial response to the Seventh Circuit's

order to show cause and asserted that "there are numerous factual findings which are not
supported by any evidence in the record, for which judicial notice was not properly taken
and which are offered to be proved to be clearly erroneous." Ex. 40:2; Tr. at 45:1-18.
91.

Nora's "Initial Response" rehashes the same arguments she had advanced

in the notice of removal, in the briefs she had filed with the district court, and in the
jurisdictional memorandum. Exs. 23, 25, 28, 31, 37, 40.
92.

In her "Initial Response," Nora asserted that Judge Crabb had removed the

seal from her medical records in a matter arising out of her personal bankruptcy case (In
Re

Nora, No. 10-3131) and that "it was nonetheless libelous for Judge Crabb to do so."

Ex. 40:6, 11; Tr. at 451:23-452:12.
93.

Nora acknowledged that Exhibit 55 was a copy of the decision where Judge

Crabb had removed the seal from her medical records. Tr. at 455:3-6.
94.

Nora asserted that Judge Crabb was in contempt of an order of the Seventh

Circuit when she removed the seal from the medical records. Ex. 54:1; Tr. at 456:7-16.
15

580a

95.

The basis for Judge Crabb removing the seal from Nora' s medical records

was that Nora did not file the documents under seal under a prior protective order and
that Nora did not move to have the documents sealed until she brought a motion for
contempt against opposing counsel in her bankruptcy case. Ex. 55:4.
96.

On August 20, 2014, the Seventh Circuit issued an order directing that Nora

tlle "one proper response" (Ex. 41:1) to the order to show cause addressing four issues, as
follows:
1) Whether her removal of this case to federal court, the first
motion to reconsider the removal, and the appeal of the order
awarding fees and costs were frivolous;
2) Whether her appeal of the district court's award on her own
behalf was frivolous, where she was not a party and the district
court did not order her to pay anything;
3 ) Whether the removal of this case to federal court and this
appeal were litigated for improper purposes, in particular, to
unnecessarily delay the proceedings and to increase the cost of
this litigation to her opponents; and
4) Whether the accusations she has leveled against her opponents
and the courts during this case, including the comments
described in this court's opinion, were appropriate advocacy.

Ex. 41:2 (citations omitted); Tr. at 41:20-42:12.
97.

On September 2, 2014, Nora filed a petition for rehearing en bane before

the Seventh Circuit rehashing all of the same arguments previously made in her filings in
the Spencer case. Exs. 23, 25, 28, 31, 37, 40, 42; Tr. at 46:13-58:18.
98.

On September 16, 2014, the Seventh Circuit denied the petition for

rehearing en bane. Ex. 43; Tr. at 58:19-59:8.
99.

On September 19, 2014, Nora filed a motion to stay proceedings before the

Seventh Circuit in order to provide her an opportunity to file a petition for a writ of

16

581a

certiorari with the United States Supreme Court. Ex. 44; Tr. at 59:9-23.
100.

Nora never filed a petition for a writ of certiorari. Tr. at 464:21-466:25.

101.

On September 19, 2014, Nora filed what was captioned a "Partial Response

to Order to Show Cause" issued by the Seventh Circuit. Ex. 45; Tr. at 475:17-476:7.
102.

In her "Partial Response," Nora denied that she had accused the state court

judge and court reporter in the Spencer case of "fraudulently manipulating transcripts."
Ex. 45:7; Tr. at 483:5-17.
103.

In her "Partial Response," Nora stated that "it is the courts themselves

which are causing the undersigned's clients and millions of others to despair and lose
faith in the courts." Ex. 45:11; Tr. at 486:15-21.
104.

In her "Partial Response," Nora stated:
By treating the undersigned as an enemy of the courts . . . courts in
this circuit are violating the first paragraph of the Preamble of the
Standards of Conduct Within the Seventh Circuit by attempting to
punish the vigorous defense of homeowners.

Ex. 45:11; Tr. at 486:22-487:8.
105.

In her "Partial Response," Nora refused to withdraw her accusation that

opposing counsel had engaged in civil fraud and racketeering. Ex. 45:12; Tr. at 490:3-20.
106.

In her "Partial Response," Nora stated, "The bias of this panel and many of

the judges in this circuit against homeowners' rights to be heard and defend their homes
is apparent in every disputed sentence of the 'findings' in the panel's decision." Ex.
45:13; Tr. at 491:1-8.
107.

In her "Partial Response," Nora characterized a number of statements in the

17

582a

court's opinion on the Spencer appeal as "false." Ex. 45:13-14; Tr. at 491:9-493:4.
108.

In her "Partial Response," Nora characterized as "false" the statement in the

court's opinion that she had accused the Judge Potter, PNC's lawyers, and the court clerk
of colluding to conceal the contents of a court order and that she had demanded that
Judge Potter recuse himself. Ex. 45:15; Tr. at 495:4-24.
109.

In her "Partial Response," Nora characterized as "false" the statement in the

court's opinion that she had accused the court reporter of intentionally manipulating a
hearing transcript at Judge Potter's direction. Ex. 45:15; Tr. at 498:10-499:10.
110.

In her "Partial Response," Nora characterized as "false" the statement in the

court's opinion that she had moved to strike an opposing attorney's appearance because
the case caption improperly identified PNC as a party. Ex. 45:16; Tr. at 499:24-501:13.
111.

In her "Partial Response," Nora characterized as "false" the statement in the

court's opinion that in December 2012 the state court scheduled a summary judgment
hearing for next March. Ex. 45:16.
112.

In her "Partial Response," Nora repeated her assertion that Judge Crabb

was "engaging in a campaign of libel" against her. Ex. 45:7.
113.

On October 2, 2014, the Seventh Circuit entered an order awarding PNC

Bank $25,295.00 for attorney fees and $349.67 for costs. Ex. 46; Tr. at 503:14-504:24.
114.

On October 3, 2014, Nora filed a letter of supplementary authority relative

to the order to show cause. Ex. 47; Tr. at 504:25-505:8.
115.

On October 17, 2014, Nora filed a motion to continue the show cause

hearing for medical reasons. Ex. 48; Tr. at 505:9-24.
18

583a

116.

On October 21, 2014, the Seventh Circuit entered an order denying Nora' s

motion for a continuance but allowing her to appear by speakerphone. Ex. 49; Tr. at
505:25-506:14. On October 28 2014,Nora appeared in person for the hearing. Ex. 50:3.
117.

On February 11, 2015, the Seventh Circuit sanctioned Nora the sum of

$2,500 for frivolous and needlessly antagonistic filings. Ex. 50:4; Tr. at 506:15-23.
118.

The Seventh Circuit' s opinion states that contrary to its direction that Nora

limit herself to "one proper response to the show-cause order ... Nora did not limit
herself to one proper response." Ex. 50:2.
119.

The Seventh Circuit' s opinion describes Nora's petition for rehearing en

bane as "rehashing her frivolous appellate arguments." !d.
120.

The Seventh Circuit' s opinion states that "[i]n responding to our earlier

opinion, Nora has dug in her heels and continues to press the same arguments that were
thoroughly rejected in the district court and our earlier opinion." Ex. 50:3.
121.

In addressing its concerns about Nora engaging in "conduct unbecoming a

member of the court' s bar," the Seventh Circuit stated that:
Nora has repeatedly acted with needless antagonism toward
opposing counsel and judicial officers. In her responses to our
order to show cause, she has refused to back down from her
accusations of libel against Judge Crabb and "actionable civil fraud
and racketeering" against opposing counsel. She denies accusing
the state court judge of altering transcripts, but the record belies
her denial: she not only made the accusations but moved for
substitution of the judge on that basis. She also now derides "this
panel and many of the judges in this circuit" as being biased
"against homeowners' rights to be heard and defend their homes."
This bandying about of serious accusations without basis in law or
fact is unacceptable and warrants sanctions.

Ex. 50:3 (emphasis added).
19

584a

122.

On March 10, 2014, prior to filing her responses to the order to show cause,

Nora had filed an amended second motion to disqualify Judge Potter and argued the
motion on March 19,2014. Ex. 1:16-17 (Items 163-72); Tr. at 123:25-125:25.
123.

At the March 19, 2014 hearing, Judge Potter denied the second motion to

disqualify and granted PNC' s motion for summary judgment. Ex. 1 (Item 172); Ex. 51;
Tr. at 64:13-65:5.
124.

On August 20, 2014, the Wood County Circuit Court entered a written

order granting judgment of foreclosure and sale to PNC Bank in the Spencer matter,
denying the second motion to disqualify Judge Potter, and dismissing Spencer's
counterclaim. Ex. 1 (Item 186); Ex. 51; Tr. at 64:13-65:5.
125.

A sheriffs sale was conducted in the Spencer matter and the sale was

confirmed by the Wood County Circuit Court. Tr. at 65:17-21.
126.

Nora filed appeals for Spencer from the judgment of foreclosure and sale

and from the confirmation of sale. Tr. at 65:14-24.
127.

By opinions issued May 16, 2016, the Wisconsin Court of Appeals

affirmed the judgment of foreclosure and sale and the confirmation of sale entered by the
Wood County Circuit Court. Exs. 52, 53; Tr. at 65:25-66:17.
128.

None of the attorney fees and costs awarded by the Seventh Circuit and by

Judge Crabb in the Spencer matter have been paid. Tr. at 60:17-81:2.
B.

Nora Violated SCR 20:3.1(a) By Removing The Spencer Matter To
Federal Court And By Moving To Reconsider Judge Crabb's Decision
Remanding The Matter.

1.

Count One Allegations.
20

585a

Paragraph 61 of the Complaint alleges that:
By removing a state court foreclosure matter to the federal court
after four years of litigation when there was no colorable basis for
federal jurisdiction, and, by filing a frivolous motion to reconsider
the order remanding the matter back to the state court, Nora
violated SCR 20:3.1(a).

R. 110:15.2
2.

Applicable Law.

SCR 20:3.1(a) provides that:
In representing a client, a lawyer shall not:
(1) knowingly advance a claim or defense that is
unwarranted under existing law, except that the lawyer may
advance such claim or defense if it can be supported by good faith
argument for an extension, modification or reversal of existing
law;
(2) knowingly advance a factual position unless there is a
basis for doing so that is not frivolous; or
(3) file a suit, assert a position, conduct a defense, delay a
trial or take other action on behalf of the client when the lawyer
knows or when it is obvious that such an action would serve
merely to harass or maliciously injure another.

OLR bears the burden of demonstrating by clear, satisfactory and convincing evidence
that the respondent has engaged in misconduct. SCR 22.16(5).
The findings and conclusions of Judge Crabb and the Seventh Circuit that Nora
engaged in frivolous litigation may not be collaterally attacked in this disciplinary case.
Disciplinary Proceedings Against Widule, 2003 WI 34, � 26, 261 Wis. 2d 45, 660

OLR filed the Second Amended Complaint on August 18,2016, in accordance with the Referee's
Order dated August 17, 2016. The Second Amended Complaint is designated item 110 in the
court's record index for this matter. The Order is designated item 116 in the record index.

21

586a

N.W.2d 686. Alleged violations of SCR 20:3.l(a)(l) and (2) are determined under a
subjective standard. Disciplinary Proceedings Against Osicka, 2009 WI 38, , 42, 317
Wis. 2d 135, 765 N.W.2d 775. As to these subsections, OLR must show that Nora knew
the claim or factual position she was advancing was unwarranted. !d. , � 43. On the other
hand, violations of SCR 20:3.1(a)(3) "are subject to an objective standard." Disciplinary
Proceedings Against Bach, 2016 WI 95, � 27, 372 Wis. 2d 187, 887 N.W.2d 335.
3.

Analysis.

Clear and convincing evidence supports Count One, whether Nora's conduct is
analyzed under subsections (1)(2) or (3) of SCR 20.3.1 (a). In awarding costs and fees to
PNC on the motion for remand, Judge Crabb and the Seventh Circuit concluded that there
was no "objectively reasonable basis" under 28 U.S.C. § 1447(c) for removal. See
Spencer Facts' ("SF"), �� 68, 89. That conclusion alone comes very close to establishing
that Nora violated SCR 20:3.1(a)(3) by filing the notice of removal. See, e.g., Faust

v.

Menard, Inc., 2012 WL 4815415 at 2 (N.D.Ind. 2012)4 ("It is hard to see how the
standard under § 1447(c), requiring the basis for removal to be objectively reasonable,
differs from the Rule 11 standard requiring the position taken to be warranted by existing
law or a good-faith argument to change existing law."). But the courts did not stop there.
Judge Crabb concluded Nora's motion for reconsideration was "frivolous" (SF,, 66), and
the Seventh Circuit agreed and also concluded that Nora's appeal from Judge Crabb's
orders was "frivolous" (SF, � 89).

"Spencer Facts" refers to the numbered paragraphs within Part LA. of this brief above.
4

A copy of the Faust decision is attached as Appendix

22

1

to this brief.

587a

Under SCR 20:3.1(a)(3), it was obvious that Nora' s conduct would serve merely
to harass or maliciously injure PNC. Every one of Nora' s frivolous filings necessitated a
response by the plaintiff bank, causing it to incur significant costs and fees. While both
Judge Crabb and the Seventh Circuit awarded costs and fees to the bank, the costs and
fees were never paid. SF, ,-;,-; 25, 66, 72, 73, 78, 89, 113, 126. Nora' s meritless, harassing
litigation tactics were a continuing theme from the moment she appeared for Spencer in
the Wood County Circuit Court, including: her accusations that Judge Potter colluded,
collaborated, participated or acted in concert with the Gray Firm to manipulate the
proceeding to effectuate a fraudulent foreclosure (SF, ,-;,-; 20, 29, 30, 33); her demands
that Judge Potter recuse based on groundless accusations of ex parte communications and
collusion with the Gray Firm (SF, ,-;,-; 12-14, 17-18, 21-26, 39, 41, 121); and her objection
to Attorney Carrig' s mere filing of a notice of appearance (SF,,-; 47).
If the subjective standard mandated by SCR 20:3.1(a)(l) or (2) applies, the clear
and convincing evidence standard is still met. "Intent is a fact that 'must be inferred from
the acts and statements of the person, in view of the surrounding circumstances'."
Welytok v. Ziolkowski, 2008 WI App 67, ,-; 26, 312 Wis. 2d 435, 752 N.W.2d 359,
quoting Pfeifer v. World Serv. Life Ins. Co., 121 Wis. 2d 567, 569, 360 N. W.2d 65
(Ct.App. 1984). See also SCR 20:l.O(g) ("A person' s knowledge may be inferred from
circumstances.") Nora' s intent should be determined on the basis of her actions, including
her written statements in the action, viewed in light of her substantial experience.
At the time she filed the removal, Nora had been licensed to practice law for close
to 40 years. Tr. at 309:8-10; Exs. 77, 78, 79. She had experience in foreclosure defense
23

588a

since the 1980s. Her filings in both the Spencer and Rinaldi matters display an arrogant
belief in her superior knowledge of the law - she asserts the judges got it wrong at every
turn. Tr. at 494:25-495:4, 540:14-21. Nora was not a "new and very inexperienced lawyer
with overzealous goals, who plunged herself, unprepared, into filing federal court actions
and subsequent appeals." Bach, 2016 WI 95, � 29. Nora was very experienced, well
prepared, and knew exactly what she was doing.
Given that the grounds she advanced for removal were abjectly meritless, it is
impossible to believe that Nora subjectively believed in good faith that the case was
removable. Moreover, removal was not consistent with what Nora claimed was Spencer's
purported concern, which she described as follows:
I talked it over with Ms. Spencer, who was a law student, and a
very devout Christian, believes right and wrong and, you know,
wants to do the right thing. She and I were both concerned that it
appeared to us that someone was trying to, for lack of a better term
and to be colloquial, make off with Freddie Mac's collateral.

Tr. at 638:6-12. Nora claimed all Spencer ever wanted to do was "make her mortgage
payments." Tr. at 648:17-24. Nora also claimed that her purpose in the removal was to
call the attention of the federal court as "the venue which would be most able to protect
the United States taxpayers." Tr. at 689:20-21.
Those purposes could have been accomplished without removal to federal court. If
there actually was a concern that someone was "trying ... to make off with Freddie Mac's
collateral," Nora could have reported this supposed concern to Freddie Mac or the United
States Attorney's Office. She did neither. Tr. at 801:15-802:20. Nora could have sought
to substitute Freddie Mac as the plaintiff if she believed that it was the real party in
24

589a

interest. See Wis. Stat. § 803.01. Nora did not. SF,� 53. And if all Spencer wanted to do
was make her mortgage payments, Nora would not have filed counterclaims accusing
PNC of "felony racketeering." Ex. 40:10, � 18, Tr. at 449:15-450:6.
As for the motion for reconsideration, Nora knew the motion was meritless. Nora
admits she knew the remand order could not be reviewed, whether on reconsideration or
appeal. SF,�� 60, 65, 77. Her assertion at trial that she was only seeking to challenge the
award of fees and costs to PNC Bank is belied by the content of the motion itself; fortyone of its forty-three paragraphs consist of heated rhetoric asserting that Judge Crabb
erred in remanding the matter- reasserting the same arguments Judge Crabb had already
rejected. SF, �� 60, 65, 89; See Exs. 23, 28. Judge Crabb plainly did not read the motion
as merely seeking reconsideration of the fee award. Accordingly, Judge Crabb denied the
motion for reconsideration, and concluded the motion was frivolous. SF, � 66.
Clear and convincing evidence establishes that Nora violated SCR 20:3.1(a) by her
conduct in removing the Spencer matter to federal court and by filing the frivolous
motion for reconsideration of Judge Crabb's remand order.
C.

Nora Violated SCR 20:3.2 By Filing A Frivolous Appeal And By
Engaging In An Ongoing Pattern Of Conduct To Harass The Other
Parties And Judicial Officers And Delay The Spencer Proceedings.

1.

Count Two Allegations.

Paragraph 62 of the Complaint alleges that:
By filing a frivolous appeal on behalf of her client and herself
when she was not a party to the litigation, and, by engaging in an
ongoing pattern of conduct to harass the other parties and judicial
officers and delay the proceedings, Nora violated SCR 20:3.2.

25

590a

R. 110:15.
2.

Applicable Law.

SCR 20:3.2 provides that "[a] lawyer shall make reasonable efforts to expedite
litigation consistent with the interests of the client." The American Bar Association
comment to the rule states that:
Dilatory practices bring the administration of justice into
disrepute. Although there will be occasions when a lawyer may
properly seek a postponement for personal reasons, it is not proper
for a lawyer to routinely fail to expedite litigation solely for the
convenience of the advocates. Nor will a failure to expedite be
reasonable if done for the purpose of frustrating an opposing
party's attempt to obtain rightful redress or repose. It is not a
justification that similar conduct is often tolerated by the bench and
bar. The question is whether a competent lawyer acting in good
faith would regard the course of action as having some substantial
purpose other than delay. Realizing financial or other benefit from
otherwise improper delay in litigation is not a legitimate interest of
the client.

The court has relied on this comment in construing SCR 20:3.2. Disciplinary
Proceedings Against Arthur, 2005 WI 40, � 60, 279 Wis. 2d 583, 694 N.W.2d 910.
3.

Analysis.

Nora' s pattern of filing motions for no discernable purpose other than delay and
harassment in the Spencer matter began from the moment she got involved in the case in
early May 2012. Her first, on the surface seemingly innocent, effort was to derail the
scheduled summary judgment hearing by persuading Judge Potter to give her an
opportunity to file a list of issues by June 29, 2012. SF, �� 2-3.
But rather than comply with the scheduling order, Nora instead filed the Notice of
Non-Receipt and supporting affidavit, and the Notice and Amended Notice of Continuing

26

591a

Objection, making preposterous and groundless allegations of misconduct against Judge
Potter in an effort to force his recusal from the case, causing further delay.5 SF,�� 4-41.
Nora's list of issues tiled on August 14, 2012, set forth a number of groundless
defenses, including a repetition of the groundless allegations against Judge Potter. Again,
this necessitated a response by the plaintiff and delay in the progress of the case.
Nora's "object-to-everything litigation strategy and ... blizzard of motions" (Ex.
39:2) was next illustrated by her objection to the notice of appearance filed by Attorney
Carrig. SF, �� 45-47. Nora also characterized the Seventh Circuit's statement about her
motion to strike as "false. " Ex. 39:2; SF,� 110.
Nora filed the notice of removal after the court granted the relief sought by PNC
Bank (to amend the caption to name PNC as the plaintiff), denied her motion to strike
Carrig's appearance, and re-scheduled the summary judgment hearing for March 18,
2013. SF, � 51. The removal tactic, combined with another series of delaying tactics upon
remand back to state court, resulted in a one-year delay before the court eventually heard
and granted PNC's summary judgment motion on March 19, 2014. SF,� 122.
As for the appeal from Judge Crabb's remand order, the Seventh Circuit found the
appeal frivolous and sanctioned Nora for the frivolous appeal. SF,�� 89, 116. The appeal
was frivolous in two respects. One, Nora unilaterally inserted her name as a party in the
caption of the case without obtaining leave of court, and the Seventh Circuit concluded
that Nora had no standing to appeal. Two, as the court observed, Nora "never presented

Exhibit 309, the transcript of the August 8, 2012 hearing on Nora's demands for Judge Potter's
recusal, an exhibit Nora offered into the record, only underscores that Nora's allegations of
misconduct and bias against Judge Potter were utterly without foundation in fact.

27

592a

any colorable basis for federal jurisdiction over this years-old state-court foreclosure
case," leading the court to suspect that "the removal was part of a strategy designed to
gum up the progress of the case." Ex. 39:3.
Nora's pattern of conduct leaves little room for doubt. Nora violated SCR 20:3.2
by a pattern of conduct, her blizzard of groundless, harassing motions in the state court
case, capped by her frivolous removal of the case to federal court and the frivolous appeal
of Judge Crabb's decision remanding the case to state court.
D.

Nora Violated The Attorney's Oath By Engaging In An Ongoing
Pattern Of Conduct To Harass The Other Parties And Judicial
Officers And Delay The Spencer Proceedings

1.

Count Three Allegations.

Paragraph 63 of the Complaint alleges that:
By engaging in an ongoing pattern of conduct to harass the other
parties and judicial officers and delay the proceedings, Nora
violated SCR 40.15 enforceable via SCR 20:8.4(g).

R. 110:15.
2.

Applicable Law.

SCR 40.15 provides in relevant part that:
I will maintain the respect due to courts of justice and judicial
officers; I will not counsel or maintain any suit or proceeding
which shall appear to me to be unjust, or any defense, except such
as I believe to be honestly debatable under the law of the land; . . . I
will abstain from all offensive personality and advance no fact
prejudicial to the honor or reputation of a party or witness, unless
required by the justice of the cause with which I am charged...

In turn, SCR 20:8.4(g) provides that "[i]t is professional misconduct for a lawyer to
violate the attorney's oath."

28

593a

"[A] lawyer may violate the Attorney's Oath by conduct that occurs out of court as
well as by in-court conduct." Disciplinary Proceedings Against Sommers ("Sommers
II"), 2014 WI 103, ,-r 27, 358 Wis. 2d 248, 851 N.W.2d 458.6 In Sommers II, 358 Wis. 2d
248, 851 N.W.2d 458, the court held that an attorney's "sweeping assertion that 'judges
are permitted to get away with falsifying the record' reflect[ed] outspoken contempt for
the entire court system" violative of "that portion of the Attorney's Oath requiring an
attorney licensed by this court to maintain the respect due to courts and judicial officers."
2014 WI 103, ,-r 29. In a prior related case, the court held that the Attorney Sommers'
"outburst" directed against the judge in a criminal case "greatly demeaned the dignity of
the court and fell far short of his ethical obligation to maintain the respect due to courts
and judicial officers" and thereby violated the Attorney's Oath. Disciplinary Proceedings
Against Sommers (Sommers I"), 2012 WI 33, ,-r 66, 339 Wis. 2d 580, 811 N.W.2d 387.
3.

Analysis.

The evidence supporting Count Three is not merely clear and convincing, it is
overwhelming. Throughout the Spencer matter,Nora displayed in a continuous pattern of
disrespect to both the state court and the federal courts.
Nora twice sought to disqualify Judge Potter on the basis of groundless claims of
misconduct and bias, by the following conduct described in the Spencer Facts above:
•

6

Nora stated Judge Potter had repeatedly engaged in or facilitated ex parte
communications and entered ex parte orders. SF, ,-r,-r 13, 27.

In Disciplinary Proceedings Against Beaver, 181 Wis. 2d 12, 23, 510 N.W.2d 129 (1994), the
COLili listed a number of cases where it determined that an attorney's conduct constituted

"offensive personality" in violation of the Attorney's Oath.

29

594a

•

•

•

•

•

•

•

•

•

•

•

Nora stated there was a "reasonable inference" that Judge Potter had colluded with
the Gray Firm "to circumvent proper practice and procedure by engaging in and
facilitating ex parte communications." SF,� 20.
Nora stated there was an "actual pattern and practice by Judge Potter and [the
Gary Firm] acting in concert, to effectuate a fraudulent foreclosure against Sheila
M. Spencer and her home." SF,� 29.
Nora stated the entire record should be reviewed in "light of apparent
collaboration between Judge Potter and [the Gray Firm]." SF,�� 30, 32.
Nora stated "it is now clear that Judge Potter is not confused but is actually
participating in a manipulation of the proceedings to deny Sheila M. Spencer the
opportunity to be heard in defense of her rights to her home." SF,� 33.
Nora stated Judge Potter was "complicit in the manipulation of the proceedings
and of the record. " SF,� 34.
Nora stated Judge Potter was "presiding over these bizarre and convoluted
proceedings" and that Judge Potter was "now being shown to be actively
assisting" the Gary Firm. SF,� 36.
Nora stated Judge Potter was "[c]omplicit in the long and convoluted proceedings
whereby false documents and ex parte proceedings are the modus operandi of [the
Gray Firm] supported by Judge Potter." SF, � 37.
Nora suggested Judge Potter was "turning a blind eye to crimes committed within
the court process itself." SF,� 38.
Nora stated "Judge Potter has not seen fit to recuse himself yet from these
proceedings even after being exposed for ex parte communications and having
presided over proceedings which bear no resemblance to proper, neutral court
proceedings. " SF,� 39.
Nora stated Judge Potter "has continued to interfere with the just and proper
administration of Wood County Circuit Court." SF,� 40.
Nora stated Judge Potter "has clearly disqualified himself by his knowing
complicity in the miscarriage of justice represented by the proceedings in this
case, through ex parte orders and manipulations of the proceedings to do the
bidding of [the Gray Firm] with bias [and] prejudice." SF,� 41.

30

595a

Nora made these accusations against Judge Potter based on her allegation that on
four occasions Judge Potter had participated in or permitted ex parte communications
with the Gray Firm. SF, �� 11, 17. However, on each of these occasions, either Nora or
Spencer was shown as copied on the communications to the court. SF,�� 16, 23-25. Even
assuming the dubious proposition that Nora and Spencer did not receive copies of the
documents, Nora never explained how Judge Potter knew or should have known that
Nora or Spencer did not receive copies - as shown by the face of the documents filed
with the court. Not a shred of competent evidence supported Nora's preposterous and
disrespectful claims of misconduct with respect to alleged ex parte communications.
Much less did Nora have even a shred of evidence to support her accusation that Judge
Potter was colluding or acting on concert with the Gray Firm and otherwise manipulating
the proceedings to effect a "fraudulent foreclosure."
Nora also displayed general disrespect for the state court by the following comments:
•

•

•

•

She referred to the Spencer proceeding as a "mockery of justice" and as "these
misbegotten proceedings." SF, �14.
She referred to the alleged ex parte communication regarding the June 12 order as
"another example of the improper practices in these proceedings." SF, �18.
She stated that "the secret proceedings held in this matter constitute a miscarriage
of justice." SF,� 19.
She stated that the court's clerk was "participating in the scheme to deprive this
counsel of copies of documents which she did not receive." SF,� 35.
Nora did not confine her disrespect to the state court. In her appeal from Judge

Crabb's orders remanding the case to state court and awarding costs and fees to PNC,
Nora accused Judge Crabb of engaging in a "campaign of libel" against her and accused
31

596a

Judge Crabb of being in contempt of the Seventh Circuit for her decision in Nora's
bankruptcy case regarding Nora's medical records. SF, �� 84, 92-95, 112. After the
Seventh Circuit affinned Judge Crabb's orders in all respects and found the appeal
frivolous, Nora turned her wrath on that court, accusing it of bias against homeowners
and characterizing as "false" parts of the court's description of her conduct in the state
court case. SF, �� 103-04, 106-11. The record, however, fully supports the Seventh
Circuit' s description of Nora's conduct in the state court case. The only thing worthy of
the appellation "false" is Nora' s dispute of the accuracy of the Seventh Circuit' s opinion.
In Sommers I, the court concluded that the following statements by Attorney
Sommers violated the Attorneys' Oath:
•

•

•

•

•

•

•

•

"I believe it is my opinion that this Court is absolutely
determined not to give him a fair trial in order to cover up for
the State."
"And everybody has been orchestrated throughout this
proceeding to cut it off at that moment. You cut it off right now
at that moment. You've cut everything off: everything in this
case is done to keep the cover-up going. That's my belief.
I believe that your intention in this trial is to do everything that
you can, because apparently, Judge, it's just too dirty, you can't
take it."
"But I think right now he has-I believe I owe it to him. I
believe they're trying to railroad you like you never tried to
railroad somebody in Dane County."
"You go out of your way-Even today you go out of your way
as much as you can just to ignore it-to have tunnel vision and
say we can't acknowledge it, ... Why do you refuse to do it."
"Why don't you just be honest and say: You know what, we
don't care folks, we don' t care. These people matter. They 're
the club. They' re powerful. They matter. Adam Raisbeck
doesn' t count. Why don't you be-Why don't just you [sic] be
honest about it, damn it?"
"And I bet if you took a poll in here, everybody would say this
is a kangaroo court."
"What I'm saying is, though, that basically it comes down to
it-This is-I guess I'm more accusing you of a lack of nerve.

32

597a

So I guess if it sounds better, it's better. But I'm accusing you
of a lack of nerve. I'm accusing you of the lack of nerve to
basically have the courage to come to terms with what has
happened and to even enforce your own orders."

Sommers I, 2012 WI 33, � 62. See !d., � 66 (Sommers' "outburst greatly demeaned the
dignity of the court and fell far short of his ethical obligation to maintain the respect due
to courts and judicial officers").
Here, Nora took it multiple steps further. She did not confine her comments to one
hearing. She filed multiple written motions and objections accusing Judge Potter of more
than a lack of courage on the bench; she accused him of actively assisting the Gray Firm
in orchestrating what she called a fraudulent foreclosure. Nora did not stop there, but
carried with similar groundless allegations against Judge Crabb and the Seventh Circuit.
Nora's disrespectful comments directed to the courts constituted an ongoing pattern of
conduct designed to harass the other parties and judicial officers and delay the
proceedings, thereby violating SCR 40.15, enforceable through SCR 20:8.4(g).
II.

CLEAR, SATISFACTORY AND CONVINCING EVIDENCE SUPPORTS
THE COUNTS ARISING OUT OF THE RINALDI MATTER.
A.

Facts Regarding Rinaldi Matter ("Rinaldi Facts").

1.

On February 3, 2009, HSBC Bank USA ("HSBC") filed an action in the

Circuit Court for Kenosha County against Roger and Desa Rinaldi relative to a note and
mortgage executed by Roger Rinaldi, Case No. 2009CV353. See Ex. 57:1 (Item 1); Ex.
302; Tr. at 181:15-184:4, 517:14-25.
2.

In Case No. 2009CV353, the court granted judgment of foreclosure and

sale in favor or HSBC and dismissed the Rinaldis' counterclaims. Ex. 57:7-8 (Items 65,
33

598a

73, 43); Tr. at 183:21-186:5.
3.

After the Rinaldis' motion for reconsideration was denied, the judgment

was vacated and case dismissed based on a loan modification agreement with the
Rinaldis. Ex. 57:11 (Items 95-98); Tr. at 186:7-188:15.
4.

On June 10, 2011, the Rinaldis commenced a lawsuit in the Circuit Court

for Kenosha County, Case No. 2011CV1477 against, among others, Wells Fargo Bank,
N.A. ("Wells Fargo") and the Gray Firm. Ex. 58:1; Tr. at 188:16-190:9.
5.

Nora first appeared for the Rinaldis in Case No. 2011CV1477 by filing a

notice of appearance on August 30, 2011. Ex. 58:3 (Item 29); Tr. at 190:14-22.
6.

Motions to dismiss filed by certain defendants were pending when Nora

first appeared in the case. Ex. 58:2 (Item 16); Tr. at 191:23-192:4.
7.

On September 7, 2011,Nora filed a motion to dismiss without prejudice on

behalf of the Rinaldis. Ex. 58:4 (Item 30); Tr. at 192:6-193:6.
8.

The motions to dismiss were not heard by the court due to a bankruptcy

filing made by the Rinaldis on October 14, 2011. Ex. 58:2 (Item 41); Tr. at 193:8-21.
9.

Nora appeared for the Rinaldis in their bankruptcy case. On June 14, 2012,

Nora filed an objection to the proof of claim filed by HSBC relative to the Rinaldi note
and mortgage. Ex. 59:16-17 (Entry 77); Ex. 65:3.
10.

On June 17, 2012, Nora filed an adversary proceeding on behalf of the

Rinaldis asserting fraud and racketeering claims against, among others, HSBC, Wells
Fargo, the Gary Firm and certain of its lawyers, and the law firm of Litchfield Cavo and
Attorney Markvart, a Litchfield attorney who had appeared for Wells Fargo in Case No.
34

599a

2011CV1477. Ex. 60:1; Tr. at 193:16-197:1, 197:22-198:9.
11.

In challenging a proof of claim filed by HSBC, Nora asserted:
. . . objections to the claim includ[ing] that the Note lacks
consideration; two mortgage assignments are null and void;
another mortgage assignment is a forgery or unenforceable because
it was not recorded or perfected prior to bankruptcy; HSBC is not
the owner or holder of the Note; and the Note image attached to
the claim was fabricated to deceive the Court. Along with
disallowance of the claim and the security represented by the
Mortgage, the Debtors seek a determination that the proof of claim
is false, fraudulent and unlawful.

Ex. 65:5.
12.

In the adversary proceeding, Nora asserted claims against the defendant

banks and their counsel, including common law fraud, abuse of legal process and
violations of the Fair Debt Collections Practices Act ("FDCPA"), violations of the
Racketeer Influenced and Corrupt Organizations Act ("RICO"), breach of contract and
tortious interference with prospective economic opportunity. Ex. 65:5.
13.

On February 22, 2013, Bankruptcy Judge Susan Kelley issued a decision

relative to the Rinaldis' objection to the proof of claim and defendants' motions to
dismiss the adversary proceeding. Ex. 65:3-4; Tr. at 198:10-17,203:3-21.
14.

Judge Kelley rejected the Rinaldis' objections to HSBC' s proof of claim,

including objections predicated on an allegation that defendants produced a "forged
endorsement to the mortgage note robo-stamped bearing the signature of Joan M. Mills to
mislead this court into believing that the note had been timely, properly and authentically
endorsed in blank after the commencement of [the foreclosure action]." Ex. 65:13-18.
15.

Judge Kelley rejected Rinaldis' claims asserted in the adversary proceeding
35

600a

and recommended that the district court dismiss the claims. Ex. 65:18-33.
16.

In rejecting the objections and claims asserted by Nora in the bankruptcy

case and in the adversary proceeding, Judge Kelley characterized some of the arguments
as frivolous (Ex. 65:13, 21) and preposterous (Ex. 65:29).
17.

Nora filed an appeal from Judge Kelly's decision as to the objection to the

proof of claim and an objection to Judge Kelley's recommendation in the adversary
proceeding. The appeal and objection were consolidated and the matter was assigned to
District Court Judge J. P. Stadtmueller. Ex. 61:4-5 (Entries 2, 5); Tr. at 196:16-197:8.
18.

By order dated October 31, 2013, Judge Stadtmueller affinned Judge

Kelley's decision with respect to the proof of claim and adopted Judge Kelley's proposed
findings of fact and conclusions of law regarding the adversary proceeding. Ex. 61:7
(Item 32); Ex. 66:20-21; Tr. at 203:22-204:12.
19.

Judge Stadtmueller held that Nora failed to comply with the Federal Rules

of Bankruptcy Procedure governing appeals. Ex. 66:8-10.
20.

Judge Stadtmueller's opinion states that "debtors failed to provide a cogent

statement of the issues on appeal and also provided briefs that are largely unintelligible"
(Ex. 66:11) and describes the debtors' submissions as "an unfocused, stream-of­
consciousness-style recitation of general grievances the debtors have asserted in various
forms since the origination of this litigation in state court" (Ex. 66:14).
21.

Judge Stadtmueller held that any issues as to the assignment of mortgages

did not affect HSBC's rights as to the holder of the note. Ex. 66:12-13.
22.

Regarding the Rinaldis' racketeering claim, Judge Stadtmueller held that
36

601a

Rinaldis had no injury in fact since they were still living in the residence and did not owe
any money beyond that set forth in the mortgage which they agreed to pay. Ex. 66: 15.
23.

Judge Stadtmueller stated that debtors' activity "has quite obviously been

vexatious and time-and resource-consuming; but, more concerning is the fact that their
submissions to the Court are nigh-unintelligible." Ex. 66:19.
24.

Judge Stadtmueller also stated that:
Seeing as the debtors' claims are generally meritless, the Court is
concerned that the debtors are simply attempting to further stay the
defendants' foreclosure of their home. In that case, the abuse of
process charges alleged by the debtors against the defendants
would actually lie much more appropriately against the plaintiffs.

Ex. 66:19-20.
25.

Judge Stadtmueller also stated that:
The debtors are hereby warned, however, that they will find
themselves in very deep trouble if additional meritless filings find
their way to this Court (seeing as this Court has already had the
responsibility of dealing with their all-but-frivolous filings in Case
No. 12-CV-1065) and may very well result in significant sanctions.

Ex. 66:20.
26.

On November 11, 2013, Nora filed a motion to amend or alter the findings

of fact, conclusions of law and judgment entered by Judge Stadtmueller. Ex. 61:7 (Item
34); Ex. 67; Tr. at 204:13-25.
27.

Nora' s motion to alter or amend asserted the same kind of arguments that

they had previously presented to Judge Kelley and Judge Stadtmueller addressing alleged
fraud or forgeries in assignments of the Rinaldi mortgage, including the mortgage
"purportedly endorsed by Joan M. Mills as Vice President of Wells Fargo." Ex. 67:2-4.

37

602a

28.

The banks and defendants in the adversary proceeding filed a response to

the motion to amend or alter. Ex. 61:7 (Items 35, 36); Tr. at 205:1-12.
29.

On December 13, 2013, Judge Stadtmueller entered an order denying the

motion to amend or alter. Ex. 61:7 (Item 37); Ex. 68; Tr. at 205:13-23.
30.

In the order denying the motion to amend or alter, Judge Stadtmueller

stated that:
. . . the Rinaldis fail to identify any manifest error of law or fact,
intervening change in law, or newly-discovered evidence that
would entitle them to relief under Rule 59(e). . . . Their arguments
at this stage largely derive from perceived factual errors, which
were not relevant to the Court's analysis and were not in error, and
alleged legal errors, which are simply rehashings of the same
meritless arguments raised before. The Court is, therefore, obliged
to dismiss the Rinaldis' motion to amend.
With this order, the Court hereby makes clear that any
further frivolous submissions will result in an award of appropriate
sanctions against the Rinaldis' attorney.

Ex. 68:3 (citations omitted).
31.

On December 23, 2013, Nora filed a notice of appeal of the orders entered

by Judge Stadtmueller on October 31, 2013 and December 13, 2013. Ex. 61:7 (Entry 38);
Ex. 69; Tr. at 205:24-206:7.
32.

On February 11, 2014, Nora filed a motion to withdraw as Rinaldis'

counsel in the Bankruptcy Court, the District Court and the Seventh Circuit. Ex. 59:30
(Entry 148); Ex. 61:8 (Entry 44); Ex. 62:4 (Entry 8); Ex. 72; Tr. at 206:8-207:10.
33.

On March 4, 2014, Judge Kelley heard Nora's motion to withdraw in the

bankruptcy case in conjunction with hearing a motion by the United States Trustee to
dismiss the Rinaldis' bankruptcy case for failure to make payments. Ex. 59:30-31

38

603a

(Entries 146, 153); Ex. 71; Tr. at 207:11-208:18.
34.

In an oral ruling on March 4, 2014, Judge Kelley dismissed the bankruptcy

case but retained jurisdiction over motions for sanctions filed by defendants in the
Adversary Proceeding. Ex. 59:30-31 (Entries 153, 155); Ex. 71.
35.

In an order entered March 5, 2014, Judge Kelley confirmed her oral ruling

of March 4, 2014, and denied a motion for reconsideration Nora had filed with respect to
Judge Kelley' s opinion that dismissal of the case would moot the appeal Nora had filed
for the Rinaldis. Ex. 59:30-31 (Entries 146, 154, 155); Exs. 70, 71.
36.

Nora' s motion for reconsideration in the bankruptcy case repeated the same

arguments previously made based on an alleged "forged endorsement" and stated that
"the Rinaldis have decided not to engage in litigation of their new issues in this Court and
wish to be set free from the underlying bankruptcy . ..." Ex. 70:2-3.
37.

On April 2, 2014, Nora filed a motion to intervene personally in the Rinaldi

case before Judge Stadtmueller. Ex. 61:9 (Entry 46); Ex. 73; Tr. at 209:9-210:3.
38.

On April 2, 2014, Nora filed a joint motion for the Rinaldis and herself as

the proposed intervenor in the case before Judge Stadtmueller seeking relief under
Federal Rule of Civil Procedure 60 from the orders from the October 31 and December
13, 2013. Ex. 61:9 (Entry 47); Ex. 74; Tr. at 212:12-23.
39.

In the motion to intervene, Nora rehashed the same arguments regarding an

alleged forged endorsement of Joan M. Mills previously rejected by the court in the
orders of October 31 and December 13, 2013. Ex. 73.
40.

In the motion to intervene, Nora asserted a right to intervene in order to
39

604a

defend the motions for sanctions filed by the banks and defendants in the adversary
proceeding. Ex. 73:2, 15.
41.

In the motion for relief under Rule 60, Nora rehashed the same arguments

regarding an alleged forged endorsement of Joan M. Mills previously rejected by the
court in the orders of October 31 and December 13, 2013. Ex. 74.
42.

By order dated April 9, 2014, Judge Stadtmueller granted Nora' s motion to

withdraw as counsel for the Rinaldis, but denied the motions to intervene and for relief
under Rule 60. Ex. 75; Tr. at 213:13-17.
43.

In the April 9, 2014 order, Judge Stadtmueller also stated that:
Last, as to Ms. Nora' s motion to intervene and for Rule 60(b)
relief, the Court notes that it has no choice but to impose sanctions
against Ms. Nora. In the Court' s last order, it noted that "[w]ith
this order, the Court hereby makes clear that any further frivolous
submissions will result in an award of appropriate sanctions
against the Rinaldis' attorney." (Docket #37 at 3 (emphasis in
original)). Despite that extremely clear warning, Ms. Nora filed the
frivolous motions in question. Therefore, the Court will enter a
sanctions award against her, using its inherent authority to do so
under Chambers v. Nasca, Inc. , 501 U.S. 32 (1991). The Court will
direct that Ms. Nora pay to the Clerk of the Court $1,000.00 for
deposit into the Eastern District of Wisconsin Pro Bono fund. And
let the Court be clear: any further frivolous fllings will result in
even higher sanctions against Ms. Nora.

Ex. 75:2-3.
44.

On appeal, the Seventh Circuit stated that "to the extent the adversary

claims are not moot, we affirm the dismissal of those claims for substantially the reasons
discussed by the district court." Ex. 76:3.
45.

The Seventh Circuit also applied an exception to the general rule that

mootness would of the appeal would deprive the lower court's rulings of preclusive effect
40

605a

where "losing party causes an appeal to become moot in order to avoid the preclusive
effect of an unfavorable ruling." Jd. The court added, "We refuse to indulge this type of
gamesmanship by depriving the sound decisions of the bankruptcy court and district court
of preclusive effect." Ex. 76:4.
46.

The Seventh Circuit also affirmed the sanction awarded against Nora,

stating that Nora's obligations to her clients did not excuse her disregard of the district
court's clear and repeated warnings against continued submission of confusing, frivolous,
and needlessly argumentative filings. Jd.
Nora Violated SCR 20:3. l (a) By Filing the Motion To Intervene And

B.

The Rule 60 Motions In The Rinaldi Matter.

1.

Count Four Allegations.

Paragraph 90 of the Complaint alleges that:
In Desa L. R inaldi and Roger P. Rinaldi vs. HSBC Bank USA,
N. A . , et al. , U.S. Dist. Court for the Eastern District of Wisconsin
Case Nos. 13-CV-33 6-JPS and 13-CV-643-JPS, which led to 7th
Cir. U.S. Court of Appeals Case Nos. 13 -3865 and 14-1887, by
filing a motion to intervene and a motion for relief from the
Court' s prior orders pursuant to F.R.C.P. 60(b)(2), which motions
were found to be frivolous, after the U.S. District Court had
warned Nora that any further frivolous submissions would result in
an award of sanctions, Nora violated SCR 20:3.1(a).

R. 110:22.
2.

Applicable Law.

The applicable law is the same as applicable to Count One.
3.

Analysis.

The allegations of misconduct in the Rinaldi matter arise out of Nora's conduct in
filing two motions on April 2, 2014, after two prior warnings by the court. Rinaldi Facts
41

606a

("RF"), �� 25, 30, 37, 38. Judge Stadtmueller denied the motions filed on April 2, 2014,
finding them frivolous, and sanctioned Nora the sum of $1,000. Id., � 43. The Seventh
Circuit affirmed. !d., � 46.
Turning to the analysis under SCR 20:3.1(a), the objective standard under SCR
20:3.1(a)(3) is clearly satisfied. Nora's central argument in the Rinaldi matter was based
on the allegation that HSBC was relying on a forged endorsement - an alleged forged
signature of Joan M. Mills. RF, �� 14, 27, 39, 41. Both Judge Kelley and Judge
Stadtmueller concluded that the allegation of a forged endorsement was not a defense to
HSBC's ability to enforce the note and mortgage. !d., �� 14, 21. Judge Stadtmueller then
issued his first warning against further meritless filings. Id., � 25.
Nora knew Judge Kelley had found that the allegation of a forged endorsement
was immaterial and that Rinaldis lacked standing to address the issue. Tr. at 514:18515:4, 516:12-23. She knew Judge Stadtmueller's opinion stated that any issue as to the
"mortgage assignments did not affect HSBC's ability to file a proof of claim and affirms
that portion of the Bankruptcy Court's order. " Tr. at 522:13-15.
Nora nevertheless moved for reconsideration, raising the same argument about the
alleged forged endorsement. RF, �� 26-27. Judge Stadtmueller promptly rejected the re­
hashed argument, and issued a direct warning against "further frivolous submissions. "
!d., �� 29-30. In the face of these two prior warnings, Nora, in the words of the Seventh
Circuit, "dug in her heels" and asserted the same argument for a third and fourth time, in
the motion to intervene and for relief under Rule 60. !d., �� 37-41. At that point, without
waiting for a response from the opposing parties, Judge Stadtmueller sua sponte denied
42

607a

the motions and sanctioned Nora.
Nora knew exactly what she was doing. After having been told multiple times that
her argument about an alleged forged assignment was immaterial, and after having twice
been warned not to make further meritless and frivolous submissions, Nora did it again.
Whether viewed under an objective or subjective standard, Nora violated SCR 20:3.l(a)
by filing these motions and re-asserting the same argument.
C.

Nora Violated SCR 20:3.2 By Filing the Motion To Intervene And The
Rule 60 Motions In The Rinaldi Matter.

1. Count Five Allegations.
Paragraph 90 of the Complaint alleges that:
In Desa L. R inaldi and Roger P. Rinaldi vs. HSBC Bank USA,
U.S. Dist. Court for the Eastern District of Wisconsin
Case Nos. 13-CV -33 6-JPS and 13-CV -643-JPS, which led to 7th
Cir. U.S. Court of Appeals Case Nos. 13 -3 8 65 and 14-1887, by
filing a motion to intervene and a motion for relief from the
Court's prior orders pursuant to F.R.C.P. 60(b)(2), which motions
were found to be frivolous, after the U.S. District Court had
warned Nora that any further frivolous submissions would result in
an award of sanctions, Nora violated SCR 20:3.2.

N. A . , et a!. ,

R. 110:22.
2.

Applicable Law.

The applicable law is the same as applicable to Count Two.
3.

Analysis.

The conduct supporting Count Five is the same as Count Four; the issue is whether
the conduct also violated SCR 20:3.2 because done for purposes of delay. Similar to the
Spencer matter, the Rinaldi record is replete with evidence showing an underlying
purpose to delay and frustrate the creditor's foreclosure action. As Nora admitted, the
43

608a

Rinaldis had not made a mortgage payment for nine years. Tr. at 550:15-551:2.
As to these specific motions, as an experienced attorney, Nora had to know that
she did not need to intervene personally in the case in order to defend against sanctions
motions left pending before Judge Kelley. She also had to know that dismissal of the
bankruptcy case would moot the Rinaldis' appeal, as Judge Kelley had told her a month
earlier on March 4, 2014. RF, �� 33-35. Nora's motion to intervene barely touches on the
factors material to a Rule 24 motion to intervene before veering into the latest iteration of
the alleged "Joan Mills" forgery defense. The Rule 60 motion is entirely devoted to
repeating this same argument twice previously rejected by Judge Stadtmueller. Ex. 73.
The only conceivable purpose for filing these motions was to seek to further
confuse issues and delay resolution of issues related to the Rinaldi mortgage and to (as
the Seventh Circuit put it in the Spencer matter) "gum up the progress of the case." Ex.
39 :4. That Nora' s filings in the Rinaldi matter were described as "nigh-unintelligible"
and as "an unfocused, stream-of-consciousness-style recitation of general grievances"
supports an inference that these motions were filed for purposes of delay. See Arthur,
2005 WI 40, � 61 (that attorney's filings were deemed "incomprehensible" and as "one of
the lengthiest and most difficult [complaints] to follow" were factors properly considered
in determining whether attorney violated SCR 20:3.2). Nora violated SCR 20:3.2 by
filings the needless, groundless and frivolous motion to intervene and Rule 60 motion.
III.

THE REFEREE SHOULD RECOMMEND A ONE YEAR SUSPENSION
OF NORA'S LICENSE TO PRACTICE LAW AS APPROPRIATE
DISCIPLINE FOR THE VIOLATIONS.

In determining the appropriate level of discipline, the court considers "the
44

609a

seriousness of the conduct" as well as "the need to protect the public, courts, and legal
system from the attorney's repetition of misconduct, to impress upon the attorney the
seriousness of the misconduct, and to deter other attorneys from engaging in similar
misconduct." Arthur, 2005 WI 40, � 78 (citations omitted). See also American Bar
Association Joint Committee on Professional Sanctions, Standards for Imposing Lawyer
Sanctions ( "ABA Standards ") ,7 § III.A.1.1. ("purpose of lawyer discipline proceedings is
to protect the public and the administration of justice from lawyers who have not
discharged, will not discharge, or are unlikely properly to discharge their professional
duties to clients, the public, the legal system, and the legal profession"). The Wisconsin
Supreme Court and the OLR have relied on the ABA Standards in determining the
appropriate level of discipline. See Disciplinary Proceedings Against Compton, 2010 WI
112, � 11, 329 Wis. 2d 318, 787 N.W.2d 831. In imposing sanctions, the ABA Standards
suggest that courts should consider:
(a) the duty violated;
(b) the lawyer' s mental state;
(c) the potential or actual injury caused by the lawyer's
misconduct; and
(d) the existence of aggravating or mitigating factors.

ABA Standards, § III.C.3.0.
A.

Suspension Is The Presumptive Sanction.

According to the ABA Standards applicable here, absent aggravating or mitigating
circumstances, upon application of the factors set out in Standard 3.0, "Suspension is
generally appropriate when a lawyer knows that he or she is violating a court order or

A copy of the parts of the ABA Standards discussed herein is attached as Appendix

45

2 to this brief.

610a

rule, and causes injury or potential injury to a client or a party, or causes interference or
potential interference with a legal proceeding." ABA Standards § 6.22. In both the
Spencer and Rinaldi matters, Nora plainly sought to injure the opposing party and
interfere with the proceedings by her repeated filings of groundless and frivolous
motions.
B.

Numerous Aggravating Factors Appear In This Record.

A number of aggravating factors (see ABA Standards § III.C.9.22) appear in the
record. There are no mitigating factors.
1.

Nora was previously disciplined for similar misconduct.

In Disciplinary Proceedings Against Nora, 173 Wis. 2d 660, 495 N.W.2d 99
(1993) (Ex. 77), the court suspended Nora' s license to practice law in Wisconsin for 30
days as reciprocal discipline for conduct that occurred in Minnesota. The misconduct
involved misrepresentations as to the reopening and capitalization of a bank, along with
failing to adequately investigate a person who was to provide capital to the bank,
improperly authorizing issuance of cashier' s checks by the bank, bringing a frivolous
claim, transferring assets of her law partnership in an attempt to insulate the assets from
collection, bringing litigation primarily as a delay tactic, and asserting a theory not
justified by existing law. 173 Wis. 2d at 660-61. That Nora' s prior misconduct, dating
back to the 1980s, includes frivolous litigation and litigation for purposes of delay is very
troubling, given the similarity to the conduct at issue here.
2.

There is a pattern of misconduct.

Nora engaged in very similar misconduct in the Spencer and Rinaldi matters. Nora
46

611a

raised frivolous arguments, and repeatedly re-asserted the same arguments after the
courts had rejected them multiple times. Both cases share the common theme of delaying
the proceedings with baseless allegations for the purpose of prolonging the foreclosure
process. These were not isolated incidents. Delay, refusal to accept judicial decisions,
unnecessarily antagonistic filings, and displays of utter disrespect for the judiciary were
all items in Nora' s toolkit, her modus operandi, in these cases.
3.

Nora has made false or misleading statements during this
disciplinary process.

As the Seventh Circuit observed in the Spencer matter, Nora denied "accusing the
state court judge of altering transcripts, but the record belies her denial: she not only
made the accusations but moved for substitution of the judge on that basis." SF, � 121. At
trial, employing tortured hairsplitting semantics, Nora continued to deny that she had
accused Judge Potter, court staff and PNC' s lawyers of colluding to conceal contents of a
court order. Tr. at 496:4-498:9. On the same basis, she continued to deny that she had
accused the court reporter of manipulating a transcript at the judge' s direction. Tr. at
498:10:4-498:9-499:10. Nora' s continued denials fly in the face of the words Nora used
in documents she drafted and filed, summarized at pages 29-31 of this brief.
4.

Nora has refused to acknowledge wrongdoing.

Nora has not only refused to acknowledge wrongdoing, she has taken the opposite
tack. In Nora' s view, the judges in the Spencer and Rinaldi matters got everything wrong,
while Nora was never wrong. But critiquing the correctness of judicial decisions is not
enough. Nora also claims that the judges who ruled against the positions she advanced

47

612a

were biased against homeowners, in the case of Judge Potter colluded with plaintiff' s
counsel, or in the case of Judge Crabb "engaged in a campaign" of libel against her.
5.

Nora has substantial experience in the practice of law.

Nora was admitted to practice law in Wisconsin in 1975. She was also admitted to
practice in Minnesota and has been doing foreclosure work since the farm crisis in the
1980s. Tr. at 535:20-536:7, 832:10-18. Lack of experience and ignorance neither explains
nor mitigates her misconduct. This case is nothing like Bach, which involved a neophyte
lawyer driven by emotions and passions arising out of love for her disabled son.
6.

Nora 's conduct has caused harm to others and the legal system.

Nora' s conduct has caused harm. She caused opposing counsel and parties to incur
needless delay in the foreclosure actions, as well as unnecessary attorney fees and costs.
Her conduct has interfered in judicial administration. As one federal court stated, "Every
paper filed with the Clerk of this Court, no matter how repetitious or frivolous, requires
some portion of the institution' s limited resources," thereby interfering in allocation of
resources necessary to the administration of justice. Gordon

v.

US,

2008 WL 2949415,

at * 3 (S.D. Ohio 2008),8 quoting In re Walker, 238 F.3d 426 (6th Cir. 2000). Sanctions
have not deterred Nora. Neither Nora nor her client (Spencer) have paid the sanctions,
and Nora has obtained bankruptcy protection from being held financially accountable for
her misconduct.

A copy of the Gordon decision is attached as Appendix 3 to this brief.

48

613a

C.

In Light Of The Aggravating Factors, The Discipline Recommended
By OLR Accords With Precedent.

Regarding the frivolous litigation claims, in Widule, supra, the court suspended
Attorney Widule's license for six months for frivolous litigation. In the underlying
proceeding, Widule brought claims for unjust enrichment, conversion, breach of fiduciary
duty by trustee, and uniform commercial code violations an action against Attorney Dona
Merg and her client, Royal Bank of Elroy. The complaint essentially accused defendants
of misleading Widule's client, Tim Ormson. Widule, 2003 WI 34, � 7. The circuit court
dismissed the claims, found the case frivolous, and sanctioned Widule for failing to
adequately investigate the basis for Ormson's claims. !d., �� 18-22.
Regarding the Attorney's Oath violation, the attorney's statements in the Sommers
cases were highly offensive and disrespectful, but Nora has far exceeded the high bar for
disrespect set by Attorney Sommers, in terms of both frequency and offensiveness of her
attacks. Nora's conduct merits far a more serious sanction that the 30-day suspension and
the public reprimand imposed in the Sommers cases. Sommers II, 2014 WI 103, � 33
(public reprimand); Sommers I, 2012 WI 33, � 85 (thirty day suspension).
The record supports far more serious discipline than in the Widule and Sommers
matters, given the aggravating facts of multiple counts of frivolous litigation, combined
with the continuous disrespect for the judiciary Nora displayed in the Spencer matter and
the fact that prior discipline has not deterred Nora from her past pattern of using frivolous
litigation tactics as a weapon. The one year suspension OLR recommends is reasonable in
light of the precedent and the ABA Standards which guide the court.

49

614a

CONCLUSION

For the reasons stated above, the referee should conclude that there is clear and
convincing evidence supporting the five disciplinary counts arising out of Nora's conduct
in the Spencer and Rinaldi matters. Based on these violations, OLR urges the referee to
recommend a one year suspension of Nora's license to practice law as the appropriate
sanction and to recommend imposing all the costs of the proceeding against Nora, with
the suspension to be served consecutive to the suspension, if any, ultimately imposed by
the court in OLR v. Nora, 2013AP653-D.
Respectfully submitted this \ b f'� day of May 2017.

.
/l�

OFFICE OF LAWYER REGULATION
Complainant

\

1

�.Q��l&lliJ___

By : PU1WScnwarzenbart
SBN 1002789
Retained Counsel
222 W. Washington, Ste. 900
P.O. Box 1784
Madison, WI 53701-1784
(608) 256-0226

50

615a

APPENDIX 1

616a

KeyCite Yellow Flag - Negative Treatment
Judgment Amended by Faust v . Menard, Inc., N . D . I n d . , March

26, 20 1 4

2012 WL 4 8 15415
Only the Westlaw citation is currently available.
United States District Court,
N.D. Indiana,
Hammond Division.
Maize FAUST, Plaintiff,
v.
M ENARD, INC. , ' Defendant.
No. 2 : 1 1 CV 425 J M .

I

As to an award under RULE

Oct. 9, 2012.

Attorneys and Law Firms
Elizabeth Tate Norwood, Robert L. Lewis
Gary, IN, for Plaintiff.

removal was timely because it removed the case within
thirty days after it had actual receipt/knowledge of the
suit. For the reasons explained in the order remanding the
case, the court disagrees. Service of the summons and
complaint on defendant's registered agent was service on
the defendant, as shown by clearly-established law,]
commencing the thirty-day period for removal. This is
why the court concluded its remand order by noting that
costs and fees would be allowed upon proper evidence.
Defendant has not contested the reasonableness of the
amount of costs and fees sought, and they will be allowed
and awarded to plaintiff.

&

Associates '

Christopher P. Phill ips, Bruce Phillip Clark, Bruce P.
Clark & Associates, Saint John, IN, for Defendant.

OPINION and ORDER

JAMES T. MOODY, District Judge.
* 1 On August 9, 20 1 2, this action was remanded to state
court, on plaintiff' s motion, because defendant's removal
was untimely. Plaintiff thereafter filed a motion pursuant
to 28 U.S.C. § 1 447(c) seeking costs and attorneys fees
totaling $7428.50 (DE # 29), and a motion for sanctions
in the amount of $2,500.00, pursuant to RULE I I of the
FEDERAL RULES OF C I V I L PROCEDURE. Plaintiff
requested sanctions in order to deter defendant' s counsel
from pursuing (what plaintiff sees as) a frivolous removal
again in the future, and in order to compensate plaintiff' s
counse l for time she could have spent working on other
cases, instead of litigating whether this action was
properly removed.2 Defendant has responded opposina
b
both motions.

As to § 1 447(c), the standard for determining whether to
award of costs and attorneys fees is to ask whether there
was an obj ectively reasonable basis for removal ; that is,
did c learly-established law show that there was no basis
for removal? Lott v. Pfizer, Inc., 492 F.3d 7 89, 793 (7th
Cir. 2007). Defendant argues that plaintiff has not shown
how this standard was met, and that, in any event, it had
an obj ectively reasonable basis for bel ieving that its

I I:

[T]he district court may impose sanctions if a lawsuit is
"n?t well grounded in fact and is not warranted by
.
extstmg law or a good faith argument for the extension
modification, or reversal of existing law." Nat 'l
Wrecking Co.

v.

Int 'l Bhd. of Teamsters, Local 73 1,

990 F.2d 957, 963 (7th Cir. 1 993). The court must
"undertake an obj ective inquiry into whether the party
or his counsel should have known that his position is
groundless." !d. (quoting CNPA v. Chicago Web
Printing Pressmen 's Union No. 7, 82 1 F.2d 390 ' 3 97
(7th Cir. l 987) (citations omitted)). Cuna Mut. Ins. Soc.
Office and Professional Employees Intern. Union,
Local 39, 443 F.3d 556, 560-6 1 (7th Cir.2006). RULE

v.

I I contains a "safe harbor" provision: before fil ing a
motion for sanctions, the movant must serve the
motion, and allow the offending party 2 1 days to take
corrective action. FED. R. CIV. P. l l (c)(2). Defendant
argues that plaintiff fai led to comply with the
safe-harbor provision; and, for the reasons given
previously, it also asserts that it had an obj ectively
:easonable basis for removing the case. Plaintiff argues
m reply that she substantially complied with the
safe-harbor provision by writing defendant a Jetter
stating that she would seek sanctions, which is
sufficient, Nisenbaum v. Milwaukee County, 333 F.3d
804, 808 (7th Cir.2003), and that defendant's conduct
is sanctionable.
* 2 It is hard to see how the standard under § 1 447(c),
requiring the basis for removal to be obj ectively
reasonable, differs from the RULE I I standard requiring
the position taken to be warranted by existing Jaw or a
good-faith argument to change existing Jaw. It has been
said that the standard for awarding fees under § 1 44 7) (c)
is not as stringent as under RULE I I , Gibs on v. Chrysler
Corp., 26 1 F.3d 927, 950 (9th Cir.200 1 ), but that was
before the Supreme Court held that fees can be awarded
under § 1 447(c) "only where the removing party Jacked

617a

Faust

v.

Menard, Inc., Not Repo rted i n F . S u pp . 2 d (201 2 )

an obj ectively reasonable basis for seeking removal."
Martin v. Franklin Capital Corp. , 546 U . S . 1 32, 1 4 1 , 1 26
S. Ct. 704, 1 63 L . Ed.2d 547 (2005). It simply cannot be,
however, that every case in which an award under §
1 447(c) is j ustified also merits the imposition of RULE I I
sanctions. After Martin, one court has described the
difference as being that while § 1 447(c) is a fee-shifting
statute designed to deter erroneous removals, RULE I I is
reserved for professional misconduct, allowing the court
to impose personal l iabi lity on lawyers for conduct which
is vexatious or undertaken in bad faith, so only a removal
which is "egregiously" erroneous would merit RULE I I
sanctions. In re Crescent City Estates, LLC, 5 8 8 F.3d 822,
83 0-3 1 (4th Cir.2009).
In her reply, plaintiff argues that defendant' s removal was
motivated by an improper purpose, because its own
insurer valued the present case at only $4000 .00, far less
than the diversity amount-in-controversy requirement.
The court disagrees with this reasoning. Attorneys
practicing in this circuit should know, based on precedent
that has existed for twenty years, that "[l] itigants who
want to prevent removal must file a binding stipulation or
affidavit with their complaints" specifying that only
damages less than the diversity minimum are sought. In re
Shell Oil Co., 970 F.2d 3 5 5 , 356 (7th Cir. l 992).
It is true that in remanding this case, the court harshly
critic ized defendant' s arguments for removal, and has

now made it clear that it does not believe those arguments
were obj ectively reasonable. At the same time, however,
one of defendant' s arguments was that because its agent
was served with process that used a misnomer for
defendant, the service did not meet the standard of being
"reasonably calculated" to give defendant notice. The
standard of something being "reasonably calculated" is
one which invites arguments which go so far out on a
l imb that, after being chopped off, they may look foolish.
Although the court thinks that defendant' s legal decisions
in this case were ill-conceived and may have fli rted with
RULE I I , it does not believe that a violation occurred.
Plaintiff' s motion for sanctions will be denied.
For the foregoing reasons, plaintiff' s motion for RULE I I
sanctions (DE # 3 0) is DENIED; but plaintiff's motion
for costs and attorneys fees pursuant to 28 U.S.C. §
l 447(c) (DE # 29) is GRANTED. The clerk is directed to
enter j udgment for plaintiff awarding $7428 .50 in costs
and attorney ' s fees.
*3

SO ORDERED.

All Citations
Not Reported in F. Supp.2d, 20 1 2 WL 48 1 54 1 5

Footnotes
This is defendant's correct legal name; it is named in the complaint as " Menards, I nc . "

2
3

This latter reason is not a good one. If fees are awarded under 1 447(c), it wou ld amount to double compensation.

Roe

v.

O'Oonohue, 38 F .3d 298, 304 (7th C i r . 1 994) ("we hold that the 30 days com mences when the defendant, or its

authorized agent, comes into possession of a copy of the complai nt" (emphasis added) ) ; see a/so Peterson

v.

Sealed

Air Corp., 902 F . 2d 1 232 , 1 236-37 (7th C i r . 1 990) ("We hold that a corporation ' receive[s] . . . notice' within the mean ing
of Rule 1 5 (c) ( 1 ) no later than the date its registered agent for service of process receives the complaint, even though
the complaint does not identify that corporation as a party.").

End of Document

© 2 0 1 7 Thomson Reuters. No claim to orig inal U . S . Government Works.

618a

APPENDIX 2

619a

STANDARDS F OR IMPO SING LAWYER S ANCTIONS
AS APPROVED, FEBRUARY 1 986
AND AS AMENDED, FEBRUARY 1 992

Copyright

©2005 by the American B ar A s soc i ati on
All Rights Reserved

-

1

-

620a

III. STANDARDS FOR IMPOSING LAWYER SANCTIONS: BLACK LETTER RULES

For reference purposes, a list of the black letter rules is set out below. The entire
report, with commentary on each rule, begins on p. 23.

DEFINITIONS
" Inj ury" is harm to a client, the public, the legal system, or the profession which
results from a lawyer's misconduct. The level of inj ury can range from " serious " injury to
"little or no" inj ury; a reference to " inj ury" alone indicates any level of inj u ry greater than
" l ittle or no" inj ury.
" Intent" is the conscious objective or purpose to accomplish a particular result.
" Knowledge" is the conscious awareness of the nature or attendant c ircumstances of
the conduct but without the conscious obj ective or purpose to accomplish a particular result.
" Negligence" is the failure of a lawyer to heed a substantial risk that circumstances
exist or that a result will follow, which failure is a deviation from the standard of care that a
reasonable lawyer would exercise in the situation.
" Potential inj ury" is the harm to a client, the public, the legal system or the profession
that is reasonably foreseeable at the time of the lawyer's m isconduct, and which, but for
some intervening factor or event, would probably have resulted from the lawyer's
m isconduct.
A.

PURPOSE AND NATURE OF SANCTIONS

1.1

Purpose of Lawyer Discipline Proceedings. The purpose of lawyer discipline
proceedings is to protect the public and the administration of j ustice from
lawyers who have not discharged, will not discharge, or are unlikely properly to
discharge their professional duties to clients, the public, the legal system, and
the legal profession.

1 .2

Public Nature of Lawyer Discipline. Ultimate disposition of lawyer discipline
should be public in cases of d isbarment, suspension, and reprimand. Only in
cases of minor m isconduct, when there is little or no inj ury to a client, the
public, the legal system, or the profession, and when there is little likelihood of
repetition by the lawyer, s h ould private discipline be im posed.
Purpose of These Standards. These standards are designed for use in imposing
a sanction or sanctions following a determination by clear and convincing
evidence that a member of the legal profession has violated a provision of the

1 .3

- 13 -

621a

( g) other requirements that the state's highest court or d isciplinary
board deems consistent with the purposes of lawyer sanctions.

2.9 Reciprocal D iscipline
Reciprocal discipline is the im position of a disciplinary sanction on a lawyer who has
been disciplined in another j urisdiction.

2.1 0 Readmission and Reinstatement
In j urisdictions where disbarment is not permanent, procedures should be established
to allow a disbarred lawyer to apply for readmission. Procedures s hould be established to
allow a suspended lawyer to apply for reinstatement.
C.

3.0

FACTORS TO BE CONSIDERED TN IMPOSING SANCTIONS
GENERALLY

In imposing a sanction after a finding of lawyer m isconduct, a court should cons ider
the following factors:
(a )

the duty violated;

(b)

the lawyer's mental state;

(c )

the potential or actual inj u ry caused by the lawyer's misconduct; and

( d)

the existence of aggravating or m itigating factors.

4.0 VIOLATIONS OF DUTIE S OWED TO CLIENTS
4.1 FAILURE TO PRESE RVE THE CLIENT' S PROPERTY
A bsent aggravating or m itigating circumstances, upon application of the factors set out
in 3.0, the following sanctions are generally appropriate in cases involving the failure to
preserve client property:
4. 1 1

Disbarment is generally appropriate when a lawyer knowingly converts
client property and causes inj ury or potential inj u ry to a client.

4. 1 2

Suspension is generally appropriate when a lawyer knows or should know
that he is dealing improperly with client property and causes inj ury or
potential inj ury to a client.

-16-

622a

A bsent aggravating or mitigating circumstances, upon application of the factors set out
in Standard 3.0, the following sanctions are generally appropriate in cases involving conduct
that is prej udicial to the administration of j ustice or that involves dishonesty, fraud, deceit,
or misrepresentation to a court:

6.2

6. 1 1

Disbarment is generally appropriate when a lawyer, with the intent to
deceive the court, makes a false statement, submits a false document, or
improperly withholds material information, and causes serious or potentially
serious inj ury to a party, or causes a s ignificant or potentially s ignificant
adverse effect on the legal proceeding.

6.12

Suspension i s generally appropriate when a lawyer knows that false
statements or documents are being submitted to the court or that material
information is improperly being withheld, and takes no remedial action, and
causes injury or potential inj u ry to a party to the legal proceeding, or causes
an adverse or potentially adverse effect on the legal proceeding.

6. 1 3

Reprimand i s generally appropriate when a lawyer i s negligent either in
determ ining whether statements or documents are false or in takin g remedial
action when material information is being withheld, and causes inj ury or
potential inj ury to a party to the legal proceeding, or causes an adverse or
potentially adverse effect on the legal proceeding.

6. 1 4

Adm onition is generally appropriate when a lawyer engages i n a n isolated
instance of neglect in determining whether submitted statements or
documents are false or in failing to disclose material information upon
learning of its falsity, and causes little or no actual or potential inj ury to a
party, or causes little or no adverse or potentially adverse effect on the legal
proceeding.

ABUSE OF THE LEGAL PROCESS

A bsent aggravating or m itigating circumstances, upon application of the factors set out
in Standard 3.0, the following sanctions are generally appropriate in cases involving failure
to expedite litigation or bring a meritorious claim, or failure to obey any obligation under
the rules of a tribunal except for an open refusal based on an assertion that no valid
obligation exists:

6.21

Disbarment is generally appropriate when a lawyer knowingly violates a
court order or rule with the intent to obtain a benefit for the lawyer or
another, and causes serious inj ury or potentially serious inj u ry to a party or
causes serious or potentially serious interference with a legal proceeding.

-22-

623a

6.22

Suspension is generally appropriate when a lawyer knows that he or she is
violating a court order or rule, and causes inj ury or potential inj ury to a
client or a party, or causes interference or potential interference with a legal
proceeding.

6.23

Reprimand is generally appropriate when a lawyer negligently fails to
com ply with a court order or rule, and causes inj ury or potential injury to a
client or other party, or causes interference or potential interference with a
legal proceeding.
Admonition is generally appropriate when a lawyer engages in an isolated
instance of negligence in complying with a court order or rule, and causes
little or no actual or potential inj ury to a party, or causes little or no actual or
potential interference with a legal proceeding.

6.24

6.3 IMPRO P ER COMMUNICATlONS WITH IN DIVlDUALS lN THE LEGA L
SYSTEM
Absent aggravating or m itigating circumstances, upon application of the factors set out
in Standard 3.0, the following sanctions are generally appropriate in cases involving
attempts to influence a j udge, j uror, prospective j uror or other official by m eans prohibited
by law:

6.31

6.32

D isbarment is generally appropriate when a lawyer:
( a)

intentionally tampers with a witness and causes serious or potentially
serious inj ury to a party, or causes s ignificant or potentially
significant interference with the outcome of the legal proceeding; or

(b)

makes an ex parte commun ication with a j udge or j uror with intent to
affect the outcome of the proceeding, and causes serious or potentially
serious inj u ry to a party, or causes s ignificant or potentially
significant interference with the outcome of the legal proceeding; or

(c )

improperly communicates with someone in the legal system other than
a witness, j udge, or j uror with the intent to influence or affect the
outcome of the proceeding, and causes s ignificant or potentially
significant interference with the outcome of the legal proceeding.

Suspension is generally appropriate when a lawyer engages in
communication with an individual in the legal system when the lawyer knows
that such comm unication is im proper, and causes inj ury or potential inj ury
to a party or causes interference or potential interference with the outcome of
-23-

624a

considerations or factors that may j ustify an increase in the degree of
discipline to be im posed.

9.22

Factors which may be considered in aggravation.
Aggravating factors include:
(a )

prior d isciplinary offenses;

( b)

dishonest or selfish motive;

-26-

625a

9.3

( c)

a pattern of misconduct;

( d)

m ultiple offenses;

( e)

bad faith obstruction of the disciplinary proceeding by
intentionally failing to comply with rules or orders of the
disciplinary agency;

(f)

subm ission of false evidence, false statements, or other
deceptive practices during the disciplinary process;

( g)

refusal to acknowledge wrongful nature of conduct;

( h)

vulnerability of victim;

( i)

substantial experience in the practice of law;

(j)

indifference to making restitution

( k)

illegal conduct, including that involving the use of controlled
substances ..

Mitigation

9.3 1

Definition. Mitigation or m itigating circumstances are any
considerations or factors that may j ustify a reduction in the
degree of discipline to be im posed.

9.32

Factors which may be considered in mitigation.
Mitigating factors include:
(a)

absence of a prior disciplinary record;

(b)

absence of a dishonest or selfish motive;

(c)

personal or emotional problems;

(d)

timely good faith effort to make restitution or to rectify
consequences of m isconduct;

( e)

full and free disclosure to disciplinary board or
cooperative attitude toward proceedings;

(f)

inexperience in the practice of law;

-27-

626a

( g)

character or reputation;

(h)

physical disability;

( i)

mental disability or chem ical dependency including
alcoholism or drug abuse when:

( 1 ) there is medical evidence that the respondent is
affected by a chemical dependency or m ental disability;
(2) the chemical dependency or mental disability caused
the m isconduct;
(3) the respondent's recovery from the chemical
dependency or m ental d isability is demonstrated by a
m eaningful and sustained period of successful
rehabilitation; and
( 4) the recovery arrested the misconduct and
recurrence of that misconduct is unli�ely;

9.4

(j )

delay in disciplinary proceedings;

( k)

imposition of other penalties or sanctions;

(I)

remorse;

( m)

remoteness of prior offenses.

Factors which are neither aggravating nor m itigating.
The following factors should not be considered as either aggravating or
m itigating:
(a )

forced or compelled restitution;

(b)

agreeing to the client's demand for certain improper behavior or
result;

(c )

withdrawal of com plaint against the lawyer;

(d )

resignation prior to completion of disciplinary proceedings;

( e)

complainant's recommendation as to sanction;

(f)

failure of inj ured client to complain.

-

28

-

627a

APPENDIX 3

628a

G o rd o n

v.

U . S . , Not Reported i n F . Su p p . 2 d (2008)

2008 WL 2949415
Only the Westlaw citation is currently available.
United States District Court,
S . D . Ohio,
Eastern Division.
Michael Lee GORDON, Petitioner,
v.
UNITED STATES of America, Respondent.
No. 2 : 01-CV- 1166.

I

Crim. No. 2 : 9 7-CR167(6).

I

July 29, 2 0 0 8 .

Attorneys and Law Firms
M ichael Lee Gordon, Victorville, CA, pro se.

OPINION A ND ORDER

JAMES L. G RAHAM, District Judge.
*1 On May 22, 2008, petitioner fi led motions for
reconsideration, obj ection and request to alter or amend
j udgment, Doc. No. 360, for arrest of j udgment and
request for dismissal of the indictment, Doc. No. 3 5 9, and
for reconsideration, Doc. No. 3 5 8 . In his most recent
motions, petitioner again asserts that the indictment
against h im was inadequate, that he had immunity from
prosecution pursuant to his p lea agreement; that he was
den ied the effective assi stance of counsel because his
attorney failed to obj ect to double hearsay, and that
defense counse l misrepresented him and he was a victim
of prosecutorial misconduct due to an "understanding"
that was reached between the parties prior to trial
regarding the scope of cross examination of government
witnesses. Petitioner has fi led repeated motions raising
these same c lams since September 30, 2002, when the
Court dism issed petitioner's motion to vacate, set aside,
or correct sentence pursuant to 28 U . S . C . § 225 5 .
Petitioner also now has filed yet another motion for relief
from final judgment of dismissal of his § 2255 petition
pursuant to Federal Rule of Civil Procedure 60(b), in
which he again argues, as he has previously, that the
Court should not construe his Rule 60(b) motion as a
successive petition because he was unable previously to
obtain trial transcripts, and because the prosecutor and
defense counsel al legedly engaged in misconduct and

misrepresentations, and committed fraud upon the Court
regarding testimony of government witnesses. See Doc.
No. 3 5 8 .
This Court has already rejected these same arguments.
See Doc. Nos. 354, 3 56. As previously discussed, the
Court is without j urisdiction to consider new claims raised
in petitioner's Rule 60(b) motion absent authorization for
fil ing a successive petition from the United States Court
of Appeals for the Sixth C ircuit. In Gonzalez v. Crosby,
545 U . S . 524, 5 3 2 (2005), the United States Supreme
Court held:
In some instances, a Rule 60(b) motion will contain
one or more "claims." For example, it might
straightforwardly * 5 3 1 assert that owing to
"excusable neglect," Fed. Rule Civ. Proc. 60(b)( l ),
the movant' s habeas petition had omitted a claim of
constitutional error, and seek leave to present that
claim. Cf. Harris v. United States, 367 F.3d 74,
80-8 1 (C.A.2 2004) (petitioner's Rule 60(b) motion
sought rel ief from j udgment because habeas counsel
had failed to raise a Sixth Amendment claim).
Simi larly, a motion might seek leave to present
"newly discovered evidence," Fed. Rule Civ. Proc.
60(b )(2), in support of a claim previously denied.
E.g., Rodwell v. Pepe, 3 24 F.3d 66, 69 (C.A. l 2003).
Or a motion might contend that a subsequent change
in substantive law is a "reason j ustifying rel ief," Fed.
Rule Civ. Proc. 60(b)(6), from the previous denial of
a claim. E.g., Dunlap v. L itscher, 3 0 1 F.3d 873, 876
(C.A.7 2002). Virtually every Court of Appeals to
consider the question has held that such a pleading,
although labeled a Rule 60(b) motion, is in substance
a successive habeas petition and should be treated
accordingly. E.g., Rodwell, supra, at 7 1 -72; Dunlap,
supra, at 876.
*2 We think those holdings are correct. A habeas
petitioner ' s fi l ing that seeks vindication of such a
claim is, if not in substance a "habeas corpus
application," at least similar enough that fai ling to
subj ect it to the same requirements would be
"inconsistent with" the statute. 28 U.S.C. § 2254
Rule I I . Using Rule 60(b) to present new claims for
relief from
a state cou1i's j udgment of
conviction-even claims couched in the language of a
true Rule 60(b) motion-circumvents AEDPA's
requirement that a new c laim be dismissed unless it
rel ies on either a new rule of constitutional law or
newly discovered facts. § 2244(b)(2). The same is
true of a Rule 60(b)(2) motion presenting new
evidence in support of a claim already l itigated: Even
assumin,g that r� l iance on a new factual PE�cl ic��e

629a

Gord o n

v.

U . S . , N ot Reported i n F . S u pp . 2 d (2008)

causes that motion to escape § 2244(b)( I )' s
prohibition o f c laims "presented i n a prior
appl ication," § 2244(b )(2)(8) requires a more
convincing factual showing than does Rule 60(b ).
Likewise, a Rule 60(b) motion based on a purported
change in the substantive law governing the claim
could be used to circumvent § 2244(b)(2)(A)' s
dictate that the only n e w law o n which a successive
petition may rely is "a new rule of constitutional law,
made retroactive to cases on collateral review by the
Supreme Court, that was previously unavai lable." In
addition to the substantive confli ct with AEDPA
standards, in each of these three examples use of
Rule 60(b) would impermissibly c ircumvent the
requirement that a successive habeas petition be
precertified by the court of appeals as falling within
an exception to the success ive-petition bar. §
2244(b )(3 ).
In most cases, determining whether a Rule 60(b)
motion advances one or more "claims" will be
relatively simple. A motion that seeks to add a new
ground for rel ief, as in Harris, supra, will of course
qual ify. A motion can also be said to bring a "claim"
if it attacks the federal court ' s previous resolution of
a claim on the merits,' since alleging that the court
erred in denying habeas rel ief on the merits is
effectively indistinguishable from alleging that the
movant is, under the substantive provisions of the
statutes, entitled to habeas rel ief. That is not the case,
however, when a Rule 60(b) motion attacks, not the
substance of the federal court ' s resolution of a claim
on the merits, but some defect in the integrity of the
federal habeas proceedings.'
*3 !d. , at 5 3 0-5 32. Because petitioner raises new claims
which challenge the integrity of his trial as opposed to the
integrity of federal habeas proceedings, his latest motions,
Doc. Nos. 3 5 9-3 60, again are TRANSFERRED to the
Court of Appeals for authorization for fi l ing as a

successive petition. His motion for reconsideration, Doc.
No. 3 5 8 , therefore is D E N I E D. The Court further
cautions petitioner that his continued filing of further
frivolous motions again repeating these same allegations
and ra1smg requesting rel ief from judgment or
reconsideration on the same grounds constitutes abuse of
j udicial process. Petitioner is warned that the fil ing of
further frivolous pleadings may result in the imposition of
sanctions against him.
[P]risoners who persist in flooding the courts with
frivolous and repetitive actions that waste the courts'
time and resources . . . risk being sanctioned for doing
so, including losing their abi lity to proceed in forma
pauperis with respect to their future civil actions, as
well as being subj ected to a substantial fine. As the
Supreme Court noted in McDonald, 489 U.S. at 1 84,
"Every paper filed with the Clerk of this Court, no
matter how repetitious or frivolous, requires some
portion of the institution ' s l imited resources. A part
of the Court's responsibi lity is to see that these
resources are allocated in a way that promotes the
interests of j ustice. The continual processing of
petitioner' s frivolous requests for extraordinary writs
does not promote that end ."
In re Walker, 2 3 8 F.3d 426 (6th Cir.2000); see also
A ntonelli
v.
Grondolski,
2007
WL
323 1 548
(E.D.Kentucky, October 30, 2007), citing Chambers v.
NASCO, Inc. , 502 U . S . 32, 44 ( 1 99 1 ); In re Prevot, 59

F.3d 5 56, 563 -64 (6th Cir. l 995).
IT IS SO ORDER E D.

All Citations
Not Reported in F. Supp.2d, 2008 WL 29494 1 5

Footnotes
4

The term "on the merits" has m u ltiple usages. See, e.g . , Semtek tnt'! Inc.

v.

Lockheed Martin Corp., 531 U . S . 497,

501 -503 , 1 2 1 S . Ct . 1 02 1 , 1 49 L . E d . 2d 32 (200 1 ) . We refer here to a determination that there exist or do not exist
g rounds entitl ing a petitioner to habeas corpus relief under 28 U . S . C . §§ 2254(a) and (d) . When a movant asserts
one of those grounds (or asserts that a previous ruling reg arding one of those grounds was in error) he is making a
habeas corpus cla i m . He is not doing so when he merely asserts that a previous ru ling which precl uded a merits
determination was in error-for exam p l e , a denial for such reasons as fai l u re to exhaust, procedural default, or
statute-of-lim itations bar.

5

Fraud on the federal habeas court is one example of such a d efect. See generally Rodriguez

v.

Mitchell, 252 F . 3d

1 9 1 , 1 99 (C.A.2 200 1 ) (a witness's allegedly fra udulent basis for refusing to appear at a federal habeas hearing
"relate[d) to the integ rity of the federal habeas proceed ing, not to the integrity of the state criminal trial"). We note that
an attack based o n the movant's own conduct, or his habeas counsel's omissions, see, e . g . , supra , at 2647,
ord i narily does not g o to the integ rity of the proceed ings, but i n effect asks for a second chance to have the merits

630a

Gordon

v.

U . S . , N ot Reported i n F . S u p p . 2 d (2008)

determ ined favorably.

End of Document

@ 201 "7 Thomson Reuters. No claim to original U.S. Government Works.

631a

APPENDIX Q

632a

STATE OF WISCONSIN
IN THE SUPREME COURT
______________________________________________________________________________
In re the Matter of the Disciplinary Proceedings
Against Wendy Alison Nora,
Attorney at Law
----------------------Office of Lawyer Regulation,
Complainant
v.
Wendy Alison Nora,
Respondent

Case Code: 30912

Case No. 2015AP002442-D

RESPONDENT’S POST-HEARING BRIEF
(ALL RIGHTS RESERVED)

INTRODUCTION
Wendy Alison Nora (Nora), appearing specially and preserving her objections to subject
matter jurisdiction or competency of the tribunal, submits her Post-Hearing Brief, reserving all of
her rights. Nora does not waive any of her rights to address the jurisdictional, constitutional,
legal or factual issues not addressed in this Post-Hearing Brief in any subsequent proceeding
because this Brief is responsive to OLR’s Post-Hearing in which OLR has extensively amended
the factual basis for the charges against Nora, after the hearing, without Nora’s consent, based on
its interpretation of the evidence adduced at the hearing, ignoring all exculpatory evidence and
depriving Nora of her basis due process rights recognized by the United States Supreme Court in

In the Matter of John Ruffalo, Jr., Petitioner 390 U.S. 544, 551, 88 S.Ct. 1222, 20 L.Ed.2d
117 (1968) and by the Wisconsin Supreme Court in This Court recognized the following due
process rights of lawyers in disciplinary cases in State v. Hersh, 73 Wis.2d 390, 398, 243 N.W.2d
178, 182 (1976).
1

633a

PROCEDURAL HISTORY
The Office of Lawyer Regulation (OLR) commenced the proceedings in this matter by
filing a Complaint and Order to Answer on November 30, 2015, after its late attempt to file a
Second Amended Complaint in OLR v. Nora, 2013AP000653-D (Nora #1) was rejected. The
November 30, 2015 Complaint is identical to the Second Amended Complaint that OLR
attempted to file in Nora #1. Nora was served with the Complaint and Order to Answer on
December 2, 2015. On December 3, 2015, Nora provided OLR with safe-harbor notice under
Wis. Stat. sec. 802.05. Nora filed her Motion to Dismiss for Selective and Vindictive
Prosecution and for a Determination of Probable Cause, seeking an evidentiary hearing on her
motions. On January 19, 2015, OLR filed an Amended Complaint. Nora again gave safe-harbor
notice under Wis. Stat. sec. 802.05 on January 25, 2016. Nora was not required to submit
another set of Motions to Dismiss for Selective and Vindictive Prosecution and for
Determination of Probable Cause, by a specific provision of the Referee’s February 18, 2016
Scheduling Order (Request for Judicial Notice, Exhibit 1, page 2, ¶3). Nora filed Motions for
Sanctions under Wis. Stat. sec. 802.05 on January 25, 2016, February 17, 2016 and an Amended
Motion for Sanctions on April 11, 2016 (Request for Judicial Notice, Exhibits 2, 3, and 4). OLR
responded to Nora’s Motions that it was at a disadvantage in responding to Nora’s Motions
because Nora had not answered the Amended Complaint (Request for Judicial Notice, Exhibit 5:
OLR’s Response dated March 28, 2016, page 4).
On April 26, 2016, the Referee denied Nora’s Motions, finding that Nora’s due process
rights had been protected by the OLR’s investigation and the presentation of the matter to the
Preliminary Review Committee (PRC) (Request for Judicial Notice, Exhibit 6). He found,
2

634a

without granting Nora the opportunity for an evidentiary hearing, that there was nothing in the
record which supported her Motion to Dismiss for Selective and Vindictive Prosecution, despite
the fact that Nora had submitted Appendices consisting of 27 Exhibits totaling 476 pages
supporting her position. Nora verified all of her statements and was prepared to submit to
adverse examination at the requested evidentiary hearing. See Nora’s December 22, 2015
Verified Jurisdictional Objection and Motions (Request for Judicial Notice, Exhibit 7, without
the documentary evidence in support of the Objection and Motions due to the volume of the
documentary evidence).
The Referee dispensed with Nora’s entire preliminary demonstration of selective and
vindictive prosecution, based on substantial documentary evidence and her verified statements,
finding, “There is nothing before me that would lead me to conclude at this time that OLR is
acting in a selective or vindictive manner in filing the amended complaint in Nora #2. OLR cites
ample authority for the proposition that they have broad discretion in determining what
misconduct counts they will pursue.” He further concluded, based on OLR’s unverified
argument only, “OLR asserts that the allegations of the amended complaint were investigated and
went before the Preliminary Review Committee.1 Supreme Court rules were followed before the

1

Footnote 1 in the April 26, 2016 Order reads, “It is unclear whether the Preliminary Review
Committee considered all allegations in both Nora #1 and Nora #2 at the same time or if there was a
separate investigation and Preliminary Review Committee review of the evidence that lead to Nora #2.”
Many of the factual allegations in the Amended Complaint occurred after Nora #1 was
commenced. It is not surprising that there is lack of clarity in the record because Nora’s Motions were
denied based entirely on OLR’s argument and all of Nora’s evidence was disregarded. It is well
established that argument is not evidence. Merco Distributing Corp. v. O & R Engines, Inc., 71 Wis.2d
792, 795-796 n. 5, 239 N.W.2d 97 (Wis., 1976).

3

635a

additional counts in Nora #2 were filed.2” The Referee essentially concluded that OLR’s
argument was sufficient to defeat Nora’s verified evidence. The Referee wrote, “I have carefully
reviewed the allegations made in the amended complaint. Except for Respondent’s assertations
(sic), there is nothing in the allegations that leads me to believe the allegations were not made
after investigation and review pursuant to Supreme Court rules.3” Nora submitted substantial
evidence in support of her Motion to Dismiss for Selective and Vindictive Prosecution which she
contends was sufficient to require an evidentiary hearing on the merits of the Motion. The
Motion to Dismiss was denied on April 26, 2016.
Nora answered the Amended Complaint on May 16, 2016 and commenced discovery.
Upon review of Nora’s discovery, new counsel for OLR, Attorney Paul W. Schwarzenbart
(Schwarzenbart) realized that OLR had charged Nora with misconduct in litigation in a case in
which no litigation activities had taken place identifying PNC v. Spencer, Wood County Circuit
Court Case No. 2014TJ000049. It is submitted that the reason the wrong case number was used
to identify the Spencer foreclosure case is that no pre-charging investigation of the events in the
actual foreclosure case was undertaken before the Investigative Report was submitted to the
Preliminary Review Committee (PRC) for a determination of cause to proceed by a preliminary
review panel of the PRC (collectively, the PRC). See Offer of Proof, Exhibit 529.

2

There is no evidence in the record upon which the Order Denying Nora’s Motions was based
that the Supreme Court Rules were followed in the investigation and review. Nora was denied any
discovery with respect to the issue of compliance with the Supreme Court Rules in the investigative and
charging process.
3

OLR amended ¶1 of Amended Complaint in its Second Amended Complaint and did not allege
that the PRC had approved the facts and allegations of misconduct set forth in the Second Amended
Complaint. Nora was denied any discovery with respect to ¶1 of the Second Amended Complaint. See
infra.

4

636a

Schwarzenbart then proceeded, with OLR Investigator Travis J. Stieren (Stieren), to act
as a charging authority in place of the PRC, contrary to SCR 22.11(2). Schwarzenbart sought
Nora’s stipulation to allow OLR to file a Second Amended Complaint based on Nora’s alleged
actions in Wood County Circuit Court Case No. 2009CV000283. Nora declined to stipulate to
the filing of a Second Amended Complaint because she knew that the proposed changes to the
Amended Complaint had not been presented to the Preliminary Review Committee (PRC).
(Request for Judicial Notice, Exhibit 8 is the complete record of the correspondence between
Schwarzenbart and Nora concerning the proposed Stipulation to amend the Complaint.)
Schwarzenbart moved for leave to file a Second Amended Complaint on June 3, 2016,
but did not file a Second Amended Complaint. He presented the June 3, 2016 Affidavit from the
Investigator (Stieren), who swore that the PRC had authorized the filing of the Complaint in this
matter based on Nora’s conduct in Wood County Circuit Court Case No. 2009CV000283, based
on his investigation. (Request for Judicial Notice, Exhibit 9.) There is nothing in Stieren’s July
10, 2015 Investigative Report (Offer of Proof, Exhibit 529) which identifies the county in which
the Spencer foreclosure case was pending and it does not mention the Wood County Circuit
Court Case by name or number. It appears that the investigation was based on the August 14,
2014 decision of the Seventh Circuit Court of Appeals which did not even identify the county in
which Ms. Spencer’s home is located.
The Complaint and Amended Complaint were required to set forth only those facts and
allegations of misconduct determined by the PRC. SCR 22.11(2). Exhibit 529 of Nora’s Offer of
Proof is the information she received from Stieren which purports to be the information provided
to the PRC, “except the five page Investigative Report,” which was not provided to Nora and was
5

637a

sought in discovery, which Attorney Winiarski denied Nora in his Order of October 13, 2016
(Request for Judicial Notice, Exhibit 10). There is no evidence in the record, other than June 3,
2016 Stieren’s Affidavit (to which his Investigative Report was not attached), to support the
conclusions in the August 31, 2016 Order (Request for Judicial Notice, Exhibit 11) that OLR
had complied with SCR 22.11(2) in charging Nora and no evidence other than Stieren’s June 3,
2016 Affidavit to support the conclusion that the PRC had made a determination based on Nora’s
actions in Wood County Circuit Court Case No. 2009CV000283. Stieren’s June 3, 2016
Affidavit is contradicted by Nora’s Offer of Proof, Exhibit 529. Furthermore, it is extremely
doubtful that the preliminary review panel of the PRC (hereinafter, for simplicity, the PRC) ever
reviewed the 1363 pages of documents submitted by Nora in good faith cooperation with OLR’s
investigation as required by SCR 21.15(4).
Schwarzenbart, in his June 3, 2016 Affidavit (Request for Judicial Notice, Exhibit 12)
claims that he cannot explain why Assistant Litigation Counsel Sheryl St. Ores did not identify
the correct Wood County Circuit Court case in the November 30, 2015 Complaint or the January
19, 2016 Amended Complaint. It appears that she never reviewed the 1363 pages of documents
Nora produced (which are largely exculpatory). Regrettably, Schwarzenbart does not appear to
have any experience in criminal law, so it is not surprising that he did not consider exculpatory
evidence Nora’s exculpatory evidence in this case.4 In Nora #1 Schwarzenbart denied that there
was any exculpatory evidence to be produced in discovery (Request for Judicial Notice, Exhibit

4

In Nora #1, Schwarzenbart denied that there was any exculpatory evidence to be discovered,
when he knew or should have known that the forged email and attachment provided by Potteiger and his
falsely sworn Affidavit and screen print sworn to as having been made on an uncertain and suggestively
remote past date could not have escaped even a civil practitioner’s notice. This issue, among others, is
pending before the Wisconsin Supreme Court in Nora #1.

6

638a

13) and withheld the very exculpatory evidence Nora was seeking to have produced–the
electronic version of the email upon which OLR and the Referee in Nora #1 relied as evidence on
Count Two in Nora #1. Nora was denied due process in the investigative and charging phases of
these proceedings because her voluminous exculpatory evidence presentation was not addressed
in the Investigative Report presented to the PRC, contrary to SCR 22.03(3). Offer of Proof,
Exhibit 529.
The Referee required OLR to file and serve the Second Amended Complaint containing
allegations that were clearly not approved by the PRC (Request for Judicial Notice, Exhibit 14).
Nevertheless, Nora was forced to argue for her right to file an Answer to the Second Amended
Complaint (which should have been obvious). She also had to argue that the hearing set for
September 7, 2016 could not go forward as scheduled because her Answer to the Second
Amended Complaint was not yet even due to be filed and that she was entitled to conduct
discovery. The Referee did not decide the Motion for Relief from the Scheduling Order until
September 20, 2016 (Request for Judicial Notice, Exhibit 15).
On August 31, 2016, James J. Winiarski (Attorney Winiarski), then presiding over an
ultra vires tribunal, having permitted the matter to proceed on facts and allegations of misconduct
not determined by the PRC) limited Nora to discovery regarding OLR’s amendments (Request
for Judicial Notice, Exhibit 16). In that same Order, Attorney Winiarski, presiding over the ultra
vires tribunal, rescheduled the evidentiary hearing in this matter to October 31, 2016 due to the
filing of the Second Amended Complaint and Nora’s right to file an Answer. In the September
20, 2016, Attorney Winiarski reiterated the limitation of Nora’s discovery rights (Request for
Judicial Notice, Exhibit 17).
7

639a

Nora was entitled to discover evidence to defend against the Second Amended Complaint
because OLR amended ¶1, which altered the entire foundation of the proceedings, divesting the
tribunal of subject matter jurisdiction or competency. Moreover, the Order of August 16, 2016,
while prematurely denying Nora’s Motion for Damages pursuant to Wis. Stat. sec. 895.044,
provided that Nora could renew the Motion for Damages at the conclusion of the proceedings
(Request for Judicial Notice, Exhibit 14). In these proceedings, Nora was never allowed any
discovery to establish what the PRC reviewed5 (Request for Judicial Notice, Exhibit 18–Order of
September 27, 2016 and Request for Judicial Notice, Exhibit 10). Moreover, Nora was not
allowed to call any witnesses in her defense, contrary to Greene v. Elroy, 360 U.S. 474, 497, 79
S.Ct. 1400, 3 L.Ed.2d 1377 (1959), because the Referee refused to issue a comprehensive new
scheduling order after granting OLR’s Motion for Leave to Amend the Complaint, despite Nora’s
Motion for Relief from the Scheduling Order timely filed on August 17, 2016. The Referee, who
had by then been divested of jurisdiction or competency by allowing OLR to amend its yetunfiled and unserved Second Amended Complaint which altered the allegations in not just ¶6 but
¶¶7-32. The change to ¶6 made it necessary for Nora to prepare to defend ¶¶7-32 in Wood
County Circuit Court Case No. 2009CV000283.
Nora had prepared to defend against ¶¶6-32 on the grounds that she engaged in no
activities whatsoever in Wood County Circuit Court Case No. 2014CV00049. OLR was allowed
to amend ¶19 in the Second Amended Complaint filed on August 18, 2016 because it realized

5

According to Justice David T. Prosser, concurring, in part, and dissenting, in part, in Office of
Lawyer Regulation v. Kratz (In re Disciplinary Proceedings Against Kratz), 2014 WI 31, ¶100, 353
Wis.2d 696, 851 N.W.2d 219, 235 (Wis., 2014), the PRC approves 98% of the charges recommended by
OLR staff.

8

640a

that ¶19 was a false statement of facts as Nora had been trying to point out since December 3,
2015. And, OLR also amended ¶1 in the Second Amended Complaint filed on August 18, 2016
to provide that its authority for filing the Second Amended Complaint was not the determination
of facts and allegations of misconduct by the PRC under SCR 22.11(2) but was based on the
Referee allowing the Second Amended Complaint to be filed without the PRC making the
required determination of the facts and misconduct allegations.6
Nora timely propounded discovery based on the filing of the Second Amended Complaint
which altered Nora’s entire position in her defense. On September 23, 2016, OLR sought to have
Nora sanctioned for propounding discovery which it contended was outside the bounds of the
amended ¶6 and ¶19 by having her September 7, 2016 Answer stricken, by denying Nora the
right to file a list of witnesses and any documentary evidence in her defense and denying Nora
any discovery whatsoever (Request for Judicial Notice, Exhibit 19). Without statutory notice and
opportunity to be heard, the then-ultra vires tribunal entered an Order on September 27, 2016
(Request for Judicial Notice, Exhibit 18).
Nora objected to the September 27, 2016 Order contending that it was void for lack of
statutory notice required for due process. The ultra vires tribunal then granted OLR’s Motion
for a Protective Order on October 13, 2016 denying her any discovery whatsoever because she
did not satisfactorily explain how each and every discovery request was related to the changes to
¶6 and ¶19 of the Second Amended Complaint (ignoring amended ¶1 in the Second Amended

6

Although Nora had sought a probable cause hearing because she knew that the allegations in
the Complaint and Amended Complaint were false, her Verified Motion for a probable cause hearing was
denied. But OLR was allowed to bypass the PRC entirely to file the Second Amended Complaint when it
realized after months of Nora alerting OLR to its false factual allegations that some of its factual
allegations were indeed false.

9

641a

Complaint and Nora’s reserved right to proceed on her Sec. 895.044 Motion7). In the October
13, 2016 Order (Request for Judicial Notice, Exhibit 10), Nora was denied the opportunity to call
any witnesses in her defense or to produce any documentary evidence. On October 24, 2016,
Nora presented her Offers of Proof in these proceedings, subject to the objection to subject
matter jurisdiction or competency of the tribunal.
Nora’s co-counsel, John William Verant, who appeared on August 22, 2016, experienced
severe and audibly debilitating symptoms of a pre-existing injury as of October 29, 2016 while
Nora was talking to him on the telephone and working with him to prepare for the October 31,
2016 hearing. Medical records show that he sought urgent care on that date (following the
telephone conference). Attorney Verant was medically incapacitated to the extent that he was
unable to travel to Madison, Wisconsin for the hearing set for October 31, 2016. Nora appeared
at the location of the hearing on October 31, 2016, without waiving her position on subject
matter jurisdiction or competency, and argued for a continuance of the hearing so that she could
be assisted at the (ultra vires) hearing by co-counsel. The matter was reset for evidentiary
hearing to commence on November 17, 2016. Unfortunately, co-counsel was still medically
unable to appear and proceed on November 17, 2016.
On November 17, 2016 Nora agreed, subject to her reserved objections to the subject
matter or competency of the tribunal, to have the hearing held in Milwaukee, Wisconsin for two
(2) days of the hearing. On January 17, 2017, Nora slipped on ice and hit her head on pavement.
What followed was a series of violations of the Americans with Disabilities Amendments Act of

7

Nora’s remedy under Wis. Stat. sec. 895.044 Motion is not the exclusive remedy for the
violations of her litigation rights set forth therein and were reserved for subsequent proceedings on
March 27, 2017.

10

642a

2008 (ADAA) wherein Nora was required to litigate her requests for ADAA accommodations.
The ADAA issues are reserved for subsequent proceedings.8
THE CHARGES
Nora was charged, on differing facts, by allegations of misconduct in the Complaint,
Amended Complaint and the Second Amended Complaint with violations of SCR 20:3.1(a)
(Counts One and Four), SCR 20:3.2 (Counts Two and Five) and with violating her oath as an
attorney (SCR 40.15) in violation of SCR 20:8.4(g) (Count Three). All three (3) versions of the
Complaints9 contain the following allegations of misconduct which appear at ¶¶61, 62, 63, 90,
and 91 of the Second Amended Complaint:
THE SPENCER MATTER
COUNT ONE
61. By removing a state court foreclosure matter to
the federal court after four years of litigation when there
was no colorable basis for federal jurisdiction, and, by
filing a frivolous motion to reconsider the order remanding
the matter back to the state court, Nora violated SCR
20:3.1(a). [fn. 1]
1 SCR 20:3.1(a) provides: “In representing a client, a lawyer shall not: (1) knowingly
advance a claim or defense that is unwarranted under existing law, except that the lawyer
may advance such claim or defense if it can be supported by good faith argument for an
extension, modification or reversal of existing law; (2) knowingly advance a factual
position unless there is a basis for doing so that is not frivolous; or (3) file a suit, assert a
position, conduct a defense, delay a trial or take other action on behalf of the client when

8

Nora observes, however, that as of February 15, 2018, neither OLR nor Attorney Winiarski
opposed Nora’s request for a de minimus extension of time to file this Post-Hearing Brief. It appears that
there was finally no longer any contest over whether or not Nora had been eligible for reasonable ADAA
accommodations since her January 17, 2017 injury. Nora is grateful for the opportunity to submit her
Post-Hearing Brief at this time.
9

In addition to the filing of the three (3) complaints in this matter, OLR also attempted to file
the November 30, 2015 Complaint as a Second Amended Complaint in Nora #1.

11

643a

the lawyer knows or when it is obvious that such an action would serve merely to harass
or maliciously injure another.”

COUNT TWO
62. By filing a frivolous appeal on behalf of her
client and herself when she was not a party to the
litigation, and, by engaging in an ongoing pattern of
conduct to harass the other parties and judicial officers
and delay the proceedings, Nora violated SCR 20:3.2. [fn. 2]
2 SCR 20:3.2 provides: “A lawyer shall make reasonable efforts to expedite litigation
consistent with the interests of the client.”

COUNT THREE
63. By engaging in an ongoing pattern of conduct to
harass the other parties and judicial officers and delay the
proceedings, Nora violated SCR 40.15 enforceable via SCR
20:8.4 (g). [3]
3 SCR 40.15 provides in relevant part: “I will maintain the respect due to courts of
justice and judicial officers; I will not counsel or maintain any suit or proceeding which
shall appear to me to be unjust, or any defense, except such as I believe to be honestly
debatable under the law of the land; ... I will abstain from all offensive personality and
advance no fact prejudicial to the honor or reputation of a party or witness, unless
required by the justice of the cause with which I am charged . . .”
SCR 20:8.4(g) provides: “It is professional misconduct for a lawyer to violate the
attorney’s oath.”

THE RINALDI MATTER
COUNT FOUR
90. In Desa L. Rinaldi and Roger P. Rinaldi vs. HSBC
Bank USA, N. A. , et al., U.S. Dist. Court for the Eastern
District of Wisconsin Case Nos. 13-CV-336-JPS and 13-CV-643JPS, which led to 7th Cir. U. S. Court of Appeals Case Nos.
13-3865 and 14-1887, by filing a motion to intervene and a
motion for relief from the Court’s prior orders pursuant to
F.R.C.P. 60 (b)(2), which motions were found to be frivolous,
after the U. S. District Court had warned Nora that any
further frivolous submissions would result in an award of
sanctions, Nora violated SCR 20:3.1(a) .
12

644a

COUNT FIVE
91. In Desa L. Rinaldi and Roger P. Rinaldi vs. HSBC
Bank USA, N. A. , et al. , U. S. Dist. Court for the Eastern
District of Wisconsin Case Nos. 13-CV-336-JPS and 13-CV-643JPS, which led to 7th Cir. U.S. Court of Appeals Case Nos.
13-3865 and 14-1887, by filing a motion to intervene and a
motion for relief from the Court’s prior orders pursuant to
F.R.C.P. 60 (b) (2), which motions were found to be frivolous,
after the U. S. District Court had warned Nora that any
further frivolous submissions would result in an award of
sanctions, Nora violated and SCR 20:3.2.
THE NEW FACTUAL ALLEGATIONS MADE IN OLR’S
MAY 15, 2017 POST-HEARING BRIEF
The Second Amended Complaint set forth 86 factual statements in support of the five (5)
allegations of misconduct. In its May 15, 2017 Brief, OLR purports to have proved 174 factual
statements by clear and convincing evidence, of which 88 statements were never previously
pleaded. If the 88 new factual statements had been set forth in the Second Amended Complaint,
Nora would have been prepared to respond to those allegations at the evidentiary hearing or
would have stipulated to many of the facts OLR pleaded after the hearing in its May 15, 2017
Brief in early 2016 and would have proceeded to hearing on her defenses to the factual
allegations as a matter of law and by facts in justification and mitigation.
If the factual allegations in the Second Amended Complaint set forth the following
factual allegations claimed to have been proved in OLR’s Brief, there would have been 176
factual allegations in support of the five (5) counts of alleged misconduct. The new factual
allegations set forth by OLR in its May 15, 2017 Post-Hearing Brief are excerpted from the Brief
and attached hereto as Appendix A. Appendix B attached hereto is what Nora’s Answer would
have been if the PRC had determined cause for to proceed on the facts set forth by OLR after the
13

645a

hearing on March 22, March 23, March 24, and March 27, 2017.
ARGUMENT
I. Due Process Issues
A. Nora’s rights to due process

B. Nora did not have notice of the new factual allegations set forth in OLR’s May
15, 2017 Brief before the proceedings commenced.
The 176 factual allegations in OLR’s Brief were required to be pleaded before hearing
began. In the Matter of John Ruffalo, Jr., Petitioner 390 U.S. 544, 551, 88 S.Ct. 1222, 20
L.Ed.2d 117 (1968).
OLR is attempting to amend its charges against Nora, not by proper pleading of
allegations to which Nora could prepare and respond, but by post-hearing argument which
surprises Nora by multiple factual allegations never made in its Complaints. Apparently, ¶¶1128 in OLR’s argument as to the Spencer Matter and ¶¶1-46 in OLR’s argument as to the
Rinaldi Matter are another attempt to amend the Second Amended Complaint which it found,
after the hearing to require multiple new factual allegations. OLR, by factual allegations set
forth for the first time in its Post-Hearing Brief, seeks once again to amend its complaint against
Nora, without the authority of the PRC as required by SCR 22.11(2).
Had the PRC authorized the filing of allegations which OLR has now pleaded its ¶¶1-128
in OLR’s argument as to the Spencer matter and ¶¶1-46 in OLR’s argument as to the Rinaldi
matter as required by SCR 22.11(2), Nora would have had the opportunity to answer the factual
allegations and to prepare her defense and proceed to hearing on the specific allegations set forth

14

646a

therein. Moreover, if the PRC had determined the new factual allegations and OLR had pleaded
the new factual allegations as required by SCR 22.11(4), the matter could have proceeded on
partially stipulated facts. Nora would then have been able to focus her defense on the disputed
facts and upon erroneous inferences drawn from disputed facts. Nora would have been able to
focus her defense on the charges made on the new facts and would have been heard on mitigation
without the expensive, extended effort to ascertain the basis for OLR’s charges in Counts One,
Two, Three, Four and Five.
But, of course, the PRC could not have authorized the filing of the allegations which
OLR has now asserted in ¶¶1-128 of OLR’s argument as to the Spencer matter and in ¶¶1-46 of
OLR’s argument as to the Rinaldi matter because OLR used the hearing in this matter to prove
facts with which Nora had not been charged. Nora did not have notice of the majority of the
factual allegations in ¶¶1-128 of OLR’s argument regarding the Spencer matter and in ¶¶1-46 of
OLR’s argument regarding the Rinaldi matter before the evidentiary hearing began. Furthermore,
OLR clearly did not have the authority of the PRC to make the allegations set forth in ¶¶1-128 of
OLR’s argument as to the Spencer matter and in ¶¶1-46 of OLR’s argument as to the Rinaldi
matter, which were made, for the first time after the evidentiary hearing.
This situation involves a due process violation of the same kind that the United States
Supreme Court addressed in In the Matter of Ruffalo, 390 U.S. at 551, with the additional
violation of Nora’s procedural due process rights by the pleading of factual allegations for which
the PRC did not determine cause to proceed, contrary to SCR 22.11(2).
The United States Supreme Court held, with respect to lawyer disciplinary proceedings:

15

647a

These are adversary proceedings of a quasi-criminal nature. Cf. In re Gault, 387 U.S. 1,
33, 87 S.Ct. 1428 1446, 18 L.Ed.2d 527. The charge must be known before the
proceedings commence. They become a trap when, after they are underway, the charges
are amended on the basis of testimony of the accused. He can then be given no
opportunity to expunge the earlier statements and start afresh.
The United States Supreme Court quoted the Sixth Circuit Court of Appeals judge who
dissented from the reciprocal discipline in the federal district court:
As Judge Edwards, dissenting below, said, “Such procedural violation of due process
would never pass muster in any normal civil or criminal litigation.”
The United States Supreme Court found that adding a charge based on Ruffalo’s testimony
violated Ruffalo’s procedural due process rights.
OLR is attempting to amend the factual allegations to support its charges against Nora,
not by proper pleading of allegations to which Nora could prepare to defend and proceed to a full
hearing as required by the Wisconsin Supreme Court in State v. Hersh, supra, at 398, but by posthearing argument which surprises Nora by multiple factual allegations never made in its three (3)
Complaints and alleged in its May 15, 2017 Brief. The latter two (2) sets of factual allegations
(the Second Amended Complaint and the 176 paragraphs of factual allegations set forth in the
May 15, 2017 Brief) were never determined by the PRC under SCR 22.11(2) and were never
alleged until after the hearing concluded. OLR did not support its new factual allegations by
seeking a determination that the new factual allegations were tried with Nora’s consent, which
would involve a determination that the facts had been tried by consent. Instead, OLR has
cherry-picked the testimony of Nora, Attorney Dykeman and Attorney Carrig out of context from
the record and argues OLR proved Counts One, Two, Three, Four and Five by clear and
convincing evidence because these statements were made on the record, without Nora having

16

648a

notice of the factual allegations upon which OLR now seeks to support the charges against her.
OLR, by factual allegations set forth for the first time in its Post-Hearing Brief, seeks to
amend its Second Complaint. Apparently, ¶¶1-128 in OLR’s argument as to the Spencer Matter
and ¶¶1-46 in OLR’s argument as to the Rinaldi Matter are an attempt to amend the Second
Amended Complaint, after the hearing, which would have required a determination of cause to
proceed by the PRC under SCR 22.11(2). Had the PRC authorized the filing of allegations
which OLR has now pleaded its ¶¶1-128 in OLR’s argument as to the Spencer matter and ¶¶1-46
in OLR’s argument as to the Rinaldi matter as required by SCR 22.11(2), Nora would have had
the opportunity to prepare her defenses, to respond to or answer the factual allegations and
proceed to a full hearing on the specific allegations set forth in OLR’s May 15, 2017 Brief.
Of course, the PRC could not have authorized the filing of the allegations which OLR has
now asserted in ¶¶1-128 of OLR’s argument as to the Spencer Matter and in ¶¶1-46 of OLR’s
argument as to the Rinaldi Matter. Nora clearly did not have notice of the new factual allegations
in ¶¶1-128 of OLR’s argument as to the Spencer Matter and in ¶¶1-46 of OLR’s argument as to
the Rinaldi matter before the evidentiary hearing began, contrary to In re Ruffalo, 390 U.S. 551
and State v. Hersh, 73 Wis. 2d. 398. If she had, she would have answered those factual
allegations as set forth in Appendix B.
B. The new factual allegations were not tried by consent and to the extent that OLR
purports to support the misconduct allegations with new facts, the new facts are
mischaracterized, taken out of context, misstated, ignore the substantial exculpatory
evidence and were not proved by clear and convincing evidence.

17

649a

1. Nora did not consent to trial and was not trial on the unpleaded allegations for
which cause to proceed was not determined by the PRC.
Nora did not consent to trial on unpleaded factual allegations and was given notice or
opportunity to be heard on the new factual allegations. OLR makes no effort to argue that Nora
consented to trial on unpleaded factual allegations for which cause to proceed was not
determined by the PRC. For examples, ¶¶16, 29, 33, 34, 35, 36, 37, 38, 39, 40, 41, 100, 102,
105, 106, 107, 108, 109, 110, 111, 112, 113, 114, 115, 116, 117, 122, 123, 124, 125, 126, 127,
and 128 are new factual allegations, never presented to the PRC and never pleaded as the factual
basis for the misconduct allegations. Nora did not consent to the ultra vires evidentiary hearing
or its location. She was then and there known to be suffering from a partial disability and was
guided by her co-counsel through her direct examination which tracked her September 7, 2017
Answer to the Second Amended Complaint. She could not possibly have prepared to defend
against unpleaded factual allegations, for which cause to proceed was not determined.
To the extent that evidence was adduced to purportedly support any of the new factual
allegations and no objection was made or sustained, she and her co-counsel either allowed the
evidence as historical background or objected to the evidence and the objections were overruled.
To the extent that Nora testified to any of the approximately 88 the new facts alleged by OLR,
her statements have been taken out of context (e.g. ¶29, 33, 34, 35, 36, 37, 38, 39, 40, and 41) or
misquoted (e.g., ¶102 and 109).
For the first time in its Post-Hearing Brief, OLR alleges that that one of Nora’s factual
allegations in the Rinaldi Matter was found by Judge Susan V. Kelley to be “preposterous.”
No where in any of OLR’s complaints was Nora put on notice or given the opportunity to be

18

650a

heard or defend the against the allegation that Nora committed misconduct by making a
“preposterous” claim which now appears a new factual allegation in OLR’s Post-Hearing Brief,
Rinaldi Statement of Facts at ¶16, so she was never heard in defense against the uncharged and
unpleaded allegation.10, 11
Nora understands that the proposition that entities that are national banking associations
(carefully regulated until the Glass-Steagall Act was repealed) created loan pools which were
designed to fail in order in order to collect the claimed indebtedness from third parties may have
seemed like a preposterous claim (far beyond implausible) in 2012 when the Rinaldi adversary
proceeding was filed.12 Had Nora been charged with making a “preposterous” claim, she would
have notice and opportunity to defend against the charge by producing clear and convincing
evidence that the securitization process was designed to fail and did indeed fail. Nora was never

10

In federal practice, unlike Wisconsin state practice, judges are allowed to determine the
plausibility of claims for relief. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167 L. Ed.
2d 929, 550 U.S. 544 (2007); Ashcroft v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937, 173 L.Ed2d 868, 556 U.S.
662 (2009). The requirement that a judge make a plausibility determination tends to suggest that a
statement of the plausibility of a claim for relief has been stated should be determined and here the
plausibility one of the Rinaldis’ claims for relief was determined to not just be implausible, but was
believed to be “preposterous.” The claim that appeared to be to Judge Kelley was set forth in ¶ 82 of
the Adversary Complaint. Judge Kelley found:
Debtors leap to the conclusion that the Wells Defendants designed the entire transaction so that
the loan pool would fail and the “losses would be borne and their loan would be paid by third
parties not involved in the contract between Wells Fargo Bank, N.A. and the Plaintiffs.” (Id.,
¶82).
11

What seems to be preposterous is actually a common practice known as securitization in which
of the national banking associations acted as undisclosed warehouse lenders to loan originators who
obtained notes and mortgages for sale to undisclosed third parties in the “private-label securitization”
process using Real Estate Mortgage Investment Conduit (REMIC) Trusts.
12

See, however,
https://www.usnews.com/opinion/blogs/economic-intelligence/2012/08/27/repeal-of-glass-steagallcaused-the-financial-crisis

19

651a

put on notice that she was charged with the new factual allegation in ¶16 of the Rinaldi Matter
and was denied the opportunity to prepare or be heard on the new factual allegation. Regardless
of her initial finding that the Rinaldis claims were in any way “frivolous” or “preposterous”
Judge Kelley approved the Stipulated Order (Exhibit 300) that made no finding that the Rinaldis
claims were “frivolous.” Exhibit 300 disposes of the OLR’s new factual allegation in ¶16 of the
Rinaldi Matter.
Nora is also charged, for the first time in ¶128 of OLR’s Statement of Facts in the
Spencer Matter of not paying the attorneys’ fees awarded against Ms. Spencer and not against
Nora for the “objectively unreasonable removal” of the Spencer foreclosure case to federal
district court upon the December 30, 2012 discovery that the Federal Home Loan Mortgage
Corporation (Freddie Mac) was the real party in interest based on its published admission that
Freddie Mac owned Ms. Spencer’s loan. Nora was given no notice or opportunity to defend
against the new factual allegation in ¶128.
While OLR argues that the attorney’s fees awards have not been paid, Nora was never
allowed to be heard on appeal and was, therefore, precluded from indemnifying Ms. Spencer in
the appellate proceedings. Ms. Spencer was left standing as the only party liable for payment of
the attorney’s fees awards and OLR’s suggestion that nonpayment of the attorney’s fees is
evidence of Nora’s disrespect for court orders is misplaced. Nora tried to obtain an order of
attorney’s fees against Nora, not Ms. Spencer, by filing the appeal in her own name as well as
that of Ms. Spencer.
If Nora had been charged with misconduct based on the new factual allegation set forth in
¶128, she could have explained that she did not list PNC Bank, N.A. as a creditor in the United
20

652a

States Bankruptcy Court for the District of Minnesota (MNB) Case No. 15-41022 because if one
thing is certain from the Spencer removal proceedings and the appeal to the Seventh Circuit
Court of Appeals, she did not owe anything to PNC Bank, N.A. She would have proved that she
named Sheila M. Spencer as a creditor in her bankruptcy MNB Case No. 15-41022 based on her
duty to indemnify Ms. Spencer.
Some of Nora’s statements in OLR’s are mischaracterized to suggest conduct Nora
denies. See for example, ¶8 of the OLR’s Statement of Facts in the Spencer Matter, the e.g.,
“Nora failed to give a satisfactory explanation how entry of an order she said she had not seen
affected her obligation to file the list of issues. [OLR’s] Ex. 13 (¶8). Nora was never charged
with failing to give a satisfactory explanation of how entry of the June 12, 2012 Order (Ex. 12)
affected her preparation of the list of issues but it is perfectly obvious to any experienced attorney
or even to a lay person that the contents of an order which addresses an obligation must be
received before it is possible to comply.
OLR’s new factual allegation at ¶16 reads “Nora could not explain how Judge Potter
would have known that the Gray Firm had not sent her a copy of the letter and proposed order or
that she had not received a copy of the letter and proposed order.” OLR’s Ex. 12 clearly shows
that Nora did not approve the form of the proposed Order and OLR’s Ex. 19 shows that Wood
County Circuit Court has no five (5) day rule under which approval as to forms of orders are
waived in, for examples, Milwaukee County and Waukesha County.
OLR changed the language Nora never used in the Spencer case from accusing the judge
in the foreclosure action of “fraudulently manipulating” the May 23, 2012 Transcript (new
allegation in ¶102) to “intentionally manipulating” the May 23, 2012 Transcript (new allegation
21

653a

in ¶109) when what Nora actually wrote appears at ¶17 of OLR’s Ex. 20 and reads:
17. It is unthinkable but unavoidable to consider that Judge Potter and/or the court
reporter edited the Transcript of the hearing on May 23, 2012 to make it appear that
Judge Potter was less biased than he is and to remove any reference to trial, which word
was stated by counsel for Sheila M. Spencer in her statement in which the word “quickly”
was used (Transcript, page 5, line 20) and Judge Potter’s use of the word trial was
converted to “hearing” (Transcript, page 19, line 18.) (Emphasis added.)
See Transcript of the March 27, 2017 hearing at T. 674:1-14 attached hereto as Request for
Judicial Notice, Exhibit 20.
Nora was prepared and did defend on the allegations involving the transcript issue. OLR refuses
to acknowledge the good faith factual basis for the filing by misquoting her twice in ¶102 and
¶109 and using different phrases “fraudulently manipulated” and “intentionally manipulated”
when Nora used neither of those phrases.
2. OLR has omitted Nora’s exculpatory evidence and testimony.
OLR not only wholly ignores the Wells Fargo Home Mortgage Attorneys Foreclosure
Manual, Offer of Proof Exhibit 528, sub-exhibit 4 in OLR’s statements of new facts, which was
the basis for the Rule 60(b) Motion in the Rinaldi matter, it is evidence which exculpates Nora in
the Rinaldi matter which has been in the possession of OLR since the investigation into the
Rinaldi matter began. The Wells Fargo Home Mortgage Attorneys Foreclosure Manual (Offer
of Proof, Exhibit 528, sub-exhibit 4) is the most significant part of Nora’s defense to the
allegations that the April 2, 2013 Rule 60(b) Motion was filed in violation of SCR 20:3.1(a).
It also seems preposterous that a national banking association would create instructions to
its out-of-house attorneys to request that missing documents be manufactured for use in
foreclosure cases. The Wells Fargo Home Mortgage Attorneys Foreclosure Manual forms a
substantial part of Nora’s defense to the original allegations of fact and misconduct in Counts
22

654a

Four and Five, establishes selective and vindictive prosecution defense and supports her reserved
Motion for Damages under Wis. Stat. sec. 895.044. The Wells Fargo Home Mortgage Attorneys
Foreclosure Manual wholly supports the Rinaldis’ Motion to Vacate Judge Stadtmueller’s
Judgment.
The Wells Fargo Home Mortgage Attorneys Foreclosure Manual is new evidence
discovered within one year as allowed by Fed. R. Civ. P. 60(b)(2); it is evidence of fraud or other
misconduct by an opposing party under Fed. R. Civ. P. 60(b)(3); its discovery is a reason why
the October 31, 2013 Judgment should not have prospective effect (Fed. R. Civ. P. 60(b)(5); and
it is another reason why the October 31, 2013 Judgment should be vacated Fed. R. Civ. P.
60(b)(6). Finally, and most importantly, because forged documents convey no rights, any
judgment on a claim or defense based on a forged document is void. State Bank of Drummond v.
Christophersen, 93 Wis.2d 148, 155, 286 N.W.2d 547, 551(Wis., 1980).

Nora brought the

Rinaldis’ Motion to Vacate the October 13, 2013 Judgment pursuant to supported by the Wells
Fargo Home Mortgage Attorneys Foreclosure Manual on April 2, 2014 not just for the Rinaldis’
benefit but for her own defense of the pending sanctions proceedings initiated by counsel for
Wells Fargo Bank, N.A. and Gray & Associates, LLP under Fed. R. Bankr. P. 9011 and because
she had been ordered to pay $1,000.00 as a sanction by Judge Stadtmueller.13

13

Nora believed that she had standing to appeal on her own behalf even under the Seventh
Circuit Court of Appeals narrow standing rule, which Nora had argued in good faith should be modified
or extended to situations like hers vis à vis Ms. Spencer in which she had a duty to indemnify Ms.
Spencer for the legal position she took on Ms. Spencer’s behalf by removing her foreclosure case to
federal court based on the discovery of Freddie Mac’s claimed ownership of Ms. Spencer’s loan.

23

655a

II. The Substantive Issues Actually Tried
A. The Spencer Matter (Counts One, Two and Three)
1. Count One–Violation of SCR 20:3.1(a)
OLR asserts that Nora knew that there was no “objectively reasonable” basis for the
January 10, 2013 Notice of Removal of the Spencer foreclosure case from state court to federal
jurisdiction. Nora believes in good faith that there was an objectively reasonable basis for the
removal of the Spencer case to the federal district court.
On December 30, 2012, Nora discovered that the Federal Home Loan Mortgage
Corporation (Freddie Mac) claimed to “own” Ms. Spencer’s Mortgage. Freddie Mac was then
and there in conservatorship of the Federal Housing Finance Agency (FHFA) and Nora believed
that 79.9 percent (79.9%) of Freddie Mac’s capital stock was owned by the United States
Treasury. Nora believed in good faith that Freddie Mac’s claimed ownership of the beneficial
interest in Ms. Spencer’s Note and Mortgage gave rise to original federal jurisdiction under 28
U.S.C. sec. 1349, notwithstanding the allegation by then attributed to PNC Bank, N.A. as
successor in interest to National City Bank, N.A., that it was the owner and holder of the Note in
¶4 of the Foreclosure Complaint in Wood County Circuit Court Case No. 2009CV000283. OLR
Ex. 5. The Notice of Removal was filed on January 10, 2013. Nora knew that Freddie Mac was
required by its policies to take all reasonable and necessary steps to preserve home ownership.
a. Count One–SCR 20:3.1(a)(1)
Nora’s position is that her removal of the Spencer foreclosure from state court to federal
court was based on existing law or a good faith argument for the extension of existing law and
was not contrary to the prohibition at SCR 20:3.1(a)(1), that her first Motion for Reconsideration
24

656a

was intended to address the objectively reasonable basis for the removal in opposition to the
discretionary award of attorney’s fees against Ms. Spencer, and that her second Motion for
reconsideration was intended to clarify that the first Motion for Reconsideration sought to have
the award of attorney’s fees reconsidered only. The appeal to the Seventh Circuit Court of
Appeals was undertaken from the award of attorney’s fees against Ms. Spencer. Nora joined in
the appeal from the attorney’s fees award because Ms. Spencer had followed her advice in filing
the Notice of Removal.
If the award of attorney’s fees was for a “frivolous” filing the Motions for
Reconsideration in the district court could only hold Nora, and not Ms. Spencer, liable.
Represented parties are not liable for the legal positions taken by their attorneys under Fed. R.
Civ. P. 11(c)(5). If Judge Crabb believed that Nora violated Fed. R. Civ. P. 11(b)(2) by filing
the Motions for Reconsideration, Nora was entitled to proceedings by Order to Show Cause
under Fed. R. Civ. P. 11(c)(3). Ms. Spencer could not be held liable for Nora’s filings of the
Motions for Reconsideration under Fed. R. Civ. P. 11( c)(5). Therefore, Nora believed in good
faith that she was a proper party to proceed on appeal to indemnify Ms. Spencer.
b. Count Two–SCR 20:3.1(a)(2)
Nora’s contention that federal jurisdiction was established by the December 30, 2012
discovery that Freddie claimed ownership of Ms. Spencer’s Mortgage was based on the fact of
Freddie Mac’s claimed ownership of Ms. Spencer’s Mortgage and Nora did not act contrary to
the prohibition at 20:3.1(a)(2). Nora had a sufficient factual basis for the assertion of federal
jurisdiction in the January 10, 2013 Notice of Removal–the fact of Freddie Mac’s claimed
ownership of Ms. Spencer’s Mortgage, discovered on December 30, 2013.
25

657a

c. SCR 20:3.1(a)(3)
OLR’s original, first and second amended Complaints did not allege any facts in support
of an allegation that Nora filed the Notice of Removal “merely to harass or maliciously injure
another.” Suddenly, for the first time in its Post-Hearing Brief, and not by notice by the pleading
of any facts that Nora was being charged with filing the Notice of Removal in violation of SCR
20:3.1(a)(3), OLR contends that Nora filed the Notice of Removal in violation of SCR
20:3.1(a)(3) when it was obvious that Nora did so “merely to harass or maliciously injure” PNC
Bank, N.A. Nora’s purpose in filing the Notice of Removal was the sufficient factual basis of
evidence of Freddie Mac’s claimed ownership of Ms. Spencer’s Mortgage (which was later
admitted and then uncontroverted) and the good faith argument that the federal courts have
original jurisdiction over corporations chartered by Congress in which more than one half of the
capital stock is owned by the United States under 28 U.S.C. sec. 1349.
2. Count Two–SCR 20:3.2
Contrary to OLR’s contentions, Nora’s conduct by removing the Spencer foreclosure to
federal court under 28 U.S.C. sec. 1447 of which OLR complains did not delay the foreclosure
proceedings in the Spencer case in violation of SCR 20:3.2. There is no evidence that the
foreclosure action was delayed by the removal, under which the foreclosure action would still
have proceeded, albeit in federal jurisdiction. The Third Motion for Summary Judgment in the
Spencer foreclosure case was not filed by PNC Bank, N.A., now conclusively shown to have
been the servicing agent for the Federal Home Loan Mortgage Corporation (Freddie Mac) until
September 13, 2013, almost six (6) months after the March 25, 2013 Remand Order. Contrary to
the allegations of OLR, Nora did not contest the Remand Order. On Ms. Spencer’s behalf, Nora
26

658a

only contested the award of attorney’s fees for the removal of the foreclosure action within 30
days after it was discovered that Freddie Mac was the real party in interest–a fact which was
subsequently vaguely and then conclusively admitted–as not being “objectively reasonable.”
There was no delay attributable to the Notice of Removal or the appeal from the award of
attorney’s fees. Nora Exhibit 310.
3. SCR 20:8.4(g)
Contrary to OLR’s contentions, Nora’s conduct in the Spencer matter did not violate
the Attorney’s Oath.14 For the first time in its Post-Hearing Brief, OLR sets forth specific factual
statements purporting to support the charge that Nora disrespected judicial officers, depriving her
of notice and opportunity to defend against the specific statements which OLR alleges she made.
OLR seeks to rely on Office of Lawyer Regulation v. Sommers, 339 Wis.2d 580, 811 N.W.2d
387, 2012 WI 33 (Wis., 2012). Attorney Sommers was charged with violating his oath by being
disruptive in a court proceeding. OLR quotes at length from the Wisconsin Supreme Court’s

14

SCR 40.15 Attorney's oath. The oath or affirmation to be taken to qualify for admission to the
practice of law shall be in substantially the following form:
I will support the constitution of the United States and the constitution of the state of Wisconsin;
I will maintain the respect due to courts of justice and judicial officers;
I will not counsel or maintain any suit or proceeding which shall appear to me to be unjust, or any
defense, except such as I believe to be honestly debatable under the law of the land;
I will employ, for the purpose of maintaining the causes confided to me, such means only as are
consistent with truth and honor, and will never seek to mislead the judge or jury by any artifice or false
statement of fact or law;
I will maintain the confidence and preserve inviolate the secrets of my client and will accept no
compensation in connection with my client's business except from my client or with my client's
knowledge and approval;
I will abstain from all offensive personality and advance no fact prejudicial to the honor or reputation of
a party or witness, unless required by the justice of the cause with which I am charged;
I will never reject, from any consideration personal to myself, the cause of the defenseless or oppressed,
or delay any person’s cause for lucre or malice.
So help me God.

27

659a

opinion in Attorney Sommers’ disciplinary proceedings. Although there is a similarity between
Attorney Sommers and Nora to the extent that both pursued vigorous advocacy of their clients
causes, Nora has never disrupted a court proceeding.
OLR also cites to Disciplinary Proceedings Against Beaver, Matter of, 510 N.W.2d 129,
181 Wis.2d 12 (Wis., 1994). Nora does not challenge the constitutionality of holding attorneys
accountable for violations of their oath in disciplinary proceedings, where appropriate and,
properly applied, SCR 40.15 enforceable via SCR 8.4(g) is not unconstitutional. Indeed, all
attorneys are required to and should be able to conform to the expectations of their oaths.
Sometimes part of the oath might conflict with another part of the oath. For example, while an
attorney must maintain the respect due to judges and judicial officers, the attorney’s duty to
uphold the Constitution of the United States and the Constitution of the State of Wisconsin and if
an attorney believes in good faith that his or her client’s constitutional rights are being violated, it
is a defense that conduct which may appear to violate the oath in one respect (maintaining respect
due to judicial officers) was required to uphold the oath, in another respect (“I will . . . advance
no fact prejudicial to the honor or reputation of a party or witness, unless required by the
justice of the cause with which I am charged”), in the judgment of the attorney.
Nora did not violate her oath in her representation of Ms. Spencer, but should not have
used her personal dispute in another (her personal) case with Judge Barbara B. Crabb as
jurisdictional grounds for her own appeal to the Seventh Circuit of Appeals in an effort to protect
Ms. Spencer. The indemnification argument was sufficient in and of itself and raising the
medical records issue from another case detracted from, rather than enhanced, the jurisdictional
argument, although the invasion of privacy by disclosure of Nora’s confidential medical records,
28

660a

filed under seal in Case No. 10-cv-68 was a species of defamation and because they were in
writing, the act was a species of libel. What is unrecognized, however, is that Nora knows that
Judge Crabb is immune from being sued civilly for her judicial acts, even if the acts were
malicious. Although Nora agrees that she is an experienced attorney, and very experienced in
foreclosure and ADAA cases compared to most attorneys in the communities where she
practices, she was horrified that her confidential medical information from a short, totally
disabling episode in 2010 was published by Judge Crabb in an effort to hold Attorney David M.
Potteiger, an inexperienced attorney, and his more experienced supervisor harmless from Nora’s
contempt proceedings against them. Nora’s confidential medical records had been filed under
seal by order of Magistrate Judge Crocker in Case No. 10-cv-68. See Request for Judicial
Notice, Exhibit 21, Entries 7 and 10). OLR has taken Nora’s statements out of context and
misconstrues the meaning of her statements and incorrectly attributes legal positions to Nora
which Nora did not take.
B. The Rinaldi Matter (Counts Four and Five)
1. Count Four–SCR 20:3.1(a) never pleaded or addressed with specificity
For its “analysis,” OLR merely incorporates its “analysis” of Count One in the Spencer
Matter. The findings of Judge Kelley, Judge Stadtmueller and the Seventh Circuit Court of
Appeals panel do not establish that Nora violated any of the three (3) subsections of SCR
20:3.1(a). The vagueries of OLR’s Post-Hearing Brief as to the basis for its charges exemplifies
the due process violations in these proceedings and OLR’s omission of the exculpatory evidence
of the Wells Fargo Home Mortgage Attorneys Foreclosure Manual, the discovery of which led to
the filing of the Rule 60(b) Motion discussed at length above and at the hearing on March 27,
29

661a

2017 at T. 762-772 (Request for Judicial Notice, Exhibit 22) was the good faith basis for the
filing of the Motion.
Were it not for the discovery of the new evidence of the Wells Fargo Home Mortgage
Attorneys Foreclosure Manual to which Nora testified at length and directed Attorney Winiarski
attention to the specific instructions to outside counsel for ordering manufactured documents,
Nora would not have brought the Motion for Relief from Judgment under Fed. R. Civ. P.
60(b)(2), (3), (4), (5), and (6). That is why Offer of Proof, Exhibit 528, sub-exhibit 4 is so
significant in these proceedings. March 27, 2017 Transcript at T. 762-772, Request for Judicial
Notice, Exhibit 22.
2. Count Five–SCR 20:3.2
There is no evidence whatsoever that Nora’s conduct in the adversary proceedings, the
appeal from and review sought of the recommendations of Judge Susan V. Kelley to United
States District Court Judge Joseph P. Stadtmueller or the appeal to the Seventh Circuit Court of
Appeals Kelley in any way delayed any proceedings involving the Rinaldis. In fact, the Rinaldis
dismissed their Chapter 13 Case on March 5, 2014, based on their inability to make their Chapter
13 Plan payments and no new foreclosure action was commenced against the Rinaldis until May
2, 2017. No position taken by Nora in the adversary proceeding filed on June 18, 2012 and
amended on August 23, 2012, heard by the appeal to the district court and the on Objections to
the Report and Recommendations and on appeal to the Seventh Circuit Court of Appeals caused
any delay whatsoever in the Rinaldi Matter.

30

662a

CONCLUSION
Had the PRC found cause to proceed on the factual allegations which OLR set forth in its
May 15, 2017 Post-Hearing Brief and OLR had pleaded those facts before the hearing
commenced, Nora would have notice of the charges, the opportunity to be prepare her defense
and the opportunity for a full hearing on the charges, as required under State v. Hersh, supra.
The new factual allegations made for the first time after the hearing violate the due process
principles set for in In re Ruffalo, supra.
Nora produced substantial evidence of her good faith factual and legal grounds for the
positions she took in the Spencer and Rinaldi Matters, that her positions were not interposed for
the purpose of delay, and that she had not violated her oath as an attorney at the evidentiary
hearing despite all the obstacles she encountered in her effort to be heard.
OLR apparently recognized that it failed to prove the factual and misconduct allegations
in the Second Amended Complaint and Nora agrees that it failed to do so. OLR then submitted
new factual allegations for which cause to proceed was not determined by the PRC in its May 15,
2017 Post-Hearing Brief. Nora had no notice, no opportunity to prepare her defense and she did
not have a full hearing on the new factual allegations. OLR’s new factual allegations cannot be
considered after the hearing concluded.
As to the substantive issues for which Nora had notice and opportunity to prepare to
defend and be heard, OLR failed to meet its burden of proving the misconduct allegations by
clear and convincing evidence and the Second Amended Complaint to which Nora objected as
having not been authorized by the PRC must be dismissed.

31

663a

 56-"!/356 

1! 616  '0-,6 '0-,0',6 1&'06 







 

 


!, 56


   

  

*)0-,6-/6

6 6 

6

-3/1&64!6 6 3(1!6 
(,,!.-*(06 (,,!0-26
 
!,1/*6"#!6 -'!6    
!,1/*6"$!66    
!00*!%0!/4'!0%+'*-+6
6 6 



 

    

664a

APPENDIX A

665a

Ү

Ү

Ү
Ү
Ү



Ү



Ү

Ү



Ү

Ү



Ү
Ү

Ү

]

Ү

Ү

Ү
Ү
X



Ү

Ү
Ү



]

Ү

Ү
Ү
Ү



Ү



Ү
Ү
Ү
ƺҮ
Q2a=(?Z
7

;)Q W[7W/ZGQf ?&H?d7?7?2 *d8&)A)W`MNIQZW
Z5)J`?ZW R7W7?2 G`\G/ Z5( WM(?+Q >]Z,Q


0hj  Qprhmv}r Wp}kp >h p Wp}jp /hj  

_ 9Ү²ҮãҮãҮҮÔҮ͗9 Ү°ºҮ %Ү Ү%#nҮ
Ү

_ȚҮ  ҮǲҮƧҮ ҮŌҮĢ  Ү  ;#Ү щ Ү #Ү å Ү

"#ȃf#Ү́Z ҮωĐҮ ҮąfҮ#ҮA # ǈƾ˄

]



! #΅ЂҮJ1 !ĕHҮĴ˚ˤҮ ҚzҮǈ ˥Ү Ǫ!zҮ-&< ]

666a

UҮ

$Ү ƥ-ČҮ ő Ү ҮҮ ]Ү Ү Ø Ү ҮÒҮҮm Ү

Ү Ř Ү Ү Ү )  Ү ) Ү |Ү Ү  Ү Ү Ү Ү  Ү Ү Ү
 őҮ Ћ Ү  Ү 

 EҮ Ү ]Ү [ҮUҮ , mҮ J1, <HҮ Ү ʵ˘ę

¢n¢ˣҮ !Ү ˙ęҮJ""ăÍʇҮ IҮ[Ү+ęʟ&HUҮ
5Ү

$Ү Ү Ү Ү Ү  Ү ]Ү [ҮҮ ¨mŨҮ , Ү ļ-ш'Ү Ү

Ү χҮqҮşҮ ă KҮ )ĄµҮ J1qҮ V Č<HKҮ  ҮҮ Үm 'Ү Ү
Ү ȗҮ Ý Ү qҮ Í'Ү  Ү  mҮ Ő 'Ү Ү $Ү  ҮīҮ
ċҮ  ҮҮ   ҮǳҮҮȜҮҮ-ҮҮ ҮҮ  ҮҮҮҮÝ Ү¢[ũUҮ
!Ү&Ү !YҮ¢n[Ү¡N+Ү,Ү Ү¢jʘNĜ£ÿҮ
UҮ

$Ү| Ү ҮȏŎҮ Ү ҮҮm ҮҮÝ Ү¢[ҮҮ  ҮƪҮ¨Ү  Ү

IKҮ ҮÝ Ү B[Ү[Ү ҮÒcҮ Ү1ăâÒҒmҮҮǴѥ  ҮҮ] ҮҮÍEҮ
3ҮиҮV#cҮŽ<Ү !Ү £ҮJ""ăÍҮIҮHŹҮ !Ү ŹҮ,Ү Ү½Ĝ£ţ+£+ÿҮ
ĜUҮ

żҮ ϔҮ ҮħcҮ ҮÝ ҮB[Үƥ ҮØmȘҮҮ ҮEҮÝfҮ

&[Ү[ҮψҮҮ! ҮҮ ҮҮȒҮ Ү ҮҮm Ү  ŃҮ&ǞƳH[ҮÁ Ү Ү"˾ă͋Ү
 ѤҮaҮ  Ү Ү m!Ү@ ØҮ@ҮҮѾҮȒcmҮ !ĲҮ ]£ɢĜŹҮ !Ү :%]
+UҮ

IҮ@ҮÝ Ү B[ҮҮ ύ-mKҮ$ҮѿҮ Ү Ү Үõ-mƦҮ Ү˿"ăŁҮ

 'Ү @Ү ҮØҮ1  hҮҮÒÂҮ ҮôҮ 3ҮØҮ Ү mҮ Ү mҮ Ү
Ý Ү[Ү [<Ү Ү Ү Ү ҮҮҮ-ҮØm ҮҮmҮhmҮҮ ҮҮÂҮ
ȓҮ@Ү]Ү [Ү¢ҮL µҮ !Ү j[Ү [Ү zҮ

B (8B /B !52/@-B %25B :'#B : :#B 2%B (8!208(/B 2182,(" 9#"B 3<5:B =:2- :(2/B 62&7 .8 B
)8!208(/B!2>; 8B ' ?#B : +#/B*<"(!( ,B/2:(!$B2%B B5#!25"8B <AAX ADX 5ERFX  3SA@EUX/??AOU>I?AX

2MQNX X B 44B  B AB B/,B  $X (8B "B $#X  B "B 

$]

B

667a

BҮ

kҮ Ү 8 Ү ҮBҮ Ɖ^ 4Ү $Ү Ү  Ү  Ү 1Ү  Ү Ү Ү  Ү

E ҮҮ8 9Ү&[ҮҮ<ҮJ !êҮ j[ҮdҮíHKҮ ҮҮ ҮZ  ҮҮҮҮ^Ү Ү
 ҮҮ ҉ҮҮ Ү8 Ү¢[ҮҮ Ү,UҮҮB£ɣǂBҮ
&Ү

$ƯҮ 8 Ү BҮν^ Ү  Ү Ү  Ү !ŏҮ %ҮҮҮ

ҮҮ Ү EҮ Ү ҮҮҮ Ү ҮZǿP  ҮҮҮ ҮP ҮҮ  Ү !UҮҮ
¢Ү

kҮ Ү8 ҮBҮŋ^ KҮ $ҮҮ Ү Ү  ÚҮ `ҮҮ Ү  Ү Ү

qҮVÄҮ ҮҮ ҮҮҮҮPҮҮ8śҮ?Ү !Ү ~½[ҮddҮ ęҮ
{Ү

ÌҮҮҮҮҮ y Ү OҮqҮV ЮȥҮ Ү ҮҮġҮҮ % Ү ÀҮ

ҮҮҮ Ү  ¹GҮ ,5Ү Ү&nǖęǝ Ү
{Ү

kҮ ѝҮ8 Ү B ҮƉñ^ KҮ$ŕҮ  Ү  ҮqҠҮV ŒçҮ yȋ

Ү Ү

 ҮZўҮҮҮ1!ҮҮ    aҮ% Ү Ү" ŞҮ !Үn[ҮddҮŤ+Ү
 Ү

kyҮ Ү8 ҮBҮŋ^ 'Ү$ҮҮōҮ Ү%Ү   wҮĦҮ  P ҡҮ

Ү 1^ wҮ Ү  ¸  Ү 8 Ү ?Ү Ү !Ү Ү ø  Ү %  Ү ̿ć˫ҮͬҮ şҮ
A))3"kˬ, )KҮ ̣iË?ƫҮ !Ү j[ҮdҮB{ĲҮ
µҮ

, Ү 8śÕҮ &[ҮҮ  Ү ñEҮ Ү $Ү Ү ÔҮ ) Ү Ȍ`×Ү 1Ē 9Ү

 ¸   ² ҮҮ8 ҮqҮC ] ĆŕҮZҮFs|ҢҮ ģ Ү ҮҮV   Ү !Ү
?lҮ"ÄÄ   ҮҮǧ9 Ү !Ү?Ү3¹Ү Ү, Ү?  G<Ү !Ү ʨ£Ү
Ү

kҮ Ү8 Ү&Ү  KҮ$ҮҮҮ Ү) Ү 9 ҮҮҮ1 `Ү

ҮXś <ҮJúÏ[Үǂ j[ҮdҮHҮҮҮ1 Ү Ү  <Ү JúÏ [£[Ү
Ү
dҮHҮ
,]

IҮLҮ8fҮ&ҮZ KҮ$ҮȹsҮLҮЯҮ8 ҮB[Ү ƽ[Ү ҮŅ -ҮҮ

ĥҮ² Ү  ƆҮҮ ҮҮĤҮ śҮEҮ]Ү , [ҮҮ ÃҮҮ ÃҮҮϘÂҮ8ҊҮ
ǅ[Ү½Ү JɷÏ[Үn[ҮdҮ &H6Ү ̱Ү  h%PҮ Ү ! Á ҮҮ%ҮҮ ҮҮƏҮPsҮyEҮ
Ү

668a

!  Ү ʆҮ %ҮҮ Ү Ү ҮҮŇҮҮ Ү Үe Ү &Ү  ҮҮ Ү ҮeøҮ\Ү
ŋ^ þҮ,6Ү Ү+ì¤N+¤Ү
ŰzҮ

, Ү 9Ү Ү  ҮEҮ]Ү ('Ү Ү Ү ҮOҮ × %Ү Ү

Ү Ү Ү $Ү !Ү ¤Ү $Ү fҮ ´Ү ! Ү %Ү e Ү ?Ү % Ү ^Ү
`%ҮϧҮ ҮqҮV Ү ҮҮҮ ҮҮ ҮҮ ҮҮҮҮҮҮ Ү
 Ү ҮaƖҮ  ^ҮҮ Ү  ҮҮҮҮGҮ,Ү Үǒ¤N(6Ү
ǔҮ

kҮ Ү̛ Ү&Ү  'Ү $ҮҮ Ү1ͯɔ Ү ҮҮ ҮñҮ  ҮҮ!Ү

Ү    Ү  Ү Ү Ү  Ү Ү Ү e Ү qҮ eҮ ?6Ү !Ү
ʥ­ɘҮdҮ ʐҮ ̲ҮҮ Ү Ү ьZҮ ҮϷæ ­ҮҮ ϸ Ү Ү]

Ү'Ү Ү

J !zҮĺʮ'ҮdҮGG HҮ JHҮҮ ҮҮPҮҮV Ү\'ҮҮJúÏG' ddҮŬY ҮҮY6 HҮ
ƕEҮlҮŗ ҮҮ^ ҮҮ ҮX ҮEҮe Ү\KҮҮJĮÏ ' dҮê6 HҮ
&Ү

IҮ Ү e Ү &Ү  'Ү $Ү Ү Ү  Ү ̔ Ү !Ү Ү <Ү Ү

1 öҮ!ҮҮ Ү œҮ  Ү aҮ Үэф  ҮĮÏ6 ' ҪҮǌҮ
˃zҮ

IҮ Үe Ү &Ү 'ҮżҮҮ Ү1Ơ Ү Ү E Ү Ү Ү Ү

Ү   ҮҮ   l Ү ҮX  Ү|Ү Ү Ү  Ү   Ү Ү Ү!ҮҮ
Ү Ĥ Ү  9Ү   Ү ŊҮ  Ү "Ĕç Ү 9Ү ĒҮ Ү  Ү  Ү Ү  Ү
ŗu ҮҮ]Ү'Ү ʑ  < Ү !Ү ¤+'ҮdҮ+6Ү
êҮ

IҮ Ү e Ү &Ү  'Ү $Ү Ү  Ү1ÞßҮ ¹Ү 9 Ү  Ү

ҮĥҮŅҮ ҮeøҮqҮ eҮ ?Ү Ү  Ү %  ҮqćAͭҮşҮA)͒3"kA, )'Ү
ǱǱ?ҮҮ ġ ^Ү Ү   ҮҮ fҮҮ Ү ҮEҮ PϹ aҮ!Үs9Ү
Ф   аҮ§Ү%ĥ
éҮ

ҮҮ@^Ү§ҮīҮҮ @Ү fџ6 <ҮĮΟ ' ҮdҮ%]

ľҮčҮ Ү̜ Ү? Үu Ү 9ҮҮҮ)ąFҮ+JǍHJH'Ү
(Ү

669a

%

ҮЗҮ  Ү!ҮҮ    bҮҮǸ"ćҮ+JHbҮ%

1ÞßҮX Ү ҮOҮX 
Ū5Ү

ҮҮ Ү

Ү  Ү%   Ү ҮҮX  Ү !ҮǛ\N&bҮ ǖ5Ү

̳Ү ҮҮҮ`y%ҮҮҮ ҮҮ!ҮҮ    Ү

 ҮҮҮ Ү Ү Ү YҮ ̕Ү`ȾҮ%ÎҮ  ҮҮ% Ү%Ү%Ү Ү 9Ү
 ҮńEҮҮ% Ү ҮҮ 7Ү,õzҮҮŷҮ\5Ү
UҮ

AҮҮÔҮҮ] :ҮbҮ ҮĬҮ©OҮ   À bҮ Үό^ ҮoҮ

qҮ V ȲҮ Ү  ҖҮ Ү Ү  ҮΪҮ )ю Ү %Ү ^Ү Ү ÖҮ Ү Ү̴ ҮҮ
] ҮҮ] ҮñҮ%  Ү Ү  ҮҮA ͓bҮҮ !Ү(Ү͟ҮҮ&\ɰ.W.5Ү
ǆҮ

AҮ Ү LҮ Ү V Ү \bҮ Ү !Ү Ү Œ   bҮ ÔҮ ġ Ү

 õEҮ  %Ү  Ү  Ү Ү Ү  Ү  Ү   Ү Ү ð Ү %Ү  Ү Ү )¨ Ү
) UҮ̌!Ү+Ү ,5Ү Үū+&+NǓŲ+5Ү
(UҮ

AҮ Ү ҮҮe ҮbҮ Ү!Ү ȭҮ Œ   bҮ șҮ  ªҮ Ү

 %Ү  Ү Ү ѴҮ sҮ  Ү

Ү ϑ Ү Ү  Ү Ȧ|Ү Ү Ү ^ Ү ơ ҮX œҮ %Ү

 ҮҮ) 9 ИҮ ) 5Ү Ĭ5Ү &ǢҮ,0ҮҮ\N\Ү
ʒ+ƹҮ

ĿҮe Ү bҮ bҮ¥ҮÒEҮҮ1¥ ҮҮą  ҮĿXu ҮҮ̒ēȳ Ү

͆ ȍ Õƹ<Ү , Ү ľ Ү `Ү 1̃ ¸  Ò ÷ Ү Ү e Ү qwõɃҮ e5Ү ?Ү Ү
ćҮ  Ү ҮҮV   Ү !Ү͇Ү ğ   ҮҮ  Ү A\] ǷҮ
3¹ҮÞƚ  ßҮ Ү Ү? E Ү U5 5 5 ƬҮ Ү !Үí­ǢҮ,5Ү Ү\.ŷ.N&n\YҮ
Ǉ\5Ү

3Үe Ү(b bҮ¥Ү³PҮҮ1A9Үľ ҮҮ" Ȧē Ү3І  Ү

ҮǬ ĦĪҮ ? E z<Ү !Ү =] ,5Ү Үķ+N+YҮ , ҮҮ  Ү%9Ү 9Ү̵ uҮ
ðȢҮ Ү˭ХȍҮ̶ uҮ Ү Ү Үč9ҮҮˮҮ, Ƞ Ү]hҮgĨ^ҮҮ ҮqҮ
V бвҮ ƗҮ Ү ҮҮ  ҮAҮ¥ Ү,5Ү Ү\.Ŧ5Ү
+Ү

670a

&ÿҮ

IҮ 7Ү1"  Ү3X  ' Ү$7ҮҮ  Ү  Үq7ҮV 7Ү ÃҮҮ

1ø Ү 7͹  Үξ Ү Ү Ү Ү @ !Ү'ҮdҮ\SҮ ,7UҮҮ&ŲŤ(Ү
.Ү

IҮ 7Ү1"  Ү3X  'Ү$7ҮҮ  Ү  ҮҮ7- ҮҮ

 Ү7хEҮ 7Ã7Ү ª¹Ү Ү 8 Ү 'Ү Ү ƨҮ 7Ү οҮ1Ү   Ү7Ү EҮ 7  Ү
Ү 8 Ү Ć7Ү Ү Þѵ Ү ǭ7ɄҮ V 7ß'Ү i )  Ү Ү  7'Ү Ү   Ү Ү 7  9Ү
7  7Ү Ү͔  ЙҮ]Ү )đ 7ҮҮ 7Ү  Ү @!UҮ'ҮdҮ&SҮ,7zҮҮҮ&ų+ı+Ү
ɾ5Ү

IҮ 7Ү 1"Ϻ Ү 3X  Z'Ү$7Ү Ү  Ү ϩΫҮ 1!Ү7Ү77Ү  Ү

Ҏ7Ү ͺ-Ү΄Ү  7Ү 7Ү  Ү Ү 8 Ү Ć7Ү ´Ү%Ү Ү  7Ү 7 7ҮҮsϨҮ
7  гҮ ҮҮ7-ϻ%Ү Ү ҮϽ ѶҮ Ү7´Ү æ Ү%´Ү 8ĔwҮŁцѷå97Ү
ҮÞ Үq7ҮVϼ7ßUҮ̍!Ү ½n+'ҮdҮÊSҮ,7Ү Ү.ĺNҮ
UҮ
1

IҮ 7Ү 1"  Ү 3X9  'Ү$¹Ү Ү  Ү ǭ7Ү ǫ 7Ү Ү ģҮ Ү

 - wҮ Ү7

7Ү Ү8 Ү'Ү ìҮ !Ү7Ү7|7ҮƉҮ8 ҮĆä7ҮĨҮ7Ƚř×Ү% Ү Ү

Ö  ҏEҮҮҮҮҮ ҮÆ 7ҮҮ Ү̧Ү'Ү ƾҮ 7  ŨҮ ̎!éҮ +'ҮdҮ˟Ү,ѠŨҮªҮ
.üĶ.Ү
 Ү

IҮ 7Ү 1"  Ү 3X  'Ү $7Ү Ү  Ү Ү

Ү Ґ %Ү ƇҮ  Ү

7 7Ү %Ү 7¸ 7Ү ėė Ү  w Ү Ү Ö7yҮ Ņ7 Ү %Ү ǯ Ү Ć7Ү EҮ ¨Ү
À%7Ү7ҮÞ Үq7ҮV 7ßé Ү @[ ] W+'ҮdҮSҮ͠7UҮlҮ.N\Ү
5Ү

IҮ 7Ү1"  Ү3Ї  'Ү̷7ҮҮ æWҮ
Ɓ  Ɓ Ɓ K Ɓ  Ɓ  Ɓ D 9Ү 6 Ɓ Ɓ F Ɓ  Ɓ
ŽbƁƁ ƁŪ ƁƁ QƁ%ƁƁ * Ɓ Ɓ Ɓ Ř#Ɓ ƁƁ ŒƁ
%Ɓ  Ɓ
6 GƁ Ɓ  Ɓ $ Ɓ  ƁƁ
(īƁ4RƁ
Ɓ Ү
Ɓ Ɓ
Ɓ
Ɓ
ƁƁūĎƁƁ -ƁĚƁƁ
GƁƁ*)Ɓ

!zҮjǓ'ҮdҮǣҮ,7éҮҮ.ĺ&ü\Үɑ  Ү>ÃHéҮ
&X

671a

UҮ

kҮ Ү1"  Ү3  K<Ү$ ҮҮ ĺҮ
Ɓ Ɓ
Ɓ *Ɓ *Ɓ Ɓ Ɓ *] Ɓ
7Ɓ
;*Ɓ  $Ɓ Ɓ Ɓ R R + Ɓ $Ɓ Ɓ Ɓ Ɓ ÒƁ  Ɓ
6 Ɓ Ɓ
Ɓ Ɓ
Ɓ Ɓ
 ƁƁ Ɓ$ RƁ

!UҮ¤+'ҮdҮ}Ү,ĚҮ Үí¤&.W}ҮJ  ҮHUҮ
kҮ ÅҮ 1"  ´Ү 3  K<Ү $Ү Ү  Ү 1 9Ү ɋ ^ Ү  Ү `Ү

#* ]

%Ү Ͼ  Ү Ү Ү ҮҮ ^Ү Ү  Ү Ү  ҮҮ Ү%

Ү Ү

 ҮҮȲ  ^5<Ү !UҮ ŷ+'ҮdҮ+Ү,GҮ Ү.n+ţҮ
+zҮ

kҮ Ү 1"  Ү ̀  KɆҮ $Ү Ү  Ү 8 Ү ?Ү Ү Ү

Ňč^Ү πҮρҮ Ү²Үɇ  Ү Ү Ү %Ү Ү %ҮҮάҮͻ˦Ѹ ^Ү   <Ү
ĦҮqңҮV 5Ү !UҮ ¤\əҮҫҮ&Ү,Ү Ү.W+.ǜʾGҮ
ʿzҮ
1Ͱ Ͳ
ҮÆ

kҮ Ү 1"  Ү 3  K<Ү $Ү Ү Ү 8 Ү ?Ү Ү  Ү
Ү Ү Ү Ү Ү Ƚ Ү   Ү % Ү Ү 

Ү Ү 9ĬҮ

 ҮҮ Ү Ү ҮҮqҮX AZ KҮ̟ǰ?Ү ƘҮҤҮe Ү

?å5<Ү ɀ5Ү ¤\'ҮdҮ .SҮ ,ĚҮ Ү.¤&6Ү
Ү&GҮ

A  ĦҮ $Ү  ñ9Ү  Ү  Ү  Ү Ү 

Үǯ Ү ŁҮҮ1  ҮҮ

Ȃ Ү Ү Ү Æ Ү  Ү % s Ү  Ү  Ү ȱ Ү ςŠҮ J,Ү ҮnҮǜҮ]HKҮ yҮ
Үğ ´ wҮ3  Ү$ҮҮ ˑҮ
ßŅƁ $ Ɓ $ Ɓ Ɓ Ą  Ɓ ąƁ Ɓ $*Ɓ Ɓ Ɓ
  $  Ɓ Ɓ  Ɓ ĝ$¸Ɓ $ Ɓ D Ɓ 6 ŸƁ ;Ɓ (Ɓ 4 c Ɓ
($°Ɓ $ bƁ  Ɓ D Ɓ 6 Ɓ ÿ Ɓ $Ɓ Ɓ (Ɓ 4 , Ɓ
(Ŕ$Ɓ$ Ɓ Ɓ Ү  ƁƁ Ɓ $ŌƁ Ɓ   Ɓk**  Ɓ Ɓ
Ɓ$ Ɓ$Ɓ ěÁƁ

ɀUҮ¤&bҮdҮ}Ү ,5Ү Ү¤ʦʝ¤UҮ
.UҮ

kҮ Ү1"Ŕ ´ Ү3  K<Ү$Ү Ү ƏҮ1eĔҮ?ҮșҮ ҮŇҮ
)X

672a

ȏŎҮ æҮ O ҋOҮ L őPҮ Ү ČҮ LҮ Ƙ O wҮ ^Ү ƟOҮ  wҮ !Ү Ү !Ү Ү
   Ү Ү L^ Ү O OҮ ^Ү   wҮ %L LҮ Ү Ү P Ү Ү
ƙOKҮ PҮ  Үđ O w5 <Ү !5Ү.KҮdҮSҮ,ҮҮ~NUҮ
ɿUҮ

IҮ LҮ 1"  wҮ 3Ј  дK < Ү $Ү Ү LҮ 8 Ү ?OҮ 1LҮ

  OΠҮ  Ү Ү % LҮ LҮX Ү Ү ÅҮ ŏ  Ү Ү Ү " Ү " ΍ Ү
"  <Ү̏!5Ү j.»ҮdҮ SҮ ,5Ү ҮÜ+UҮ
UҮ

IҮ LOҮ 1"  wҮ 3X  KҮ $Ү Ү LҮ 8 |Ү ?OҮėėLҮƁКPŜҮ

 ѓ P σҮ L ×OPҮ Ү L Ү `% Ү P

Ү aҮ LҮ    OҮ ҮX  Ү ĪҮ

Ү LҮ яΎO ȔҮ Ү L Ү KҮ æL ģLҮ !Ү Ү Ү Ү   P Ү Ү LҮ
 O Ү ҮҮsLOҮ  ҮҮÞLҮqĩҮ V ß <Ү !Ү n.KҮdҮ(ˠҮ ,Ү lҮ\Nʀ˒YҮ
ʓUҮ

AƟOҮ L Ү Ү A w æҮ &KҮ KҮ 8 Ү ?OÆҮ  OҮ żĘҮ Ä Ү

O` wҮL Ү ¸ P ħ  ҮãҮLҮ)© Ү Ү !Ү ¾SҮ !Үĵ.SҮ,ҮҮ˓.üʧ+j&GҮ
5Ү

3ҮA  ҮʞKҮ»Ү$ѡҮƈЀPEҮLƆҮP ҮҮϿ ҮҮ  έÃҮҮLҮ  ĒҮͼҮ

¨OҮ]ҥҮ»ҮʔҮ ¨ 5Ү !5Ү\ҮA ĞҮ,ҮҮ\j\ıUҮ
ķYҮ

IҮ LOҮ P Ү Ү  KҮ $Ү Ү LҮ PPw Ү  ªҮ O!Ү ȳҮ

  ² ҮȿOҮLOҮqҮV ҮҮ8ĔҮ?OҮ|Ү ҮLOҮ8 ҮǕҮ1AϊȜ^ Ү
Ү Ìüž  K<Ү Ү LҮ 8 Ү &Ү  Ү ` Ү Ώ PҮ Ү 8 Ү ?æOKҮ Ү Ү LOҮ
 w PҮ Ү 9Ү 1"  wҮ 3X² K<Ү LҮ LҮȑPҮ ҮLҮ )Ö Ү l5Ү !5Ү
\˯˔+ıƿ»ҮdҮ¾.SҮ !5Ү »Ү KҮ.ƱҮǣҮ,5ҮҮ&jüj¬Ү
(UҮ

3Ү3 ҮKҮ ¾KҮ AsҦҮ 8Ү " Ү ƊҮ ȫҮҮLҮ©P  Ү

aҮϪҮuҮҮ !5Ү j\ҮJ̚Ү\ҮHĞҮ ,ĪҮ Ү˕ҮÜǀŰ5Ү
+UҮ

3Ү3 ȂҮ¾.»Ү»Үą ҮѹŎPҮҮ 9ҮҮ ҮҮLҮl  Ү Ү
+X

673a

; Ү͕Ö Ү;Ү !Ү n\ҮJk;Ү\HˡҮ ,éҮ Үǝ&N Ү
\Ү

kҮbҮ$ҮñҮҮ;xҮҮ `Үą ç Ү; ҮҮ Ү !Ү

Ĺ\ҮJkҮ\HSҮ,¬ҮҮN Ү
&Ү

3Ү Ү (bҮ bҮ  Ү  Ү е

Ү Ү  Ү ; ƥҮ ;Ү$ĘҮ

X ; Ү Ү " ɌҮ  Ү Ү ;Ү %  Ү ?$"Ү g`Ү %Ү Ү Ү ;Ү ;Ү ; Ү
) ¹Ү YҮ !ÉҮ j&ҮJk;Ү&HҮ ,Ү Ү(nN\ĹҮ
.Ү

3Ү  Ү bҮ Ү bҮ " Ү ÑҮ  ; Ү ;Ү õ; Ү ; Ү   Ү ȴҮ Ү

  ; ;Ү͈$"Үg`ҮÎҮ; ҮsҮx; YҮ !ÉҮ n&ҮJk;Ү&&HSҮ,Æ¬Ү ;Ү\nNĸn Ү
;8X

3Ү̄ Ү 'Ү bҮ $Ү ϒҮ ҮҮ ;Ү " ĘҮ ; Ү ;Ү; Ү

Ү ; ; ҮGE>] g`ҮҮ; Ү  τҮ !Ү n.ҮJkҮ&&'Үĸ.HSҮ,Ү ;Ү\nN& Ү
(Ү

AҮ  Ү Ү  Ү 'Ү 'Ү 8 Ү ?Ү ;ȉҮ ; Ү ; Ү

" Ү ɱħҮ Ү ͉$"Ү g`Ү Ү ;Ү Ү  yҮ Ү Ү ]

Ү &'Ү Ү Ү  Ү  Ү

; ҮҮ ҮЉ ¬Ү ÇҮ&Үưk;Ү&+HSҮ,þҮ ;ҮĝҬҮĝ6Ү
Ů Ү

3Ү̝ Үb bҮ$ҮÑҮҮZ; ҮҮ-ҮҮsLҮ)O Ү Ү; Ү

; Ү ͧЁҮ )Ү  ; Ү "f;Ү Ү ; Ү ;řҮ   ;Ү Ү    ƷҮ ÇҮ SҮ ,YҮ ;Ү
nҮ
ǏҮ

? Ү;ҮƑ- Ү; Ү Ү;ҮOPҮ  ;'Ү$Ү ҮҮñҮ´; wҮ% ơ Ү

 Ү;ѺҮ Z ;Ү%  Ү ;Ү;ҮҮ; ;Ү Ү;ҮҮ1V Ү] ¬ Ү͡Ү;Ү+nN\Ү
( Ү

$ĘҮ ȧ Ү Ү -Ү ơҮ ; Ү ; Ү ) Ү Ү җҮ -PҮ

Үʕ&Ү¦)"Үƅ¬Ү 'ҮĶ bҮҮ Ү.Ү !Ү n Ү
((þҮ

3Ү V Ү &bҮ bҮ " Ү ÑҮ Ү  Ү Ү  Ү υҮ GF?] ˵`Ү ;Ү

Ү Ү) Ү²ҮҮ;Ү  ¬Ү !ƸҮ SҮ !Ү ½SҮ,¬Ү ;Ү+˖Ƴ&Ĺƿ6Ү
Ү

674a

(+GҮ

3Ү ̨

Ү 4Ү 4Ү $Ү r/Ү Ү  /oҮ × Ү ?̸"Ү g`ÚҮ  Ү Ү

/EҮs /Ү)/ /Ү /GҮ !Ү WŭĻҮ !Ү (ĻҮ,ҮҮ&˗N.WҮ
ʩBGҮ

ĿҮ ̩

Ү  (4Ү 4Ү ¦ /EҮ )/Ү   uҮ " ѢҮ ¯ /Ү gҮ "ÁҮ

 /ҮҮ3  ҮҮ 3ĩ/Ү  Ү?$"Үg`çҮZ aҮ Ү/ҮEҮ Ү?̹"Ү
g`Үª/Үo//ҮҮ Ү !GҮ +ĻҮ ,Ү Ү.W ҭ.Ү
"(X

3Ү A rҮ (4Ү ʖKҮ " Ү Òr/EҮ Ү / Ù/EҮ /¸ /Ү oҮ o9/ҮEҮ sҮ oҮ

Ƿ$"Үgͽ`GҮ !GҮ tBSҮ ,GҮ ҮWNWYҮ
(.6Ү
]

3ҮA rҮ&4Ү4Ү̺Үϙ/ҮҮœ ҮoҮ/ Đ / ҮφҮe /Ү"Š Ү

Үʗ(ɚҮҮŀ  ҮҮ3/GҮ !Ү &ǟҮ ,Ү ;ҮWNҮ
+6Ү

Ar   Ү /Ү / /Ү  /Ү  Ү Ү r/Ү Ү  Ү âҮ /  / Ү oҮϫ/Ү

/Ү /Ү Ү rҮ   Ү /u /Å Ү oҮ  9Ү %Ү oҮ s/Ү o//Ү ɒ,Ү Ү
+&.WҮNʳ.W&H4Ү oN/Ү oҮ /Ү oNѻ/9Ү  //Ү Ȯ Ү oҮǵƯҮ čŗ ZҮ oҮ
/  Ρ/ Ү/Ү/^9ҮҮ9 Ү¨ҮeøEÓ/Ү˽ĩҮ//Ү Ү/l ´Ү 9Ү)/ /Ү
/ҮҮs/Ү  Ү !GҮ &ĻҮ !Ү .WҮ
Ű6Ү

, /Ү ҮoҮ/u / Ү1/¸ /Ү Ү /Ү  Ү/  /ҮsϬ/Ү3Ȇ9ĩҮ

/œ Ү Ү /ҮҮ/Ү  Ү///ҮҮ]

Ү(4Ү ҮoҮ Ү r/lҮ9ÅҮoҮr%Ү Ү

o r жҮsҮ `ƨr//Ү´Ү9!/ /Ү Ү  ȧrҮ    Ү    Ү !GҮǗǛ&6Ү
0 ]

͢/Ү  ĐyҮoÅҮ/  / ĐȡҮ%Ү Үr Ä /ҮsҮ|/ Ү /Ү%lҮoҮ

sä/Үo//ҮҮ ҮҮ?$"Үg`GҮ ĬGҮ &Ү
+ūҮ

́Ү A rҮ (4Ү 4Ү " Ү r/Ү Ү  /oҮ oҮ ͊$"Ү gÎ`Ү  Ү ̻äÚҮ

ȹ ҮoҮ/  / GҮ Ǩ!Ү ǞҮJ aɃҮ .HˢҮ ,UҮҮn+ҩ\Ү
ʴ Ү

ŀҮ A rҮ ʯ4Ү KҮ $Ү Òr/Ү Ү3/  Ү Ү A%lÂҮ oҮAª/×ŠҮ V9/Ү
Ү

675a

ҮćЛҮҮ] ҮȐҮć   GҮ !ҮtҮ,Ү Ү   (Nt(Ү
+(6Ү

kҮ Ү 'Ү $Ү   Ү   O Ү Ү  Ү   Ү Ү Ү yҮ

Ү  Ү1ª Ү ƒҮ ҮPPҮҮ > OҮ Ү Ү  ҮĤҮ  Ү Үõ Ү Ү
t&Ү¦)ąҮ Ү ÊBJ²HG <Ү !Ү t.˅+ҮưҮÊ&ÛҮ
++5Ү

3Ү]Үt'Ү t'Ү 8 Ү "ĊҮ  Ү aҮ ͂  ҮyҮ ǶҮ  Ү  Ү

 Ү ȎҮ    KҮ

  Ù Ү  Ү Ц Ү Ү   Ү Ү 1 ^ K <Ү

Ү% yҮ?$"ҮgÀ`Ү ҮҮҮ 
ʰBGҮ

Ү Ү Ү Ү Ү !GҮ ì  4ҮB6Ү

IҮ  Ү ]Ү tū'Ү tǀҮ 3  Ү Ү3KҮ 8 Ү"Ү Ү  ƠҮƏҮ  Ү

ͿŅ`|ҮЊҌ >  Ү Ү  Ү ҮҮҮ !Ү WtYҮ
/5 ]

kȨҮ  Ү ]Ү tèҮ ũÊҮ ̓  Ү Ү 3KҮ 8 Ү ğҮ PҮ  æҮ ƀ ΀ Ү

)ƕ Ү1 ҮҮ ^ҮҮXή  ^ҮĊPҮw ÄҮ © ҮPҮX   u KҮ
Ү ҮÎȮѐ¹ ҮҮ%>Ү yƠ ҮȐҮ#
+.5Ү

Ү Ү Ү ҮҮÎ <ҮǩĬҮ ˆvYҮ

3Ү 8 Ү BèҮ t KҮ $Ү Ү Ү  Z>Ү  Ү Ү  y ѣѼ yҮ Ү  Ү

%>ҮҮÀҮҮǩ!ҮҮ î Ү,¬ҮҮҮ"]jBpÊ&6Ү
B6Ү

kҮ ҮuҮ  ҮâҮ   KҮ$Ү|Ү
7'Ɓ !5 Ɓ  * Ɓ  Ɓ 4'+Ɓ (ő Ɓ; Ɓ  Ɓ Ɓ Ɓ  Ɓ Ɓ
'?Ɓ  '  \Ɓ Ɓ ĨƁ !5 O'Ɓ î_Ɓ o;\Ɓ ĩƁ 'Ɓ sƁ
Ɓ'  Ɓ  %s'Ɓ 5 Ɓ  ;ƁsFƁ 4j_ Ɓ ÇË#Ɓ È2 .  Ɓ- w'Ɓ Ɓ
Ü Ɓ oA Ɓ Ɓ ĉ'Ɓ 5r Ɓ 'X ö(!Ɓ ' +Ɓ . Ê ǉ Î J ]  Ɓ 'Ɓ A Ɓ
^ăƁ 5\ -ƁÎŲ ÷(ÝƁ ' ÀƁ ÊǉʠҮB  Ү 7ĪƁ Þ Ɓ 'Ɓ
ïrƁ
 '  \Ɓ  Ɓ %þ%Ɓ %   lƁ  Ɓ Ɓ  Ɓ Ɓ  'Ɓ -* Ɓ 'Ɓ
' Ɓ Ɓ' r #Ɓ'Ɓ Ɓ Ɓ*% ƁƁ Ɓ* Ɓ  +Ɓ

!Ү ҮҮ J  ҮðÃHGҮ
B 6Ү

, Ү  Ү  yҮ Ү ¹   ȨҮ   Ү  Ү Ү  Ү$Ү

ҮªҮ Ү Үƕ ҮZĢҮZ^PɲҮ Ǫ!¬Ү t'Ү Ү  Ү
tҮ

676a

B½iҮ

3Ү 8 Ү  ' Ү 4Ү 8 Ү "Ү  Ү Ү 3Ö  Ү Ү 3Ү | ´Ү  9Ү

 Ү Ч Ү Ү    Ү Ү % Ү?$"Ү g`Ү Ү Ү Ү a

Ү Ү

 Ү Ү Ү !Ү SҮ,Ү Үʙ .ţW(Ү
Bʚ6Ү

3Ү 8 Ү 'Ү  'Ү  Ү¦ Ү)Ү  Ү " ҮҮ Ү Ү̅ Æ Ү

Ү   ҮÆҮҮ Ү% ҮĖ&BҮ(ҮҮ?$"Үg`ҮҮ ѽҮҮ99Ү  ҍҮ
Ү wҮ ҮϓҮ ÕҮҮ  | Ү ҙҮSҮ,Ү Үĝ+NGҮ
BGҮ

3Ү 8 Ү  'Ү  Ŭ»Ү $Ү ÑrҮ Ү  Ү Ү Ү čҮ  Ү Ö  Ү Ү

9Ү9Ү Ү 8 Ү "Ү Ү ]

Ү (4Ү ̪ɄҮ Ү Ү 8 Ү 'Ү  GҮ !Ү Ү ,YҮ Ү

n Nʪn YҮ
B(GҮ

kҮ Ү  Ү Ү ðKҮ $Ү | xҮ Ү Ү Ү ĢıråҮ

ɍɎ  - fɁҮ Ү Ү Ү u ҮҮu ҮҮ)  Ү]Ү ) Y <Ү !GҮGҮ
4 1]

ÌҮ ÑrҮ  Ү %  Ү  Ү ufҮ 9` Ү Ү ±Ү Ү Ү ©Ү ĐҮ  Ү Ү

 ҮҮÑr Ү Ү ҮҮҮ,ҮҮ(Ү~N.SҮ !Ү 5Ү
ʶBzҮ

$Ү `9%Ү  Ү Ү Ү %9Ү Ү Ү Ү, Ү&Ү Ү ÔҮ

¦ 9Ү)Ү"Ү,ÆYҮҮ+.~ɛŪ(6Ү
B&GҮ

3Ү 8 rҮ 4Ү ½ƻ 4Ү LҮ¦ ȇҮ )Ү  Ү" ҮҮҮǺ´Ү̆  Ү

Ү uч Ү Ү Ү Ү 9Ү % Ү Ė4ǘʉ&zǔҮ Ү?$ğҮ ǥŔ`Ү ȴҮ
ҮҮ 
B.6Ү

Ү

Ү Ү ÕҮ ҮґYҮ !Ү (SҮ,Ү Ү(~N+  ɤ Ү
ŽҮ 8 ҧҮ  4Ү  ŢҮ $Ү rҮ Ү Ү  Ү ŊҮ rҮ Ү ĦҮ

©  ҮҮÂƆҮ9ȋҮ Ү8 Ү"ҮҮ]lń Ү (4Ү ]lҮҮ lҮ 8 Ү¾'Ү  Ү aҮ
 Ү ίҮҮ  ҮȤҮ ҮҮ ƀҮ  Ү Ү  ҮҮ8 Ү  ҮзҮ
8 rҮɸ'Ү 'Ү Ö  -Ү !GҮ +SҮ,YҮ Ү+~ʊN6Ү
Ү

677a

&{Ү

Ү  Ү Ү  Ү Ү 'Ү $Ү  Ү Ү Ү Ү EON

ĒҮ1  - E Ү Ү aҮ Ү  ҮҮ² ҮҮ)  Ү]6Ү )Ɓ6<Ү !6Ү +6Ү
& {Ү

$Ү Ү  Ү %  Ү  Ү  Ү h Ү Ү Ү Ү Ү Ү Ү  Ү Ү

đ ҮҮƊ Ү ҮҮ ҮҮȩGҮ,6Ү Ү+   6Ү
&Ǆ6Ү

3Ү 8 Ү  'Ү  'Ү  Ү ¦ Ү )Ү " Ү Ү A©Ү Ү  Ү )- Ү

" ń Ү  ҮҮҮ    Ү$ҮEҮ) ҮҮҮҮ Ү  Үғ¨Ү Ү
Ү  ҮҮҮ  ҮҮ hҮҮX    6Үǧ!{ҮĝҮš ҮH{Ү
&{Ү

3Ү ˧  Ү  'Ү ɹ 'Ү ǳҮ ϕҮ Ү 8 m  Ү ] QҮ %  Ү  Ү

)-ƎҮ Ą 

Ү  Ү  Ү  Ү Ү 1 Ү   Ү Ү Ү  Ү Á  ҮҮ Ү Ү

Ү > -  Ү ҮҮ  ҮҮҮm-ҮÈ<Ү !ÈҮҮB ¶ÈҮ
&GҮ

IҮ Ү 8    yҮ ǲ 'Ү $Ү Ү  Ү 18 Ү "Ү Ү

ÀΐҮ Ү Ү  Ү Ү  Ү ģ Ү AÕҮ $Ү %

Ү % Ү ÁҮ >Ү Ү åĤҮ

є *Ү<Ү !6Ү ҮB µҮ
ˀ}{Ү

IҮ Ү 8f   Ү ]Ш 'Ү $Ү Ү  Ү %Ү  Ү Ү ĭҮ Ү

ѨѩҮҮ Ү©Ү   Ү Ү%ҮòҮ1Ó<ҮҮ¨Ү  ҮҮòҮ%Ү1Ȗ қҮ
¸ Ȅ<Ү Ү  Ү ) ҮҮ Ү%ҮҮҮҮҮ ÈҮ !GҮҮB ¡6Ү
ĸ+GҮ

3ҮAffҮҮ Ү )ÖĊҮ  'Ү  'Ү "RҮ ÑҮQҮ ňҮ?̫"Ү

ghҮ Ȅ ҮX    ҮҮƃё ҮǽĭҮ Ү )Ȼ Ү " 

{Ү !6Ү (;%] š  ƃҮ }ɜĸHîҮ,{Ү

 ˇ Ǐ ĹýҮ
&BÈҮ

g Ү Ү  Ү ) Ү Ү %Ү Ү Ү 3 Ү 'Ү  ĶҮ Ү

] @Ү 'Ү  'ҮƩҮ ҮҮ$ҮcϭҮҮhf Үĩu ҮƇZҮ) ÈҮ !6Ү ʛNҮ
šź Ү ǊHîҮ,6Ү Ү.Ŵ  N +ɥҮ
Ү

678a

&&6Ү

Aȓ0Ү0 ³Ү>Ү0Ү0 'ҮZЩҮ A  Ү 'Ү  'Ү Ү)-9 ҮĄ Å Ү

Ҁ>Ү Ү>T  Ү ĎҮƛ Ү)T0Ү6Ү !iҮp(ҮJ Ѫ0 ҮŤ((ÛŸҮ !iҮ .6Ү
&.6Ү

_ Ү )-ȶ Ү " 0T Ү>  >Ү$0ÚҮ Ү TƢҮ  Ү Th>Ү> wҮ

ҮèҮ ŋ0>Ү  Ү > 0 TҮ T 0Ү %0>Ү Ү TҮ >Ү 0Ү Ү  Ү )9T0Ү
 Ү 1 0Ү ȾȵҮ ҮŐT -Ү 0Ү  Ү 0Ү >0Ү Ő 0 > T aҮ 0Ү 0Z-4 <Ү
TT >>Ү  Ү Ү %Ү10 - 4 <Ү >Ү0>0>Ү$0Ү ZҮ  %Ү T Ү1% ŜҮ  Ү Z >Ү
ҮҮT Z>Ү0Үf0 Ү Ү0 - Ү6<Ү !þҮ.¿ʜǋҮ
ˁ6Ү

3ҮA  Ү ('Ү  'Ү$0Ү³>ҮҮ   Ү0ҮªҮ 9Ү)- Ү" 0Tƣ ÚҮ

0>0ҮҮ %ҮΆͳҁҮʹЪ>Ү0>Ү Ү1 ĪŇҮ 0Ү  0Z Ү TfҮ ΰ> Ү%ċ T Ү0ҮҮ
 0>ҮǾҮҮ- >Ү Ү Ү0T0>4Ү 0Ү% T Ү > T Ү TҮ%ҮҮ00ҮhҮ
>ҮƦ T Ү0Ү0ҮҮҮ0->ҮҮҮTÎ0Ү900 6 <Ү !6Ү ¶ǟҮ_0iҮ Ү(ˈ p &Ү
. ɦҮ

$0«Ү 1I  Ү F<Ү 0 ϠҮ  ҮҮ 0ēҮ @Ү EҮ>-T>Ү

ôҮ òҮ ȡ TҮ UP] 0-KҮ Ү  Ү ΁ř ƇҮ  Ү ò|Ү ѫŎ9>Ү %  Ү  Ү > Ē0 Ү Ɓ 0èҮ Ү Ү Ɯ Ү
X ѕ > TĒ Ү0> éҮ !6Ү'Ү('Ү &'Ү  'ҮB'ҮʡêҮ
.6Ү

IҮ 0Ү1I  Үł4<Ү$0Ү 0>Үs Үe >Ү"0±Ү >Ү0ȝ->ҮÔ9Ү

Ү0Ү 0Ү> TҮ 0TZ0>Ү ҮҮ0Ү  Ү ҮҮ@0Ү 0ҮĎh0 TҮT9Ү
HL] DWYK] Ì6Ү  p  HҮ>Ү Ү1 Ү%Ү Z Ү fҮĨ0Үe >Ү"0±ҮҮEҮ6<Ү

!6Ү Wʱ'Ү   Ÿ Ү_06Ү Ү} ǙŪp}¶   Ү
Ų5Ү

$0ҮTh%>>Ү Ү ! ± Ү}(Ү%ҮҮTҮҮ Ү>T  ZҮ% řҮe>ϜҮ

"0΂Үò>Ү0->Ү ҮҮ0Ү 0Ү> TҮ0T0>6Ү,06Ү Ү¡(¶Ü+6Ү
. Ү

$0Ү0>Ү÷ Үe >Ү"0ƀҮ%Ү ҮTҮҮҮ0>0ҮҮ Ү)- Ү

" 0T҂ Ү% Ү 9Ү0->Ү  ҮҮ0Ү ҮČ> Ү0T0>6Ү !YҮ }¶ ŸҮ͘0iҮҮ(+¶Ǖp +6Ү
}Ү

679a

.ŮҮ

, Ү ҮҮ8 Ү"ҮQ- Ү ҮҮαQҮ$ɈҮQ ҮĪ ZҮ

%Ү  Ү$Ү  Ү Ү βϯҮ Ү 

QҮ Ү Ү Ү Ү mҮ  -Ү Ү Ү

 Ү $Ү  Ү Ү -Ү Ү -Ү  Ү Α

QҮ Ү  Ү  Ү   Ү Ү Q Ү Ү

QҮ ҮmҮ  Ү Ү Үh  Ү Ү !Ү ((jÉҮ
.ʲҮ

3ҮA  Үt4Үt 4Ү Ү)- Ү" 

Ү  ҮҮҮm  Ү Ү$Ү

ϖҮ1ҮҮ<ҮJ !Ү  ŴҮ H ҮҮ ҮҮҮ %Ү  ҮmҮ Ү  4ҮҮ
%ŵҮ
. 1 Ɓ EƁ Ɓ  Ɓ Ɓ LƁ Ɓ Ɓ   Ɓ #Ɓ Ɓ ĮƁ
Ɓ Ɓ  Ɓ>Ɓ Ň #Ɓ  Ɓ Ɓ : Ɓ Ɓ Ɓ lƁ
 ƁƁ Ɓ Ɓ ŻƁ  ÓƁ
] EƁ Ɓ ^ Ɓ Ɓ mƁ  Ɓ «Ɓ  Ɓ Ɓ Ɓ Ɓ
ƁúƁ ´Ɓ>Ɓ>ƁƁƁƁƁ ƁƁ  Ɓ
Ɓ  ƁƁ  ƁƁƁ:Ɓ¢>ÔƁ
 1 Ɓ EƁ Ɓ ťň Ɓ Ɓ Ɓ Ɓ Ɓ   Ɓ Ɓ  Ɓ ĭƁ
 Ɓ Ɓ  Ɓ Ɓ ^Ɓ µƁ Ɓ  ` :#Ɓ Ɓ
  ſƁ  :ƁƁř  Ɓ ƁƁ :ƁƁ ƁƁ
'Ɓ :ƁƁ>ƁUƁ Ɓ
1Ɓ EƁƁ ƁƁ>Ɓ   ƁiAƁƁƁ
ċƁ Ɓ `Ɓ Ɓ >Ɓ #Ɓ   Ɓ Ɓ ŉƁ
 ŦƁAƁƁ$`¬Ɓŕ#ƁƁŚ]Ɓ   )Ɓ

!ҮҮ,X JT  ZҮQ HSҮ,ҮҮҮ­tť½­Ү tҮ
.BҮ

3Ү )ŘQƄҮ t4Ү t ŢҮ $Ү PҮ Ү   Ү ĢҮ   Ү Ү ÁΣҮ Ү

ϡҮ)-ϢҮ " õ

Ү   ŌҮPҮ TO]LҮQҮ͵ Ү-  ƩҮ НҮ ҮLҮƋ Ү Ү

 Ү)©Τ Ү Ү !Ү t4Үt(4Ү t&4Ү 4Ү !3] 4Ү ʋ˛Ү͙GҮ  vj N(&j &Ү
ų&Ү

3Ү )QÁҮ  v4Ү ǅ bҮ  Ү )- Ү " 

Ү á Ү ċҮ ©9  Ү Ү

Υ  ҮҮƅҮ !Ү ĞҮ,Ү Ү(&j .ɝ(.W&ɧҮ
..ĚҮ
)-åLҮ ˷ 

3Ү)QҮ .b t  4 Ү$ҮÑҮҮZ ҮҮҮ ņ Ү±Ү Ү
Ү yҮ Ү Ү ©öȼ Ү Ү lҮ Ȫ  ƩҮ Ү ƈϮMҮ Ү   Ү Ү lҮ ȿ Ү Ү

vҮ

680a

#і#ҮƧ# Ү Үͦ#Ү)sҮ) Ү" Ү 02 SҮ_ҮҮ¡.£íҮ
 ƼGҮ $Ү^ҮÒҮҮ##ҮҮҮƧϱҮҮ ##Ү_iҮҮ+£ N++£¾¡ëҮ
  G Ү 3Ү )ǾҮ .KҮ 'Ү$ҮҮ% Ү%Ү #ҮҮ1?#ҮFҮ
ҮǶÂҮҮ) %ҮǦ <Ү# ҮҮ  Ү)^ Ү"#

#iҮ 02 ¡SҮ_ҮҮā¡¿ āNā+jűҮ

ʁÿҮ IҮ Ү1?#ҮF'<Ү$Ү#Ү Ү Ү Ү

EҮ ҮҮ ҃Ү

X Ү ͶҮ  Ү Ү #Ү  Ү ) Ү Ү Ү 1  Ү #Ƥ#Ү Å #6 <Ү
02 ǌŮjű˜Ү _6Ү Ү&n¡ āëҮ

ǁҮ IҮ Ү 1?#Ү F'<Ү $Ү Ү  Ү 1#Ү #Ү @Ү ĐĔҮ å ȼҮ
% ϰ Ү ƄҮ  #Ү  Ү f#ÚҮ Ў#Ү EҮ #P#Ү Ү ŕċÐҮ Ү #Ү Ү Ү
# Ү#ŔҮ Ү  öɨ<Ү 02 ķ¡£  S Ү_Ү  &+£ ʫɞ 6Ү
 ƴҮ IҮ Ү1?ȯ#Үž'<Ү$ҮjҮ
1WX )'*!2)25 !(!2(2!2"

12$2)2&-')(22 &+')(2 Ĵ[Ɓ
)(2 ć 5ƁƁĵi[ƁƁ tƁü' ŞƁ ŗƁƁ ' 2Ɓ)2
)!'(2 ƁÛ[č5ĈƁ )#2*2.!)2 ',)2Ă0Ɓ ýŊĶ[ƁƁ
^5AtƁƁ5tƁ!(2KBX% $/!'(2
02 Ǎ¡j  S Ү_ҮŃªҮ&+j&űj&ÉҮ

 ¡Ү IҮ Ү 1?ȯ#Ү ž' ɅҮ ǴҮ  |Ү Ү %# EÆ%Ү @ÆҮ 

Śͷ#Ү ÔҮ

Ř#Ү  Ү ҮƌΒҮ #Ү #^#Ү |ҮyҮ h#ÓҮ 02 ¡Ү SҮ_GҮ Ү.ˉɟ6Ү
 ì+{Ү IҮ Ү1?#ҮF' <ҮÌöҮºlΓ'Ү1͚ÔҮ#ҮĨҮ #ҮȩôΦҮŃΔҮÄŃҜҮ Ү
@ҮЃ ÓҮ#ҮÔ#Ү #· #Ү#Ү ċƦİҮ #ϝ ҮҮǿҮ ҮҮΕΧa|Ү  #Ү@äŚҮ
#Ү ъҮ #Ү ^Ү # Ү  Ү Ү  Ү ėώ#ŚçҮ #Ү @Ү ÚҮ  ##Y <Ү 02
Ĝ¿ SҮ͛YҮ  .   &Ү


 ā¬Ү IҮ Ү1ͅ#Ү͌Śы'<ҮÌҮ

āҮ

 ƛї#ÙҮҮ ҮҮªҮ#Ү Ү

681a

 2DҮôҮҮ:Ү) 2ҮҮDҮûƐDY <Ү !Ү (WŭNҮĈ2GҮ Үʢ.­.Ü.~GҮ
&5Ү IҮ:2Ү1?À2ҮFDD4<Ү$2ҮƂ:2 2ÙҮDҮ1D<Ү:ҮDOҮҮƝ:Ү
 2DҮҮ:ҮD:Ү:Ү

DҮ:Үe Ү?24Ү ?$"«DҮ%2D4Ү Ү:Ү  2Ү Ɛ2hҮ

Ү  ΖҮ Ү  Ү :Ү DҮ Ү Ү  2Ү 22Ү Ү :Ү D:Ү :Ү Ү :Ү
e Ү?ȷȷјҮ 2 ×Ү ŏD6Ү !iҮ (ˊҮ(ҮĈ2YҮ Ү.(ĂpYҮ
.5Ү IҮL2Ү1?2ҮF×D4<Ү$2Ү :2 2ÙҮſDҮ1D<Ү:ҮDҮҮ:Ү
 2ç DҮ лҮ :Ү D:Ү :Ү 

DҮ :Ү  2Ү 2Ɨ¹O2Ү Ү ƐҮ  Ү Ү

:2ҮѬ2D 2ҮҮe Ү?2DҮ2 6Ү ÇÈҮ(Ү(ǠҮĈ26Ү Ү.&WN..W6Ү
5Ү IҮ:2Ү1?2ҮłDD4 <ҮÌ2Ү :2 2ÙҮ DҮ1D<Ү:ҮDҮҮs:Ү
 2ç DҮ ƘҮ :Ү D:Ү:Ү -Ү Ү D2hҮ Ү DҮ 2DҮ 2ſ Ү ±  ×Ү
:Ү DҮ Ү22Үȅ³Ү?$"ҮDҮҮ2YҮ !Ү(ǙҮ+ҮĈ2ƵҮ Ү..ˋǎƲ(WҮ5Ү
ǁĴ5Ү IҮ:2Ү1?2ҮFDDb<Ү¥2Ү :ï2ïà2ÙҮDҮŝD<Ү:ҮDҮyҮs:Ү
 2DҮ ôҮ :Ү Ү  ±Ð¹Ү Ү :Ү DҮ  2Ү D :Ƣ>Ү Ү D҄Ȟſ2ҮX Ү
Ȗ2Ү2ҮùҮ]2Ƃ:YҮ ÇҮ (ˌ+5Ү
{Ү IҮ :2Ү ŝ?2Ү FDDè<Ү Ì2Ү 2Ү :2Ү ðDD2Ү :ƞҮ e Ү "2Á±Ү
%DҮûЫҮҮҮ ҮҮ±<Ү ƌDҮ 2YҮ !ҮǐBYҮ
êҮ 3Ү 3 ±2Ү KҮ KҮ :Ү )-:Ү "àƤҮ 2Ү Ү 22Ү %2aҮ Ć¥ğҮ
ghҮĖʌ('.(ɪҮ2Ү2ҮODҮҮĖĵ.Ĳ+BҮ2Ү DDýҮ !Ү+Ү ,26Ү Ү(p(ķ5Ү
5Ү 3Ү3 ±2Ү'Ү 'Ү $2Ү ³EҮҮ2ҮҮD 2Ү  òљҮ2-Ү
Ү:Ү22ҮҮD:%Ү  DYҮ !Ү BҮĈ2ɩҮ Ү(W(Ü((W&5Ү
(5Ү 3Ү ̾ ±2Ү B'Ү Ү'Ү Ì2Ү ϗOҮ Ү Ү Ү ġēҮ :Ү D:ҔҮ  DҮ
:ƃ2yҮ2Ү ҮDDYҮ ÇҮ &˝ҮĈ26ҮƞҮ(ʬWǘ5Ү
&Ү

682a

  +{Ү 3Ү3 Ү 4Ү  4Ү  Ү)- Ү" 

ҮҮ Ɓ Үƪ Ү$İ Ү

 Ү Ү Ү    Ү  Ү P% Ү Ү Ү Ү Ү h Ү !UҮ .ǠҮ ,ɫҮ Ү
((W(ɠ(+~ zҮ3Ү3 Ү&Ү½  4 Ү$ҮҮ ҮҮҮ Ү  Ү !ÈҮ(~{Ү
3]

3Ү V Ү   4 Ү ¾ (4Ү ¨Ү )- Ү " 

Ү   EҮ $Ү  Ү  ȟҮ Ү

Ė4(ƼҮγҮ - ҮҮҮ  ҮP ëҮ !Ү(WSҮ,Ү Үǐ+ (N{Ү
  &{Ү , Ү)- Ү" 

Ү  ҮҮ ïҮ Ү Ү Ү|   Ү Ү$Ү

  Ү ϣҮ Ү ûҮ Ү Ү Ү  Ү  %N  Ү Ү ëƶƶҮ $Ү  Ү Ү   Ү
ҮѭҮҮҮ6Ү !¼Ү({Ү
 ʂ.{Ү , Ү )- Ү " 

ƮҮ   Ү   Ү $ÚҮ   Ү ŉҮ   Ү Ү

ƅҮҮû  Ү Ү - ҮPҮ UƫҮúÏҮ
 {Ү , Ү )- Ү " ń İ Ү   ZҮ Ү  Ү ûÞ ßҮ a Ү Ү  Ү  Ү
  »Ү ̬Ү@ҮÃ Ү aҮ Ү ҮҮ ä ƣҮ ҮҮ ҮҮ  Ү  Ү %Ү
 Z  ҝҮX Ү Ү@Ү   àҮà ҮҮ ҮÎ Ү  ďÉŞҮ !ɬҮ(WÉҮ
  { Ү åƁ  Ү ҮààҮï ҮľҮďïƍ ƍҮ Үûàa àҮ ȃ Ү Ү
ҮҮ Ү fİ ҮKŞҮƎҮ)- Ү" 

ҮҮ ïˍҮ

ìƁ Ɓ  Ɓ   Ɓ Ɓ  Ɓ Ɓ  Ɓ
Ɓ %Ɓ  Ɓ ĸ   Ɓ Ĕ |Ɓ 4GX Ɓ Ɓ Ɓ Ɓ
 Ɓ Ɓ Ɓ QƁ Ɓ Ɓ Ē Ɓ Ɓ  ĽƁ Ɓ Ɓ Ɓ
 ƁƁ%%ƁƁè Ɓ!Ɓ Ɓ¥  -Ɓ Ɓ Ɓ
 Ɓ  ?-HƁ Ɓ <&Ɓ Ć%)Ɓ (ĥƁ -Ɓ
Ɓ
Ɓ Ɓ ŰƁ
Ɓ Ɓ  _ Ɓ
Ɓ  ÐƁ Ɓ Ɓ
j Ɓ LƁ  Ɓ NƁ - Ɓ Ɓ
ƁXƁ ,Ɓ (Ɓ  Ɓ ]Ɓ Ɓ¦Ɓ
Ɓ ƁƁ
 Ɓ  Ɓ £Ɓ ēƁ Ɓ ĻN ŭƁ Ɓ Ɓ  HƁ Ɓ AƁ  Ɓ
§ƁmPƁ ƁƁ-Ɓ- Ɓ Ɓ  ƁƁ ,HƁ
7Ɓ  Ɓ Ɓ Ɓ Ɓ NƁƁƁƁ ƁƁ
 ƁƁ  Ɓ ƁƁ )Ɓ

ź!ÈҮ(WŬҮJŘ  ҮHGҮ
7]

683a

 ǆ5Ү 3Ү]C ¨Ү 4Ү  Ǌ4ҮxҮҮcxҮ ҮҮҮ ҮEҮҮ %Ү C 'Ү
$CҮ CEҮ cҮ CҮ CҮ  Ү ƑxҮ Ү xђ CcxҮ 8 Ү ÍҮ CҮ C Ү  Ү
#ҮҮ]C Ү .è ½ 6Ү ùzҮ ~ vN BҮJǮҮ vĀťBHSҮ ,Ү CҮ Ā~(N (~(Ү
 ĀҮ AҮ Ү]C

Ү .4Ү  Ү C#»Ү 8 EҮÍҮ#Ү  Ү  Ү Z#Ү Ү

xƚ¸ C#δŜҮ CEҮCҮÍ$"Ү xҮҮ CŜҮX ȶҮ ùҮ Ү JǮҮ BHSҮ ùҮ (ÊSҮ
,Ү CҮǒ~ ĀNv(~(Ү
 ʣ6Ү 3Ү A Ó Ү 4Ү  4Ү  OҮ Ү " Ү "x

xҮ " њҮ EҮ CҮ %#sҮ

äҮ C#Ү X Ү Ү  c Ү CҮ CcOҮ Ү Í$"Ү gChҮ #Ү  Ү ) Ү C4Ү
xƌҮ  Ү  Ү xҮ Ү x¸ CcxҮ 8 Ү ÍɕҮ CҮ #xxȔҮ )ȫ9 Ү
 ΈcC#ОiҮ ùҮ Ү JkƜҮ &vHSҮ ùҮ ( SҮ,Ү CҮvǚ ĀNv(ǚ(Ү
ʃ(Ү AҮ  xεҮ CcҮ %CҮ 
uϏПҮÁҮѮ ҮҮ" Ү"#

Ү #Ү  Ү )9 Ү CҮ CҮ  Ү CcҮ %CҮ

#Ү"Z Ү,þҮ CҮv(Ŷ ʷÜ 6Ү

 v6Ү $CҮcҮ C©CcҮҮǸ ҮčҮ Ү Ő Ү äҮ ö c Ү CáҮCcҮ
CҮҮ Ү óћCxҮҮCcŧҮ,Ү CҮv(W ťǄ Ү
 BҮ gĭҮ Z##ZҮ # Ү ̤CҮ Êů4Ү  vbҮ  Ү ͩ# мôxҮ Ą Ү Ү ACcҮ
Cζ#áҮ ҮX ҮҮ9 c ҮCҮCcҮCҮ 9Ү CxҮ ҮCcҮaҮǽҮ@Ү
Ү˸н ҮǦ#

#Ү" ƞ6Ү ù6Ү(4Ү(ĀSҮ,Ү CҮv(W(ɡůvˎ B6Ү

 &5Ү $ҮҮƝ ҮCºҮҮ CҮ ҮC%CҮҮ Ү)- Ү˹#

#ҮǼҮҮ

8fҮ˺CÁҮ#Ү Ү) ҮCҮ C-ҮҮC#Ү,ŧҮCҮv~ ʸN& ~ Ү






Ү
Ү

684a

Ɓ
Ɓ
Ɓ
Ɓ
]

Ү

Ү

]

Ү
Ү
Ү
Ү
Ү
Ү
Ү
Ү
Ү
Ү
B]

;)Q W^7W/!ZKQg B& "KCe9D#7E3 -d7&)?!( WbOOLVZW
Z6) $K`?_WT7W7D4 GcZG1 Z5. U7?<'7 =[_)U 


/hl  Qprhmv}r Sv}hxmv=h pRv}hxmv /hj  

ÉҮ

3Ү V Ү 4Ү ƻ.4Ү ̓)Ǥ"Ү ghҮ ¦)˩Ү Jį®)g"<HҮ ƊҮ aҮ   Ү ȢҮ ºϥҮ

"  f Ү ˻ĔҮ ŖҮ ·Ү Ą Ү  ҮFҮEҮҮF a Ү ͸ -Ү ĨҮ ҮaоOҮЬΙҮ
QҮ !

Ү Ү FҮ F  4Ү "Ү$êҮ ."ĉǑÉҮ JLL] ̇!ƴҮ (B~ÊҮ JIQҮ  HĞҮ ÇëҮ

ɺîҮ͜ƷҮ Ү & ~ (ü &ǎ~4 ( BŶ Ŧ(Ү
Ү

IҮ "Ү $µҮ ǃ."ĉĶ(4Ү  Ү  Ү Ү X СҮ   Үâ Ŗ Ү Ү

Ү Ү -ҮҮ®)ǥ˼Ү Ү  Q ƚÃҮ  ҮF  Ү    QëҮ !Ү (ʹŶʺŦ&Ү J̗ƜȟҮ+Ǒ4Ү
ŭҮ

685a

B'ҮHSҮ,GҮҮ &W p &+W}5Ү
5Ү

AϛҮ @Ү FҮ пҮ Ү  Ү %Ү E'Ү @ҮXfҮ

%ðҮ - Ү Ү Ү Ү ȇҮ ƔҮ Ү ȣҮ  Ү ȰҮ %m@Ү @Ү
ł5Ү !iҮ}BW Ү JҮ.}p.&HSҮ,5Ү Ү Ǘ+jBp &&W }5Ү
5Ү

3Ү8 Ү  'Ү   ' Ү@ҮFҮ  ҮҮ ҕ ҮҮ@Ү"

Ү" Ү

Ү·@Ү " 'Ү "Ү¥5Ү   "ĉ BBҮ'Ү Ү ò'Ү Ү VҮ ļh'Ү
¥5˪5ҮJ1ͪҮV<HҮҮ@ҮqҮVĲҮ !5Ү }&­ SҮ,UҮҮ &&­ +p .­.5Ү
(°Ų

¥Ү Ү Ү Ү ȗҮ FEҮ Ү "Ү¥UҮ   "ĉ BBҮ Ү Ү Ү

ҮҮ ҮҮA  Ү'   5 Ү !YҮ}&¶ҮJҮ.HSҮ,YҮ Ү ˂W pUҮ
+iҮ

̥Ү Ү EҮ ³óҮ Ү Ү ĢҮ %Ү Ү %LҮ ¥Ү

³ħҮȬҮҮ@Ү5Ү !5Ү }&jҮJҮ +HǡҮ,5Ү Ү í jp .ŴUҮ
%X

3ďҮȬҮB'Ү¾ì  ' Ү̭Ү³óҮҮďҮҮÂҮ%@ ҮX҅ ҮҮ

Ȁ@ҮҮ@ҮFGҮ !UҮ}Ү&jҮ JҮ HǡҮ ,iҮ Ү ín+p íj+5Ү
&GҮ

,@Ү Ү Ү Ү %Ү Ү @Ү Ү @Ү ² Ү ēҮ Ү Ү h ƙ Ү

³ħҮҮɁҮ @ҮFҮҮ3 Ү ' ¾  G Ү !5Ү }&¶ǇҮɐīҮǋ HSҮ͝5Ү Ү .­&pʍ ɭҮ
*X

¥Ү ҮȎҮ@ҮFmҮҮ@Үh  Ү YҮ 3Ү8 ďҮ 'Ү ʎɻ ¾'Ү

̮Ү ƈϲEҮ ďҮ Є ҮҮĥҮ ƙҮ Ү lҮ ηóҮȀҮ ®ļ"Ү Ψ-Ү Ү ƎҮ ͎mҮ ȤsҮ
ҮȰ5Ү !GҮ }.­ +p BҮ J yҮ BBHSҮ !Ү +}­GҮ
 ɼGҮ

ĿҮ 8 Ү  ʻ'  'Ү ¥Ү ³óҮ Ү -Ү đ aҮ aҮ @Ү θҮ @Ү

FΚҮ Ү  Ү Ү  hҮ Ү 'Ү äaҮ @'Ү ®ļ"'Ү ǺАҮ
V'Ү @ҮqҮVҮҮ ҮҮmҮ%ƪ'Ү Ү@Ү%Ү³óҮҮǰ @³óҮ Ą-ҮlҮ
˲ĭҮ ̦h-īèҮ Ү̞ @ÑҮyҮ %@ZҮȘҮðҮ ňҮҮ ̐ŌҮ Ү "lȵҮ̯5Ү
Ү

686a

ĽĉBBҮ !µҮ vĂîҮ,YҮ =Ү.ĂvN.BĂ4 .BĂN.&Ă.Ү
ʄµҮ

kҮ @c ҮҮҮҮ  QҮιϳcҮҮ®)gĽ4Ү$Ү=~Ү
)Ɓ)Ɓ+Ɓ ļ Ɓ Ɓ Ɓ %Ɓ  % ³Ɓ Ɓ Ɓ WƁ %û ?Ɓ
 <ÕƁ Ɓ Ɓ Ɓ Ɓ % Ɓ  Ɓ  UƁ
ƁƁƁƁƁƁƁ  Ɓ Ɓ
ƁƁƁ   ƁƁ Ų ƁƁƁ? £UƁ ä( !Ɓ ƁƁ
Ɓ Ɓ Ɓ % Ɓ Ɓ Ɓ WUƁ  Ɓ Ɓ WƁ Ɓ   Ɓ <Ɓ
Ɓ %Ɓ Ɓ   Ɓ Ɓ  Ɓ Ɓ !}Ɓ %Ɓ Ɓ
%  Ɓ Ɓ Ɓ Ɓ Ɓ LƁ  ųƁ  Ɓ Ɓ mƁ
ë#ƁƁCƁ ?Ɓ Ɓ ƁƁ Ɓ Ɓ Ɓ Ɓ
Ɓ QƁĕ %Ɓ Ɓ  |Ɓ

̈!Ү v(¿ʭµҮ
µҮ

kҮ =@Ү -Ү u ŢҮ $Ү =Ү QҮ  =Ү =@Ү Ŕ=Ү

ïahҮ Ү =@ Ү ɖҮ   Ү uQQҮ c%Ү 4Ү Ү Ү Ү р Ү EҮ
- À=Ү Ү =@Ү ̑Ү =Ү " = Ү Ł = Ү A =Ү J1V"?ҮA<Û4Ү - = Ү ňҮ =@Ү
͏ hƝҮ kϚ Ү EҮ Ľ=Ү 3 Ù= Ү A =ҮJ1Fk"3<Û4Ү lT@Ү Ү T =Ί=ҮҮ
== Ү = Ү% =@Ү =-ҮTQ Үđȭ= =ɮҮ !YҮ v(¿(µҮ
 µҮ

3Ү VҮ KҮ  KҮ ˳Ќf= Ү 8Ү )ǼҮ ·ВҮ ҆Ү Ү   Ү

= -Ү = Ү =LҮ F Ү Ċ = Ү =Ү =@Ү κҮ Ү QҮ Ү ÕÕ=Ү ÄªҮ =Ү
ãÄ Ү=@Ү-ҮƖ ΛãYҮ !GҮ v(Ү¿NîҮ,iҮ =Ү.&¿ NBKҮũɽ¿ÜҮ
ʅ5Ү

8Ү ·Ү u=Ү =@Ү ͐a«Ү ΃T=Ү =Ү ®)gĽҮ λҮҮ  Q4Ү

  ÕҮ  = Ү á =ÂҮ Ү Ү cƛҮ =@=Ү ȅ÷Ү Ȫ Ү Ү 1ŕҮ
ÅQ=Ү=Ү=@ҮQ=ȕȕҮ=ҮN=őEҮŧĠƁ =@ҮŏģƔ=ҮҮ8ҮŻYҮŻ БҮTJX
Ä Ү=@ Ү f=Ү =ҮĊ -Ү =@=Ү =@Ү a ѰҮ@Ү Ү= Qc4Ү ҮҮ҇=@º cҮ
ΩҮ ҮhҮƟҮ=@Ү QQ Q=ҮâҮͮ=@Ү cҮu= ͱ<Ү !GҮ v(¿ Ü&Ү
 (5Ү

8ÃҮ·Ү =ҮF cҮƂQҮ=Ү Ү=@Ү|-ҮсuΜ Ү
(Ү

687a

lҮ áҮ* *Ү* Ү* *Ү  *ҮҮ* Ү Ү 02 +¡ŵ &pĳҮ
 +Ү

̘Ү X *Ү * Ү §X *Ү Ү Ү *Ү §Ү$ҮҮ * Ү§` * Ү

ҮҮҮ* Ү-Ү  4Ү ¯øҮ·Ү

l *ÙҮҮҮ* ҮÓ *Ү

ÀҮ-Г Ү 02 +(¶ 4Ү ÛҮҮ* Ү  02 +(W¢ÛiҮ
ĴʼҮ

ǵҮѱϴҮҮPҮҮ¯ Ү·Д«Ү ҮÎҮ*Ү* Ү§X *Ү*Ү* Ү

Ү ZâҮ ġŒҮ Ү Ү §X *Ү *Ү ¯ Ү ·MM«Ү  *Ү Ү *LҮ -Ү
 Ү , Ү Ү ƓҮ §X *Ү %Ү P*Ү Ү * Ү **Ү %Ү ÂҮ *Ү
̂* *Ү" *Ү¯ Ү¯¼ ?ĳҮ )** M¼Ү 02 + ʤp(ҮJǨ*Ү4Ү(ÛîҮ,¼Ү *ҮĴ¢+W +p ¢ʽW&Ү
 &Ү

gɂҮ Ү *Ү 3 *§öҮ  4Ү ě KҮ ¯ Ү )** Ү ϋЭȥҮ e Ү

·«Ү  Ү ƨ* Ү  *Ү*Ү* ҮҮ ҮҮҮ*Ү¯ Ү·P«ҮҮ
Ү Ү  *Ү Ү   Ү ŉҮ P%Ү #Ү * Ү -Ү  ¼Ү ̉ÇҮ +Ү83]
JI*Үĵɓ˞Ү 02 ++ˏìp  S Ү,¼Ү *ҮěWƲěĝ iҮ
 ųƸҮ

¯ Ү )** PMöҮ Ү *ō÷Ү̰ҮMҮ*Ү MҮ %* Ү * ҮVÂҮFfҮ

ҮǤ` ÷ Ү?  Ү -ÕҮM¼Ү̊Ç¼Ү++ː&p ě¼Ү
ʏě¼Ү

¯ Ү)** «Ү©Ү**Ү* À*Ү1ȁ*ҮҮ*Үќ-ҮҮ ZåҮ

*l**Ү Ү*ōҮ # ҮĎҮƗlMҮ Ү Ү -|Ү §Ү * *ҮƄҮ MҞҮ *PЕ#§MƬҮ
J ÇýҮ ů+ŵҮ  H Ү Ү á ȁҮ * Ү §*т«Ү  Ċ##Ү Ү ŝlҮ ҈â 4Ү *ČpҨ
 f*ɂҮ **Ү ҮMҮ #- Ү * Ү §*Ү -Ү *Ү Ү-løҮ
Ү Ү* Ү *ҮҮ* Ү**ҮҮ**Ү  *ĕҮ  02 ++W ÛҮ
 ɯҮ

¯ Ү **ȝfMPҮ MҮ * *Ү ҟҮ ҮҮīҮ *ōҮOѲҮ Ү *Ү

Ү*Ү *Ү®)˴"«Ү ÷ҮlҮ*Ү* Ү MҮҮ* ҮƓ*Ү 02 ++¶ p iҮ
Ү

FOÎ Ү * Ү F«Ү  `* Ү Mϵ4Ү ¯fҮ ǹ÷*ȠȺMMҮ MEҮ *L*Ү
+Ү

688a

FRMRѧҮ:ņҮҮRX  ҮRҮ ҮR Ү: Ү%ҮRЖҮ MR-RҮRҮ:ҮR Ү ƔEҮERҮҮ%Ү
 Ү Ү Ү:ҮҮ:ҮRҮ:ҮҮ%:R :Ү: ҮҮҮ Ү !Ү $Ç9*(Ų
»Ų

8 Ү )E MMҮ Ү :Ү Ү  R-R Ү į:Ү ¸ RºҮ -R M Ү Ү

-!RȺҮ Ү RpҮ 9  p  RҮ  'Ү 9Ү  RҮ RҮ :Ү  Ү :Ү:RҮ
 RRҮуҮ :Ү" ҮҮR: RMMRRMƭҮ !Ү $$Ù*-Ų
¾±Ų

8 Ү)Ȟ MMҮMҮҮ:nҮ
(Ɓ Ɓ Ɓ  yƁ Ɓ  Ɓ   Ɓ   #Ɓ Ɓ  Ɓ Ɓ
   ƁƁƁ  Ɓ Ɓ  Ɓ ƁƁ  Ɓ ¤ƁƁ
 OƁ    Ɓ Ɓ / Ɓ ,Ɓ VƁ Ɓ QƁ Ɓ Ɓ Ɓ
  Ɓ  Ɓ   Ɓ Ɓ Ɓ  Ɓ Ɓ Ɓ  Ɓ
 Ɓ  Ɓ Ɓ Ɓ Ɓ  / ƁƁƁŝ /{Ɓ

ÇҮ $$Ú*-<Ų
!X

8f9Ү) MM9ҮMҮҮ¨Ү
͞ϦҮ  Ɓ  Ɓ  ¤Ɓ   #Ɓ Ħ ·Ɓ Ɓ Ɓ  Ɓ K Ɓ
 Ɓ/Ɓ  Ɓ Ɓ  ƁįƁ  / Ɓ  ƁK ƁK Ɓ
 Ɓ Ɓ Ɓ Ɓ ! Ɓ IƁƁLƁ! ƁƁ   Ɓ  ƁƁ
 /¢ƁƁ  /Ɓ/Ɓ L/ Ɓ  88 / <ƁĜ Ɓ/Ɓ!-Ɓ
W¾Ɓ . e»!øz .Ɓ2TS1Ɓ;ƁƁ Ɓ  ƁŨ ƁƁK Ɓ /<,Ɓ

!Ү $$UŲ
2]

3Ү$-ÐҮ**8Ų *8Ų $ȱҮμ϶MΝҮҮRҮҮТȈҮҮMÐҮѳċҮϐȉRôwҮ

Ү  'Ү ΋ΌMfRҮŉҮM%ҮҮЅƤУҮ 9Ү  Ү8 Ү) 9MMҮ ̋!Ү È*U"Ų J̙ȸƑҮ
=2|Ų

!ýҮ É">Ų ,GҮҮ=U*¥(Ų
"Ų

$«Ү RҮ ҮMҮ Ү ƒҮѦҮ :9ҮČҮЍțEҮŉҮ ҮȸĥҮ

: Ү:ΞҮȻR MĭҮ ÐEҮ Ү8 Ү·MM ҮҮ8 Ү) MMҮ ȊȌRҮMMҮ
Å Ү Ү ÅRÐҮ RҮ RÐҮ Ү :Ү FRM|RҮ ϟɗҮ R M țÓҮ :Ү ÓƍÐҮ
įf9M ҮÐҮ Ү8Ү°Ү °RМҮҮĉR Ү?RȈҮ ňҮͫMMҮǬ6<Ү ҘҮ Ê"Û<=[Ų

"Ų

689a

4Ų

G Ų  PŲ Ų  Ų Ų  Ų 7# Ų D Ų NDŲ Ų  Ų Ų

 Ų )Ų Ų Ų Ų Ų !Ų $Ý"Ų 0AŲ (;Ų $2EŲ GŲ Ų(9<Ų
ÑŲ

1Ų M Ų 8Ų 8Ų BĬŲ F Ų 'Ų Ų Ų W WŲ j Ų

)ŲŜŲ ņŲ Ų Ų !Ų $9"Ų 0AŲ"2EŲŬŲ $4EŲGŲ Ų(9<Ų
Ų
 'DŲ 

AŲ  Ų Ų  Ų  Ų  Ų Ų Ų Ų

;Ų BŲ F

w  Ų

ÜŲ

) ) ) Ɓ Ɓ ñ Ɓ Ɓ Ɓ   0Ɓ 0Ɓ  Ɓ Ɓ Ɓ Ɓ Ɓ  BƁ
 Ɓ Ɓ Ɓ #Ɓ Ɓ 0z   Ɓ l Ɓ  Ɓ
 Ɓ  Ɓ Ɓ Ɓ Ɓ ƁJƁ ShIƁ1Ɓ, , , ) Ɓ7Ɓŏ Ɓ
 Ɓ Ɓ  Ɓ 0Ɓ Ɓ Ɓ   Ɓ  Ɓ #Ɓ  Ɓ
Ɓ Ɓj Ɓ Ɓ Ɓ! ®Ɓ0Ɓ ƁƁ ƁƁ#Ɓ Ɓ
 Ɓ Ɓ #Ɓ  Ɓ Ɓ p0Ɓ Ɓ Ɓ Ɓ Ɓ
 Ɓ Ɓ Ɓ)Ɓ 7Ɓ Ú` Ɓ BƁ #Ɓ  Ɓ
Ɓ pƁ ƁJ PƁ  Ɓ ƁX )Ɓ
E Ɓ Ɓ  BƁ Ɓ ! Ɓ Ā0Ɓ ľƁ Ɓ  Ɓ 0Ɓ
 ƁƁwƁƁ  ƁƁƁ ƁƁ Ɓ
 Ɓ Ɓ ƁJ ¯Ɓ  0,Ɓ
!3ŲË4ÞŲ0   Ų)23Ų
Ų

1WŲ MŲ ·8Ų 8Ų 5 Ų ĤķŲ Ų  aŲ Ų

 Ų Ų  'Ų ėŲ ŇŲ

`ŲBŲ ø Ų Ų1Ų Ų8Ų TŲ DŲ åčŲ;Ų wŲ !Ų $Ų9"Ų 0ňŝlŲŲ4>Ų
!Ų $-|Ų G3Ų Ų(9=rÌ9"Ų
TŲ

1Ų k ŰŲ ;Ų t¿8Ų  Ų ħŲ

Ų ŃŌ Ų ōŲ +  D +Ų

Ų 6   Ų

ĿŲ Ų  Ų } P lŲ @g&Ų  Ų M  Ų @Ų Ų  Ų F# Ų @ ĸŲ !Ų +69$]
0~Ų=42EŲ!Ų $ß4Ų0lŲ==2EŲ!3Ų $9%Ų 0Ų42EŲ~!3Ų "¸EŲ ýŲ Ų$94¦Í9Ų
Ų

1Ų I  Ų =8Ų À;Ų ì'Ų ^Ų  Ų 

JŲ  Ų Ų + Ĵ +Ų Ų  Ų

 P Ų a Ų Ų a Ų + dŲ d'  Ų Ų )/Ų `Ų  Ų ÿ DŲ F7Ų þŲ Ų
  Ų  Ų 6 ą Ų ĆP Ų  Ų Ų  'Ų Ų ćPŲ Ő ű'ŞŲ !²Ų Å-à<TŲ

4Ų

690a

0 §Ų%$&Ų Â2>Ų !Ų">Ų G Ų Ų"Ò£4Ó4Ų
%RŲ

AŲ Ų 

Ų  ŲŲI

 Ų%&Ųu%&ŲëŲ^Ų  Ų Ų  O  CŲ

 Ų şŲ  Ų    Ų # Ų  Ų  Ų   Ų NŲ Ų  Ų Ų  Ų
â#  Ų ó  ¨Ų !Ų Ã-U<Ų0 Ų (&Ų ((2>Ų !Ų"Ų
¹(«Ų
Ųï

AŲ Ų   Ų ń Ų I

Ų (&Ų %&Ų BŲ ^ĘŲ N Ų  Ų  Ų  Ų

 Ų %&Ų%&Ų Ų  Ų Ų H Ų  Ų  

B Ų íŭnŲ /

 Ų 

 Ų5

Ų

Ų NŲ+  Ų  CŲŲ

Ų    Ų Ų  Ų  Ų +Ų Ų :Ų

Ŏb Ų 5

Ų

Ų NŲ

 Ų  Ų 6   Ų!KŲ(-L¤Ų 0 Ų %Æ&Ų Á%&Ų ((2>Ų !©Ų "¡Ų "Ų
º$Ų
Ų

5

nŲ Ŗ Ų Ų   ā Ų Ų  Ų O  Ų  Ų   'Ųd'Ų Ų

i#Ų  Ų  Ų Ų Ų 7Ų X Ų  HYŲ Ų  Ų 

Ų

:Ų 6   Ų : #Ų  Ų ŲŲ  c'Ų Ų     Ų Ų : Ų ŪŲ Ų Ų: Ų @ Ų Ų
+  ŲŲ Ų Ų  Ų  Ų :Ų k  Ų  O  Ų KŲYŲ !Ų"³LqSŲ
w "Ų

1Ų?

 &Ų%&Ų 5

Ų ĝĵŲ ŲH ŲŲ ' #Ų   ĻŲ ŲŗĭŲ6 W  Ų

 Ų Ĉb/ 'Ų BŲ F HļĽ ªŲ !Ų$ÔÏŲ 0Ř ŮŲ %$2>Ų !RŲ " >Ų  Ų Ų-Õ-qvÖŲ

#]&5Ү

1Ų ?

Ų&Ų%&Ų 5

Ų Ų ŲĹ/ Ų / Ų  Ų :bŲ 6  Ď Ų 7Ų :ę ěŲ Ų

 Ų

 /Ų  # Ų Ų  Ų  Ų _ Ų B c'Ų FĂŀ Ų ĺŅcŲ  ĜŲ Š Ų



Ų 6šŲ Ų @ Ũ Ų ô  Ų $Ų  Ų :Ų   Ų  HŲ :Ų 1ĉ Ų ĵҮ Ų M' Ų

oŲ !3Ų $L-Ų 0 Ų %"áŲ !RŲ "%{Ų ù RŲ Ųyrv¬Ų
-Ų

AŲ  Ų H ŲŲ  #&Ų 5

Ų Į įŲ  Ų  ŁŲ

Ų  Ų  HŲ Ų B Ų IZŲ I Ų

Ų 

 Ų 7Ų

i# Ų Ų Ų  Ų Ċ/ Ų Ų İŲ

 ďŒŲ /Ų 1C Ų Ų Ų M ŲoŲtŲæ!Ų"TŲ
%Ų

êŲ  Ų Ų Ų f ũ Ų 5
ÐŲ

Ų  ĐŲ Ų

 Ų Ų  #Ų Ų /  Ų /Ų

691a

đŲ  Ų . Ų Ų   Ų ĠŲ Ų  Ų  OŲ 7Ų  Ų )Ų  Ų 7# Ų
Ē)KŲ!SŲ "L¢Ų *(3Ų
¼*Ų

AŲ Ų . Ų Ų )Ų Ų öŲ $;Ų ñ7Ų 

 Ų ıŲ  .Ų 7.'Ų

  Ų Ų Ų Ų .Ų Ų ] Ų IsŲ ð)Ų #)Ų Ų _Ų  'Ų
Ų)Ų Ų Ų Ų 1Ų *Ų Ų ä.Ų *;Ų *ZŲ ç!3Ų "Ų%3Ų
xZŲ

}Ų Ų  Ų ? )Ų -&Ų ´%;Ų ]ŢŲ V .Ų  Ų ò Ų  Ų Ų

Q) ăQŲ 7Ų Ų Ų  Ų 6 f  &Ų Ų  Ų  Ų . Ų Ų #Ų ēŲ Ų  Ų
Ų ÷Ų $3Ų è!­Ų "({Ų úSŲ Ų*Lu<*"Ų
%Ų

AŲ Ų? )Ų -8Ų µ*%Ų&Ų ]ŲV .Ų Ų jŲ 7×Ų

êBƁ Ɓ Ɓ 4~Ɓ 9 P Ɓ @&Ɓ Ɓ & Ɓ  Ɓ  Ɓ ò Ɓ T2I1Ɓ
 "#ƁƁ! ƁƁƁ&ƁƁƁ & ƁāƁƁ&@ƁX &Ɓ
:İƁ 4}Ɓ 9 ,Ɓ çƁ Ɓ @œJŲ Ɓ   #Ɓ &Ɓ  Ɓ XƁ ¨ƁƁù&Ɓ
"Ɓ  Č #Ɓ Ɓ! uƁ  Ɓ@nƁ  ƁƁAƁ  Ɓ  &Ź Ɓ
@&"Ɓ " Ɓ  uƁ &Ɓ ŐƁ  Ɓ Ɓ   "Ɓ  "Ɓ
"Ɓ Ɓ J" "yƁ  +HƁ Ià nƁ ©3fƁ Ɓ 3Ɓ I@"Ɓ "Ɓ
 &" 11)ƁC&ƁƁž @ Ɓ  Ɓ¡ "#Ɓ4+Ɓ9 ƁĖı - ƁƁ
 & Ɓ @&Ɓ &Ɓ Ţ"+Ɓ 7  #Ɓ Ɓ ! Ɓ " ŁƁ  Ɓ Ɓ
$&Ɓ ż Ɓ &Ɓ  #Ɓ Ɓ&ŴƁ& Ɓ  &Ɓ Ɓ Ɓ Ɓ
  Ɓ  #   # # S2ÅƁ õ+( )Ɓ X ±Æhh . 1~Ɓ7Ɓ Ɓ& Ɓ
"  Ɓ Ɓ 4+Ɓ 9 Ɓ Ɓ Ɓ Ɓ !  nƁ ƁħƁ ! Ɓ ª . #22 2 c22Ɓ ė Ɓ
;"Ɓ&ƁƁâ Ɓ C" " ƁĘƁE"$"Ɓ6 Ɓ×Ɓ ¿Ɓ Ö Ɓ
Ɓ Ɓ ! Ɓ Ɓ  ÑƁ Ɓ ũ Ɓ  " Ɓ ęĲ "Ɓ " łƁ  uƁ "Ɓ
Ɓ " Ɓ ĳƁ"Ɓ 4+Ɓí +Ɓ
!SŲ "(y¶<3Ų
%½Ų

1Ų

 &Ų  Ų V# Ų ã  Ų  Ų 

Ų Ų  Ų !Ų  Ų #Ě Ų

C )łŲ Ų Ų .&Ų ūŲ Ħ.Ų  Ų  ) Ų SN] ŉŲ  ).Ų Ų  ) Ų  Ų ŕŲ
 ĔŲ `Ų Ų   Ų KYŲ!KŲ"$ØŲ
xÄ®Ų

 Ų V# Ų @ C Ų Ų

.Ų QţŲ RM]ř Ų

 Ų Ų !  Ų Ų  Ų ' Ų kŲ Ĳ Ų

 Ų QŲ ĕŏe#'ŲŲ QŲ CŊŤŲ eĪŲ Ų Ŕ)#ŲĞğŚŲ
%Ų

692a

+ Ų XŲ , śŲ  Ų Ų ,h Ų Ų Ų Ų Ų DŲ Ų #Ų  Ų ,#Ų
Ų ġŲ Ų Ģ # Ų [mŲ úÏYҮ G Ų Ų pŲ XĀŲ iŲ Ų Ų  Ų ,'Ų Ų
 Ĩ ,Ų Ų ,#Ų  ŲŲ ŲŲ  Ų  O,Ų Ų DŲ ŲŲ
Ų,ť#ŲmŲ é!Ų"$z % [ Ų

'.]
 Ų 

G Ų F# Ų \ŦŲ

Ų

ĥŲ  Ų  Ų

+ Ų

 Ų 5 pŲ

Ų 5 JŲ  Ų Ų Ų Ų Ų Ų !CŲ Ų  Ų Ų  Ų Ų

gJŲ Č Ų Ų , Ų + Ų  Ų Ų Ų Ų &Ų #&Ų
ŲĖŲ  #Ų ģĶŲ úÏҮ

˶ɳҮ

F~h dvxh pm WQ

  z h/v{w}r tp>~ v~} Z~7} pp}p}m

ZupQxq   >~ v} 7} ZupQv}hxnv =h p 

ɴҮ

\/Ų Ų

õ   , Ų-ŲŲ Ų\, Ų Ų

VƁ

 # 6X

# 9 X

# #

zŲ

# " #

# # =:-X

7 .  X ! # ô ,( , ƁC

½Ɓ ! ƁƁ =Ɓ á Ɓ C  Ɓ  Ɓ Ɓ
!Ɓ 9,Ɓ . 38! Ɓ833T8D6óƁ  Ɓ Ä 38! 8Ɓ Ì3¹D6(BƁ = =Ɓ  Ɓ Ɓ f =Ɓ
!¼Ɓ  ) ( d Ɓ ! Ɓ   Ɓ%Ɓ !Ɓ 9)Ɓ . 3º3gTSƁ  Ɓ . É8 . g gfBƁ 0Ɓ
ŮĬ%Ɓ Ɓ * Ɓ Ɓ  Ɓ  Ɓ Ɓ * Ɓ Ɓ %Ɓ *Ɓ Ɓ
! OƁƁ Ɓ  Ɓ Ɓ ã ,ð)Ø)6 ,Ɓ Í2a²ae1#Ɓ ¡ Ɓ ņ ōƁ
Ɓ  Ɓ Ɓ Ɓ ď%bƁ đůƁ =Ɓ {(cƁ C k Ɓ ! Ɓ = Ɓ
źƁ 9Ɓ  Ɓ0ƁĐŤ =Ɓ]vƁoƁ<v;ƁţvĿ ƁƁ
Ɓ Ɓ  Ɓ #Ɓ9Ɓ<% ĊƁ(ÙJƁeÃÏ3+ .Ɓa1dƁ

Ү
X

Ų
Ų

Ų
Ų
Ų

Ү

693a

APPENDIX B

694a

APPENDIX B
Nora’s Proposed Answer to OLR’s New Allegations of Fact
preserving all of her constitutional and jurisdictional objections
THE SPENCER MATTER
Facts Regarding Spencer Matter (“Spencer Facts”)
The record in relation to the Spencer Matter shows the following:
1. The Spencer Matter was a mortgage foreclosure action commenced in the
Circuit Court for Wood County in April 2009. Exhibit (“Ex.”) 1:1; Ex. 2:1; Ex. 53:2.
1. Nora admits this new allegation, which corrects one of OLR’s earlier pervasive
mistaken allegations, sought to be corrected by amended ¶6 and allowed, over Nora’s
objection, by the filing of the Second Amended Complaint on August 18, 2016.
2. Nora’s involvement commenced in early May 2012 when she filed a notice
of appearance for defendant Sheila Spencer and a motion to postpone a hearing on a
summary judgment motion scheduled for May 23, 2012. Transcript (“Tr.”) at 316:3319:19; Ex. 1:3-4 (CCAP Items 32, 36-38).
2. Nora admits that she appeared in the Spencer case and affirmatively alleges that
she appeared as new counsel for Ms. Spencer on May 8, 2012. Nora further affirmatively
alleges that she did not specifically move for a postponement of the summary judgment
motion. She sought the entry of a scheduling order. No comprehensive scheduling order
had yet been entered in the case and no comprehensive scheduling order was ever entered.
Judge Potter converted the hearing to a schedule conference and ordered Nora to submit a
list of the issues she observed regarding the constitutional and statutory defects in the
proceedings. Judge Potter did not refer to the list of issues being limited to summary
1

695a

judgment issues did not mention the scheduling of the second summary judgment motion at
all in his oral ruling on May 23, 2012.
3. Nora appeared in person at the May 23, 2012 hearing. Tim Brovold, an attorney from
Gray & Associates, S.C. (“Gray Firm”), counsel for the plaintiff, appeared by telephone. Judge
Gregory Potter, the presiding judge, granted Nora the postponement she sought and directed Nora
to file and serve a list of issues on or before June 29, 2012. Ex. 8; Ex. 9:1, 15-16; Tr. at
319:21-325:12.
3. Nora admits that on May 15, 2012, she moved for the entry of a scheduling order
to allow her to defend Ms. Spencer’s Homestead, based on her May 8, 2012 appearance as
counsel. The issuance of a scheduling order when no scheduling order had previously been
entered is a routine request and the modification of existing scheduling orders is frequently
allowed when new counsel appears.
4. Nora did not file the list of issues by June 29, 2012 as directed by the court.
Instead, on June 27, 2012, she filed an “Affidavit of Nonreceipt of Motion for Proposed
Order and Final Order.” Ex. 1:4 (CCAP Item 43); Ex. 13; Tr. at 325:13-326:6.
4. Nora admits that she did not receive the proposed order submitted by Gray &
Associates, LLP under cover letter dated May 25, 2012 or a copy of the order entered by
the Court on June 12, 2012. Her Affidavit of Non-Receipt was true.
5. Nora testified she filed the June 27, 2012 affidavit with a motion dated June
28, 2012, for an extension of time to file the list of issues (Tr. at 348:4-20), but the CCAP
record and court record index show these as separate filings. Ex. 1 :4-5; Ex. 2:3.
5. A new allegation cannot be set forth after the hearing commences and if the new
2

696a

allegation were material, it would be contrary to the principles of due process set forth by
the United States Supreme Court in In the Matter of John Ruffalo, Jr., Petitioner 390
U.S. 544, 551, 88 S.Ct. 1222, 20 L.Ed.2d 117 (1968) and by the Wisconsin Supreme Court in
This Court recognized the following due process rights of lawyers in disciplinary cases in
State v. Hersh, 73 Wis.2d 390, 398, 243 N.W.2d 178, 182 (1976). This new allegation is,
however, alleges a wholly immaterial “inconsistency.” Nora was testifying from her
memory of a filing made almost 4 years before the hearing. The record shows that the
affidavit was dated June 27, 2012 and the motion was dated June 28, 2012. ¶3 of the June
27, 2012 Motion reads:
3. The Affidavit of Defendant’s counsel dated and filed on June 27, 2012 is
incorporated by reference as if fully set forth herein.
Nora allows that evidence affecting her credibility can be argued based upon the
record made at the hearing, but OLR is not arguing credibility in this new allegation, but is
apparently alleging a new fact in support of Counts One, Two or Three. Had Nora been
charged with misconduct by a preliminary review panel of the Preliminary Review
Committee (hereinafter the PRC) under SCR 22.11(2) insofar as she filed the June 27,
2012 Affidavit and the June 28, 2012 Motion as separate documents, she would have been
prepared to explain that she filed the Affidavit of Non-Receipt immediately upon learning
that an Order had been entered which had not been served upon her and that she followed
up with the Motion the following day after she considered the implications of the entry of
the Order in light of her knowledge of other events in the court record with which she had
familiarized herself in order to prepare the list of issues which she was preparing to file.

3

697a

Those other events are set forth in the list of issues filed on August 13, 2012.
6. In her June 27, 2012 affidavit, Nora stated that she had reviewed the CCAP
record, that she was “shocked to find that an Order was entered in these proceedings on
June 12, 2012,” and that she had not been served with a motion seeking entry of an order
after the May 23, 2009 hearing. Ex. 13:2, ¶¶ 3, 4.
6. Nora admits this new allegation, in part, and denies it, in part. Nora
affirmatively alleges that Nora’s June 27, 2012 Affidavit of Non-Receipt was true, but this
new allegation compound allegation is not true in both parts. Nora did not state that she
had not been served with “a motion seeking entry of an order after the May 23, 2009
hearing.” The hearing to which the order relates had already taken place. The contested
order was never enforced. The order drafted by Nora, who transmitted it to the Gray Law
Firm for approval before sending it to the court for the court’s review was entered
7. In her June 27 affidavit, Nora stated that she “needed the order for the deadline of June
28, 2012” (Ex. 13:2, ¶¶ 9), referring to her obligation to file and serve the list of issues by the
June 29, 2012 deadline. Tr. at 337:4-17.
7. Nora admits this new allegation and affirmatively alleges that Nora needed to
review the contents of the June 12, 2012 Order which she had not received so that she could
comply with the order. It cannot reasonably be disputed that parties or their attorneys are
entitled to receive copies of orders entered in their cases.
8. Nora’ s June 27 affidavit contains no satisfactory explanation how entry of
an order she said she had not seen affected her obligation to file the list of issues. Ex. 13.
8. Nora denies this new allegation and affirmatively alleges that Nora was not
4

698a

charged with not making a satisfactory explanation of how the order she had not seen
affected her obligation to file the list of issues, but her June 27, 2017Affidavit of NonReceipt indeed contains the explanation of why she needed to have a copy of the Court
Order. It cannot reasonably be disputed that parties are not entitled to receive copies of
orders entered in their cases. In ¶26 of the Complaint, the Amended Complaint and the
Second Amended to Complaint (as to the latter, Nora preserves her argument regarding
OLR’s lack of authority to file the Second Amended Complaint), OLR alleged that the
missing page of the May 23, 2016 Transcript contained “no orders, no dates, and no
findings that would prejudice Nora or her client”. Nora’s defense to that allegation was
that parties and their attorneys are entitled to correct copies of the transcripts.
9. In her June 27 affidavit, Nora stated that the court’s clerk told her that the Gray Firm
had sent the order and a letter to Judge Potter. Ex. 13:2, ¶¶10-12.
9. Nora admits this new allegation and affirmatively alleges that the June 27, 2012
Affidavit of Non-Receipt was true.
10. Nora made no effort to contact the Gray Firm to obtain a copy of what had
been sent to the court. Tr. at 338:17-340:2.
10. Nora admits this new allegation and affirmatively alleges that Nora is not
required to contact the party responsible for serving a copy of the court order it obtained.
She is entitled to obtain a copy of the order directly from the court record. The civil filings
clerk refused to FAX a copy of the order to Ms. Nora, who was prepared to pay the
statutory fee of $1.25 per page and offered to do so (and would have paid any surcharge for
the FAX). Nora then asked Ms. Spencer to obtain a copy of the court order and Ms.
5

699a

Spencer did so. Nora received the copy of the court order from Ms. Spencer on June 28,
2012.
11. In her June 27 affidavit, Nora described the Gray Firm’s conduct regarding
the order as an “ex parte communication with the Court.” Ex. 13:3, ¶¶13-16.
11. Nora admits this new allegation and affirmatively alleges that when a party does
not provide a copy of a proposed order to the opposing party, that is an ex parte
communication. When a party obtaining a court order fails to serve a copy of a court
order on the opposing party, the opposing party cannot comply with the court order until
the opposing party obtains a copy of the order. Nora was entitled to receive a copy of the
order entered by the court from the Gray Law Firm, who procured it.
12. In her June 27 affidavit, Nora stated that she was considering the possibility
of “moving to disqualify Judge Potter for ex parte communications with GRAY &
ASSOCIATES, L.L.P.” Ex. 13:4, ¶17.e.
12. Nora admits this new allegation and affirmatively alleges that it is not violation
of the Code of Professional Conduct for a party to move to disqualify a judge for ex parte
communications with opposing counsel. Rather, it is obligation of the party’s attorney to
seek disqualification of a judge if the judge is engaging in ex parte communications with
opposing counsel if there is evidence which supports the challenge. In Ms. Spencer’s case,
there was sufficient evidence in the record to support the challenge. See ¶¶4, 6, 7, 8, 9, 10,
11, and 12, above, incorporated by reference as if fully set forth herein.
13. The June 28, 2012 motion filed by Nora states that Spencer seeks “the
Disqualification of Judge Gregory J. Potter for Repeatedly Engaging in or Facilitating Ex Parte
6

700a

Communications and Entering Ex Parte Orders in These Proceedings.” Ex. 14:1.
13. Nora admits this new allegation and affirmatively alleges that it is obligation of
the party’s attorney to seek disqualification of a judge if the judge is engaging in ex parte
communications with opposing counsel or otherwise take action to assure that the ex parte
communications will not be repeated, which is what Nora did in the Spencer case.
14. In her June 28 motion, Nora refers to the Spencer proceeding as a “mockery
of justice” (Id., 14:2, ¶1) and as “these misbegotten proceedings” (Id., 14:2, ¶3).
14. Nora admits this new allegation and affirmatively alleges that ex parte
communications are forbidden except under specified circumstances and ex parte
communications render proceedings unjust, or as Nora stated, a “mockery of justice.”
Fundamental due process is required for just proceedings. There was substantial evidence
that the proceedings were “misbeggotten”: the Complaint was filed in the trade name of an
entity which was no longer in nonexistence and an UNENDORSED copy of Ms. Spencer’s
Note was attached and represented to be a “true” copy, when it was not. Ex. 5.
15. In her June 28 motion, Nora stated that on June 27, 2012, she received from
her client copies of a letter to the court dated May 25, 2012 and a signed order filed June
12, 2012 (Id., 14:3, ¶8). Nora acknowledged that Exhibit 10 was a copy of the letter and
Exhibit 12 was a copy of the order referred to in her June 28 motion and in her June 27
affidavit. Tr. at 360:3-363:1.
15. Nora admits this new allegation and affirmatively alleges Nora’s testimony with
respect to the identification of the subject documents at the evidentiary hearing is true.
16. The letter of transmittal dated May 25, 2012 and proposed order shows a
7

701a

carbon copy to Nora. Ex. 10:1. Nora could not explain how Judge Potter would have
known that the Gray Firm had not sent her a copy of the letter and proposed order or that
she had not received a copy of the letter and proposed order. Tr. at 364:11-25.
16. Nora admits this new allegation and affirmatively alleges that Nora was not
required to explain how Judge Potter would have known that the Gray Firm had not sent
her a copy of the letter and proposed order or that she had not received a copy of the letter
and proposed order because she was not charged with failing to explain those factors. As
Nora’s June 28, 2012 Motion (Ex. 14) clearly states, the Wood County Circuit Court does
not have a “Five-Day Rule” and the entry of an order without approval as to form indicates
that the order was not approved by counsel for the party who did not draft or submit the
order.
17. In her June 28 motion, Nora stated that “(t]his is not the first instance of ex
parte communications leading to orders being entered by Judge Gregory J. Potter. Ex.
14:4, ¶22. Nora referred to three purported prior instances: a filing on March 31, 2010
(Ex. 14:4-5, ¶ 23.a.); (2) a pair of letters dated February 17, 2011 (Id., ¶¶ 23.c. and 23.d.);
and a motion to vacate a summary judgment dated June 17, 2011 (Id. ¶ 23.e.).
17. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the June 28, 2012 Motion (Ex. 14) are true.
18. In her June 28 motion, Nora referred to the “recent ex parte order” as “another
example of the improper practices in these proceedings.” Id., ¶24.
18. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the June 28, 2012 Motion (Ex. 14) are true.
8

702a

19. In her June 28 motion, Nora stated that “the secret proceedings held in this
matter constitute a miscarriage of justice and that those practices continued in the ex parte
order changing the substance of the Court’s order entered on the record of the
proceedings on May 23, 2012.” Ex. 14:6, ¶26.
19. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the June 28, 2012 Motion (Ex. 14) are true.
20. In her June 28 motion, Nora stated that “(a] reasonable inference arises
from these facts that Judge Gregory J. Potter has colluded with GRAY & ASSOCIATES,
LLP to circumvent proper practice and procedure by engaging in and facilitating ex parte
communications by which orders have been entered by the court.” Id., ¶31.
20. Nora admits this new allegation and affirmatively alleges that the inference
Nora drew from the record events is not per se unreasonable. Ex parte communications
had taken place as set forth in the list of issues filed on August 13, 2012. OLR bears the
burden of proof by clear and convincing evidence that the inference Nora drew from the
record in the proceedings was unreasonable. No evidence that the inference Nora drew
from the events in the court record was adduced by OLR at the hearing.
21. Nora demanded that Judge Potter recuse himself based on SCR 60.04(4)(g),
which generally proscribes ex parte communications, and SCR 60.04(e), which states that
“[a] judge shall perform judicial duties without bias or prejudice.” Ex. 14:7-8, ¶37.
21. Nora admits this new allegation and affirmatively alleges that OLR does not cite
the applicable provisions of SCR 60.04(4) and Nora denies that SCR 60.04(4)(g) “generally
proscribes ex parte communications. SCR 60.04(4)(g) allows ex parte communications only
9

703a

under specific circumstances. Applicable to the events in the Spencer case SCR 60.04(g)
provides:
1. A judge may initiate, permit, engage in or consider ex parte communications for
scheduling, administrative purposes or emergencies that do not deal with
substantive matters or issues on the merits if all of the following conditions are met:
a. The judge reasonably believes that no party will gain a procedural or tactical
advantage as a result of the ex parte communication.
b. When the ex parte communication may affect the substance of the action or
proceeding, the judge promptly notifies all of the other parties of the substance of
the ex parte communication and allows each party an opportunity to respond.
Under the definition set forth, above, the communications at issue in ¶19 of the Second
Amended Complaint were ex parte.
Nora further affirmatively alleges that her statements in the June 28, 2012 Motion
(Ex. 14) are true and it is obligation of the party’s attorney to seek disqualification of a
judge if the judge is engaging in ex parte communications with opposing counsel or
otherwise take action to assure that the ex parte communications will not be repeated,
which is what Nora did in the Spencer case.
22. Nora had no personal knowledge as to the alleged ex parte communications
prior to her appearance in the case. Her knowledge was limited to what was shown in the
court record and what others told her. Tr. at 31:11-17.
22. Nora admits this new allegation and affirmatively alleges that Nora was not
charged with not having personal knowledge of the evidence upon which she relied to
conclude that ex parte communications had occurred. It is obligation of the party’s
attorney to review the court record events and the client’s documents. The court record
events supports Nora’s contention that the March 31, 2010 Motion for Summary

10

704a

Judgment, which set the summary judgment hearing for March 31, 2010, did not provide
Ms. Spencer with the statutory notice required by Wis. Stat. sec. 802.08(1)–twenty (20)
days–and that the hearing was reset on April 6, 2010 to April 19, 2010 without the
statutory twenty (20) days’ notice. The record also supports Nora’s contention that the
second letter sent only to Ms. Spencer dated February 17, 2011 was not provided to the
court and the reasonable inference arises from the existence of two (2) versions of the
February 17, 2011 letter, of which only one is in the court record, that Ms. Spencer did not
receive notice of the “affidavit issue,” to wit, the falsely sworn Affidavit of Mendy Mundey,
claiming to be an employee of PNC Bank, N.A., a non-party to the action, that PNC Bank,
N.A. and not FNMC, a division of National City Bank of Indiana n/k/a National City
Bank–the named plaintiff–was the “owner and holder” of Ms. Spencer’s Note, made
payable to FNMC, a division of National City Bank of Indiana, a copy of which was
attached to the Complaint and was unendorsed. Finally, the evidence in the record shows
that the June 20, 2011 Order Re-Opening the April 19, 2010 Summary Judgment was
entered without notice to Ms. Spencer or the opportunity to be heard thereon.
23. As to the alleged March 31, 2010 ex parte communication, an affidavit of a
Gray Firm employee shows that on that date Spencer was served a copy of a Notice of
Motion and Motion filed with the court on April 5, 2010. Ex. 15; Tr. at 418:17-419:9.
23. Nora admits this new allegation and affirmatively alleges that the March 31,
2010 Motion for Summary Judgment, which set the summary judgment hearing for March
31, 2010, did not provide Ms. Spencer with the statutory notice required by Wis. Stat. sec.
802.08(1)–twenty (20) days–and that the hearing was reset on April 6, 2010 to April 19,
11

705a

2010 without the statutory twenty (20) days’ notice and was brought in the name of a party
which had not formally appeared in the action and never appeared in the capacity claimed
in the unilaterally altered case caption. Neither Ms. Spencer, pro se, nor Judge Potter,
noticed the unilateral alteration to the case caption in the action, which was not amended
until December 21, 2012.
24. As to the alleged February 17, 2011 ex parte communication, the court record shows
that the letter to the court cancelling a hearing was copied to Sheila Spencer. Ex. 16; Tr. at
368:16-369:6.
24. Nora admits this new allegation and affirmatively alleges that Nora was entitled
to rely on her client’s statement that she did not receive the February 17, 2011 which
referred to the “affidavit issue” and only received the letter cancelling the hearing.
25. As to the alleged June 20, 2011 ex parte communication, the court record
shows that the letter to the court filing a petition and order to vacate the judgment was
copied to Sheila Spencer. Ex. 18; Tr. at 370:3-371:1.
25. Nora admits this new allegation and affirmatively alleges that the record shows
that the June 20, 2011 Order Re-Opening the April 19, 2010 Summary Judgment was
entered without notice to Ms. Spencer or the opportunity to be heard thereon.
26. On June 23, 2012, Nora filed a “Notice of Continuing Objection to Further
Proceedings.” The Notice seeks “Disqualification of Judge Gregory J. Potter for
Repeatedly Engaging in or Facilitating Ex Parte Communications and Entering Ex Parte
Order [sic] in these Proceedings . . . ” Ex. 19:1; Tr. at 379:19-381:7.
26. Nora admits this new allegation and affirmatively alleges that it is obligation of
12

706a

the party’s attorney to seek disqualification of a judge if the judge is engaging in ex parte
communications with opposing counsel or otherwise take action to assure that the ex parte
communications will not be repeated, which is what Nora did in the Spencer case. Because
Nora was assured that no further ex parte communications would take place, Nora drafted
the order from the August 8, 2012 hearing for Judge Potter’s signature. (OLR Ex. 21)
27. On June 25, 2012, Nora filed an “Amended Notice of Continuing Objection
to Further Proceedings.” Ex. 20; Tr. at 404:6-16. The only difference between the Notice
and the Amended Notice is that the name of Attorney Timothy Mark Brovold of the Gray
Firm appears in paragraph 4 of the Amended Notice. Tr. at 407:19-414:3.
27. Nora admits this new allegation and affirmatively alleges it is not a violation of
the Code of Professional Conduct to amend a document filed with the Court.
28. In her “Continuing Objection,” Nora alleged that the Gray Firm had made
“multiple fraudulent filings” in the case. Ex. 20:3, ¶7; Tr. at 389:2-5.
28. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) are true.
29. In her “Continuing Objection,” Nora stated that the alleged non-service of
the proposed order entered on June 12, 2012 was part of “an actual pattern and practice
by Judge Potter and [the Gray Firm], acting in concert, to effectuate a fraudulent
foreclosure against Sheila M. Spencer and her home.” Ex. 20:4, ¶¶ 8; Tr. at 389:6-16.
29. Nora admits this new allegation and affirmatively alleges that OLR has taken
Nora’s statements in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20)
out of context. Nora further affirmatively alleges that her were believed in good faith to be
13

707a

true. As Nora explained to Judge Potter, that because homeowners rarely contest
foreclosures, there is a tendency to consider the foreclosure proceedings to be pro forma,
rather than truly adversarial.
30. In her “Continuing Objection,” Nora stated that the “ex parte order should
never have been considered for signing by Judge Potter and now the entire record of the
proceedings must be reviewed in the light of apparent collaboration between Judge Potter
and [the Gray Firm].” Ex. 20:6, ¶11; Tr. at 390:3-14.
30. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Nora further affirmatively alleges that she used the word
“apparent”“ to modify “collaboration” because she was drawing a reasonable inference in
good faith from the facts available to her.
31. In her “Continuing Objection,” Nora stated the Gray Firm had engaged in
“conniving to procure the June 12, 2012 ex parte order of Judge Potter to reverse what it
perceived as a loss on the record of the May 23, 2012 proceedings.” Ex. 20:6, .. 12; Tr. at
390:20-391:1.
31. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) are true. This new
allegation is substantially different than the factual allegations set forth in the Complaint
and Amended Complaint (presumably approved by the PRC) and continuing in the Second
Amended Complaint (not approved by the PRC) in that it is more accurate. Nora did not
state, as previously alleged by OLR that Judge Potter, that the court clerk and the Gray
14

708a

Law Firm were conniving with each other to reverse what the Gray Law Firm perceived as
a loss on the record of the May 23, 2012 proceedings. Nora did state, in good faith based
on evidence that she had not received either the proposed order enclosed in a letter dated
May 25, 2012 or a copy of the order when it was entered, that the Gray Law Firm connived
to obtain reversal of a perceived loss on May 23, 2012, to wit: that the court had ordered
the preparation of a list of issues by the opposing parties which was not limited to the
motion to summary judgment.
32. In her “Continuing Objection,” Nora stated that a complete review of the
record was required “in light of apparent collaboration between Judge Potter and the
lawyers from [the Gray Firm].” Ex. 20:6, .. 13; Tr. at 391:2-7.
32. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. The use of the adjective “apparent” to modify the noun
“collaboration” demonstrates that Nora was making an inference based on the events in
the record. The facts in support of the apparent collaboration include, but are not limited
to, allowing the Gray Law Firm to reschedule the hearing on the first motion for summary
judgment filed on March 31, 2010 and set for hearing on the very same day, without
informing Ms. Spencer that the case had been rescheduled; allowing the first summary
judgment hearing to be scheduled on less than 20 days notice, contrary to Wis. Stat. sec.
802.08(1); signing the order of June 10, 2011 re-opening the judgment in Ms. Spencer’s
case without notice and hearing; and signing the order entered on June 12, 2012 submitted
by the Gray Law Firm which did not reflect the oral ruling as reported on the CCAP
15

709a

record for the May 23, 2012 hearing.
33. In her “Continuing Objection,” Nora stated that:
Whereas it was first thought that Judge Potter was confused and
was, as a result of pride, unable to admit to his confusion, it is now
clear that Judge Potter is not confused but is actually participating
in a manipulation of the proceedings to deny Sheila M. Spencer the
opportunity to be heard in defense of her rights to her home.
Ex. 20:6, ¶14; Tr. at 391:8-17 (emphasis added).
33. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context, quoting Nora’s
statement in ¶33 of the Continuing Objection with emphasis added and ignoring the
3

context in which the statements were made.

34. In her “Continuing Objection,” Nora stated that:
The manipulation of the Transcript to remove some of the most
damning evidence of bias . . . discloses a whole new issue: that
Judge Potter is complicit in the manipulation of the proceedings
and of the record.
Ex. 20:6, ¶15; Tr. at 391:18-392:5 (emphasis added).
34. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context. OLR omitted
the following part of the foregoing statement and replaced it with ellipsis: “such as the
missing statement that Judge Potter blames Sheila M. Spencer for the miscarried
proceedings when it should have been evident that it is GRAY & ASSOCIATES, LLP

16

710a

whose lawyers are deceiving the Court and removing all context and use of the word trial.”
Nora’s actual statements in the July 23 and July 25, 2012 Continuing Objections (Exs. 19
and 20) were believed in good faith to be true.
35. In her “Continuing Objection,” Nora stated that “the ‘civil filings’ clerk
was participating in the scheme to deprive this counsel of copies of documents which she
did not receive.” Ex. 20:6, ¶¶ 16; Tr. at 392:6-12.
35. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context Nora’s statement
above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) is believed
in good faith to be true. It is the duty of a clerk of any court, under the scheme of paper
filings which is now being replaced, to provide copies of documents to the public as well as
the parties and their attorneys for the statutory fee. Nora had never previously been
denied access to court records filed on paper in courts outside the location of her principal
office, on request and pre-payment of the statutory fee, which Nora offered to pay.
36. In her “Continuing Objection,” Nora stated that Judge Potter had not
removed himself from the case “because he is now being shown to be actively assisting”
the Gary (sic) Firm. Ex. 20:7, ¶18; Tr. at 393:6-394:17.
36. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context Nora’s statement
above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) was believed
17

711a

in good faith to be true. Had the foregoing factual allegation been approved by the PRC
and pleaded in advance of the hearing, substantial resources would not have been
expended between September, 2015, when OLR first attempted to file the allegations set
forth in its Second Amended Complaint in OLR v. Nora, No. 2013AP000653-D (Nora #1)
and, being denied leave to do so, then filed its November 30, 2015 Complaint and served
Nora with the Complaint and Order to Answer on or about December 2, 2015 through May
15, 2017 when OLR (without the approval of the PRC) finally set forth extensive, never
before pleaded allegations of fact in its Post-Hearing Brief.
37. In her “Continuing Objection,” Nora referred to Judge Potter as being
“[c]omplicit in the long and convoluted proceedings whereby false documents and ex
parte proceedings are the modus operandi of Gray & Associates, LLP supported by Judge
Potter.” Ex. 20:7, ¶19; Tr. at 394:18-24.
37. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context Nora’s statement
above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were
believed in good faith to be true.
38. Although Nora testified that she did not accuse Judge Potter of “turning a
blind eye to crimes committed within the court process itself” (Tr. at 402: 14-403:1 ), in
her Continuing Objection Nora stated that:
Civil courts cannot be subverted by allowing crimes to go
undetected by its officers, including Judge Potter and Sheila M.
Spencer’s counsel, and Judge Potter and counsel for Sheila M.
18

712a

Spencer cannot turn a blind eye to crimes to be committed within
the court process itself.
Ex. 20:8, ¶25; Tr. at 402:14-403:1.
38. Nora admits this new allegation and affirmatively alleges that Nora’s testimony
regarding her statements in the July 23 and July 25, 2012 Continuing Objections (Exs. 19
and 20) was true. Again, OLR takes Nora’s statements out of context. The statement
above is not an accusation against Judge Potter. It clearly states that neither the judge nor
Ms. Spencer’s counsel can turn a blind eye to crimes being committed within the court
process itself.
39. In her “Continuing Objection,” Nora stated that “Judge Potter has not seen fit to
recuse himself yet from these proceedings even after being exposed for ex parte communications
and having presided over proceedings which bear no resemblance to proper, neutral court
proceedings.” Ex. 20:9, ¶32; Tr. at 403:2-10.
39. Nora admits this new allegation and affirmatively alleges that Nora’s statements
in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were believed in
good faith to be true. Again, OLR takes Nora’s statements out of context Nora’s statement
above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20) were
believed in good faith to be true because Nora believed that Judge Potter had a duty to
disqualify himself for entertaining ex parte communications from the Gray Firm.
40. In her “Continuing Objection,” Nora stated that Judge Potter “has
continued to interfere with the just and proper administration of Wood County Circuit
Court.” Ex. 20:9, ¶34; Tr. at 403:11-16.

19

713a

40. Nora admits this new allegation and affirmatively alleges that
Nora’s statements in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20)
were believed in good faith to be true. Again, OLR takes Nora’s statements out of context
Nora’s statement above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19
and 20) were believed in good faith to be true because Nora believed that Judge Potter had
a duty to disqualify himself for having entertained ex parte communications from the Gray
Firm.
41. In her “Continuing Objection,” Nora stated that Judge Potter “has clearly
disqualified himself by his knowing complicity in the miscarriage of justice represented
by the proceedings in this case, through ex parte orders and manipulations of the
proceedings to do the bidding of [the Gray Firm].” Ex. 20:9, ¶35; Tr. at 403:17-404:4.
41. Nora admits this new allegation and affirmatively alleges that
Nora’s statements in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and 20)
were believed in good faith to be true. Again, OLR takes Nora’s statements out of context
ora’s statement above in the July 23 and July 25, 2012 Continuing Objections (Exs. 19 and
20) were believed in good faith to be true because Nora believed that Judge Potter had a
duty to disqualify himself for having entertained ex parte communications from the Gray
Firm.
42. After hearing on August 8, 2012, Judge Potter denied Nora’s motion seeking his
disqualification in the Spencer case. Ex. 21; Ex. 309; Tr. at 414:9-416:18.
42. Nora admits this new allegation and affirmatively alleges that Nora drafted the
subject proposed order for Judge Potter’s signature after the hearing on August 8, 2012.
20

714a

At the hearing, on Ms. Spencer’s behalf, Nora agreed that if there would be no more ex
parte communications in the case, Judge Potter would not be required by Ms. Spencer to
disqualify himself. That Nora drafted the order following the August 8, 2012 hearing for
Judge Potter’s signature as shown by the transmittal of the Order from her office’s FAX
machine. She properly obtained the Gray Law Firm’s approval as to the form of the order
and submitted it to Judge Potter for his signature. (OLR Ex. 21) By the new allegation in
this ¶42 (which was not approved by the PRC), OLR is seeking an inference that Nora
failed to accomplish her intended goal which OLR posits was to obtain Judge Potter’s
disqualification. Nora’s actual objective was to make sure that there would be no further
ex parte communications in the case and she was satisfied on August 8, 2012 that there
would not be and there were no ex parte communications in the case thereafter. As to
Judge Potter’s perceived actual bias against Ms. Spencer, that issue arose again when Nora
sought and was granted leave to withdraw and Ms. Spencer pro se sought his
disqualification.
43. On August 13, 2012, Nora filed the list of issues as directed by the court at the May
23, 2012 hearing. Ex. 7A; Tr. at 417:7-14.
43. Nora admits this new allegation and affirmatively alleges that Nora was allowed
by the Court to file Ms. Spencer’s List of Issues by August 13, 2012. The Court’s May 23,
2012 directive was modified on August 8, 2012 (Ex. 309) to allow the list of issues to be filed
on or before August 13, 2012.
44. In the list of issues, Nora repeats her allegations about ex parte communications
between the Gray Firm and Judge Potter made in her June 27 “Affidavit of Non-Receipt,” in the
21

715a

June 28 motion seeking recusal of Judge Potter, and in the original and amended “Continuing
Objection,” she had filed in the Spencer matter. Ex. 7A:6-10, ¶29; Exs. 13, 14, 19, 20; Tr. at
418:3-420:13.
44. Nora admits this new allegation and affirmatively alleges that the list of issues
was prepared and filed in compliance with the Court’s May 23, 2012 oral ruling, as
modified on August 8, 2012 to guide the court in further proceedings and to preserve the
record. As with the most of the 174 factual allegations set forth in OLR’s May 15, 2017
Brief, this new allegation was not approved by PRC, was not made prior to the
commencement of the hearing, contrary to Ruffalo, supra, and Hersh, supra, and Nora had
no notice or opportunity to prepare to defend or be heard on the new factual allegations.
Because OLR has the burden of proof on each and every factual and misconduct allegation
determined by the PRC, it cannot proceed on factual and misconduct allegations based on
facts it claims to have proved at the hearing.
45. On October 3, 2012, Attorney James Carrig first appeared for the plaintiff
in the Spencer matter. Ex. 1:7 (Item 71 ); Tr. at 11:11-16.
45. Nora admits this new allegation and affirmatively alleges that
Nora insisted that Attorney Carrig file a formal Notice of Appearance identifying the party
he was representing. Nora had been representing Ms. Spencer for four (4) months at the
time Attorney Carrig participated in a telephone conference seeking an extension of time
for the purported plaintiff to respond to Ms. Spencer’s list of issues at a hearing set on less
than 5 days’ notice as required by Wis. Stat. sec. 801.15(4). Nora’s substantive position
was that Nora was already bound by the oral of the court that she drafted and the Gray
22

716a

Law Firm approved after the August 8, 2012 hearing, which was entered on September 12,
2012 and that there was no need for an adversarial hearing to obtain the extension to which
Nora was already prepared to agree in the spirit of the September 12, 2012 order.
46. On October 29, 2012, Carrig filed a notice of appearance for the plaintiff in the
Spencer matter. Ex. 1:7 (Item 72); Tr. at 11:18-12:2.
46. Nora denies this new allegation and affirmatively alleges that Attorney Carrig
did not file a notice of appearance for the named party plaintiff and appeared in the action
on behalf of PNC Bank, N.A., on the basis of the unilaterally altered case caption.
47. In response, Nora filed a motion to strike Carrig’s notice of appearance. Ex. 1:7 (Item
74); Tr. at 12:3-24.
47. Nora admits this new allegation and affirmatively alleges that Nora moved to
strike Carrig’s Notice of Appearance on behalf of PNC Bank, N.A. because PNC Bank,
N.A. was not a party to the action on October 29, 2013.
48. On December 5, 2012, the court conducted a hearing relative to Nora’s objection to
Carrig’s appearance and to whether PNC Bank was a proper party to the Spencer case. Ex. 1:8
(Item 80); Tr. at 15:12-17:10.
48. Nora admits this new allegation and affirmatively alleges that Nora prevailed at
the December 5, 2012 hearing and Attorney Carrig was required to move to amend the case
caption. Entry 80, upon which OLR relies reads:
80 12-05-2012 Motion hearing Potter, Gregory J. Sosnowski, Catherine
Additional Text:
Attorney Timothy Mark Brovold appeared by phone means for Plaintiff FNMC. Attorney
Wendy Alison Nora in court for Defendant Sheila M Spencer. Attorney James J Carrig in
court for Plaintiff FNMC. Attorney Nora brings a motion to strike and makes her
argument in support of same. Attorney Carrig makes a statement. Court states that

23

717a

Attorney Carrig must file a motion to change the caption within seven days. Attorney
Nora will respond in seven days. Motion hearing scheduled for December 21, 2012 at
11:00 am.

(Emphasis added by Nora.)
49. On December 13, 2012, Carrig filed a motion to ratify the action or to substitute PNC
Bank as the party plaintiff. Ex. 1:8 (Items 81-83); Tr. at 17:12-18:14.
49. Nora admits this new allegation and affirmatively alleges that the motion to
ratify or substitute PNC Bank as the party plaintiff is exactly what Nora sought to have the
court consider.
50. On December 21, 2012, Nora filed a response to Carrig’s motion to ratify
or substitute PNC Bank as the plaintiff. Ex. 1:9 (Items 88, 89); Tr. at 17:12-18:14.
50. Nora admits this allegation and affirmatively alleges that the evidence adduced
by Attorney Carrig was insufficient to establish that PNC Bank, N.A. was “the owner and
holder” of Ms. Spencer’s note and mortgage “true copies” of which were alleged to be
attached to the April 7, 2009 Complaint. Attorney Carrig’s failure to submit a valid chain
of transfer of the note because there is no evidence that FNMC was ever a division of
National City Bank of Indiana (he argued that it might have been) led to the discovery that
the Federal National Mortgage Corporation (Freddie Mac) claimed ownership of Ms.
Spencer’s Mortgage. Nora affirmatively alleges that Judge Potter granted the Attorney
Carrig’s Motion under Wis. Stat. sec. 802.09, not under Wis. Stat. sec. 803.01(1) as filed by
Attorney Carrig.
51. After hearing on December 21, 2012, Judge Potter granted the motion Carrig filed for
PNC Bank and set a hearing date of March 18, 2013 for the pending motion for summary
judgment. Ex. 1:8 (Item 86); Tr. at 20:4-21:20.
24

718a

51. Nora admits this new allegation and affirmatively alleges that Judge Potter
granted the Attorney Carrig’s Motion under Wis. Stat. sec. 802.09, not under Wis. Stat.
sec. 803.01(1) as filed by Attorney Carrig. See ¶50, above. Nora further affirmatively
alleges that Attorney Carrig sought leave to file a new (third) motion for summary
judgment and that, as of January 10, 2013, the date of removal of the Spencer case to the
federal district court, based on the discovery of the published admission that Freddie Mac
was the owner of Ms. Spencer’s Mortgage, the third motion for summary judgment had
not been filed and no motion for summary judgment was pending.
52. On January 10, 2013, Nora filed a notice of removal of the Spencer case to the United
States District Court for the Western District of Wisconsin. Ex. 23; Tr. at 22:1-13.
52. Nora admits this new allegation and affirmatively alleges that as of December
21, 2012, the Plaintiff in the Spencer case was PNC Bank, N.A. Nora traced the transaction
through FNMC, already known to have been the expired trade name for National City
Mortgage Company in the State of Maryland and found evidence that FNMC sold notes
and mortgages to the Federal National Mortgage Corporation (Freddie Mac). She then
checked the Freddie Mac “loan look up tool” published on-line and publicly available on
December 30, 2012 and discovered that Freddie Mac claimed to own Ms. Spencer’s
“mortgage loan.”
53. Prior to removing the case to federal court, Nora did not file anything with the state
court with respect to an entity referred to as “Freddie Mac.” Tr. at 26:4-7.
53. Nora admits this new allegation and affirmatively alleges that Nora knows of no
requirement that she should “file anything with the state court with respect to an entity
25

719a

referred to as ‘Freddie Mac’” prior to filing the Notice of Removal and OLR cites no
authority requiring Nora to do so. 28 U.S.C. sec. 1441, et seq. governs removal of cases
from state courts to the federal district court. Nora had 30 days from the date she
discovered the published admission that Freddie Mac owned Ms. Spencer’s loan on
December 30, 2012 under 28 U.S.C. sec. 1446(b)(1), and she did so on January 10, 2013.
Nora believed that PNC could also argue that the effective date of the discovery of other
grounds for federal jurisdiction for purposes of removal could date from the filing of
PNC’s motion to be substituted or to ratify the action filed in the name of FNMC, an
expired trade name under which National City Mortgage was doing business in the State of
Maryland: December 13, 2012.
54. Nora’s notice of removal asserted that the Spencer case was removable under 28 USC
sees. 1331, 1332, 1334 and 1349. Ex. 23:2.
54. Nora admits this new allegation and affirmatively alleges that Nora admits this
allegation and affirmatively alleges that it is not a violation of the Code of Professional
Conduct for Nora to cite the jurisdictional authority for the removal of an action to federal
district court pursuant to 28 U.S.C. sec. 1441(a).
55. On February 8, 2013, Carrig filed a motion on behalf of PNC Bank to remand the
Spencer case to state court. Ex. 3:2; Ex. 24; Tr. at 26:20-28:20.
55. Nora admits this new allegation and affirmatively alleges that this new factual
allegation, not approved for filing by the PRC, is not evidence of a violation of the Code of
Professional Conduct by Nora. Had this factual allegation been pleaded before the hearing
on the Second Amended Complaint (which did not include this allegation), Nora would
26

720a

have examined Attorney Carrig thoroughly on the assertions he made in the Motion to
Remand, what he knew and when he knew it. The Spencer case involved more than
another year of litigation before Attorney Carrig was forced to stipulate that Freddie Mac
had a beneficial interest in the Spencer Mortgage, despite evidence to the contrary: to wit,
the allegation that PNC was the “owner and holder of the note” in ¶1 of the April 7, 2009
Complaint in the state court foreclosure action and the subsequent appearance of a version
of a copy of Ms. Spencer’s note ENDORSED IN BLANK purporting to establish
negotiation in favor of PNC from FNMC, a division of National City Bank of Indiana
(which there is no competent evidence that it ever was) for the first time in response to Ms.
Spencer’s Motion to Re-Open her Chapter 7 case to accord relief to her legitimate creditors
filed in the United States Bankruptcy Court for the Western District of Wisconsin (WIWD)
Case No. 10-15242.
56. On March 4, 2013, Nora filed a brief opposing PNC Bank’s motion to remand the
Spencer case. Ex. 3:3; Ex. 25; Tr. at 28:21-29:23.
56. Nora admits this new allegation and affirmatively alleges that it is not a
violation of the Code of Professional Conduct for Nora to oppose remand of a removed
action to state court.
57. On March 25, 2013, United States District Court Judge Barbara Crabb
issued an Opinion and Order granting PNC Bank’s motion to remand and granting PNC
Bank attorney fees and costs. Ex. 26; Tr. at 29:24-30:9.
57. Nora admits this new allegation and affirmatively alleges that OLR failed to
establish any violation of the Code of Professional Conduct by the removal of the state
27

721a

court action by clear and convincing evidence at the hearing but now, for the first time,
OLR appears to be charging Nora with an ethics violation for filing the Notice of Removal
itself. Further affirmatively alleges that the grounds for awarding attorneys’ fees and costs
which were later found to amount to $875.00 were based only on Nora’s supposed failure to
object the award of attorneys’ fees and costs in her Reply Brief, when the request for
attorneys’ fees and costs was based on 28 U.S.C. sec. 1446( c) and Nora was arguing that
the removal was objectively reasonable. PNC falsely asserted that a motion for summary
judgment was pending, when the truth was that the third motion for summary judgment
had not been filed at the time of the removal and was not filed until almost six (6) months
after the case was remanded.
58. On April 5, 2013, Carrig filed an itemized request for fees and costs for
PNC Bank. Ex. 27; Tr. at 30:10-31:3.
58. Nora admits this new allegation and affirmatively alleges that Judge Crabb
initially awarded PNC only $875.00 in fees and costs for its successful remand motion.
59. On April 8, 2013, Nora filed a motion for reconsideration of Judge Crabb’s
March 25, 2013 Opinion and Order. Ex. 28; Tr. at 31:3-14.
59. Nora admits this new allegation and affirmatively alleges that it is not a
violation of the Code of Professional Conduct for Nora file a motion for reconsideration of
attorneys’ fees awarding in an order remanding a removed action to state court.
60. Although she testified she did not file a motion for reconsideration of the
remand order and only sought reconsideration of the award of attorney fees (Tr. at
689:13-690:8), forty-one of the forty-three numbered paragraphs of Nora’s motion for
28

722a

reconsideration are devoted to asserting that Judge Crabb erred in remanding the Spencer
case to state court. Ex. 28; Ex. 39:3.
60. Nora admits this new allegation and affirmatively alleges that Nora’s position is
that the court should not have exercised its discretion to award attorneys’ fees and costs
because the removal was not “objectively unreasonable,” based on the grounds set forth in
the Notice of Removal. Had this factual allegation been authorized by the PRC and clearly
made before the hearing commenced, Nora would have more thoroughly examined
Attorney Carrig on his assertions in the Motion for Remand, particularly the contention
that Freddie Mac could not foreclose against Ms. Spencer because it was not the holder of
the note when it was later established that PNC was the custodian of the note, not its
holder.
61. The motion for reconsideration “requests that the court reconsider the Order
remanding this case to state court entered on March 25, 2013 for its clear errors of law in
failing to acknowledge and exercise its original jurisdiction. . .” Ex. 28:8.
61. Nora admits this new allegation and affirmatively alleges that Nora’s position
was that the court should not have exercised its discretion to award attorneys’ fees and
costs because the removal was not “objectively unreasonable,” based on the grounds set
forth in the Notice of Removal. Nora did not oppose the Remand Order itself. She filed an
Answer and Counterclaims in the state court on March 26, 2013, which demonstrates that
Nora acknowledged the remand to state court jurisdiction (Ex. 1, Entry 92).
62. The motion for reconsideration was not limited to addressing the award of attorney
fees and costs to PNC Bank. Ex. 28.
29

723a

62. Nora denies this new allegation for the reasons set forth in ¶¶57-61 and
affirmatively alleges that the ¶¶1-41 of the Motion for Reconsideration were true and
formed the basis for Nora’s argument that the removal was not objectively unreasonable.
Further affirmatively alleges that PNC made false and/or misleading statements in its
Motion for Remand as affirmatively alleged in ¶60, above.
63. On April 15, 2013, Carrig filed a brief for PNC Bank opposing Nora’s motion for
reconsideration. Ex. 3:3 (Entry 19); Tr. at 32:6-17.
63. Nora admits this new allegation and affirmatively alleges that the fact that an
opposing party filed a brief in opposition to a motion for reconsideration is not evidence of
an ethics violation by the attorney who filed the motion. Further affirmatively alleges
because this allegation was not specifically pleaded in the OLR’s Complaint, Amended
Complaint (presumably approved by the PRC) or Second Amended Complaint (Nora’s
position on the filing of the Second Amended Complaint has been preserved), Nora did not
have notice and opportunity to prepare or to be heard as to the contents of the brief in
opposition to the motion for reconsideration and respectfully alleges that she did not waive
her defense to the contents of the said brief.
64. On April 15, 2013, Nora filed an Objection to Award of Attorneys’ Fees
and Reply on Motion for Reconsideration. Ex. 20; Tr. at 31:15-25.
64. Nora admits this new allegation and affirmatively alleges that Nora was
allowed, if not required, to do so.
65. In her reply, Nora sought reconsideration of the decision to remand and asserted that
“the remand is appealable as decided on grounds other than those set forth in 28 USC sec.
30

724a

1447(c).” Ex. 29:6 (para. 18).
65. Nora admits this new allegation, in part, and denies the inference to be drawn
from this new allegation, to wit: that Nora did not have a good faith legal basis for this
contention. Nora further affirmatively alleges that abstention is not among the grounds for
remand which renders a remand order unappealable. 28 U.S.C. sec. 1447( c) provides for
remand for defects in the notice of removal. The district court’s decision to abstain is not a
defect in the removal. Had this factual allegation been approved by the PRC and pleaded
so that Nora had notice of this factual allegation before the hearing commenced as required
by Ruffalo, supra, and Hersh, supra, Nora would have had an opportunity to defend
against the new allegation that she contended that abstention is not a defect in jurisdiction
within the meaning of 28 U.S.C. sec. 1447( c). Just because Nora made the newlychallenged statement that abstention is not a unappealable basis for remanding a removed
action (and she further contended that laches is not a unappealable basis for remand
either) does not mean that she intended to appeal from the remand order. OLR did not
plead this factual allegation before the hearing and the PRC did not make this factual
determination. Nora could not prepare to be heard in her defense against the new
allegation in ¶65.
66. On May 23, 2013, Judge Crabb issued an Opinion and Order denying the motion for
reconsideration, characterizing the motion for reconsideration as “frivolous,” and awarding PNC
Bank costs and fees incurred in opposing the motion. Ex. 30:1, 7.
66. Nora admits this new compound allegation in part and, for the reasons set forth
in ¶¶52-65, affirmatively alleges that the Notice of Removal did not violate the Code of
31

725a

Professional Responsibility at SCR 20:3.1(a)(1), (2) or (3). Nora further affirmatively
alleges that there is an apparent misunderstanding which followed through the appeal to
the Seventh Circuit Court of Appeals that Nora, on her own behalf and on behalf of Ms.
Spencer, as appealing from the remand order. She appealed only from the award of
attorneys’ fees and costs which the Seventh Circuit Court of Appeals correctly held
survived the remand, just as Nora contended in the second motion for reconsideration
which was found to be frivolous.
67. In the May 23, 2013 Opinion and Order, Judge Crabb held that the court lacked
jurisdiction to reconsider the remand order. Ex. 30:2.
67. Nora admits this newly-formed and specified allegation which was not
determined by the PRC, was not ever clearly pleaded and is for the first time alleged in the
May 15, 2017 OLR’s post-hearing brief. Nora affirmatively defends against this allegation
as set forth in ¶66, above, which is incorporated by reference as if fully set forth herein.
Simply stated, the federal district court had jurisdiction to reconsider the appealable
award of attorneys’ fees and costs, just as the Seventh Circuit held.
68. In the May 23, 2013 Opinion and Order, Judge Crabb held that because Spencer “did
not have an objectively reasonable argument supporting federal jurisdiction, it is appropriate to
award plaintiff fees incurred in its motion to remand.” Ex. 30:6.
68. Nora admits this new allegation and affirmatively alleges that Nora urged the
Judge Crabb had the discretion to award or not to award attorneys fees for seeking the
remand. Asking a court to exercise its discretion to not award attorneys’ fees on remand of
a removed action is not a violation of the Code of Professional Conduct as a matter of law.
32

726a

69. On June 7, 2013, Nora filed a second motion for reconsideration of the award of
attorney fees. Ex. 31; Tr. at 33:7-18.
69. Nora admits this new allegation and affirmatively alleges that it not a violation
of the Code of Professional Conduct to seek reconsideration of an order when the order
sets forth new issues which are believed in good faith to be clearly erroneous or manifestly
unjust. Again, if OLR had determined this factual allegation and authorized OLR to
plead it, Nora would have had the opportunity to prepare and be heard in defense of this
70. In the second motion for reconsideration, Nora stated:
This Court determined that Ms. Spencer did not have the right to
seek reconsideration of the Court’s Order remanding the case to
the state foreclosure court entered on March 25, 2013 because the
Court remanded the case under 28 USC sec. 1447(c) and is not
appealable under 28 USC sec. 1447(d). The Court is wrong. On
reconsideration it clearly elucidated that a part of its remand is
based on abstention, as it had implied in the remand order.
Ex. 31:1 (emphasis added).
70. Nora admits this new allegation and affirmatively alleges that abstention is not
among the grounds for which a remand order is unappealable under 28 U.S.C. sec. 1447(d).
Nora affirmatively alleges that only findings of defects in jurisdiction under 28 U.S.C. sec.
1447(c) are unappealable under 28 U.S.C. sec. 1447(d). It is not a violation of the Code of
Professional Conduct to state that a judge is wrong as a matter of law. It is done all the
time on reconsideration, although the more commonly used phrases are that the court is
mistaken, the court misapprehended, or the court abused its discretion.
71. The second motion for reconsideration rehashes the same arguments Nora had
asserted in her notice of removal. Exs. 23, 31.
33

727a

71. Nora denies this new allegation and affirmatively alleges that OLR’s
characterization of the Second Motion for Reconsideration is incorrect. Nora affirmatively
alleges that the second motion for reconsideration of course involved issues which are
related to the Notice of Removal and the Motion for Remand, but addressed the new issues
arising on reconsideration. Nora further affirmatively alleges that it is not a violation of
the Code of Professional Conduct to move for reconsideration of court order, if there is a
good faith basis for doing so. OLR would have the burden of proof by clear and
convincing evidence
72. On July 2, 2013, Judge Crabb issued an Opinion and Order denying the second
motion for reconsideration and awarding PNC Bank costs and fees incurred in opposing the
motion. Ex. 32; Tr. at 33:19-34:5.
72. Nora admits this new allegation and affirmatively alleges that an appealable
award of attorneys’ fees on remand is not clear and convincing evidence of an ethics
violation any more than a court finding that a position is “frivolous” is clear and
convincing evidence that the SCR 20:3.1(a)(1) or (2) was violated. As to any suggestion
that SCR 20:3.1(a)(3) was violated, there is no evidence whatsoever that Nora removed the
Spencer case to federal court merely for the purpose of harassing or maliciously injuring
another.
73. On July 10, 2013, the United States District Court for the Western District of
Wisconsin entered a judgment awarding $875 to PNC Bank for costs and fees incurred in
opposing the first motion for reconsideration. Ex. 33; Tr. at 34:6-20.
73. Nora admits this new allegation.
34

728a

74. On July 10, 2013, Nora filed a notice of appeal from the opinions and orders entered
by Judge Crabb on March 25, May 23 and July 2, 2013. Ex. 34; Tr. at 34:21-35:1.
74. Nora denies this allegation and affirmatively alleges that the Notice of Appeal
was filed on July 29, 2012. She affirmatively alleges that it is not a per se violation of the
Code of Professional Conduct to file a Notice of Appeal.
75. In the notice of appeal, Nora identified herself as a defendant-appellant “individually
and in her capacity as counsel for Sheila M. Spencer.” Ex. 34.
75. Nora admits this new allegation and affirmatively alleges that she did so because
she believed that she had an ethical duty to indemnify Ms. Spencer and was making a good
faith argument that she had standing to appeal based on her duty to indemnify Ms.
Spencer.
76. Nora filed nothing with the court seeking to be made a party to the case prior to filing
the notice of appeal. Tr. at 35:2-9; Ex. 3.
76. Nora admits this new allegation and affirmatively alleges the issue identifying
herself as a party to the appeal for the purpose of indemnifying Ms. Spencer under Fed. R.
App. P. 4(a)(1)(B) and to exonerate herself from judicial criticism was based on a good
faith argument for the extension or modification of existing law. As OLR recognizes in its
new factual allegation in the Rinaldi Matter set forth at ¶40, below that the Seventh Circuit
has a narrow interpretation of standing of an interested party to appeal. Nora was seeking
to broaden the narrow interpretation of standing when the issue on appeal is attorneys’
fees awarded based on the legal position taken by the attorney.
77. Nora knew that remand orders were not appealable under Title 28 of the United States
35

729a

Code. Tr. at 693:20-25.
77. Nora denies this new allegation, in part, and affirmatively alleges that Nora did
not appeal the remand order to the Seventh Circuit Court of Appeals in No. 13-2676. She
appealed the award of attorney’s fees in her own name on the grounds that the she had a
duty to indemnify Ms. Spencer and on Ms. Spencer’s behalf, arguing that the remand was
objectively reasonable as taken within 30 days after the discovery that the Federal Home
Loan Mortgage Corporation (Freddie Mac) claimed ownership of Ms. Spencer’s mortgage
loan. She further affirmatively alleges that only remand orders based on defects in
jurisdiction under 28 U.S.C. sec. 1447( c) are unappealable and the remand orders based
on any other reasons are appealable. Nevertheless, Nora did not appeal from the remand
order itself, but did appeal from the award of attorneys’ fees.
78. On July 30, 2013, the United States District Court for the Western District of
Wisconsin entered an amended judgment awarding $4,928.47 to PNC Bank for costs and fees
incurred in opposing the removal. Ex. 35; Tr. at 35:12-36:1.
78. Nora admits this new allegation and affirmatively alleges that the judgment for
attorney’s fees and costs was awarded against Ms. Spencer only, which was the basis for
Nora’s position that she had a duty to indemnify Ms. Spencer because Ms. Spencer
followed Nora’s legal advice in filing the Notice of Removal. Represented parties are not
liable for the legal positions taken by their attorneys under Fed. R. Civ. P. 11( c)(5) and
Judge Crabb based the award of attorneys fees on a finding that the Second Motion for
Reconsideration of the Remand Order was “frivolous,” not that the removal was
“objectively unreasonable.”
36

730a

79. On July 31, 2013, Nora filed an amended notice of appeal from the opinions and
orders entered by Judge Crabb on March 25, May 23 and July 2, 2013 and the judgment and the
amended judgment entered by the Western District on July 10 and July 30, 2013, respectively.
Ex. 36; Tr. at 36:2-13.
79. Nora admits this new allegation and affirmatively alleges that the the Amended
Notice of Appeal was filed because the July 10, 2013 judgment granting attorneys’ fees was
amended on July 30, 2013.
80. In the amended notice of appeal, Nora identified herself as a defendant-appellant
“individually and in her capacity as counsel for Sheila M. Spencer.” Ex. 36.
80. Nora admits this allegation and affirmatively alleges that she filed the Amended
Notice of Appeal naming herself as a party for the reasons stated in ¶¶75-78
because she has a duty to indemnify Ms. Spencer for attorneys’ fees and costs incurred
based on Ms. Spencer following Ms. Nora’s legal advice and she agreed to indemnify Ms.
Spencer.
81. Nora filed nothing with the court seeking to be made a party to the case prior to filing
the amended notice of appeal. Tr. at 36:11-13.
81. Nora admits this allegation and affirmatively alleges that ¶81 is vague and
ambiguous because it does not specify in which court (district court or the Seventh Circuit
Court of Appeals) Nora was legally required to move to be added to the case caption on
appeal. Further affirmatively alleges that if the OLR meant to say that Nora should have
filed a motion to be added to the case caption in the district court, Nora knows of no
authority for a requirement that she do so and OLR identifies none. If OLR meant to say
37

731a

that she should have filed a motion in the Seventh Circuit Court of Appeals, it is not
possible to file a motion in the Seventh Circuit Court of Appeals before the Notice of
Appeal is filed. The Amended Notice of Appeal was filed immediately after the amended
judgment of July 30, 2013 was filed and, because there is no requirement that she move to
amend the case caption in the district court, there is no corresponding procedure for
amending the caption in the Seventh Circuit Court of Appeals. The procedure which was
taken by the Seventh Circuit Court of Appeals which was to enter order the filing of
jurisdictional memoranda on the issue of Nora’s standing was followed.
82. On July 31, 2013, the United States Court of Appeals for the Seventh Circuit issued
an order directing Nora and Spencer to file a memorandum stating why the appeal should not be
dismissed for lack of jurisdiction. Ex. 4:3 (Entry 2).
82. Nora admits this allegation and affirmatively alleges that the order for the
parties to file jurisdiction memoranda which was also required of PNC, which first
deferred and was then subject to an Order to Show Cause for Noncompliance and then
complied.
83. On August 14, 2013, Nora filed a Jurisdictional Memorandum with the Seventh
Circuit asserting that she had “the right and indeed the obligation to appear in her individual
name and capacity as an aggrieved party.” Ex. 37:2.
83. Nora admits this allegation and affirmatively alleges that OLR has correctly
quoted Nora’s statement in this new factual allegation which was not determined by the
PRC or authorized to be pleaded. Had OLR properly pleaded this factual allegation, Nora
would have been on notice and would have had the opportunity to respond at the hearing
38

732a

or would have proceeded on stipulated facts at a greatly reduced expense.
84. In her Jurisdictional Memorandum, Nora stated that “Judge Crabb has engaged in a
campaign of libel against Attorney Nora which will be addressed to the appropriate fora.” Ex.
37:3.
84. Nora admits this allegation and affirmatively alleges that OLR has correctly
quoted Nora’s statement in this new factual allegation which was not determined by the
PRC or authorized to be pleaded. Had OLR properly pleaded this factual allegation, Nora
would have been on notice and would have had the opportunity to respond at the hearing
or would have proceeded on stipulated facts at a greatly reduced expense.
85. In her Jurisdictional Memorandum, Nora stated she was the real party in interest on
the appeal because she was the “target” of the sanctions and she was “ethically required” to
indemnify Spencer for the award of attorney fees and costs. Ex. 37:5.
85. Nora admits this allegation and affirmatively alleges that OLR has
correctly quoted Nora’s statement in this new factual allegation. Nevertheless, ¶85 was not
determined by the PRC or authorized to be pleaded. Had OLR properly pleaded this
factual allegation, Nora would have been on notice and would have had the opportunity to
respond at the hearing or would have proceeded on stipulated facts at a greatly reduced
expense.
86. On August 23 and September 10, 2013, Carrig filed memoranda for PNC Bank
addressing jurisdiction as required by the Seventh Circuit. Ex. 4:3 (Entries 5-8); Tr. at
40:15-41:3.
86. Nora admits this new and essentially irrelevant allegation which was not
39

733a

determined by the PRC. Nora, however, affirmatively alleges that Attorney Carrig failed
to address the jurisdictional issue in his August 23, 2013 memorandum and an Order to
Show Cause why PNC Bank, N.A. should not be sanctioned for noncompliance with the
order was issued on August 15, 2013 and on September 10, 2013, Attorney Carrig filed the
jurisdictional memorandum on behalf of PNC Bank, N.A. While the allegation in ¶86 was
not approved by the PRC or pleaded any of OLR’s complaints, it is essentially immaterial
to the misconduct allegations against Nora. This new allegation suggests that OLR is
making immaterial factual allegations based on data gathered from Docket Reports.
87. Briefing on the Spencer appeal was delayed from October 23, 2013 to March 10,
2014, by reason of Nora filing a bankruptcy proceeding for Spencer. Ex. 43-4 (Entries 14-23); Tr.
at 439:11-16.
87. Nora admits this allegation and affirmatively alleges that this ¶87 is not a
factual determination made by the PRC as a basis for any allegation of misconduct against
Nora and affirmatively alleges that it is not an ethics violation for an attorney to file a
bankruptcy petition for a client while an appeal is pending.
88. After briefing and oral argument, on August 13, 2014, the Seventh Circuit issued its
decision in the Spencer appeal. Ex. 4:4-5 (Entries 24-55); Ex. 39.
88. Nora admits this allegation and affirmatively alleges that this ¶88 is not a
factual determination made by the PRC as a basis for any allegation of misconduct against
Nora and affirmatively alleges that what appears to have been authorized by the PRC was
already admitted by Nora, i.e., the content of the subject decision at ¶¶ 59 and 60 of her
September 7, 2016 Answer and Motion to Dismiss, so OLR did not have the burden of
40

734a

proving this allegation. The allegations which are verbatim statements from the decisions
of the Seventh Circuit Court of Appeals are subject to Nora’s affirmative defenses set forth
in her September 7, 2016 Answer and the new factual allegations made after hearing
without any reference to the substantial evidence in support of Nora’s affirmative defenses
exemplifies why OLR’s failure to follow the requirements of SCR 22.11(2) is so wasteful
and expensive.
89. The Seventh Circuit dismissed Nora’s appeal because she lacked standing to appeal,
affirmed the district court’s award of costs and attorney fees against Spencer because “there was
no objectively reasonable basis for federal jurisdiction or removal,” concluded the appeal was
“frivolous,” and ordered Nora to show cause “why she should not be sanctioned for pursuing this
frivolous appeal.” Ex. 39:3-4.
89. Nora admits this allegation and affirmatively alleges that ¶89 is not a factual
determination made by the PRC as a basis for any allegation of misconduct against Nora.
Nora incorporates by reference her affirmative allegations set forth in ¶88 as if fully set
forth herein.
90. On August 15, 2014, Nora filed an initial response to the Seventh Circuit’s order to
show cause and asserted that “there are numerous factual findings which are not supported by
any evidence in the record, for which judicial notice was not properly taken and which are
offered to be proved to be clearly erroneous.” Ex. 40:2; Tr. at 45:1-18.
90. Nora admits this allegation and incorporates by reference as if fully set forth
herein her affirmative allegations in ¶88.
91. Nora’s “Initial Response” rehashes the same arguments she had advanced in the
41

735a

notice of removal, in the briefs she had filed with the district court, and in the jurisdictional
memorandum. Exs. 23, 25, 28, 31, 37, 40.
91. Nora admits this allegation and affirmatively alleges that OLR did not plead in
this new factual allegation which was not determined by the PRC or authorized to be
pleaded. Had OLR properly pleaded this factual allegation, Nora would have been on
notice and would have had the opportunity to respond at the hearing that Nora was
required to address the issues raised by the Seventh Circuit panel, which necessarily
involved the arguments she made in the proceedings.
92. In her “Initial Response,” Nora asserted that Judge Crabb had removed the seal from
her medical records in a matter arising out of her personal bankruptcy case (In Re Nora, No.
10-3131) and that “it was nonetheless libelous for Judge Crabb to do so.” Ex. 40:6, 11; Tr. at
451:23-452:12.
92. Nora denies this allegation and affirmatively alleges that Nora’s personal
bankruptcy case filed in the Western District of Wisconsin from which the appeal was
taken is Case No. 09-16622. Nora appealed to the United States District Court for the
Western District of Wisconsin from the Bankruptcy Court’s Order lifting the automatic
stay as Case No. 10-cv-68. She sought an extension of the briefing schedule due to a
medical incapacity and filed medical records under seal in support of the Motion for
Extension of Time to file her initial brief. On February 17, 2010, Magistrate Judge
Crocker entered a Text Order sealing Nora’s medical records. Retained counsel for OLR
knows or should know that Nora’s medical records had been filed under seal in Case No.
10-cv-68 from the proceedings in OLR v. Nora, No. 2013AP000653-D (Nora #1) and this
42

736a

factual allegation (not determined by the PRC) erroneously states that Nora’s personal
bankruptcy case is Case No. 10-3131. Nora’s appeal to the Seventh Circuit Court of
Appeals from the dismissal of her appeal in Case No. 10-cv-68 from the order in Case No.
09-16622 is No. 10-3131. OLR cannot have possibly proved by clear and convincing
evidence that Nora made the statement it has alleged. This exemplifies the problem of OLR
making factual allegations after the hearing but moreover it shows the recklessness with
which OLR has proceeded to make false legal and factual representations in this matter.
93. Nora acknowledged that Exhibit 55 was a copy of the decision where Judge Crabb
had removed the seal from her medical records. Tr. at 455:3-6.
93. Nora admits this allegation and affirmatively alleges that Nora’s statement in
this new factual allegation which was not determined by the PRC or authorized to be
pleaded. Had OLR properly pleaded this factual allegation, Nora would have been on
notice and would have had the opportunity to respond at the hearing to the contents of the
decision. Nora was not on notice that the contents of the Exhibit 55 formed the basis of any
charge of misconduct against Nora.
94. Nora asserted that Judge Crabb was in contempt of an order of the Seventh
Circuit when she removed the seal from the medical records. Ex. 54:1; Tr. at 456:7-16.
94. Nora admits this allegation and affirmatively alleges that this factual allegation
was not determined by the PRC or pleaded by OLR and no where in the factual allegations
under the heading “U.S. District Court: Judge Crabb” was Nora charged with misconduct
for writing Exhibit 54. See OLR’s complaints at ¶¶31-45. Had the contents of the Nora’s
August 10, 2011 letter (Ex. 54) been determined by the PRC and set forth as a misconduct
43

737a

allegation, Nora would have responded that her August 10, 2011 letter was an unseemly
emotional reaction to Judge Crabb’s publication of her medical records. As an
experienced lawyer, she should not have allowed herself to have an emotional reaction to
Judge Crabb’s publication of her confidential medical records. She should have appealed
from Judge Crabb’s order and should have reported Judge Crabb’s conduct to the
appropriate authorities. In mitigation, Nora offers that she was a victim of a violation of
Wis. Stat. sec. 146.84(2), which was discovered in Nora #1. Nora did not become aware of
that OLR did not believe that her temporary medical condition from December 24, 2009 to
mid-June, 2010 posed a threat to the public until April 8, 2016. If Nora had been charged
with misconduct for writing the August 10, 2011 letter, Nora would have had notice of the
misconduct allegation and would have had the opportunity to prepare her defense and a
full hearing on the merits and in mitigation. At most, a private reprimand is the
appropriate discipline for her emotional reaction to Judge Crabb’s publication of her
confidential medical information, considering her shock and dismay at the unexpected
event. But Nora was never charged with misconduct before the hearing commenced and
until OLR’s May 15, 2017 brief. Nora was denied the opportunity to prepare a defense on
the merits and in mitigation and was denied a full hearing on a misconduct allegation never
made, contrary to Ruffalo, supra, and Hersh, supra.
95. The basis for Judge Crabb removing the seal from Nora’s medical records was that
Nora did not file the documents under seal under a prior protective order and that Nora did not
move to have the documents sealed until she brought a motion for contempt against opposing
counsel in her bankruptcy case. Ex. 55:4.
44

738a

96. Nora admits this new factual allegation and affirmatively alleges that the record
shows that Judge Crabb was mistaken. Nora had filed a Motion to Seal her medical records
and Magistrate Judge Crocker sealed her medical records by Text Order on February 17,
2010. See Request for Judicial Notice, Exhibit 1, Entries 7 and 10. Nora’s badly
articulated point in her August 10, 2011 letter was that the same records had been sealed in
the Seventh Circuit, which is the Court with supervisory authority over Judge Crabb. She
should have moved for reconsideration of Judge Crabb’ August 10, 2011 Order because it
was clearly erroneous.
96. On August 20, 2014, the Seventh Circuit issued an order directing that Nora file “one
proper response” (Ex. 41:1) to the order to show cause addressing four issues, as follows:
1) Whether her removal of this case to federal court, the first
motion to reconsider the removal, and the appeal of the order
awarding fees and costs were frivolous;
2) Whether her appeal of the district court’s award on her own
behalf was frivolous, where she was not a party and the district
court did not order her to pay anything;
3) Whether the removal of this case to federal court and this
appeal were litigated for improper purposes, in particular, to
unnecessarily delay the proceedings and to increase the cost of
this litigation to her opponents; and
4) Whether the accusations she has leveled against her opponents
and the courts during this case, including the comments
described in this court’s opinion, were appropriate advocacy.
Ex. 41:2 (citations omitted); Tr. at 41:20-42:12.
96.

The allegation was set forth in the OLR’s complaint and Nora admitted that

the Seventh Circuit Court of Appeals entered an order with these provisions.

45

739a

97. On September 2, 2014, Nora filed a petition for rehearing en banc before the Seventh
Circuit rehashing all of the same arguments previously made in her filings in the Spencer case.
Exs. 23, 25, 28, 31, 37, 40, 42; Tr. at 46:13-58:18.
97. Nora testified that petitions for rehearings en banc necessarily include the
factual and legal positions taken on appeal and must provide argument why the Panel
decision should be considered by the Court of Appeals en banc. Fed. R. App. P. 35(b)
provides:
(b) Petition for Hearing or Rehearing En Banc. A party may petition for a hearing
or rehearing en banc.
(1) The petition must begin with a statement that either:
(A) the panel decision conflicts with a decision of the United States Supreme Court
or of the court to which the petition is addressed (with citation to the conflicting case
or cases) and consideration by the full court is therefore necessary to secure and
maintain uniformity of the court’s decisions; or
(B) the proceeding involves one or more questions of exceptional importance, each
of which must be concisely stated; for example, a petition may assert that a
proceeding presents a question of exceptional importance if it involves an issue on
which the panel decision conflicts with the authoritative decisions of other United
States Courts of Appeals that have addressed the issue.
Nora believed that the Petition for Re-Hearing En Banc met the criteria of both Fed. R.
App. P. 35(b)(1)(A) and (B). It was necessary to detail the issues she raised in the district
court and on appeal in order to meet the criteria for re-hearing en banc.
98. On September 16, 2014, the Seventh Circuit denied the petition for rehearing en banc.
Ex. 43; Tr. at 58:19-59:8.
98. Nora admits this allegation.
99. On September 19, 2014, Nora filed a motion to stay proceedings before the Seventh
Circuit in order to provide her an opportunity to file a petition for a writ of certiorari with the

46

740a

United States Supreme Court. Ex. 44; Tr. at 59:9-23.
99. Nora admits this allegation and affirmatively alleges that a Motion to Stay the
Mandate is allowed preliminary to the filing for a petition for a writ of certiorari under
Fed. R. App. P.41(d)(2). OLR did not prove an ethics violation by clear and convincing
evidence based on the filing a Motion to Stay the Mandate, which is conventional appellate
practice.
100. Nora never filed a petition for a writ of certiorari. Tr. at 464:21-466:25.
100. It is not a violation of the Code of Professional Conduct to NOT file a Petition
for a Writ of Certiorari. OLR did not prove an ethics violation by clear and convincing
evidence based on the nonfiling of a Petition for Writ of Certiarori because filing or not
filing a Petition for Writ of Mandamus, of itself, is not an ethics violation and is irrelevant
to the misconduct charged in Counts One, Two and Three.
101. On September 19, 2014, Nora filed what was captioned a “Partial Response to Order
to Show Cause” issued by the Seventh Circuit. Ex. 45; Tr. at 475:17-476:7.
101. Nora admits this allegation which is not an violation of the Code of Professional
Conduct.
102. In her “Partial Response,” Nora denied that she had accused the state court
judge and court reporter in the Spencer case of “fraudulently manipulating transcripts.”
Ex. 45:7; Tr. at 483:5-17.
102. Nora admits this allegation and affirmatively alleges that no where in Nora’s
filings in the state court foreclosure action does the phrase “fraudulently manipulating
transcripts” appear. There was one challenged transcript and Nora decided not to pursue
47

741a

the issue of the altered transcript and chose instead to correct the record to show that a
page of the May 23, 2012 Transcript was missing from the version of the Transcript she
received. See her November 2, 2012 Motion to Correct the Record, Ex. 21. By the time the
collating error was discovered by Ms. Spencer on October 30, 2012, Nora had resolved her
concerns about Judge Potter’s tendency to be one-sided in the conduct of the proceedings
as of August 8, 2012. (See Exhibit 309 and Ex.21 , which Nora herself drafted.)
103. In her “Partial Response,” Nora stated that “it is the courts themselves which are
causing the undersigned’s clients and millions of others to despair and lose faith in the courts.”
Ex. 45:11; Tr. at 486:15-21.
103. Nora admits this allegation, which appears no where in the OLRs complaints.
If she had been charged with making this statement, she would have affirmatively alleged
that it is a true statement as to her clients and that she believes in good faith that it is a true
statement with respect to the despair of millions of affected homeowners caused by the
Residential Foreclosure Crisis. She would have admitted that she extrapolated her
knowledge of her clients’ despair and assumed the same despair of millions of homeowners
losing their homes and her projected her clients’ loss of faith in the courts to the millions of
homeowners who were losing their homes and were unable to obtain relief in the courts.
Because Nora was not charged with making this statement, she was unable to prepare her
defense to this new factual allegation, contrary to Ruffalo, supra, and Hersh, supra.
104. In her “Partial Response,” Nora stated:
By treating the undersigned as an enemy of the courts . . . courts in
this circuit are violating the first paragraph of the Preamble of the
Standards of Conduct Within the Seventh Circuit by attempting to
48

742a

punish the vigorous defense of homeowners.
Ex. 45:11; Tr. at 486:22-487:8.
104. Nora admits this allegation, which appears no where in the OLRs complaints
and affirmatively alleges that OLR has once again used the device of omitting the context
of Nora’s statements with ellipsis. The omitted portion of the statement is “. . . whose
judges are sworn to uphold the law and fail to do so, based on the underlying biases that
whatever entity has the word ‘bank’ in its name is to be believed and no person who is
alleged to owe a ‘debt’ may be allowed to defend. . .” Nora believes in good faith and based
on years of experience representing property owners in foreclosure actions dating back to
the Farm Crisis of the 1980s that there is a generally unspoken presumption of regularity
in foreclosure proceedings whereby the burden of proof that the equitable remedy of
foreclosure should be granted is shifted to the defending party. It is also true that all
human beings operate on pre-existing biases as she testified at the hearing. Because Nora
was not charged with making this statement, she was unable to prepare her defense to or
be heard on this new factual allegation, contrary to Ruffalo, supra, and Hersh, supra.
105. In her “Partial Response,” Nora refused to withdraw her accusation that opposing
counsel had engaged in civil fraud and racketeering. Ex. 45:12; Tr. at 490:3-20.
105. Nora admits this new allegation and affirmatively alleges that statement
quoted by OLR was legal position drawn from specific facts. It is not unethical to draw
conclusions from specific facts. It is, after all, the attorneys for PNC who commenced and
continued the state court action on false allegations, supported by false documents, and
provided falsely sworn statements of two (2) employees that the copy of the Note was a true
49

743a

and correct copy thereof, when PNC’s counsel later produced a second version of the Note
bearing endorsements, from which it would have been apparent that had been sold in
breach of Spencer’s contract and would have alerted her that PNC and its predecessor
were not the real parties in interest. Without an evidentiary hearing to prove the truth of
her conclusion, Nora is being denied the opportunity to be heard and produce evidence in
her defense. Nora has brought the matter of crimes of which she has personal knowledge to
the attention of judges in civil authority in the United States as she is required to do under
18 U.S.C. sec. 4. She has a duty to do so for herself, for her client in this case (who has
personal knowledge of those crimes) and framed her position in the most benign language
she could find.
Nora cited Holt v. Commonwealth of Virginia, 381 U.S. 131, 85 S.Ct. 1375,
14 L.Ed.2d 290 (1965) for the proposition that a statement of fact, in plain English, cannot
in itself be deemed disrespectful. See Ex. 45, page 8.
Because Nora was not charged with making this statement, she was unable to
prepare her defense to this new factual allegation nor was she heard in defense of this
uncharged allegation, contrary to Ruffalo, supra, and Hersh, supra.
106. In her “Partial Response,” Nora stated, “The bias of this panel and many of the
judges in this circuit against homeowners’ rights to be heard and defend their homes is apparent
in every disputed sentence of the ‘findings’ in the panel’s decision.” Ex. 45:13; Tr. at 491:1-8.
106. The statement quoted above does not include the statements Nora made to
support the conclusion that the panel’s findings of fact were biased. See Ex. 45, pages 1315, ¶4.a. through ¶4.l., which set forth the factual errors made in the panel’s opinion which
50

744a

are not supported by the record in an attempt to correct the record. Nora detailed the
factual basis for her position at Ex. 45, pages 13-15, ¶4.a. through ¶4.l.
107. In her “Partial Response,” Nora characterized a number of statements in the
court’s opinion on the Spencer appeal as “false.” Ex. 45:13-14; Tr. at 491:9-493:4.
107. Nora did not “characterize” the Seventh Circuit Panel’s statements as “false.”
She identified statements which she offered to prove were false at the evidentiary hearing
she requested, but was denied.
108. In her “Partial Response,” Nora characterized as “false” the statement in the
court’s opinion that she had accused Judge Potter, PNC’s lawyers, and the court clerk of
colluding to conceal the contents of a court order and that she had demanded that Judge Potter
recuse himself. Ex. 45:15; Tr. at 495:4-24.
108. Nora offered to prove this statement is false. She did not accuse Judge Potter
of colluding with the court clerk to conceal the contents of the June 12, 2012 court order.
She stated that the court clerk refused to provide her with a copy of the court order and
that the Gray Firm had not sent her a copy of the June 12, 2012 order.
109. In her “Partial Response,” Nora characterized as “false” the statement in the court’s
opinion that she had accused the court reporter of intentionally manipulating a hearing transcript
at Judge Potter’s direction. Ex. 45:15; Tr. at 498:10-499:10.
109. OLR has changed the language in the Seventh Circuit Panel’s opinion from
“fraudulently manipulating” a hearing transcript to “intentionally manipulating a hearing
transcript. Nora said neither. What Nora actually wrote was
17. It is unthinkable but unavoidable to consider that Judge Potter and/or the court
51

745a

reporter edited the Transcript of the hearing on May 23, 2012 to make it appear
that Judge Potter was less biased than he is and to remove any reference to trial,
which word was stated by counsel for Sheila M. Spencer in her statement in which
the word “quickly” was used (Transcript, page 5, line 20) and Judge Potter’s use of
the word trial was converted to “hearing” (Transcript, page 19, line 18.)
Exs. 19 and 20, ¶17; see T. 674:5-19.
Nora offered to prove to the Seventh Circuit Panel what she actually wrote.
110. In her “Partial Response,” Nora characterized as “false” the statement in the
court’s opinion that she had moved to strike an opposing attorney’s appearance because
the case caption improperly identified PNC as a party. Ex. 45: 16; Tr. at 499:24-501:13.
110. Nora moved to strike the appearance of Attorney James J. Carrig as attorney
for PNC Bank, N.A. because plaintiff in the action was FNMC, a division of National City
Bank of Indiana, n/k/a National City Bank in order to compel the substitution of the real
party in interest by motion as allowed by Wis. Stat. sec. 803.01(1).
111. In her “Partial Response,” Nora characterized as “false” the statement in the
court’s opinion that in December 2012 the state court scheduled a summary judgment
hearing for next March. Ex. 45:16.
111. Nora admits this new allegation and affirmatively alleges that the (third)
summary judgment motion was not filed until September 17, 2013 (Ex. 1, Entries 139, 140,
and 141) and then only after Nora sought leave to withdraw as Ms. Spencer’s counsel (Ex.
1, Entry 112), which motion was renewed on August 12, 2013 to allow Ms. Spencer time to
respond (Ex. 1, Entry 126) and was ultimately scheduled for hearing on September 16,
2013 (Ex. 1, Entry 136).
112. In her “Partial Response,” Nora repeated her assertion that Judge Crabb
52

746a

was “engaging in a campaign of libel” against her. Ex. 45:7.
112. Nora admits this new allegation and affirmatively alleges that
Page 7 of OLR’s Exhibit 4 does not contain Nora’s defense to her position. Her defense
appears at length on the entire page 8 of Exhibit 4 and includes Nora’s statement:
“If the statement is true, there is no basis for disciplining the undersigned because SCR
20:8.2(a) provides:
(a) A lawyer shall not make a statement that the lawyer knows to be false or with
reckless disregard as to its truth or falsity concerning the qualifications
or integrity of a judge, adjudicatory officer or public legal officer, or of a
candidate for election or appointment to judicial or legal office.
The truthfulness of the undersigned’s statement is a complete defense to an allegation of
unethical conduct because it is not a violation of the Wisconsin Code of Professional
Responsibility to make a true statement and she offers to prove her statement to be true.”
113. On October 2, 2014, the Seventh Circuit entered an order awarding PNC Bank
$25,295.00 for attorney fees and $349.67 for costs. Ex. 46; Tr. at 503:14-504:24.
113. Nora admits this new allegation and affirmatively alleges that Nora objected to
this award of attorneys’ fees and costs against Ms. Spencer. Nora’s objection is not in the
record because this ¶113, like virtually all of the preceding paragraphs, was not previously
alleged by OLR, so Nora could not prepare to defend against this specific allegation which
was not determined and approved for pleading by the PRC. OLR quoted large swaths of
text from the Seventh Circuit Court of Appeals panel’s opinions, but OLR did not specify
what parts of the opinions formed factual allegations of misconduct charges until it made
this allegation in its May 15, 2017 brief.

53

747a

114. On October 3, 2014, Nora filed a letter of supplementary authority relative
to the order to show cause. Ex. 47; Tr. at 504:25-505:8.
114. Nora admits this new allegation and affirmatively alleges that the
supplemental authority is the Sixth Circuit Court of Appeals September 29, 2014
unpublished opinion, in Slorp v. Lerner, Sampson & Rothfuss, et al., which Nora offered
for persuasive value that a sister circuit allowed a private, civil complaint alleging
violations of the Racketeer Influenced and Corrupt Organization (RICO) Act under 18
U.S.C. sec. 1964(c) to survive a Rule 12(b)(6) motion to dismiss for failure to state a claim
upon which relief may be granted on facts similar to those Nora was alleging in some of her
Wisconsin foreclosure cases. The supplemental authority offered was not available to Nora
on September 19, 2014 when she filed her Partial Response to the Order to Show Cause.
The presentation of supplemental authority is specifically allowed under Fed. R. App. P.
28(j).
115. On October 17, 2014, Nora filed a motion to continue the show cause hearing for
medical reasons. Ex. 48; Tr. at 505:9-24.
115. Nora admits this new allegation and affirmatively alleges that Nora was
injured in a car accident on September 14, 2014 and was suffering from a mild cognitive
impairment, for which she was receiving treatment. She was concerned that her
presentation at the scheduled oral argument would be impaired.
116. On October 21, 2014, the Seventh Circuit entered an order denying Nora’ s
motion for a continuance but allowing her to appear by speakerphone. Ex. 49; Tr. at
505:25-506:14. On October 28 2014, Nora appeared in person for the hearing. Ex. 50:3.
54

748a

116. Nora admits this new allegation.
117. On February 11, 2015, the Seventh Circuit sanctioned Nora the sum of $2,500 for
frivolous and needlessly antagonistic filings. Ex. 50:4; Tr. at 506:15-23.
117. The sanction of $2,500.00 was imposed and suspended. “We suspend this
sanction, however, until the time, if ever, that Nora submits further inappropriate filings.”
In re Nora, 778 F.3d 662, 667 (2015). Nora has not filed anything in the Seventh Circuit
Court of Appeals since February 11, 2015 which was found to be “frivolous” or “needlessly
antagonistic” and, in fact, she filed a Motion for Reconsideration of the February 11, 2015
Order on February 25, 2015, which was not found to be “frivolous” or “needlessly
antagonistic.
118. The Seventh Circuit’ s opinion states that contrary to its direction that Nora limit
herself to “one proper response to the show-cause order . . . Nora did not limit herself to one
proper response.” Ex. 50:2.
118. Nora admits this new allegation and affirmatively alleges that Nora’s Petition
for Rehearing En Banc and Motion to Stay the Mandate were not related to the Order to
Show Cause. Those filings were made as allowed by the Federal Rules of Appellate
Procedure at Fed. R. App. P. 35 and 41. The Statement of Supplemental Authority was
submitted in addition to the September 19, 2014 Initial Response because it was decided by
the Sixth Circuit Court of Appeals on September 29, 2014 (Ex. 47) and was not available to
Nora when she filed her September 19, 2014 Initial Response. See Fed. R. App. P. 28(j).
119. The Seventh Circuit’s opinion describes Nora’s petition for rehearing en banc as
“rehashing her frivolous appellate arguments.” Id.
55

749a

119. Nora admits this new allegation and affirmatively alleges that petitions for
rehearing, by their nature, involve the arguments which were made to the panel.
120. The Seventh Circuit’s opinion states that “[i]n responding to our earlier opinion,
Nora has dug in her heels and continues to press the same arguments that were thoroughly
rejected in the district court and our earlier opinion.” Ex. 50:3.
120. Nora admits this new allegation and affirmatively alleges that her position at
oral argument before the Seventh Circuit Court of Appeals panel has been explained
above. Nora further affirmatively alleges she was not provided with and almost all, new
allegation(s) of fact in support of the charges so that she could prepare to defend against
this charge at the hearing. The Panel’s characterization of Nora’s position is not clear and
convincing evidence of OLR’s misconduct allegations, based on Nora’s good faith positions
as described above.
121. In addressing its concerns about Nora engaging in “conduct unbecoming a member
of the court’s bar,” the Seventh Circuit stated that:
Nora has repeatedly acted with needless antagonism toward
opposing counsel and judicial officers. In her responses to our
order to show cause, she has refused to back down from her
accusations of libel against Judge Crabb and “actionable civil fraud
and racketeering” against opposing counsel. She denies accusing
the state court judge of altering transcripts, but the record belies
her denial: she not only made the accusations but moved for
substitution of the judge on that basis. She also now derides “this
panel and many of the judges in this circuit” as being biased
“against homeowners’ rights to be heard and defend their homes.”
This bandying about of serious accusations without basis in law or
fact is unacceptable and warrants sanctions.
Ex. 50:3 (emphasis added).

56

750a

121. Nora admits this new allegation and affirmatively alleges that this allegation,
which has been explained above, and further affirmatively alleges that Nora lacked
sufficient notice of this, and almost all, new allegation(s) of fact in support of the charges so
that she could prepare to defend against this charge at the hearing. The Seventh Circuit
Court of Appeals panel’s characterization of Nora’s position is not clear and convincing
evidence of Nora’s the misconduct alleged by OLR. Nora’s positions were taken in good
faith.
122. On March 10, 2014, prior to filing her responses to the order to show cause,
Nora had filed an amended second motion to disqualify Judge Potter and argued the
motion on March 19, 2014. Ex. 1:16-17 (Items 163-72); Tr. at 123:25-125:25.
122. Nora admits this new allegation and affirmatively alleges that this new factual
allegation is unsupported by any evidence in the record beyond the events appearing on the
Circuit Court Access Program (CCAP). Ex. 1. OLR has presented no evidence that Nora’s
Amended Second Motion to Disqualify Judge Potter was filed in violation of SCR 20:3.1(a),
SCR 3.2 or SCR 8.4(g). There is no evidence that Nora’s Amended Second Motion to
Disqualify Judge Potter violated the Code of Professional Conduct.
123. At the March 19, 2014 hearing, Judge Potter denied the second motion to disqualify
and granted PNC’s motion for summary judgment. Ex. 1 (Item 172); Ex. 51; Tr. at 64:13-65:5.
123. Nora admits that Judge Potter denied the Amended Second Motion to
Disqualify Judge Potter and granted the (third) Motion for Summary Judgment in the
Spencer foreclosure case.
124. On August 20, 2014, the Wood County Circuit Court entered a written order
57

751a

granting judgment of foreclosure and sale to PNC Bank in the Spencer matter, denying the
second motion to disqualify Judge Potter, and dismissing Spencer’s counterclaim (sic). Ex. 1
(Item 186); Ex. 51; Tr. at 64:13-65:5.
125. A sheriffs (sic) sale was conducted in the Spencer matter and the sale was confirmed
by the Wood County Circuit Court. Tr. at 65:17-21.
125. Nora admits this new allegation which was not pleaded before the hearing,
depriving Nora of the opportunity to address the matters involving the Sheriff’s sale, the
confirmation of the sale, and the related appeals and Petitions for Relief. Moreover, this
fact does not support any allegation of misconduct.
126. Nora filed appeals for Spencer from the judgment of foreclosure and sale and from
the confirmation of sale. Tr. at 65:14-24.
126. Nora admits this new allegation which was not pleaded before the hearing,
depriving Nora of the opportunity to address the matters involving the Sheriff’s sale, the
confirmation of the sale, and the related appeals and Petitions for Relief. Moreover, this
fact does not support any allegation of misconduct.
127. By opinions issued May 16, 2016, the Wisconsin Court of Appeals affirmed the
judgment of foreclosure and sale and the confirmation of sale entered by the Wood County
Circuit Court. Exs. 52, 53; Tr. at 65:25-66:17.
127. Nora admits this new allegation which was not pleaded before the hearing,
depriving Nora of the opportunity to address the matters involving the Sheriff’s sale, the
confirmation of the sale, and the related appeals and Petitions for Relief. Moreover, this
fact does not support any allegation of misconduct.
58

752a

128. None of the attorney fees and costs awarded by the Seventh Circuit and by
Judge Crabb in the Spencer matter have been paid. Tr. at 60:17-81:2.
128. Nora admits this new allegation which was not pleaded before the hearing,
depriving Nora of the opportunity to address the matters involving the payment of the
attorneys’ fees and costs in the removal of the Spencer case and the appeal. There is no
evidence whatsoever of Nora’s bankruptcy in the United States District Court for the
District of Minnesota. Nora was not charged with filing for bankruptcy protection to avoid
being held financially accountable for paying attorneys fees’ and costs because she was
specifically held not liable for paying the attorneys fees’ and costs. Nora was not ordered to
pay any sanctions by the federal district court or the Seventh Circuit Court of Appeals in
the Spencer removal. Instead, Nora holds herself liable for Ms. Spencer’s obligation to pay
the attorneys’ fees and costs awarded by the district court and the Seventh Circuit Court of
Appeals and named Sheila M. Spencer as a creditor in her bankruptcy case. Nora’s
bankruptcy avoided nothing.
THE RINALDI MATTER
1 . On February 3, 2009, HSBC Bank USA (“HSBC”) filed an action in the Circuit Court
for Kenosha County against Roger and Desa Rinaldi relative to a note and mortgage executed by
Roger Rinaldi, Case No. 2009CV353. See Ex. 57:1 (Item 1 ); Ex. 302; Tr. at 181:15-1, 84:4,
517:14-25.
1. Nora denies this allegation and affirmatively alleges that HSBC Bank USA, N.A.
did not file the action to which OLR refers and offers to prove that the action was
commenced by Wells Fargo Bank, N.A., using the name of a nonexistent entity. The
59

753a

identity and existence of the purported entity was not litigated by the Rinaldis pro se.
2 . In Case No. 2009CV353, the court granted judgment of foreclosure and sale in favor
or HSBC and dismissed the Rinaldis’ counterclaims. Ex. 57:7-8 (Items 65, 73, 43); Tr. at
183:21-186:5.
2. Nora denies this allegation and affirmatively alleges that summary judgment was
granted in the name of a nonexistent entity. Nora did not represent the Rinaldis in this
action.
3. After the Rinaldis’ motion for reconsideration was denied, the judgment was vacated
and case dismissed based on a loan modification agreement with the Rinaldis. Ex. 57:11 (Items
95-98); Tr. at 186:7-188:15.
3. Nora admits this allegation and affirmatively alleges that the allegation is
generally irrelevant because Nora did not represent the Rinaldis in Kenosha County
Circuit Court Case No. 2009CV000353. She represents the Rinaldis, by limited scope
appearance, in a second foreclosure action commenced in Kenosha County Circuit Court
Case No. 2016CV000473, now pending.
4. On June 10, 2011, the Rinaldis commenced a lawsuit in the Circuit Court for Kenosha
County, Case No. 2011CV1477 against, among others, Wells Fargo Bank, N.A. (“Wells Fargo”)
and the Gray Firm. Ex. 58:1 ; Tr. at 188:1 6-1 90:9.
4. Nora admits this allegation and affirmatively alleges that the Rinaldis
commenced the action pro se.
5. Nora first appeared for the Rinaldis in Case No. 2011CV1477 by filing a notice of
appearance on August 30, 2011. Ex. 58:3 (Item 29); Tr. at 190:1 4-22.
60

754a

5. Nora admits this new allegation, in part, and affirmatively alleges that she
appeared as co-counsel for the Rinaldis with Attorney Kim A. Lewis of Lewis & Levinson
of Twin Lakes, Wisconsin.
6. Motions to dismiss filed by certain defendants were pending when Nora first appeared
in the case. Ex. 58:2 (Item 16); Tr. at 191 :23-192:4.
6. Nora admits this new allegation and affirmatively alleges that she and co-counsel,
Attorney Kim A. Lewis, undertook the representation of the Rinaldis in order to stipulate
to the dismissal of the action for improper personal service.
7. On September 7, 2011, Nora filed a motion to dismiss without prejudice on behalf of
the Rinaldis. Ex. 58:4 (Item 30); Tr. at 192:6-1 93:6.
7. Nora admits this new allegation, in part, and affirmatively alleges that she
appeared as co-counsel for the Rinaldis with Attorney Kim A. Lewis of Lewis & Levinson
of Twin Lakes, Wisconsin.
8. The motions to dismiss were not heard by the court due to a bankruptcy filing made by
the Rinaldis on October 14, 2011. Ex. 58:2 (Item 41 ); Tr. at 193:8-21 .
8. Nora admits this new allegation and affirmatively alleges that Attorney Jay K.
Nixon of Racine, Wisconsin filed a Chapter 7 Petition on October 14, 2011 on behalf of the
Rinaldis. Ex. 59, page 1.
9. Nora appeared for the Rinaldis in their bankruptcy case. On June 14, 2012, Nora filed
an objection to the proof of claim filed by HSBC relative to the Rinaldi note and mortgage. Ex.
59:1 6-1 7 (Entry 77); Ex. 65:3.
9. Nora admits this new allegation, affirmatively alleges that Attorney Jay K. Nixon
61

755a

of Racine, Wisconsin filed a Chapter 7 Petition on October 14, 2011 on behalf of the
Rinaldis. Ex. 59, page 1, and she appeared on behalf of the Rinaldis on November 18, 2011
by substitution of counsel for Attorney Nixon (Ex. 59, Entry 8–proposed Substitution
Order was not concurrently submitted) in order to respond to a Motion to Lift the
Automatic Stay (Doc. 7) [Ex. 59]. The Substitution Order was finally submitted and
Attorney Nixon’s representation was terminated on April 20, 2012. Attorney Nixon did not
participate in the proceedings after November 18, 2011, but there was a problem resulting
from the software execution of a line item in the Schedule C prepared by Attorney Nixon’s
office from which Nora had to argue on the Rinaldis’ behalf.
10. On June 17, 2 012, Nora filed an adversary proceeding on behalf of the Rinaldis
asserting fraud and racketeering claims against, among others, HSBC, Wells Fargo, the Gary
(sic) Firm and certain of its lawyers, and the law firm of Litchfield Cavo and Attorney Markvart,
a Litchfield attorney who had appeared for Wells Fargo in Case No. 2011CV1477. Ex. 60:1; Tr.
at 193:16-197:1, 197:22-198:9.
10. Nora denies this new allegation, in part, and affirmatively alleges that the
adversary proceeding filed on June 17, 2012 did not contain a “RICO Count.”
11. In challenging a proof of claim filed by HSBC, Nora asserted:
. . . objections to the claim includ[ing) that the Note lacks
consideration; two mortgage assignments are null and void;
another mortgage assignment is a forgery or unenforceable because
it was not recorded or perfected prior to bankruptcy; HSBC is not
the owner or holder of the Note; and the Note image attached to
the claim was fabricated to deceive the Court. Along with
disallowance of the claim and the security represented by the
Mortgage, the Debtors seek a determination that the proof of claim
is false, fraudulent and unlawful.
62

756a

Ex. 65:5.
11. Nora denies this new allegation, in part, and affirmatively alleges that the
adversary proceeding filed on June 17, 2012, sought to be amended on August 22, 2012,
and amended only as to the so-called “Bank Defendants” was treated by the Bankruptcy
Court as an Objection to Proof of Claim #6 filed by Gray & Associates in the name of a
nonexistent entity.
12. In the adversary proceeding, Nora asserted claims against the defendant banks and
their counsel, including common law fraud, abuse of legal process and violations of the Fair Debt
Collections Practices Act (“FDCPA”), violations of the Racketeer Influenced and Corrupt
Organizations Act (“RICO”), breach of contract and tortious interference with prospective
economic opportunity. Ex. 65:5.
12. Nora denies new this allegation, in part, and affirmatively alleges that the
adversary proceeding filed on June 17, 2012 did not contain a “RICO Count” and that the
Rinaldis sought to amend their Adversary Complaint on August 22, 2012 to substitute the
RICO Count for the common law fraud and abuse of process Counts in the original
complaint.
13. On February 22, 2013, Bankruptcy Judge Susan Kelley issued a decision relative to
the Rinaldis’ objection to the proof of claim and defendants’ motions to dismiss the adversary
proceeding. Ex. 65 :3-4; Tr. at 198:1 0-17, 203:3-21.
13. Nora admits this allegation.
14. Judge Kelley rejected the Rinaldis’ objections to HSBC’s proof of claim, including
objections predicated on an allegation that defendants produced a “forged endorsement to the
63

757a

mortgage note robo-stamped bearing the signature of Joan M. Mills to mislead this court into
believing that the note had been timely, properly and authentically endorsed in blank after the
commencement of [the foreclosure action].” Ex. 65:13-18.
14. Nora did not object to“HSBC’s Proof of Claim.” She objected to Proof of Claim
#6 filed by Wells Fargo Bank, N.A. in the name of a nonexistent entity. On February 22,
2013, Judge Kelley held, in error, that the Rinaldis did not have standing to challenge the
Joan M. Mills endorsement which suddenly appeared on the Rinaldi Note for the first time
on November 4, 2011, that the Wells Fargo Asset Securities Corporation Asset-Backed
Home Equity Trust 2005-2 (“or any similarly named trust”) has standing to foreclose on
the Rinaldis. Ex. 65, page 16. On June 10, 2014, the Wisconsin Supreme Court decided
Dow Family, LLC v. PHH Mortgage Corporation, 2014 WI 56, 354 Wis. 2d 796, 848 N.W.2d
728, 13-0221. in which the defendant was a purchaser from the mortgagor and even the
purchaser from the mortgagor had standing to challenge the authenticity of the Note. The
Dow Family case, supra, at 2014 WI, ¶¶, clearly establishes the standing of a defendant in a
foreclosure case (and, correspondingly, a plaintiff in adversary case involving a claim
against the plaintiff’s property) to challenge to the authenticity of the Note or a certified
copy of the Note. I take the noncontroversial position under Wis. Stat. sec. 403.308 that if
the endorsement on the Note is placed in issue, even if the Note itself is authentic, the lack
of authority for the endorsement and the lack of capacity of the endorser may be proved
by the party challenging the endorsement–in this case, the Rinaldis.
A forged document is void and conveys no rights. State Bank of Drummond v.
Christophersen, 93 Wis. 2d 148, 286 N.W.2d 547 (1980). Creating and uttering a forged
64

758a

document as defined in Wis. Stat. sec. 943.38 is a crime in Wisconsin. Transmitting a
forged document by wire or mail with the intent to injure person’s property rights is a
predicate act of racketeering under 18 U.S.C. sec. 1961, et. seq. The June 10, 2005 Note
made payable by Roger Rinaldi to Wells Fargo Bank, N.A. was endorsed in the name of
Joan M. Mills in the capacity of Vice President of Wells Fargo Bank, N.A. The Rinaldis
offered to prove that Joan M. Mills was never a Vice President of Wells Fargo Bank, N.A.
and that the endorsement placed on the Note at issue was a forgery in violation of Wis.
Stat. sec. 943.38(1)(a), transmitted by wire multiple times, constituting multiple predicate
acts, sufficient to satisfy the RICO requirement of two (2) or more predicate acts. Using a
forged document to support a Proof of Claim in a Title 11 (Bankruptcy) Case is
bankruptcy fraud in violation of 18 U.S.C. secs. 152 and 157. Violations of 18 U.S.C. sec.
157 are RICO predicate acts.
15. Judge Kelley rejected Rinaldis’ claims asserted in the adversary proceeding
and recommended that the district court dismiss the claims. Ex. 65:18-33.
15. Nora admits this new allegation and affirmatively defends that she had a good
faith bases in both law and fact for filing the Rinaldi Adversary Complaint(s) as required
by SCR 20:3.1(a)(1) and (2) and there is no evidence whatsoever that she filed the Rinaldi
Adversary Complaint(s) merely to maliciously harass or injure another in violation of SCR
20:3.1(a)(3).
16. In rejecting the objections and claims asserted by Nora in the bankruptcy case and in
the adversary proceeding, Judge Kelley characterized some of the arguments as frivolous (Ex.
65:13, 21 ) and preposterous (Ex. 65:29).
65

759a

16. Nora admits this new allegation and affirmatively defends that the Rinaldis
claims were not frivolous nor were they preposterous.

It should be noted that in federal

practice, unlike Wisconsin state practice, judges are allowed to determine whether or not a
claim for relief is plausible. The requirement that a judge make a plausibility
determination tends to suggest that a statement of the probability that a claim for relief has
been stated should be articulated in gradations–here, the word preposterous was chosen.
Nora understands that the proposition that entities that are national banking associations
(carefully regulated until the Glass-Steagall Act was repealed) designed transactions to fail
may have seemed like a preposterous claim (far beyond improbable) in 2012 when the
Rinaldi adversary proceeding was filed. See, however,
https://www.usnews.com/opinion/blogs/economic-intelligence/2012/08/27/repeal-of-glass-ste
agall-caused-the-financial-crisis
It would have also seemed preposterous that a national banking association would
create instructions to its out-of-house attorneys to request that missing documents be
manufactured for use in foreclosure cases but that is exactly what is proved by the Wells
Fargo Home Mortgage Attorney Foreclosure Manual, discovered by Nora soon after the
press coverage of Attorney Linda Tirelli’s exposure of the Manual to the press on March
18, 2013 (Nora Offer of Proof, Exhibit 528, sub-exhibit 4).
Nora believed in good faith that she could prove the allegations in the Adversary
Complaint and Amended Complaint. Moreover, counsel for Wells Fargo Bank, N.A., who
appeared at the evidentiary hearing as a witness for OLR, stipulated to the entry of Judge
Kelley’s Order (Exhibit 300) which resolved the issue of whether or not the Rinaldis
66

760a

Adversary Complaint(s) were “frivolous” by specifically making no finding that the
Complaint(s) were frivolous.
17. Nora filed an appeal from Judge Kelly’s decision as to the objection to the proof of
claim and an objection to Judge Kelley’s recommendation in the adversary proceeding. The
appeal and objection were consolidated and the matter was assigned to District Court Judge J. P.
Stadtmueller. Ex. 61:4-5 (Entries 2, 5); Tr. at 196:1 6-1 97:8.
17. Nora admits both parts of this compound allegation.
18. By order dated October 31, 2013, Judge Stadtmueller affirmed Judge Kelley’s
decision with respect to the proof of claim and adopted Judge Kelley’s proposed findings of fact
and conclusions of law regarding the adversary proceeding. Ex. 61:7 (Item 32); Ex. 66:20-21; Tr.
at 203:22-204:12.
18. Nora admits this allegation.
19. Judge Stadtmueller held that Nora failed to comply with the Federal Rules of
Bankruptcy Procedure governing appeals. Ex. 66:8-10.
19. Nora admits this new allegation and affirmatively alleges that Nora was not
charged bywith failing to comply with the Federal Rules of Bankruptcy Procedure, Part
VIII, which governs the procedure in appeals to the district courts or bankruptcy appellate
panels. Had she been so charged by OLR, she would have explained: Nora was unable to
comply with Fed. R. Bankr. P. 8009(a)(1) because there were two (2) Motions for
Reconsideration pending before the Bankruptcy Court from orders entered in the “core
proceeding” and she moved the consolidate the Motions into a single appeal to avoid
necessity the Rinaldis to pay two (2) appeal filing fees (at $298.00 for each). The Rinaldis,
67

761a

who were Chapter 13 Debtors and all of their disposable income was committed to
payments under their Chapter 13 Plan, had no disposable income from which to pay filing
fees. As a result of their inability to pay two (2) filing fees while the Motion to Consolidate
was pending, the appeals were bifurcated and Nora was waiting for the decision on
consolidation to file the Designation of Record and Statement of Issues. When the Motion
to Consolidate was denied (and the Rinaldis could not afford to pay yet another appeal
filing fee), the second appeal filing fee was paid, but clerk had apparently already
transmitted the record in the first appeal, so the Statement of Issues and Designation of
Record under Fed. R. Bankr. P. 8009(a) was late. Nora moved for leave to file a late
Statement of Issues, but her Motion was denied.
20. Judge Stadtmueller’s opinion states that “debtors failed to provide a cogent statement
of the issues on appeal and also provided briefs that are largely unintelligible” (Ex. 66: 11) and
describes the debtors’ submissions as (sic “) an unfocused, stream-of-consciousness-style
recitation of general grievances the debtors have asserted in various forms since the origination
of this litigation in state court” (Ex. 66:14).
20. Nora admits this new allegation affirmatively alleges that the failure to comply
with Fed. R. Bankr. P. 8009(a) was the result of excusable neglect as described in ¶19,
above, incorporated by reference as if fully set forth herein, and was not in violation of the
Code of Professional Responsibility.
21. Judge Stadtmueller held that any issues as to the assignment of mortgages did not
affect HSBC’s rights as to the holder of the note. Ex. 66:12-13.
21. Nora admits this new allegation insofar as Judge Stadtmueller made this
68

762a

statement and affirmatively alleges that HSBC in its general corporate capacity was not the
party to which any of the three (3) assignments of mortgage were made. Each of the three
(3) assignments of mortgage was made to HSBC Bank USA as Trustee for one of two (2)
different Real Estate Mortgage Investment Conduit (REMIC) Trust entity or capacity in
its capacity as corporate trustee.
22. Regarding the Rinaldis’ racketeering claim, Judge Stadtmueller held that
Rinaldis had no injury in fact since they were still living in the residence and did not owe any
money beyond that set forth in the mortgage which they agreed to pay. Ex. 66:15.
22. Nora admits this new factual allegation insofar as Judge Stadtmueller made this
statement and affirmatively alleges that the injury in fact was the loss of their enjoyment of
the home, their costs of litigation, being forced to seek bankruptcy protection, and the
mental anguish over the circumstances detailed in the Adversary Complaint(s) and to be
proven at trial. Judge Stadtmueller’s conclusion should be compared to the decision of
Judge Christopher Klein, who, upon the evidentiary hearing in In re Sundquist, 570 B.R.
92 (the Rinaldis were denied an evidentiary hearing), awarded actual and punitive
damages to the Sundquists in excess of $5,000,000.00. Exhibit A attached hereto. The
Sundquists are still residing in their home. See also the jury verdict in the amount of 5.67
Million Dollars in Wolf v. Wells Fargo Bank, N.A., et al. Exhibit B attached hereto. See
also Holm v. Wells Fargo Bank, N.A., decided by the Supreme Court of Missouri on
February 28, 2017 (en banc, attached hereto as Exhibit C). In addition, see the decisions of
the very same Judge Susan V. Kelley and Joseph P. Stadtmueller in In re Thompson, issued
within several weeks of the Rinaldi decisions (Nora Offer of Proof, Exhibits 528). Finally,
69

763a

see the decision of Judge Robert Drain in In re Carrsow-Franklin (Nora Offer of Proof,
Exhibit 528) which cites Judge Stadtmueller’s decision in In re Thompson as authority.
23. Judge Stadtmueller stated that debtors’ activity “has quite obviously been vexatious
and time-and resource-consuming; but, more concerning is the fact that their submissions to the
Court are nigh-unintelligible.” Ex. 66:19.
23. Nora admits this allegation insofar as Judge Stadtmueller made this statement.
24. Judge Stadtmueller also stated that:
Seeing as the debtors’ claims are generally meritless, the Court is
concerned that the debtors are simply attempting to further stay the
defendants’ foreclosure of their home. In that case, the abuse of
process charges alleged by the debtors against the defendants
would actually lie much more appropriately against the plaintiffs.
Ex. 66:19-20.
24. Nora admits this new factual allegation insofar as Judge Stadtmueller made this
statement.

25. Judge Stadtmueller also stated that:
The debtors are hereby warned, however, that they will find
themselves in very deep trouble if additional meritless filings find
their way to this Court (seeing as this Court has already had the
responsibility of dealing with their all-but-frivolous filings in Case
No. 12-CV-1065) and may very well result in significant sanctions.
Ex. 66:20

35. Nora admits this new factual allegation and affirmatively alleges that
26. On November 11, 2013, Nora filed a motion to amend or alter the findings of fact,
conclusions of law and judgment entered by Judge Stadtmueller. Ex. 61:7 (Item 34); Ex. 67; Tr.
at 204:13-25.
70

764a

26. Nora admits this new factual allegation and affirmatively alleges that Fed. R.
Civ. P. 59(e) provides for the filing of the subject motion.
27. Nora’s motion to alter or amend asserted the same kind of arguments that they had
previously presented to Judge Kelley and Judge Stadtmueller addressing alleged fraud or
forgeries in assignments of the Rinaldi mortgage, including the mortgage “purportedly endorsed
by Joan M. Mills as Vice President of Wells Fargo.” Ex. 67:2-4. Page 37.
27. Nora denies this new factual allegation and affirmatively alleges that The
Rinaldis never argued that the mortgage was “purportedly endorsed by Joan M. Mills as
Vice President of Wells Fargo.”
28. The banks and defendants in the adversary proceeding filed a response to the motion
to amend or alter. Ex. 61:7 (Items 35, 36); Tr. at 205:1-12.
28. Nora admits this new factual allegation generally and affirmatively alleges that
parties have a right to oppose motions.
29. On December 13, 2013, Judge Stadtmueller entered an order denying the motion to
amend or alter. Ex. 61:7 (Item 37); Ex. 68; Tr. at 205:13-23.
30. In the order denying the motion to amend or alter, Judge Stadtmueller
stated that:
. . . the Rinaldis fail to identify any manifest error of law or fact,
intervening change in law, or newly-discovered evidence that
would entitle them to relief under Rule 59( e) . . . . Their arguments
at this stage largely derive from perceived factual errors, which
were not relevant to the Court’s analysis and were not in error, and
alleged legal errors, which are simply rehashings of the same
meritless arguments raised before. The Court is, therefore, obliged
to dismiss the Rinaldis’ motion to amend.

71

765a

With this order, the Court hereby makes clear that any
further frivolous submissions will result in an award of appropriate
sanctions against the Rinaldis’ attorney.
Ex. 68:3 (citations omitted).
30. Nora admits this new factual allegation and affirmatively alleges that she did
not violate SCR 20:3.1(a) in filing the Rule

31. On December 23, 2013, Nora filed a notice of appeal of the orders entered by Judge
Stadtmueller on October 31, 2013 and December 13, 2013. Ex. 61:7 (Entry 38); Ex. 69; Tr. at
205:24-206:7.
31. Nora admits this new factual allegation and affirmatively alleges that it is not an
ethics violation to file a notice of appeal.
32. On February 11, 2014, Nora filed a motion to withdraw as Rinaldis’ counsel in the
Bankruptcy Court, the District Court and the Seventh Circuit. Ex. 59:30 (Entry 148); Ex. 61:8
(Entry 44); Ex. 62:4 (Entry 8); Ex. 72; Tr. at 206:8-207:10.
32. The basis for Nora’s Motions for Leave to Withdraw in the Rinaldis’
underlying bankruptcy case (WIEB Case No. 11-35689) and in the district court case was
that Nora and the Rinaldis had a conflict of interest because they were all subject to a
pending Motion for Sanctions under Fed. R. Bankr. P. 9011.
33. On March 4, 2014, Judge Kelley heard Nora’s motion to withdraw in the bankruptcy
case in conjunction with hearing a motion by the United States Trustee to dismiss the Rinaldis’
bankruptcy case for failure to make payments. Ex. 59:30-31
33. The Motion to Dismiss was filed by the Chapter 13 Trustee because the Rinaldis

72

766a

were unable to make their Chapter 13 Plan payments for several months due to Mr.
Rinaldis’ employment situation. The Rinaldis did not move to dismiss their Chapter 13.
At the hearing on the Chapter 13 Trustee’s Motion to Dismiss, Judge Kelley suggested to
the Rinaldis, (who were on that day due to a conflict of interest with Nora because the
Rinaldis and Nora were both faced with Fed. R. Bankr. P. 9011), that if their case was
dismissed their appeal to the Seventh Circuit Court of Appeals would be dismissed as moot.
Judge Kelley allowed the Rinaldis to reinstate their Chapter 13 Plan payments, which Nora
knew was impossible.
Nora was still representing the Rinaldis in another pending (but stayed) proceeding
in Kenosha County Circuit Court Case No. 2011CV001477, so she informed Mr. Rinaldi
that even if the appeal was dismissed, she did not believe that it would be (and it was not),
they could raise the new issue that foreign trusts must register in with the Wisconsin
Department of Financial Institutions before selling securities to five (5) or more persons or
any contract made by or for the benefit of the foreign trust is void. Wis. Stat. sec. 226.14.
There is evidence that securities had been sold to five (5) or more persons by the entity
claiming an interest in the third recorded mortgage on the Rinaldis’ Homestead. Wis. Stat.
sec. 226.14(1), if the third entity to which Wells Fargo Bank, N.A. purported to assign the
same purported first lien mortgage was not the Certificates Series, but was the Wells Fargo
Home Equity Asset-Backed Securities 2005-2 Trust. The Rinaldis’ have raised Wis. Stat.
sec. 226.14(9) as a defense in the second attempted foreclosure against their Homestead
now pending in the Kenosha County Circuit Court in Case No. 2017CV000473.
Wis. Stat. sec. provides:
73

767a

(9) Every contract made by or on behalf of such trust affecting the personal liability
thereof, or relating to property within this state, before it shall have complied with
the provisions of this section, shall be wholly void on its behalf, or on behalf of its
assigns; but shall be enforceable against such trust, and the trustees named in said
declaration of trust shall be individually liable therefor.
(Entries. 146, 153); Ex. 71; Tr. at 207:11-208:18.
34. In an oral ruling on March 4, 2014, Judge Kelley dismissed the bankruptcy case but
retained jurisdiction over motions for sanctions filed by defendants in the Adversary Proceeding.
Ex. 59:30-31 (Entries 153, 155); Ex. 71.
34. Nora admits this new factual allegation and affirmatively alleges that the
Motion for Sanctions was resolved by Stipulation and approved by Judge Kelley’s Order
(Exhibit 300).
35. In an order entered March 5, 2014, Judge Kelley confirmed her oral ruling of March
4, 2014, and denied a motion for reconsideration Nora had filed with respect to Judge Kelley’s
opinion that dismissal of the case would moot the appeal Nora had filed for the Rinaldis. Ex.
59:30-31 (Entries 146, 154, 155); Exs. 70, 71.
35. Nora admits this new factual allegation and affirmatively alleges that
36. Nora’s motion for reconsideration in the bankruptcy case repeated the same
arguments previously made based on an alleged “forged endorsement” and stated that “the
Rinaldis have decided not to engage in litigation of their new issues in this Court and wish to be
set free from the underlying bankruptcy . . .” Ex. 70:2-3.
36. Nora admits this new allegation and denies this new allegation in part and
affirmatively alleges that, in addition to the affirmative defense set forth at 33, above,

74

768a

which is incorporated by reference as if fully set forth herein, the United States Supreme
Court held in Heiser v. Woodruff, 327 U.S. 726, 66 S.Ct. 853, 90 L.Ed. 970 (1946) that the
under the federal doctrine of res judiciata, the judgment of a lower court is not final until
all appeals had been exhausted. There is nothing whatsoever unethical about preserving a
record for further appeals.
37. On April 2, 2014, Nora filed a motion to intervene personally in the Rinaldi case
before Judge Stadtmueller. Ex. 61:9 (Entry 46); Ex. 73; Tr. at 209:9-210:3.
37. Nora admits this new factual allegation and affirmatively alleges that Nora had
standing to intervene in the appeal from Judge Kelley’s Opinion and Order and Report
and Recommendations because she was a party to the Motion for Sanctions under Fed. R.
Bankr. P. 9011 with the Rinaldis and the Rinaldis, being forced to proceed pro se due to
what Nora perceived to be an unwaivable conflict of interest, were not capable of
adequately protecting Nora’s interests. In the course of subsequent proceedings on appeal,
Nora obtained the Rinaldis’ written waiver of the conflict of interest, reviewed by counsel
who did not have an interest in the Fed. R. Bankr. P. 9011 proceedings to enable her to
represent the Rinaldis in the Seventh Circuit’s mediation program, in which pro se parties
are not allowed to participate. Being confident that the unwaivable conflict of interest has
been resolved by other intervening circumstances, Nora thereafter represented both herself
and the Rinaldis in the appeal to the Seventh Circuit Court of Appeals.
38. On April 2, 2014, Nora filed a joint motion for the Rinaldis and herself as the
proposed intervenor in the case before Judge Stadtmueller seeking relief under Federal Rule of
Civil Procedure 60 from the orders from the October 31 and December 13, 2013. Ex. 61:9 (Entry
75

769a

47); Ex. 74; Tr. at 212:12-23.
38. Nora admits this new factual allegation and affirmatively alleges that Nora had
standing to intervene in the appeal from Judge Kelley’s Opinion and Order and Report
and Recommendations because she was a party to the Motion for Sanctions under Fed. R.
Bankr. P. 9011 for the reasons set forth in paragraph 37, above, and incorporated by
reference herein. Nora further affirmatively alleges that she had discovered new evidence
consisting of the Wells Fargo Home Mortgage Attorneys Foreclosure Manual in March,
2014, which was the basis for the Rule 60(b) Motion brought in the federal district court in
the Rinaldi matter.
39. In the motion to intervene, Nora rehashed the same arguments regarding an alleged
forged endorsement of Joan M. Mills previously rejected by the court in the orders of October 31
and December 13, 2013. Ex. 73.
39. Nora denies this new factual allegation. This allegation ignores the newly
discovered evidence of the Wells Fargo Home Mortgage Attorneys Foreclosure Manual.
40. In the motion to intervene, Nora asserted a right to intervene in order to
defend the motions for sanctions filed by the banks and defendants in the adversary proceeding.
Ex. 73:2, 15. She has the standing to do so, even under the narrow interpretation of attorneys’
standing under existing Seventh Circuit case law, including the Spencer decision.
40. Nora admits this new allegation and affirmatively alleges that OLR essentially
pleads itself out of Court on Count Four alleging violations of SCR 3.1(a)(1), (2), and (3) in
the Rinaldi Matter, because it acknowledges Nora’s standing to intervene as an interest
party in the Rinaldis’ federal district court case.
76

770a

41. In the motion for relief under Rule 60, Nora rehashed the same arguments regarding
an alleged forged endorsement of Joan M. Mills previously rejected by the court in the orders of
October 31 and December 13, 2013. Ex. 74.
41. Nora denies this new factual allegation for the reasons set forth above.
42. By order dated April 9, 2014, Judge Stadtmueller granted Nora’s motion to withdraw
as counsel for the Rinaldis, but denied the motions to intervene and for relief under Rule 60. Ex.
75; Tr. at 213:13-17.
43. In the April 9, 2014 order, Judge Stadtmueller also stated that:
Last, as to Ms. Nora’s motion to intervene and for Rule 60(b)
relief, the Court notes that it has no choice but to impose sanctions
against Ms. Nora. In the Court’s last order, it noted that “[w]ith
this order, the Court hereby makes clear that any further frivolous
submissions will result in an award of appropriate sanctions
against the Rinaldis’ attorney.” (Docket #37 at 3 (emphasis in
original1)). Despite that extremely clear warning, Ms. Nora filed the
frivolous motions in question. Therefore, the Court will enter a
sanctions award against her, using its inherent authority to do so
under Chambers v. Nasco, Inc., 501 U.S . 32 (199 1 ). The Court will
direct that Ms. Nora pay to the Clerk of the Court $1,000.00 for
deposit into the Eastern District of Wisconsin Pro Bono fund. And
let the Court be clear: any further frivolous filings will result in
even higher sanctions against Ms. Nora.
Ex. 75:2-3.
44. On appeal, the Seventh Circuit stated that “to the extent the adversary claims are not
moot, we affirm the dismissal of those claims for substantially the reasons discussed by the
district court.” Ex. 76:3.
44. Nora admits this new factual allegation and affirmatively alleges that the

1

No emphasis provided by OLR.

77

771a

Rinaldis did not argue that the appeal was moot.
45. The Seventh Circuit also applied an exception to the general rule that mootness would
(sic) of the appeal would deprive the lower court’s rulings of preclusive effect where “losing
party causes an appeal to become moot in order to avoid the preclusive effect of an unfavorable
ruling.” Id. The court added, “We refuse to indulge this type of gamesmanship by depriving the
sound decisions of the bankruptcy court and district court of preclusive effect.” Ex. 76:4.
45. Nora admits this new allegation and affirmatively alleges that the Rinaldis did
not engage in the “gamesmanship” suggested by the Seventh Circuit. They consistently
argued that the dismissal of the Chapter 13 case did not moot their appeal. The Rinaldis
and Nora were seeking a determination of their issues on appeal on the merits and did not
argue that the appeals were moot. The Seventh Circuit Panel did not find the Rinaldis’
appeal to be frivolous.
46. The Seventh Circuit also affirmed the sanction awarded against Nora, stating that
Nora’s obligations to her clients did not excuse her disregard of the district court’s clear and
repeated warnings against continued submission of confusing, frivolous, and needlessly
argumentative filings. Id.
46. The Seventh Circuit Panel affirmed Judge Stadtmueller’s sanction against
Nora, finding that it was not an abuse of discretion. The Seventh Circuit Panel did not find
that Nora’s appeal from the sanction award was frivolous.

78

772a

 34)4 +1+34 

-4.4#,)'4 #,)',#'4 -"#,4







 

  




    

   

4

4 

4

 )0+/"424 4 1#-4 
#''*)$#,4 #'(,)-4
 
'-+$4 4 )#4  
  
'-+$44 4    
,,%!$,+2#,!&#$)&4
4 4 





    

773a

APPENDIX R

774a

'LVFLSOLQDU\3URFHHGLQJV$JDLQVW
:HQG\$OLVRQ1RUD$WWRUQH\DW/DZ
$3'

7UDQVFULSWRI3URFHHGLQJV7DNHQRQ
0DUFK

775a


'LVFLSOLQDU\3URFHHGLQJ1RUD

1

STATE OF WISCONSIN

2

IN SUPREME COURT

3DJH

3

---------------------------------------------------------

4

IN THE MATTER OF THE DISCIPLINARY PROCEEDINGS
AGAINST WENDY ALISON NORA

5

OFFICE OF LAWYER REGULATION,
6

Complainant,
7

vs.

Case No. 15-AP-2442D

8

WENDY ALISON NORA,
9

Respondent.
10

--------------------------------------------------------11
12

VOLUME IV

13
14

DISCIPLINARY PROCEEDING

15

March 27, 2017
16

8:30 a.m.
17

at
18

Gramann Reporting
14 West Mifflin Street
Madison, Wisconsin

19
20
21

Reported by Carla J. Van Roo, RPR

22
23
24
25
*UDPDQQ5HSRUWLQJ/WG

 

776a


1

'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

Disciplinary Hearing in the above-entitled

2

action, pursuant to Supreme Court Rules, before Carla

3

J. Van Roo, Registered Professional Reporter in and

4

for the State of Wisconsin, at Gramann Reporting,

5

Madison, Wisconsin, on the 27th day of March, 2017,

6

commencing at 8:30 a.m. and concluding at 4:21 p.m.

7
8
9
10
11
12
13
14
15

A P P E A R A N C E S:
LAW OFFICES OF JAMES J. WINIARSKI, by
MR. JAMES J. WINIARSKI
3625 West Oklahoma Avenue
Milwaukee, Wisconsin, 53215
Appeared as the REFEREE
STAFFORD ROSENBAUM LLP, by
MR. PAUL J. SCHWARZENBART
222 West Washington Avenue, Suite 900
Madison, Wisconsin, 53701
Appeared on behalf of the Complainant
MS. WENDY ALISON NORA
Appeared Pro Se

16

-and17
18
19

MR. JOHN W. VERANT
9800 69th Avenue
Maple Grove, Minnesota, 55369
Appearing pro hac vice for the Respondent,

20
21
22
23
24
25
*UDPDQQ5HSRUWLQJ/WG

 

777a


'LVFLSOLQDU\3URFHHGLQJ1RUD

1

3DJH

I N D E X
PAGE

2
3
4

WENDY ALISON NORA
Continued Cross-Examination by Mr. Verant
Redirect Examination by Mr. Schwarzenbart
Recross-Examination by Mr. Verant

660
793
824

5

E X H I B I T S
6
7
8

(OLR Binder of exhibits, 1-75,
pre-marked prior to hearing)
(Exhibits 1-4, 7a, 8-55, 57-76, 78-79,
received in evidence)

9
10

A D D I T I O N A L E X H I B I T S
BY RESPONDENT AT HEARING

11
12

Exh. 300 - Stipulation for Entry of Order

223

13

Exh. 301 - Not admitted

---

14

Exh. 302 - Summons for Case No. 09-CV-0353

826

15

Exh. 303 - Complaint in 09-CV-283

830

16

Exh. 304 - Notice of Motion and Motion

---

17

Exh. 305 - Not admitted

---

18

Exh. 306 - General Docket, Seventh Circuit
Court of Appeals

831

20

Exh. 307 - Petition for Panel Rehearing
(Exhibit A-E attachments)

833

21

Exh. 308 - Order by Judge Crabb

834

22

Exh. 309 - Transcript of August 8, 2012 hearing

830

23

Exh. 310 - Amended Appellant's Brief

---

19

24

(Exhibits filed with Referee)

25
*UDPDQQ5HSRUWLQJ/WG

 

778a


'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

1

evidentiary hearing for us to be able to prove our

2

allegations.

3

Q

Confining yourself to your motion pursuant to Rule

4

60(b)(2).

5

basing it upon?

6

A

What newly-discovered evidence were you

The discovery of the Wells Fargo Home Mortgage

7

Attorneys Foreclosure Manual.

8

1, 3rd Revision, effective November 9, 2011.

9

Q

10
11

I believe it's Version

And what is the significance of that manual, in your
motion?

A

The manual was discovered by Attorney Linda Tirelli

12

of the Southern District of New York.

13

bankruptcy practitioner with whom I am acquainted.

14

And she had discovered this manual, had asked for it

15

to be authenticated.

16

request for admission, and I was made aware of the

17

availability of the manual, we will call it, through

18

reviewing articles in the press.

19

Democracy Now.

20

was something where I communicated with her directly

21

to obtain the manual and the authenticating

22

documents.

23

Q

She is a

Obtained an authentication by a

An interview on

And because I know Linda Tirelli, it

How did you become aware of this manual, vis-a-vis,

24

the time of this whole proceeding?

25

that you could have previously understood or found,
*UDPDQQ5HSRUWLQJ/WG

Was it something

 

779a


1

'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

for example?

2

A

I stated how I became aware of it.

3

Q

At what time did that happen?

4

A

I became aware of it in late March 2013.

Is that

5

2013?

6

have been 2014.

7

press, and Attorney Tirelli's interview with

8

Democracy Now was on or about the 18th of March of

9

2014.

10
11

One second, it might

Yes, late March 2014.

It was in the

I know that some newspaper articles were dated

that day.
Q

12
13

It was in the press.

What is the significance of that manual relative to
your 60(b) motion?

A

It demonstrates what the Rinaldis had been alleging,

14

that there is an electronic system for obtaining

15

documents which are missing from the files of Wells

16

Fargo's out-of-house attorneys who do the

17

foreclosing.

18

this manual says:

19

document and we will send you that document

20

electronically.

21

Q

22
23

So if you have got a missing document,
Key in your request for this

And what would be the significance of that relative
to the Rinaldi case?

A

Well, the allegations in the Rinaldi case are that

24

the copy of the Rinaldis' note that suddenly appeared

25

to be endorsed by Joan M. Mills had been manufactured
*UDPDQQ5HSRUWLQJ/WG

 

780a


'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

1

and delivered electronically to make it appear that

2

there had been a negotiation of the note, which is

3

necessary under Wisconsin law in order to establish

4

the equitable assignment of the security.

5

Q

Is this --

6

A

Also it involved obtaining assignments of mortgage

7

electronically.

8

from the file, provided to the foreclosing law

9

enforcement.

An assignment of mortgage is missing

You enter your request for that

10

document into the dialogue box, and it's provided to

11

you electronically.

12

Q

Is there anything inappropriate about that?

13

MR. SCHWARZENBART:

14

Objection; calls for an

opinion, lack of foundation, relevance.

15

THE REFEREE:

16

it I will determine.

17

question.

18

Well, the weight I attach to

THE WITNESS:

I will let you answer the

I don't consider it

19

inappropriate.

20

which is a predicate act under RICO, which was what

21

the Rinaldis' alleged.

22

manufactured and transmitted by wire to attempt to

23

take property from homeowners.

24

BY MR. VERANT:

25

Q

I consider it evidence of wire fraud,

Because documents are being

If you were permitted to enter an exhibit, would

*UDPDQQ5HSRUWLQJ/WG

 

781a


1
2

'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

there be one that would substantiate this?
A

Yes.

In fact --

3

MR. SCHWARZENBART:

4

THE REFEREE:

Overruled.

5

THE WITNESS:

I provided it to Judge

Objection; vague.

6

Stadtmueller in the Rule 60(b) motion.

7

Exhibit A attached to the Rule 60(b) motion, and

8

right now I'm looking for a note that I wrote to

9

myself, if I can find it.

10

It was

Mr. Schwarzenbart, do you want to review

11

what I'm looking at here?

12

as to where documents can be located in the offer of

13

proof, and above is a little reminder to myself for

14

the closing argument.

15
16
17

It's just notes to myself

MR. SCHWARZENBART:

What am I looking at

here?
THE WITNESS:

Just to see that that's what

18

I'm referring to.

19

refer to during the course of this proceeding.

I thought you wanted to see what I

20

MR. SCHWARZENBART:

21

THE WITNESS:

22

MR. SCHWARZENBART:

Nothing untoward in there?

23

means, but go ahead.

24

Exhibit A to her motion.

25

was talking about.
*UDPDQQ5HSRUWLQJ/WG

No.

I'm not sure what that

The witness was referring to
I thought that's what she

 

782a


1

'LVFLSOLQDU\3URFHHGLQJ1RUD

THE WITNESS:

3DJH

Right, and my counsel -- or

2

my co-counsel asked me if there is a document in the

3

offer of proof documentation that would be the Wells

4

Fargo manual that I'm referring to, and I'm

5

indicating that it's in Exhibit 528 at Exhibit 4.

6

And if I may, I know that I Bates numbered this, so

7

if I may get to that offer of proof binder.

8

THE REFEREE:

Just so that I'm clear while

9

you're looking for that, what is the -- what is the

10

claim that this offer of proof establishes or gives

11

you some support?

12

What's the purpose of this?

I mean, we have a manual.

The manual in

13

and of itself isn't inappropriate.

14

understand your position, Attorney Nora, it is that

15

if documents were forged and if they were sent by

16

mail, then there would be grounds for racketeering.

17

Is that essentially what you're saying?

18
19
20

THE WITNESS:

Your -- if I

Wire or mail.

Those are the

two predicate acts.
THE REFEREE:

Is there any proof that the

21

manual would supply that in this case these documents

22

were, in fact, forged?

23

THE WITNESS:

Yes.

24

THE REFEREE:

That's a different issue.

25

That's not the manual.
*UDPDQQ5HSRUWLQJ/WG

 

783a


1

'LVFLSOLQDU\3URFHHGLQJ1RUD

THE WITNESS:

3DJH

Oh, yes, it is.

The language

2

in the manual indicates that those documents will be

3

created, made to order.

4

THE REFEREE:

So you're saying that the

5

manual -- well, okay, we will let you produce this

6

manual then.

7

Let me see it.

THE WITNESS:

Thank you.

It starts in

8

document -- Exhibit 528 starts at paragraph -- excuse

9

me, page 46, Bates number page 46.

10

THE REFEREE:

I want the location of the

11

specific language that you were just referring to

12

that says they can commit an illegal act.

13

THE WITNESS:

It's pages 16 to 17 as it

14

applies to the unendorsed notes suddenly become

15

endorsed at the time of the attorney foreclosing on

16

the homeowner needing to show an endorsement.

17

THE REFEREE:

So it's your position that

18

those pages essentially approve of forging documents

19

and sending them by wire or mail?

20

THE WITNESS:

They are ordered by wire.

21

They are delivered by wire.

22

mailed or they are filed electronically by wire.

23

THE REFEREE:

They are printed or

Read to me the precise

24

language that you are referring to that deals with

25

the fact that these documents can -- that the
*UDPDQQ5HSRUWLQJ/WG

 

784a


'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

1

documents should be forged and then transmitted the

2

way you just described.

3
4
5

THE WITNESS:

They should be forged?

I'm

sorry, I don't understand.
THE REFEREE:

Well, what is it that you

6

think in this language is proof that these documents

7

are inappropriate.

8

THE WITNESS:

9

MR. SCHWARZENBART:

10
11

On page 17?
You're talking about

internal page 17 within -THE WITNESS:

Yes, yes, and that would be

12

Bates No. 62, top of the page, the instruction is

13

"Note endorsement."

14

if your office has already received the note."

15

means that the foreclosure law firm has a document

16

purporting to be the original note in their position.

17

This process is to be used only
Which

"If you have not received the note, follow

18

the process for requesting the note listed in the

19

missing note process section of this manual."

20

So what this says is if you have got what

21

you think is the original note in your possession,

22

follow this process.

23

Attorney, Step 1, enter step 0Z2.

Endorsed

24

note needed -- remember, it's in -- it's unendorsed.

25

It's in the possession of the party seeking to
*UDPDQQ5HSRUWLQJ/WG

 

785a


1
2
3
4

'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

foreclose, whomever that might be.
THE REFEREE:

What is the basis for

assuming it's unendorsed?
THE WITNESS:

Because the language says

5

"endorsed note needed," so the basis for assuming

6

that the note needs to be endorsed is in the request

7

for action.

8
9
10
11

THE REFEREE:
endorsed note"?

Couldn't that mean "send the

Why do you assume the note is

unendorsed?
THE WITNESS:

You know what, Mr. Winiarski,

12

I sense a really strong desire on your part to

13

disbelieve something that you have not even yet seen,

14

and this is a problem for me.

15

THE REFEREE:

Okay.

It can be your

16

problem, but at this point you will cease any further

17

statements to that regard.

18

answer these questions -- first of all, this has

19

nothing to do with the charges in this case.

20

you're relitigating.

21

the entire day is trying to tell me why the courts

22

were wrong, and --

23
24
25

If you don't want me to

Again,

THE WITNESS:

What you have been doing here

Why I was in good faith is

what I'm trying to establish.
THE REFEREE:
*UDPDQQ5HSRUWLQJ/WG

And I'm telling you that -- I
 

786a


'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

1

told you at the beginning of this hearing, that

2

whether the court was right or wrong isn't the issue.

3

It's the allegations of the complaint.

4

You are trying to prove consistently during

5

this hearing that all these judges were wrong and you

6

were right.

7

THE WITNESS:

No, I'm saying I was in good

8

faith, and I will continue, but all I was concerned

9

about is you were saying:

10

Well, what makes you think

that these words mean that you are having them say.

11

THE REFEREE:

Okay.

We made reference to

12

the page, we will examine that if I see that it's

13

relevant, but so far you haven't convinced me that

14

that manual is recommending inappropriate, illegal

15

action.

And if you want to show me more, go ahead.

16

THE WITNESS:

17

So if there is a note in the possession of

Thank you so much.

18

the attorney's office, then they enter into the

19

dialogue box, according to this action step, a code

20

that says:

21

another screen.

22

would be one type of endorsement being sought, or to

23

the bankruptcy screen if a loan is in bankruptcy.

24
25

Endorsed note needed, and then they go to
If a loan is in foreclosure, that

It's just the process of ordering.

Then

the Wells Fargo Home Mortgage default documents team
*UDPDQQ5HSRUWLQJ/WG

 

787a


1

'LVFLSOLQDU\3URFHHGLQJ1RUD

3DJH

researches the needed endorsement.

2

And if a blank endorsement is in the file

3

for the original note, execute the endorsement and

4

send the original document to the attorney and

5

complete the next step.

6

located -- for a copy state, execute the endorsement,

7

send the original document to imaging, and complete

8

the Z-02 step.

9

If needed endorsement is

So these are instructions of how you obtain

10

the evidence that we complain in the Rinaldi RICO

11

case was created for purposes of litigation.

12

MR. SCHWARZENBART:

May I be heard on this,

13

your Honor?

14

her interpretation of this document and what it

15

means.

16

considered for any purpose, I think it should be for

17

very limited purposes and certainly not for the truth

18

of the matters which Ms. Nora is asserting, because

19

there is no foundation that she has personal

20

knowledge as to how this document -- what this

21

document means in relation to how attorneys

22

representing Wells Fargo would interact with this

23

document and this system.

The witness is basically testifying to

And if it's going to be admitted or

24

THE REFEREE:

I agree.

25

THE WITNESS:

It's her reading of this.

*UDPDQQ5HSRUWLQJ/WG

 

788a


'LVFLSOLQDU\3URFHHGLQJ1RUD

1

THE REFEREE:

3DJH

I agree, and I have already

2

stated my position in relation to this particular

3

document.

4

an offer of proof at this point in time.

5

continue.

6

I'm going to allow the document in only as

THE WITNESS:

May I continue?

Let's

The allonge

7

part on this same page, this is another step, that

8

also is problematic in terms of it is evidence that

9

allonges are being created, at made to order, on

10

demand, of the foreclosing law firms.

11

THE REFEREE:

12

You made your record.

Now,

let's move on.

13

THE WITNESS:

14

There is also information in

here about creating assignments of mortgage.

15

THE REFEREE:

Thank you.

16

THE WITNESS:

Thank you.

17

THE REFEREE:

Let's move on.

Next

18

question.

19

BY MR. VERANT:

20

Q

What is the basis of your motion to intervene?

21

A

As I have stated before, we were in mediation within

22

the Seventh Circuit.

23

all represented parties.

24

the mediation that created what I thought was an

25

unresolvable conflict of interest.
*UDPDQQ5HSRUWLQJ/WG

It's a step that's offered to
There was an offer made in

It gave me a
 

789a

APPENDIX S

790a

EXHIBIT 528

791a

UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

ROGER PETER RINALDI, et al.
Plaintiffs,
v.

Adv. No. ______________

WELLS FARGO HOME EQUITY ASSET-BACKED
SECURITIES 2005-2 TRUST (WFHET 2005-2)
c/o HSBC BANK USA, NATIONAL ASSOCIATION, as Trustee, et al.,
Defendants

IN RE the Bankruptcy of
ROGER PETER RINALDI and
DESA LILLY RINALDI,
Debtors

Case No. 15-22937

EXHIBIT LIST FOR
VERIFIED INTERPLEADER COMPLAINT PURSUANT TO FED. R. BANKR. P. 7022
AND COMPLAINT FOR DECLARATORY JUDGMENT TO DETERMINE
THE IDENTITY AND CAPACITY OF THE ENTITY OR ENTITIES ENTITLED TO
PAYMENTS OF ADEQUATE PROTECTION AND/OR TO THE BENEFIT OF THE
PROCEEDS OF SALE UNDER 11 U.S.C. SEC. 363(f); FOR DECLARATORY JUDGMENT
DETERMINING THE VALIDITY AND ENFORCEABILITY OF RECORDED MORTGAGE
AND FOR OTHER DECLARATORY AND INJUNCTIVE RELIEF

EXHIBIT A: Wells Fargo Home Mortgage Foreclosure Attorneys Manual, Version 1, Revision 3
EXHIBIT B: Request for Admission of Authenticity of the Wells Fargo Home Mortgage
Foreclosure Attorneys Manual, Version 1, Revision 3
EXHIBIT C: Response to Request for Admission of Authenticity of the Wells Fargo Home
Mortgage Foreclosure Attorneys Manual, Version 1, Revision 3
EXHIBIT D: January 29, 2015 Opinion of Judge Robert D. Drain, United States Bankruptcy
Court for the Southern District of New York in In re Cynthia Carrsow-Franklin, Case No. 1020010.
EXHIBIT E: Unrecorded Assignment of Mortgage purportedly executed on September 14, 2005

1

043

792a

EXHIBIT F: First recorded Assignment of Mortgage created by Duncan C. Delhey, executed by
John Herman Kennerty in the capacity of “Vice President of Loan Documentation” on March 1,
2010 and recorded by Gray & Associates, LLP with the Kenosha County Register of Deeds on
April 5, 2010.
EXHIBIT G: Second recorded Assignment of Mortgage executed by Kate Johnson in the
capacity of “Vice President of Loan Documentation,” created by Michael Dempsey, an employee
of Wells Fargo Home Mortgage, recorded with the Kenosha County Register of Deeds on
November 1, 2011.

2

044

793a

EXHIBIT A

045

794a

Wells Fargo Home Mortgage
Foreclosure Attorney Procedure Manual, Version 1
Status:
Origination Date:
Date Last Published:

Revision 3
11/09/2011
02/24/2012

Purpose
Pre-Introduction
We ask that you share this manual within your office, including those who may not be directly
involved, to educate your staff on the Foreclosure program

High Level Description of Process
Delinquent loans will be referred to the attorney once set up in the Foreclosure Workstation after the expiration of the
demand. The attorney will be handling these loans from Referral to Sale/Confirmation/Redemption. The assigned
Wells Fargo liaison will assist the attorney with any issues that arise outside of the normal process and review audit
results.
Upon completion of the required documentation, the attorney will be authorized to file the Foreclosure Notice, keep
Wells Fargo up to date, and address objections to the Foreclosure without loan level approval under established
timeframes/guidelines. Any over-allowable or hourly fee requests not listed in the pre-approval form will require loan
level approval from Wells Fargo.
If the attorney receives notice of an adversary, litigation issue, motion for sanctions, or any issue the attorney cannot
complete in a time manner timely or any issue that will cause a delay in the timely execution of the sale, refer to the
Litigation section of this manual. Wells Fargo will provide further instruction upon receipt of the communication from
the attorney. The attorney will also be required to receive authorization for all over-allowable fees and costs as well as
hourly billing requests for items not covered by the pre-approval form.
If the mortgagor contacts the attorney, and the attorney is unable to answer, the customer should be directed to the
appropriate customer service number listed below. At no time should the Wells Fargo Liaison’s direct phone
line be provided to outside parties.
Wells Fargo Home Mortgage Foreclosure Customer Service – 1-800-868-0043
America’s Servicing Company Customer Service – 1-888-828-2377
Overview
The Foreclosure program has been designed to complement a Foreclosure attorney’s current process, procedures
and responsibilities through streamlining the necessary contact points with Wells Fargo and providing greater
independence to the attorney’s firm.
The program also leverages existing Wells Fargo automation. One of the key trigger points for automation is the
addition of scheduled steps and the completion of steps (though the input of the actual date.) The expanded
procedures of this section focus solely on the new expectations of the firms.
Each process section will have a breakdown of the overall flow, exact steps for exception processing, an
outline of any reports that will be sent to the attorney, and specific compliance expectations and quality
measurements. Please remember that the reports are to be a tool to assist in meeting all time frames, goals
and compliance requirements.
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 1
046

795a

Wells Fargo Home Equity / Wachovia Equity / Wells Fargo Financial
Your office may receive referrals for files that are for specialty portfolios. These foreclosures should be
processed following your normal procedures. DO NOT contact your liaison for questions on these files. All
questions and communication should be directed to the processor listed in VendorScape, Desktop, or on the
FOR1 screen in MSP.
Desktop Referrals
As of June 6, 2011, all new referrals will be sent through Desktop instead of VendorScape. Desktop referrals
can be identified by the K33 step, REFERRED IN DESKTOP on the FOR3 screen in MSP. You will still have
loans that were previously referred through VendorScape that should continue being processed during this
time.
Reports
You will receive several daily, weekly, and monthly reports to assist you in effectively monitoring and
processing of your portfolio. The reports will be listed within the appropriate section of the manual. Effective
February 15, 2012, for attorneys, the reports will be uploaded to your DTS mailbox. First, refer to your
Transmission Confirmation Document. Then, access your Prod URL. Finally, key in your Universal ID/Logon
ID. For liaisons, the reports will be in the DS_FC_AttorneyRpts folder on the shared drive. Reports are to be
considered either “reference” or “action required.” Reference reports are meant to give a status of the portfolio.
Action required reports alert you of a task that needs to be performed. The following reports are meant to give
you a general overview of the status of your portfolio.
Attorney – Trial Balance Report: Provide attorney with a weekly list of all pre-sale loans in his/her inventory
(Reference).
Late Step Report: Provide attorney with a daily list of all foreclosure steps on FOR3 that are pending or past
due. The attorney is to work this report to ensure the foreclosure is within investor timeline (Action Required).
Liaison – Late Step Report: Provide liaison with a list of all foreclosure steps that are pending or past due
(Action Required).

Job Titles/Roles/Departments Responsible/Overview of General Duties
Foreclosure Referral Area Responsibilities (WFHM)
• QC Review of files from collections
• Set up of FC workstation and various screens in MSP including initial coding
• Send copy of Demand to attorney
• Send referral to attorney through VendorScape or Desktop
• Send HUD Occupancy Letter for TX and GA. In the event the HUD Occupancy Letter needs to be resent, the attorney will send out letters for all states at an agreed price.
Document Processing Area Responsibilities (WFHM)
• Order original documents for original document states
• Ensure copies of collateral documents are available for all other states
• Sending appropriate documentation through VendorScape or Desktop
st
• Ensure attorney has necessary documents to complete 1 Legal and Assignments
• Conventional Loans – work with the Investor to obtain signatures on Assignments
• Manage incoming mail from mortgagors, third parties, etc.
• If needed, ensure copies of Mortgage, Note, HUD-1, Title Policy, and Assignments are available via
VendorScape or Desktop

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 2
047

796a

Liaison Responsibilities (WFHM)
• Obtain Investor approval for over-allowable expenses
• Monitor workflow and performance of attorney
• Address any compliance findings
• Assist with escalated issues
• Attend monthly Attorney Call
• To determine beneficiary vesting information access Investor Matrix or RFC Matrix at
http://servicing.wfhm.homestead.wellsfargo.com/foreclosure/links.asp.
Foreclosure Special Teams Responsibilities (WFHM)
• Prepare all reinstatement figures on exception loans where figures cannot be ordered through
VendorScape or Desktop
• Prepare all payoff figures on exception loans where figures cannot be ordered through VendorScape
or Desktop
• Provide monthly updates to Investor/Insurers (DIMA)
• Provide bidding Instructions (except on FHA and FHLMC Designated loans-attorney
responsibility)
• Conventional Loans – provide Private Investors with sales results within 24 hours of sale – various
forms utilized – (DIMA)
• FNMA/FHLMC – provide sales results through Midanet/HSSN. Ensure accuracy of all stops and
coding and route completed foreclosures to REO/Claims
• Completion of 1099(a)
• Cash application and processing
• Document preparation and execution – provide attorney with any necessary documents and execute
any necessary documents, such as affidavits, etc. (See Executables)
st
• Review of report of loans in which 1 Legal is approaching or past timeframes and contact attorney for
status. (See First Legal Action)
Attorney Responsibilities
• Manage all loans during the foreclosure action to protect Wells Fargo's best interest and alert Wells
Fargo's management of any potential risk.
• Ensure foreclosures are completed within investor and state guidelines.
• Management of a foreclosure file, either paper or electronic. Retained complete file for audit purposes
for a period of 8 years or state requirement. Involves management of electronic file of all documents,
which would require imaging, or a paper file. WFHM will notify the attorney when to destroy any audit
file. No attorney will destroy a file without approval from WFHM default Compliance area.
• Review for any differences in the property and mailing addresses for the mortgagor and send all
notices to both addresses if required by your state guidelines.
• Confirm the borrower’s military status by review of the Department of Defense website. Notify Wells
Fargo of all SCRA Soldiers & Sailors protected loans via the SMCRA@wellsfargo.com.
• Send Demand Letter at an agreed price. (See Referrals/ Demand Letters)
• Determine 1st Legal deadline and ensure that the deadline is met as defined by the state-level matrix.
This is for FHA files only. (See First Legal Action)
• Review all documents, including Vendor Instructions, provided in VendorScape or Desktop.
• Obtain Title Report to ensure no title defects. (See Title)
• Clear all title defects/ file claim. (See Title Issues)
• Notify Wells Fargo of any liens that may affect our position or our ability to foreclose.
• Do not Foreclosure in the name of MERS.
• Monitor Suspense funds/make recommendations to apply and resolve. (See Suspense)
• Work with the Tax area if we are notified of any delinquent taxes. (See Delinquent Taxes (Jeopardizing
Lien)
• Management of loans being suspended, including loss mitigation, disaster area, etc. (See Holds)
• Notify Wells Fargo of receipt of any bankruptcy notifications. (See Bankruptcy)
• Order VA appraisal within 45 days of sale date. (See VA Appraisal Ordering Process)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 3
048

797a

•
•
•
•
•
•
•
•
•
•
•

Approve and submit (through iclear) all BPO and appraisal invoices that were ordered by Attorney.
(See BPO/Appraisal Ordering and Bidding)
Send HUD Occupancy Letter on all states except TX and GA. In the event the HUD Occupancy Letter
needs to be re-sent, the attorney will send out letters for all states at an agreed price.
Review all requests for sale postponements. (See Postponed Sales)
Work with Loss Mitigation on all sale postponements. (See Loss Mitigation)
Review file to ensure ready for sale (no outstanding issues). (See Pre-Sale Loan Review (24 Hours
Prior to Sale)
Manage invalid sales. (See Rescinding Sales Procedures)
Management of expirations of ratification, redemption and confirmation dates. (See Sales, Post-Sale
and Closing File)
Provide sales results by 4pm EST the same day the sale is held or, for attorneys on the West Coast
whose sales are not held until the afternoon, provide sales results by 6pm EST or 9am EST the next
business day. (See Sales Results)
Provide chronological events of foreclosure within 24 hours of request (this may be needed for losses
associated with the loan)
Review and respond to Default Accounts Payable regarding all iclear exceptions (attorney invoices)
Close VendorScape or Desktop at completion of foreclosure and submit final invoice within 10
business days via iclear. (See, Closing Your File)

Additional FHLMC Designated Counsel Responsibilities
• Manage the complete foreclosure process on any FHLMC designated foreclosure to ensure your office
is in compliance with FHLMC requirements and guidelines.
• Order BPO through BPO Direct within 30 days of sale. (See FHLMC Designated BPO Ordering
Process)
Shared Responsibilities between Attorney & Wells Fargo Liaison
• Handle third party calls (non-customer).
• Research all customer issues.
• Review sales package, ensure coding is updated and all proper steps are taken, and close out MSP
foreclosure workstation.
•

rd

Supply mortgagor / authorized 3 party with reinstatement and payoff figures.

Timeframes to Complete the Process
Individual components of this document have their own time requirements.

Regulatory Requirements
Individual components are regulated by one or more regulatory agencies, such as FHA, FHLMC, FNMA, VA,
HUD, and various state regulations.

Risk
•

Being out of compliance with various federal and state regulations can lead to delays and/or Wells
Fargo being forced to re-purchase loans.

•

Being in violations of federal and state regulations can lead to possible sanctions and fines.

Management Tools
N/A

Definitions
Term/Acronym
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Definition
Page 4
049

798a

AOM

Assignment of Mortgage

BPO

Broker's Price Opinion

DAP

Default accounts payable

DDF

Dynamic Date Form

DOD

Department of Defense

DOS

Default Operations Support

FC
FHA
FHLMC
FNMA
HUD
LIV

Foreclosure
Federal Housing Administration
Federal Home Loan Mortgage Corporation (Freddie Mac)
Federal National Mortgage Association (Fannie Mae)
Housing and Urban Development (U.S. Department of)
Loan Image Viewer

LM

Loss mitigation

LNA

Loss Note Affidavit

MERS

Mortgage Electronic Registration System

MHCT

Manufactured Home Conversion Team

MI
Midanet

Mortgage Insurance; Michigan
Mortgage Information Direct Access Network

MSJ

Motion for Summary Judgment

REO

Real Estate Owned

SOT
VA
WFHM

Substitution of Trustee
Veterans Administration
Wells Fargo Home Mortgage

References
1

FHLMC Guidelines

2

HUD Guidelines

3

Investor Guidelines

4

State regulatory Guidelines

5

VA Guidelines

6

WFHM Guidelines

Audit/Control/Business Quality Assurance
N/A

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 5
050

799a

Table of Contents
Referrals/Demand Letters/State Required Letters/Conflict of Interest/Beneficiary Information/Dual Referral ..... 7
Default Document Process.................................................................................................................................. 14
First Legal Action ................................................................................................................................................. 26
Executables ......................................................................................................................................................... 28
Judgment ............................................................................................................................................................. 36
BPO/Appraisal Ordering and Bidding .................................................................................................................. 38
Pre-Sale Loan Review......................................................................................................................................... 42
Title ...................................................................................................................................................................... 47
Cash Processing ................................................................................................................................................. 54
Sales, Post-Sale, and Closing File ...................................................................................................................... 65
Taxes, Condo Dues, and Property Damage ....................................................................................................... 80
Litigation .............................................................................................................................................................. 86
Holds ................................................................................................................................................................... 93
Loss Mitigation .................................................................................................................................................... 98
Appendix A - Distributing Foreclosure Mail ....................................................................................................... 102
Appendix B - Funds Remittance Cover Sheet .................................................................................................. 104
Appendix C - Funds Address Matrix ................................................................................................................. 106
Appendix D – State Required Mediation Memo ................................................................................................ 108
Appendix E – MI Foreclosure/Mediation Bill ..................................................................................................... 110
Appendix F– NJ Mortgage Stabilization Act ...................................................................................................... 112
Appendix G – CO Foreclosure Deferment ........................................................................................................ 113
Appendix H – FL Mediation ............................................................................................................................... 116
th

Appendix I – Fl 12 Circuit Mediation................................................................................................................ 118
Appendix J – OR Modification Request Form ................................................................................................... 119
Appendix K– SC Administrative Order .............................................................................................................. 120
Appendix L– NV Mediation ................................................................................................................................ 122
Appendix M– Mediation Master Contact List..................................................................................................... 124
Appendix N – FL- Verification of Foreclosure Complaints ................................................................................ 127
Appendix O –CT Standing Orders (Effective September 1, 2010) ................................................................... 128
Appendix P – VA Appraisal Ordering Process .................................................................................................. 129
Appendix Q – Lien Release Requests/ Subordinations .................................................................................... 141
Appendix R – Escalated Foreclosure Contacts................................................................................................. 145
Appendix S – Blanket Fee Approval Matrix ....................................................................................................... 147

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 6
051

800a

Referrals/Demand Letters/State Required Letters/Conflict of
Interest/Beneficiary Information/Dual Referral
Referrals
The attorney will receive their referrals via Desktop throughout the day. All available documents will be uploaded to
Desktop within 24 hours of referral. The Demand Letter should be sent with the referral package; if not, it will be
uploaded to Desktop within 3 days from referral.

Conflict of Interest
If your office determines that there is a conflict of interest due to your office already handling another lien on
the property, the Conflict of Interest issue needs to be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Select “FC Conflict of Interest

Dual Referrals
In Desktop, if you are a FHLMC Designated counsel and are unable to represent WFHM due to a conflict of
interest, the Freddie Mac Dual Referral Issue needs to be raised.
STEP

ACTION

1

Go to the Tool Menu

2

Select Issues

3

Select Add Issue

4

For the Issue Type, select “FC Freddie Mac Dual Referral”

5

Enter the projected end date and provide a detailed description of the issue

Beneficiary/Vesting Information Needed
In Desktop, if your office is in need of the entity to file the foreclosure action in:
STEP

ACTION

1

Go to the Tool Menu

2

Select Issues

3

Select Add Issue

4

For the Issue Type, select “FC Foreclose in the name of”

5

Enter the projected end date and provide a description as to what information is needed

If your office is in need of the entity to 'vest the title in the name of', perform the following:
STEP

ACTION

1

Go to the Tool Menu

2

Select Issues

3

Select Add Issue

4

For the Issue Type, select “FC Vest in the name of”

5

Enter the projected end date and provide a description as to what information is needed

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 7
052

801a

Judicial Foreclosure Needed
If your office determines that the foreclosure needs to proceed as a judicial foreclosure in a state that is
typically Non-Judicial, the judicial steps will need to be added to the foreclosure template.
Attorney:
• Desktop: The Judicial Action Needed Process needs to be launched.
STEP
ACTION
1

Go to the File Transfer Form on the Tool Menu

2

Launch the FC_ Judicial_ Action_ Needed_Direct_Source or the FC_ Judicial_ Action_
Needed_InHouse_Referred or the FC_ Judicial_ Action_ Needed_InHouse_Non_Referred process
in Desktop Launching this process will add the needed judicial steps to the template as well as the
541 JUDICIAL FCL REQUESTED step to FOR3 in MSP.

• VendorScape:
STEP
1
2

ACTION

Send a message to your liaison advising that a Judicial foreclosure is needed.
Add the following Judicial steps to FOR3 in MSP as well as the 541 JUDICIAL FCL REQUESTED.
• T05-SVC ON DFNS COMPLETED
• T17-ATTY SCHD SUMMARY JUDGM (Dependent on State)
• T14-JUDGM ENTERED/GRANTED

Liaison:
STEP

ACTION

1

Confirm that the necessary steps have been added to the template when advised of the Judicial
foreclosure.

2

Add and complete the 542 JUDICIAL FCL APPROVED step to FOR3 in MSP.

Demand/Acceleration Letters
•

Attorney: Once a referral is received, verify that you have received the most recent Demand Letter.
Please review all Demand Letters loaded to VendorScape or Desktop prior to completing these steps.
STEP
1

ACTION
Locate the date the last Demand Letter was sent on the loan by reviewing the PL05 Letter history
or the collection notes (DLQ1 or NOTS).

In this example, the Demand Letter (Acceleration Letter) was sent 12/14/08 and the information
was updated to MSP on 12/16/08.
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 8
053

802a

In this example, the Demand Letter (Acceleration Letter) was sent 12/14/08 and the information
was updated to MSP on 12/16/08.

In the state of Pennsylvania, the Demand Letter shows as a PA ACT Letter instead of an
Acceleration Letter.

In the state of New Jersey, the Demand Letter shows as a NJ Accel Letter instead of an
Acceleration Letter.
2
3

If you have received the most recent copy of the Demand Letter, proceed to Step 4.
If you have not received the most recent copy of the Demand Letter, enter log code FCDEMD
(ATTORNEY REQUEST COPY OF DEMAND LETTER) on the MSP FOR2 screen or in Desktop.
To enter the log code in Desktop, select Add Note from the Tool Menu then select Note Type
Foreclosure and enter the log code in the MSP log code field.
Raise the FC Copy of Demand/State Req letter request issue in Desktop.
If the loan is a Wells Fargo Financial or Wells Fargo Home Equity loan, the FC Copy of
Demand/State Req letter request issue still needs to be raised in Desktop.

4

Once the most recent Demand Letter is received, verify that the Demand is valid or invalid. The
following process needs to be completed within 5 business days from referral.

5

If working within Desktop, proceed to Step 6;
If working within VendorScape, proceed to Step 10

6

For Desktop referrals, select the FC Demand Review process from the Navigation Tree.
Complete the dynamic date form (DDF) attached to the Review of Demand Letter Process.

7

Review of Demand Letter Complete – open DDF
“Demand Letter Valid?”
•
Select pick list and choose answer of “Yes” if the demand is valid.
•
If “Yes” is chosen, select “Submit and Close” at the bottom of the DDF. DO NOT
COMPLETE ANY OTHER FIELDS IN THE DDF.
•
If “No” is selected then the second question is required to be completed.
Who is Sending the Re-demand?”

8

9

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 9
054

803a

•

10

11

Complete the second question on the DDF by selecting “Attorney” or “Servicer.” DO NOT
MAKE A SELECTION HERE IF YOU ANSWERED THE PREVIOUS QUESTION WITH
“YES”.
o Select “Attorney” if you, the attorney firm, will be sending the new demand letter. By
selecting this task the New Demand Letter Sent task and Copy of New Demand
Uploaded to Desktop task will auto launch to complete by the attorney.
• There is a DDF associated with the New Demand Letter Sent task to be
completed by the attorney.
♦ The DDF has two fields. Complete when the new demand is sent.
• New Demand Letter Expires – date field for when demand will expire.
• Demand Letter Hold – check box to signify the hold was placed on the
loan.
o Select “Servicer” if you are unable to send a new demand. By selecting “Servicer,” the
Notified Servicer to send New Demand Letter task will auto launch for Wells Fargo
to complete.
Additional Details - to provide reason demand is not valid.
Proceed to Step 11
For VendorScape referrals, if the Demand Letter is valid, enter log code FCRVDV (REVIEWED
DEMAND IS VALID) on FOR2 in MSP. For Desktop Referrals, this automatically will update the
log code in MSP.
If Demand is not valid due to mailing address not included on Demand Letter sent (only for states
requiring Letters be sent to the mailing address):
•

If the loan is a Wells Fargo Financial or Wells Fargo Home Equity loan, contact your
foreclosure liaison.

•

If the loan is not a Wells Fargo Financial or Wells Fargo Home Equity loan, do the following:


Verify the last date the mailing address changed on the loan (review collection notes
(DLQ1 or NOTS)
o

If mailing address changed after date of last Demand, proceed with foreclosure action.
•

o

12

Enter log code FCRVDV (REVIEWED DEMAND IS VALID) on the MSP FOR2
screen. In Desktop, the log code automatically will be added after completing the
DDF attached to the Demand Letter Valid step.

If mailing address changed before date of last Demand, raise the FC Copy of
Demand/State Req letter request issue in Desktop to obtain the missing Demand
Letter.

Enter log code FCDEMD (ATTORNEY REQUEST COPY OF DEMAND LETTER) on FOR2 or in
Desktop. To enter the log code in Desktop, select Add Note from the Tool Menu then select Note
Type Foreclosure and enter the log code in the MSP log code field.
If the Demand is not valid due to any other reason (including but not limited to missing borrower,
incorrect address, etc.), perform the following:
•

If the loan is a Wells Fargo Financial or Wells Fargo Home Equity loan, contact the processor
listed on FOR1 in MSP.

•

If the loan is not a Wells Fargo Financial or Wells Fargo Home Equity loan, do the following:
o

•

Enter log code FCRVDN (REVIEWED DEMAND NOT VALID) on FOR2 in MSP or in
Desktop. To enter the log code in Desktop, select Add Note from the Tool Menu then
select Note Type Foreclosure and enter the log code in the MSP log code field.

Provide the specific reason that the demand letter was deemed invalid.

Raise the FC Copy of Demand/State Req letter request issue in Desktop to obtain the missing
Demand Letter.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 10
055

804a

13

If you receive a response advising your office to re-Demand, complete the following steps:

14

Your office can re-Demand at a charge not exceeding $35. The new demand must be sent within
48 business hours of determining that the demand is not valid.

15

Insert step D76, NEW DEMAND SENT and complete the actual date.

16

Insert step D77, NEW DEMAND LETTER EXPIRES, and leave the actual date blank.
In Desktop, these steps automatically will be added after completing the fields in the DDF attached
to the Demand Letter Valid step.

17

Enter log code FCRVDN (REVIEWED DEMAND NOT VALID) on FOR2 in MSP or in Desktop.
To enter the log code in Desktop, select Add Note from the Tool Menu then select Note Type
Foreclosure and enter the log code in the MSP log code field.

18

Provide the specific reason that the demand letter was deemed invalid.

19

Once the Demand Letter expires, complete the D77 step with the expiration date of the Demand
Letter.
•

A copy of the Demand Letter your office sent out will need to be sent to Wells Fargo. You can
submit a copy electronically through the 8778160144@enterprisefaxout.wellsfargo.com email
address. Emails to this mailbox must be in the following format:
Subject Line: Demand Images to FileNet- 07201
Please save each letter separately in PDF or WORD format
If multiple letters go out due to multiple parties/separate mailing addresses, all of the images
for that one loan CAN be imaged together in one document.

Please name each image by Client & Loan Number (i.e. 708-XXXXXXXXXX)

Reports
Attorney – Referrals: Daily report with all referrals sent to your office the prior day. (Reference)
Attorney – Demand Not Valid: Provides a weekly list of loans where your office determined that the demand
letter is not valid or where the referral has been active for more than five days and your office has not put the
log code(s) on the loan. The loan will remain on this report until log code FCRVDV is entered on FOR2.
(Action Required)
Liaison – Demand Not Valid: Provides a weekly list of loans where the referral has been active for more than
ten days and the FCRVDV log code is not entered on the loan or the first legal action has been filed and the
FCRVDV log code is not entered. (Action Required)

State Required Letters
**Please Note** This section only needs to be completed if the property is in a state that currently requires a
specific state required notice outside of or in addition to the Demand/Acceleration Letter.
STEP
1

2

ACTION
Attorney: Once a referral is received, verify that you have received the most recent State
Required Letters. Please review all Demand and State Required Letters loaded to
VendorScape or Desktop prior to completing these steps
Locate the date the last State Required Letter was sent on the loan by reviewing the
collection notes (DLQ1 or NOTS).
•

If you have received the most recent copy of the State Required Letter, proceed to
step 3.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 11
056

805a

•

If you have not received the most recent copy of the State Required Letter, enter log
code FCSTLR (ATTORNEY REQUEST COPY OF STATE REQUIRED LETTER) on
FOR2 or in Desktop. To enter the log code in Desktop, select Add Note from the Tool
Menu then select Note Type Foreclosure and enter the log code in the MSP log code
field.
•

Raise the FC Copy of Demand/State Req letter request issue in Desktop.

•

If the loan is a Wells Fargo Financial or Wells Fargo Home Equity loan, the FC Copy
of Demand/State Req letter request issue still needs to be raised in Desktop.

3

Attorney: Once most recent State Required Letter is received, verify that the State Required
Letter is valid. The following process needs to be completed within 5 business days
from referral.

4

If the State Required Letter is valid, enter log code FCRVSV (REVIEWED STATE
REQUIRED LETTER IS VALID) on FOR2 in MSP or in Desktop. To enter the log code in
Desktop, select Add Note from the Tool Menu then select Note Type Foreclosure and enter
the log code in the MSP log code field.

5

If the State Required Letter is not valid, follow the appropriate process below depending on
reason State Required Letter is not valid.
If State Required Letter is not valid due to payments accepted since last State
Required Letter was sent:
Check to see the investor on the loan:
•

If the loan is a Client 106 Wells Fargo Financial or Wells Fargo Home Equity loan,
contact your foreclosure liaison.

•

If the loan is not a Client 106 Wells Fargo Financial or Wells Fargo Home Equity
loan, do the following:
o

Your office can re-send the State Required Letter at a charge not exceeding
$35.

*Please note – if an alternate re-send procedure has been established with your
firm, it will supersede this procedure.
•

Insert step T76, NEW STATE REQRD LTR SNT and complete the
actual date.

•

Insert step T77, STATE REQD LTR EXPIRES, and leave the actual date
blank.

**Please Note**
For VendorScape Referrals: Under Task, choose “Add” then “Production Task – New State
Required Letter.” When adding New State Required Letter through VendorScape the T76
step– New State Reqd Ltr Sent and T77 step– State Reqd Ltr Expires automatically will be
placed into MSP. The T77 step will map over as an open step; do not fill the date in until the
State Required Letter has expired.
For Desktop referrals, go to the File Transfer Form on the Tool Menu, add the
FC_State_Required_Letter_Direct Source, or
FC_State_Required_Letter_InHouse_Referred, or
FC_State_Required_Letter_InHouse_Non_Referred process, and complete the DDF. This
automatically will insert and complete the steps for you

State Specific Desktop Holds for State Required Letters
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 12
057

806a

California: If it is determined that the file is in need of a declaration to comply with the Senate Bill 1137 and
the client has not provided the document either via Document Management or to the trustee directly (via mail),
STEP

ACTION

1

Select Holds from the Tool Menu

2

Select FC CA Senate Bill 1137 as the Reason

3

Enter the expected end date and provide hold details

Once this document is received, the hold should be ended.
Iowa: If the court has granted the 180-day borrower-imposed stay (Judge can grant this to the borrower upon
request and judge will rule on this),
STEP

ACTION

1

Select Holds from the Tool Menu

2

Select “FC Demand for Delay (Iowa)” as the hold Reason

3

Enter the expected end date and provide hold details

Illinois: If Illinois state law (Illinois Grace Period) is preventing the foreclosure from proceeding:
STEP

ACTION

1

Holds from the Tool Menu

2

Select “FC Illinois State Hold” as the hold Reason

3

Enter the expected end date and provide hold details.

New Jersey: If New Jersey state law is preventing the foreclosure from proceeding
STEP

ACTION

1

Select Holds from the Tool Menu

2

Select “FC New Jersey State Hold” as the hold Reason

3

Enter the expected end date and provide hold details

Indiana: If Indiana state law is preventing the foreclosure from proceeding
STEP

ACTION

1

Select Holds from the Tool Menu

2

Select “FC Indiana State Hold” as the hold Reason

3

Enter the expected end date and provide hold details

Michigan: If Michigan state law is preventing the foreclosure from proceeding,
STEP

ACTION

1

Select Holds from the Tool Menu

2

Select “FC Michigan State Hold” as the hold Reason

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 13
058

807a

3

Enter the expected end date and provide hold details

Soldier and Sailor Civil Relief Act Procedures
Attorney: Your office is required to confirm the borrower’s military status for every loan referred/transferred to your
office, by checking the DOD website, a minimum of two times throughout the foreclosure process:
•

Immediately (within 24 hours) upon receipt of the foreclosure referral/ file transfer to your office

•

24 business hours prior to the day of sale

***Please see Pre-Sale Loan Review or procedures on SCRA review process***

New Referral Needed
Attorney: If your office determines that a new foreclosure referral is needed, please contact your liaison
directly through VendorScape and provide a detailed explanation for why the new referral is needed. For
Desktop referrals, raise the Restart Necessary Issue type.
STEP

ACTION

1

Go to the tool menu

2

Select Issues

3

Select Add Issue.

4

Select the “FC Restart Necessary” issue

5

Enter the projected end date and provide a reason as to why a new referral is needed.

Liaison: Determine if a new foreclosure referral is necessary and needed:
1

Ensure the attorney’s side and the servicer side of VendorScape or Desktop are closed
down

2

Email Foreclosure Removals at fcremovals@wellsfargo.com

3

Contact referrals at referral.request@wellsfargo.com, which will alert the Default Reporting
department to send a new referral

**Please note** A new referral should only be needed if counsel is unable to utilize the existing referral
to proceed with the foreclosure action. If a restart is necessary, please refer to Foreclosure Restarts
for instructions on how to proceed

Default Document Process
Initial Document Process
The Default Document Department proactively orders all available original loan documents for loans that are more
than 60 days delinquent. Documents include the original note, recorded mortgage, title policy, and recorded and
unrecorded assignments. Documents are sent to imaging so that at the time of referral they can be uploaded via
VendorScape or Desktop to the Foreclosure Attorney.
If the note has been imaged on a COPY STATE, LIV automatically will upload the document to VendorScape
or Desktop and complete step N82, NOTE SENT TO ATTY, on FOR3 in MSP.
• For an ORIGINAL DOCUMENT STATE, the note will be imaged onto Loan Image Viewer.
• Once the loan is referred to foreclosure, Default Docs will ship the original note to the attorney’s office
and complete step N82, NOTE SENT TO ATTY.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 14
059

808a

If the recorded mortgage has been imaged, LIV automatically upload the document to VendorScape or
Desktop and complete step K56, RECORDED MTG/DOT TO ATTY, on FOR3 in MSP.
If the title policy has been imaged, LIV automatically will upload the document to VendorScape or Desktop and
complete step K68, TITLE POLICY SENT TO ATTY, on FOR3 in MSP.
PLEASE NOTE THAT DOCUMENT UPLOAD CAN OCCUR UP TO THREE (3) DAYS FROM THE REFERRAL.

Missing Note Process
NOTE NOT RECEIVED
STEP
1

ACTION
Attorney: If after the third business day of the referral date you have not received the note,
add log code NOTRRP in VendorScape or add the Note Not Received in Referral Package
Issue in Desktop. This can be done by selecting Issues from the Tool Menu and selecting
Add Issue.
•

2

This will add log code NOTRRP ( NOTE NOT RECEIVED IN REFERRAL
PACKAGE) to FOR2 in MSP, open and complete step Y84, ATTY REQ MISSING
NOTE, and open step K64, NOTE RESEARCH REQUIRED, on FOR3 in MSP

WFHM Default Docs Team: Research missing note:

•

If note is found: complete the K64 step with the actual date the note was
provided/sent to the Attorney. If the state does not require the original note, the
document will be uploaded to LIV. Otherwise, send the note via mail and track for
delivery.

•

If note is not found: complete the K64 step, delete the N82 step, and add step N83,
LOST NOTE AFFIDAVIT NEEDED. Only the Default Doc Team should be
adding the N83 step to FOR3.

3

Attorney: Once the N83 step is placed on the loan, this will authorize your office to create
and forward a lost note affidavit as described in the Lost Note Affidavits (LNA) process in
this manual.

4

WFHM Default Docs Team: Once you receive, execute, and return the LNA to the
Attorney, close the N83 step.

NOTE INVALID OR ILLEGIBLE
1

Attorney: If after the third business day of the referral date the note you received is invalid
or illegible, add log code NOTRIN in VendorScape or add the Invalid or Illegible Note
Received Issue in Desktop and describe the issue with the note. This can be done in
Desktop by selecting Issues from the Tool Menu and selecting Add Issue.

•

2

This will add log code NOTRIN (NOTE RECVD INVALID OR NOT LEGIBLE) to
FOR2 in MSP, open and complete step Y84, ATTY REQ MISSING NOTE, and
open step K64, NOTE RESEARCH REQUIRED, on FOR3 in MSP.

WFHM Default Docs Team: Research missing note

•

If note is found: complete the K64 step with the actual date the note was
provided/sent to the Attorney. If the state does not require the original note, the
document will be uploaded to LIV. Otherwise, send the note via mail and track for
delivery.

•

If note is not found: complete the K64 step, delete the N82 step, and add step N83,
LOST NOTE AFFIDAVIT NEEDED. Only the Default Doc Team should be
adding the N83 step to FOR3.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 15
060

809a

3

Attorney: Once the N83 step is placed on the loan, this will authorize your office to create
and forward a lost note affidavit as described in the Lost Note Affidavits process in this
manual.

4

WFHM Default Docs Team: Once you receive, execute, and return the LNA to the
attorney, close the N83 step.

Log codes will be rejected if added prior to three business days past the Referral Date and your
request for documents will not upload.

Lost Note Affidavits
**Please Note** The below process is for lost note affidavits and Lost Note Bonds in Colorado. This is not for
allonges, or for Note endorsements. If your office needs an allonge or note endorsement, please follow the
procedures listed in the Allonge/Note Endorsement section of this manual.
STEP

ACTION
Attorney: Send lost note affidavits to Wells Fargo Default Docs area via email address
defaultallongemailbox@wellsfargo.com.

1

•

Enter log code FCLNSG (LOST NOTE AFFIDAVIT SENT TO WF) in MSP or
Desktop to notify them that your office has sent the lost note affidavit for execution.
To enter the log code in Desktop, select Add Note from the Tool Menu then select
Note Type Foreclosure and enter the log code in the MSP log code field.

2

WFHM Default Docs Team: Once request is received in mailbox, enter log code FCLNAV
(LOST NOTE AFFIDAVIT RECEIVED FROM ATTY) in MSP. If the LNA needs the
signature of an officer, enter log code FCLNAI (LOST NOTE AFFIDAVIT SENT FOR
INTERNAL SIGNATURE(S)) in MSP to show the status of the LNA. The turnaround time
for this process is five (5) business day.

3

WFHM Default Docs Team: Once LNA has been completed, enter log code FCLNAD
(LOST NOTE AFFIDAVIT COMPLETED SENT TO ATTY) in MSP, and overnight the
affidavit to the attorney. Enter the actual date for the N83 step as the date the LNA was
sent to the attorney.

4

Attorney: Your office is responsible for following up on the LNA, by reviewing FOR2 for the
log code FCLNAD. If you have not received the LNA after 5 business days, send a second
request.

The following Log Codes should be used for the LNA process:
Log Codes

Comments

FCLNSG

LOST NOTE AFFIDAVIT SENT TO WF (ATTY)

FCLNAV

LOST NOTE AFFIDAVIT RECEIVED FROM ATTY (WFHM)

FCLNAI

LOST NOTE AFFIDAVIT SENT FOR INTERNAL SIGNATURE(S) (WFHM)

FCLNAD

LOST NOTE AFFIDAVIT COMPLETED SENT TO ATTY (WFHM)

Reports:
Attorney – Lost Note: Daily report of all loans where the N83 scheduled date is not null and
the N83 actual date is null. Alerts attorney of outstanding Lost Note Affidavit requests
(Action Required)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 16
061

810a

Note Endorsement
**Please Note** This process is only to be used if your office has already received the note. If you have not
received the note, follow process for requesting the note listed in the Missing Note Process section of this
manual.
STEP
1

ACTION
Attorney: Enter step Z02 (Endorsed Note Needed) to the FOR3 screen (if a loan is in
foreclosure) or the BNK3 screen (if a loan is in Bankruptcy).

2

WFHM Default Docs Team: Research needed endorsement.

•

If the blank endorsement is in the file for an original state, execute the
endorsement, send the original document to the attorney, and complete the Z02
step.

•

If needed endorsement is located for a copy state, execute the endorsement, send
the original document to imaging, and complete the Z02 step.

Allonge
**Please Note** An allonge cannot be processed unless default docs or the attorney is in possession of the
original note.
STEP
1

2

ACTION
Attorney: If an allonge is still needed after a note has been endorsed, forward the allonge
attachment to Wells Fargo Default Docs area via email address
Defaultallongemailbox@wellsfargo.com and add step Y44, ATTORNEY REQUESTED
ALLONGE, to FOR3.
WFHM Default Docs Team: Once allonge attachment is received, enter log code
FCALGR (ALLONGE REQUEST RECEIVED). If property is located in a copy state,
determine if original note can be ordered to complete the endorsement on the note.

•

3

4

If the original note can be ordered, enter log code of FCODAL (FILE ORDERED
FOR ALLONGE) and order the file from the custodian. There is a 14-business-day
turnaround time for files to be ordered and received from the custodian.

WFHM Default Docs Team: If file was ordered and received, review FOR2 notes to
determine what entities the attorney needs the note endorsement to reflect.

•

Type the appropriate endorsement directly to the note, and make a copy of the
endorsed note to be faxed to the WFHM imaging department.

•

Enter log code FCNRCS (NOTE REQUEST COMPLETED/SENT TO ATTORNEY)
and mail the attorney the original, endorsed note.

•

Complete the Y44 step with the actual date the note was returned to attorney.

WFHM Default Docs Team: If property is located in an original doc state and attorney has the
original note, review the allonge attachment to determine if we have signing authority to
execute internally.

•

If WFHM does have signing authority, enter log code FCALGI (ALLONGE SENT
FOR INTERNAL SIGNATURE)

•

If WFHM does not have signing authority, enter log code FCALGE (ALLONGE
SENT OUT FOR EXECUTION) and mail document for 3rd party signature.

•

After allonge has been executed, enter log code FCALGA (ALLONGE

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 17
062

811a

COMPLETED/RETURNED TO ATTYORNEY).
•

Complete the Y44 actual date with the date allonge was returned to attorney.

The following log codes will be used for the allonge process:
Log Codes

Comments

FCALGR

ALLONGE REQUEST RECEIVED

FCALGI

ALLONGE SENT FOR INTERNAL SIGNATURE

FCALGE

ALLONGE SENT OUT FOR EXECUTION

FCODAL

FILE ORDERED FOR ALLONGE

FCALGA

ALLONGE COMPLETED/RETURNED TO ATTORNEY

FCNRCS

NOTE REQUEST COMPLETED/SENT TO ATTORNEY

Missing Recorded Mortgage Process
RECORDED MORTGAGE NOT RECEIVED
STEP
1

ACTION
Attorney: If after the third business day of the referral date you have not received the
recorded mortgage, add log code RMNRRP in VendorScape or add the Recorded
Mortgage/Deed not received in Referral Package issue in Desktop. This can be done by
selecting Issues from the Tool Menu and selecting Add Issue.

•

2

3

This will add log code RMNRRP (RECORDED MORTGAGE NOT RECEIVED IN
REFERRAL PACKAGE) to FOR2 in MSP, open and complete step Y86, ATTY REQ
MISSING REC MORT, and open step K63 (RECORDED MTG RSCH REQ’D) on the
MSP FOR3 screen.

WFHM Default Docs Team: Research missing recorded mortgage.

•

If the recorded mortgage is found, complete the K63 step with the actual date the
mortgage was provided/sent to the attorney. Load the mortgage onto LIV. For IL,
send the original recorded mortgage to the attorney.

•

If recorded mortgage is not found: complete the K63 step, and add step K54, ATTY
NDS TO OBTAIN DOT/MTG.

Attorney: Once the K54 step is placed on the loan, this will authorize your office to obtain
the recorded mortgage from the county clerk’s office.

•

Once you have obtained the recorded mortgage, enter the actual date for the K54
step.

RECORDED MORTGAGE INVALID OR ILLEGIBLE
STEP
1

ACTION
Attorney: If after the third business day of the referral date the recorded mortgage you
received is invalid or illegible, add log code DEEINV in VendorScape, or add the Invalid, or
Illegible Recorded Mortgage/Deed Received issue in Desktop. This can be done by
selecting Issues from the Tool Menu and selecting Add Issue.
•

2

This will add log code DEEINV (RECORDED DEED RECD INVALID OR NOT
LEGIBLE) to FOR2 in MSP, open and complete step Y86, ATTY REQ MISSING
REC MORT, and open step K63 (RECORDED MTG RSCH REQ’D) on the FOR3
screen in MSP.

WFHM Default Docs Team: Research missing recorded mortgage.

•

If recorded mortgage is found, complete the K63 step with the actual date the

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 18
063

812a

mortgage was provided/sent to the attorney. Load the mortgage onto LIV. For IL,
send the original recorded mortgage to the attorney.
•
3

If recorded mortgage is not found: complete the K63 step, and add step K54, ATTY
NDS TO OBTAIN DOT/MTG.

Attorney: Once the K54 step is placed on the loan, this will authorize your office to obtain
the recorded mortgage from the county clerk’s office.

•

Once you have obtained the recorded mortgage, enter the actual date for the K54
step.

Reports:
Attorney – Attorney to Obtain Mortgage: Daily report of all loans where the K54 scheduled date is not null and
the K54 actual date is null. Alerts the attorney to obtain recorded mortgage from county clerk’s office (Action
Required).
***If the recorded mortgage was obtained by your office prior to the K54 step being added, you will
need to notate VendorScape or Desktop stating that the mortgage has been received/obtained and you
will need to complete the K54 actual date to ensure loan falls off of the report***

Missing Title Policy Process
**Please Note** The below process is not for title issues. If your office is handling a title issue, please follow
the procedures listed in the Title section of this manual.
TITLE POLICY NOT RECEIVED
STEP
1

ACTION
Attorney: If after the fifth business day of the referral date you have not received the title
policy, add log code TTLNRP in VendorScape, or add the Title Not Received in Referral
Package issue in Desktop. This can be done by selecting Issues from the Tool Menu and
selecting Add Issue.
•

2

3

This will add log code TTLNRP (TITLE WAS NOT RECEIVED IN REFERRAL
PACKAGE) to FOR2 in MSP, open and complete step Y85, ATTY REQ MISSING
TITLE POL, and open step K66, TITLE POLICY RESEARCH RQD, on FOR3 in
MSP

WFHM Default Docs Team: Research missing title policy as follows:

•

If title policy is found, complete the K66 step with the actual date the title policy was
provided/sent to the attorney. Load the title policy onto LIV.

•

If title policy is not found, complete the K66 step, and add step K67, ATTY NEEDS
TO OBTAIN TITLE.

Attorney: Once the K67 step is placed on the loan, this will authorize your office to obtain
the title policy directly from the title company.

•

Once you have obtained the title policy, enter the actual date for the K67 step.

TITLE POLICY INVALID OR ILLEGIBLE
STEP
1

ACTION
Attorney: If after the fifth business day of the referral date the title policy you received is
invalid or illegible, add log code TTLBAD in VendorScape or add the Invalid or Illegible Title
Received issue in Desktop. This can be done by selecting Issues from the Tool Menu and

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 19
064

813a

selecting Add Issue.
•

2

3

This will add log code TTLBAD (TITLE RECEIVED IS INVALID OR NOT
LEGIBLE) to FOR2 in MSP, open and complete step Y85, ATTY REQ MISSING
TITLE POL, and open step K66, TITLE POLICY RESEARCH RQD, on FOR3 in
MSP

WFHM Default Docs Team: Research missing title policy as follows:

•

If title policy is found, complete the K66 step with the actual date the title policy was
provided/sent to the attorney. Load the title policy onto LIV.

•

If title policy is not found, complete the K66 step, and add step K67, ATTY NEEDS
TO OBTAIN TITLE.

Attorney: Once the K67 step is placed on the loan, this will authorize your office to obtain
the title policy directly from the title company.

•

Once you have obtained the title policy, enter the actual date for the K67 step.

Reports:
Attorney – Attorney to Obtain Title Policy: Daily report of all loans where the K67 scheduled date is not null
and the K67 actual date is null. This report alerts the attorney to obtain title policy from the title company.
(Action Required).
***If the Title Policy was obtained by your office, you will need to notate VendorScape or Desktop
stating that the title policy has been received/obtained and you will need to complete the K67 actual
date to ensure loan falls off of the report***

Assignments
Please be advised that your office should NOT be foreclosing in the name of MERS.
•

Effective March 1, 2011, Wells Fargo Post Closing Final Documents team will be drafting assignments for
all delinquent MERS and Private Investor Loans. This will include any intervening assignments as well.

•

Attorney: As of 5/27/11, you are to no longer to prepare an Assignment of Mortgage (AOM) (regardless
of the referral date)

Follow these procedures:
STEP

ACTION

1

After pulling title and it is determined an assignment is needed, log on to MSP and review
MAS1/USR3, “FD AOM VALDIDTN” field (press F8 twice) and review the status of the
assignment.

2

If the field displays “0” “Assignment Not Needed”
WFHM has already reviewed the chain of title and an assignment is not needed. If your
office determines that an assignment is needed, please contact your liaison with the details
as to why an assignment is still needed.

3

If the field displays “1” “Assignment Process Started” or “2” “Assignment Sent to County for
Recording”
• Determine if you may proceed with foreclosure without the recorded assignment
• If you determine you are unable to proceed, email
FDAssignmentDesk@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 20
065

814a

o
o
o
o
o

o
•

•
•
•

Escalation in subject line of email
Loan #
Date the Assignment is needed by
Assignor and Assignee
If the assignment is required to be recorded prior to filing first legal, provide
physical mailing address (Street Address, no P.O . boxes) and executed
assignment will be sent via overnight mail
The specific department or contact person the assignment should be sent to

Add event Assignment Issue/Problem in VendorScape or go to the File Transfer
Form on the Tool Menu and launch the FC_DS_Assignment_Needed or
FC_IHR_Assignment_Needed or FC_IHNR_Assignment_Needed process in
Desktop and complete the DDF. Include the assignor and assignee information for
the needed assignment.
Once you receive the executed assignment, record the assignment with the county.
Retrieve the recorded assignment and complete the task Assignment Problem
Corrected in VendorScape or complete the Executed Assignment Received by
Attorney event in Desktop with the date the assignment was recorded.
Proceed with the foreclosure process. Adhere to the document handling process as
outlined in the Foreclosure Manual in regards to faxing a copy of the recorded
assignment to Wells Fargo (see Documents Obtained by your Office)

IMPORTANT: Document Handling ProcedureIf you currently are in possession of the original collateral file and related documents:
(1) Complete Appendix T-Assignment Cover Page indicating that you are in possession of
the Original AOM Document and will maintain it with the other original documents in the
Collateral file
(2) Submit a copy of the recorded AOM document along with completed, signed Appendix TAssignment Cover Page through Desktop
(3) File and maintain the AOM with the other collateral documents
(4) Return Original AOM along with other Original collateral documents to WFHM at the
completion, suspension or removal of the foreclosure action
If you are NOT in possession of the original collateral file and related documents
(1) Retain a copy of the recorded AOM and
(2) Return original, recorded AOM to the following address:
Wells Fargo Home Mortgage
Mac X9999-018
PO Box 1629
Minneapolis, MN 55440
Upon receipt by WFHM, the AOM will be imaged and shipped to document custody to be included
in the collateral file.
Adhere to the document handling process as outlined in the Foreclosure Manual in regards to
faxing a copy of the recorded assignment doc handling process may need to be reviewed and
altered based on the above change.
4

If the field displays “2” “Assignment sent to County for Recording”
•

If a copy of the executed assignment is needed, email
DocOrderingHMEC@wellsfargo.com and request a copy
o

Specify in the body of the email that you require a copy of the unrecorded

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 21
066

815a

executed assignment
•

If a recorded copy of the assignment is required to proceed with first legal or foreclosure
action email FDAssignmentDesk@wellsfargo.com and provide the following information:
o
o
o
o
o
o

Escalation in subject line of email
Loan #
Date the Assignment is needed by
Assignor and Assignee
Your physical mailing address (Street Address, no P.O. Boxes)
The specific department or contact person the assignment should be sent to

•

Add event Assignment Issue/Problem in VendorScape or go to the File Transfer
Form on the Tool Menu and launch the FC_DS_Assignment_Needed or
FC_IHR_Assignment_Needed or FC_IHNR_Assignment_Needed process in
Desktop and complete the DDF Includes the assignor and assignee information for
the needed assignment.

•

Retrieve the recorded assignment and complete the task Assignment Problem
Corrected in VendorScape or complete the Executed Assignment Received by
Attorney event in Desktop with the date the assignment was recorded.

•

Proceed with the foreclosure process. Adhere to the document handling process as
outlined in the Foreclosure Manual with regard to faxing a copy of the recorded
assignment to Wells Fargo (see Documents Obtained by your Office)

The original assignment that was previously sent will either be rejected or returned to Wells Fargo
or the county may record it. If recorded, there will not be any impact on the Attorney’s ability to
proceed with foreclosure action.
5

If the field displays “3” “Recorded Assignment received from County”
•

6

Email or send an intercom to your liaison and request a copy of the recorded
assignment (specify in the body of the email if you require a copy or the original is
required)

If the “FD AOM VADIDTN” field does not display a 1, 2, or 3
•

Add event Assignment Issue/Problem in VendorScape or go to the File Transfer
Form on the Tool Menu and launch the FC_DS_Assignment_Needed or
FC_IHR_Assignment_Needed or FC_IHNR_Assignment_Needed process in
Desktop and complete the DDF. Include the assignor and assignee information for
the needed assignment.

•

Retrieve the recorded assignment and complete the task Assignment Problem
Corrected in VendorScape or complete the Executed Assignment Received by
Attorney event in Desktop with the date the assignment was recorded.

•

Proceed with the foreclosure process. Adhere to the document handling process as
outlined in the Foreclosure Manual in regards to faxing a copy of the recorded
assignment to Wells Fargo (see Documents Obtained by your Office)

***This is only for escalated requests where Wells Fargo could face sanctions, miss a hearing, miss a
sale, or halt foreclosure completely if not corrected immediately***
WFHM Post Closing Team: Base the initial selection for assignment creation on loans that are >90
delinquent (or based on referral criteria set forth by the investor) and not yet referred to an attorney.
STEP
1

ACTION
Review the loan/chain of title to determine if an assignment is required

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 22
067

816a

2

Prepare Assignment and image a copy of the executed unrecorded assignment prior to
being submitted for recording in LIV (Loan Image Viewer)

3

Submit Assignment for recording to the county

4

Receive Recorded Assignment back from county and image a copy of the executed recorded
assignment upon receipt from the county in LIV

5

Track Assignment (3 Stages)
•

MSP: MAS1/USR3, “FD AOM VALDIDTN” field (Page 3, position 6, field 4C) with
one of the three valuables:
o

0=Assignment Not Needed

o

1=Assignment Process Started

o

2=Assignment Sent to County for Recording

o

3=Recorded Assignment received from County

Note: The FD Assignment Desk mail box will provide a 72 hour turn time for providing documents
back to the requested firm

Foreclosure Mail
STEP
1

2

ACTION
Attorney: Your office may receive documentation from the court pertaining to the foreclosure
action. Retain these documents and place in your archived file upon completion of the
foreclosure. See Appendix A for examples of unnecessary mail that does not need to be
sent.
•

Only send “critical documents” (Refer to Appendix A) to the appropriate department
within Wells Fargo or your liaison.

•

To expedite the handling of any documentation that is sent, please make sure that
the package is addressed appropriately. For the correct way to address the
envelope/package, refer to Appendix A.

Liaison: If you receive critical mail documents from the Attorney, consult with your manager.

Documents Obtained by your office
STEP
1

ACTION
Attorney: Any recorded mortgages, title policies, recorded assignments, Bailee letters, or
LNA, OBTAINED by your office on behalf of Wells Fargo, need to be faxed with the
following completed cover sheet directly to our imaging department at:
FAX: 877-816-0144

2

Please ensure that all of the information is submitted timely and that each document is faxed
with a separate cover sheet.

3

The original document should then be retained with the foreclosure file unless the loan is
reinstated.

4

If the loan is reinstated, please return the Original Note or LNA, and if applicable the original

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 23
068

817a

recorded mortgage, to the following address:
Wells Fargo Home Mortgage
Document Management
MAC X9999-01Q
2701 Wells Fargo Way
nd
2 Floor
Minneapolis, MN 55467-8000
Below is an actual fax cover sheet to be copied and used:
Firm Name on behalf of
Wells Fargo Home Mortgage
Default Doc Department

Date: ___________________________
# Pages Excluding Cover Sheet: ________________
Borrow Name: ___________________________________
Loan Number: ____________________________________
WFHM Client (Circle One) 106

472

591

685

708

936

Please image the attached document (one per cover sheet) on the above referenced
loan & corresponding image type:

_____ Note/LNA (03300)
_____ Bailee Letter (20070)
_____ Recorded Mortgage/DOT (03000)
_____ Recorded Assignments (00600)
_____ Title Policy (04700)
Please retain recorded document with the foreclosure file unless requested

eNote Procedures
What is an eMortgage?
An eMortgage is a mortgage for which the promissory note and possibly other documents are created and
stored electronically rather than by using traditional paper documentation that has a pen and ink signature.
What is an eNote?
An eNote is a promissory note or other promise by the borrower to repay a debt obligation that is in the form of
an electronic record and has been electronically signed by the borrower.
How do I know if I receive an eNote Foreclosure Referral?

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 24
069

818a

STEP

ACTION

1

You will need to go to the MAS1/USR4 screen in MSP and, F5, and look for an “ENOTE IND”
code that begins with the letter E. This code will tell you that this is an eNote loan.

2

In addition, upon the loan being referred to your office via VendorScape or Desktop, there
will be a notation that this referral is an eNote referral.

3

If e-note certification is needed, email DocOrderingHMEC@wellsfargo.com.

Origination File Requests/Pooling and Servicing Agreements
STEP
1

ACTION
Attorney: In the instance that your office is in need of an origination file or Pooling and
Servicing Agreement, please make your request through VendorScape by sending a
message to the Attorney-File Requests processor. Please include the following information:
•

Specific details as to whether a copy of the file or the original physical file is needed.

•

Shipping contact information including contact name and complete mailing address

•

**Please note** Only request Pooling and Servicing Agreements if required by
a Judge or for Discovery.

•

If a physical origination file is sent to your office, upon completion of review of the
file, please return to :
Wells Fargo Home Mortgage
Document Management
MAC X9999-01Q
2701 Wells Fargo Way
2nd Floor
Minneapolis, MN 55467-8000

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 25
070

819a

For Desktop Referrals, email request to DocOrderingHMEC@wellsfargo.com.

Collateral files Sent to Your Office
Attorney: Any collateral files that are sent to your office on behalf of Wells Fargo need to be returned to:

Wells Fargo Home Mortgage
Document Management
MAC X9999-01Q
2701 Wells Fargo Way
2nd Floor
Minneapolis, MN 55467-8000
Uploading Documents to VendorScape or Desktop

STEP

ACTION

1

Attorney: Any documents that your office obtains during the foreclosure process or submits
to court should be uploaded to VendorScape or Desktop

2

To upload documents in Desktop go to the Tool Menu

3

Select Add Docs

4

Select the appropriate document type, and browse the document ), including but not limited
to:
• Title Report
• Assignments
• Complaint
• Notice of Default
• Death Certificates
• Warranty Deed
• Quit Claim Deed

First Legal Action
The First Legal Action Date is the first public action required by law, such as filing a complaint or petition,
recording a notice of default, or publication of a notice of sale.
STEP
1

ACTION
Attorney: When the First Legal is filed, update the First Legal step (T01) with the actual date
of the filing.

2

If the First Legal is delayed, document a reason for the delay within VendorScape or Desktop
weekly.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 26
071

820a

FHA First Legal Delays
STEP
1

2

ACTION
Attorney: If your office is unable to complete the First Legal Action timely and
agency/investor guidelines will not be met on a FHA loans, send notice via VendorScape or
Desktop.
•

In Desktop, go to the Tool Menu, select Issues, and then Add Issue. For the Issue
Type, select “FC First Legal Date Unable to be Met,” then enter the projected end
date and provide the reason First Legal could not be met. The “FC HUD Extension
Needed” issue also needs to be raised stating the date the HUD cut date expires and
that a new one needs to be ordered.

•

In VendorScape, submit the notice through the Foreclosure FLAD queue and advise
the circumstances surrounding the delay.

•

The first legal action must be filed by the appropriate HUD deadline to avoid an
interest curtailment or no later than 30 days after referral in judicial states and 10
days after referral in non-judicial states, whichever comes first.

•

Your office will be held responsible for any financial penalty that is incurred as a
result of avoidable delays.

WFHM: Determine if the loan qualifies for a HUD extension and, if so, insert step P75, REQ
EXT FROM HUD, on the FOR3 screen within MSP.

•

Upon receipt of the response from HUD, insert either step P79, HUD APPROVED
EXTN, or step P80, HUD DENIED EXTN, and send notice to the Attorney via

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 27
072

821a

VendorScape or Desktop.

Reports:
Attorney – HUD Extension: A monthly report will be uploaded to VendorScape or Desktop of all loans where
we have requested a HUD extension and are awaiting a reply from HUD. (Reference)

First Legal Action Amended
STEP
1

ACTION
ST
Attorney: If the First Legal Action needs to be amended, add step D54, AMENDED 1
LEGAL ACTION on the FOR3 screen within MSP. Populate the actual date with the date the
amended First Legal Action was filed.
**Please Note** The required steps can be added through VendorScape. Under
st
Task, choose “Add” then “Production Task – Amended 1 Legal Action.” When
st
adding the event in VendorScape, the D54 – Amended 1 Legal Action will
automatically be placed into MSP.

2

For Desktop Referrals, go to the File Transfer Form on the Tool Menu and launch the
FC_Amended_First_Legal_Action_Direct_Source or
FC_Amended_First_Legal_Action_InHouse_Referred or
FC_Amended_First_Legal_Action_InHouse_Non_Referred process in Desktop and complete
the Amended First Legal Action step.
***Please Note***If your office has questions about the First Legal Action Date, raise
the FLAD issue. Select Issues from the Tool Menu, Add Issue, then select the “FC
FLAD” issue.

3

Activity: (To add more activities, press [Tab].)

Executables
Please ensure all social security numbers and financial account numbers are removed from any recorded
documents such as Substitution of Trustees, Assignments, Deeds, Affidavits, etc., prior to submitting them to
Wells Fargo for execution. In the event a document is sent that does include the loan number or mortgagor(s)
social security number, the document may be returned to you to make necessary corrections prior to
execution.
Please include the loan number and document name in the subject line as an identifier when you are
submitting executable requests to Doc Execution.

Judgment Figures Process
STEP
1

ACTION
Attorney: Forward Judgment Affidavit Figure Request, including (good through date) to
judgment.figures@wellsfargo.com, and enter log code FCJFR (FIGURES REQUESTED
FROM FORECLOSURE) in VendorScape.

2

WFHM Executable Team: Once request is received in mailbox, enter log code FCJFRR
(ATTORNEY REQUESTED JUDGEMENT FIGURES) in MSP.

•

To produce figures for the attorney, the processor will enter loan number and good

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 28
073

822a

through date provided by attorney into the automation tool. Judgment figures, once
generated, automatically will upload to the Attorney via VendorScape.
•

Once the figures have been generated and sent to Attorney, enter log code
FCJFGP (JUDGEMENT FIGURES PROVIDED TO ATTY) in MSP. There is a
turnaround time of three (3) business days for this process.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCJFR

FIGURES REQUESTED FROM FORECLOSURE (ATTY)

FCJFRR

ATTORNEY REQUESTED JUDGEMENT FIGURES
(WFHM)

FCJFGP

JUDGEMENT FIGURES PROVIDED TO ATTY (WFHM)

Judgment Affidavit Verification Process
STEP
1

2

ACTION
Attorney: Upon verification of the judgment figures provided to your office, send the
completed judgment affidavit to Wells Fargo Executable Area via email address,
Judgment.Affidavit@wellsfargo.com. Enter log code FCAFRQ (ATTORNEY SUBMIT
AFFIDAVIT FOR EXECUTION) in VendorScape.
WFHM Executable Team: Once request is received in mailbox, enter log code FCAFRC
(JUDGMENT AFFIDAVIT RECEIVED FROM ATTY) in MSP. Print affidavit and submit to
appropriate signor for final verification and execution of the affidavit.

•

The signor must verify the following:
o

Borrower’s Name

o

Property Address

o

Plaintiff Name/Foreclosing Entity

o

Principle Balance

o

Interest Amount

o

Late Charges

o

Tax Advances

o

Hazard Insurance Advance

o

Inspections

o

Broker's Price Opinion (BPO)/Appraisals

o

MIP/PMI Advance

o

Corporate Advance

o

Property Preservation

o

Suspense Credit

o

Escrow Advance

**Please Note**: Depending on state regulations, the attorney will
determine what figures will be included in the affidavit.
•

Once verified, the affidavit must be executed in the presence of a notary. Completed

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 29
074

823a

affidavit is returned to the requesting Attorney via overnight delivery. Enter log code
AASFCA (APPROVED AND SIGNED AFFIDAVIT MAILED TO ATTY) and tracking
number in MSP. There is a turnaround time of ten (10) business days for this
process, provided all supporting documentation is available at time of execution.
The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

3

Comments

FCAFRQ

ATTORNEY SUBMIT AFFIDAVIT FOR EXECUTION
(ATTY)

FCAFRC

JUDGMENT AFFIDAVIT RECEIVED FROM ATTY
(WFHM)

AASFCA

APPROVED AND SIGNED AFFIDAVIT MAILED TO ATTY
(WFHM)

Attorney: Once the judgment affidavit is received by your office, review the affidavit for
accuracy. Enter the log code FCAARA (ATTY ACKNOWLEDGED RECEIPT OF
AFFIDAVIT). To enter the log code in Desktop, select Add Note from the Tool Menu then
select Note Type Foreclosure and enter the log code in the MSP log code field.
•

When the judgment affidavit is sent to court, enter the Judgment AffidavitREVISED sent to court task in VendorScape.

Note: Until this task is mapped from VendorScape or Desktop to MSP, please complete
the step 810 (JDGMT AFF SENT TO COURT) manually in MSP or contact your
foreclosure processor.
•

4

When the affidavit is filed, complete the Judgment Affidavit Acknowledged by
Court task in VendorScape. Upload a copy of the Affidavit along with all documents
filed with the affidavit to VendorScape using the Affidavit – Revised document type
(see the following instructions to set up the VendorScape task). For Desktop, go to
the Tool Menu, Add Docs, and the upload as AFFIDAVIT.

Attorney: If the judgment affidavit is executed by your office, follow the below procedure:
•

When the judgment affidavit is sent to court, enter the Judgment AffidavitREVISED sent to court task in VendorScape.

**Please note** Until this task is mapped from VendorScape or Desktop to MSP, please
complete the step 810 (JDGMT AFF SENT TO COURT) manually in MSP or contact
your foreclosure processor.
•

5

When the affidavit is filed, complete the Judgment Affidavit Acknowledged by
Court task in VendorScape. Upload a copy of the affidavit with all documents filed
with it to VendorScape using the Affidavit – Revised document type (see attached
instructions to setup the VendorScape task). For Desktop, go to the Tool Menu, Add
Docs, and the upload as AFFIDAVIT.

Attorney: Your office is responsible for following up on the affidavits by reviewing the FOR2
screen in MSP for the log code AASFCA. If you have not received the affidavit after 10
business days, please send a status request email to Judgment.Affidavit@wellsfargo.com.
Status request emails should include the following:
In the subject line, please use the following wording:
• Status Request for loan number __________
In the body of the email, please use the following wording:
•

Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 30
075

824a

Non-Figure Affidavit Process
STEP
1

ACTION
Attorney: Send affidavits to Wells Fargo Executable Area via email address,
doc.execution@wellsfargo.com. Enter log code FCAFRQ (ATTORNEY SUBMIT
AFFIDAVIT FOR EXECUTION) in VendorScape or Desktop to notify them that your office
has sent the affidavit for execution. To enter the log code in Desktop, select Add Note from
the Tool Menu then select Note Type Foreclosure and enter the log code in the MSP log
code field.
•

2

Your office is responsible for the accuracy of the affidavits. The affidavits should
have no blank spaces other than the signature for the Executable Team to complete.

WFHM Executable Team:

Once verified, the affidavit must be executed in the presence of a notary. Enter log code
FCNFDS (NON-FIGURE DOCUMENT SIGNED) in MSP.
Completed affidavit is returned to the requesting attorney via overnight mail. Enter log code
FCAFRT (SIGNED AND RETURNED AFFIDAVIT TO ATTY) and tracking number in MSP.
There is a turnaround time of 10 business days for this process, provided all supporting
documentation is available at time of execution.
Once affidavit has been completed, enter in MSP and overnight affidavit to attorney.
3

Attorney: Your office is responsible for following up on the affidavits, by reviewing FOR2 for
the log code FCAFRT. If you have not received the affidavit after 10 business days, send a
status request to doc.execution@wellsfargo.com. Status request emails should include the
following:
In the subject line, please use the following wording:
• Status Request for loan number __________
In the body of the email, please use the following wording:
•

Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCAFRQ

ATTORNEY SUBMIT AFFIDAVIT FOR EXECUTION (ATTY)

FCNFDS

NON-FIGURE DOCUMENT SIGNED

FCAFRT

SIGNED AND RETURNED AFFIDAVIT TO ATTY (WFHM)

Substitution of Trustee (SOT)
STEP
1

ACTION
Attorney: In order to prove that Wells Fargo has standing in order to initiate a foreclosure
action on a loan, the following new requirements are now in effect:
•

Endorsements
o All SOT’s must have a correctly endorsed note

•

Assignments (see Assignments for validating if an assignment is in progress)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 31
076

825a

o
o
o

2

3

All MERS accounts must have executed assignments, the Substitution of
Trustee (SOT) can be signed prior to it being recorded
All Non-MERS accounts must have an executed assignment based on the
state requirements. The SOT can be signed prior to it being recorded.
If the SOT references an assignment within the document the properly
executed assignment must be obtained

• Recorded Deed of Trust or Mortgage
Files needing a corrected endorsement or assignment will not follow the Wells Fargo policy
of returning exception files to the Attorney after 48 hours. These files will be held with Wells
Fargo until the follow-up actions are completed to get the corrected documents.
Files missing the Recorded Deed of Trust or Mortgage will be halted for 40 hours.
Documentation not received within the 48-hour timeframe will be stopped, and the Attorney
will be required to resubmit the SOT with appropriate documentation.
Attorney: Forward Substitution of Trustee (SOT) documents to Wells Fargo Executable
Area via email address (SOTDOC@wellsfargo.com). Enter log code FCSOTW (SOT SENT
TO WF) in VendorScape or Desktop to notify them that your office has sent the SOT for
execution. To enter the log code in Desktop, select Add Note from the Tool Menu then
select Note Type Foreclosure and enter the log code in the MSP log code field.
WFHM Executable Team:

•

Once verified, the SOT must be executed in the presence of a notary. Enter log
code FCDSRP (SOT SIGNED)

Completed SOT is returned to the requesting attorney via overnight delivery. Enter log code
FCSOTD (FORWARDED COMPLETED SOT TO ATTY) and tracking number in MSP.
There is a turnaround time of 10 business days for this process, provided all supporting
documentation is available at time of execution.
4

Attorney: Your office is responsible for following up on the Substitution of Trustee, by
reviewing FOR2 for the log code FCSOTD. If you have not received the SOT after 10
business days, send a status request to SOTDOC@wellsfargo.com. Status request emails
should include the following:

In the subject line, please use the following working:
•

Status Request for loan number __________

In the body of the email, please use the following working:
•

Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCSOTW

SOT SENT TO WF (ATTY)

FCDSRP

SOT SIGNED (WFHM)

FCSOTD

FORWARDED COMPLETED SOT TO ATTY (WFHM)

Deeds
STEP
1

ACTION
Attorney: Forward deeds to Wells Fargo Executable Area via the following email address:
Deeddoc@wellsfargo.com. Enter log code FCDDWF (DEED SENT TO WF) in

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 32
077

826a

VendorScape or Desktop to notify it that your office has sent the deed for execution. To
enter the log code in Desktop, select Add Note from the Tool Menu then select Note Type
Foreclosure and enter the log code in the MSP log code field.

2

3

•

All executable documents must be in a Word doc format. PDF formats will be
returned unexecuted.

•

Only send one attachment per email. All special instructions must be in the
coversheet of the Deed.

•

Your office is responsible for uploading supporting documents (i.e., Recorded
Deed of Trust or Mortgage) to VendorScape.

WFHM Executable Team:

•

Once verified, the deed must be executed in the presence of a notary. Enter log
code DDSGEX (DEED SIGNED AND EXECUTED) to MSP.

•

Completed deed is returned to the requesting Attorney via overnight delivery. Enter
log code FCDEEA (EXECUTED DEED MAILED TO ATTORNEY) and tracking
number in MSP. There is a turnaround time of 10 business days for this process.

Attorney: Your office is responsible for following up on the deed, by reviewing FOR2 for the
log code FCDEEA. If they not received the deed after 10 business days, send a status
request to DeedDoc@wellsfargo.com. Status request emails should include the following:

In the subject line, please use the following wording:
•

Status Request for loan number __________

In the body of the email, please use the following wording:
•

Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCDDWF

DEED SENT TO WF (ATTORNEY)

DDSGEX

DEED SIGNED AND EXECUTED (WFHM)

FCDEEA

EXECUTED DEED MAILED TO ATTORNEY (WFHM)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 33
078

827a

Assignment of Bid
STEP
1

2

3

ACTION
Attorney: Forward assignments of bid to Wells Fargo Executable Area via email address,
Doc.Execution@wellsfargo.com. Enter log code FCABWF (ASSIGNMENT OF BID SENT
TO WF) in VendorScape or Desktop to notify it that your office has sent the assignment of
bid for execution. To enter the log code in Desktop, select Add Note from the Tool Menu
then select Note Type Foreclosure and enter the log code in the MSP log code field.
WFHM Executable Team:

•

Once verified, the assignment of bid must be executed in the presence of a notary.
Enter log code FCNFDS (NON-FIGURE DOCUMENT SIGNED) in MSP.

•

Completed assignment of bid is returned to the requesting attorney via overnight
delivery. Enter log code FCAFRT (SIGNED AND RETURNED AFFIDAVIT TO
ATTY) and tracking number in MSP. There is a turnaround time of 10 business days
for this process.

Attorney: Your office is responsible for following up on the assignment of bid, by reviewing
FOR2 for the log code FCAFRT. If they not received the assignment of bid after 10
business days, send a status request to doc.execution@wellsfargo.com. Status request
emails should include the following:

In the subject line, please use the following wording:
•

Status Request for loan number __________

In the body of the email, please use the following wording:
•

Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCABWF

ASSIGNMENT OF BID SENT TO WF (ATTY)

FCNFDS

NON-FIGURE DOCUMENT SIGNED

FCAFRT

SIGNED AND RETURNED AFFIDAVIT TO ATTY (WFHM)

Rescission Documents
If your office requires Wells Fargo to execute documents to process the Rescission of the foreclosure sale,
please do the following:
STEP
1

ACTION
In the subject please place “Notice of Rescission” in the beginning of the Subject Line of
the email
Please send the document to doc.execution@wellsfargo.com

2
NOTE: Failure to do both items mentioned above will delay in the execution of the rescission document
required.
If the document has not been received after 30 calendar days, the escalation is as follows:
STEP

ACTION

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 34
079

828a

1

2

3

Please review the system notes to see if the document has already been sent out:
• FCAFRT – Signed and returned affidavit to Attorney
• FCDEEA – Executed Deed mailed to Attorney
nd
If this log code does not exist in the system, please place “2 request” in the subject line in
front of the “Notice of Rescission”
• Example: “2nd Request – Notice of Rescission - Client#/Loan#”
Please USE the original email with the original date sent to doc.execution@wellsfargo.com
along with the attached document that needs to be executed.

Failure to do so will result in push back of the email request, requesting proof of original submission that could
delay the request.

Miscellaneous Documents
STEP
1

ACTION
Attorney: Forward miscellaneous documents to the Wells Fargo Executable Area via the
following email address: doc.execution@wellsfargo.com. You are not responsible for
entering a log code.

2

WFHM Executable Team:

3

•

Once verified, the document must be executed in the presence of a notary. Enter
log code FCNFDS (NON-FIGURE DOCUMENT SIGNED) in MSP.

•

Completed document is returned to the requesting Attorney via overnight delivery.
Enter log code FCAFRT (SIGNED AND RETURNED AFFIDAVIT TO ATTY) and
tracking number in MSP. There is a turnaround time of 10 business days for this
process.

Attorney: Your office is responsible for following up on the documents by reviewing FOR2
for the log code FCAFRT. If they not received the document after 10 business days, send a
status request to doc.execution@wellsfargo.com. Status request emails should include the
following:

In the subject line, please use the following wording:
1. Status Request for loan number __________
In the body of the email, please use the following wording:
2. Original request sent on __(date)__to the ________email box.
The reason for the request is __________________________.

The following Log Codes will be utilized for the judgment affidavit figures process:
Log Codes

Comments

FCNFDS

NON-FIGURE DOCUMENT SIGNED

FCAFRT

SIGNED AND RETURNED AFFIDAVIT TO ATTY
(WFHM)

FCDOCA

DOC REQUEST EXECUTED AND FORWARDED TO
ATTY (WFHM)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 35
080

829a

Executable Document Delaying Tracking
If you are pending an executable document that does not already have a step assigned to it (i.e.,.
assignments), utilize the following procedure:
In Desktop, the Client Document Execution issue needs to be raised.
STEP

ACTION

1

Go to the Tool Menu

2

Select Issues

3

Add Issue

4

For the Issue Type, select “FC Client Document Execution”

5

Enter the projected end date

6

Provide a description of what document is being sent for execution

Currently, the below steps have to be entered manually in both Vendorscape and Desktop:
667

Executable Doc Delay

668

Executable Doc End

STEP

ACTION

1

The 667 needs to be added to MSP on the FOR3 and completed with the actual date the
delay started.

2

The 668 needs to be added to MSP on the FOR3 screen with the actual date remaining open
until the delay has ended.

3

Once the delay has ended, complete the actual date of the 668 with the actual date the delay
ended.

Judgment
STEP

ACTION

1

Attorney: Upon receipt of the e-filed judgment affidavit, your office will update the actual
date for step T14, JUDGM ENTERED/GRANTED, on FOR3 with the filing date of the
judgment.

2

In Desktop, complete the DDF attached to the Judgment Entered/Granted step

3

Complete the step with the filing date of the judgment

Motion for Summary Judgment (MSJ)
**Please note** If you are following the MSJ process as standard practice, do not add the Contested
Foreclosure event in VendorScape or Desktop or the correlating steps. If the file is truly contested, please see
the Contested Files section of this manual.
STEP

ACTION

1

Attorney: When an MSJ is filed, your office will add the D85, MSJ FILED, steps to the FOR3
screen in MSP, and populate the actual date with the date the motion for summary judgment

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 36
081

830a

2

was filed
Add the T17 step, ATTY SCHD SUMMARY JU, and populate the actual date with the date
for which the Summary Hearing is scheduled. If the hearing date is changed, update the
actual date with the new scheduled hearing date.

3

If the Motion for Summary Judgment (MSJ) is granted, your office will add the D86 (MSJ
GRANTED) step to the FOR3 screen within MSP and populate the actual date with the date
it was granted. Within Desktop, complete the MSJ Hearing Held step, and select “Yes” in the
DDF.

4

If the MSJ is denied, insert step E30, MSJ DENIED/SENT TO DOS, and follow the
procedures outlined in the Litigation section of this manual to submit the loan to the DOS
Team at Wells Fargo. In Desktop, complete the MSJ Hearing Held step and select “No” in
the DDF.
**Please Note** The required steps can be added through VendorScape.
Under Task, choose “Add” then “Production Task – Motion for Summary Judgment Granted.”
When adding the event in VendorScape the D86 – MSJ Granted will automatically be placed
into MSP.
Under Task, choose “Add”, and then “Production Task – Motion For Summary Judgment
Denied.” When adding the event in VendorScape the E30 – MSJ Denied/Sent to DOS will
automatically be placed into MSP.
For Desktop referrals, go to the File Transfer Form on the Tool Menu and add the
FC_MSJ_Direct_Source process or FC_MSJ_InHouse_Referred process or
FC_MSJ_InHouse_Non_Referred process.
Complete the Motion For Summary Judgment Filed DDF and enter the completed date. This
will update the D85 step in MSP.

Reports:
Liaison – MSJ Follow Up Report: Daily list of loans where the Attorney has filed MSJ and the hearing date has
not been set. Liaison is to monitor until the hearing date has been scheduled. Once the T17 step ATTY SCHD
SUMMARY JU actual date has been populated, the loan falls off the report.
Liaison – MSJ Pending Report: The daily list of loans for which the attorney has filed a MSJ that has not yet
been granted or denied. The liaison is to monitor until the MSJ is granted, or denied. Once the loan is coded
as granted or denied, it falls off the report. If denied, the attorney contacts Default Operations Support.

Judgment Amended
STEP
1

2

ACTION
Attorney: If your office determines judgment needs to be amended due to additional
disbursements, add step D95 (REQUEST TO AMEND JUDGMENT) on the MSP FOR3
screen. The actual date will be populated with the date the amended judgment was sent out
to the court.

In Desktop, if your office needs to request any funds that have been disbursed since
judgment so you are able to amend the judgment to proceed to sale, raise the Additional
Sums Disbursed Issue. Select Issues from the Tool Menu, add issue, then select the “FC
Additional Sums Disbursed” issue. Enter the expected end date and provide a description of
the issue.
**Please Note** The required steps can be added through VendorScape.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 37
082

831a

Under Task, choose “Add” then “Production Task – Judgment Amended.” When adding the
event in VendorScape the D95 – Judgment Amended automatically will be placed into MSP.
3

For Desktop referrals, go to the File Transfer Form on the Tool Menu

4

Launch the FC_Amended_Judgment_Direct_Source or
FC_Amended_Judgment_InHouse_Referred or
FC_Amended_Judgment_InHouse_Non_Referred process

5

Complete the DDF

6

Place a note in VendorScape or Desktop documenting the original judgment amount and the
new judgment amount. Your office is required to obtain Wells Fargo’s approval to amend
judgment.

7

Liaison: You will be responsible for working the Amended Judgment report daily and
inserting either step E98, AMENDED JUDGMENT REQ GRANTED, to approved amending
judgment, or step E99, AMENDED JUDGMENT REQ DENIED, to deny.

8

Attorney: Please escalate on a case-to-case basis to the WFHM Foreclosure Supervisor in
the event you are advised not to amend judgment, but believe it would be in the best interest
of Wells Fargo to do so.

Reports:
Over-allowable Fee Approval Processor – Amended Judgment Request: List of loans where the Attorney
has entered an actual date for step D95 and step E98 or step E99 is null. Provides a list of loans where the
Attorney has asked for permission to amend judgment and permission has not been granted or denied. (Action
Required)

BPO/Appraisal Ordering and Bidding
Non FHLMC/VA-Requesting a Copy of the BPO
If your office is in need of a copy of the Current BPO or a BPO needs to be ordered, raise the Appraisal/BPO
Needed issue.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Select Add Issue

3

Choose the “FC Appraisal/BPO Needed” issue

4

Enter the expected end date

5

Enter a description as to whether a copy of the current BPO is needed or if a BPO needs to
be ordered.

FHLMC Designated BPO Ordering Process
**Please Note**: This section only applies to FHLMC Designated Counsel. If your office is not FHLMC Designated
Counsel, you are not responsible for ordering BPO for FHLMC.
**Please Note** FHLMC requires that a BPO be ordered on all loans prior to sale.
STEP
1

ACTION
Attorney: To ensure adequate bid, FHLMC Designated counsel will complete the following
steps:

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 38
083

832a

2

45 days prior to sale order BPO through BPO direct
**Please note** If a sale can be set within 45 days of referral, order the appraisal at the
time of referral.

3

Input Z47, FHLMC BPO ORDERED, step with actual date at time of order.

4

Follow up with BPO direct 10 days after placing order to ensure completion

5

Once completed, insert the Z19, ATTORNEY RECEIVED BPO, step, and complete with the
actual date.
**Please Note** The required steps can be added through VendorScape.
Under Task, choose “Add” then “Production Task – FHLMC BPO Ordered.” When adding the
event in VendorScape the Z47 – FHLMC BPO Ordered automatically will be placed into MSP.
Under Task, choose “Add,” then “Production Task – BPO Received.” When adding the event in
VendorScape, the Z19 – FHLMC BPO Received automatically will be placed into MSP.
For Desktop Referrals, complete the Attorney Ordered BPO event in the FC_FM_BPO Ordered
process after ordering the BPO. Once the BPO is received, complete the Attorney Received
BPO event.

6

7

WFHM: Complete the following:

•

BPO will be received from BPO direct via email.

•

Update the value on MSP It is your responsibility to follow FHLMC’s requirements for
ordering the BPO prior to the scheduled sale date.

Attorney: If a previously FHLMC designated loan falls out of the designated process, insert step
N99, FHLMC NO LONGER DESIGNATED, on FOR3 in MSP. This will notify WFHM to
complete the bid as normal.

**Please Note** The required steps can be added through VendorScape.
8

Under Task, choose “Add” then “Production Task – FHLMC No Longer Designated.” When
adding the event in VendorScape the N99 –FHLMC No Longer Designated automatically will be
placed into MSP.

9

In Desktop, raise the Loan No Longer in FHLMC Designated Program issue. Select Issues from
the Tool Menu

10

Select Add Issue

11

Choose the “FC Loan No Longer in FHLMC Designated Program” issue. This will map the N99
step and update the bidding process.
WFHM: Complete and issue the bid 5 days prior to sale

12
Reports

Attorney – Attorney Ordered BPO/Appraisal: Weekly report of all loans where the BPO has been ordered but
not yet received. (Action Required)
Compliance – BPO Ordered, Not Received: Weekly report of all loans where the Z17 step has an actual date
and there is no Z19 or U09 step actual date and it has been more than 10 days. (Action Required)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 39
084

833a

VA Appraisal Ordering Process
Attorney: Please see Appendix P for the step by step process for ordering the VA appraisal
Reports
Attorney – Attorney Ordered BPO/Appraisal: Weekly report of all loans where the BPO/Appraisal has been
ordered but not yet received. (Action Required)
Liaison – BPO Ordered, Not Received: Weekly report of all loans where the U18 step has an actual date and
there is no Z19 or U09 step actual date and it has been more than 10 days. (Action Required)

Bids
**Please Note** If the foreclosure sale date is changed for any reason, a new bid is required, whether the bid
was a specified bid or a total debt bid. If multiple bids are present, use the most recent bid.
If you receive a bid with competitive language and the state the property resides in does not allow competitive
bidding or there is an additional cost associated with bidding competitively, please contact Nikki Cureton at
curen01@wellsfargo.com for further instructions.
STEP
1

ACTION
If Hazard Claims has determined that a bid amount needs to be reduced, the bidding team at
Wells Fargo will factor that reduction into the instructions provided. However, If your firm is
responsible for preparing the bidding instructions and you will be bidding total debt, ensure
that the reduction amount already is not included in restricted escrow on the payoff figures.
If it is not, reduce the total debt by the reduction amount.
Note: If your firm is not responsible for preparing bidding instructions, no one at your firm
should alter any bidding instructions.

2

Attorney: Your office is responsible for creating bids in the following situation:

•

FHLMC Uninsured Designated Counsel (No Mortgage Insurance): Follow the
FHLMC guidelines in issuance of bid. This should be completed 5 business days
prior to sale. Prior to issuing a bid, the Attorney must check the MIP1 screen to
ensure there is no Mortgage Insurance (MI) coverage on the loan. Primary MI
coverage would be located under Payee on the left side of the screen, and any Pool
MI coverage would be found on the right side of the screen. If Primary or Pool MI
information is present, the bid will be prepared by Wells Fargo. If Wells Fargo
provides a bid, the Attorney must follow that bid.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 40
085

834a

•

3

Insert step N36, ATTORNEY COMPLETES BID, with actual date of issuance of bid.

FHA: Effective 11/5/2011, bidding instructions will be prepared and provided by Wells Fargo
Home Mortgage.
4

WFHM: Bid Automation will attempt to complete the bid 14 days prior to the foreclosure sale for all
other loan types except Wells Fargo Financial and Wells Fargo Home Equity Loans.

Reports:
Attorney – FHA Bids: Daily report of all FHA loans with a sale scheduled within the next 14 business days and
the U31 and N36 actual dates are null. Alerts Attorney to complete bid (the 14 days allows for your firm to be
proactive in completing bid - Action Required).
Attorney – FHLMC Designated Bid Report: Provides FHLMC designated Attorneys with a weekly list of
FHLMC loans where the sale is within the next 14 business days and a bid is required (the 14 days allows for
your firm to be proactive in completing bid). (Action Required)
Liaison – FHA Bids: Daily list of FHA loans where the sale is scheduled within the next 14 business days and
the U31 and N36 (Send Bid Instructions to Attorney) for FHA loans has not been updated (Action Required)
Liaison – FHLMC Designated Bids: Daily list of FHLMC loans where the sale is scheduled within the next 14
business days and the U31 and N36 (Send Bid Instruction to Attorney) for FHLMC loans has not been updated
(Action Required)

Escalated Bids
STEP

ACTION

1

Attorney: If you need a bid within the next 48 hours under the following circumstances, send
a message via VendorScape to Escalated Bids. In Desktop, the loan automatically will be
sent to the FC Escalated Bid queue if the bid is not received within 48 hours of the scheduled
sale date.
Otherwise, go to the File Transfer Form on the Tool Menu, add the
FC_Escalated_Bid_Direct_Source or FC_Escalated_Bid_InHouse_Referred or

2

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 41
086

835a

FC_Escalated_Bid_InHouse_Non_Referred process, and complete the Escalated Bid
Request event.

3

•

The sale is going to be cancelled, postponed, or adjourned within 48 hours because
your office has not received the bid.

•

If during the pre-sale review, you discover advances were made since the initial bid
was sent and the sale is within 48 hours.

•

If you have other questions that do not meet these criteria, email one of the below
escalated contacts:
o

Johnnie Timm- Johnnie.Timm@wellsfargo.com

o

Katie Morris- Katie.Morris@wellsfargo.com

o

Jodilynn Sobotta- Jodilynn.Sobotta@wellsfargo.com

Attorney: The following bids are not handled by the foreclosure bidding team. Do not
contact the Escalated Bid queue or launch the FC_Escalated_Bid_Direct_Source or
FC_Escalated_Bid_InHouse_Referred or FC_Escalated_Bid_InHouse_Non_Referred
process in the following circumstances:

•
•
•

Wells Fargo Financial: contact Ashleigh Jackson at
Ashleigh.J.Jackson@wellsfargo.com
Wells Fargo Home Equity Loans: contact Nathan Remington at
Nathan.Remington@wellsfargo.com
FHLMC Uninsured Designated Counsel Loans: foreclosure counsel should
prepare the bid

In Desktop, if your office has questions surrounding a bid, the Escalated Bid issue needs to be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3

Select the “FC Escalated Bid” issue

4
Enter the expected end date and the questions needing to be addressed
***Please note***If the bid has not been received and the sale is within 24 hours, the Escalated Bid
issue is not able to be launched.

VA 567 Form
This form will no longer be used for our files. Upon receipt of the VA Bid-complete this step.

Pre-Sale Loan Review
Your office is required to review all loans prior to sale to ensure Wells Fargo is able to proceed to sale. It is
very important that you review each loan to make sure we have marketable title and to prevent rescissions.
This review is required ONE WEEK prior to the sale AND AGAIN WITHIN 24 HOURS of the sale.
Attorney: When each review is completed, if we can proceed to the foreclosure sale, enter log code FCRVSL
(REVIEWED LOAN FOR SALE) in VendorScape or Desktop. To enter the log code in Desktop:
STEP
1

ACTION
Select Add Note from the Tool Menu

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 42
087

836a

2

Select Note Type Foreclosure

3

Enter the log code in the MSP log code field

Attorney: When each review is completed, if we cannot go to sale,
STEP

ACTION

1

Notify the Wells Fargo Liaison immediately
Enter the log code FCNESL (LOAN NOT ELIG FOR SALE) in VendorScape or Desktop

2
3

As soon as the issue that was preventing the file from proceeding to sale is resolved, enter
the Log Code FCRVSL (REVIEWED LOAN FOR SALE)

4

To enter the log code in Desktop, select Add Note from the Tool Menu

5

Select Note Type Foreclosure

6

Enter the log code in the MSP log code field

**Please Note** A log code must be entered at the time of each review and the FCRVSL log code is
required before the sale is held.
The below are required to review during the pre-sale review:

Payments/P309
STEP
1

ACTION
Attorney: Review P309 for payments that have been applied since the loan was referred
(U01 Actual Date).
•

Confirm on DLQ1 that the “Due Date” is greater than 90 days delinquent and that
there is no suspense balance.
o

If, per your state guidelines, the suspense balance needs to be returned
prior to sale, contact the cash area at FCApplication@wellsfargo.com.
Please note: that this email address should only be used for suspense
request 24 hours prior to sale.

Bankruptcy
STEP
1

ACTION
Attorney: Check Pacer for any bankruptcy filings that would prevent us from going to sale perform within 24 hours of the foreclosure sale.

•

If a bankruptcy has been filed, follow the procedures for notifying the bankruptcy
department located in the Bankruptcy section of this manual.

Insurance Claim/Property Damage
STEP
1

ACTION
Attorney: Review the TSK2 screen and make sure there are no open insurance or property
preservation issues. Insurance or property preservation issue can be identified by the task
codes listed on the next page.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 43
088

837a

Task ID
DLDDEF
DLDFNL
DLDHLF
DLDLGF
DLDLOS
DMGFMR
DMGMS2
DMGMSI
DOS014
DOS600
FMLVCO
PNPCDM
PNPDEM
PNPDIS
PNPDMG
PNPFIL
PNPMLD
PNPMTH
PNPQCM
PNPREF
PNPRUT
PNPSU2
PNPSUP
PNPVIO
SOS005
VIOCDM
VIOCRG
VIODEM
VIOFTD
VIOMTH
VIOPNT
VIORDL
VIOUGR
VIOPAC
VIORCV

•

If there is an insurance claim or damaged property task open, contact the Wells
Fargo Liaison to see if we can go to sale.

•

If we can go to sale, ask the Wells Fargo Liaison if our bidding will be affected.
Sometimes Wells Fargo receives insurance proceeds and this amount will be
deducted from a total debt bid.

•

Look at the HAZN screen to see if there are any insurance issues or claim filed.

Description
Default Property Claim Funds
100% Inspection Request
50% Inspection Request
LA Grant Program Final Disburs
Internal Loss Draft Follow-Up
FHLMC Distressed Property
Insurance claim assigned to MSI (Non Big 6 type of damages)
Insurance claim assigned to MSI (Big 6 type of damages)
City Code Violations-DOS
Title Claim Policy Limits
FHLMC charge off review
Condemned Property
Demolition Notice Received
Disaster Inspection
DMG Prop in PP DMG Code
Insurance claim filed by the mortgagor.
Mold Abatement Tracking
Meth Lab
Insurance claim assigned to Quality Claims Management
Property had sustained more than $2,000 in property damages.
Insurance claims for the Rutledge Law Firm
Insurance claim assigned to Superior Home Services (Non Big 6 type of damages)
Insurance claim assigned to Superior Home Services (Big 6 type of damages)
General violation
Condemn/Eminent Domain-SOS
Condemnation
Charge Off
Demolition
Fast Track Demolition
Meth Lab/Drug House
Lead Paint Violation
Unfinished Remodel
Code Upgrades Required
Pennsylvania Conservatorship
Receivership Active

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 44
089

838a

Title Claims
STEP
1

ACTION
Attorney: Review the TSK2 screen and make sure there are no open title claims. Title
claims can be identified by the following task codes on TSK2.

•

Ensure that Wells Fargo has marketable title prior to going to sale.

•

Enter the “actual” date for step U99, FINAL TITLE CLEAR, on FOR3.
**Please Note** The required step can be completed through VendorScape. This

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 45
090

839a

step is part of the Foreclosure template, however the actual date can be completed
in VendorScape. Under Task, choose “Add,” then “Production Task – Final Title
Clear.” When adding the event in VendorScape the U99 – Final Title Clear and
entering the actual date, it automatically will be updated in MSP.
For Desktop, complete the Final Title Clear event.
•

If title is not cleared, your office will need to contact the Liaison and provide
explanation via VendorScape or Desktop.

Soldier and Sailor Civil Relief Act
STEP
1

ACTION
Attorney: Your office is required to confirm the borrower’s military status for every loan
referred/transferred to your office, by checking the DOD website, a minimum of two times
throughout the foreclosure process:
•

Immediately (within 24 hours) upon receipt of the foreclosure referral/ file transfer to
your office

•

24 business hours prior to the day of sale

2

Attorney: To complete the review, follow the below process:

3

Review the DOD website (the review is only required for mortgagors that are on the Note)
Upload a copy of the DOD website results to VendorScape or Desktop (A minimum of two times,
as indicated above). The DOD results need to have the mortgagor’s social security number
blacked out before uploading to Desktop (the last four of the SSN is acceptable to remain).
In Desktop, select Add Docs from the Tool Menu and upload under Department of Defense. In
VendorScape, this should be done by completing the corresponding DOD task for the review in
which you are completing (the task will prompt you to upload the DOD results):

4

•

Department of Defense-File Received

•

Department of Defense-24 Hour Presale Check

If the borrower is NOT on Active Duty, or has NOT been discharged within the last 12
months, perform the following:
Enter the FCLDOD (DOD WEBSITE VERIFIED CONFIRMED MILITARY STATUS) log code
on the FOR2 screen in MSP or in Desktop. To enter the log code in Desktop, select Add
Note from the Tool Menu then select Note Type Foreclosure and enter the log code in the
MSP log code field.

5

If the borrower is on Active Duty
•

6

Enter log code FCLD01 on FOR2 in MSP or in Desktop. To enter the log code in
Desktop, select Add Note from the Tool Menu then select Note Type Foreclosure
and enter the log code in the MSP log code field.
If the borrower is not Active duty BUT was discharged within the last 12 months
•

7

Enter log code FCLD02 on FOR2 in MSP or in Desktop. To enter the log code in
Desktop, select Add Note from the Tool Menu then select Note Type Foreclosure
and enter the log code in the MSP log code field.

If the DOD website is showing active duty, discharged within the last 12 months, or if
communication is received advising mortgagor may be on active duty, send an email to
smcra@wellsfargo.com and open an issue in Desktop, or place the file on hold in
VendorScape stating the file needs to be placed on hold for Soldiers and Sailors Relief Act or

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 46
091

840a

HERA.
•

Email Subject Line to include: (Client, Loan Number, SCRA)

•

Body of email to include: If documentation from DOD website: Upload a copy of the
supporting information received from the DOD website. If communication is received,
provide the following: Name, Phone Number, and Email Address of the person who
provided the information.

•

In Desktop, open issue FC Soldier and Sailors Relief Act for Servicer to place file on
hold if the mortgagor is active duty or discharged with the last 12 months, until further
instructions are received.

•

If no response received within 5 business days, email foreclosurescra@wellsfargo.com

•

If the mortgagor contacts your office:
o

Refer the Mortgagor to the Special Loans area within Wells Fargo: (866) 9367272

o

Request a copy of the orders from the Mortgagor


o

Fax the orders to (803) 396-6085, Attn: Special Loans

Or send them through U.S. mail to:
Wells Fargo Home Mortgage
Attn: Special Loans/SCRA
3480 Stateview Blvd. Mac# X7802-017
Fort Mill, SC 29715

***Please Note***Uploading the DOD results is required at each point regardless if the sale
is to be postponed or cancelled, i.e., if the U20 F/C SCHEDULED SALE DATE still reflects
the sale that will be postponed/cancelled and you are at a review point, this must be done.
8

WFHM SCRA Team:

•
9

Contact mortgagor directly for protection

WFHM Foreclosure: provide a response to Attorney of direction that WFHM will take on the
property (i.e., putting file on hold or continuing with foreclosure action).

Reports:
Liaison – Not Eligible for Sale: Provides a list of loans with a U20 actual date within the next 7 days where the
Attorney has entered FCNESL log code (Action Required).
Attorney- SCRA Audit: A weekly audit to ensure that you are completing the review at each stage:
Referral, Sale Scheduled, and Sale Held. A report will be sent to you containing all loans that failed at
each stage either by not entering the FCLDOD, FCLD01, FCLD02 log code, or by not uploading the DOD
results.
HAMP 10-2 Certifications
If certification is required, your office is responsible for ensuring the required Treasury certification is received
prior to proceeding to sale. See Loss Mitigation.

Title
The Attorney is responsible for ensuring that Wells Fargo has clear and marketable title.
**Please note** If you identify a manufactured/mobile home via a title search, or from the VendorScape or
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 47
092

841a

Desktop documentation provided along with the referral, please see the Manufactured/Mobile Home Title Issue
section of this guide.
STEP
1

ACTION
Attorney: Once the title report is received, enter the actual date for step U52 - "Preliminary Title
Recvd”.

2

If the Title Report is clear, enter the actual date for step U98 – “Preliminary Title Clear.”

3

Prior to sale, review title again and enter the actual date for U99-“Final Title Clear.” This
informs Wells Fargo that we have clear title.

**Please Note** The required steps can be completed through VendorScape or Desktop. These steps are part
of the Foreclosure template; however, the actual date can be completed in VendorScape or Desktop.
For Vendorscape:
STEP

ACTION

1

Under Task, choose “Add”

2

Then, “Production Task – Preliminary Title Received”

3

When adding the event in VendorScape, the U52 – Preliminary Title Recvd, and entering the
actual date, it automatically will be updated in MSP.

STEP

ACTION

1

Under Task, choose “Add”

2

Choose “Production Task – Clear Title”.

3

When adding the event in VendorScape the U98 – Preliminary Title Clear and entering the
actual date, it automatically will be updated in MSP.

STEP

ACTION

1

Under Task, choose “Add”

2

Choose “Production Task – Final Title Clear”

3

When adding the event in VendorScape the U99 – Final Title Clear and entering the actual
date, it automatically will be updated in MSP.

For Desktop:
STEP

ACTION

1

Complete the Preliminary Title Received event in Desktop, this automatically will complete
the U52 step in MSP.

2

Complete the Preliminary Title Clear DDF in Desktop, this automatically will complete the
U98 step in MSP.

3

Complete the Final Title Clear event in Desktop, this automatically will complete the U99 step
in MSP

Reports
Attorney – Title Received, Not Cleared: Weekly report of all loans where your office has acknowledged it has
received preliminary title but has not entered an actual date for U98 step. (Action Required)
Liaison – Title Received, Not Cleared: Weekly report of loans where the Attorney has entered a U52 step with
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 48
093

842a

an actual date but the U98 step has not been completed and it has been more than 14 days. (Action Required)
**Please note***If a lien release or subordination is needed, please see Appendix R.

IRS Lien
In Desktop, if your office determines that there is an IRS lien preventing the foreclosure from proceeding, the
IRS Lien Present Issue needs to be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3

Select the “FC IRS Lien Present” option.

4

Enter the expected end date and provide the amount of the lien and curative options (if
applicable).

5

If the IRS lien does not affect the foreclosure from proceeding, add a note advising of lien.

Title Issues
A title issue can prevent Wells Fargo from taking title to a property that we foreclose on and can be a serious problem.
It is the Attorney’s responsibility to resolve all title issues. In the event you are unable to do so, you will need to
complete the following steps.
Attorney:
When a title issue is identified and your office needs documents in order to facilitate the claim:
STEP
1

ACTION
Insert step 535 (Title Doc Reqd from WFHM) into MSP and complete with the current date (step
needs to be entered manually on Desktop files).

2

Send an email to FCLTITLEMAILBOX@WELLSFARGO.COM indicating which documents are
needed

When a title claim is being filed , ALWAYS perform the following steps:
STEP
1

ACTION
Insert step 536 (Title Claim Filed) into MSP and complete the date with the date the claim was sent to
the title company (step needs to be entered manually on Desktop files).
•

If the title issue can be resolved via judicial foreclosure and/or adding a reformation count to
the foreclosure, please ensure this is communicated to the title company with your title claim
along with a quote for fees/costs, in an effort to expedite movement of the foreclosure action

2

Provide a copy of the title search providing detailed information with regard to the cloud on title,
including documents identified as a title issue. A copy of the commitment, title policy, and HUD-1 also
should be provided with the claim letter, if applicable.

3

Upon acceptance of coverage from the title company, insert step 538 (Title Claim Accepted) in MSP
and complete the date with the date that correspondence was received indicating they are accepting
coverage (step needs to be entered manually on Desktop files).
•

Because formal coverage determinations are not always distributed, you may utilize this step
when any correspondence is received from the title company confirming that curative

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 49
094

843a

measures are in process.
4

If within the course of the resolution of the title issue it becomes apparent that the title issue will delay
the foreclosure, enter the D52/D53 steps (see below) at that time and enter a message detailing the
change in action

5

When the title claim is resolved, please insert the T66 step into the FOR3 screen in MSP to confirm
that the title issue has now been resolved.

6

If a title issue is being cured throughout the foreclosure action, the D53 step is completed because the
title issue is not delaying the sale; however, the T66 step should remain open until judgment is
entered and the action is not disputed due to title.

When a title claim is filed and it will cause a delay to the foreclosure action and you cannot proceed until
cured:
STEP

ACTION

1

Follow the above title claim steps

2

Contact your liaison through VendorScape or Desktop and provide all information pertaining to the title
issue, with detailed chronology and recommendations for resolution in VendorScape or Desktop

3

On the FOR3 screen in MSP, enter the step D52 TITLE PROBLEM and complete the actual date with
the current date and enter the step D53 TITLE PROBLEM RESOLVED with a float set at 30 days from
the actual date of the D52 step (this will alert your office to follow up on the title issue).

4

For Vendorscape, proceed to Step 5
For Desktop, proceed to Step 7

5

For VendorScape referrals, under Task, select Add

6

Select “Production Task-Legal/Title Problem.” When this task is added, both the D52 and D53
automatically are mapped to MSP. The D53 step will map over as an open step; do not complete the
actual date until the title issue is resolved.

Proceed to Step 13
7

For Desktop referrals, go to the File Transfer Form on the Tool Menu and launch the
FC_Title_Issue_Direct_Source or FC_Title_Issue_InHouse_Referred or
FC_Title_Issue_InHouse_Non_Referred process.

8

Complete the Title Issue Found DDF. The Desktop file also will need to be placed on hold if the
title issue is preventing your office from proceeding with the foreclosure.

9

Complete the Title Issue Found DDF. The Desktop file also will need to be placed on hold if the
title issue is preventing your office from proceeding with the foreclosure.

10

Select Holds from the Tool Menu

11

Select “FC Title Issue” as the hold reason.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 50
095

844a

11

Provide a brief description of the title matter, how the matter can be best resolved, and the
amount of fees requested to cure.

12

Upload a copy of the actual title report to imaging along with a title worksheet describing the
problem and the breakdown of fees. This procedure is only to be used if the Title Issue is
delaying the foreclosure

13

Your office will need to provide updates on the title issue every 30 days until the issue is resolved.

14

Once the title issue is resolved, enter the actual date for step D53 in MSP with the date the issue was
resolved.

15

Provide a detailed explanation in VendorScape or Desktop as to how the issue was resolved

16

Notify the Liaison of any title issues that either cannot be resolved prior to sale or cannot be addressed
by your office.

***Please note*** If the title issue is solely a government seizure or forfeiture, the D52/D53 steps should not be
utilized to measure the delay timeframe. Please see Litigation on how to handle appropriately.
When title curative documents need executed that is directly related to a title issue:
Foreclosure Title is expanding their processes to include execution of Title Curative Documents needed for Active
Foreclosures. Please start following the below process immediately for execution of the following types of
documents:
•
•
•
•
•
•
•

Verified Complaint to Quiet Title, Reformation Complaint for Title Curative Measures
Complaint for Declaratory Relief to cure a title issue
Non Figure Affidavits for Title Curative ONLY
Affidavit for Motion for Summary Judgment/Default Judgment for TITLE CURATIVE ONLY
Corrective/Scrivener's Error Affidavits to Cure Title Issues ONLY
Consent to Change Attorney (substitution of Title retained counsel in place of foreclosure counsel in the title
litigation)
Partial Releases which are title issue related ONLY for release of a portion of a legal description to cure title
Proof of Loss Affidavits needed by the title company

If you have a document that falls in the above parameters that is in Active Foreclosure and needs to be executed in
order to move forward with the Title Litigation please follow the below procedure.
STEP
1

ACTION
Email the Document in WORD FORMAT to FCLTITLEMAILBOX@WELLSFARGO.COM

2

Ensure any referenced exhibits, including any origination documents are attached with the initial
notification

3

Provide details regarding the purpose for execution of the document and the title issue causing the
litigation

4

Provide a specific contact to forward the executed document to including the following:
Name of person to send executed document
Contact for any questions related to the document/exhibits – Phone/Email/Name
Email Address

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 51
096

845a

Firm Name
Physical address for overnight mailing
Specify if they are title counsel or Direct Source (FC) counsel
Pertinent timeframes or urgency if the document is needed as a RUSH
**Please Note** Any REVERSE mortgage document to be executed cannot be executed by the
FCL Title group. These requests should be forwarded to the following email address with Reverse
Mortgage in the subject line of the email: RMSLossMit@wellsfargo.com

If you are unable to file a claim to clear the title issue due to coverage not purchased at origination or the
defect is not a claimable item, and proceeding with a judicial foreclosure vs. a non judicial action would cure
the title defect:
STEP
1

2

3
4
5
6

ACTION
In VendorScape, request from your foreclosure Liaison/Overallowables mailbox to proceed with a
judicial foreclosure action. In Desktop, raise the Judicial Action Needed Issue by going to the Tool
Menu, Add Issue.
Insert step 541 JUDICIAL FCL REQUESTED in MSP and complete the step with the date
approval was requested. Insert step 542 JUDICIAL FCL APPROVED in MSP and leave the
actual date blank until approval is received.
Once approval is received, complete the 542 JUDICIAL FCL APPROVED step in MSP.
If the title claim is DENIED, insert the step 539 TITLE CLAIM DENIED in MSP and complete the
actual date with the date of the denial.
Notify the DOS team in Frederick at DefaultLitTeam@wellsfargo.com and add the log code
FCTCDN (TITLE CLAIM DENIED, FORWARDED TO DOS) onto FOR2 in MSP
If submitting a claim for reconsideration after a denial is received, please include specific details
such as local statutes, documents, etc., that are necessary to defend reasoning for the
reconsideration of the claim.

Other Title Issues that DOS handles and should be made aware of if any of the below are present:

2

OTHER TITLE ISSUES/ACTION
Title Company paying policy limits
• Add log code FCTCPL (POLICY LIMITS PAID, FORWARDED TO DOS) to FOR2 in
MSP or Desktop. To enter the log code in Desktop, select Add Note from the Tool Menu
then select Note Type Foreclosure and enter the log code in the MSP log code field.
Lien Released in Error

3

Bankruptcy Title Claim

4

Complex title issues that need assistance from lender
• Contact DOS via the DefaultLitTeam@wellsfargo.com email box and include in the email:
o Firm Name, Attorney Contact, Telephone Number, Email Address
o Wells Fargo Loan Number (including MSP client #), Property Address, and
Borrower’s Name
o Foreclosure Liaison Name and Telephone Number
o Hearing Date, Location, and Time
o Detailed Information of the Issue
o Copy of pleadings as an attachment

1

Reports
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 52
097

846a

Attorney – Title Issue Discovered, Not Resolved: Weekly report all loans where your office has identified a title
issue and it has not been resolved. The loans will continue to show on the report until the title issue is resolved
and step D53 – TITLE ISSUE RESOLVED is updated with the date it was resolved.

Manufactured/Mobile Home Title Issues
Manufactured/Mobile Home Issues will be resolved with the conversion of personal titled property to real
property and if applicable cancellation/de-titling. Conversion may take a minimum of 1 to 3 months and a
maximum of 9-12 months. Factors that affect conversion include state regulations, Department of Motor
Vehicles, and cooperation from the county recorder and county assessor. If you are notified of a
manufactured/mobile home issue via a title search, or identify from your VendorScape or Desktop document
review that the dwelling may be a manufactured/mobile home, your office will need to contact the appropriate
department.
** Effective 02/01/2009, Most Mobile/Manufactured Home title issues will be directed to the
Manufactured Home Conversion Team (MHCT) in Frederick.**
Exceptions:
a)
b)
c)
d)

Post Sale FHA - contact FHApostsalemhresearch@wellsfargo.com
Post Sale VA - contact Porfiria Gonzalez at porfiria.m.gonzalez@wellsfargo.com
Wells Fargo Financial - contact WFFREFCLTitleIssues@wellsfargo.com
Wells Fargo Home Equity - contact REOWFHE.SHAREDMAILBOX@wellsfargo.com

FHLMC Loans/ Non-FHLMC Loans
STEP
1

ACTION
Attorney: Contact Wells Fargo MHCT immediately via the following email address:
Manufactured.HousingConversionTeam@wellsfargo.com, and advise WF of a possible
mobile home title issue. If known, please provide the status of title, VIN number, year, make,
and model. The MHCT processor will review the case and respond accordingly.
•

2

Insert step N92, ATTY Identified MH ISSUE, on FOR3 and add the actual date.
**Please Note** The required steps can be added through VendorScape.
Under Task, choose “Add” then “Production Task – Atty Identify Mobile Home Issue.”
When adding the event in VendorScape the N92 – Atty Identified MH Issue
automatically will be placed into MSP.

For Desktop referrals, go to the File Transfer Form on the Tool Menu, launch the
FC_Mobile_Home_Research_Direct_Source or
FC_Mobile_Home_Research_InHouse_Referred or
FC_Mobile_Home_Research_InHouse_Non_Referred process and complete the
Mobile Home Issue Found DDF
MHCT Processor: Upon complete review, determine if the mobile home issue will be
handled in house or if Attorney assistance will be needed. If foreclosure counsel is retained
to cure the title issue, enter N93, ATTY HANDLING MH ISSUE on the FOR3.

3

Attorney: MHCT may contact your office to conduct a search of the DMV records to confirm
current status of the title. It may request that you handle the issue on Wells Fargo’s behalf.
Fee approval for any MH title work will need to be obtained from the MHCT processor.

4

Attorney: If retained to cure title issue, please submit approximate fee amount for approval
directly to the MHCT processor.

Fee approval must be obtained from the MHCT processor
5

Attorney * SUBMIT MH INVOICES TO ICLEAR AS REPLEVIN *

6

Liaison: Direct all MH Title inquires to the MHCT mailbox –

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 53
098

847a

Manufactured.HousingConversionTeam@wellsfargo.com
NOTE: It is a requirement in the state of Alabama and Texas that we DO NOT precede to sale until the mobile home
is converted to real property. All other states may proceed with the sale unless it is verified that it is more beneficial to
cure pre-sale. (This must be agreed upon by the MHCT processor and the attorney)
Questions regarding MHCT or these MH title processes please contact:
Kristi.Payne@wellsfargo.com and Aysem.P.Pelletier@wellsfargo.com

Cash Processing
Corporate Advance Breakdown
In Desktop, if your office is in need of a breakdown of the corporate advances, the Corporate Advance
Breakdown issue needs to be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3
4

Select the “FC Corporate Advance Breakdown Needed” issue.
Enter the expected end date and the total amount that needs to be broken down and from
where this amount originated.

Escrow Breakdown
In Desktop, if your office is in need of a breakdown of the escrow balance, the Escrow Breakdown Needed
issue needs to be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3

Select the “FC Escrow Breakdown Needed” issue

4

Enter the expected end date and the total amount that needs to be broken down and from
where this amount originated.

Suspense
STEP
1

ACTION
Attorney: A report will be sent to our office daily of all loans where there are funds in
suspense. Your office is required to provide a response on these loans within 48 hours of
receipt of the report. You will provide a response by entering one of three log codes.
•
•
•

FCSBAF: Fort Mill to apply suspense funds
FCSBKF: Fort Mill to retain suspense funds
FCSBRF: Fort Mill to return suspense funds
**Please note** These log codes can be added in MSP on the FOR2 screen or in
Desktop. To enter the log code in Desktop, select Add Note from the Tool Menu
then select Note Type Foreclosure and enter the log code in the MSP log code field.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 54
099

848a

2

WFHM Cash Processing Team: Process suspense funds in accordance to the direction
received from the Attorney.

**Please note** If there is an upcoming foreclosure sale, the loan must be log coded 5
days prior to the foreclosure sale in order for the funds to be either returned or
applied.
****Please Note****You must wait 72 hours to request a reinstatement quote if your office has coded a file to
return suspense funds.
Reports:
Attorney – Suspense Balance: Daily report of all loans showing a suspense balance where no log code
(FCSBAF; FCSBKF; FCSBRF) has been entered on the FOR2 screen in MSP since the funds were received.

Payoffs
STEP

ACTION

1

Attorney: submit all requests for payoff quotes through VendorScape or Desktop. The
VendorScape CMS Attorney User guide will provide your office with specific instructions for
requesting payoff figures. For Desktop Referrals

2

Select Payoff Request from the Tool Menu

3

Select New Payoff Request

4

Enter a Good Thru Date (this tool should be used on the main foreclosure process). The
Quote will be provided in the notes and a copy of the Payoff will be provided in the document
section.

5

Complete Payoff received by Attorney step to acknowledge receipt of quote.
Attorney must then review and close the “FC Payoff Requote” issue type.
The average turn-around time to receive a quote is 24 hours. Please note these
procedures also apply to Client 708 Wells Fargo Financial loans.
*** Please Note*** Make sure all payoff requests submitted through VendorScape are
requested as detailed payoffs whether you are prompted to do so or not. Note that any
requests NOT requested as detailed payoffs, will not be pulled by our system and will remain
in VendorScape without being pulled for processing. Any requests that ARE requested as
detailed payoffs will be pulled twice daily, once at 7 a.m., and once at 1 p.m. Central time.
•

If VendorScape or Desktop cannot be utilized or there is a need for a rush request to
be completed, requests should be sent to payoffs@wellsfargo.com.

•

Once you receive the quote, include your total fees/costs (recoverable versus nonrecoverable) in compliance with state laws.

•

Review all payoff quotes sent by Wells Fargo to ensure compliance with state or
federal law regarding collection of late charges, fees, and prepayment penalties. If
figures are not in compliance, make the necessary corrections, or contact Wells
Fargo for clarification immediately.

•

Provide a written copy of the payoff figures to the mortgagor within 24 hours of
receipt.

•

Your office is required to upload a copy of the payoff figures or reinstatement figures
you provided the mortgager the same day into VendorScape or Desktop.

•

Enter step E13, PAYOFF PROVIDED GOOD THRU, on FOR3 with the actual date
as the date the payoff was GOOD THRU and document the FOR2 screen in MSP

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 55
100

849a

with the quote. If the quote was requested through Desktop, this step automatically
will be completed.
**Please Note** The required steps can be added through VendorScape. Under
Task, choose “Add” then “Production Task – Payoff Provided Good Thru.” When
adding the event in VendorScape the E13 – Payoff Provided Good Thru
automatically will be placed into MSP.

6

•

The date quotes are good through should not exceed 1 day prior to sale or
redemption date or 30 days from the date of request, whichever is applicable.
Payoff quotes never should be quoted beyond these dates without prior approval of
the Wells Fargo Foreclosure Department.

•

If you receive an updated quote from Wells Fargo, provide a payoff quote to the
mortgagor or authorized third party within 24 hours of receipt and upload a copy of
the quote to the Document section in VendorScape or Desktop. (Wells Fargo &
Company previously has authorized the third party to receive the payoff quote)

WFHM Cash Team: Provide payoff quotes to Attorney on quotes that cannot be processed
through VendorScape or Desktop and provide an updated quote to Attorney when additional
disbursements have been made.

Reinstatements
Attorney: submit all requests for reinstatement quotes through the reinstatement history case link within
VendorScape or the Reinstatement Request tool in Desktop (this tool should be used on the main foreclosure
process). The VendorScape CMS Attorney User guide will provide your office with specific instructions for
requesting reinstatement figures. Please allow 24 to 48 hour turn-around time to receive a quote. Please note
these procedures also apply to Client 708 Wells Fargo Financial loans. For quick reference, please see
the reinstatement request instructions below:
STEP

ACTION

1

Click on reinstatement history case link

2

Click request button

3

Select Quote Type = Standard
•

4

If no additional research is required, the quote will appear within 0-60 minutes. If no
quote is provided by automation, the user will receive a message that the quote will
be provided within 48 hours.

Request Quote = Enter Valid FROM (Automatically Default to Today’s date) and TO date
•

Quote should not exceed 30 days from today’s date

5

For Desktop referrals,

6

Select Reinstatement Request from the Tool Menu

7

Select New Reinstatement Request

8

Enter a Good Thru Date
The quote will be provided in the notes and a copy of the reinstatement will be provided in
the documents section. Complete Reinstatement Quote Received by Attorney step to
acknowledge receipt of the quote.

9

Submit requests to foreclosurereinstatements@wellsfargo.com if the following conditions are
met:

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 56
101

850a

•
•

10

Initial VendorScape or Desktop request has not been received within 48 hours
Rush Request Needed
o Subject Line to include (RUSH: client, loan number and good through date)
o For Wells Fargo tracking purposes, the body of email to include, the reason
for rush request
Review quote. Include your outstanding fees and costs, clearly itemizing recoverable versus
non-recoverable items. If item is marked as non-recoverable, provide state statute or reason
to support mortgagor non-recoverability.

11

Review all reinstatement quotes sent by Wells Fargo to ensure compliance with state or
federal law regarding collection of late charges, fees, and prepayment penalties. If figures
are not in compliance, make the necessary corrections, or contact Wells Fargo for
clarification immediately.

12

Enter step E14, REINSTATEMENT PROVIDED GOOD THRU, on FOR3 with the actual date
as the date the reinstatement was GOOD THRU and document the FOR2 screen in MSP
with the quote. If the quote is requested through Desktop, this step will be automatically
completed.

13

**Please Note** The required steps can be added through VendorScape. Under Task,
choose “Add” then “Production Task – Reinstatement Provided Good Thru.” When adding
the event in VendorScape the E14 – REINST Provided Good Thru will automatically be
placed into MSP.
Provide a written copy of the reinstatement figures to the mortgagor/3rd party within 24 hours
of receipt.
rd

14

Upload a copy of the reinstatement letter your office provided to the mortgagor/3
requestor into the documents sections of VendorScape or Desktop.

party

15

Post Sale Reinstatement Requests: Please provide investor authorization along with the
reinstatement quote request.

****Please Note**** You must wait 72 hours to request a reinstatement quote if your office has coded a file to
return suspense funds.

Payoff / Reinstatement Proceeds
Attorney: Payoff/Reinstatement proceeds must be in the form of certified funds payable to “Wells Fargo Bank
N.A.” and sent via overnight mail within 24 hours of their receipt.
STEP
1

ACTION
Do not deduct your fees and costs from the funds prior to remitting the funds to Wells Fargo.

2

Do not send funds through the U.S. Postal Service or include them in envelopes containing
status-related items.

3

Include a copy of the quote provided to the mortgagor or authorized third party. The form in
Appendix C of this manual should be completed and included with the funds and quote, and
uploaded in VendorScape or Desktop.

4

Enter step T78, REIN/PO $ RCVD @ ATTY OFFICE, on FOR3 with the actual date as the
date funds were received.
**Please Note** The required steps can be added through VendorScape. Under Task,
choose “Add” then “Production Task – Reinstatement/Payoff $ Received at Attorney Office”.
When adding the event in VendorScape the T78 –REIN/PO $ Rcvd @ Atty Ofc automatically
will be placed into MSP.
For Desktop referrals, select File Transfer Form from the Tool Menu, and choose
FC_Payoff_Reinstatement_Funds_Received_Direct_Source or

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 57
102

851a

FC_Payoff_Reinstatement_Funds_Received_InHouse_Referred or
FC_Payoff_Reinstatement_Funds_Received_InHouse_Non_Referred from the drop down
menu. Complete the DDF and the actual date for the step. This will update the T78 step in
MSP.
•

If you remove the U20 step, remove the N36 and/or U31 step as well.

5

Overnight the payoff funds to the Wells Fargo to the attention of:

6

Wells Fargo Home Mortgage or America’s Servicing Co
Attn: Payoffs
Mac – X2302-045
1 Home Campus
Des Moines, IA 50328
You may also wire the payoff funds to Wells Fargo using the following instructions.
•

7

8

This account information is not to be shared with anyone outside of your office.
(Your office is required to upload the supporting documentation the same day in
VendorScape or Desktop)

Wells Fargo Bank, N.A
Beneficiary Bank ABA: 121000248
Beneficiary Bank Acct: 4127400093
Special Information for Beneficiary
Apply funds to loan: xxxxxxxxxxx
Mortgagor: xxxxxxxxxxxxxxxxxx
Sender's Name and Phone Number
Overnight the reinstatement funds to the Wells Fargo to the attention of:
Wells Fargo Home Mortgage or America’s Servicing Co
Attn: Foreclosure Cash
Mac – X2302-04C
1 Home Campus
Des Moines, IA 50328
Your office may also wire the reinstatement funds to Wells Fargo using the following
instructions:
•

This account information is not to be shared with anyone outside of your office.
(Your office is required to upload the supporting documentation the same day in
VendorScape or Desktop)
Wells Fargo Bank, N.A
Beneficiary Bank ABA: 121000248
Beneficiary Bank Acct: 3000500412
Special Information for Beneficiary
Apply funds to loan: xxxxxxxxxxx
Mortgagor: xxxxxxxxxxxxxxxxxx
Sender's Name and Phone Number

Payoff Resolution
From time to time, a team member from the Wells Fargo Home Mortgage payoff resolution team will reach out
to your office to assist in collecting our payoff shortage. Your office is expected to contact the mortgagor or
third party on behalf of WFHM to resolve the payoff shortage. The WFHM payoff resolution team member will
provide your office with the specific reason(s) for the payoff shortage.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 58
103

852a

Payment History
From time to time, a borrower may dispute the application of payments on his/her loan. Your office is
responsible for reviewing the P309 screen within the MSP system to determine payment application. The
P309 will house all applied payments and disbursements associated with the loan for a period up to 36
months. To view total number of screens available, press F10. Please note these procedures also apply
to Client 708 Wells Fargo Financial loans.
If your office requires additional payment information, you will need to add log code FCPHCA (PAY HISTORY
NEEDED FOR CORP ADV) on the FOR2 screen or in Desktop to notify your liaison to request microfiche and
detail the date range you are requesting in a message in VendorScape or Desktop.
To enter the log code in Desktop, perform the following:
STEP

ACTION

1

Select Add Note from the Tool Menu

2

Select Note Type Foreclosure

3

Enter the log code in the MSP log code field. Once the liaison has requested the microfiche,
he or she will add log code FCMFRQ to the FOR2 screen.

To request the foreclosure payment history in Desktop, the Copy of Payment History should be raised.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3

Select the “FC Copy of Payment History” issue

4

Enter the expected end date and provide the reason the history is needed, if there are
specific payments in question, how far back the payment history should go, and if there has
been a formal complaint regarding the payments.

**Currently, this does not add the payment history log code and will need to be entered manually.
The Payment Research/Dispute issue should be raised if the borrower is questioning a payment applied to
their account, disputing amounts owed or applied, or when there is proof of payments that were not properly
applied.
STEP

ACTION

1

Select Issues from the Tool Menu

2

Add Issue

3

Select the “FC Payment Research/Dispute” issue

4

Enter the expected end date and provide details of the issue.

Liaison: All requests must be placed within 48 hours of the attorney entering the FCPHCA log code.
STEP
1

ACTION
To request additional history for client 472, 591, 685, 708 and 936 loans, email m@
wellsfargo.com
•

To request additional history for client 106 sent email request to:
106EscalatedCustService@wellsfargo.com
o

Request requirements





Histories – Start and end date (years only)
Collection notes – Start and end date
OLLW – Letter ID and the date the letter was sent (example:
WC101 on 7/20/01)
Letter logs – Years needed

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 59
104

853a



o

For WAMU requests (client 936) we will need the following information:






2

1098 – Years needed
Analysis – Date that the analysis was processed

WF loan number
WAMU loan number
Acquisition ID
Name of the mortgagor
Specific dates for letters, histories, collection notes & analysis

Once request is placed, enter log code FCMFRQ (SENT EMAIL TO MICROFISHE TO REQ
PAY HISTORY). When the microfiche is received, forward to attorney and enter log code
FCPHST (PAY HISTORY SENT TO ATTY).

Reports:
Liaison – Pull Pay History: Daily report of all loans where the attorney has entered the FCPHCA log code but
there is no FCPHST log code. (Action Required)

Number of Screens listed before pressing F10.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 60
105

854a

Number of Screens listed after pressing F10.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 61
106

855a

Fee Approval Requests
**Please note** Your firm must have received approval from your liaison to perform the services before
requesting fees.
STEP
1

2

ACTION
Attorney: Refer to the Blanket Fee Approval matrix (Appendix S) before requesting fees
from Wells Fargo. If fee allotment is not included in the Blanket Fee Approval matrix, please
follow the process below:
•

FNMA/FHLMC Designated counsel – obtain fee approval directly from
FNMA/FHLMC. Send all other fee requests via VendorScape to the
FC_Overallowable_Fee Request. For Desktop Referrals, go to the File Transfer
Form on the Tool Menu, add the
FC_Additional_Fees_Costs_Needed_Direct_Source or
FC_Additional_Fees_Costs_Needed_InHouse_Referred or
FC_Additional_Fees_Costs_Needed_InHouse_Non_Referred process and
complete the DDF.

•

Non FNMA/FHLMC Designated counsel – send all fee approval requests via
VendorScape to FC_Overallowable_Fee Request. For Desktop Referrals, go to the
File Transfer Form on the Tool Menu, add the
FC_Additional_Fees_Costs_Needed_Direct_Source or
FC_Additional_Fees_Costs_Needed_InHouse_Referred or
FC_Additional_Fees_Costs_Needed_InHouse_Non_Referred process and complete
the DDF.

•

Provide detailed information, including a complete breakdown of work to be
performed.

•

If you are requesting fee approval for a restart, confirm that you have entered the
correct steps before requesting fee approval (see Foreclosure Restarts).

•

If the loan is closed in VendorScape or Desktop, send fee approval to
fcfeeapprovals@wellsfargo.com.

WFHM: Respond back via VendorScape or Desktop notating the system with fee approval
and include the following information:

•

Approval/Denial and Reason for denial if applicable

Fees and Costs Request through VendorScape Automation
Automation has been developed to allow Wells Fargo to request Fees and Costs from the Attorney office in
bulk via the Vendor Fees and Costs Module within VendorScape.
STEP
1

ACTION
Attorney: To obtain Fees and Costs requested, navigate to Work Queue>Case
Management>Vendor Fees and Costs

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 62
107

856a

2

The Fees and Costs module will display and user can select options from the drop down
menu to display their workload.

3

The list will refresh, and the user will be able to view every request for Fees and Costs in the
Window. The user has two options to fulfill these requests. The first option is to click on the
Green Plus icon. Clicking on this icon will open the Total Vendor Fees and Costs window
request within the loan.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 63
108

857a

4

The second option is to click on the loan itself from the Fees and Costs Module. Click on this
to open the Fees and Costs History window within the loan.

5

Clicking on any of the fields on the current line will open the Total Vendor Fees and Costs
window request within the loan.
***Please Note*** The Valid From and To fields are grayed out and not selectable for the User.
The Calendar Control has been disabled and Users cannot change this data.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 64
109

858a

6

Once the fields pertaining to the Fees and Costs have been filled in the user will then hit the
Save button. When the Save button has been pressed, VendorScape will update the Fees
and Costs History, and write the data back to the LMTN screen.

Fees and Costs Request through Desktop
STEP

ACTION

1

Review your fees and costs queue.

2

Select Details and provide the requested fees and costs by completing the fees and costs
form.

Sales, Post-Sale, and Closing File
Sales Results
STEP
1

2

ACTION
Attorney: Your office is responsible for reporting sales results by 4 p.m. Eastern the same day
the sale is held, and monitoring the loan during confirmation, redemption, or ratification. For
attorneys on the West Coast whose sales are not held until the afternoon, provide sales results by
6 p.m. Eastern or 9 a.m. Eastern the next business day. If you are not able to meet the required
deadline for reporting the sale, you are required to provide a detailed explanation for the delay in
VendorScape or Desktop.
In the event that your office is unable to adhere to the established sales results reporting
guidelines, Wells Fargo Home Mortgage expects the following detail at the time of reporting.
•

Detailed explanation to support the reason for the reporting delays

•

Detailed action plan outlining the steps taken and controls established to prevent
future occurrences of late sales reporting

3

You are also responsible for reporting confirmation expiration (T39) or redemption expiration
(T38) when the event occurs.

4

VendorScape Referrals:

•

If Foreclosure Sale – Reverted Back to Beneficiary:
o

Complete the Sale Held Event Task in VendorScape

o

Sale Type to clearly indicate: “Sold back to the beneficiary”

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 65
110

859a

•

o

Do not indicate “Reverted to SENIOR”

o

Confirm completion of the actual T32 (Sale Held) step on FOR3 template.
Actual date to equal the foreclosure sale date

o

Fill in all other applicable sales reporting fields on VendorScape: (Sale Date,
Sale Amount, Purchaser Name, Purchaser Phone Number, Actual Bid
Amount, Sheriff Appraised Value (if applicable) and Total Eligible
Indebtedness including outstanding attorney fees and costs. For beneficiary
sale, complete Sale Held event in VendorScape. This will complete step
T32, F/C SALE HELD, on FOR3

If Foreclosure Sale - SOLD to a 3rd Party Bidder:
o

Complete the Sale Held Event Task in VendorScape

o

Sale Type to clearly indicate: Sold to a 3rd Party

o

Confirm Completion of the T32 (Sale Held) step on the FOR3 template

o

ADD T35 (Property Sold to 3rd party) to FOR3 template and include the
sales date as the actual date

o

ADD T36 (Received 3rd party sale $) step in the FOR3 template. DO NOT
complete the actual date
**Please Note** The required steps can be added through VendorScape.
Under Task, choose “Add” then “Production Task – Third (3rd) Party Sale”.
rd
When adding the event 3 Party Sale through VendorScape the T35 – Pty
rd
rd
rd
Sold to 3 Party and T36 –3 RCV 3 Party Sale automatically will be
placed into MSP. The T36 step will map over as an open step, do not fill in
the date; WF will complete this date.

•

5

Fill in all other applicable sales reporting fields within VendorScape: (Sales Date,
Sale Amount, Purchaser Name, Purchaser Phone Number, Actual Bid Amount,
Sheriff Appraised Value (if applicable), Total Eligible Indebtedness (including
outstanding attorney fees and costs)

Desktop Referrals:

•

If Foreclosure Sale – Reverted Back to Beneficiary:
o

Complete the Foreclosure Sale Held DDF

o

Who is the Successful Bidder: “Sold to beneficiary”

o

Do not indicate “Reverted back to SENIOR”

o

Enter the successful bid amount

o

Complete the actual date for the Foreclosure Sale Held event

o

Confirm completion of the actual T32 (Sale Held) step on FOR3 template.
Actual date to equal the foreclosure sale date

•

Fill in all other applicable sales reporting fields in Desktop: Sheriff Appraised Value
(if applicable) and Total Eligible Indebtedness including outstanding attorney fees
and costs.

•

If Foreclosure Sale - SOLD to a 3rd Party Bidder:
o

Complete the Foreclosure Sale Held DDF

o

Who is the Successful Bidder: “Sold to Third Party”

o

Enter the successful bid amount

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 66
111

860a

o

Complete the actual date for the Foreclosure Sale Held event

o

Go to the Navigation Tree and select the Third Party Sale process.
Complete the Sold to Third Party DDF

o

Confirm completion of the T32 (Sale Held) and the T35 (Property Sold to 3
Party) steps on the FOR3 template

o

Confirm the addition of the T36 (Received 3rd party sale $) step in the FOR3
template and that the actual date IS NOT completed.

o

Fill in all other applicable sales reporting fields within Desktop: (Sales Date,
Sale Amount, Purchaser Name, Purchaser Phone Number, Actual Bid
Amount, Sheriff Appraised Value (if applicable), Total Eligible Indebtedness
(including outstanding attorney fees and costs)

rd

o
6

Both VendorScape and Desktop Referrals:

•

For confirmation expiration, complete Foreclosure Sale Confirmed/Ratified event in
VendorScape or the After Sale Confirmation Expired event in Desktop. This will
enter T39, AFT SALE CONFIRMATION EXP, actual date.

•

For redemption expiration, complete Post Sale Redemption Expires event in
VendorScape or the Post Sale Redemption Expired event in Desktop. This will enter
T38, AFT SALE REDEMPTION EXP, actual date.

•

If there are any additional sale restrictions within your state, enter the corresponding
step in MSP with the actual date the event occurred.
o Order Approving Sale
T34
o Possession Expiration
E76 (To be completed AFTER the Possession
Expiration period expires)

o
o

Strict Title Vest
Court Approved Sale

T31
E87 (To be completed AFTER the expiration period

o
o

Deficiency Sale

E68
Upset Bid

expires)

T90-T94

**Please Note** Completion of the E76 and E87 steps will prompt the post-sale process to begin.
**Please Note** The required steps can be added through VendorScape.
STEP

ACTION

1

Under Task, choose “Add”

2

Then “Production Task – Order Approving Sale”

3

When adding the event in VendorScape the T34 – Order Approving Sale will automatically
be placed into MSP.

1

Under Task, choose “Add”

2

Then “Production Task –Possession Expiration”

3

When adding the event in VendorScape the E76 – Possession Expiration Dt automatically
will be placed into MSP.

1

Under Task, choose “Add”

2

Then “Production Task –Strict FC – Title Vested”

3

When adding the event in VendorScape the T31 – Strict F/C (Title Vest) automatically will be

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 67
112

861a

placed into MSP.
1

Under Task, choose “Add”

2

Then “Production Task –Court Approved Sale”

3

When adding the event in VendorScape, the E87 – Court Approved Sale entry will
automatically be placed into MSP.

1

Under Task, choose “Add”

2

Then “Production Task –Deficiency Sale”

3

When adding the event in VendorScape the E68 – Deficiency Sale automatically will be
placed into MSP.

1

Under Task, choose “Add”

2

Then “Production Task

3

Choose corresponding event based on whether this is the 1 upset bid or subsequent upset
bids. When adding the VendorScape event, the corresponding step automatically will be
placed into MSP. Automatically pulls in on NC loans

st

•
•
•
•
•

st

1 Upset Bid
nd
2 Upset Bid
rd
3 Upset Bid
th
4 Upset Bid
th
5 Upset Bid

Reports:
Attorney – Sale Pending: Provides list of loans where the U20 actual date is in the past and the T32 actual
date has not been updated.
WFHM Compliance – Pending Sales Report: Provides list of loans where the U20 actual date is in the past
and the T32 actual date has not been updated.

Updating Sales Results
STEP
1

ACTION
Attorney: If your office needs to modify any part of the sales results after they have been
entered, send an email to SaleResults@wellsfargo.com advising of the corrections taking
place. If the foreclosure workstation already is closed, this email will alert the team to
reactivate FOR3 so your office can complete the necessary steps.
•

Enter T75, UPDATED SLE RSLTS FRM ATTY, on FOR3 in MSP and complete the
actual date.
**Please Note** The required steps can be added through VendorScape. Under
Task, choose “Add,” then “Production Task – Updated Sales Results Received from
Attorney”. When adding the event in VendorScape, the T75 – Updated Sale Rslts
Frm Aty automatically will be placed into MSP.

•

Update the Sales Reporting section in VendorScape or Desktop with the correct
sales results.
o

For Desktop, un-complete the Sale Held event and recomplete the DDF with
the correct information. The Sale Results Change issue needs to be raised
if there is any change in the sales results. Select Issues from the Tool
Menu, Add Issue, and select the “FC Sale Results Change” issue. Provide

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 68
113

862a

the correct results. The T75 step will need to be added manually.
WFHM: Review the Issue and ensure that the proper Sales Results are
reported to the Investor.
•
2

Update the VendorScape tasks.

Sales Reporting Team: Re-report the sale, if applicable.

•

Adjust the 1099, if applicable.

•

Contact Post Sale Claims to see if any adjustments need to be made.

VA Sales Results
STEP
1

ACTION
Attorney: In addition to the requirements listed above, your office is responsible for
providing the following information upon completion of the Sale Held event in VendorScape
or the Foreclosure Sale Held event in Desktop for VA loans.
•
•
•
•
•
•
•

Actual Bid Amount
rd
Sale Results (Beneficiary or 3 party)
Sale Date
Confirmation/Redemption Date
Sale Amount
Sheriff’s Appraised Value at Sale (applies to OH, OK, KY, LA)
Total eligible indebtedness (Must be the true total debt figure. DO NOT enter $.01,
$1, or specified bid amount.)

IMPORTANT: If at any time the sale results cannot be entered into VendorScape or
Desktop for any reason (Example: the total debt is less than the principle balance and
VendorScape or Desktop will not let you approve it), please complete both of the following:

2

•

Send email to Saleresults@wellsfargo.com with “VA Sale Results” in the subject line,
and in the body of the email include the client number, loan number, and sale result
information (dollar amount and to whom it sold)

•

Place the sale results in VendorScape or Desktop by sending a message to your
liaison. Please put “VA sale results” in the subject line, and in the body of the
message include the client number, loan number, and sale result information (dollar
amount and to whom who it sold).

After Sale Confirmation – Please note that if the property is in a state with a post sale
confirmation period, the T39 actual date must be entered timely as the VA requires this
information and will penalize the servicer for untimely notification.

3rd Party Sales
Attorney: Upon receipt of third party funds, your office must:
STEP
1

2

ACTION
Input a detailed message and include the tracking information for shipment of the funds for
VendorScape files or complete the Third Party Funds Sent to Servicer DDF in the Third Party
Sale process for Desktop files. Complete and upload the Funds Remittance Cover Sheet
(Appendix B) into VendorScape or Desktop. To upload to Desktop, select Add Docs from
the Tool Menu and upload as Third Party Sale Package.
RD

Enter log code FCFUND (ATTY SENT 3

PARTY FUNDS TO WELLS FARGO CASH

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 69
114

863a

DEPT) in MSP on the FOR2 screen or in Desktop. To enter the log code in Desktop, select
Add Note from the Tool Menu, then select Note Type Foreclosure, and enter the log code in
the MSP log code field.
The funds must be forwarded to Wells Fargo the same day as receipt.
3

Overnight the funds to the Wells Fargo Conventional Claims area to the attention of:
Attn: Wanda Tucker
Mac #X2302-04F
Wells Fargo Home Mortgage /Conventional Claims

1 Home Campus
Des Moines, IA 50328-0001
3rd Party Default
rd

Attorney:: Should the 3 party default for any reason, you must update sale results as follows:
STEP
1

2

3

ACTION
rd
If after the 3 party purchaser defaulted and IF, the loan defaulted to the next highest bidder
rd
and IF the next highest bidder was another 3 party purchaser, then:
• Complete Sale Held event in VendorScape or the Foreclosure Sale Held event in
Desktop providing new sale results. (This will update the T32 actual with the new
sale date)
• Insert the T47, THIRD PARTY DEFAULTED, step on FOR3 and complete the actual
date.
For Desktop Referrals, go to the File Transfer Form on the Tool Menu, add the
FC_Third_Party_Defaulted_Direct_Source or
FC_Third_Party_Defaulted_InHouse_Referred or
FC_Third_Party_Defaulted_InHouse_Non_Referred process and complete the Third
Party Defaulted DDF. This automatically will insert and complete the steps for you.
Invalidate existing Sale Held event in VendorScape. In Desktop, un-complete the Sold
to Third Party event in the Third Party Direct Source rail in the Navigation tree and rerd
complete the step with the new 3 party purchaser information.
Email the Sale Results to the saleresults@wellsfargo.com mailbox as follows:
rd
Subject Line to include the following: Client Name, Loan Number, and ”3 Party
Defaulted”.
rd
The body of the email should include the following: reason why third (3 ) party
defaulted. The new sales date, where applicable AND/OR the updates sales
results.
rd
If after the 3 party purchaser defaulted and IF the loan reverted back to the beneficiary,
then:
• Complete Sale Held event in VendorScape or the Foreclosure Sale Held event in
Desktop providing new sale results. (This will update the T32 actual with the new
sale date)
• Insert the T47, THIRD PARTY DEFAULTED, step on FOR3 and complete the actual
date.
For Desktop Referrals, go to the File Transfer Form on the Tool Menu, add the
FC_Third_Party_Defaulted_Direct_Source or
FC_Third_Party_Defaulted_InHouse_Referred or
FC_Third_Party_Defaulted_InHouse_Non_Referred process and complete the Third
Party Defaulted DDF. This automatically will insert and complete the steps for you.
• Invalidate existing Sale Held event in VendorScape. In Desktop, un-complete the
Sale Held event and re-complete the DDF with the correct information.
• Remove the T35 and T36 steps from MSP.
• Email the Sale Results (saleresults@wellsfargo.com) email box.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 70
115

864a

rd

Subject Line to include: Client, Loan Number and “3 Party Defaulted”
rd
Body of email to include: reason why 3 party defaulted., the new sales
date (when applicable), AND/OR the updates sales results.
rd
If after the 3 party purchaser defaulted and IF a new sales date must be set, then:
• Note the Un-complete Sale Held event in VendorScape or the Foreclosure Sale Held
event in Desktop.
o
o

4

•

Insert the T47, THIRD PARTY DEFAULTED, step on FOR3 and complete the
actual date.

•

For Desktop Referrals, go to the File Transfer Form on the Tool Menu, add the
FC_Third_Party_Defaulted_Direct_Source or
FC_Third_Party_Defaulted_InHouse_Referred or
FC_Third_Party_Defaulted_InHouse_Non_Referred process and complete the
Third Party Defaulted DDF. This automatically will insert and complete the steps
for you.

•

Invalidate existing Sale Held event in VendorScape or un-complete the
Foreclosure Sale Held event in Desktop.
Provide the actual sales date
For VendorScape referrals, remove the T35 and T36 steps and remove the T32,
U20, U31 and N36 actual dates from MSP.
For Desktop referrals, remove the T35 and T36 steps from MSP and update the
Foreclosure Scheduled Sale Date. This will update the bid events.

•
•
•
•

Email the Sale Results (saleresults@wellsfargo.com) email box.
rd
o Subject Line to include: Client, Loan Number and “3 Party Defaulted”
rd
o Body of email to include: Reason why 3 party defaulted. The new sales
date, where applicable AND/OR the updates sales results.
**Please Note** The required steps can be added through VendorScape. Under Task,
rd
choose “Add” then “Production Task –3 Party Defaulted”. When adding the event in
VendorScape the T47 –Third Party Defaulted automatically will be placed into MSP.

Shortening the Redemption Period
If the redemption period process needs to be shortened in Desktop: Go to the File Transfer Form on the Tool
Menu, and launch the FC_Shortened_Redemption_Direct_Source or
FC_Shortened_Redemption_InHouse_Referred or FC_Shortened_Redemption_InHouse_Non_Referred
process. The below process still should be completed.

Redemption Funds
Attorney: Upon receipt of redemption funds, you must:
STEP

ACTION

1

Add the T45, and T37 steps in MSP.

2

T45, ATTY FWRDED REDEMP FUNDS, and complete the actual date with the date the funds
are sent to Wells Fargo.

3

T37 – REDMPTN FUNDS POSTED and do not complete the actual date.
**Please Note** The required steps can be added through VendorScape or Desktop.

4

For VendorScape, proceed to Step 5 or Step 8
For Desktop, proceed to Step 11

5

Under Task, choose “Add”

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 71
116

865a

6

Then “Production Task – Attorney Forwarded Redemption Funds”

7

When adding the event in VendorScape the T45 – Atty Fwrded Redemp Funds automatically will
be placed into MSP

8

Under Task, choose “Add”

9

Then “Production Task –Redemption Funds Posted”

10

When adding the event in VendorScape T37 – Redmptn Funds Posted automatically will be
placed into MSP.
Proceed to Step 14

11

Go to the File Transfer Form on the Tool Menu

12

Launch the FC_Property_Redeemed_Direct_Source or
FC_Property_Redeemed_InHouse_Referred or
FC_Property_Redeemed_InHouse_Non_Referred process
Complete the Property Redeemed DDF.

13
14

Add log code FCREDF (ATTY FWD REDEMP FUNDS TO WF CASH) in MSP or Desktop and
send funds to Des Moines. Entering the FCREDF log code enables the open T37 step to map to
MSP. To enter the log code in Desktop, select Add Note from the Tool Menu, then select Note
Type Foreclosure, and enter the log code in the MSP log code field.

15

Input a detailed message through VendorScape or Desktop, including the tracking information for
shipment of the funds. The funds must be forwarded to Wells Fargo the same day as
receipt. Complete and upload the Funds Remittance Cover Sheet (Appendix B) into
VendorScape or Desktop.

16

Overnight the funds to the Wells Fargo Conventional Claims area to the attention of:
Attn: Wanda Tucker
Mac #X2302-04F
Wells Fargo Home Mortgage /Conventional Claims
1 Home Campus
Des Moines, IA 50328-0001

Reports:
Attorney – Redemption Funds Follow Up: Provides list of loans where the T46 or T53 step is populated but the
T45 actual date has not been updated (Action Required).

Confirmation
Attorney: Your office will be responsible for monitoring the loan during confirmation period.
STEP
1

ACTION
Update the actual date for step T39, AFT SALE CONFIRMATION EXP with the day the
confirmation expires or complete the After Sale Confirmation Expired event in Desktop. This
date cannot be completed with a “future date.”

Non-Foreclosure Title Transfer
In the event that it is determined during our foreclosure action that a foreclosure sale is not necessary due to
Wells Fargo acquiring title via a voluntary foreclosure, consent judgments, lien payoff, etc., Wells Fargo must
inform the investor and the post sale business units within Wells Fargo.
In order to avoid processing delays and investor penalties, Wells Fargo has implemented a new process for
counsel to follow to ensure that we receive notification of these events. In addition to your standard foreclosure
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 72
117

866a

process for notifying Wells Fargo, effective immediately, please adhere to the following guidelines: Your office
will be responsible for monitoring the loan during confirmation period.
Attorney: Update the Non FCL Title Transfer task in VendorScape with the date your office receives the
executed Deed (this information needs to be updated the same day your office receives the signed deed).
VendorScape and Desktop Referrals both need to follow the below procedure:
STEP
1

ACTION
Email SaleResults@wellsfargo.com and outline the chain of events that occurred on the file
the same day that you receive the executed deed.
•

Provide the amount of the deed and a copy of the deed in your email

•

Provide the date your office received the executed deed

2

Add the Y46 (NON-FCL TITLE TRANSFER) step to the FOR3 screen in MSP.

3

Complete the Y46 Actual date on FOR3. Use the date your office received the executed
Deed.
**Please Note** The required steps can be added through VendorScape. Under Task,
choose “Add,” then “Production Task – Non-Fcl Title Transfer.” When adding the event in
VendorScape, the Y46 – Non-Fcl Title Transfer automatically will be placed into MSP.

Massachusetts – Notice of Disposition of Proceeds from Foreclosure Sale
For the state of Massachusetts, if the property is sold and there are surplus funds, the Attorney will need to
provide notification to the mortgagor. The mortgagor will be provided with an itemized accounting of the
disposition of the proceeds from a power of sale, including but not limited to the sale price, legal fees,
auctioneer fees, publication costs and other fees, and any surplus due the mortgagor.
The notice must be provided within 60 days after receipt of such funds; however, if the sale is subject to further
legal proceedings, the notice and accounting may be delayed until the conclusion of those proceedings.
STEP
1

ACTION
Attorney: Enter event MA Surplus Funds through VendorScape or add the FC
Massachusetts Surplus Funds issue in Desktop. The event will map to MSP and step Y45,
SURPLUS FUNDS; ADVSD MTGR, will be entered in the Foreclosure workstation template
or the REO workstation template. Due to the delay from sale held and receipt of funds the
loan may be transferred to REO.

North Carolina – Foreclosure Notice Requests
The lender must provide a notice stating that borrower requests for information have been complied with –
perform the following:
STEP
1

ACTION
WFHM: Image all correspondence except executive communication, affiliate communication,
and email communication.
•

Upload imaged documents to VendorScape or Desktop at the time of foreclosure
referral.

•

If correspondence is received after referral by a business unit that does not utilize
imaging, one of the following canned messages will be uploaded to VendorScape
advising the Attorney of the status of any written correspondence.
Subject - Complaint

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 73
118

867a

Message - Wells Fargo has received and responded to the borrower’s
correspondence in accordance with the NC state statue.
Subject - - Non Complaint
Message - Wells Fargo has received and responded to the borrower’s
correspondence, outside of timelines set within the NC state statue.
Subject - Pending
Message - Wells Fargo has received customer correspondence and is still in the
process or reviewing and providing a response to the borrower
2

Attorney: Your office is responsible for completing the required affidavit to file with the
Notice of Foreclosure based on the information provided by Wells Fargo.

Postponements/Canceled Sales/Restarts
When the file is placed on hold for any reason other than Loss Mitigation and there is a sale scheduled,
follow the procedure below:
STEP
1

ACTION
Attorney: If the file is suspended in the Foreclosure Workstation, confirm the hold in
VendorScape or Desktop and postpone/cancel (according to state guidelines) the sale. Refer to
the Blanket Fee Approval Matrix for fee approval.

2

Attorney: If the file is NOT suspended in the Foreclosure Workstation add the appropriate hold
steps (see Holds).

3

Attorney: If the file is NOT suspended in the Foreclosure Workstation, the following steps must
be updated:

•

4

Add the Sale Postponed Steps: The actual date for the postponement step should be
the date for which the sale was previously scheduled. The Sale Postponed steps should
be entered whether the sale is postponed or cancelled.

o E01 – SALE POSTPONED (1)
o E02 – SALE POSTPONED (2)
o E03 – SALE POSTPONED (3)
o E06 – SALE POSTPONED (4)
o E07 – SALE POSTPONED (5)
o E08 – SALE POSTPONED (6)
For Desktop, proceed to Step 5
For VendorScape, proceed to Step 8
For Desktop Referrals, proceed to Step 11

5

If the Sale is being CANCELLED, go to the File Transfer Form on the Tool Menu

6

Add the FC_Sale_Cancelled_Direct_Source or FC_Sale_Cancelled_InHouse_Referred or
FC_Sale_Cancelled_InHouse_Non_Referred process

7

Complete the Foreclosure Sale Cancelled DDF. Your office will be required manually to enter
the above postponement steps in MSP.

Process complete, proceed to next section
8

Under Task, choose “Add”

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 74
119

868a

9

Choose “Production Task”

10

Choose corresponding event based on whether this is the 1 postponement or subsequent
postponements. When adding the VendorScape event the corresponding step automatically will
be placed into MSP.

st

Process Complete, proceed to next section
11

For Desktop Referrals, go to the File Transfer Form on the Tool Menu

12

Add the FC_Sale_Postponed_Direct_Source or FC_Sale_Postponed_InHouse_Referred or
FC_Sale_Postponed_InHouse_Non_Referred process

13

Complete the Attorney Requests Sale Postponement DDF. This automatically will insert and
complete the E01 step for you.

14

Notate the file with the specific reason the sale is being postponed

15

Update the Actual Sales Date Event in VendorScape or the Foreclosure Sale Held event in
Desktop with the newest sales date.

15

Confirm that the U20 (F/C Scheduled Sales Date – FOR3 in MSP) equals the Actual Date.
Do not update the Foreclosure Sale Held Task in VendorScape with the sales date. That field
should not be completed until the sale is held.

16

To complete subsequent sale postponement requests, Re-Open the previous sale
Postponement process

17

Go to Edit Step Info on the Tool Menu

18

Un-complete the Attorney Requests Sale Postponement step. Complete the step again to add
an additional postponement step.
•
•
•
•
•
•

st

1 Sale Postponed
nd
2 Sale Postponed
rd
3 Sale Postponed
th
4 Sale Postponed
th
5 Sale Postponed
th
6 Sale Postponed

**Please note** If the file is placed on hold and suspended in the Foreclosure Workstation,
DO NOT use the above steps when cancelling or postponing a sale.

When Loss Mit contacts your firm with a request to postpone a sale, follow the procedures below:

STEP
1

ACTION
Attorney: The request to postpone the sale should come with a timeframe (i.e., 30 days). If the
postponement timeframe is not specified, postpone the sale for 30 days and follow the below
process. The following steps need to be updated:
•

Add the Postponement Request Steps:
o

F78 - LM Postponement Request 1 (Actual date equals the date your office is
advised of the postponement.)

o

F79 - LM Postponement End 1 (Actual date equals the date one day prior to the
new scheduled sale date. Complete the step with this date as soon as the new
sale is scheduled.)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 75
120

869a

2

o

527 - LM Postponement Request 2

o

528 - LM Postponement End 2

o

529 - LM Postponement Request 3

o

530 - LM Postponement End 3

o

531 - LM Postponement Request 4

o

532 - LM Postponement End 4

o

533 - LM Postponement Request 5

o

534 - LM Postponement End 5

For VendorScape, proceed to Step 3
For Desktop, proceed to Step 7
For Desktop Referrals, proceed to Step 10

3

Under Task, choose “Add”

4

Choose “Production Task”

5

Choose corresponding event based on whether this is the 1 postponement or subsequent
postponements. When adding the VendorScape event, the corresponding step automatically will
be placed into MSP.

6

st

o Loss Mitigation Advised Attorney to Hold
o Loss Mitigation Hold Lifted
o LM Postponement Request 2
o LM Postponement End 2
o LM Postponement Request 3
o LM Postponement End 3
o LM Postponement Request 4
o LM Postponement End 4
o LM Postponement Request 5
o LM Postponement End 5
Add the Sale Postponed Steps: The actual date for the postponement step should be the date
for which the sale was previously scheduled. The Sale Postponed steps should be entered
whether the sale is postponed or cancelled.
o
o
o
o
o
o

E01 – SALE POSTPONED (1)
E02 – SALE POSTPONED (2)
E03 – SALE POSTPONED (3)
E06 – SALE POSTPONED (4)
E07 – SALE POSTPONED (5)
E08 – SALE POSTPONED (6)

Process complete, proceed to next section
7

In Desktop, if the Sale is being CANCELLED, go to the File Transfer Form on the Tool Menu

8

Add the FC_Sale_Cancelled_Direct_Source or FC_Sale_Cancelled_InHouse_Referred or
FC_Sale_Cancelled_InHouse_Non_Referred process

9

Complete the Foreclosure Sale Cancelled DDF. Your office will be required to enter manually
the above postponement steps in MSP.
Process complete, proceed to next section

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 76
121

870a

10

For Desktop Referrals, go to the File Transfer Form on the Tool Menu

11

Add the FC_Sale_Postponed_Direct_Source or FC_Sale_Postponed_InHouse_Referred or
FC_Sale_Postponed_InHouse_Non_Referred process

12

Complete the Attorney Requests Sale Postponement DDF. This automatically will insert and
complete the E01 step for you.

13

To complete subsequent sale postponement requests, re-open the previous Sale Postponement
process

14

Go to Edit Step Info on the Tool Menu

15

Un-complete the Attorney Requests Sale Postponement step

16

Complete the step again to add an additional postponement step.
•
•
•
•
•
•

st

1 Sale Postponed
nd
2 Sale Postponed
rd
3 Sale Postponed
th
4 Sale Postponed
th
5 Sale Postponed
th
6 Sale Postponed

17

Notate the file with the specific reason the sale is being postponed.

18

Update the Actual Sales Date Event in VendorScape or the Foreclosure Scheduled Sale Date
event Desktop with the newest sales date.

19

Confirm that the U20 (F/C Scheduled Sales Date – FOR3 in MSP) equals the Actual Date.
Do not update the Foreclosure Sale Held Task in VendorScape with the sales date. That field
should not be completed until the sale is held.

20

If there is an actual date for step U30, RQBID INSTR FR MI/INV/INS, step N36, ATTORNEY
COMPLETES BID, or step Z40, RCVD MI/INV/INS BID INSTR, remove the actual date.

21

Update the U31, SEND BID INSTRCTN TO ATTY, if a bid has been completed by taking the
actual date out.

Reports:
Attorney – Sale Postponed: Daily list of loans where the sale has been postponed and an update is needed.
Liaison – Sale Postpone Follow-Up Report: Daily list of loans where Step D50 actual date is not null, step E01,
E02, E03, E06, E07 or E08 actual date is not null and the U20 actual date is null. Enter the log code FCLFPR,
LIAISON FOLLOWED UP FOR POSTPONEMENT REASON, within 24 hours of report when following up on
postponement.

Restarts
If your office finds it necessary to restart the foreclosure, follow the procedure below:
STEP
1

ACTION
In Desktop, the Restart Necessary issue should be raised. Select Issues from the Tool
Menu, Add Issue, and select the “FC Restart Necessary” issue. Provide the reason why the

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 77
122

871a

estart is necessary and proceed to following the below procedure.
2

Remove the actual date from the T01 step (1ST LEGAL ACTN COMPLETED) on the
FOR3 screen in MSP.

3

Attorney: Enter the following steps on FOR3 in MSP:

4

• 523 – Foreclosure Restart 1
• 524 – Foreclosure Restart 2
• 525 – Foreclosure Restart 3
• 526 – Foreclosure Restart 4
Once the first legal action has been filed, complete the actual date of the T01 step on
the FOR3 screen in MSP with the date first legal was filed.
**Please note** Send all fee approval requests via VendorScape to FC_Overallowable_Fee
Request or through Desktop by opening the
FC_Additional_Fees_Costs_Needed_Direct_Source or
FC_Additional_Fees_Costs_Needed_InHouse_Referred or
FC_Additional_Fees_Costs_Needed_InHouse_Non_Referred process and completing the
DDF. Provide detailed information, including a complete breakdown of work to be
performed.
**Please note** If the file is dismissed by the court, a new referral is needed. Restart steps
would not be used in this case. (See New Referral Needed)

Rescinding Sales Procedures
Attorney: Upon determination that a sale needs to be rescinded, you are responsible for ensuring that your
office conducts due diligence prior to submitting any and all rescission requests. Any financial losses due to
Attorney neglect and or timing will be the responsibility of the corresponding counsel.
STEP
1

ACTION
Execution of Rescission Documents (see Executables):
If your office requires Wells Fargo to execute documents to process the Rescission of the
foreclosure sale, please do the following:
•

In the subject please place ‘Notice of Rescission’ in the beginning of the Subject
Line of the email
• Please send the document to doc.execution@wellsfargo.com
NOTE: Failure to do both items mentioned above will delay in the execution of the rescission
document required.
2

Submit an email request to Wells Fargo via RescissionRequests@wellsfargo.com.

3

Email the Rescission Requests mailbox any time your office enters sale results and the T32
is populated and the deed is not recorded. Wells Fargo needs to be notified to correct our
sale reporting and make necessary system changes. The email must contain the following
information:
•
•
•
•
•
•
•
•
•

Subject Line to include: Client, Loan Number, Date of the foreclosure sale that is
being rescinded
Body of Email to include:
Borrower’s Name
Cost of Rescission
New Foreclosure Sale Date
Rescission Reason
Rescission Requestor
Bankruptcy Information (If Applicable)
Include (Person who filed, When filed, Filing Location , Case number and Chapter)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 78
123

872a

•
4

Fee Request

Await authorization from Wells Fargo prior to completing the rescission request.

***Please note*** The first initial FLAT fee request to rescind a sale will be approved by the rescissions team
and your office should bill under the rescission line item. If a litigation action is required to complete a
rescission or the rescission results in litigation, follow the blanket fee approval for hourly litigation, not covered
by DOS.

IF RESCISSION IS GRANTED:
STEP

ACTION

1

WFHM Rescission Team:

2

• Enter log code FCREGR (RESCISSION GRANTED) on NOTS
• Notify attorney via VendorScape or Desktop.
Attorney: Completing the Rescission
Follow the applicable Investor and State Regulatory Guidelines to complete the rescission
request.

3

Provide weekly updates until the rescission has been legally completed. All updates should
be made in VendorScape or Desktop.

4

If at any time during the rescission process, your office is notified that the rescission is not
warranted, notify RescissionRequests@Wellsfargo.com immediately.
•

Subject Line to include: Client, Loan Number, Rescission Denied

•

Body of Email to include:
o

5

Detailed information supporting the rescission denial.

Update the Rescission Completed by Attorney event in VendorScape with completed
rescission date.
For VendorScape, proceed to Step 6
For Desktop, Proceed to Step 8

7

Under Task, choose “Add”
Choose “Production Task – Rescission Completed by Attorney” When adding the event in
VendorScape, the D97 – Rescission Req Snt 2 Atty automatically be will placed into MSP.
Process complete, proceed to next section

8

If this is a Desktop referral, go to the File Transfer Form on the Tool Menu

9
10

Add the FC_Sale Rescinded_Direct Source or FC_Sale Rescinded_InHouse_Referred or
FC_Sale Rescinded_InHouse_Non_Referred process
Complete the DDF

11

Provide a New Foreclosure Sale Date

12

Proceed with Foreclosure Guidelines regarding foreclosure sales

6

IF RESCISSION IS DENIED
STEP

ACTION

1

WFHM Rescission Team:

2

 Enter log code FCREDN (RESCISSION DENIED) on NOTS
 Notify attorney via VendorScape or Desktop.
Attorney:


Your office will proceed with recording of deed and maintain loan status until

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 79
124

873a

confirmation / redemption / ratification is completed.

Re-foreclosures
STEP
1

ACTION
Attorney: Upon determination that a re-foreclosure is required, send notification to Wells
Fargo via email to RescissionRequests@wellsfargo.com. Include the following information in
your email:

2

 Detailed reason why the re-foreclosure is necessary.
 Expected timeframe of the re-foreclosure.
WHFM Rescission Team: Reopen the Foreclosure Workstation and add the 520 REFORECLOSURE STARTED and the 521 RE-FORECLOSURE COMPLETED steps.
Complete the 520 step and leave the actual date of the 521 step open to be completed by
the Attorney once the re-foreclosure is completed.

3

Attorney: Once the re-foreclosure is finalized, complete the 521 RE-FORECLOSURE
COMPLETED step in MSP.

Closing Your File
Attorney: Upon completion of the foreclosure or upon receipt of notification to “close and bill,” you are required
to close VendorScape or Desktop within 24 hours of notification or completion of foreclosure.
Reports:
Attorney – Removed from Foreclosure Previous Day: Daily list of loans that were removed (foreclosure
workstation closed) previous day with removal description. This report notifies the Attorney to close and bill
their file, as well as close out VendorScape or Desktop (Action Required).

Taxes, Condo Dues, and Property Damage
Delinquent Taxes (Jeopardizing Lien)
STEP
1

ACTION
Attorney: Determine if the delinquent taxes are placing Wells Fargo’s lien in jeopardy and if it is
necessary to pay the taxes at this time.
NOTE: All Wells Fargo Home Equity and Wells Fargo Financial tax issues will need to be
handled by other teams outside of the Wells Fargo Tax Department.
To prevent any delays in the research and resolution of all tax issues pertaining to these
two specific types of loans, please send all of your tax research requests directly to the
following mailboxes:

Type of Wells Fargo Loan

Location to Send Tax Research/Payment
Requests

Wells Fargo Financial
Wells Fargo Home Equity

taxwffloans@wellsfargo.com
ForeclosureInfoWFHE@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 80
125

874a

2

Attorney: For all other delinquent tax issues, check the TAX2 and TAXN screen on MSP to see
if taxes have been disbursed. The bottom right section of screen shows disbursement and
refund history available to you on the TAX2 screen.

3

Attorney: Once you have validated that the taxes need to be paid to ensure our lien is not
jeopardized, determine if the loan is escrowed or non-escrowed for taxes. If the bill code on
TAX2 (see above example) is equal to a “3,” it is a non-escrowed loan. Any other bill code (A, B,
C, 1, 2) indicates the loan is escrowed for taxes. Notification to the tax department can be
completed through VendorScape.

•

The Wells Fargo Tax Department does not prepay taxes. If the taxes need to be paid ahead
in certain circumstances, they will not pay beyond 60 days forward.

•

The Wells Fargo Tax Department will also not pay** any pro-rated tax amounts, but can pay
the amounts in full if they are due within 60 days.
**Exceptions: In Virginia and a few specific Ohio counties, special requirements exist
around taxes paid prior to sale. See matrix below for further direction on how to handle prorated/estimated taxes required to be paid in these two areas.
Types of Non-Real Estate Taxes That the WFHM Tax Department Does Not Pay
Type
Loan has an unpaid non-real estate property
tax bill due that needs paid prior to foreclosure
sale


Utility, realty transfer tax, transfer of
deed tax, special assessment,
personal property taxes, etc.
Exception if TAX SALE situation does exist:
Follow the “TAXFC3” task process as defined
below to submit. Our specialized Tax Sale
Department WILL handle these exceptions.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

How to request/handle payment
1. Advance funds to pay non-property
tax items and submit invoice to I-Clear
for reimbursement.
OR
2. Submit invoice to the Default
Accounts Payable team (through IClear) for payment.

Page 81
126

875a

Coop Leases/
Home Association Dues

Refer to Homeowners/Condo Dues
section of this manual for further
direction

Mobile Home Issues

Refer to Manufactured/Mobile Home
Issues section of this manual for further
direction
1. Advance funds to pay non-property
tax items and submit invoice to I-Clear
for reimbursement AND use canned
message process, outlined below, to
advise the tax department of the action
you are taking.
OR

Pro-Rated or Estimated taxes that are
required to be paid in the state of Virginia or
Ohio’s Champaign, Franklin and Trumbull
Counties in order to obtain confirmation of
sale and deed
4

2. Submit invoice to the Default
Accounts Payable team (through IClear) for payment AND use canned
message process, outlined below, to
advise the tax department of the action
you are taking.

Attorney: Access VendorScape and send a canned message using the New Message option
and indicate the appropriate six-digit subject code, as outlined in the matrix below, from the drop
down list (see example provided below). It is important that the appropriate six-digit subject line
be selected for each situation. This code will trigger the appropriate Wells Fargo Tax Team to
research and complete your request.

PLEASE BE ADVISED THAT YOUR OFFICE MUST CREATE THE CANNED MESSAGE FOR
YOUR DROP DOWN LIST IN THE SAME MANNER YOU WOULD CREATE A LOG CODE.
5

Attorney: For Desktop referrals, select Issues from the Tool Menu and raise the corresponding

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 82
127

876a

Issue. It is important that the correct log code be selected for each situation. This code will
trigger the appropriate Wells Fargo Tax Team research and complete your request.
FC TAXFC1

Used when a loan is escrowed and current/delinquent real estate taxes
need paid prior to sale. Include the important information and tax
amount(s) needed for payment of the taxes due.
Parcel/Pin Number
Payee – Tax Office & Address
Amount to be paid (broken down by base amount, penalty and interest,
and fees). Advise if certified funds are required.
Installment timeframe – pay-thru date and year

FC TAXFC2

Used when a loan is non-escrowed and current/delinquent real estate taxes
need paid prior to sale. Include the important information and tax
amount(s) needed for payment of the taxes due:
Parcel/Pin Number
Payee –Tax Office & Address
Amount to be paid (broken down by base amount, penalty and interest,
and fees). Advise if certified funds are required.
Installment timeframe – pay-thru date and year

FC TAXFC3

Used when a loan is either non-escrowed OR escrowed, and a tax sale is
scheduled within 30 days because of unpaid taxes owed. Include the
important information and tax amount(s) needed for payment of the taxes
due.
Parcel/Pin Number
Payee – Tax Office & Address
Amount to be paid (broken down by base amount, penalty and interest,
and fees). Advise if certified funds are required.
Installment timeframe – pay-thru date and year

Situation

Loan Indicator
Reference in MSP

Six Digit Code to use/How to
request payment

Loan is escrowed and
current/delinquent real
estate taxes need paid
prior to sale
OR
Loan escrowed AND in the
state of Ohio AND you
have advanced funds on
behalf of WFHM in order to
obtain confirmation of sale
and deed

Bill code on TAX2
screen is NOT equal to
a "3"

TAXFC1

OR
Loan is escrowed and there
is a scheduled tax sale set
out for more than 30 days
because of unpaid taxes
owning

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 83
128

877a

Loan is non-escrowed and
current/delinquent real
estate taxes need paid
prior to sale
OR
Loan is non-escrowed AND
in the state of Ohio AND
you have advanced funds
on behalf of WFHM in order
to obtain confirmation of
sale and deed

Bill code on TAX2
screen = "3"

TAXFC2

n/a

TAXFC3

OR
Loan is non-escrowed and
there is a scheduled tax
sale set out for more than
30 days because of unpaid
taxes owning
Loan is either nonescrowed OR escrowed
and there is a scheduled
tax sale within 30 days
because of unpaid taxes
owing

***Please note***WFHM’s Tax Department considers a “tax sale” as a sale of the
delinquent taxes (not the sale of the property). If there is a tax foreclosure sale/auction, it
should be sent as a TAXFC3 task and considered urgent. If there is an extreme
emergency, please utilize the email address TaxSale@wellsfargo.com. If it is urgent, mark
the email as urgent as this mailbox is monitored regularly.
6

7
8

Attorney: In the “free form note section” of the message, include the important information and
tax amount(s) needed for payment of the taxes due.
• Parcel/Pin Number
• Payee – Tax Office & Address
• Amount to be paid (broken down by base amount, penalty and interest, and fees). Please
advise if certified funds are required.
• Installment timeframe – pay-thru date and year
• Once this information has been entered, click on Send Button.
Tax Department: Complete the request within 5 days.
Attorney: Submit any non-real estate property taxes through I-Clear for payment unless there is
a tax sale situation occurring. In those cases, use the TAXFC3 canned and the WFHM Tax Sale
Group will handle the research and payment.

Homeowners/Condo Dues
STEP
1

ACTION
Attorney: If your office determines that Homeowners or Condo association dues/fee
become due and it is imperative that they be paid, Wells Fargo asks that you pay these and
submit your invoice via I-Clear. Include in your invoice proof of payment for these fees.

2

Attorney: If your office cannot honor this request, add log code FCDQCN (DLQ
HOMEOWNERS/CONDO DUES ND TO BE PAID) to FOR2 in MSP or in Desktop and

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 84
129

878a

contact the Liaison immediately via VendorScape or Desktop including detail information. To
enter the log code in Desktop, select Add Note from the Tool Menu then select Note Type
Foreclosure and enter the log code in the MSP log code field.
3

In Desktop, Select File Transfer from the Tool Menu and launch the FC_HOA_City
Lien_Direct Source or FC_HOA_City Lien_InHouse_Referred or FC_HOA_City
Lien_InHouse_Non_Referred process; manually add log code

4

Liaison: If you receive notification from your attorney that the Homeowners or Condo
association dues need to be paid, send notification to DAP with all the information provided
by the Attorney.

•

Add log code FCCDAP (HOA/CONDO DUES SUBMITTED TO DAP).

Reports:
Liaison – Delinquent Condo Dues: Daily report of all loans where attorney entered FCDQCN and FCCDAP is
not present. (Action Required)

Violation/Damage/Property Preservation Issues
STEP
1

ACTION
Attorney: If your office is notified of a property preservation issue, such as vacancy or
maintenance needed, you will need to enter log code FCPREV (PRESV ISSUE – NOTIFY
PP DEPT) on FOR2 in MSP or in Desktop. To enter the log code in Desktop, select Add
Note from the Tool Menu, then select Note Type Foreclosure, and enter the log code in the
MSP log code field.
•

2

Email Wells Fargo at property.preservation@wellsfargo.com, notify them of the issue
and provide detailed information.

Attorney: If your office is notified of a violation on a property, you will need to enter log
code FCLVIO (F/C ATTY NOTIFIED OF VIOLATION) on FOR2 in MSP or in Desktop. To
enter the log code in Desktop, select Add Note from the Tool Menu then select Note Type
Foreclosure and enter the log code in the MSP log code field.

•

Email Wells Fargo at codeviolations@wellsfargo.com and provide details on the violation
issue. Wells Fargo will contact your office to obtain further documentation with regard to
the violation. Once notification from the Attorney is received, Wells Fargo will contact
your office to obtain further documentation in regards to the violation.

•

If your office receives notification of the violation via email from Wells Fargo, do not
forward this violation to the above email address

Reports:
Attorney – Property Preservation Issue: Weekly list of loans that have a Property Preservation issue.
(Review)
Attorney – Vacant Property: Weekly report of all loans with vacant occupancy so Attorney can make the
determination to reduce redemption, or used for VA appraisal ordering. (Action Required)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 85
130

879a

Litigation
Wells Fargo has a department assigned to assist in litigation efforts. Its name is Default Operations Support
(DOS) and is located in Fredrick, Maryland. The DOS team is not a legal department and there are no
attorneys on staff. Wells Fargo’s Legal Department is located in Des Moines, Iowa.
WFHM: Add the FC Client Managed Litigation hold to the Desktop file if the litigation is being resolved
internally (this hold is only to be placed by WFHM).

Foreclosure Litigation

Depending upon the litigation issue, your office may be required to deal directly with DOS. The representative
that is assigned to the case will place his/her name in the processor code on FOR1 and insert D87, SPEC
LITIGATION STARTED, and D88, SPEC LITIGATION CLOSED, Steps into FOR3, and an R stop on SAF1.
The following situations would require assistance from DOS.
STEP
1

ACTION
Attorney: You should no longer be accepting service on behalf of Wells Fargo on any cases.
Additionally, you should no longer be sending Wells Fargo copies of suits as an “FYI.” Wells
Fargo will wait until we are served.

2

Attorney: If your office is notified of one of the following issues:
•

•
•
•
•
•
•
•
•
•
•
•

Discovery/Interrogatories (Fee requests are to be approved by the liaison by sending the
request via VendorScape message to FC_Overallowable_Fee_Request or by opening the
FC_Additional_Fees_Costs_Needed_Direct_Source or
FC_Additional_Fees_Costs_Needed_InHouse_Referred or
FC_Additional_Fees_Costs_Needed_InHouse_Non_Referred process through the File
Transfer Form on the Tool Menu in Desktop
Temporary restraining order that has been entered/granted by the court
Order to Show Cause (NY)
Motion to Dismiss
Answer with Counterclaims
Answer with Affirmative Defenses
Cross Complaint Filings
MSJ Denials
Sanctions
Appeals
Small Claims Cases
Lack of Standing Matters as the ONLY basis of the argument (OH and MA ONLY)

*** In all other states these matters can be handled by counsel with the FCL Liasion***
•
3

For matters filed in California and Nevada, please send to
ServiceOfProcess@wellsfargo.com.

Contact DOS via the FCLitTeam@wellsfargo.com email box and copy the Liaison. Include in
the email:
•
•

Firm Name, Contact Information for Attorney Assigned to the Case (Name, Telephone
Number, Email Address)
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s
Name:

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 86
131

880a

•
•
•
•

•
4

Foreclosure Liaison Name and Telephone Number:
Hearing Date, Location, and Time:
Detail Information of Issue:
Copy of pleadings and/or completed interrogatories as attachment
Initial Fee Request (Litigation matters only)

Enter log code FCCNTN (CONTESTED FC/COUNTERCLAIM/ADVERSARY NOTIFICATION)
on FOR2 in MSP or in Desktop. To enter the log code in Desktop, select Add Note from the
Tool Menu then select Note Type Foreclosure and enter the log code in the MSP log code
field.

Post Foreclosure Litigation
Attorney: If your office is notified of one of the following issues:
• Wrongful Foreclosure
• Exceptions filed in response to the foreclosure sale
STEP
ACTION
Contact DOS via the LitPostSaleREO@wellsfargo.com email box. Include in the email:
1
•
•
•
•
•
•
2

Firm Name, Contact Information for Attorney Assigned to the Case (Name, Telephone
Number, Email Address)
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s
Name:
Hearing Date: Location: Time:
Detail Information of Issue:
Copy of pleadings as attachment
Initial Fee Request (Litigation matters only)

Eviction matters and bankruptcies filed after the foreclosure sale are not handled by DOS and
should be submitted to your REO contact.

Bankruptcy Litigation
Attorney: If your office is notified of one of the following issues:
•
•

Trustee Lien Avoidance
Objection to POC
STEP
ACTION
Contact DOS via the BKLitTeam@wellsfargo.com email box and include the following
1
information in the email: Include in the email:
•
•
•
•
•
•
2

Firm Name, Contact Information for Attorney Assigned to the Case (Name, Telephone
Number, Email Address)
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s
Name
Hearing Date, Location, and Time
Detail Information of Issue:
Copy of pleadings as attachment
Initial Fee Request (Litigation matters only)

For Bankruptcy Adversaries and Sanctions, please see Other Contested Matters.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 87
132

881a

Fee Approval for Litigation
Fee approval must be obtained prior to any work performed on a litigated case. Receipt of written fee approval
from a Litigation Specialist is your authorization to represent Wells Fargo. Invoices submitted for work
performed without the requisite prior fee approval, may not be honored.

Foreclosure or Bankruptcy Witness Only
Attorney: If your office is notified that a personal appearance is required to provide testimony in open court or
in a deposition, contact DOS via the WitnessRequestsDOS@wellsfargo.com email box. Include in the email:
•
•
•
•
•
•

Firm Name, Contact Information for Attorney Assigned to the Case (Name, Telephone Number, Email
Address)
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s Name
Foreclosure Liaison Name and Telephone Number
Hearing Date, Location, and Time
Detail Information of Issue
Copy of the Notice of Deposition as attachment

All fee requests for witness only matters should be directed to your assigned liaison via VendorScape as a
message to FC_Overallowable_Fee_Request or through the
FC_Additional_Fees_Costs_Needed_Direct_Source or
FC_Additional_Fees_Costs_Needed_InHouse_Referred or
FC_Additional_Fees_Costs_Needed_InHouse_Non_Referred process in the File Transfer Form on the Tool
Menu in Desktop and NOT to the DOS team.
For mediations and settlement conferences on non-litigated loans, please see Mediation/Conference.

Government Forfeit and Seizure
STEP
1

ACTION
Attorney: If your office is notified of a Government Forfeit/Seizure, contact DOS via the
DefaultLitTeam@wellsfargo.com email box. Include in the email:
•
•

2

Firm Name, Attorney Contact, Telephone Number, and Email Address:
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s
Name:
• Foreclosure Liaison Name and Telephone Number:
Attorney: Once the determination is made that the Government Forfeit/Seizure will delay the
foreclosure process, enter the D49 XOVERNMENT SEIZURE step and the X64
FORFEIT/SEIZURE RESOLVED step on FOR3 in MSP. Complete the D49 step and leave the
actual date of the X64 step open to be completed once the foreclosure can proceed.

Other Matters Handled by DOS
Attorney: If your office is notified of one of the following issues:
• Quiet Title Suit
• Bankruptcy Adversary/Sanctions
STEP

ACTION

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 88
133

882a

1

Send notice to ServiceofProcess@wellsfargo.com. Include the following information in the
email:
•
•
•
•
•
•

Firm Name, Attorney Contact, Telephone Number, Email Address:
Wells Fargo Loan Number (including MSP client #), Property Address, and Borrower’s
Name:
Foreclosure Liaison Name and Telephone Number:
Hearing Date: Location: Time:
Detail Information of Issue:
Copy of pleadings as attachment

2

If the answer is due within 15 days of you providing notice, file for an extension.

3

Enter log code FCCNTN (CONTESTED FC/COUNTERCLAIM/ADVERSARY NOTIFICATION)
on FOR2 in MSP or in Desktop. To enter the log code in Desktop, select Add Note from the
Tool Menu, then select Note Type Foreclosure, and enter the log code in the MSP log code
field.

Contested Files
This process should be followed any time the foreclosure is disputed.
**Please note** This process is not for lawsuits.
Attorney: When a file becomes contested, add the following steps to the FOR3 screen within MSP.
STEP
1
2
3

ACTION
Add step D99, CONTESTED F/C (GENERIC), to FOR3 and complete the actual date with the
date you became aware of the issue
Add step E10, CONTESTED ISSUE COMPLETED, to FOR3 and leave the actual date open.
Once the contested issue is resolved, complete step E10 on FOR3 with the date this issue was
resolved or completes the Contested Issue Resolved DDF in Desktop.

For VendorScape:
STEP

ACTION

1

Under Task, choose “Add”

2

Choose“Production Task – Contested Foreclosure.” When adding Contested Foreclosure through
VendorScape, the D99 and E10 steps automatically will be placed into MSP.

3

The E10 step will map over as an open step; do not fill the date in until the contested issue is
resolved.

4

Once the issue is resolved, enter task Contested F/C Resolved. This will add the actual date to the
E10 step

For Desktop:
STEP

ACTION

1

Go to the File Transfer Form on the Tool Menu

2

Add the FC_Contested_Direct_Source or FC_Contested_InHouse_Referred or
FC_Contested_InHouse_Non_Referred process

3

Complete the Contested Foreclosure DDF. This will automatically insert the D99 and E10
steps in MSP and complete the D99 step.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 89
134

883a

4

Once the issue is resolved, complete the Contested Issue Resolved DDF. This automatically
will complete the E10 step in MSP.

Mortgagor Represented By Counsel
Attorney: When your office is made aware that the mortgagor is represented by counsel, add the following
steps to the FOR3 screen within MSP.
STEP
1
2
3

ACTION
Add step E80, FC REQST DO NOT CALL, to FOR3 in MSP and complete the actual date with
date step is being entered.
Add step E81, FC REQST RESUME CALL, to FOR3 in MSP and leave the actual date open.
Once the mortgagor no longer is represented by counsel or has reinstated or paid in full,
complete the actual date for step E81 with the date the mortgagor is no longer represented or
the date reinstatement or payoff funds were received.

For VendorScape:
STEP

ACTION

1

Under Task; choose “Add”

2

Choose “Production Task – Foreclosure Request DO NOT CALL.” When adding the event
Foreclosure

3

Request DO NOT CALL through VendorScape, the E80 – FC Reqst Do Not Call and E81 – FC
Reqst Resume Call automatically will be placed into MSP. The E81 step will map over as an open
step; do not fill the date the borrower is no longer represented by counsel.

For Desktop:
STEP

ACTION

1

Go to the File Transfer Form on the Tool Menu

2

Add the FC_Mortgagor_Represented_by_Counsel__Direct_Source or
FC_Mortgagor_Represented_by_Counsel__InHouse_Referred or
FC_Mortgagor_Represented_by_Counsel__InHouse_Non_Referred process

3

Complete the Mortgagor Represented by Counsel DDF. This automatically will insert the E80
and E81 steps to MSP and complete the E80 step.

4

Once the Mortgagor is no longer represented by counsel or has reinstated or paid in full,
complete the Mortgagor No Longer Represented by Counsel event. This automatically will
complete the E81 step in MSP.

Probate
STEP

ACTION

1

Attorney: If your office receives notification that the mortgagor is deceased,
Enter step D55, DECEASED MTGR (PROBATE), on the FOR3 screen in MSP and populate the
actual date with the date they are entering the step
Enter step D82 DECEASD MTG(PROBATE)RSLVD and keep the actual date blank until the
Probate issue is completed

2
3

Once the issue is completed, please complete the actual date with the date of resolution
(currently there is not a task in VendorScape or Desktop to map this step to MSP

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 90
135

884a

4

Note VendorScape or Desktop with detailed information, course of action that needs to be
taken, and any additional fee approval request.
**Please Note** The required step D55 can be added through VendorScape or Desktop.
For VendorScape, proceed to Step 5
For Desktop, proceed to Step 7

5

Under Task, choose “Add”

6

Choose “Production Task – Deceased Mortgagor (Probate).” When adding the event in
VendorScape, the D55 – Deceased Mtgr (Probate) automatically will be placed into MSP
Proceed to Step 14

7

Go to the File Transfer Form on the Tool Menu

8

Add the FC_Probate_Direct_Source or FC_Probate_InHouse_Referred or
FC_Probate_InHouse_Non_Referred process

9

Complete the Probate Research Needed DDF. This automatically will insert and complete the
steps for you. Once the issue is resolved, complete the Probate Resolved event.

10

The Probate hold also will need to be added when the borrower is deceased. Select Holds from
the Tool Menu

11

Select “FC Probate” as the hold Reason.

12

Comments should indicate the name of the deceased borrower, what action is being taken, or
what approvals are needed to proceed.
A copy of the death certificate is to be obtained and uploaded to imaging.
Liaison: If customer service receives notification that the borrower is deceased after the loan
already has been referred for foreclosure, they will place log code RCVDC (RECEIVED
DEATH CERTIFICATE) on the loan. Management will receive a report daily of all loans where
the log code was placed on the loan the previous day and will, in turn, notify the liaison.

13
14

15

Add log code FCDCAT (ATTY NOTIFIED OF DECEASED BORROWER ISSUE) on FOR2.

16

Notify the Attorney that the mortgagor is deceased.

Reports
Liaison – Death Certificate Received: Daily report of all loans where customer service has entered log code
RCVDC and there is no long code FCDCAT. The Liaison is required to notify the Attorney that the mortgagor is
deceased and update FOR2 with FCDCAT log code. (Action Required)

Mediation/Conference
Attorney: As soon as you are notified of the Mediation, follow the below process:
Notification of the Conference:
STEP
1
2

ACTION
Cancel the conference if the loan is in active bankruptcy.
Notify WF of the Mediation Conference as soon as notified by emailing one spreadsheet daily to
FCDAP@wellsfargo.com
•
•

Please send any documents received prior to the scheduling of the mediation to the FCDAP
mailbox.
Financial Documents/Packages – All emails with financial documents attached should list in

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 91
136

885a

the subject line as ***FINANCIAL DOCUMENTS & MEDIATION DATE****.
Please refer to the master contact list that indicates who your contact will be for
mediation. The contact list is sorted by state first and then investor. If your
applicable state is not available, then your contact will be assigned by investor.
(Contact list is provided by Loss Mitigation Manager)
Update Fidelity with tracking steps.
•

3

•

K74 MEDIATION / CONFERNCE SCHD
Actual date will be populated with the date the borrower opts in or mandatory mediation is
determined. (Whichever is applicable in your state)

•

K75 MEDIATION / CONFERNCE CLSD
Actual date should be populated when all mediations/conferences have been held or if the
mediations/conferences are cancelled. If the mediations/conferences are cancelled, then
notification must be sent to Loss Mitigation at FCDAP@wellsfargo.com

4

If this is a Desktop referral

5

Go to the File Transfer Form on the Tool Menu

Add the FC_Mediation_Conference_Direct_Source or
FC_Mediation_Conference_InHouse_Referred or
FC_Mediation_Conference_InHouse_Non_Referred process
Complete the Mediation/Conference Scheduled step. This automatically will insert and
7
complete the steps for you.
**Please note** MI files – Please refer to specific state instructions as to how to populate tracking
steps.
6

Leading up to and on the day of the conference
STEP
1
2

ACTION
Attorney should refer to the master contact list to determine assigned negotiator
On the day of the hearing, the attorney should dial 1-877-238-4898. The Negotiator should
only be contacted directly if no one is available via 1-877-238-4898.
•

6

If documents are received after the mediation is scheduled please send to the assigned
negotiator with the subject line: ***FINANCIAL DOCUMENTS & MEDIATION DATE****.
Attorney will document the information provided by the WF negotiator and reference this
information during the hearing.
If the conference is rescheduled, the attorney will provide additional clarification on what is
required.
Any evaluation form required to be filled out after mediation will need to be sent to the LM
processor or negotiator assigned with a required return date.
VendorScape or Desktop must be updated with any actions taken by the attorney.

7

For any questions or concerns please contact

3
4
5

Nicole Miles-Todd – Project Manager Foreclosure at 803-396-4182 or
Nicole.S.Miles@wellsfargo.com
James Cooke – Manager Loss Mitigation Mediation Team 803-396-7494
James.Cooke@wellsfargo.com

Roth Lawsuits
Any litigation showing the plaintiff’s attorney as Mitchell W. Roth, also known as M. W. Roth P.L.C, and the
lawsuit is claiming unfair debt collection, predatory lending, or RICO violations, should be forwarded to
ServiceOfProcess@wellsfargo.com.
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 92
137

886a

Dismissal Procedures
Attorney: If your office becomes aware that the foreclosure case is dismissed:
STEP

ACTION

1

Send a message or intercom to your liaison advising of the dismissal and the reason the case
was dismissed.

2

Add the 679 FC ACTION DISMISSED step to FOR3 in MSP and complete the actual date with
the date the case was dismissed.

3

Liaison: Close the Servicer side of VendorScape or close the open processes and launch the
Close and Bill process in Desktop to notify the attorney to close his/her file

4

WFHM Losses: Pulls a daily report of foreclosure files that have the 679 step. Move all
recoverable fees to non-recoverable fees. Once the fees have been moved, send the file to
foreclosure removals.

***Referral Automation will pick up these files and re-refer them to foreclosure if they are clear to
proceed with foreclosure***

Holds
State Specific Holds in Desktop
In Desktop, select Holds from the Tool Menu and add the following holds if applicable:
FC NCHFA Program (NC)

Hold used to indicate when the borrower has applied
for assistance from the NCHFA Program.

FC CTHA Program (CT)

Hold used to indicate the borrower has applied for
assistance from the CTHA Program.

FC New Jersey State
Hold

Hold used when State Law requires (Maps J90/J91
steps)

FC PHFA Program (PA)

Hold used to indicate the borrower has applied for
assistance from the PHFA Program.

Soldier and Sailor Civil Relief Act Procedures
Attorney: If after any of your mandatory Soldiers and Sailor Civil Relief Act reviews or your office receives
communication that the mortgagor may be on active duty, place the file on hold and follow instructions outlined in PreSale Loan Review. In Desktop, open the FC Soldiers and Sailors Relief Act issue for the Servicer to place the file on
Hold. Select Issues from the Tool Menu, Add Issue, and select “FC Soldiers and Sailor Relief Act” issue. Upload a
copy of the active duty paperwork if available and/or provide details regarding the source advising our firm of the
active duty.

Bankruptcy
Notice of Bankruptcy Filing

Notices of bankruptcy filings are received from multiple, different sources. As a result, the Bankruptcy
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 93
138

887a

Department requires that all bankruptcy filing notices contain specific information sent to a specific entry point.

Pre-Foreclosure Sale
Attorney: If your office receives notice of a new bankruptcy prior to the foreclosure sale:
STEP
1
2

ACTION
Note on FOR2 the details of the bankruptcy filing
Add step E15 (Bankruptcy Filed Notification) – the “actual” date should be filled in with the date
your office enters the step.
In Desktop, select Issues from the Tool Menu, add Issue, and select the “FC Bankruptcy
Notification” issue.
**Please Note** The required steps can be added through VendorScape or Desktop.
For VendorScape, proceed to Step 3
For Desktop, proceed to Step 5

3

Under Task, choose “Add”

4

Choose “Production Task – Bankruptcy Filed.” When adding the event in VendorScape, the E15
– Notified of BKCY Filing automatically will be placed into MSP.
Proceed to Step 7

5

Select Holds from the Tool Menu

6

Select “FC Bankruptcy Filed” as the hold Reason. This will map the E15 step to MSP.

7

Note the foreclosure file in VendorScape or Desktop and place the file on hold in VendorScape
or Desktop

8

Email the Bankruptcy Department at BKsetups@wellsfargo.com
•

The subject line of the email should contain the WFHM Client and Loan numbers

•

The email should contain the following information
o
o
o
o
o
o
o
o

Name of Party who Filed
Case Number
Date filed
Chapter filed
State filed in
District filed in
Trustee Name
Mortgagor Bankruptcy Attorney Name

Post-Foreclosure Sale
STEP
1

ACTION
Attorney: If your office receives notice of a new bankruptcy after to the foreclosure sale, your
office is responsible for determining if the filing will invalidate the sale.
If the sale is INVALID:
•

Submit an email request to Wells Fargo via RescissionRequests@wellsfargo.com to ensure
the appropriate steps on FOR3 and appropriate stops on SAF1 are rolled back.
o

•

The Bankruptcy Department will NOT accept notice until these updates are made

Once these updates are made, follow the Bankruptcy procedures for Pre-Foreclosure Sale
notification

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 94
139

888a

2

If the sale is VAILD and no proof of claim is necessary:

•

The Attorney is authorized and required to complete all necessary actions to ensure the
completion of the Foreclosure process
o

3

This includes filing an MFR with the Bankruptcy court to allow eviction of residents,
conveyance to investors or routing to REO

If the sale is VALID and a proof of claim must be filed:

•

Add step E15 (Bankruptcy Filed Notification) – the “actual” date should be filled in with the
date your office enters the step.

For VendorScape, proceed to Step 4, otherwise proceed to Step 6
4

Under Task, choose “Add”

5

Choose “Production Task – Bankruptcy Filed.” When adding the event in VendorScape, the E15
– Notified of BKCY Filing automatically will be placed into MSP.

6

Note the foreclosure file in VendorScape or Desktop and place the file on hold in VendorScape
or Desktop

7

•

Email the Bankruptcy Department at BKsetups@wellsfargo.com.

The subject line of the email should contain the WFHM Client and Loan numbers
The email should contain the following information
 Name of Party who Filed
 Case Number
 Date filed
 Chapter filed
 State filed in
 District filed in
 Trustee Name
 Mortgagor Bankruptcy Attorney Name
 Please include note – POC needs to be filed, sale is valid and bankruptcy is valid
WFHM: You will receive a daily report of all loans there have been reactivated into foreclosure
from either bankruptcy or loss mitigation. Notify the attorney via VendorScape or Desktop that
the loan has been reactivated into foreclosure.
o
o

8

9

Attorney: Once you receive notification through VendorScape or Desktop that the bankruptcy
has been released, you will need to determine if foreclosure action can continue.

Bankruptcy Filed by Junior Lien Holder
There may be situations where a junior lien holder files a bankruptcy that effects our foreclosure action. These
filings can prevent us from going to foreclosure sale until the bankruptcy is dismissed, discharged, or we obtain
relief.
Attorney: If your office receives notice of a bankruptcy filing by a junior lien holder:
STEP
1

ACTION
For Vendorscape:

Complete event Jr. Lien in Bankruptcy in VendorScape. This will add and complete step W09,
JR LIEN IN BNK, and add step E90, JR BNK RELEASED. Include the bankruptcy case
number, chapter, and company that filed the bankruptcy.
For Desktop:
If the foreclosure action cannot proceed as a result of a junior lien bankruptcy filing, select Holds
from the Tool Menu and select “FC Jr Lien Bankruptcy” as the hold Reason in Desktop. Within
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 95
140

889a

the Hold comments, indicate the entity that filed the bankruptcy, its lien position, date filed,
chapter, case number, and district/division.
2

Once the loan has been released from bankruptcy or we have obtained relief, the bankruptcy
department will complete the actual date for the E90 step. Your office will receive a message
through VendorScape or Desktop to proceed with the foreclosure
**Please Note** The required steps can be added through VendorScape or Desktop.
For Desktop, proceed to Step 3
For VendorScape, proceed to Step 8

3

Go to the File Transfer Form on the Tool Menu

4

Add the FC_Jr_Lien_BK_Direct_Source or FC_Jr_Lien_BK_InHouse_Referred or
FC_Jr_Lien_BK_InHouse_Non_Referred process

5

Complete the Junior Lien Bankruptcy Filed DDF. This automatically will insert the W09 and E90
steps to MSP and complete the W09 step

6

Include the bankruptcy case number, chapter, and company that filed the bankruptcy.

7

Once the loan has been released from bankruptcy or relief has been obtained, complete the Jr.
Lien BK Released DDF. This automatically will complete the E90 step in MSP.

Court Delays
Attorney: If the file is delayed due to delays in the court:
STEP
1

ACTION
Enter step E59 COURT DELAY step, and then populate the actual date with the date that the
delay began

2

Enter the step E60 COURT DELAY ENDED, and leave the actual date open

3

You will need to provide Wells Fargo with an update on the hold every 30 days. This needs to
be documented in VendorScape or Desktop.

4

Once the delay has ended and the foreclosure action can proceed, populate the actual date for
step E60 with the date you are resuming the foreclosure.

NJ State Specific Court Delay
Attorney: If the file is delayed due to delays in the court, and.
STEP
1

ACTION
Enter step 663 NJ COURT DELAY step, and populate the actual date with the date that the delay
began.

2

Enter the step 664 NJ COURT DELAY ENDED and leave the actual date open.

3

You will need to provide Wells Fargo with an update on the hold every 30 days. This needs to be
documented in VendorScape or Desktop.

4

Once the delay has ended and the foreclosure action can proceed, populate the actual date for
step 664 with the date you are resuming the foreclosure.

5

**Please Note** The required steps can be added through VendorScape.
Under Task, choose “Add”

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 96
141

890a

6

Choose “Production Task – NJ Court Delay.” When adding the NJ Court Delay event through
VendorScape, the 663 – NJ Court Delay and 664 – NJ Court Delay Ended automatically will be
placed into MSP.

Foreclosure on Hold
Attorney: If the file needs to be placed on hold for any reason that does not have specific steps or is not listed
above:
STEP
1

ACTION
Enter step D50, F/C ON HOLD (SEE FOR3), and populate the actual date with the date the
foreclosure is being placed on hold

2

Enter the step D51, F/C RESUME (SEE FOR3), and leave the actual date open (these steps
must be added manually to MSP for Desktop Referrals only if there are no other
holds/issues/delay steps that can be used).

3

In Desktop, Select Holds from the Tool Menu and select “FC Client/Investor Request” as the
hold Reason. This hold is only to be used for reasons other than the specific holds and should
be used sparingly

4

Note VendorScape or Desktop with detailed information outlining the problem on the date that
the hold is placed.
You will need to provide Wells Fargo with an update on the hold every 30 days. This needs to
be documented in VendorScape or Desktop and MSP.

5
6

Once the issue has been resolved and we can proceed with the foreclosure action, populate
the actual date with the actual date for step D51 with the date you are resuming the
foreclosure.
The steps can be added through VendorScape.

7

Under Task, choose “Add”

8

Choose “Production Task – Hold”, when adding Hold through VendorScape, the D50 – F/C ON
HOLD (SEE FOR3) and D51– F/C RESUME (SEE FOR3) automatically will be placed into
MSP. The D51 step will map over as an open step; do not fill the date in until the hold is ready
to be removed.
**Please Note** Do not use these steps for title issues, sending demand letters, sending State Required
Letters, or bankruptcy.
Reports:
Attorney – Loans on Hold: Weekly report of all loans that have been placed on hold, D50 is present and the
D51 is null. (Action Required)
Liaison – On Hold Report: Weekly report of all loans that have been placed on hold, D50 is present and the
D51 is null. (Action Required)

FEMA/Disaster Hold
If your office is advised to hold either by the Client or by the FEMA website, the FEMA/Disaster Hold issue
needs to be raised in Desktop.
STEP
1

ACTION
Select Issues from the Tool Menu

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 97
142

891a

2

Add Issue

3

Select the “FC FEMA/Disaster Hold” issue

Loss Mitigation
Loss Mitigation
The Loss Mitigation Department at Wells Fargo Home Mortgage continually tries to work with mortgagors to
assist in helping mortgagors retain their homes. As a result, a variety of different options are available
depending upon loan type, investor, and stage of delinquency.
**Please note** If your applicable state has passed specific mediation requirements, please locate those
procedures for your state in the appendix section of this manual. If it is not available, contact your case
processor for assistance.
Attorney: If the mortgagor contacts your office to request Loss Mitigation options, direct them to one of the
Loss Mitigation phone numbers listed below.
•
•
•

Customer Service Loss mitigation 1-800-662-5014
Wells Fargo Financial Loss Mitigation 1-800-275-9254
(Fax for WFF loss mitigation documents 1-800-588-9157)
Wells Fargo Home Equity Loss Mitigation 1-866-623-8958
If your office needs to contact Loss Mitigation for mediation assistance, please utilize the number listed
below. Please note: these numbers are for Attorney use only and are not to be given to mortgagors or
third parties.

•

Attorney Mediation Assistance Contact 1-877-238-4898

Options Available
• Forbearance Plans
• Repayment Plans
• Loan Modifications
• Short Sales
• Deed in Lieu of Foreclosure

Notification
STEP
1

ACTION
Attorney: If the mortgagor is approved for a Loss Mitigation workout, the Loss Mitigation
Department will notify your office via a message in VendorScape or Desktop requesting that
the foreclosure action be suspended while the Loss Mitigation actions proceed.

2

WFHM: You will receive a daily report of all loans there have been reactivated into foreclosure
from either bankruptcy or loss mitigation. Notify the attorney via VendorScape or Desktop that
the loan has been reactivated into foreclosure.

3

Attorney: Once you receive notification through VendorScape or Desktop that the loss
mitigation has been released, you will need to determine if foreclosure action can continue. A
copy of the forbearance agreement will be provided to your office if available.

There are times when either the Collections or Loss Mitigation department will set the borrower up on a
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 98
143

892a

repayment plan and the borrower may send this payment in via Western Union. The Wells Fargo collector will
add a status code of 113 on the DLQ1 screen when he/she receives a Western Union confirmation number
from the borrower. This is only a status of the Western Union confirmation and not confirmation that payment
has been received and applied.
Attorney: Your office will receive a daily report of all loans with a “113” codes and review the MSP system to
determine course of action.
STEP
1
2

ACTION
It is your responsibility to review the P309 screen daily to see if a payment has been applied
after the foreclosure referral date (U01 actual date).
If funds have been applied, contact the Loss Mitigation Representative at 866-435-1982 for
core loans and 866-363-7622 for 106 loans to determine if the borrower is on a valid
forbearance agreement and that Wells Fargo will be accepting said payment. If this is
confirmed by the Loss Mitigation Representative, your office will be provided direction on
foreclosure action.
•

Enter the appropriate sale postponement step and enter today’s date as the actual date.
Refer to the Postponed Sales section of this manual.

•

Note the FOR2 screen with the Loss Mitigation Representative who directed your office to
postpone the foreclosure sale.

Reports:
Attorney – 113 Report (Received Funds): Daily list of loans where Wells Fargo has received confirmation of
funds being sent via Western Union and a foreclosure sale is scheduled for five days or less. This report is to
be worked by the attorney to review the P309 to see if payment has been received and applied, and/or obtain
foreclosure course of action from the Loss Mitigation Department. (Action Required)

HAMP 10-2 Certifications
Attorney:
**Effective Monday, April 11th 2011, the below will need certification before going to sale (even loans
that were never eligible: Vacant, Non-Owner, Originated after 01/01/09, etc)***
•
•

ALL Non-Government Sponsored Enterprise loans regardless of due date
FHLMC loans that have a due date of 08/01/10 or later (you can check DLQ1 on MSP for the Due Date
*see partial screenshot below*)

***Please Note***FHA, VA, and FNMA loans still do not apply to this requirement.
Never eligible criteria (but will still need a certification):
•
•
•
•
•

Originated after January 1, 2009
Property is vacant, non owner
Property is condemned
Unpaid principal balance exceeds $729,950 for a 1-unit property, exceeds $934,200 for a 2-unit property,
exceeds $1,129,250 for a 3-unit property and exceeds $1,404,400 for a 4-unit property
Property is more than 4 units

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 99
144

893a

FHLMC loans with a due date prior to 08/01/10 (check DLQ1 in MSP) and all FNMA loans do not require
certification:
STEP
1

ACTION
Status of the HAMP efforts should be confirmed to make sure HAMP options have been
exhausted.

2

Review FOR3 for the Y97 HAMP LM OPTIONS EXHAUSTED to confirm HAMP has been
exhausted. If the Y97 is present and completed, do NOT email the HAMPPresale mailbox.
This step is confirmation that HAMP has been exhausted.

3

If the Y97 is not present or is not completed (except for vacant, non-owner occupied, or
originated after 01/01/09), email HAMPPresale@wellsfargo.com to provide status of HAMP.

FHA certification is not needed; you should not be emailing the HAMPPresale Mailbox
VA certification is not needed; you should not be emailing the HAMPPresale Mailbox.
Certification is valid for 7 business days from date on certification only. If certification has expired, a new one
will be needed.
Once the above is reviewed and it is determined that certification is needed, please follow these
procedures:
STEP
1
2

ACTION
Review VendorScape or Desktop for HAMP 10-2 Certification Form.
If the sale is set within 48 business hours and certification has not been uploaded in
VendorScape or Desktop, contact HAMPPresale@wellsfargo.com

If a valid certification is not given, the sale will need to be postponed at least 7 days to allow time for review
**Please note** This mailbox does not handle: Wells Fargo Financial, Wells Fargo Home Equity, and
Wachovia Equity files. Please contact the assigned processor in VendorScape or Desktop.

Designated Counsel Repayment Plan Procedure
After Designated Counsel for FHLMC has approved the mortgager for a Re-Payment Plan, the following needs
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 100
145

894a

to occur to set up the RPP plan with WFHM and to process the initial payment:
FHLMC (Freddie Mac)
STEP
1

ACTION

A copy of the plan is to be emailed to FHLMCRPPsetup@wellsfargo.com
Subject Line = DC RPP Client – Loan Number
The payment plan will be set up in MSP by Loss Mitigation.

2

A hard copy of the plan as well as the initial payment needs to be forwarded to the following
address:
Wells Fargo Home Mortgage
1000 Blue Gentian Road Suite 300
MAC Code 9999-01N
Eagan, MN 55121
The check will be routed to DSM CASH for processing.

Retained Counsel Repayment Plan Procedure
After Retained Counsel for FNMA has approved the mortgager for a Re-Payment Plan, the following needs to
occur to set up the RPP plan with WFHM and to process the initial payment:

FNMA (Fannie Mae)
STEP
1

ACTION
A copy of the plan is to be emailed to FannieMae.NegotiationsEscalations@wellsfargo.com.
Subject Line = DC RPP Client – Loan Number
The payment plan will be set up in MSP by Loss Mitigation

2

A hard copy of the plan as well as the initial payment needs to be forwarded to the following
address:
Wells Fargo Home Mortgage
1000 Blue Gentian Road Suite 300
MAC Code 9999-01N
Eagan, MN 55121
The check will be routed to DSM CASH for processing.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 101
146

895a

Appendix A - Distributing Foreclosure Mail
Tax sale notification should be faxed immediately to the tax department at:
(866) 863-9263
Attn: Tax Sale Supervisor
They will advise if they need the original documents mailed to them.

Property Preservation should be notified of demolition notices from the city or county. Your office should also
send notice of the violation immediately to codeviolations@wellsfargo.com. If possible, scan the document and
include the attachment in your email. Otherwise, fax the demolition notice to Property Preservation at:
Attn: Property Preservation
Fax: (414) 214-9013
Litigation Documents such as MSJ Denied and Summaries, or any documents related to an issue that DOS is
working on should be sent to the attention of the LITGATION PROCESSOR at the following address:
Default Operations Support
8480 Stagecoach Circle
Frederick MD 21703
X3801-02G
The following items are not needed by your liaison and should be retained in your file:
1.

Mortgagee Notice of Pending Acquisition-(i.e.) A letter sent to debtor by attorney stating “the
property listed above is about to be foreclosed…”

2.

HUD Tenant Occupancy Letter

3.

Copy of attorney correspondence stating they represent Wells Fargo

4.

Copy of Foreclosure Dismissal

5.

Notice of a Sheriff’s/Trustee’s sale

6.

Motion for Default Judgment

7.

Substitution of Trustee

8.

Notice from attorney closing the file

9.

A letter stating that a document was recorded

10. A letter from attorney acknowledging receipt of foreclosure referral
11. Notice of Default/Election to Sell Under Deed of Trust (unless for unpaid HOA fees)
12. Copies of originals that are paid in full
13. Order Authorizing Sale
14. An Original Rescission of Default
15. Public Trustee’s Notice of Rights to Cure or Redeem
16. Notice of Seizure or a Notice of Vacancy of Property
17. Acknowledgment of receipt of the Notice of Election and Demand to Foreclosure
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 102
147

896a

When sending correspondence to your liaison, please include the Wells Fargo loan number on the cover sheet and
address the envelope to your liaison as follows:
(Liaison Name)
3476 Stateview Blvd.
Ft Mill, SC 29715
X7801-013
It is crucial that this information be listed on the outside of the envelope to ensure that it is received by your liaison in a
timely fashion.
The following are contacts which may be useful to your office.
Qualified Written Requests
106 Loans
Fax – 866-453-6315
Core Loans
Fax - 866-278-1179
By Mail:
Wells Fargo Home Mortgage
Written Customer Contact
PO Box 10335
Des Moines IA 50306
Subpoena Department
X3801-02G
8480 Stagecoach Circle
Frederick, MD 21701

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 103
148

897a

Appendix B - Funds Remittance Cover Sheet
** Completed Cover Sheet should be uploaded to VendorScape or Desktop and must be sent with remitted
funds to Wells Fargo.
Date:
Re:

Loan #:
Mortgagor Name:

Enclosed please find check(s) in the amount of $_____________________, check # _______________.

This amount represents the following:
Reinstatement: Remitted funds will bring the loan current including any outstanding fees
and costs associated with the foreclosure proceeding. A copy of the reinstatement quote
provided to the customer has also been included.
Payoff:
Remitted funds represent a full payoff and the lien will be released to the
mortgager. A copy of the payoff provided to the customer has also been included.

**Complete for both reinstatement and payoff funds received:
Reinstatement/payoff amount

$_______________

Total recoverable fees and costs

$_______________

Total non-recoverable fees and costs

$_______________

Final invoice amount

$_______________

Refund/Overpayment: The fees and costs associated with the foreclosure were not as much
as the estimated amount.
Judgment: The court has ordered Wells Fargo Home Mortgage to accept less than the full
payoff.
A copy of the Judgment provided by the court to the customer has also been
included.
Redemption Funds: Remitted funds are from the mortgagor.
Please provide an exact
breakdown of the following included in the redemption funds.
This information is
required for IRS reporting purposes.
Please provide:
Principle

$_______________

Interest

$_______________

Late Charges

$_______________

Deferred Interest

$_______________

Prepayment Penalty

$_______________

Property Sold to Third Party:
Remitted funds are not from the mortgager. The lien will
not be released to the mortgager. A copy of the BID has also been included. (If funds
are less than the amount bid at the sale, provide a detailed explanation of shortage)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 104
149

898a

Airborne tracking # _____________________________
Remitted by:

___________________________________ Telephone #

Please see the Funds Address Matrix, Appendix D, for correct mailing addresses or wiring
instructions.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 105
150

899a

Appendix C - Funds Address Matrix
Wells Fargo Home Mortgage and America's Servicing Company Correspondence
Foreclosure Address Matrix
Type

Foreclosure
Correspondence

Foreclosure
Reinstatement
Checks

Foreclosure
Payoff Checks

Foreclosure
Third Party
Checks

WFHM

ASC

Wells Fargo Home
Mortgage
Attention:
(Processor Name)
MAC# X7801-013
3476 Stateview
Blvd
Ft. Mill, SC 29715

America's Servicing
Co
Attn: Foreclosure
Default Mail
MAC# X7801-02T
3476 Stateview
Blvd.
Fort Mill, SC 29715

Wells Fargo Home
Mortgage
Attn : Foreclosure
Cash
MAC# X2302-04C
1 Home Campus
Des Moines, IA
50328

America's Servicing
Co
Attn: Default
Payment Supervisor
MAC# X2302-04C
1 Home Campus
Des Moines, IA
50328

Wells Fargo Home
Mortgage
Attn : Payoffs
MAC# X2302-045
1 Home Campus
Des Moines, IA
50328

America's Servicing
Co
Attn: Payoffs
MAC# x2302-045
1 Home Campus
Des Moines, IA
50328

Wells Fargo Home
Mortgage/Convent
ional Claims
Attn: Wanda
Tucker
Mac #X2302-04F
1 Home Campus
Des Moines, IA
50328

America's Servicing
Co/Conventional
Claims
Attn: Wanda Tucker
Mac #X2302-04F
1 Home Campus
Des Moines, IA
50328

Wiring Instructions

Wiring Instructions for:
Wells Fargo Attorney onlyWells Fargo Bank, N.A
Beneficiary Bank ABA:
121000248
Beneficiary Bank Acct:
3000500412
Special Information for
Beneficiary
Apply funds to loan:
xxxxxxxxxxx
Mortgagor:
xxxxxxxxxxxxxxxxxx
Sender's Name and Phone
Number
Wiring Instructions for:
Wells Fargo Attorney onlyWells Fargo Bank, N.A
Beneficiary Bank ABA:
121000248
Beneficiary Bank Acct:
4127400093
Special Information for
Beneficiary
Apply funds to loan:
xxxxxxxxxxx
Mortgagor:
xxxxxxxxxxxxxxxxxx
Sender's Name and Phone
Number
Wiring Instructions for:
Wells Fargo Attorney onlyWells Fargo Bank, N.A.
Beneficiary Bank ABA:
121000248
Beneficiary Bank Acct:
3002182198
Special Information for
Beneficiary

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Reverse Mortgage

Wells Fargo Home
Mortgage
Reverse Mortgage
Servicing
MAC #X7802-018
3480 Stateview
Blvd..
Fort Mill, SC 29715

Wells Fargo Home
Mortgage
Reverse Mortgage
Servicing
MAC #X7802-018
3480 Stateview
Blvd..
Fort Mill, SC 29715
Page 106
151

900a

Apply funds to loan:
xxxxxxxxxxx
Mortgagor:
xxxxxxxxxxxxxxxxxx
Sender's Name and Phone
Number

Foreclosure
Redemption/Con
firmation
Checks

Any check for
loans WFF
Loans

Any check for
loans WFHE
Loans

Wells Fargo Home
Mortgage/Convent
ional Claims
Attn: Wanda
Tucker
Mac #X2302-04F
1 Home Campus
Des Moines, IA
50328

N/A

N/A

America's Servicing
Co/Conventional
Claims
Attn: Wanda Tucker
Mac #X2302-04F
1 Home Campus
Des Moines, IA
50328

Wiring Instructions for:
Wells Fargo Attorney onlyWells Fargo Bank, N.A
Beneficiary Bank ABA:
121000248
Beneficiary Bank Acct:
3002182198
Special Information for
Beneficiary
Apply funds to loan:
xxxxxxxxxxx
Mortgagor:
xxxxxxxxxxxxxxxxxx
Sender's Name and Phone
Number

Wells Fargo Home
Mortgage
Attn: Customer
Operations-Cash
Management
Mac #X2302-04G
1 Home Campus
Des Moines, IA
50328
Payment Processing
2324 Overland Ave
MAC# B6955-01B
Billings, MT 59102

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Wells Fargo Home
Mortgage
Reverse Mortgage
Servicing
MAC #X7802-018
3480 Stateview
Blvd..
Fort Mill, SC 29715

N/A

N/A

Page 107
152

901a

Appendix D – State Required Mediation Memo
Memorandum
Date:

1/19/10

To:

Wells Fargo Attorney Network

From:

Wells Fargo Home Mortgage Foreclosure and Loss Mitigation

Subject:

State required mediation Procedures

In an effort to ensure the flow of information between Wells Fargo and the Attorney Network is consistent,
below are the preferred steps in communicating this process:
Foreclosure Attorney:
Notification of the Conference:
•
•

•

Attorney will cancel the conference if the loan is in active bankruptcy
Attorney will notify WF of the Mediation Conference as soon as notified by emailing one spreadsheet daily
to FCDAP@wellsfargo.com
 Please send any documents received prior to the scheduling of the mediation to the FCDAP
mailbox.
 Financial Documents/Packages – All emails with financial documents attached should list in the
subject line as ***FINANCIAL DOCUMENTS & MEDIATION DATE****.
 Please refer to the master contact list which indicates who your contact will be for
mediation. The contact list is sorted by State first and then investor. If your applicable
state is not available, then your contact will be assigned by investor.
Attorney will update MSP with tracking steps.
 K74 MEDIATION / CONFERNCE SCHD
To be added as soon as the Mediation/Conference is scheduled, actual date will be populated with
the date the conference is scheduled.
•

K75 MEDIATION / CONFERNCE CLSD
To be added as soon as the Mediation/Conference is scheduled, actual date should be populated
when all mediations/conferences have been held or if the mediations/conferences are cancelled. If
the mediations/conferences are cancelled then notification must be sent to Loss Mitigation at
FCDAP@wellsfargo.com

•

If this is a Desktop referral, go to the File Transfer Form on the Tool Menu, add the
FC_Mediation_Conference_Direct_Source or FC_Mediation_Conference_InHouse_Referred or
FC_Mediation_Conference_InHouse_Non_Referred process and complete the Mediation/Conference
Scheduled DDF. This will automatically insert and complete the steps for you.

Leading up to and on the day of the Conference

•
•

Attorney should refer to the master contact list to determine assigned negotiator.
On the day of the hearing the attorney will dial the Negotiator's number first. If Negotiator is unavailable,
the attorney will dial 1-877-238-4898

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 108
153

902a



•
•
•

If documents are received after the mediation is scheduled please send to the assigned negotiator
with the subject line: ***FINANCIAL DOCUMENTS & MEDIATION DATE****.
Attorney will document the information provided by the WF negotiator and reference this information during
the hearing
If the conference is rescheduled the attorney will provide additional clarification on what is required
Any evaluation form required to be filled out after mediation will need to be sent to the LM processor or
negotiator assigned with a required return date.

***** VendorScape or Desktop needs to be updated with any actions taken by the attorney*****
***For Wells Fargo Financial files, please enter the K74 and K75 steps accordingly but contact the case
processor instead of FCDAP***
For any questions or concerns please contact Nicole Miles-Todd at 803-396-4182 or
Nicole.S.Miles@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 109
154

903a

Appendix E – MI Foreclosure/Mediation Bill
MI- Foreclosure/Mediation Bill Public Acts 29-31, - July 5, 2009
Mortgagees seeking to foreclosure on a property by advertisement to provide the borrower a preforeclosure notice of the right to request a meeting to negotiate a modification agreement and the availability of
housing counseling, and to participate in a timely-requested modification negotiation, including recalculation of
loan terms to determine if the borrower qualifies for a modification that meets specific criteria. The new
requirements may also delay or restrict the mortgagee's ability to commence a foreclosure by advertisement.
Liaison Impact
1. At the attorney’s request, verify if any payments are received.
2.
Attorney Procedures

1. A statement that within 14 days of mailing of notice/date of notice, the borrower may request a meeting
with the Designee (attorney) to attempt a work out modification which could implement a 90
moratorium.
a. The borrower has 14 days to contact a housing counselor and request a meeting.
b. Housing counselor has 10 days to notify attorney in writing of the meeting request.
2. Within 7 days of the initial notice, another noticed must be published once in the same manner
required for publishing notice of foreclosure sale. If housing contacts attorney, foreclosure will be on
st
hold for 90 days from the date of the initial mailing. (This step will be the new 1 legal-T01. The
T28 has been added to track the notice of sale.)
a. The attorney should utilize the mediation steps J80 and J81 steps to track the 90 day hold.
b. J80 State Hold step- this step should be populated with an actual date when the
borrower “opts in”.
c. J81 State Resume step- This step should be populated with a forecast date 90 days
from the J80 step. Actual date populated at the end of the 90 day hold.
**In Desktop-Select Holds from the Tool Menu and place the FC Michigan State Hold.
This will place the J80/J81 automatically in MSP.
3. If the borrower opts in, Attorney will send out financial package and request that within 10 days to send
financials back to attorney.
4. Attorney will schedule meeting and follow WF mediation procedures.
a. The K74 and K75 mediation steps should be placed on the loan per the loss mit mediation
procedures (see Litigation).
5. If no modification is achieved, loss mit will need to communicate the criteria on which a mod was
offered to compare with the statutory requirements.
a. Prior to the expiration of the 90 day hold, please request status via the
FCDAP@wellsfargo.com. (If your firm has multiple request, please send a spreadsheet
with all affected loans)
b. Statutory requirements of borrowers -housing related debt vs. gross income cannot exceed
38%.
i. Interest rate reduction , as needed, subject to a floor of 3% for a fixed term of at least
5 years
ii. An extension of the amortization period to at least 40 years
iii. Deferral of some portion of the amount of the unpaid principal balance of 20% or less
until maturity, refinancing of the loan or sale of property.
6. If borrower would have qualified for statutory requirements, and no mod was approved, then the file
must proceed judicial. (Loss Mit has advised that all of their programs are as good if not better
than the statutory requirements.)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 110
155

904a

***Effective 11/10/09. We have adopted additional procedures around how to handle MI files that do not
opt into the MI 90 day hold.

1. If the borrower does not opt in, yet loss mit has suspended the file prior to the sale being set, your firm
is to proceed to sale and adjourn at that point.
a. If loss mit has suspended the foreclosure workstation, please email the foreclosure processor
for further assistance
2. If funds have been received prior to the sale being set, your firm is to close and bill at that time.
3. If funds are received after the sale is set, your firm is the adjourn until:
a. -loss mit advises to close and bill due to permanent loan mod
b. loss mit advises to proceed w/foreclosure, your firm is okay to proceed w/foreclosure. (If there
is any questions on how to proceed, please contact the case processor)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 111
156

905a

Appendix F– NJ Mortgage Stabilization Act
NJ Mortgage Stabilization Act (Amended effective July 2, 2009)
Expires January 1, 2011
The NJ Stabilization and Mortgage Relief Act was amended to include a subprime definition which was defined
by the state and to further define “high cost” loans. The statue also clarified that the intent of the act is to
actually “serve” a notice to qualified borrowers to inform them of their rights under the amended act.
Procedures for loans with complaints served on or after July 2, 2009;
(1) Notice of the forbearance period must be served with the foreclosure complaint. The notice must
contain certain information set forth in the amendment
a. Foreclosure attorney to determine which files qualify for the notice based on the following
definitions and upon review of the TIL;
i.
Subprime- The term "subprime" is now defined in the amendment. The definition
requires the use of an index. We have identified a website that contains three
indexes. Please add 1.5 percentage points to the lowest listed average in the three
indexes for the time period when each loan closed. If the interest rate on the TIL is
higher than the lowest index plus 1.5 percentage points, then the loan will be
considered subprime within the meaning of the Act. The following index will be used;
http://mortgage-x.com/general/national_monthly_average.asp?y=2006
ii.
Default Docs has ensured the TIL will be available within 5 days of referral.
1. Default docs will be checking for the TIL at day 45 of delinquency.
2. If the TIL is not imaged, they will request from file management to have the
TIL imaged.
3. VendorScape has added the TIL as a document to add w/the referral.
iii.
The definition of a high risk mortgage loan that appeared to refer to adjustable rate
mortgages has been clarified to apply to mortgages with “a reset mortgage interest
rate that increases the initial interest rate by two or more percentage points.” The
attorney should review SER1/ARM1 to review the initial interest rate or origination
rate. If the initial interest rate change increases the origination rate by 2 points or
more, the loan is considered high risk.
(2) The forbearance period will only take effect if the borrower "opts in" by notifying the lender in writing,
within thirty (30) days after receiving the summons and complaint. (I suggest allowing the attorney to
accept within 35 days of receipt to allow time for mailing, weekends, etc.)
(3) The forbearance period will start on the day the lender receives written notice from the borrower; and,
the lender must notify the Court of the starting and ending dates of the forbearance period.
a. Attorney to add J90- NJ State hold and complete the actual date upon receipt of the written
correspondence from the borrower
b. J91 NJ Resume step should have a forecast date of 180 days and actual date to be populated
at the end of the forbearance period.
c. Once notice is received from the borrower, all activity that would in any way advance the
foreclosure is suspended. Appendix G – CO Foreclosure Deferment

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 112
157

906a

Appendix G – CO Foreclosure Deferment
Colorado HB 1276 Foreclosure Deferment- August 1, 2009
Attorney Procedures

The new law, known as the “Time Out Bill” or the “Foreclosure Deferment Bill” will be effective for foreclosures
filed after August 1, 2009. In summary, eligible borrowers can apply for and may receive a 90-day deferment
of the foreclosure on their property if they qualify.

Liaison Responsibility
NA
Attorney Procedures

Within 15 calendar days of delivering a complete foreclosure package to the public trustee, the holder of the
indebtedness must post a notice on the property advising the eligible borrower that they may qualify for a
deferment.
1. If interested, the Eligible Borrower must contact a HUD-approved counselor within 20 calendar days
of the posting of the special notice.
2. The counselor will promptly notify the holder and their attorney that he/she has been contacted by a
borrower. Within 10 days of notification by the counselor, the holder must notify the counselor in
writing of an address to be used for payments (as well as electronic payment information).
3. Within 30 days of the initial contact with the borrower, the counselor shall determine if the eligible
borrower qualifies for the deferment. An eligible borrower is automatically disqualified if:
a.
the property is abandoned
b.
Gross waste has been committed on the property
c.
The borrower is currently in Bankruptcy or within the last 24 months has received a discharge
under Chapter 7 of the Bankruptcy Code or has received a discharge under Chapter 13 of the
Bankruptcy Code in which the borrower received a modification of his loan.
4. If the counselor determines that the deferment is warranted, the counselor must certify to the public
trustee the deferment within the initial 30-day time frame. At that time, the public trustee will place the
foreclosure on hold, notify the foreclosure attorney, will cancel all publications and will begin to
postpone the foreclosure sale week to week.
5. Foreclosure attorney will utilize the mediation procedures to place the file on hold for 90 days. (See
mediation procedures below)
a. The K74 and K75 mediation steps should be placed on the loan per the mediation procedures.
This will prompt Cash to accept payments accordingly.
6. During the 90-day deferment period the following shall occur:
a. Holder and borrower shall negotiate the opportunity for a workout of the subject loan.
b. The borrower shall make payments to the attorney in the amount of 66.667 percent of the monthly
P&I payment due prior to the delinquency and if the debt was escrowed, 1/12 of the taxes and
insurance due prior to the delinquency.
c. The attorney is to forward payments to;

Wires for WF Attorney only, this account is not disclosed to the mortgager.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 113
158

907a

Client 708
Wells Fargo Home Mortgage
Attn: Foreclosure Cash
MAC x2302-04c
1 Home Campus
Des Moines, IA 50328

Client 106
America's Servicing Co
Attn: Default Payment Supervisor
MAC# x2302-04C
1 Home Campus
Des Moines, IA 50328

Wiring Instructions for:
Wells Fargo Attorney onlyWells Fargo Bank, N.A
Beneficiary Bank ABA: 121000248
Beneficiary Bank Acct:
3000500412
Special Information for Beneficiary
Apply funds to loan: xxxxxxxxxxx
Mortgagor: xxxxxxxxxxxxxxxxxx
Sender's Name and Phone Number

d. The first payment must be made within 5 days of the certification to the public trustee and due
every 30 days thereafter during the deferment period.
e. Acceptance of these payments is not a waiver of the default.
Mediation Procedures

Memorandum

Date:

06/29/09

To:

Wells Fargo Home Mortgage Foreclosure Management

From:

Wells Fargo Home Mortgage Compliance

Subject:

State required mediation

In an effort to ensure the flow of information between Wells Fargo and the Attorney Network is consistent,
below are the preferred steps in communicating this process:

Foreclosure Attorney:

Notification of the Conference
•
•

•

Attorney will cancel the conference if the loan is in active bankruptcy
Attorney will notify WF of the Mediation Conference as soon as notified by emailing the notification to
FCDAP@wellsfargo.com.
 Any documents needed in preparation for mediation as required by your applicable state (note,
assignment, pmt history etc) should be requested via the FCDAP mailbox at the time attorney
notify WF of mediation.
 Please send any documents received prior to the scheduling of the mediation to the FCDAP
mailbox.
Attorney will update MSP with tracking steps.
K74 MEDIATION / CONFERNCE SCHD

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 114
159

908a

To be added as soon as the Mediation/Conference is scheduled, actual date will be populated with the
date the conference is scheduled.
K75 MEDIATION / CONFERNCE CLSD
To be added as soon as the Mediation/Conference is scheduled, actual date should be populated when all
mediations/conferences have been held or if the mediations/conferences are cancelled. If the
mediations/conferences are cancelled then notification must be sent to Loss Mitigation at
FCDAP@wellsfargo.com.
•

If this is a Desktop referral, go to the File Transfer Form on the Tool Menu, add the
FC_Mediation_Conference_Direct_Source or FC_Mediation_Conference_InHouse_Referred or
FC_Mediation_Conference_InHouse_Non_Referred process and complete the Mediation/Conference
Scheduled DDF. This will automatically insert and complete the steps for you.

Leading up to and on the day of the Conference
•
•
•
•
•
•

Attorney will be provided with an email from WF including the negotiator’s name, telephone number, the
borrowers loan number and the decisions that the negotiator will discuss as well as the alternative contact
number - (866) 514-0070
If documents are received after the mediation is scheduled please send to the assigned negotiator.
Attorney will document the information provided by the WF negotiator and reference this information during
the hearing
On the day of the hearing the attorney will dial the Negotiator's number first. If Negotiator is unavailable,
the attorney will dial (800) 514-0070
If the conference is rescheduled the attorney will provide additional clarification on what is required
Any evaluation form required to be filled out after mediation will need to be sent to the LM processor or
negotiator assigned with a required return date.

***** VendorScape or Desktop needs to be updated with any actions taken by the attorney.*****
If you have any questions concerning this alert please contact Foreclosure Compliance at
ForeclosureCompliance@wellsfargo.com.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 115
160

909a

Appendix H – FL Mediation
FL Mediation Procedures April 27, 2009 (Updated 5/11/09)
th

th

st

The 19 , 11 and 1 Administrative Orders utilize the Collins Center to coordinate mediation meetings
between a borrower and lender. Below are procedures that should be followed by the attorney and loss mit.
th

19 Circuit (Indian River, Martin, Okeechobee and St. Lucie Counties)
th

11 Circuit (Miami-Dade County)
st

1 Circuit (Walton, Okaloosa, Santa Rosa and Escambia)

1. At the time of referral, process server will conduct a pre-suit property investigation to be completed
within 10 days.
st
2. If 1 legal is to be delayed as a result of the process server inspection, The T70 step should be
st
entered with an actual date and tied to the T01- 1 legal completed step.
st
a. For FHA loans, prior to 1 legal expiration please email the FLAD@wellsfargo.com to indicate
st
1 legal delay. (It is very important that your firm email the FLAD mailbox for FHA loans
st
where 1 legal will be delayed prior to the expiration date.)
3. Based on information from the inspection, vacant or occupied, Form A will be filed and a deposit of
$750 will be made pursuant to the Administrative Order.
4. Form A will include the loss mit rep info provided by Wells. Attorney to contact the rep to confirm they
have the authorization to settle the case. (In most cases, this form will need to be amended due to
change in Loss Mit rep.)
5. Upon notice from the Collins Center that the borrower has been contacted and a mediation date is to
be coordinated, the following steps will be taken:
a. If mediation is required, the attorney is to: Notification of the Conference
i.• Attorney will cancel the conference if the loan is in active bankruptcy
ii.• Attorney will notify WF of the Mediation Conference as soon as notified by emailing the
notification to FCDAP@wellsfargo.com
iii.• Attorney will update MSP with tracking steps.
b. K74 MEDIATION / CONFERNCE SCHD
To be added as soon as the Mediation/Conference is scheduled, actual date will be populated
with the date the conference is scheduled.
c. K75 MEDIATION / CONFERNCE CLSD
To be added as soon as the Mediation/Conference is scheduled, actual date should be
populated when all mediations/conferences have been held.
Loss Mit will send the attorney the contact information of a negotiator: who will attend the
mediation either telephonically or in person. From A to be amended with this contact info
d. If this is a Desktop referral, go to the File Transfer Form on the Tool Menu, add the
FC_Mediation_Conference_Direct_Source or FC_Mediation_Conference_InHouse_Referred or
FC_Mediation_Conference_InHouse_Non_Referred process and complete the
Mediation/Conference Scheduled DDF. This will automatically insert and complete the steps for
you.
e. A letter should be sent to the borrower that includes the mediation date and financial
affidavit...the letter will explain that to increase the likelihood of a successful settlement at
mediation the financial information should be completed and forwarded back to our office as
soon as possible but no later than one week before mediation. (Since the law does not require
that the financial info should be sent before mediation, we will rely on your office to try and set
timelines around this information to our borrower.)
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 116
161

910a

6. We would like your office to be prepared to file motions to recover any advanced funds if the mediation
is canceled by the borrower.
Wells Fargo will not be providing PSA unless it prohibits us from modifying a loan.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 117
162

911a

Appendix I – Fl 12th Circuit Mediation
th

FL- 12 Circuit (Manatee, Sarasota and Desoto Counties)
Mediation Procedures
6/05/09 (Revised 11/4/09)
th

The 12 Circuit is not a tradition mediation program but promotes contact between lenders/servicers and
borrowers. This is accomplished by sending a notice to the borrowers inviting them to participate in the
Homestead Foreclosure Conciliation Program. If the borrowers contact the attorney, the attorney will schedule
the conference and forward the date, time and contact info to loss mit.

1. Attorney will file the compliant
2. Attorney will attach a copy of the notice to complaint and serve. Once service is complete and
occupancy has been determined. Attorney will send letter inviting borrower to the Homestead
Foreclosure Conciliation Program. Letter will only be sent on owner occupied (will cover homestead)
properties. The borrower will have to contact the attorney to state that they wish to participate.
3. The borrower has 45 days from the day the letter is sent to contact lender. (It is the responsibility of
the borrower to make contact with the lender)
4. The FCL will be on hold during this 45 day period. Attorney is to insert the J80 Regulatory hold step
with an actual date when the notice is sent and the J81 Regulatory resume step with a forecast date 45
days in advance of the J80 actual date.
5. If the borrower requests to participate in the Homestead Foreclosure Conciliation Program, attorney is
to schedule a date and time with the borrower.
6. Once the date and time is scheduled, attorney is to email the FCDAP mailbox with the date and time of
the call and any other pertinent information.
7. Loss mit must update VendorScape or Desktop to state the outcome of the call.
8. Once 45 days has expired, attorney will view VendorScape or Desktop (or view NOTS) to see what
was the outcome, if no response attorney will complete affidavit, update J81 actual date and resume
foreclosure.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 118
163

912a

Appendix J – OR Modification Request Form
OR- SB658- Effective September 26, 2009
SB 628 amends the form of Notice of Foreclosure to include a statement about the borrower’s right to ask to
modify the loan. A “Modification Request Form” must be included with the Notice of Foreclosure. The
Modification Request Form must be returned to the address stated in the form within 45 days of the borrower
receiving the Modification Request Form. The statue also requires the beneficiary or the beneficiary’s agent to
provide the trustee with an affidavit, which will state the beneficiary’s loss mit efforts.

Attorney Procedures

1. Include with the Notice of Foreclosure a Modification Request Form.
2. Borrower must return this form to the attorney within 30 days of receipt.
a. The borrower can request a loan mod and/or;
b. Request a meeting with the lender.
3. Attorney will forward a copy of the Modification Request Form and loss mit affidavit to
FCDAP@wellsfargo.com.
4. Attorney to follow up with the FCDAP Mailbox in 2 weeks to determine status and to obtain affidavit of
loss mit efforts.
nd
5. If no response, Attorney will send a 2 request for the loss mit affidavit after 30 days to the FCDAP
Mailbox and copy James.Cooke@wellsfargo.com on the request.
rd
nd
6. Upon expiration of the 45 days, attorney will send a 3 request in the same manner as the 2 request.
rd
**If no response after the 3 request, attorney will cancel the foreclosure for non compliance.

Loss Mit Procedures

1. Upon receipt of the Modification Request Form and/or borrower request for a meeting, loss mit rep will
contact the borrower to discuss options and, if applicable, schedule a meeting by telephone (or
conduct the meeting during the initial contact).
2. Loss mit will monitor the FCDAP mailbox for status request from the attorney and for the loss mit
affidavit.
3. Loss mit is responsible for completion of the loss mit affidavit based on outcome of the customer
contact.
** Affidavit must be returned to the attorney within 45 days of receipt or foreclosure could be
terminated.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 119
164

913a

Appendix K– SC Administrative Order
Mediation Procedures

In an effort to ensure the flow of information between Wells Fargo and the Attorney Network as required by the
th
May 9 2011 Administrative order, below are the preferred steps in communicating this process.

Foreclosure Attorney:

Upon notification of Borrower to request for Foreclosure Intervention:

1. Attorney will notify FCDAP via FCDAP@wellsfargo.com upon notification of borrowers request for
foreclosure intervention. In the subject line please state: ***SC-Request for Foreclosure
Intervention*** (Please include an executed copy of the foreclosure intervention notice in the
email.
a. Attorney to upload a copy of the foreclosure intervention form to VendorScape
b. Financial Documents/Packages – All emails with financial documents attached should list in
the subject line as ***SC-FINANCIAL DOCUMENTS ***
2. Attorney will update Fidelity with tracking steps.
a. K74 MEDIATION / CONFERNCE SCHD .
Actual date will be populated with the date the borrower executed the notice.
K75 MEDIATION / CONFERNCE CLSD
Actual date should be populated upon conclusion of the foreclosure intervention program.
3. Mediation team to determine the borrower needs as indicated on the FCL intervention form and advise
attorney as to what documentation is needed in order to complete loss mit review.
a. Mediation team is to ensure attorney is aware of any applicable timeframes required to be
adhered with for receiving documentation.
4. Attorney is to request all documents needed from the borrower to facilitate a loss mit review and the
applicable timelines for receiving documentation.
a. If documents are not received in a timely manner, attorney is to contact FCDAP mailbox to
determine if loan has been denied or to determine the updated status.
5. Once documents are received, FCDAP will review and update weekly status report on the decision
rendered.
a. If a loan mod is approved, FCL workstation will be suspended or removed. Communication
will be sent via VendorScape and via weekly spreadsheet.
b. Any agreement will be communicated to the attorney in writing.
i. Short sale agreement or DIL, attorney is to place foreclosure on hold for 90 days and
follow up via weekly spreadsheet to determine if agreement has been breached.
st
ii. Trial mod prior to 1 payment. Attorney is to stay foreclosure proceedings for 90 days
and monitor progress via weekly spreadsheet.
st
iii. Trial mod after 1 payment, foreclosure will be suspended. Weekly spreadsheet will
indicate if borrower breaches trial mod.
c. If the loan is denied, a denial letter will be sent to the borrower, status report will be updated
and attorney should communicate the denial to the borrower.
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 120
165

914a

If the Foreclosure Intervention form was not returned to your firm within 30 days, perform the
following:

1. After the expiration of the 30 foreclosure intervention form please verify the status of Loss Mitigation by
reviewing the LM1 screen.
a. If the LM screen is not active and has not been active within the last 30 days, please proceed
with foreclosure
b. If the LMT screen has been active within the last 30 days
i. Review the LM denial to determine the reason for the denial
ii. If additional information is required, please contact the foreclosure case processor and
request any additional information that is needed.
c. If the LMT1 screen is active, do not proceed.

***** VendorScape needs to be updated with any actions taken by the attorney*****

***For Wells Fargo Financial files, please enter the K74 and K75 steps accordingly but contact the case
processor instead of FCDAP***

For any questions or concerns please contact
Nicole Miles-Todd- Project Manager Foreclosure at 803-396-4182 or Nicole.S.Miles@wellsfargo.com
James Cooke- Manager Loss Mitigation Mediation Team 803-396-7494 or James.Cooke@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 121
166

915a

Appendix L– NV Mediation
NV Mediation Procedures

The NV Mediation Election Program applies to any grantor or person who holds title of record and is the owner
occupant of a residence as to which a notice of default and election to sell has been recorded on or before July
1, 2009. A form called the Election/Waiver of Mediation is sent by certified mail by the attorney to the
borrower. The borrower has 30 days from mailing to respond by completing the form and mailing to the trustee
and the administrator. Each party at that point has 10 days to deposit $200 mediation fee to the administrator.
Failure to do so can result in the non requirement of mediation. Loans where the NOD was filed prior to July 1,
2009 can request mediation if the lender agrees to participate.

Attorney Procedures

1. Along with the Notice of Default and Election to Sell, attorney shall attach a copy of the Election/Waiver
of Mediation Form to all owner occupied residences in NV.
a. For "contact information at the foreclosing lender who would have authority to negotiate a loan
modification" the attorney should include the following;
Chandra Tafolla
3476 Stateview Blvd,
Ft Mill, SC, 29715
1-800-662-5014

2. If the borrower responds by completing the Election request form and mailing it to the trustee and
Mediation Administrator, then the attorney is the follow WF Mediation Procedures attached.
3. Within 10 of receipt of the borrowers election to mediation, both parties must deposit $200 to the
Mediation Administrator
a. The fee is non-recoverable
b. The mediation shall be schedule no later than 90 days after the Notice of Default and Election
to Sell.
4. Attorney should send an email to advise the following departments of notification of mediation request;
a. FCDAP@wellsfargo.com (loan modification package)
b. SpecialtyResolutionteam@wellsfargo.com (short sale value and BPO)
c. DocOrderingHMEC@wellsfargo.com (Certified Note, Deed, Affidavit)
d. The subject of the email should include:
i.
NV mediation (deadline of when documents required)
**Due to timing issues, please do not wait until a date is scheduled for mediation. Please notify Wells
as soon as possible at the contacts listed above.

5. The body of the email should include a list of all documents needed, date of mediation and deadline of
when documents are needed.
6. All completed documents will need to be forwarded to FCDAP mailbox prior to the deadline. FCDAP
will be required to send a completed package to the attorney.
7. Default documents will be required to send a physical package but should send FCDAP a tracking
number which is to be provided with the completed mediation package.
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 122
167

916a

8. If your office experience with the Administrator's office administering certificates for files that did not
opt into the NV Mediation program, please insert the following log code: NVCERT (Loan Delayed due
to NV Mediation Process).
Loss Mit

1. Upon notification of mediation, Loss Mit should prepare and submit to the mediator under confidential
cover a nonbinding proposal for resolving the foreclosure. Additionally, the beneficiary of the deed of
trust shall, under confidential cover, provide to the mediator the evaluative methodology used in
determining the eligibility or non- eligibility of the grantor or the person who holds the title of record for
a loan modification.
2. FCDAP will be responsible for gather all documents to include short sale value, BPO/appraisal,
Certified Note, Deed and affidavit required to complete a mediation package for the state of NV.
Default Docs

1. Upon notification of mediation, review file for certified copies of note, deed and any
endorsements/allonges.
2. If certified documents are not available, custodian file must be ordered, copies must be certified and
sent to attorney. **Original documents should only be sent on an escalation basis.
3. Default docs must send fed ex tracking number to FCDAP mailbox 7 days prior to mediation.
Short sale team

1. The beneficiary of the deed of trust or its representative shall produce the most current and appropriate
appraisals that it has with respect to the real property that is the subject of the notice of default and
shall prepare an estimate of the “short sale” value of the residence that it may be willing to consider as
a part of the negotiation if loan modification is not agreed upon.
2. The BPO and estimated value must be provided at least 7 days prior to mediation.
Escalation Request should go to the following:

Missing short sale value and or BPO-

Gwen Oberg

Missing Mediation package/negotiator-

James Cooke

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 123
168

917a

Appendix M– Mediation Master Contact List
*If you are an attorney calling for a scheduled mediation, please first call 1-877-238-4898*
If you are unable to reach a negotiator at the number listed above, contacts based on the investor are listed
below.
Master List of Back-Up Contacts 6:00AM – 2:30PM
ASC/HCS/FHLMC/FHA Mediation
Kelton Washington (803)396-4124
kelton.washington@wellsfargo.com
Ann Cooper (803)396-6362
ann.cooper@wellsfargo.com
Erika Banks (803) 396-7574
erika.banks@wellsfargo.com

B&P Mediation
Leah Schwartz (803) 396-7012
leah.schwartz@wellsfargo.com
Susan Rowles (803)396-6762
susan.rowles@wellsfargo.com
Ann Cooper (803)396-6362
ann.cooper@wellsfargo.com
Erika Banks (803) 396-7574
erika.banks@wellsfargo.com

Dual Lien Mediation
Stephanie Michael (414)214-4952
stephanie.a.micheal@wellsfargo.com
Jennifer Wenzel (414)214-4649
jennifer.l.kingsfield@wellsfargo.com
FHA Wells Owned Mediation
Susan Rowles (803)396-6762
susan.rowles@wellsfargo.com
Donald Johnson (803) 396-6428
Donald.johnson@wellsfargo.com
FNMA Mediation
Leronne White – 803-396-7493
Leronne.white@wellsfargo.com

Liquidation Mediation ASC/HCS
Curtis Johnson (414) 214-9161
curtis.johnson@wellsfargo.com
Eliza Melendez (414)214-4964
eliza.melendez@wellsfargo.com
Kathy Rintelman (414)214-4953
kathy.rintelman@wellsfargo.com
Liquidation Mediation (Non ASC/HCS)
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 124
169

918a

Paul Polenski
(803) 396-7658
Paul.C.Polenski@wellsfargo.com
Nevada Mediation
Khrystal Gose (803)-396-4104
khrystal.d.gose@wellsfargo.com
Susan Rowles (803)396-6762
susan.rowles@wellsfargo.com
Leah Schwartz (803) 396-7012
leah.schwartz@wellsfargo.com
Reverse Mortgage Mediation
Jael Reevey (803) 396-7624
jael.d.reevey@wellsfargo.com

VA Mediation
William Peterson (803) 396-6493
william.peterson@wellsfargo.com
Tomika McKinney
(803) 578 8799
tomika.mckinney@wellsfargo.com
Sharon C. Smith (803)396-6212
sharon.c.smith@wellsfargo.com
Wells Fargo Financial Mediation
ASC Foreclosure Info WFF –
ASC.Foreclosure.Info.WFF@wellsfargo.com
Please send notification through VendorScape or Desktop to the assigned processor.
**Please note mediations are attended by a representative of Wells Fargo Financial
In the event of an escalated situation, contact ASC Foreclosure Info WFF@wellsfargo.com
Wells Owned Mediation
Michelle D McIlwain (803) 396-6409
Michelle.D.McIlwain@wellsfargo.com
Jeanette Hess (803) 396-6998
jeanette.hess@wellsfargo.com
*If you are an attorney calling for a scheduled mediation, please first call 1-877-238-4898*
If you are unable to reach a negotiator at the number listed above, contacts based on the investor are listed
below.

Mediations Scheduled after 2:30 PM EST
ASC/HCS Mediation
James Murdaugh (803) 396-7587
James.F.Murdaugh@wellsfargo.com
Corey Duncan (803) 578-8771
Corey.Duncan@wellsfargo.com
Vivian Hicks
(803) 396-4113
vivian.y.hicks@wellsfargo.com
Nevada Mediation
Phil Cargioli (803) 396-7508
Philip.Cargioli@wellsfargo.com
Vivian Hicks (803) 396-4113
vivian.y.hicks@wellsfargo.com
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 125
170

919a

Corey Duncan (803) 578-8771
Corey.Duncan@wellsfargo.com
B&P Mediation
Miranda McElroy (803) 396-4242
Miranda.A.McElroy@wellsfargo.com
Phil Cargioli (803) 396-7508
Philip.Cargioli@wellsfargo.com
FHLMC Mediation
Sabrina Douglas (803) 396-6053
Sabrina.Douglas@wellsfargo.com
Corey Duncan (803) 578-8771
Corey.Duncan@wellsfargo.com
FNMA Mediation
James Murdaugh (803) 396-7587
James.F.Murdaugh@wellsfargo.com
Vivian Hicks (803) 396-4113
vivian.y.hicks@wellsfargo.com
Sabrina Douglas (803) 396-6053
Sabrina.Douglas@wellsfargo.com

FHA Mediation
Phil Cargioli (803) 396-7508
Philip.Cargioli@wellsfargo.com
Miranda McElroy (803) 396-4242
Miranda.A.McElroy@wellsfargo.com
James Murdaugh (803) 396-7587
James.F.Murdaugh@wellsfargo.com
VA Mediations
Lamarc Dawkins (803) 396-6212
Lamarc.A.Dawkins@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 126
171

920a

Appendix N – FL- Verification of Foreclosure Complaints
On February 11, 2010, The Florida Supreme Court Task force ruled that any foreclosure complaints initiated in
the state of FL must be verified by the lender/servicer.
In order to comply with this requirement, 3 of 4 of our foreclosure attorneys created secure web portals to
deliver a copy of the complaint and declaration for signature. Non-Portal attorneys are emailing their
complaints to a mailbox monitored by DOS.
Procedures:
1. Attorney (Default Law and Marshal Watson) to upload copy of complaint and declaration to web portal
for verification.
2. DOS staff logs into the web portals and monitors the web portals and the FL Declaration mailbox daily
to verify complaints
3. After verifying the complaints, DOS signs the declaration and sends the declarations via overnight mail
to applicable attorney’s office.
4. Attorney files complaint with attached verification forms.
Secure Web portal address
FL Default Lawhttps://extranet.defaultlawfl.com/Default.aspx
Marshal Watson’s web portal
http://cms.marshallwatson.com/
Non-Portal AttorneysEmail copy of Complaint, supporting documentation (Note and Mortgage), and Declaration to
FLDeclarations@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 127
172

921a

Appendix O –CT Standing Orders (Effective September 1, 2010)
On August 4, 2010 the CT Superior Court issued a standing order to ensure no foreclosure proceeding
is initiated unless the borrower has had an opportunity to apply for relief under a federal loss mitigation
program. Any foreclosures pending as of September 1, 2010 where Judgment has not yet entered must have
the Affidavit Federal Loss Mitigation Programs executed and filed with Court. Also any foreclosure matters as
of September 1, 2010 which previously had Judgments of Foreclosure By Sale entered but which Sales have
not yet been approved by the Court must have the Affidavit Federal Loss Mitigation Programs executed and
filed with Court. Going forward, all foreclosure complaints filed on or after September 1, 2010 must be
accompanied by a fully executed Federal Loss Mitigation Affidavit.
Procedures
1. Once file is referred, attorney to prepare Federal Loss Mit Affidavit and send to Default Doc mailbox at
ForeclosureCompliance@wellsfargo.com
2. Default Docs will print Federal Loss Affidavit and code Fidelity with the log code FCREGA –
Foreclosure Regulatory Affidavit to acknowledge receipt of the affidavit.
3. Affidavits will be sent to Foreclosure for execution within 24 hours of receipt.
4. The Fort Mill Foreclosure Loss Mitigation Affidavit team will be executing the affidavits.
5. Foreclosure to return the executed documents within 24 hours of receipt to Default Docs.
6. Default Docs is to image the executed affidavits and send to the applicable attorney.
7. If the Foreclosure is delayed due to this requirement, firm will use the J80 Regulatory Hold step and
the J81 Regulatory Resume step to track the delay.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 128
173

922a

Appendix P – VA Appraisal Ordering Process
•

Attorney: To ensure accurate ordering of VA Appraisals, your office must follow the step-by-step VA
Appraisal Ordering process guide provided below. This will ensure that all VA Appraisals are ordered in
accordance with WFHM guidelines:
•

45 days prior to sale, order VA appraisal through the VA Appraisal system utilizing “SAP” Appraisal
type and Servicer ID number 3300020000.
**Please note** If a sale can be set within 45 days of referral, order the appraisal at the time of
referral.

•

Input U18, ORDER VA APPRAISAL, step with actual date at time of order. This will automatically
complete the step.

•

Follow up with the VA Appraiser beginning 10 days after placing order to ensure completion.

•

Once completed insert the U09, VA APPRAISAL COMPLETED, step with the actual date.
**Please Note** The required steps can be added through VendorScape. Under Task, choose “Add”
then “Production Task – Received VA Appraisal”. When adding the event in VendorScape the U09 –
VA Appraisal Completed will automatically be placed into MSP.
In Desktop, complete the Order VA Appraisal event. This will automatically add and complete the U18
step. Once the appraisal has been received, complete the VA Appraisal Received event. This will
automatically complete the U09 step.

Step-by-Step VA Appraisal Ordering Process Guide
•

Access webLGY link (vip.vba.va.gov)

•

PAGE 1: (Request Appraisal/ LIN Only) (Exhibit A)
o Click “Request Appraisal Link”

•

PAGE 2: (Request Appraisal) (Exhibit B)
o Select Appraisal Type
 Go to Liquidation Appraisal
 Select SAP - - Servicer Appraisal Processing Loans

Once you click on the circle next to SAP, the information below will appear (Exhibit C

o
o
o

o
o

)

Please Select a Role:
 Select Servicer
Loan Number
 Insert VA Case Number
Social Security Number
 Veteran’s Social Security Number
 If error received:
• Re-validate the SSN and resubmit
• Contact the Regional Loan Center (Loan Administration Department)
o If Regional Loan Center is not able to provide guidance, contact your
liaison
Validate Appraisal Type
SAP—Servicer Appraisal Processing Loans should be selected

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 129
174

923a

o
o

If not, change to SAP at this time
Click Submit

NOTE: If any selection other than SAP is made, this may cause a delay in issuing the NOV, thus
delaying the overall foreclosure timeframe. Your office will be held accountable for any additional fees
or costs as a result of these delays.
•

•

PAGE 3: (Property Information Page) (Exhibit D)
o Validate Property Address
 Should match the property address received with the referral
• If accurate, select “valid”
• If inaccurate, select “invalid”
o If Address is invalid, mark invalid box and click submit. This will take
you back to the Request Appraisal/LIN only page and instruct you to
contact the Regional Loan Center to have the address corrected.
Below is a list of each Regional Loan Center, phone #’s and email
address’s
o
Page 4: (Request Single Property Appraisal: SAP case) (Exhibit E1 – E7)
o
o

Fill in all applicable sections (use matrix below)
Validate all information BEFORE clicking SUBMIT
 1805 form will appear
Request Single Property Appraisal Matrix
Box Name

Action Required

BOX 1: Requestor Information (Exhibit E1)
•
•

Requestor Identification
Requestor Identification Number

•
•

•

Name

•

•
•

Title
Phone Number

•
•

•
•
•

•

Servicer
3300020000 (Required for every Wells
Fargo File)
Sponsor Indicator
• N/A
Sponsor Identification Number
• N/A
Requestor Phone Number , Extension,
• Requestor Phone Number: Person(s)
Name
from attorney’s office ordering the
appraisal.
• Extension:
Peron(s) from attorney’s
office extension, where applicable
• Name: Full name of person, at the
attorney’s office, ordering the appraisal
Email Address
• Person from the attorney’s office that
ordered the appraisal
BOX 2: Person Authorizing this Request (Exhibit E2)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Person ordering the appraisal OR the
person the firm has provided delegated
authority
N/A
Person authorizing the request (This
should not be a Wells Fargo number)

Page 130
175

924a

BOX 3: Property Information (Exhibit E3 split in 2 screens)
•
•

Condo Appraisal
Manufactured Home Liquidation

•
•

•

Property Address

•

•

Legal Description of Property

•

•

Title Limitation and Restrictive Covenants

•

N/A
If a manufactured home, select “yes”, if
not, select “no”
Verify all data (Street Number – County)
Insert legal description, if legal
description is not available, use PARCEL
ID
N/A

BOX 4: Firm or Person Making Request/Application (Exhibit E4)
•
•
•
•
•

•
•
•
•
•

Name
Address
City
State
Zip

Law Firm
Law Firm
Law Firm
Law Firm
Law Firm

Name
Address
City
State
Zip Code

BOX 5: Applicable Lender Point of Contact (Exhibit E5)
•
•
•

•
•
•

Name
Work Phone Number
E-Mail

VA App Inquiry
(803) 396-6809
vaappinquiry@wellsfargo.com

BOX 6: Owner Information (Exhibit E6)
•
•
•
•
•
•
•
•

First Name
Middle Initial
Last Name
Address
City
State
Zip
Phone Number

•
•
•
•
•
•
•
•

•

Property Occupancy

•

•
•

Refunding indicator
Broker Name

•
•

•

Phone Number

•

•
•
•
•

Keys Location Address
Phone number
Building Information
Number of Living Units

•
•
•
•

First name of homeowner
N/A
Last name of homeowner
N/A
N/A
N/A
N/A
Phone # of homeowner –If unavailable –
place (222) 222-2222 and make note in
the email/fax that you send to the VA
appraiser
BOX 7: Property Facts (Exhibit E7)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Occupied by owner, occupied by tenant
or Vacant – Choose what is stated in
VendorScape or Desktop/PIR1
N/A
If loan is a short sale, place the broker
name in Box (Attorney’s, this is not
required)
Phone number of Broker or Broker’s
office (Attorney’s, this is not required)
N/A
N/A
N/A
1 Family unit, unless known different
Page 131
176

925a

•
•
•

•

Street Access
Street Maintenance
Sales Date

•
•
•

Leave as “Public”
Leave as “Public”
If actual F/C date has been set, enter
date

Submit (Exhibit E8)
o Once all information has been placed and verified as correct, click the submit button on the bottom
of the page. Your 1805 VA appraisal order form will generate

The VA appraiser should email and fax all information below (See exhibits F and G) and a copy of the
1805 should be attached with each. The VA appraiser’s name and all contact information will be in box
41 on the 1805.
•

•

PAGE 5a (1805 Form) (printing to Adobe) (Exhibit F)
o Print 1805 form to Adobe
o Save to desktop or email directly from the adobe 1805 copy
o Once printed, email a copy of the 1805 and all stated information below in Exhibit F to the VA
appraiser
Page 5b (1805 form) (Printing paper copy of Faxing) (Exhibit G)
o Print a paper copy of the 1805
o Use the fax cover sheet provided (Exhibit H) and provide all data
o Fax a copy of the 1805 and the cover sheet to the VA Appraiser.
o Fax # is located in BOX 41 within the 1805

•

Information required to be sent to the VA Appraiser
o Subject line should state “New VA SAP Liquidation Appraisal VA case # xx-xx-x-xxxxxxx”
o Body of Email should have all information
 Homeowner’s Name
 Phone # (if applicable, if a phone # is not available, state “Phone # for the
homeowners is not available)
 This statement should be in each email/fax sent to the appraiser
• If additional information is required by the appraiser, the VA appraiser should
email or call the contact information in box 29 on the 1805
 This statement should be in each email/fax sent to the appraiser
• If the subject property is occupied and 3 attempts to gain interior access can
be documented, an exterior inspection can be completed. If you feel the
property is vacant (with the exception of Florida) an interior inspection must be
completed unless written permission from your Regional Loan Center has
been obtained. Should you require interior access, please refer to box 29 in
the 1805 for all contact information
 This statement should be in each email/fax sent to the appraiser
• Once the report is completed, upload your report into the WEBLGY VA
system. Include a copy of your invoice with your report (per VA guidelines).
Once your report has been reviewed and the NOV has been issued, a copy of
your invoice will be sent to the proper department for processing. Please
allow 20 business days to receive a check. At this time, there is no need to
email a copy of your invoice to Wells Fargo
 This statement should be in each email/fax sent to the appraiser
• Should you require guidance in completing your report, Please contact your
Regional Loan Center

•

Should the Attorney’s office require assistance during the process, they should contact their Liaison.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 132
177

926a

Email Addresses and Phone #’s to each Regional Loan Center
•
•
•
•
•
•
•
•
•
•

Atlanta – Georgia, N and S Carolina, Tennessee
o 316lgycnv@vba.va.gov
o 888-768-2132
Cleveland – Delaware, Indiana, Michigan, New Jersey, Ohio, Pennsylvania
o 325cnv@vba.va.gov
o 800-729-5772
Denver – Alaska, Colorado, Idaho, Montana, Oregon, Utah, Washington, Wyoming
o 39/va262@vba.va.gov
o 888-349-7541
Honolulu – Hawaii
o No email
o 808-433-0480
Houston – Arkansas, Louisiana, Texas, Oklahoma
o cv49.vbahou@va.gov
o 888-232-2571
Manchester – Connecticut, Massachusetts, Maine, New York, Rhode Island, Vermont
o nh_appr@vba.va.gov
o 800-827-6311
Phoenix – Arizona, California, Nevada, New Mexico
o vavbapho/ro/cvgc@vba.va.gov
o 888-869-0194
Roanoke – Washington DC, Kentucky, Maryland, Virginia and W. Virginia
o vavbaroa/ro/cv@va.gov
o 800-933-5499
St. Paul – Illinois, Iowa, Kansas, Minnesota, Missouri, Nebraska, N and S Dakota, Wisconsin
o vaappraisal.stpaul@va.gov
o 800-827-0611
St. Petersburg – Alabama, Florida, Mississippi
o fl/homeloan@vba.va.gov
o 888-611-5916

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 133
178

927a

Exhibit A

Exhibit B

Exhibit C
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 134
179

928a

Exhibit D

Exhibit E1

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 135
180

929a

Exhibit E2

Exhibit E3 (Split in 2 separate screen)

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 136
181

930a

Exhibit E4

Exhibit E5

Exhibit E6
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 137
182

931a

Exhibit E7

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 138
183

932a

Exhibit E8

Exhibit F

Exhibit G

Fax
Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 139
184

933a

New VA Appraisal
To: VA Appraiser
office name

From: Attorney’s

Fax: VA Appraiser’s fax #
fax #

Fax: Attorney’s

Phone #: VA appraiser’s phone #
Attorney’s main office #

Phone #:

Subject: New VA SAP Liquidation Appraisal VA case # xx-xx-x-xxxxxxx








Date:

Homeowner’s Name
Phone # (if applicable, if a phone # is not available, state “Phone # for the homeowners is not available)
If additional information is required by the appraiser, the VA appraiser should email or call the contact
information in box 29 on the 1805
If the subject property is occupied and 3 attempts to gain interior access can be documented, an exterior
inspection can be completed. If you feel the property is vacant (with the exception of Florida) an interior
inspection must be completed unless written permission from your Regional Loan Center has been
obtained. Should you require interior access, please refer to box 29 in the 1805 for all contact information
Once the report is completed, upload your report into the WEBLGY VA system. Include a copy of your
invoice with your report (per VA guidelines). Once your report has been reviewed and the NOV has been
issued, a copy of your invoice will be sent to the proper department for processing. Please allow 20
business days to receive a check. At this time, there is no need to email a copy of your invoice to Wells
Fargo

Should you require additional assistance in completing your appraisal report, please contact your
Regional Loan Center

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 140
185

934a

Appendix Q – Lien Release Requests/ Subordinations
Lien Release Requests


Wells Fargo Home Mortgage and Wachovia Mortgage release requests should be
submitted via fax to 866-278-1179. A phone number to contact for follow up is 800-5723358. Standard processing timeframes are approximately 20 business days.



Wells Fargo Home Equity line release requests should be faxed to 866-359-9195 Attn:
Billings Paid Loan Research. A phone number for follow up is 866-255-9102



Wells Fargo Financial lien release requests should be faxed to 877-536-5411. Follow up
phone number is 800-346-3009.



Wachovia Commercial Loan lien release requests should be faxed to 704-427-6383, Attn:
Commercial Paid Loan Processing



Wachovia Home Equity line release requests should be requested from their lien release
research department. There is not an available fax number to submit, however, below is
the address and phone number to contact them:
Wachovia Bank
Lien Release Research
7711 Plantation Rd
MAC Code R4058-030
Roanoke, VA 24019
Phone: 800-669-8887



Wachovia Construction Loan lien release requests for the state of FL should be submitted
via fax to 866-890-1334. Follow up phone number is 866-890-1333.



Wachovia Construction Loan lien release requests for the state of VA should be requested
from their lien release research department. There is not an available fax number to
submit, however, below is the address and phone number to contact them:
Wachovia Bank
Lien Release Research
7711 Plantation Rd
MAC Code R4058-030
Roanoke, VA 24019
Phone: 800-669-8887

Subordination/Position Change Requests



Upon receipt of the title search,, if you identify an outstanding WF/Wachovia lien that has a
balance and needs to be subordinated, please proceed with the following:

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 141
186

935a

a. Complete the Wells to Wells subordination checklist (Please see Page 3 of Appendix R)
b. Please ensure the title search that will be attached is current (within 6 months)
c.

The following documents need to be attached with the checklist: HUD-1 from origination of
the loan that should be in first position, the recorded mortgage or DOT for the WFHM lien,
and the above mentioned title search.

d. The Subordination/Positions Changes group will prepare/execute the subordination
agreement. Sending a subordination agreement already prepared will not expedite the
process.
e. The $100 fee is not applicable on Wells to Wells subordinations

f.

Ensure that you complete the shipping account information so the completed checklist can
be sent to your attention for recording.
st

g. The 1 Lien information at the bottom, should include the loan information for the lien that
should be in first position. A detailed explanation needs to be included as well.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 142
187

936a

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 143
188

937a

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 144
189

938a

Appendix R – Escalated Foreclosure Contacts
Areas Handled

Losses and Investor
Audits

Rescissions, 55F,
Reinstatements,
Personal Checks,
and Data 19

Contact
Losses-Amanda Fazio
Email: Amanda.S.Fazio@wellsfargo.com
Phone: (803) 370-6025
Audits-Sonya Taylor
Email: Swething@wellsfargo.com
Phone: (803) 396-6433
Rescissions-Samone Williams
Email: Samone.Williams@wellsfargo.com
Phone: (803) 396-6834
All Other Areas-Sonya Johnson
Email: Sonya.Johnson@wellsfargo.com
Phone: (803) 396-7565

Audits and Attorney
Audits
Equity Analysis and
Charge Offs

Steven Patrick
Email: Steven.M.Patrick@wellsfargo.com
Phone: (803) 396-6233

Wells Fargo Financial
(WFF)

Wells Fargo Home
Equity (WFHE)

Escalated HAMP
Certification/Status

Pre-Judgment
Affidavits

Nathan Remington
Email: Nathan.Remington@wellsfargo.com
Phone: (952) 562-1834
Tim Engle
Email: Tim.Engle@wellsfargo.com
Phone: (952) 562-1829
HAMPPresale@wellsfargo.com

Judgment.Affidavit@wellsfargo.com

Post Judgment
Affidavits

Doc.Execution@wellsfargo.com

PA Reassessment
Affidavits

FCDocumentExecutionEscalation@wellsfar
go.com
(include PA Reassessment Affidavit in the
subject line of the email)

Non-Figure Affidavits
and Misc. Affidavits

Affidavitsdoc@wellsfargo.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Supervisor

Yolanda Williams
Email:
Yolanda.Williams@wellsfargo.com
Phone: (803) 396-6890

Stacey Gallagher
Email:
Stacey.Gallagher@wellsfargo.com
Phone: (803) 396-4258
Ashleigh Jackson
Email:
Ashleigh.J.Jackson@wellsfargo.com
Phone: (803) 370-4049
Kevin Marks
Email: Kevin.Marks@wellsfargo.com
Phone: (803) 396-7431
Ashleigh Jackson
Email:
Ashleigh.J.Jackson@wellsfargo.com
Phone: (803) 370-4049
Liquenda Allotey
Email:
Liquenda.Allotey@wellsfargo.com
Phone: (952) 562-1802

Matthew Depolo
Email:
Matthew.Depolo@wellsfargo.com
Phone: (803) 835-9219
Debbie Franklin
Email:
Debbie.Franklin@wellsfargo.com
Phone: (704) 374-6080
Judy Thompson
Email:
Judith.Thompson@wellsfargo.com
Phone: (714) 571-2364

Amy Cahall
Email: Amy.C.Cahall@wellsfargo.com
Phone: (803) 396-6674
Page 145
190

939a

Escalated Foreclosure Contacts (Continued)

Deeds

Deeddoc@wellsfargo.com

Amy Cahall
Email: Amy.C.Cahall@wellsfargo.com
Phone: (803) 396-6674
Molly Bejblik
Email:
Molly.M.Bejblik@wellsfargo.com
Phone: (651) 605-7612

Assignments

Substitution of
Trustee (SOT)

Complaint
Verifications
(Pennsylvania)

Complaint
Verifications
(Florida Firms)

Complaint
Verifications
(All other states)

FDAssignmentDesk@wellsfargo.com

SOTdoc@wellsfargo.com

Sarah Pierce
Email:
Sarah.A.Pierce@wellsfargo.com
Phone: (651) 605-3717
Thresa A. Russell
Email:
Thresa.A.Russell@wellsfargo.com
Antonio Melendez
Email:
Antonio.Melendez@wellsfargo.com
Phone: (714) 571-2340
Roxanne Hulbert
Email:
Roxanne.Hulbert@wellsfargo.com
Phone: (714) 571-2343

Doc.Execution@wellsfargo.com

Lydia Vidriales
Email:
Lydia.Vidriales@wellsfargo.com
Phone: (714) 571-2356

FLDeclaration@wellsfargo.com

Antonio Melendez
Email:
Antonio.Melendez@wellsfargo.com
Phone: (714) 571-2340
Marc Kline
Email: Marc.Kline@wellsfargo.com
Phone: (240) 586-8251
Katherine Magabo
Email:
Katherine.Magabo@wellsfargo.com
Phone: (704) 383-0533

FCDocumentExecutionEscalation@wellsfar
go.com

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Kimberly Anderson
Email:
Kimberly.Anderson@wellsfargo.com
Phone: Not Available

Page 146
191

940a

Appendix S – Blanket Fee Approval Matrix
I-clear
line item

11118

Service

FHLMC & FNMA
Investor

Non
FHLMC &
FNMA
Investor

Recoverability

Approval required
from FHLMC/ FNMA

$0 to
$150

Recoverable

Obtain Documents Needed For
Legal Action Not In Clients
Possession

No Charge

No
Charge

N/A

Draft Assignment Fee

No Charge

No
Charge

Non Recoverable

Shorten Redemption
•

n/a

12247
recording
fee

Over 45 days only

Assignment Recording Costs

Actual out of pocket
costs w/supporting
documentation

11181

Lost Note Affidavits

$0 to $50.00

$0 to $50

Non Recoverable

19121

Title Issues Including Recording
Costs

$0 to $150.00

$0 to
$150

Non Recoverable

11117

Contested Foreclosures / MSJ

Approval required
from FHLMC/FNMA

$0 to
$750

Recoverable

Approval required
from FHLMC/FNMA

Approval
required
from
servicer

Recoverable

Approval required
from FHLMC/FNMA

$100

Recoverable

Refer to Direct
Source Manual

Refer to
Direct
Source
Manual

Non Recoverable

Approval required
from FHLMC/FNMA

$0 to
$1750

Recoverable

•

11184

Amend Judgment
•
•

11182

Note if allegations are due
to improper attorney
actions, there will be no
approval for charges to
Wells Fargo.
For servicer advances of
$2K or less do not amend
judgment.
For servicer advances
greater than $2K, prior
approval is required.

Amend Complaint
•

note if amendment is due
to improper attorney
actions, there will be no
approval for charges to
Wells Fargo

19328

Cure Mobile Home Issues

19163

Probate Matters

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 147
192

941a

11116

Reset Sale

Approval required
from FHLMC/FNMA

$0 to
$250

Recoverable

11120

Postponements

Approval required
from FHLMC/FNMA

$0 to
$150

Recoverable

11183

Home Owner Association

Approval required
from FHLMC/FNMA

$0 to
$350

Recoverable

Affirmative Action (Florida Only)

(Florida
only)
19332

Mediation

Approval required
from FHLMC/FNMA

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

$0 to
$550

Recoverable

Page 148
193

942a

Appendix T – Collateral File Ordering Procedure

Collateral File Ordering Procedure
The purpose of the Collateral File Ordering Procedure is to provide a unified format that will eliminate
unnecessary mistakes and enable us to get required information to consistently fulfill collateral file requests
accurately and efficiently from the request form.

References
The Collateral File Request Form must be used to request collateral files. The Form and Procedures can be
found on the auto reply of the DocOrderingHMEC mailbox.
NUMBER
1

DESCRIPTION
Collateral File Request Form

Document Ordering Process Steps
If files need to be sent to multiple attorneys, a new spreadsheet needs to be requested for each mailing
address. However, if several documents need to be ordered for the same attorney, complete one spreadsheet.
To ensure the accuracy of information and timeliness in ordering documents, please use the following steps:
STEP

ACTION

1

Open the Collateral File Request Form from the team mailbox

2

Complete the Requestor Information fields

3

Complete the Loan Information fields

LOAN INFO
Client #

4

Loan #

Complete the Items Requested fields

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 149
194

943a

5

The section below is for INTERNAL USE ONLY. It will auto populate.
Complete the form thoroughly and the columns below will automatically populate as information is
entered in the Items Requested section.

ORDER STEPS
REVIEW:
ORDER

COL PKG:
REQ IMG

DOC TYPE:
NOT IN COL
FILE

CLARIFICATION TEXT

6

Important! DO NOT modify or change the format of this document.

7

Once completed, forward the request form to DocOrderingHMEC@wellsfargo.com.

Revision Control History
Date of Revision

Description of Change

02/03/2012

Establish how to access DTS; Revised Appendix T, “Collateral File Ordering
Procedure”; Update instructions to return recorded AOMs; Corrected one e-mail
address with error.

01/17/2012

Placed in new template which resulted in some sections now appearing at beginning of
document and eliminating some sections.

01/17/2012

Updates made per Change Control#554: Appendix S was updated BLANKET FEE
APPROVAL MATRIX, Change Control #1954: T66 step implementation and
Change Control #1955:– Foreclosure document execution.

Foreclosure Attorney Procedures Manual – internal use only
This is intended only for privileged confidential use

Page 150
195

